U.S. DEPARTMENT       OF   COMMERCE
  PERFORMANCE & ACCOUNTABILIT Y REPORT




                           F i s cal   Y ear




                         2011
                                              D E PA R T M E N T O F C O M M E R C E W E B A D D R E S S E S

                                                    FOR PLANNING AND PERFORMANCE

Department of Commerce                                Bureau of Economic Analysis                                         National Technical Information Service
http://www.commerce.gov/                              http://www.bea.gov                                                  http://www.ntis.gov/

Department of Commerce Strategic Plan,                ◆◆   BEA’s Mission, Vision, Values, and Role                        U.S. Patent and Trademark Office
Performance Reports and Performance Plans                  http://bea.gov/about/mission.htm                               http://www.uspto.gov
http://www.osec.doc.gov/bmi/budget/budgetsub_
perf_strategicplans.htm                               ◆◆   BEA Strategic Plan for FY 2010-FY 2014                         ◆◆   Performance and Accountability Report
                                                           http://bea.gov/about/pdf/strategic_plan_matrix_2010-2014.pdf        http://www.uspto.gov/web/offices/com/annual/
Economic Development Administration
Annual Reports                                        ◆◆   Release Dates for 2011                                         ◆◆   President’s Budget and Strategic Plan
http://www.eda.gov/AboutEDA/Annualreport.xml               http://www.bea.gov/newsreleases/news_release_sort_                  http://www.uspto.gov/web/offices/ac/comp/
                                                           national.htm                                                        budg/index.html
International Trade Administration
Strategic Plan                                        National Institute of Standards and Technology                      National Telecommunications and Information
http://trade.gov/pdfs/ITA_stratplan2007.pdf                                                                               Administration
                                                      ◆◆   NIST Performance Evaluation                                    Annual Reports
Minority Business Development Agency                       http://www.nist.gov/director/planning/impact_assessment.cfm    http://www.ntia.doc.gov/ntiahome/annreports.html
Portal/Annual Report
http://www.mbda.gov                                   ◆◆   NIST Strategic Planning                                        National Oceanic and Atmospheric
                                                           http://www.nist.gov/director/planning/planning.cfm             Administration
Bureau of Industry and Security                                                                                           Strategic Planning and Performance
Annual Report                                         ◆◆   NIST Technology Innovation Program                             http://www.ppi.noaa.gov/about-us/
http://www.bis.doc.gov/                                    http://www.nist.gov/tip/
                                                                                                                          Office of Inspector General
Census Bureau                                         ◆◆   NIST Manufacturing Extension Partnership – Making a            http://www.oig.doc.gov/
http://www.census.gov                                      Difference Brochure 
                                                           http://www.mep.nist.gov/impacts/making-a-difference.pdf
Economics and Statistics Administration
http://www.esa.doc.gov/




                                                B U D G E T A N D P E R F O R M A N C E C O N TA C T S

Departmental Management                               Economics and Statistics Administration/                            U.S. Patent and Trademark Office
   Bill Tatter, btatter@doc.gov,                      Bureau of Economic Analysis                                            Robert Fawcett, robert.fawcett@uspto.gov,
   	 202-482-5979                                     	 Douglas Follansbee, dfollansbee@doc.gov,                             	 571-272-7006
   William Tootle, wtootle@doc.gov,                      	 202-482-5103
   	 202-482-4891                                                                                                         National Institute of Standards and Technology
                                                      International Trade Administration                                     Francisco Balicao, francisco.balicao@nist.gov,
Office of Inspector General                               Matthew Bright, matthew.bright@trade.gov,                          	 301-975-5510
    John Webb, jwebb@oig.gov,                             	 202-482-3504                                                     Jason Boehm, jason.boehm@nist.gov,
    	 202-482-1719                                                                                                           	 301-975-8678
	 Kathleen Frampton, kframpton@oig.doc.gov,           Bureau of Industry and Security
                                                         Gay Shrum, gay.shrum@bis.doc.gov,                                National Technical Information Service
    	 202-482-4530
                                                         	 202-482-1058                                                      Angie Martin, amartin@ntis.gov,
Economic Development Administration                      Brad Burke, brad.burke@bis.doc.gov,                                 	 703-605-6455
   Hilary Sherman, hsherman@eda.doc.gov,                 	 202-482-6006                                                      Mary Houff, mhouff@ntis.gov,
   	 202-482-3357                                                                                                            	 703-605-6611
   Kerstin Millius, kmillius@eda.doc.gov,             Minority Business Development Agency
                                                                                                                          National Telecommunications and Information
   	 202-482-3280                                        Ron Marin, rmarin@mbda.gov,
                                                                                                                          Administration
                                                         	 202-482-3341
Census Bureau                                                                                                             	 Charles Franz, cfranz@ntia.doc.gov,
   James.S.Belton, james.s.belton@census.gov,         National Oceanic and Atmospheric Administration                        	 202-482-1826
   	 301-763-3593                                        Heidi Keller, heidi.keller@noaa.gov,
   Camellia Burris, camellia.burris@census.gov,          	 202-482-2855
   	 301-763-3145




                              For additional copies of the FY 2011 Performance and Accountability Report, please contact
             the Department of Commerce, Office of Budget, 202-482-4648, or refer to the people noted above under Departmental Management.
U.S. DEPARTMENT       OF   COMMERCE
  PERFORMANCE & ACCOUNTABILIT Y REPORT




                      F i s cal   Y ear




                      2011
                                       T H E D E PA RT M E N T AT A G L A N C E

History and Enabling Legislation                                        Strategic Themes

The Department of Commerce was originally established by                Programmatic Themes
Congressional Act on February 14, 1903 as the Department                ■	 Economic Growth
of Commerce and Labor (32 Stat. 826; 5 U.S.C. 591) and was              ■	 Science and Information




                                                                                                                                    Mik
subsequently renamed the U.S. Department of Commerce by
                                                                        ■	 Environmental Stewardship
President William H. Taft on March 4, 1913 (15 U.S.C. 1512). The
defined role of the new Department was “to foster, promote,             Management Themes
and develop the foreign and domestic commerce, the mining,
                                                                        ■	 Customer Service




                                                                                                                                     Fi
manufacturing, and fishery industries of the United States.”
                                                                        ■	 Organizational Excellence
                                                                        ■	 Workforce Excellence
Mission
                                                                        Location
The Department of Commerce creates the conditions for
economic growth and opportunity by promoting innovation,
                                                                        The Department is headquartered in Washington, D.C., at the
entrepreneurship, competitiveness, and stewardship.
                                                                        Herbert Clark Hoover Building, which is located on eight acres
                                                                        of land covering three city blocks. The Department also has field
                         Program Bureaus                                offices in all states and territories and maintains offices in more
                                                                        than 86 countries worldwide.
  ■	     Economic Development Administration (EDA)
  ■	     Economics and Statistics Administration (ESA)                  Employees
         ●	 Bureau of Economic Analysis (BEA)

         ●	 Census Bureau                                               As of September 30, 2011, the Department had approximately
  ■	     International Trade Administration (ITA)                       48,000 employees.
  ■	     Bureau of Industry and Security (BIS)
  ■	     Minority Business Development Agency (MBDA)                    Financial Resources
  ■	     U.S. Patent and Trademark Office (USPTO)
  ■	     National Institute of Standards and Technology (NIST)          The Department’s FY 2010 and FY 2011 budgets were approxi-
         ●	 National Technical Information Service (NTIS)
                                                                        mately $7.9 billion and 5.7 billion respectively (budget authority).
  ■	     National Telecommunications and Information
         Administration (NTIA)                                          Internet
  ■	     National Oceanic and Atmospheric Administration
         (NOAA)                                                         The Department’s Internet address is www.commerce.gov.




    II                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
k e -
ix




   F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                               III
     Table of Contents
     Statement from the Secretary	                                                                                         VI
     How to Use this Report	                                                                                               XI

     Management’s Discussion and Analysis 	                                                                                 1

     Mission and Organization	                                                                                              2
     FY 2011 Performance and Financial Highlights	                                                                          3
     The Department of Commerce Process for Strategic Planning and Performance Reporting	                                   7
     Performance, FTE, and Funding Summary 	                                                                              17
     Management Controls 	                                                                                                27
       Federal Managers’ Financial Integrity Act (FMFIA) of 1982 	                                                        28
       Federal Financial Management Improvement Act (FFMIA) of 1996 	                                                     34
       Report on Audit Follow-up 	                                                                                        34
       Biennial Review of Fees	                                                                                           34
     American Recovery and Reinvestment Act (ARRA) of 2009 Programs	                                                      35
     Priority Goals	                                                                                                      49

     FY 2011 Performance Section	                                                                                          61

     Theme 1: Economic Growth 	                                                                                           63
       Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies, and
                       technologies critical to transforming our economy, fostering U.S. competitiveness,
                       and driving the development of new businesses (USPTO, EDA, NIST, NTIA) 	                           67
       Strategic Goal – Market Development and Commercialization: Foster market opportunities that equip
                       businesses and communities with the tools they need to expand, creating quality jobs
                       with special emphasis on unserved and underserved groups (EDA, MBDA, ITA, NIST) 	                  88
       Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness and foster
                       domestic job growth while protecting American security (ITA, BIS, NTIA)	                          100
     Theme 2: Science and Information	                                                                                   115
       Strategic Goal: Generate and communicate new, cutting-edge scientific understanding of
                       technical, economic, social, and environmental systems (NTIS, NTIA, ESA/CENSUS,
                       ESA/BEA, NOAA) 	                                                                                  117
     Theme 3: Environmental Stewardship 	                                                                                137
       Strategic Goal: Promote economically-sound environmental stewardship and science (NOAA)	                          139
     Theme 4: Customer Service 	                                                                                         159
       Strategic Goal: Create a culture of outstanding communication and services to our internal and
                       external customers (DM)	                                                                          159




IV                                      F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
   Theme 5: Organizational Excellence 	                                                                 163
      Strategic Goal: Create a high-performing organization with integrated, efficient, and effective
                        service delivery (DM, OIG)	                                                     163
   Theme 6: Workforce Excellence	                                                                       170
      Strategic Goal: Develop and support a diverse, highly qualified workforce with the right skills
                        in the right jobs to carry out the Department’s mission (DM)	                   170



   FY 2011 Financial Section	                                                                           177

   Message from the Chief Financial Officer	                                                            178
   Financial Management and Analysis 	                                                                  179
   Debt Management 	                                                                                    187
   Payment Practices 	                                                                                  189
   Analysis of FY 2011 Financial Condition and Results 	                                                190
   Limitations of the Financial Statements 	                                                            194
   Principal Financial Statements 	                                                                     195
      Consolidated Balance Sheets 	                                                                     197
      Consolidated Statements of Net Cost 	                                                             198
      Consolidated Statements of Changes in Net Position 	                                              199
      Combined Statements of Budgetary Resources 	                                                      200
   Notes to the Financial Statements 	                                                                  201
   Consolidating Balance Sheet 	                                                                        263
   Required Supplementary Information 	                                                                 267
   Required Supplementary Stewardship Information 	                                                     275
   Independent Auditors’ Report 	                                                                       291

   Appendices	                                                                                          303

   Appendix A: Performance and Resource Tables	                                                         305
   Appendix B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans	   356
   Appendix C: Stakeholders and Crosscutting Programs	                                                  374
   Appendix D: 2011 Management Challenges and Actions Taken	                                            375
   Appendix E: 2012 Management Challenges	                                                              401
   Appendix F: Improper Payments Information Act (IPIA) of 2002, as Amended, Reporting Details 	        439
   Appendix G: Summary of Financial Statement Audit and Management Assurances 	                         446
   Appendix H: Undisbursed Balances in Expired Grant Accounts 	                                         447
   Appendix I: Glossary of Key Acronyms 	                                                               449




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                              V
S tatement from the S ecretar y




      Statement from the Secretary

                                                          I  
                                                                 am pleased to present the Department of Commerce’s fiscal year (FY)
                                                                 2011 Performance Accountability Report (PAR). The PAR highlights
                                                                 the Department’s accomplishments and the challenges we faced in
                                                          FY 2011, as well as provides information on our financial management and
                                                          performance. The Department helps make U.S. businesses more innovative
                                                          for economic growth and opportunity. Every day, the Department promotes
                                                          innovation, entrepreneurship, competitiveness, and stewardship informed
                                                          by world-class scientific research and information. The Department achieves
                                                          its mission through its 12 bureaus in partnership with U.S. businesses.

                                                           Through weather forecasts, climate and ocean monitoring, marine resource
      management, and support for marine commerce, the National Oceanic and Atmospheric Administration’s (NOAA) services
      have a daily impact on our lives and U.S. commerce. The Economics and Statistics Administration (ESA), including the Census
      Bureau and the Bureau of Economic Analysis (BEA), provides the economic and demographic information necessary to evaluate
      growth, understand markets, and make sound decisions for the future. The National Telecommunications and Information
      Administration (NTIA), through broadband grants and spectrum reform, is expanding the information highway to propel job growth
      and competitiveness. The National Institute of Standards and Technology (NIST) and U.S. Patent and Trademark Office (USPTO)
      are critical to supporting innovation and advancing U.S. commerce. Economic development and commercialization activities
      supported by the Economic Development Administration (EDA) and the Minority Business Development Agency (MBDA) turn
      ideas into jobs. Export promotion and economic security activities at the International Trade Administration (ITA) and the Bureau
      of Industry and Security (BIS) directly support our Nation’s international competitiveness and help U.S. companies sell more of
      what they make in countries around the world.

      Our FY 2011 accomplishments and our challenges are highlighted within the three programmatic themes of our strategic plan:
      Economic Growth, Science and Information, and Environmental Stewardship.


      Economic Growth

      The Department, through ITA continued to strengthen the economy by promoting exports and protecting against unfair trade
      practices. ITA assisted over 20,000 companies with export transactions worth over $54 billion. Additionally, ITA successfully
      removed 56 trade barriers in 31 different countries that have directly benefitted U.S. industry and competitiveness, and has
      issued 268 anti-dumping and countervailing duty determinations covering a variety of products. ITA also continues to assist
      small and medium-sized businesses to compete in international markets through counseling and innovative programs like the
      Market Development Cooperator Program. On average, every government dollar invested in this program has generated $172
      of exports.

      In FY 2011, EDA led a number of successful efforts to coordinate federal resources and streamline processes and procedures.
      EDA championed two interagency funding competitions in FY 2011: the i6 Green challenge and the Jobs and Innovation
      Accelerator Challenge. The i6 Green Challenge combines the resources of six different agencies in order to encourage and
      reward innovative approaches to accelerating technology commercialization, new venture formation, job creation, and economic
      growth across the United States. The Jobs and Innovation Accelerator Challenge leveraged the resources of 16 different federal
      agencies to support the development and implementation of locally driven economic development strategies that foster the
      development of high-growth clusters and accelerate the benefits of regional innovation cluster-based economic development.
      EDA also implemented an overhaul of its grant award process in order to enhance the transparency of its decision-making
      process and to provide applicants with information on the status of their application as quickly as possible. EDA now provides


 VI                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                        S tatement from the S ecretar y



winners of its quarterly funding competitions with letters of non-binding commitment within 20 business days of its quarterly
competition deadline. EDA is also committed to providing feedback to any prospective applicant on the application merits and
deficiencies of their application within 15 business days of submission to EDA.

MBDA promotes the ability of minority businesses to succeed in the local, national, and global economies. MBDA continued its
upward trend of increasing contract and financial awards, rising from $1.6 billion in FY 2005 to $3.5 billion in FY 2011. One of
MBDA’s goals is to increase the number of new job opportunities. In that regard, MBDA has increased the number of new jobs
created from 2,270 in FY 2005 to 4,200 in FY 2011.

In FY 2011, the President announced that the Administration released a series of regulations and requests for comment as part of
the implementation of the new U.S. export control system. The Administration also deployed its Export Control Reform Initiative
Web page at www.export.gov. This Web page features the government’s first-ever consolidated electronic screening list, which
will enhance exporter compliance. Prior to this release, exporters had to check different lists published in different formats,
maintained by different departments, or read the Federal Register every day for names that are not published on any list, to
ensure they were not exporting to someone who is sanctioned or otherwise requires special scrutiny before receiving U.S. origin
goods. For the first time, exporters can download a single electronic list of the literally thousands of names maintained across
the U.S. government for whom there is an export control restriction or special requirement. This will provide significant time-
saving and compliance benefits, particularly to small businesses. All these steps—more clearly identifying what is controlled,
how it is controlled, and how to screen to ensure that items do not end up where they should not—are tangible results in
implementing the Administration’s common sense approach to export controls. This clarity ensures that our export control
system works as it was intended, as a key tool in protecting our national security.

BIS is currently helping to implement the long-term goals of the Export Control Reform Initiative. In the near term, the initiative
will result in the transfer of a significant number of export-controlled items from the jurisdiction of the State Department’s
Directorate of Defense Trade Controls to BIS. BIS will need to increase its outreach efforts to educate exporters about changes
in export control regulations and provide the necessary guidance to ensure compliance with new regulations.

With a focus on measurement science, standards, and technology, the laboratories and programs of NIST provide the tools and
infrastructure critical to enable the innovation, development, and deployment of advanced technologies. In the area of healthcare
NIST published a set of approved procedures for testing information technology (IT) systems for electronic health records which
are necessary to create confidence in and accelerate deployment of the technology. NIST also issued draft recommendations
for securely configuring and using technologies for cloud computing. The federal Chief Information Officer asked NIST to lead
government efforts on developing standards for data portability, cloud interoperability, and security. NIST researchers also
developed the world’s most advanced low-temperature scanning probe microscope with unprecedented energy resolution for
uncovering key properties of grapheme, which is highly anticipated to play a revolutionary role in the future of devices such as
computers and batteries. NIST continued its contributions to enhance building, occupant, and firefighter safety nationwide by
issuing 11 new recommendations for building and fire codes at state and local levels based on its detailed investigation of the
Sofa Super Store fire (Charleston, SC, 2007). To strengthen the competitiveness of our Nation’s domestic manufacturing base,
the NIST Hollings Manufacturing Extension Partnership (MEP) provided a range of tools and services which supported its clients,
primarily small manufacturers, in generating an estimated $2.8 billion in increased sales, $1.8 billion in capital investment, and
$1.4 billion in cost savings during FY 2010 (MEP results have a one-year time lag). The NIST Technology Innovation Program
(TIP) supported small and medium-sized businesses in their pursuit of high-risk, high-reward research in areas of critical national
need, including civil infrastructure and manufacturing, by leveraging a federal investment of $136 million in 38 grants since the
program’s inception for a total investment of $280.0 million, including awardee cost-share contributions.

NTIA, in collaboration with the Federal Communications Commission, launched the National Broadband Map on February 17,
2011. This map publicly displays the geographic areas where broadband service is available; the technology used to provide the
service; the speeds of the service; and broadband service availability at public schools, libraries, hospitals, colleges, universities,
and public buildings. NTIA created DigitalLiteracy.gov, in partnership with nine federal agencies, to provide librarians, teachers,
workforce trainers, and others a central location to share digital literacy content and best practices. Anyone can use the Web


F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          VII
S tatement from the S ecretar y




        site to identify the skills needed for various jobs, locate suitable training, and search for employment. The Broadband Technology
        Opportunities Program is on track to meet—and in most cases exceed—its program goals, delivering significant progress in
        areas such as infrastructure construction, computer center launches, and delivery of training to new broadband users.

        NTIA participated with other Department operating units in the Internet Policy Task Force (IPTF), which is conducting comprehensive
        reviews of the nexus between privacy policy, copyright, global free flow of information, cybersecurity, and innovation in the
        Internet economy. In December 2010, the IPTF released a privacy report with initial recommendations, outlining a framework to
        increase protection of consumers’ data while supporting innovation and evolving technology. One of the recommendations was
        the adoption of baseline privacy principles concerning how online companies collect and use personal information, a consumer
        online “bill of rights.”

        In order to strengthen the very infrastructure that marshals new innovation to the marketplace, USPTO made important strides
        in FY 2011. USPTO undertook a series of initiatives to improve the speed and quality of patent processing, in an ongoing effort
        to further strengthen its examination capacity. USPTO has also been aggressively re-engineering many systems and processes,
        including its internal IT systems. USPTO is working toward a 21st century system that is smarter, better, faster, and stronger
        for all stakeholders. For the first time in several years, the number of patent applications awaiting first action dropped below
        700,000—an important milestone that shows USPTO is helping to usher technological innovations from the drawing board into
        the economic sphere more quickly. USPTO also issued its 8,000,000th patent, an important signal of the technological vigor and
        creative industry underpinning a healthy and highly-productive U.S. intellectual property system. For the fifth consecutive year,
        Trademarks Office exceeded its pendency targets for first action and final disposition. Finally, patent reform legislation—passed in
        summer 2011 by Congress, and signed into law in September 2011 by the President—is pivotal to USPTO operations. The America
        Invents Act ensures that USPTO remains sufficiently resourced to modernize its IT infrastructure, hire more examiners, and
        swiftly implement new cost-effective provisions that will increase the efficiency and the quality of its patent system.


        Science and Information

        BEA and the Census Bureau continued to upgrade the quality and availability of critical economic and demographic information
        for policymakers, business leaders, and the public. After successfully completing the field operations for the 2010 Decennial
        Census, the Census Bureau compiled the data to determine the final population counts of each state and the Nation and released
        it on December 21, 2010. Population data from the Decennial Census, which is mandated by the Constitution, supports the
        reapportionment of Congress as well as state and local legislative bodies, and is also used to allocate over $400.0 billion in annual
        federal program funds. The Census Bureau completed the 2010 Census more than $1.7 billion under budget, largely due to
        exceeding the estimated mail-back response rate and higher worker productivity.

        In FY 2011, for the first time ever, the American Community Survey released five-year estimates, comprised of data collected from
        2005 to 2009. These estimates are now available for every state, county, city, town, place, American Indian Area, Alaska Native
        Area, and Hawaiian Home Land, as well as for census tracts and block groups. In FY 2011, the Census Bureau released nearly
        400 economic reports, including 120 principal economic indicators. Responses to censuses and surveys provide information on
        a wide range of activities, industries, and outputs. All targeted current survey programs achieved their response rate targets for
        FY 2011. In April 2011, the Census Bureau introduced a new profile of U.S. importing companies to complement the existing
        profile of U.S. exporting companies. The profile provides information on the value of goods imported and number of importing
        companies, based on several company characteristics, for the years 2008 and 2009. This new report provides information never
        before available about the U.S. import trade market, and introduces new capabilities to analyze companies that participate in
        importing and exporting.

        In FY 2011, ESA released reports on women’s economic and social well being, foreign direct investment, intellectual property
        and patent reform, broadband usage, and STEM (science, technology, engineering, and math) employment. Economic indicators
        are now released on Twitter. ESA also launched a blog in an effort to improve economic literacy and help journalists and the
        public better understand data releases.


 VIII                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                      S tatement from the S ecretar y




One of BEA’s primary goals in 2011 was to maintain and improve the relevance and usefulness of its economic accounts.
It successfully released the 2011 flexible annual revision, which included several important improvements to the National
Income and Product Accounts. BEA also continued its multi-year efforts to improve its international economic accounts by
aligning them with international standards. It released the annual revision of the U.S. International Transactions Accounts,
which included improvements in classifications within services as well as the exclusion of expenditures of foreign nationals
working at international organizations in the United States. BEA continues to develop significant improvements to economic
measures of health care. It also launched an updated, more user-friendly Web site that includes new interactive tables and
charts. The new Web site makes BEA’s data products easier to access and provides greater transparency of U.S. economic
statistics to customers.

In 2006, NOAA introduced the annual Arctic Report Card, establishing a baseline of conditions at the beginning of the 21st
century to monitor the quickly changing conditions in the Arctic. This year’s report, released on October 21, 2010, found that the
Arctic region continues to heat up, affecting local populations and ecosystems as well as weather patterns in the most populated
parts of the Northern Hemisphere. Greenland is experiencing record-setting high temperatures, ice melt, and glacier area loss;
summer sea ice continues to decline; and sea ice thickness continues to thin.

In 2011, the National Climatic Data Center released the 1981-2010 Climate Normals, which serve as a point of reference
for typical climate conditions at a given location. Normals are three-decade averages of numerous climatological variables,
most notably temperature and precipitation, and are used by numerous stakeholders such as builders, insurers, and engineers
for planning and risk management; energy companies to predict fuel demand; farmers to help make decisions on both crop
selection and planting times; and agribusinesses to monitor departures from normal conditions throughout the growing season
and to assess past and current crop yields. This once-a-decade release updates the Normals for more than 7,500 locations
across the United States.


Environmental Stewardship

NOAA’s major coastal goal is to enable the advancement of resilient coastal communities and economies. Given the current
economic challenges, this strategic focus on coastal communities is critical. In FY 2011, NOAA’s authoritative environmental
and geospatial data advanced the marine transportation system, which is worth $742 billion and employs 13 million people, with
2,515 square nautical miles of hydrographic surveys in navigationally significant areas, and with the launch of a new nautical
chart system to significantly enhance maintenance and production of over 1,000 nautical charts when fully operational. NOAA’s
Lake Erie Experimental Harmful Algal Bloom forecasts protected public health in Ohio, and in the state of Washington minimized
economic impacts that have a potential to reach $22.0 million in losses when razor clam digging closures occur.

NOAA’s National Weather Service (NWS) exceeded warning performance targets for the May 22, 2011 violent tornado that
devastated a large portion of Joplin, MO. The Joplin tornado was the first single tornado in the United States to result in over
100 fatalities since the Flint, MI, tornado of June 8, 1953. NWS first forecasted severe weather for the Joplin area three days
in advance, and issued a Tornado Watch four hours prior to the tornado and a Tornado Warning with lead time of 19 minutes
before the tornado entered Joplin, which exceeded average warning lead times for all tornadoes by six minutes. While the early
warnings saved countless lives, improvements in science and technology are required in order to see further improvements in
warning lead times and build toward a more weather-ready Nation.

For each of the severe weather events in 2011, NWS forecasters relied upon proven operational and experimental models,
which have been rapidly advancing forecasting capabilities and helping the United States become a more weather-ready Nation.
More than nine hours before the Tuscaloosa tornado outbreak, NOAA Research’s High-Resolution Rapid Refresh (HRRR) model
accurately predicted the storms general location and severity. Hurricane Irene served as a real-world trial for the experimental
global weather model FFIM (flow-following, finite-volume icosahedral model), which skillfully forecasted Hurricane Irene’s track
and heaviest precipitation three days before the storm made landfall over North Carolina’s Outer Banks. Hurricane Irene also




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     IX
S tatement from the S ecretar y




     demonstrated the accuracy and utility of the experimental Coastal and Inland Flooding Observation and Warning (CI-FLOW)
     system that improves forecasts of inland and coastal flooding events and helps users to better react, respond, and recover.

     As a result of the Magnuson-Stevens Acts of 1976 and 2007, fisheries harvested in the United States today are scientifically
     monitored, regionally managed, and legally enforced under 10 national standards of sustainability. NOAA is on track to have
     annual catch limits and accountability measures in place for all 528 federally-managed fish stocks and complexes by the end of
     2011. NOAA’s annual Status of Stocks Report to Congress showed a 63 percent improvement from 2000-2010 in the Fish Stock
     Sustainability Index for the 230 most economically significant stocks, and also reported that three additional stocks have been
     rebuilt, bringing the total number of stocks rebuilt over the last 10 years to 21.


     Customer Service and Organizational Excellence and Workforce Excellence

     CommerceConnect extended its local reach to 17 locations across the country from Los Angeles, CA to Boston, MA.
     CommerceConnect made considerable progress in establishing an operational infrastructure to support the growth of the initiative,
     expand inter-bureau collaboration, and implement a Department-wide customer-oriented business model, including training over
     175 Department staff to participate in the initiative; engaging over 770 business clients (vs. 90 clients in FY 2010); and providing
     over 1,160 referrals (vs. 333 referrals in FY 2010) to Department and other federal, state, local, and non-profit programs that
     address their specific needs. Referrals are critically important because among other things they help companies obtain financing
     for operations and expansion, improve the efficiency of their operations, protect their intellectual property, increase their exports,
     access data and information for more effective decision-making, and a host of other activities critical to the Nation’s growth and
     economic prosperity. Approximately 75 percent of the referrals made have been acted upon by clients.

     The Department’s financial data and performance results for FY 2011 are provided together in this report in response to the
     Reports Consolidation Act of 2000. This information is crucial in helping us to effectively administer our programs, determine
     their success, and make adjustments that may be necessary to improve the quality of program operation and service delivery.

     For the 13th year in a row, the independent auditors tasked with reviewing our financial statements have provided an unqualified
     opinion. Our financial management systems have been found to be in substantial compliance with the Federal Financial
     Management Improvement Act (FFMIA) of 1996, and, in accordance with Office of Management and Budget (OMB) Circulars
     A-136 and A-11, the financial and performance data published in this report are substantially complete and reliable.

     The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB Circular A-123 provide the framework within which
     Departmental and operating unit managers may determine whether adequate internal controls are in place and operating as they
     should. We rely on a wide range of studies conducted by programmatic and administrative managers, the Office of Inspector
     General (OIG), the Government Accountability Office (GAO), and others to assist in this effort. Based on activities undertaken
     during FY 2011, the Department’s system of internal controls, taken as a whole, is consistent with FMFIA.


     In Conclusion

     Again, I am proud to submit this report on the FY 2011 performance of the Department, and hope it provides a useful summary
     of the results of the Department and its 48,000 employees.




                                                                                      John Bryson
                                                                                      Secretary of Commerce
                                                                                      November 15, 2011



 X                                              F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                   How to use this report
                                                   T
                                                          his Performance and Accountability Report (PAR) for FY 2011 provides the
                                                          Department of Commerce’s financial and performance information, enabling
                                                          the President, Congress, and the American people to assess the Department’s
                                                   performance as provided by the requirements of the:

                                                   ●●       Reports Consolidation Act of 2000 and other laws
                                                   ●●       Government Management Reform Act of 1994
                                                   ●●       Government Performance and Results Act (GPRA) of 1993
                                                   ●●       Chief Financial Officers (CFO) Act of 1990
                                                   ●●       Federal Managers’ Financial Integrity Act (FMFIA) of 1982.

                                            The assessment of the Department’s performance contained in this report compares
                                            performance results to the Department’s strategic goals and performance goals.
                                            The Department’s Strategic Plan, Performance Plan, and annual PARs are available
                                            on the Department’s Web site at http://www.osec.doc.gov/bmi/budget/budgetsub_
perf_strategicplans.htm. The Department welcomes feedback on the form and content of this report.

This report is organized into the following major components:

Statement from the Secretary of Commerce
The Secretary’s statement includes an assessment of the reliability and completeness of the financial and performance information
presented in the report and a statement of assurance on the Department’s management controls as required by the FMFIA.

Management’s Discussion and Analysis (MD&A)
This section provides an overview of the financial and performance information contained in the Performance Section, Financial
Section, and Appendices. The MD&A includes an overview of the Department’s organization, a summary of the performance, full-
time equivalents (FTE) and funding of the Department, summary of the performance process, current status of systems and internal
control weaknesses, and summaries of the American Recovery and Reinvestment Act (ARRA) of 2009 funding as it applies to
FY 2011 and Priority Goals.

Performance Section
This section provides the annual performance information as required by Office of Management and Budget (OMB) Circular A-11 and
GPRA. Included in this section is a detailed discussion and analysis of the Department’s performance in FY 2011. For each service and
major office, the results are presented by each of the six Secretarial themes, strategic goals within themes, and objectives within goals.

Financial Section
This section contains the details of the Department’s finances in FY 2011. A message from the Department’s Chief Financial Officer
(CFO), is followed by the information on the Department’s financial management, debt management, payments management, audited
financial statements, other supplemental financial information, and the independent auditors’ report.

Appendices
This section provides summary charts of performance information, a listing of key stakeholders, a discussion of management challenges
including actions taken to address them as well as the FY 2012 management challenges, financial information, a discussion of
undisbursed expired grant accounts, and a glossary of acronyms. The definitions and data sources of performance measures appears
at the end of the Web site version of the PAR located at http://www.osec.doc.gov/bmi/budget/. The 2011 and 2012 Management
Challenges sections were imported from an OIG report and therefore, unlike the rest of the PAR is not Section 508 compliant.
For additional copies of this report, please call the Department of Commerce, Office of Budget, at 202-482-4648 or email either Bill Tatter at
BTatter@doc.gov or William Tootle at WTootle@doc.gov. A listing of Web addresses and email addresses of other Departmental and bureau staff
appears on the inside front cover.
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




  XII                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
M anagement ’s
D iscussion and
    A nalysis
             MISSION AND ORGANIZATION



                            Mis s ion

      The Department of Commerce creates the conditions for
    economic growth and opportunity by promoting innovation,
        entrepreneurship, competitiveness, and stewardship.




2                    F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S



                         F Y  2 0 1 1 P erformance and F inancial H ighlights

                                                   P erformance H I G H L I G H T S




 O 
             verall performance results for the Department
             show that of the 117 performance targets, 77
             percent were at or above target, eight percent
slightly below target, and 15 percent not on target. Below are
the funding and full-time equivalent (FTE) levels by strategic
goal and financial highlights. It should be noted that FY 2010
was an unusual year in which the Department conducted
the 2010 Decennial Census, resulting in a large increase
in FTE and funding for FY 2010. Beginning on page 17
is a summary of the performance results by theme. This
summary provides a snapshot of the targeted achievements.
Discussions and highlights of successes can be found in the
performance discussions of each theme.




                                                                             Percentage
 (Dollars in Millions)1                                                       Change                FY 2011       FY 2010

     For the Years Ended September 30, 2011 and 2010
     Obligations by Themes:

     Theme 1: Economic Growth2                                                   -49.0%         $	 4,227.4    $	 8,295.6
     Theme 2: Science and Information2                                           -51.9%         $	 4,655.6    $	 9,683.0
     Theme 3: Environmental Stewardship                                          -13.8%         $	 1,939.7    $	 2,249.3
     Themes 4-6: Management Themes                                                -3.1%         $	     91.2   $	     94.1

     TOTAL OBLIGATIONS                                                           -46.3%         $	10,913.9    $	20,322.0
     Full Time Equivalents (FTEs) by Strategic Goal:

     Theme 1: Economic Growth2                                                   +5.0%          	 15,703      	 14,959
     Theme 2: Science and Information2                                           -81.5%         	 18,768      	 101,419
     Theme 3: Environmental Stewardship                                            0.0%         	     5,260   	     5,260
     Themes 4-6: Management Themes                                                -4.3%         	       334   	      349

     TOTAL FTEs                                                                  -67.2%         	 40,065      	 121,987

 1Performance   funding may differ from funding shown in financial statements because the performance funds do not include one-time funds for unexpected
 events (e.g., Hurricane Katrina) or reimbursable work that cannot be planned. In these cases, the funding is not factored into bureau performance amounts.
 Also funding reflects obligations as opposed to costs. An example of the difference is the NTIA Broadband Technology Opportunities Program where over
 $4 billion was obligated in FY 2010, however the costs incurred was significantly less.
 2For Theme 1, the funding and FTE decreased significantly as a result of the NTIA Broadband Technology Opportunities Program being completed by the end
 of FY 2010. For Theme 2, the funding and FTE decreased significantly in FY 2011 as a result of the 2010 Decennial Census being completed in FY 2010.




F Y   2 0 1 1      P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                                          3
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                    F inancial H ighlights

                                                                        Percentage
(Dollars in Thousands)                                                   Change         FY 2011        FY 2010

 As of September 30, 2011 and 2010
 Condensed Balance Sheets:
 ASSETS:
 Fund Balance with Treasury                                                -16%       $	 21,661,030   $	 25,785,547
 General Property, Plant, and Equipment, Net                              +13%           8,362,263        7,394,711
 Direct Loans and Loan Guarantees, Net                                     +5%             566,250         540,147
 Other                                                                    +14%             809,498         712,365
 TOTAL ASSETS                                                               -9%       $	 31,399,041   $	 34,432,770

 LIABILITIES:
 Unearned Revenue                                                          +3%        $	 1,374,524    $	 1,332,395
 Spectrum Auction Proceeds Liability to Federal Communications
    Commission                                                             -93%              2,436          33,838
 Federal Employee Benefits                                                 +5%             808,482         769,035
 Accounts Payable                                                           -7%            431,735         462,693
 Accrued Grants                                                            -22%            595,721         766,204
 Debt to Treasury                                                          +4%             540,001         517,930
 Accrued Payroll and Annual Leave                                          +3%             578,952         561,154
 Other                                                                     +9%             259,277         236,916
 TOTAL LIABILITIES                                                          -2%       $	 4,591,128    $	 4,680,165

 NET POSITION:
 Unexpended Appropriations                                                 -28%       $	 9,219,657    $	 12,882,192
 Cumulative Results of Operations                                          +4%          17,588,256      16,870,413
 TOTAL NET POSITION                                                        -10%       $	 26,807,913   $	 29,752,605
 TOTAL LIABILITIES AND NET POSITION                                         -9%       $	 31,399,041   $	 34,432,770


 For the Years Ended September 30, 2011 and 2010

 Condensed Statements of Net Cost:
 Theme 1: Economic Growth                                                             $	 2,865,357    $	 7,878,604
 Theme 2: Science and Information                                                        3,955,362        1,262,005
 Theme 3: Environmental Stewardship                                                      2,413,081        4,523,471
 Strategic Goal 1: Maximize U.S. Competitiveness and Enable
 Economic Growth for American Industries, Workers, and Consumers                                      $	 7,878,604
 Strategic Goal 2: Promote U.S. Innovation and Industrial
 Competitiveness                                                                                          1,262,005
 Strategic Goal 3: Promote Environmental Stewardship                                                      4,523,471
 TOTAL NET COST OF OPERATIONS                                              -32%       $	 9,233,800    $	 13,664,080

 Total Gross Costs                                                         -25%       $	 12,419,854   $	 16,527,409
 Less: Total Earned Revenue                                               +11%          (3,186,054)     (2,863,329)
 Total Net Cost Of Operations                                                         $	 9,233,800    $	 13,664,080




  4                                                     F Y   2 0 1 1    P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                      re v iew of financial position and R E S U L T S



                                                                                            Assets

                                                                                            The Department had total assets of
                                                                                            $31.4 billion as of September 30,
                                                                                            2011. This represents a decrease of
                                                                                            $3.0 billion or 9 percent over total
                                                                                            assets of $34.4 billion at September
                                                                                            30, 2010. The decrease of $4.1 billion
                                                                                            or 16 percent in Fund Balance with
                                                                                            Treasury was primarily due to signifi-
                                                                                            cantly decreased appropriations and
                                                                                            significantly increased rescissions
                                                                                            for Census Bureau as a result of the
                                                                                            completion of the 2010 Decennial
                                                                                            Census, and a significant increase
                                                                                            in payments to grantees for NTIA’s
                                                                                            Broadband Technology Opportunities
                                                                                            Program. General Property, Plant, and
                                                                                            Equipment, Net (PP&E) increased $968
                                                                                            million or 13 percent, mainly due to an
                                                                                            increase in NOAA Construction-in-prog-
                                                                                            ress of $1.2 billion, primarily for satellite
                                                                                            programs. Other Assets increased by
                                                                                            $97 million or 14 percent, primarily
                                                                                            due to an increase of $73 million in
                                                                                            NOAA Accounts Receivable with an
                                                                                            oil company for restoration activities
                                                                                            related to the 2010 Deepwater Horizon
                                                                                            oil spill.


Liabilities

The Department had total liabilities of $4.6 billion as of September 30, 2011. This represents a decrease of $89 million
or 2 percent as compared to total liabilities of $4.7 billion at September 30, 2010. Accrued grants decreased by
$170 million or 22 percent, primarily resulting from a decrease of $103 million in EDA’s Accrued Grants, mainly due to
reduced grantee expenditures related to previous funding received under the American Recovery and Reinvestment
Act of 2009, and received under a FY 2010 supplemental appropriation for a major storms and flooding disaster that
occurred in 2010. NTIA’s Accrued Grants also decreased by $79 million, mainly due to a refinement in the grant accrual
methodology for the Broadband Technology Opportunities Program. Spectrum Auction Proceeds Liability to the Federal
Communications Commission (FCC) decreased by $32 million or 93 percent, due to the payment of FCC administrative
fees for developing and implementing the auction program. Federal Employee Benefits increased by $39 million or




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                            5
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      5 percent, primarily due to an increase of $21 million in the NOAA Corps Retirement System Liability, and from the
      effect of increased Decennial Census employees on the valuation of the Department’s Actuarial FECA Liability.

      Net Cost of Operations

      In FY 2011, Net Cost of Operations
      amounted to $9.2 billion, which
      consists of Gross Costs of $12.4 billion
      less Earned Revenue of $3.2 billion.
      Theme 1 includes Gross Costs of $5.3
      billion related to enabling economic
      growth through innovation and entre-
      preneurship, market development and
      commercialization, and trade promo-
      tion and compliance. Theme 2 includes
      Gross Costs of $4.4 billion related to
      promoting science and information by
      generating and communicating new
      cutting-edge scientific understanding
      of technical, economic, social, and
      environmental systems. Theme 3
      includes Gross Costs of $2.7 billion related to promoting economically-sound environmental stewardship and science.

      The Department is reporting the Net Cost of Operations according to the Department’s new FY 2011-2016 Strategic Plan,
      which replaces strategic goals with themes, and modifies performance objectives and measures accordingly. Because
      the new themes and old strategic goals are not equivalent, a comparative analysis of FY 2011 themes and FY 2010
      strategic goals is not feasible. Total Gross Costs decreased by $4.1 billion or 25 percent, mainly due to the significant
      decrease in Gross Costs of $5.0 billion in Census Bureau’s Decennial and Periodic Censuses major program, which
      primarily reflects significant decreases in 2010 Decennial Census costs. Gross Costs for NTIA’s Broadband Technology
      Opportunities Program increased by $403 million as a result of significantly increased grantee expenditures.

      Total Earned Revenue increased by $323 million or 11 percent. There was an increase in Earned Revenue of $118 million
      for USPTO’s Patents major program, primarily resulting from an overall increase in transactions volume for the various
      types of Patents program fees. NOAA’s Earned Revenue increased by $108 million, primarily resulting from an increase of
      $95 million in Earned Revenue for restoration activities related to the 2010 Deepwater Horizon oil spill. Census Bureau’s
      Earned Revenue increased by $63 million, primarily due to increased services performed for the Department of Housing
      and Urban Development in FY 2011, and due to Earned Revenue in FY 2011 from a new reimbursable agreement with
      the Department of Labor.




  6                                          F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                      T he D epartment of C ommerce P rocess for

                S trategic P lanning and P erformance R eporting



Management Strategic Framework, Performance Planning and Reporting at a Glance




 B 
           eginning in FY 2010, in order to better manage its programs, the
           Department took a Balanced Scorecard approach to management, by
           not only emphasizing budget and finance, but also customer, internal
business process, and learning and growth perspectives into management
activities. This approach added an additional layer to the performance
structure involving Secretarial themes that appears between the mission
statement and the strategic goals. Secretarial themes focus on the
priorities of the Secretary. In addition, the Department took a more
integrated, crosscutting approach with regard to its programs. In the
prior strategic plan, bureau programs were associated with only
one strategic goal and often only objective (the lone exception
being the National Institute of Standards and Technology (NIST)
which had one program (Hollings Manufacturing Extension
Partnership (MEP)) in goal 1 and the remainder of its programs
in goal 2). While the National Oceanic and Atmospheric
Administration (NOAA) encompassed an entire strategic
goal, it did not cross into any of the other two strategic
goals. In the current Departmental Balanced Scorecard
and the new FY 2011 – FY 2016 Strategic Plan which follows the structure of the Balanced Scorecard, seven of the 13
bureaus cross themes, goals and/or objectives, giving a greater emphasis to the Secretary’s three programmatic themes
of Economic Growth, Science and Information, and Environmental Stewardship, and the three management themes of
Customer Service, Organizational Excellence, and Workforce Excellence along with a greater integration of programs.
Individual bureau scorecards follow the structure of the Departmental scorecard while providing greater detail about their
programs.

The FY 2011 – FY 2016 Strategic Plan put forth a set of three programmatic themes and three organizational themes
to guide the Department in accomplishing its mission to create the conditions for economic growth and opportunity by
promoting innovation, entrepreneurship, competitiveness, and stewardship. Within these themes the Department has a
set of goals and objectives that more clearly define the structure of accomplishing this mission. Strategic goals describe
objectives that define the results that the bureaus aimed to achieve. These are long-term objectives that often involve
the work of more than one Department bureau. Within each objective are associated indicators and targets to measure
the Department’s impact on a continuous basis. The strategic plan can be found at http://www.osec.doc.gov/bmi/budget/
DOCStrategicPlan_June_6_signed_final.pdf.

In addition, the FY 2012 Congressional Budget submission reflected this new structure, shown in the bureaus’ Annual
Performance Plans (APP) that appear as Exhibit 3A in the FY 2012 Congressional Budget submission. In that submission,
the Department’s bureau-specific performance goals and measures align with the Department’s new strategic themes,
goals, and objectives. The performance goals in the APPs link with the resource requirements for the past, current, and



F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                7
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      upcoming fiscal years. Each plan is integrated with the President’s Budget submission to Congress, at the bureau level.
      The FY 2012 Budget submission and its associated APPs can be found at http://www.osec.doc.gov/bmi/budget/.

      This FY 2011 PAR also aligns with the new strategic plan and provides a public accounting of the Department’s FY 2011
      performance results thus completing the Department’s performance management process for the fiscal year. The Web
      address of the FY 2011 PAR is http://www.osec.doc.gov/bmi/budget/. Appendix A of the FY 2011 PAR provides historical
      results of the Department’s performance, matching targets against actuals going as far back as FY 2002 and funding and
      FTE to FY 2007.

      How the Department Selects Its Performance Outcomes and Measures

      Performance objectives articulated in the introductory material for each strategic goal in the strategic plan and APP
      convey a sense of how the Department creates value for the U.S. public. Performance measures depict tangible progress
      by Department program activities toward these goals. The Department has tailored performance measures to be more
      outcome-oriented (described in the next section). When considered along with external factors and information provided
      in program evaluations, these measurements give valuable insight into the performance of Department programs, and
      are meant to broadly illustrate how the Department adds value to the U.S. economy. The FY 2011 PAR depicts a top-level,
      integrated system for managing for results within the Department, but is not an exhaustive treatment of all Department
      programs and activities. This report should also be read with each Department bureau’s own performance results to gain a
      comprehensive picture of the Department’s accomplishments in FY 2011. More in-depth performance results for FY 2011
      and prior years are available in Appendix A, and other information about the bureaus can be found on individual bureau
      Web sites. The directory of Web sites is located on the inside front cover of this report and provides a good foundation
      for researching additional information. Descriptions of any changes between FY 2010 and FY 2011 as well as descriptions
      including validation and verification information of each measure can be found on the Department’s Web site at http://
      www.osec.doc.gov/bmi/budget/. This Web site provides all measure descriptions for each bureau as part of the FY 2012
      annual budgets for each bureau incorporated as Exhibit 3A (APP) of each bureau’s budget submission and the soon to be
      released FY 2013 Congressional Budget submission.

      Performance Validation and Verification

      The Department uses a broad range of performance outcomes and measures to make reporting useful and reliable. It is
      imperative to demonstrate that performance measures are backed by accurate and reliable data; valid data are important
      to support management decisions on a day-to-day basis. The data and the means to validate and verify the measures
      are also diverse. As in the measures descriptions above, validation and verification tables appear in the APPs of each
      bureau’s FY 2011 budget submissions. These tables identify each measure, and the following information: (1) data source,
      (2) frequency, (3) data storage, (4) internal control procedures, (5) data limitations, and (6) any actions to be taken. This
      information is available at http://www.osec.doc.gov/bmi/budget/.

      The Department reviews its performance validation and verification processes to ensure that the performance data are
      accurate. The Department maintains a quarterly monitoring process of performance based upon each bureau’s individual
      balanced scorecards, expanding the Department’s scorecard into bureau-specific activities that feed into the Department’s
      scorecard. Performance measures are associated with the bureaus’ scorecards, flowing into the Department’s scorecard
      and into the Performance and Accountability Report (PAR).

      Performance Controls and Procedures

      Leadership: In the past, the Department has conducted quarterly performance reviews, during which bureau heads report
      to the Deputy Secretary on the current status of bureau performance. These reviews are continuing in various forms


  8                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




with the new administration. Progress towards Government Performance and Results Act (GPRA) measures appear in
this report.

Performance Data: The Department’s performance measurement data are collected by its 13 bureaus, each with
systems to manage their data validation and verification processes. Some of these are automated systems and others are
manual processes. Data can be divided into three types: financial data, data management methods, and data from manual
processes. Some examples include: jobs created or retained (Economic Development Administration (EDA)), lead time of
tornado warnings (NOAA), and trademark applications filed electronically (U.S. Patent and Trademark Office (USPTO)).

Financial Data: As stated above, the Department has a high degree of confidence in its financial data. Normal audit and
other financial management controls maintain the integrity of these data elements. During the FY 2011 Consolidated
Financial Statement audit, tests and review of the core accounting system and internal controls were conducted as
required by the Chief Financial Officers (CFO) Act. Further, the Department conducted its assessment of the effectiveness
of internal control over financial reporting, which includes safeguarding of assets and compliance with applicable laws and
regulations, in accordance with the requirements of Appendix A of the Office of Management and Budget (OMB) Circular
A-123, and based on the results of this evaluation, the Department provided reasonable assurance that its internal control
over financial reporting was operating effectively.

Departmental Performance Structure

In the past, the Department focused on three different, yet inter-related aspects of economic growth and opportunity—
growth, innovation, and environment—with each aspect reflected in each of the Department’s strategic goals. A fourth
goal—management integration—was linked to all three goals, focusing on various aspects of improving the management
of the Department. Appendix B shows a crosscut of how the old strategic plan and its three program goals track to the
new FY 2011 – FY 2016 Strategic Plan with its six themes, eight goals, and 27 objectives.

The programmatic themes are the realm of the bureaus while the management themes (Customer Service, Organizational
Excellence, and Workforce Excellence) focus on Departmental Management and the Office of Inspector General (OIG)
though the management themes do have elements from other bureaus. Nearly all of the funding occurred in the three
programmatic themes, though no theme dominated the other with occasional fluctuations occurring that changed the
respective percentages.

Because the Department significantly revised the Strategic Plan structure for the FY 2011 PAR, it is difficult, if not
impossible, to track discontinued measures the Department used in previous years for historical comparison purposes.
Furthermore, since one of the primary purposes of the PAR is to examine the Department’s performance in FY 2011, a
comparison using past discontinued measures does not provide a true reflection of historical trends through FY 2011,
particularly in those cases in which bureaus discontinued certain measures because they didn’t accurately reflect the
work of the bureau. Therefore, performance historical tables reflect past trends using the measures that the Department
reports on in FY 2011.

Summary Description of Bureaus

The following are summary descriptions of each bureau in budget appropriation order with applicable strategic goals and
objectives listed at the end of each description.

The Departmental Management (DM) develops and implements policy affecting U.S. and international activities as
well as internal goals and operations of the Department. DM serves as the primary liaison with the executive branch and



F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                9
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Congressional and private sector groups, and acts as the management and administrative control point for the Department.
       Executive Direction develops and implements Departmental policies and coordinates bureau program activities to
       accomplish the Department’s mission while Departmental Staff Services develops and implements the Department’s
       internal policies, procedures, and other administrative guidelines. Customer Service, Organizational Excellence, and
       Workforce Excellence



       The Office of Inspector General (OIG) ensures that the Department’s employees and others managing federal
       resources comply with applicable laws and regulations, and actively work to prevent fraud, waste, and abuse in program
       operations. The OIG monitors and tracks the use of taxpayer dollars in federally-funded programs with its purpose being
       to keep Departmental officials and Congress fully and currently informed about issues, problems, and deficiencies relating
       to the administration of programs and operations and the need for corrective action. Organizational Excellence

       The Economic Development Administration (EDA) directly supports the Department‘s goal to maximize U.S. com-
       petitiveness and enable economic growth for U.S industries, workers, and consumers with the objective to foster
       domestic economic development as well as export opportunities. To achieve this objective, EDA promotes a favorable
       business environment through strategic investments in public infrastructure. These investments help attract private
       capital investment and jobs that address problems of high unemployment, low per capita income, and sudden, severe
       economic challenges. Economic Growth

       The Census Bureau is the leading source of quality data about the Nation’s people and economy. The Census Bureau
       measures those trends and segments of the U.S. population and economy most critical to continued U.S. success and
       prosperity. The Census Bureau provides benchmark measures of the U.S. population, economy, and governments, and
       provides current measures of the U.S. population, economy, and governments. The Census Bureau’s cyclical programs
       include the Economic Census and the Census of Governments, conducted every five years, and the Decennial Census
       program, conducted every 10 years. Science and Information

       The Bureau of Economic Analysis (BEA) produces some of the Nation’s most important economic statistics, including
       GDP and the balance of payments. BEA promotes a better understanding of the U.S. economy by providing timely,
       relevant, and accurate economic accounts data in an objective and cost-effective manner. Although a relatively small
       agency, BEA’s economic statistics are among the Nation’s most closely watched. BEA’s statistics influence critical
       decisions made by policymakers, business leaders, households, and individuals affecting interest and exchange rates, tax
       and budget projections, business investment plans, and the allocation of over $200 billion in federal funds. Science and
       Information



       The International Trade Administration (ITA) works to create prosperity by promoting trade and investment, ensuring
       fair trade and compliance with trade laws and agreements, and strengthening the competitiveness of U.S. industry. Within
       ITA, the Manufacturing and Services (MAS) unit analyzes the domestic and international aspects of U.S. competitiveness
       by working with U.S. industries to evaluate the needs of the MAS sectors, conducting economic and regulatory studies
       aimed at strengthening U.S. industry, obtaining input and advice from U.S. industries for trade policy setting, and
       participating, as appropriate, with ITA trade policy and negotiation advancement initiatives. The Market Access and
       Compliance (MAC) unit concentrates on the development of strategies to overcome market access obstacles faced by
       U.S. businesses. MAC monitors foreign country compliance with numerous trade-related agreements and identifies
       compliance problems and other market access obstacles. The Import Administration (IA) helps ensure fair trade by
       administering the U.S. antidumping and countervailing duty (AD/CVD) laws in a manner consistent with U.S. international
       obligations. IA works extensively with U.S. businesses on a regular basis to educate them about U.S. trade laws related




  10                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




to dumping and foreign government subsidies and how to act if they are injured by those practices. Trade Promotion and
The U.S. and Foreign Commercial Service (US&FCS) broadens and deepens the base of U.S. exports by providing U.S.
companies with reliable advice on the range of public and private assistance available, and knowledgeably supports all
other federal trade promotion services. Economic Growth

The Bureau of Industry and Security (BIS) advances U.S. national security, foreign policy, and economic objectives by
ensuring an effective export control and treaty compliance system and by promoting continued U.S. strategic technology
leadership. BIS (1) regulates the export of sensitive “dual use” goods and technologies in an effective and efficient
manner; (2) enforces export control, antiboycott, and public safety laws; (3) cooperates with and assists other countries
on export control and strategic trade issues; (4) assists U.S. industry in complying with international arms agreements;
(5) monitors the viability of the U.S. defense industrial base; (6) evaluates the effects on national security of foreign
investments in U.S. companies; and (7) supports continued U.S. technology leadership in industries that are essential to
national security. Economic Growth

The Minority Business Development Agency (MBDA) promotes the ability of minority business enterprises (MBE) to
grow and to participate in the global economy through a range of activities that include funding a network of centers that
provide MBEs a variety of business assistance services. MBDA, through its direct federal client services and its network
of funded centers (1) fosters the expansion of opportunities for minority-owned businesses in the global marketplace;
(2) identifies sources of financial capital for minority-owned firms; (3) develops and upgrades electronic tools to provide
access to growth markets through automated matching of MBEs to public and private sector opportunities; (4) provides
management and technical assistance to minority-owned businesses; and (5) advocates for the increased use of electronic
commerce and new technologies by MBEs. Science and Information, Environmental Stewardship

The National Oceanic and Atmospheric Administration (NOAA) promotes environmental stewardship. NOAA
encompasses part of the Science and Information Theme and all of the Environmental Stewardship Theme. Science and
Information, Environmental Stewardship



NOAA is divided into two primary appropriation accounts, Operations, Research, and Facilities; and Procurement,
Acquisition, and Construction for both of which the following six programs apply:

●●   The National Ocean Service (NOS) provides scientific, technical, and management expertise to promote safe
     navigation; protects and restores coastal and marine resources damaged by natural or human-induced threats; and
     manages and preserves coastal and ocean environments.

●●   The National Marine Fisheries Service (NMFS) manages and conserves the living marine resources within the
     200-mile U.S. Exclusive Economic Zone. NMFS is dedicated to the stewardship of living marine resources through
     science-based conservation and management.

●●   The Office of Oceanic and Atmospheric Research (OAR) provides the research and technology development
     necessary to improve NOAA climate, weather, coastal, and ocean services. OAR supplies the scientific information
     to advise national policy decisions in such areas as climate change, air quality, coastal resource management, and
     stratospheric ozone depletion.

●●   The National Weather Service (NWS) provides weather, hydrologic, and climate forecasts and warnings for
     the United States, its territories, adjacent waters, and ocean areas, for the protection of life and property and the
     enhancement of the national economy.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               11
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       ●●   The National Environmental Satellite, Data and Information Service (NESDIS) operates the polar-orbiting and
            geostationary operational environmental satellites, develops the converged polar-orbiting satellite series with the
            Department of Defense (DOD) and the National Aeronautics and Space Administration (NASA), and manages NOAA’s
            environmental data collections for use in studying long-term environmental change.

       ●●   Program Support provides overall NOAA management, planning, and administrative support for NOAA. Program
            Support promotes environmental literacy and develops and sustains a world-class workforce. Program Support
            provides for repair, restoration, and other construction efforts, along with NOAA-wide environmental compliance and
            safety issues. With Program Support, the Office of Marine and Aviation Operations operates and maintains NOAA’s
            ships and aircraft and uses them to collect data to support NOAA’s mission.

       The U.S. Patent and Trademark Office (USPTO) fosters innovation and competitiveness by providing high quality
       and timely examination of patent and trademark applications, guiding domestic and international intellectual property
       (IP) policy, and delivering IP information and education worldwide. Two distinct business lines, Patents and Trademarks,
       administer the patent and trademark laws which provide protection to inventors and businesses for their inventions and
       corporate and product identifications, and encourage innovation and scientific and technical advancement of U.S. industry
       through the preservation, classification, and dissemination of patent and trademark information. Economic Growth

       The National Institute of Standards and Technology (NIST) promotes U.S. innovation and industrial competitiveness
       by advancing measurement science, standards, and technology in ways that improve economic security and quality of
       life. NIST develops and disseminates measurement techniques, reference data, test methods, standards, and other
       technologies and services needed by U.S. industry to compete in the 21st century. The NIST laboratories provide the
       measurement science and physical standards that are essential components of the technology infrastructure underpinning
       U.S. innovation. NIST’s Technology Innovation Program (TIP) supports innovative, high-risk, high-reward research in
       areas of critical national need where the government has a clear interest due to the magnitude of the problems and
       their importance to society. Through federal-state-local and private sector partnerships, NIST’s Hollings Manufacturing
       Extension Partnership (MEP) provides technical and business assistance to manufacturers through a nationwide network
       of centers in all 50 states and Puerto Rico. The Baldrige National Quality Program promotes proven quality and performance
       management practices to strengthen U.S. companies, educational organizations, and health care providers. Recognized
       worldwide, the program furthers organizational excellence through education, outreach, and annual awards. Economic
       Growth



       The National Technical Information Service (NTIS) collects and preserves scientific, technical, engineering, and other
       business-related information from federal and international sources, and disseminates it to the U.S. business and industrial
       research community. Science and Information

       The National Telecommunications and Information Administration (NTIA) develops domestic and international
       telecommunications and information policy for the executive branch; ensures the efficient and effective management and
       use of the federal radio spectrum; and performs state-of-the-art telecommunications research, engineering, and planning.
       Economic Growth, Science and Information



       On the following pages is a listing of the key measures of each of the bureaus in the Department. This list is not all-
       inclusive. Further information concerning these and other performance measures can be found in Appendix A. The status
       of a given measure is either exceeded (more than 125 percent of the target), met (100 to 125 percent of target), slightly
       below (95 to 99 percent of the target), or not met (below 95 percent of target).




  12                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                        Key Performance Measures
       THEME                           Performance Measure                                      Target          Actual            STATUS
 Theme 1:             Final rejection allowance compliance rate (USPTO)                   95.6% - 96.5%          95.6%               Met
 Economic             Patent total pendency (months) (USPTO)                                     34.8             33.7               Met
 Growth
                      Trademark final compliance rate (USPTO)                                   97.0%            97.0%               Met

                      Trademark average total pendency (months), excluding                       12.5             10.5
                                                                                                                                     Met
                      suspended and inter partes proceedings (USPTO)
                      Private investment leveraged (nine year totals) (EDA)                  $1,940M            $3,960M           Exceeded

                      Jobs created/retained (nine year totals) (EDA)                            57,800           56,058         Slightly Below

                      Dollar value of contract awards obtained (MBDA)                           $1.10B          $1.40B            Exceeded

                      Dollar value of financial awards obtained (MBDA)                          $0.90B          $2.10B            Exceeded

                      Cumulative number of TIP projects funded (NIST)                             38               38                Met

                      Miles of broadband networks deployed (NTIA)                               10,000          18,5451           Exceeded

                      New and upgraded computer workstations (NTIA)                             10,000          16,0601           Exceeded

                      New household and business subscribers to broadband                       25,000          111,8291
                                                                                                                                  Exceeded
                      (NTIA)
                      Qualitative assessment and review of technical quality             Complete annual       Completed
                                                                                                                                     Met
                      and merit using peer review (NIST)                                   peer review
                      Annual cost savings resulting from the adoption of                        $350M            $1.8B
                      MAS recommendations contained in MAS studies and                                                            Exceeded
                      analysis (ITA)
                      Increased sales attributed to Hollings MEP centers                  $2,500M from       $2,770M from
                                                                                                                                     Met
                      receiving federal funding (NIST)                                   FY 2010 funding    FY 2010 funding2
                      Cost savings attributed to Hollings MEP centers                     $1,200M from       $1,420M from
                                                                                                                                     Met
                      receiving federal funding (NIST)                                   FY 2010 funding    FY 2010 funding2
                      Percentage of advocacy bids won (ITA)                                      18%             9.9%              Not Met

                      Commercial diplomacy success (cases) (annual) (ITA)                        172              243             Exceeded

                      Number of actions that result in a deterrence or                           850             1,073
                      prevention of a violation and cases which result in a                                                       Exceeded
                      criminal and/or administrative charge (BIS)
                      Percent of industry-specific trade barriers addressed that                 30%              35%
                                                                                                                                     Met
                      were removed or prevented (ITA)
                      Number of compliance and market access cases                               50%              51%
                                                                                                                                     Met
                      resolved successfully (ITA)
                      Value of compliance and market access cases resolved                      $2.5B           $0.23B
                                                                                                                                   Not Met
                      successfully (ITA)
 1	   As of June 30, 2011.
 2	   Estimate as of June 30, 2011. Once final numbers are in, the status may change to “Exceeded.”
                                                                                                                                (continued)




F Y   2 0 1 1    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                    13
  M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                         Key Performance Measures (continued)
   THEME                       Performance measure                                    Target                     Actual               STATUS
Theme 2:       Number of information products disseminated (NTIS)                   47,800,000                 48,958,993                Met
Science and    Complete key activities for cyclical census programs          At least 90% of key        At least 90% of key
Information    on time to support effective decision-making by               activities completed       activities completed
                                                                                                                                         Met
               policymakers, businesses, and the public and meet                 on schedule                on schedule
               constitutional and legislative mandates (ESA/CENSUS)
               Achieve pre-determined collection rates for Census              At least 90% of                     Met
               Bureau censuses and surveys to provide statistically           key censuses and                 Percentages
               reliable data to support effective decision-making of            surveys meet/
                                                                                                                                         Met
               policymakers, businesses, and the public (ESA/CENSUS)          exceed collection
                                                                                rates/levels of
                                                                                   reliability
               Release data products for key Census Bureau programs          ●●   100% of               ●●    100% of
               on time to support effective decision-making of                    Economic                    Economic
               policymakers, businesses, and the public (ESA/CENSUS)              Indicators                  Indicators
                                                                                  released on time            released on time
                                                                                                                                         Met
                                                                             ●●   At least 90% of       ●●    At least 90% of
                                                                                  key prep activities         key prep activities
                                                                                  completed on                completed on
                                                                                  time                        time
               Timeliness: Reliability of delivery of economic data                     62                          62
               (number of scheduled releases issued on time)                                                                             Met
               (ESA/BEA)
               Accuracy: Percent of GDP estimates correct (ESA/BEA)                   > 85%                        89%                   Met

               Severe weather warnings for tornadoes – Lead time                        12                          15
                                                                                                                                      Exceeded
               (minutes) (NOAA)
               Severe weather warnings for tornadoes (storm-based) –                   70%                         76%
                                                                                                                                         Met
               Accuracy (%) (NOAA)
               Hurricane forecast track error (48 hours) (nautical miles)              106                          89
                                                                                                                                      Exceeded
               (NOAA)
               Hurricane forecast intensity error (48 hours) (difference                13                          15
                                                                                                                                       Not Met
               in knots) (NOAA)
Theme 3:      Error in global measurement of sea surface temperature                  0.50ºC                      0.51ºC
                                                                                                                                    Slightly Below
Environmental (NOAA)
Stewardship   Fish stock sustainability index (FSSI) (NOAA)                            586                         587                   Met

               Percentage of fish stocks with adequate population                 60.4% (139/230)            55.7% (128/230)
                                                                                                                                       Not Met
               assessments and forecasts (NOAA)
               Number of habitat acres restored (annual) (NOAA)                       8,888                       15,420              Exceeded

               Annual number of coastal, marine, and Great Lakes                      19,219                      17,274
               habitat acres acquired or designated for long-term                                                                      Not Met
               protection (NOAA)
               Percentage of U.S. coastal states and territories                       36%                         43%
               demonstrating 20% or more annual improvement in
                                                                                                                                      Exceeded
               resilience capacity to weather and climate hazards
               (%/year) (NOAA)
                                                                                                                                    (continued)




     14                                           F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                Key Performance Measures (continued)
     THEME                          Performance measure                                      Target                  Actual             STATUS
 Theme 3:      Hydrographic survey backlog within navigationally                             2,400                    2,278
 Environmental significant areas (square nautical miles surveyed per                                                                     Not Met
 Stewardship   year) (NOAA)
 (continued)   Percentage of U.S. counties rated as fully enabled or                         83.0%                    84.3%
               substantially enabled with accurate positioning capacity                                                                   Met
               (NOAA)
 Theme 4:
 Customer           There are not any performance measures yet for Theme 4. Measures for this theme will appear in the FY 2012 PAR.
 Service
 Theme 5:       Improve the management of information                              ●●   IT investments       ●●   All IT investments
 Organizational technology (DM)                                                         have cost/                within 10% of
 Excellence                                                                             schedule overruns         cost and schedule
                                                                                        and performance
                                                                                        shortfalls
                                                                                        averaging less
                                                                                        than 10%
                                                                                   ●●   Perform              ●●   Reviews
                                                                                        IT security               completed
                                                                                        compliance
                                                                                        review of all
                                                                                        operating units,
                                                                                        and 10 FISMA
                                                                                        systems in CSAM
                                                                                   ●●   Increase             ●●   89% completion
                                                                                        security training         rate                    Met
                                                                                        completion rate to
                                                                                        80% for privileged
                                                                                        users (role-based)
                                                                                   ●●   Deploy 80%           ●●   NCSD 3-10 did
                                                                                        of the required           not receive
                                                                                        NCSD 3-10                 funding
                                                                                        communications
                                                                                        capabilities.
                                                                                        Expand cyber
                                                                                        intelligence
                                                                                        communications
                                                                                        channel to
                                                                                        all operating
                                                                                        unit Computer
                                                                                        Incident
                                                                                        Response Teams
                    Dollar value of financial benefits identified by the OIG                 $39.0M                  $33.6M
                                                                                                                                         Not Met
                    (OIG)
                                                                                                                                       (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                          15
   M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                          Key Performance Measures (continued)
   THEME                        Performance measure                                  Target                      Actual             STATUS
Theme 5:       Provide accurate and timely financial information             ●●   Eliminate any          ●●   Eliminated
Organizational and conform to federal standards, laws, and regulations            significant                 signifcant
Excellence     governing accounting and financial management (DM)                 deficiency                  deficiency
(continued)                                                                       within 1 year of
                                                                                  determination
                                                                                  that there is
                                                                                  a significant                                       Met
                                                                                  deficiency
                                                                             ●●   Complete FY            ●●   Completed A-123
                                                                                  2011 A-123                  assessments
                                                                                  assessment of
                                                                                  internal controls
Theme 6:        Acquire and maintain diverse and highly qualified staff in   ●●   Have new               ●●   Four occupations
Workforce       mission-critical occupations (DM)                                 competency
Excellence                                                                        models in
                                                                                  place for three
                                                                                  mission-critical
                                                                                  occupations for
                                                                                  use in workforce
                                                                                  recruitment,
                                                                                  training, and
                                                                                  development
                                                                                  activities
                                                                             ●●   Meet or exceed         ●●   83 days
                                                                                  the 80-day hiring                                 Exceeded
                                                                                  goals mandated
                                                                                  by OPM
                                                                             ●●   Train 100-200          ●●   103 participants
                                                                                  participants
                                                                                  on leadership
                                                                                  development
                                                                                  programs via
                                                                                  ALDP, ELDP, and
                                                                                  APCP
                                                                             ●●   Train 180-200          ●●   382 participants
                                                                                  participants via
                                                                                  Careers in Motion




     16                                           F Y   2 0 1 1   P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                       P erformance , F T E , and F unding S ummar y


                                    THEME 1:            ECONOMIC GROWTH


     Performance Summary




 F 
        or this theme, in FY 2011, the Department
        met or exceeded 79 percent of the targets it
        had set for the year. As a general rule, the
Department has increased its performance slightly
from FY 2002 through FY 2011 in terms of having met/
exceeded 76 percent of the targets in 2002.

The following three strategic goals (and their applicable
bureaus) apply to this theme.

●●   Strategic Goal – Innovation and Entrepreneur-
     ship: Develop the tools, systems, policies, and
     technologies critical to transforming our economy,
     fostering U.S. competitiveness, and driving the
     development of new businesses (USPTO, EDA,
     NIST, and NTIA)

●●   Strategic Goal – Market Development and
     Commercialization: Foster market opportunities that equip businesses and communities with the tools they need
     to expand, creating quality jobs with special emphasis on unserved and underserved groups (EDA, MBDA, ITA, and
     NIST)

●●   Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness and foster domestic job
     growth while protecting American security (ITA and BIS)

Of all the themes within the Department, the Economic Growth theme accounted for 39 percent of the total funding, and
39 percent of the full-time equivalent (FTE). Within the Economic Growth theme, the Innovation and Entrepreneurship
goal accounted for 84 percent of the FTE and 78 percent of the theme funding. This goal includes all of the U.S. Patent
and Trademark Office (USPTO) and portions of the Economic Development Administration (EDA), the National Institute of
Standards and Technology (NIST), and the National Telecommunications and Information Administration (NTIA). Market
Development, the smallest of the three goals in terms of FTE and funding, accounted for 3 percent of FTE and 9 percent
of the theme funding. This goal includes all of the Minority Business Development Agency (MBDA), and portions of EDA,
the International Trade Administration (ITA), and NIST. The Trade Promotion goal accounted for 13 percent of FTE and
13 percent of the theme funding. This goal includes all of the Bureau of Industry and Security (BIS), and portions of ITA.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               17
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                           Summary of Funding , FTE, and Performance Results




             Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies, and technologies
             critical to transforming our economy, fostering U.S. competitiveness, and driving the development of new businesses
                                                                                                                                 Targets
        Objective                                                                            Funding                              Met or
         Number                                 Objective                                (Dollars in Millions)   FTE            Exceeded
                      Improve intellectual property protection by reducing patent
             1        pendency, maintaining trademark pendency, and increasing the           $2,111.7            9,842           9 of 10
                      quality of issued patents and trademarks (USPTO)
                      Expand international markets for U.S. firms and inventors
             2        by improving the protection and enforcement of intellectual               $49.2            150             1 of 1
                      property rights (USPTO)
                      Stimulate high-growth business formation and
                      entrepreneurship, through investing in high-risk, high-reward
             3                                                                                  $231.9           180             7 of 11
                      technologies and by removing impediments to accelerate
                      technology commercialization (EDA, NIST)
                      Drive innovation by supporting an open global Internet and
                      through communications and broadband policies that enable
             4                                                                                  $118.7           168             5 of 5
                      robust infrastructure, ensure integrity of the system, and
                      support e-commerce (NTIA)
                      Provide measurement tools and standards to strengthen
             5                                                                                  $771.6           2,850           4 of 6
                      manufacturing, enable innovation and enhance efficiency (NIST)




  18                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                               M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                 Strategic Goal – Market Development and Commercialization: Foster market opportunities
                   that equip businesses and communities with the tools they need to expand, creating quality jobs
                                     with special emphasis on unserved and underserved groups
                                                                                                                                 Targets
  Objective                                                                                         Funding                       Met or
   Number                                         Objective                                     (Dollars in Millions)    FTE    Exceeded
                    Promote the advancement of sustainable technologies,
         61                                                                                           $20.5               16      N/A
                    industries, and infrastructure (EDA)
                    Promote the vitality and competitiveness of our communities
         7          and businesses, particularly those that are disadvantaged or in                  $201.1              187     3 of 5
                    distressed areas (EDA, MBDA)
                    Improve the competitiveness of small and medium-sized firms
         8                                                                                           $175.6              274     5 of 5
                    in manufacturing and service industries (ITA, NIST)
 1	   The measures that apply to this objective also apply to Objective 3 and are reflected in the status of that objective.



                    Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness
                                and foster domestic job growth while protecting American security
                                                                                                                                 Targets
  Objective                                                                                         Funding                       Met or
   Number                                         Objective                                     (Dollars in Millions)    FTE    Exceeded
                    Increase U.S. export value through trade promotion, market
         9          access, compliance, and interagency collaboration (including                     $336.5             1,176    3 of 6
                    support for small and medium enterprises) (ITA)
                    Implement an effective export control reform program to
         10         advance national security and overall economic competitiveness                   $102.9              351     8 of 9
                    (BIS)
                    Develop and influence international standards and policies to
         11         support the full and fair competitiveness of the U.S. information                  $2.3               8      1 of 1
                    and communications technology sector (NTIA)
                    Vigorously enforce U.S. fair trade laws through impartial
                    investigation of complaints, improved access for U.S. firms and
         12                                                                                           $99.1              501     7 of 8
                    workers, and fuller compliance with antidumping/countervailing
                    duty remedies (ITA)




F Y   2 0 1 1     P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                           19
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                 THEME 2:          SCIENCE AND INFORMATION


         Performance Summary




        F 
                or this theme, in FY 2011, the Department
                met or exceeded 85 percent of the targets
                it had set for the year. The Department has
       decreased its performance from FY 2002 through
       FY 2011 in terms of having met/exceeded 94 percent
       of the targets in 2002.

       This theme has only one strategic goal, that being,
       “Generate and communicate new, cutting-edge
       scientific understanding of technical, economic,
       social, and environmental systems.” The Economics
       and Statistics Administration’ (ESA) Census Bureau
       and Bureau of Economic Analysis (BEA), the National
       Oceanic and Atmospheric Administration (NOAA), the
       National Technical Information Service (NTIS), and
       NTIA all contribute to this goal and theme.

       Off all the themes within the Department, the Science
       and Information theme accounted for 42 percent of the total funding, and 47 percent of the FTE.


         Summary of Funding, FTE , and Performance Results




  20                                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                  Strategic Goal: Generate and communicate new, cutting-edge scientific understanding of technical,
                                           economic, social, and environmental systems
                                                                                                                         Targets
  Objective                                                                                Funding                        Met or
   Number                                     Objective                                (Dollars in Millions)    FTE     Exceeded
                    Increase scientific knowledge and provide information to
         13         stakeholders to support economic growth and to improve                  $307.6              626      4 of 4
                    innovation, technology, and public safety (NTIS, NTIA)
                    Enable informed decision-making through an expanded
                    understanding of the U.S. economy, society, and environment
         14                                                                                $3,278.0            13,048    7 of 8
                    by providing timely, relevant, trusted, and accurate data,
                    standards, and services (ESA/CENSUS, ESA/BEA, NOAA)
                    Improve weather, water, and climate reporting and forecasting
         15                                                                                $1,070.0            5,0941   11 of 14
                    (NOAA)
 1	   Estimate.




F Y   2 0 1 1      P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   21
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                THEME 3:           ENVIRONMENTAL STEWARDSHIP


         Performance Summary




        F 
                or this theme, in FY 2011, the Department
                met or exceeded 69 percent of the targets
                it had set for the year. As a general rule,
       the Department has substantially increased its
       performance from FY 2002 through FY 2011 in terms
       of having met/exceeded zero percent of the targets
       in 2002. However, it should be noted that only one
       measure that the Department tracked in FY 2011
       appeared in FY 2002. Regarding this theme, nearly all
       the measures that initially appeared in FY 2002 have
       since been discontinued, replaced by measures that
       better reflected the activities of the programs involved.
       Thus, a comparison with FY 2002 provides little, if any,
       benefit to tracking performance trends.

       This theme has only one strategic goal, that being,
       “Promote economically-sound environmental stew-
       ardship and science.” NOAA is the only bureau that
       contributes to this theme. Environmental Stewardship accounted for 18 percent of funding and 13 percent of FTE.


         Summary of Funding, FTE , and Performance Results




  22                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                        Strategic Goal: Promote economically-sound environmental stewardship and science
                                                                                                                          Targets
  Objective                                                                                  Funding                       Met or
   Number                                      Objective                                 (Dollars in Millions)   FTE1    Exceeded
        16          Support climate adaptation and mitigation (NOAA)                          $322.5             796      3 of 4
                    Develop sustainable and resilient fisheries, habitats, and species
        17                                                                                   $1,038.7            3,105    3 of 5
                    (NOAA)
                    Support coastal communities that are environmentally and
        18                                                                                    $578.4             1,359    5 of 7
                    economically sustainable (NOAA)
 1	   Estimates.




F Y   2 0 1 1      P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    23
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                               MANAGEMENT THEMES (THEMES 4, 5, AND 6)




        T 
                he following three management themes have
                been grouped together since their combined
                activities reflect that of only two bureaus:
       Departmental Management (DM) and the Office of the
       Inspector General (OIG).

       ●●   Customer Service

       ●●   Organizational Excellence

       ●●   Workforce Excellence

       In addition, since the Department did not implement
       the new FY 2011 – FY 2016 Strategic Plan until
       FY 2011, the Department has not yet developed
       FY 2011 performance targets for Objectives 19-21,
       26, and 27. The Department will show measures and
       targets for these objectives beginning in FY 2012.



            Performance Summary


       For these themes, in FY 2011, the Department met or exceeded 50 percent of the targets it had set for the year.
       The Department has decreased its performance slightly from FY 2002 through FY 2011 in terms of having met/exceeded
       67 percent of the targets in 2002. The following strategic goals and objectives apply to these themes.

       Theme 4: Customer Service

       Strategic Goal: Create a culture of outstanding communication and services to our internal and external
       customers

       ●●   Objective 19: Provide streamlined services and a single point of contact assistance for customers, improving interaction
            and communication through CommerceConnect, partnerships, and other means of stakeholder involvement (DM)

       ●●   Objective 20: Promote information access and transparency through the use of technology, fuller understanding
            customer requirements, and new data products and services that add value to customers (DM)

       ●●   Objective 21: Provide a high level of customer service to our internal and external customers through effective and
            efficient functions implemented by empowered employees (DM)




  24                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Theme 5: Organizational Excellence

Strategic Goal: Create a high-performing organization with integrated, efficient, and effective service delivery

●●   Objective 22: Strengthen financial and non-financial internal controls to maximize program efficiency, ensure
     compliance with statutes and regulations, and prevent waste, fraud, and abuse of government resources (DM, OIG)

●●   Objective 23: Re-engineer key business processes to increase efficiencies, manage risk, and strengthen effectiveness
     (DM)

●●   Objective 24: Create an IT enterprise architecture that supports mission-critical business and programmatic
     requirements, including effective management of cyber security threats (DM)

Theme 6: Workforce Excellence

Strategic Goal: Develop and support a diverse, highly qualified workforce with the right skills in the right
jobs to carry out the Department’s mission

●●   Objective 25: Recruit, grow, develop, and retain a high-performing, diverse workforce with the critical skills necessary
     for mission success, including the next generation of scientists and engineers (DM)

●●   Objective 26: Create an optimally-led Department by focusing on leadership development, accountability, and
     succession planning (DM)

●●   Objective 27: Provide an environment that empowers employees and creates a productive and safe workplace (DM)


     Summary of Funding, FTE, and Performance Results




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                25
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       The tables below show the strategic goals and objectives for the Customer Service, Organizational Excellence, and
       Workforce Excellence themes that have FY 2011 funding, FTE, and performance results. Note that the Department has
       provided funding and FTE for Objective 21, but did not yet develop performance measures for FY 2011.


                                                         Theme 4: Customer Service

              Strategic Goal: Create a culture of outstanding communication and services to our internal and external customers
                                                                                                                                    Targets
        Objective                                                                               Funding                              Met or
         Number                                   Objective                                 (Dollars in Millions)   FTE            Exceeded
                       Provide streamlined services and a single point of contact
                       assistance for customers, improving interaction and
            19                                                                                     $0.9               0              N/A
                       communication through CommerceConnect, partnerships,
                       and other means of stakeholder involvement (DM)
                       Provide a high level of customer service to our internal and
            21         external customers through effective and efficient functions                $8.4               0              N/A
                       implemented by empowered employees (DM)


                                                   Theme 5: Organizational Excellence

                 Strategic Goal: Create a high-performing organization with integrated, efficient, and effective service delivery
                                                                                                                                    Targets
        Objective                                                                               Funding                              Met or
         Number                                   Objective                                 (Dollars in Millions)   FTE            Exceeded
                       Strengthen financial and non-financial internal controls to
                       maximize program efficiency, ensure compliance with statutes
            22                                                                                     $59.2            334             2 of 5
                       and regulations, and prevent waste, fraud, and abuse of
                       government resources (DM, OIG)
                       Re-engineer key business processes to increase efficiencies,
            23                                                                                     $3.9               0             0 of 1
                       manage risk, and strengthen effectiveness (DM)
                       Create an IT enterprise architecture that supports mission-
            24         critical business and programmatic requirements, including                  $13.4              0             1 of 1
                       effective management of cyber security threats (DM)


                                                      Theme 6: Workforce Excellence

                              Strategic Goal: Develop and support a diverse, highly qualified workforce with the
                                      right skills in the right jobs to carry out the Department’s mission
                                                                                                                                    Targets
        Objective                                                                               Funding                              Met or
         Number                                   Objective                                 (Dollars in Millions)   FTE            Exceeded
                       Recruit, grow, develop, and retain a high-performing diverse
            25         workforce with the critical skills necessary for mission success,           $5.4               0             1 of 1
                       including the next generation of scientists and engineers (DM)




  26                                              F Y   2 0 1 1   P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                          M anagement C ontrols




    T 
             he Department’s management is responsible for establishing and maintaining effective internal control
             and financial management systems that meet the objectives of the Federal Managers’ Financial Integrity
             Act (FMFIA). During FY 2011, the Department assessed its internal control over the effectiveness
   and efficiency of operations and compliance with applicable laws and regulations in accordance with Office of
   Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control. As a result,
   the Department is able to provide an unqualified statement of assurance that its internal controls and financial
   management systems meet the objectives of FMFIA for FY 2011.

   The supplemental funding received under the American Recovery and Reinvestment Act (ARRA) of 2009 continued
   to receive comprehensive programmatic and administrative attention throughout the Department in order to achieve
   the legislative goals attributable to it. Funds have been awarded and expended for authorized purposes in as prompt
   and efficient a manner as possible while safeguarding against fraud, waste, and abuse. Reporting associated with
   this funding has been performed clearly, transparently, and comprehensively. Monitoring has been and will continue
   to be conducted to insure that recipients are meeting the goals stated in their application and as incorporated into
   award documents, and will also focus on the results of these activities.

   In addition, the Department assessed the effectiveness of internal control over financial reporting, which includes
   safeguarding of assets and compliance with applicable laws and regulations, in accordance with the requirements
   of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the Department can provide
   reasonable assurance that its internal control over financial reporting as of June 30, 2011, was operating effectively
   and no material weaknesses were found in the design or operation of the internal control over financial reporting.
   Further, no material weaknesses related to internal control over financial reporting were identified between
   July 1, 2011 and September 30, 2011.

   Based on reviews conducted by the Department, it has been able to determine that its financial systems are in
   conformance with government-wide requirements.




                                                                     John E. Bryson
                                                                     Secretary of Commerce
                                                                     November 15, 2011




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               27
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




            F ederal M A N A G E R S ’ F I N A N C I A L I N T E G R i T Y A C T ( F M F I A ) O F 1 9 8 2

       The objective of the Department’s management control system is to provide reasonable assurance that:

       ●●   obligations and costs are in compliance with applicable laws;

       ●●   assets are safeguarded against waste, loss, and unauthorized use of appropriations;

       ●●   revenues and expenditures applicable to Agency operations are properly recorded and accounted for, permitting
            accurate accounts, reliable financial reports, and full accountability for assets; and

       ●●   programs are efficiently and effectively carried out in accordance with applicable laws and management policy.

       During FY 2011, the Department reviewed its management control system in accordance with the requirements of
       FMFIA, OMB, and Departmental guidelines.

       Section 2 of FMFIA – Internal Management Controls

       Section 2 of FMFIA requires that federal agencies report, on the basis of annual assessments, any material weaknesses
       that have been identified in connection with their internal and administrative controls. The efficiency of the Department’s
       operations is continually evaluated using information obtained from reviews conducted by the Government Accountability
       Office (GAO) and the Office of Inspector General (OIG), evaluations conducted by other federal agencies such as the
       Office of Personnel Management, and other specifically requested studies. The diverse reviews that took place during
       FY 2011 relative to non-financial controls provide assurance that Department systems and management controls comply
       with standards established under FMFIA.

       Information technology (IT) security continued to receive considerable focus throughout the year. Beginning in FY 2001, the
       Department had reported IT security as a material weakness every year until FY 2010 due to serious concerns relating to
       certification and accreditation (C&A) processes and documentation for non-financial IT systems. Last year’s determination
       that this area no longer merited designation as a material weakness was possible as a result of the implementation of
       a two-year strategy that had been jointly developed by the Office of the Chief Information Officer (OCIO) and the OIG.
       This included activities such as establishing a Department-wide tracking tool for security reporting and monitoring to
       improve the quality and consistency of the C&A process; developing and implementing a Cyber Security Strategic Plan in
       collaboration with the bureaus; instituting a Cyber Security Development Program, a Department-wide, risk-based training
       program; and employing an IT Audit Working Group through which the OCIO and the Office of Financial Management
       worked to develop enterprise-wide solutions for prior findings.

       As reliance on electronic systems and the Internet to conduct business of all types has continued to grow, cyber attacks
       on the business community and public sector agencies have also increased. Such threats are evolving in sophistication
       and increasingly difficult to deter. As such, IT security received concentrated effort across the Department in FY 2011 and
       will continue to do so in the foreseeable future. Because of the importance of IT security, both within the Department and
       across government, it merits a high level of on-going attention and internal monitoring, but does not represent a material
       weakness.

       The following table reflects the number of material weaknesses reported under Section 2 of FMFIA in recent years by the
       Department. It shows the elimination of one material weakness, i.e., non-financial system IT security, in FY 2010.




  28                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




        	                           NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 2
                                   Number At                                                       Number Remaining
                                  Beginning Of         Number Corrected          Number Added       At End Of Fiscal
                                   Fiscal Year                                                           Year
                FY 2008                  1                       0                          0               1
                FY 2009                  1                       0                          0               1
                FY 2010                  1                       1                          0               0
                FY 2011                  0                       0                          0               0


IT Security Receives Continued Focus

The OCIO conducts reviews of IT investments to ensure their efficiency and effectiveness in supporting the Department’s
mission. The Department, following OMB policies and guidelines and complying with Federal Information Security
Management Act (FISMA) requirements, oversees and manages IT resources by establishing and implementing policies
and controls to mitigate IT risks.

As mentioned above, in FY 2009, the Department developed and adopted a two-year strategy to comprehensively respond
to the material weakness in IT security that had been reported for several years. This comprehensive strategy was
designed to improve C&A processes and documentation, which incorporated realistic milestones, identified measurable
steps, and established consistent and repeatable C&A practices. One of the most significant impacts was Department-
wide leverage of a tracking tool for security reporting and monitoring to improve the quality of the C&A process. Additional
efforts included developing a Cyber Security Strategic Plan with input from the bureaus, implementing a Cyber Security
Development Program, establishing a role-based, Department-wide training program, and employing the IT Audit Working
Group—a joint effort between the OCIO and the Office of Financial Management—to resolve prior year findings and
design enterprise-wide solutions.

While progress has been made in establishing and maintaining a strong IT security posture, additional work remains.
The OIG has noted IT security control deficiencies in the areas of continuous monitoring, corrective action management,
and contingency plan testing in its FY 2010 FISMA report as well as in Web security in its FY 2011 Web Applications
Security Audit. As a result of its findings, the OIG has recommended that the IT security program be considered as a
significant deficiency.

The OCIO has worked to develop a Cyber Security Strategic Plan to further strengthen the Department’s IT security posture
and operations, and continues to conduct rigorous IT security compliance reviews based on FISMA requirements, OMB
policy, National Institute of Standards and Technology (NIST) standards and guidelines, and previous recommendations
made by the OIG regarding C&A processes and documentation. Other efforts during FY 2011 included:

OCIO Balanced Scorecard and Top Security Controls. The Department developed and reviewed quarterly an OCIO
Balanced Scorecard, which measures progress involving “authority to operate” requirements for information systems,
plan of action and milestones (POA&M) management, IT security workforce, continuous monitoring, and enterprise-
wide initiatives. This included implementing and tracking progress for the top three security controls (i.e., configuration,
vulnerability, and patch management) and monitoring progress on additional controls selected by bureaus.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               29
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       IT Risk Management Framework. An intra-agency team worked to overhaul the Department’s IT Risk Management
       Framework, moving from a compliance and documentation-based approach to one that emphasizes automated testing of
       security controls and a shift toward near real-time situational awareness through continuous monitoring and planning for
       Department-wide migration to the Risk Management Framework.

       Enterprise Initiatives. Among its other activities, the Department completed selection of a Managed Trusted Internet
       Protocol Service vendor to support the Hoover Building network in accordance with the Trusted Internet Connection
       initiative from OMB. Implementation is expected to be completed during the first quarter of FY 2012. It also (1) developed
       and distributed the Commerce Identity, Credential and Access Management (ICAM) baseline, target and roadmap in
       accordance with federal ICAM guidance issued by the federal CIO Council; (2) launched Commerce Continuous Monitoring
       Working Group and developed a Department-wide strategy to meet the automated CyberScope reporting requirements
       from OMB; and (3) established a Department-wide standard for automated FISMA reporting and working toward a
       standard for endpoint protection.

       IT Security Policy. The Department provided policy guidance for wireless encryption and contingency plan testing
       and exercise activities; for further implementation of Homeland Security Presidential Directive-12 (HSPD-12) regarding
       personal identity verification for Commerce information systems; and for Bluetooth, configuration management, and Risk
       Management Framework transition.

       IT Security Training. In FY 2011, the Department (1) launched an automated training module on personally identifiable
       information as a companion to general IT security awareness training; (2) hosted the first annual Commerce IT Security
       Conference with 31 sessions for general management and technical information system security staff that covered
       such topics as continuous monitoring, mobile device security, social networking, cloud computing, and managing remote
       workforces; (3) completed the second cycle of the Cyber Security Development Program with 19 individuals graduating
       from the program and 33 IT security personnel obtaining professional certifications; and (4) developed an informational
       brochure discussing the Department’s IT Security Program and best practices employed by the bureaus.

       Compliance. The Department continued bi-weekly IT Audit Working Group meetings to track, manage, and validate
       progress in closing IT audit findings identified in the FY 2010 financial statements IT audit report. Focused efforts by the IT
       Audit Working Group resulted in the bureaus reporting that the vast majority of findings were closed. The Department also
       conducted 20 security assessments of programs, applications, and systems as part of FY 2011 internal control reviews;
       and performed monthly reviews of information systems utilizing the Cyber Security Assessment and Management tool.
       These reviews tracked “authority to operate” status and POA&M implementation, and have assisted bureau management
       in making progress in both of these areas.


       IT Investment Review Process

       Since IT expenditures represent a significant portion of the Department’s annual budget—major IT investments totaled
       approximately $2.4 billion in FY 2011—it is critically important that they receive close management attention. This is
       accomplished through an OCIO-led capital planning and investment control process that continues to be strengthened
       to provide broader and deeper analysis of proposed IT investments, projects under development, and projects that are in
       operation as well as of the overall performance of the portfolio.

       This process is based on OMB Circular A-11, Exhibit 300, Capital Asset Plan and Business Case Summary, and Exhibit
       53, Agency IT Investment Portfolio, and is linked to all IT planning processes and documents within the Department.




  30                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




In a cooperative effort with the Office of Budget and the Office of Acquisition, the OCIO established OMB’s Exhibit
300 as the document to use in summarizing the business case for each IT project, and as the foundation for budget
justifications, acquisition approvals, and major system reviews. This provides the Department with a consistent
foundation for monitoring the selection, control, and evaluation of major IT investments, thereby helping to verify that
proposed investments contribute to the Department’s strategic vision, mission requirements, and performance goals.
It also helps ensure that the bureaus employ sound IT investment methodologies, comply with Departmental and federal
architectures, and provide the highest return on the investment at acceptable project risk.

The OCIO continues to work closely with the Office of Budget to establish a framework and schedule for linking the
IT investment review of proposed initiatives with the budget process. As initiatives are developed by the bureaus
for submission to the Department, those initiatives that have a significant IT component are reviewed by the OCIO.
Major proposals are reviewed by the Commerce IT Review Board (CITRB), which is co-chaired by the CIO and the
Chief Financial Officer/Assistant Secretary for Administration (CFO/ASA), and includes the Department’s Budget Officer,
Procurement Executive, Director for Financial Management, and selected bureau CIOs. The CITRB evaluates proposals
relative to their contribution to mission, performance measures, IT security and privacy management, funding, risk
management, acquisition strategy, viability and appropriateness, conformance to Departmental and federal architectures,
and overall project management. Guidance for improving project proposals is provided by the CITRB and the OCIO, as
appropriate. As a result of this extensive Departmental review, all IT-intensive budget initiatives forwarded to OMB have
the best possible IT management plan associated with them.

The CITRB continues to place emphasis on the link between proposed IT investments and top level program performance
measures, IT security and privacy, and the qualifications of IT project managers and Contracting Officers who manage
IT programs. The CITRB ensures that high quality C&A packages, which are critical to the confidentiality, integrity, and
availability of IT investments, are in place. By ensuring that qualified managers are available for these programs, the risk
associated with large-scale IT investments is significantly reduced. The OCIO leads a continuing training process for IT
project managers, working together with the Office of Human Resources Management, to ensure that the Department
has a pool of well-qualified IT project managers for new and ongoing projects.

To assist with this effort, the OCIO has adopted the OMB-mandated “TechStat” process which is a risk-based review
by Departmental senior management that identifies any need for corrective action for major IT investments that are
underperforming and not providing value to the taxpayer. Further, to provide even more rigorous cost, schedule, and
performance analyses, the Department systematically uses Earned Value Management for its IT investments. This provides
a mechanism for regularly monitoring the performance of IT projects and early warning signals when they may not be
meeting cost, schedule, or performance goals. Additionally, bureau CIOs are required to conduct operational analyses
to certify that steady-state investments also adhere to cost, schedule, and performance goals. Bureau reviews of IT
projects are also supplemented with formal evaluation or post-implementation reviews by the CITRB. This comprehensive
approach helps ensure all project managers are able to benefit from lessons learned from other implementation efforts.

These efforts help to ensure that the Department’s IT projects are developed and implemented as planned. On average,
major IT investments undergoing development or enhancement operated within five percent of their cost, schedule, and
performance targets during FY 2011.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               31
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Future Efforts in IT Security

       The Department is continually working to adapt to an ever changing IT security environment. It has developed an effective
       IT strategic plan to help ensure that it achieves it goals of implementing a Risk Management Framework and Trusted
       Internet Connections, increasing operational security with the continued development of the Security Operations Center,
       expanding assessments of technical controls as part of the OCIO’s annual review of the bureaus, and deploying additional
       role-based training under its Cyber Security Development Program in FY 2012. The Department will also continue to
       update and issue policy guidelines as appropriate. These steps will continue to strengthen the Department’s overall IT
       security posture and protection of its IT systems and information.

       Section 4 of FMFIA – Internal Controls over Financial Management Systems

       As reflected in the following table, the Department has reported no material weaknesses under FMFIA Section 4 in recent
       years.


                                      Number Of Material Weaknesses Under Section 4
                                          Number At                                                                Number Remaining
                                         Beginning Of          Number Corrected            Number Added             At End Of Fiscal
                                          Fiscal Year                                                                    Year
                      FY 2008                  0                         0                          0                        0
                      FY 2009                  0                         0                          0                        0
                      FY 2010                  0                         0                          0                        0
                      FY 2011                  0                         0                          0                        0


       Based on reviews conducted by the Department and its bureaus for FY 2011, the financial systems in the Department are
       compliant with GAO principles and standards, the requirements of the CFO Act, and OMB requirements.


       No material weaknesses relative to financial controls were identified for the period July 1, 2010 through June 30, 2011, the
       reporting period established by OMB Circular A-123. Further, with limited review and inquiries, no material weaknesses
       related to internal control over financial reporting were identified between July 1, 2011 and September 30, 2011.


       Other Internal Control Enhancement Activities Continue

       During FY 2011, the Department’s comprehensive effort to enhance management of internal controls under OMB Circular
       A-123 continued. Progress made in implementing Appendix A to the circular, which relates to financial internal controls,
       included:

       ●●   The Department continued to lead this annual process, utilizing a three-year rotational testing plan that incorporates a
            risk-based approach based on assessments of key processes and the results of previous audits. Under this approach,
            high-risk cycles are selected for annual testing and low to moderate-risk cycles are tested every three years. Selected
            test procedures at specific locations or on specific sub-processes are performed as often as needed based on
            specifically identified risks, and limited controls review assessment surveys are utilized for cycles that are not being
            tested in any given year.




  32                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




●●   The Department’s Senior Management Council implemented, directed and oversaw the assessment process, and a
     working-level Senior Assessment Team (SAT) developed A-123 planning documentation, administered internal control
     test plans, and monitored and reviewed test work as it progressed.

●●   The Departmental sampling plan and Department-wide testing templates for selected key processes and sub-processes
     were updated as necessary.

●●   Each of the Department’s bureaus completed an entity-level controls assessment as required by OMB Circular A-123,
     Appendix A.

●●   Through the SAT, the Department initiated a comprehensive internal control assessment that will continue into FY 2012
     and will involve all grant-making bureaus and service providers. The assessment will include grants program process
     mapping, risk identification, development and completion of a grants program and grants administration internal
     control risk assessment questionnaire, evaluation and scoring of risk categories, and eventual testing of grant internal
     controls.

●●   The SAT performed quarterly validation and verification of the Department-wide effort to achieve acquisition savings.
     This included selecting samples and reviewing supporting documentation, developing guidance and definitions to help
     standardize the identification and classification of savings, and strengthening the process for documenting savings
     under this initiative.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                33
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         F ederal F I N A N C I A L M A N A G E M E N T I M P R O V E M E N T A C T ( F F M I A ) O F 1 9 9 6




        U 
                  nder FFMIA, the Department is required to have financial management systems that comply with federal
                  financial management system requirements, federal accounting standards, and the U.S. Government Standard
                  General Ledger (USSGL) at the transaction level. In FY 2011, the Department remained in compliance with
       FFMIA.


                                           R E P O RT O N AU D I T F O L L OW- U P




        T 
                 he Inspector General Act, as amended, requires that the Secretary report to Congress on the final action taken
                 for Inspector General audits. This report covers Commerce Department audit follow-up activities for the period
                 June 1, 2010, through May 31, 2011.


                                             Summary of Activity on Audit Reports
                                                june 1, 2010 through May 31, 2011
                                                                         Funds to be Put to                Nonmonetary
                                     Disallowed Costs1                      Better Use2                      Reports3             Total
                               Number of                            Number of                               Number of
                                Reports            Dollars           Reports             Dollars             Reports             Reports
        Beginning Balance           21          $	 7,245,434            10          $	 42,177,562                18                 49
        New Reports                  7              2,585,728             2                 766,757              17                 26
        Total Reports               28              9,831,162           12               42,944,319              35                 75
        Reports Closed             (10)            (2,772,176)           (8)             (40,933,590)            (13)              (31)
        Ending Balance              18          $	 7,058,986              4         $	 2,010,729                 22                 44
        1.	Disallowed costs are questioned costs that management has sustained or agreed should not be charged to the government.
        2. 	“Funds to be put to better use” refers to any management action to implement recommendations where funds should be applied
            to a more efficient use.
        3.	Includes management, contract, grant, loan, and financial statement audits with nonmonetary recommendations.



                                               BIENNIAL REVIEW OF FEES




        O 
                   MB Circular A-25, User Charges, requires the biennial review of agency programs to determine whether fees
                   should be charged for government goods or services, and to ascertain that existing charges are adjusted to
                   reflect unanticipated changes in costs or market values.

       The Department conducts a review of its programs biennially, with some bureaus conducting annual reviews. In the
       current review, it was noted that the Department is in compliance with the requirement to adjust its fees to meet the
       Circular A-25 requirement of full-cost recovery for user charges.




  34                                             F Y   2 0 1 1   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      A merican R ecov er y and R ein v estment Act ( A R R A ) O F 2 0 0 9 P rograms




 I 
       n FY 2009, Congress passed ARRA, providing funds for several agencies including the following within the
       Department: OIG, EDA. NOAA, NIST, and NTIA. The following section provides tables for each of the agencies
       that received funds that had results appearing in FY 2011 and beyond. The tables include: program name, funding
amount, brief description of what the funds are provided for, performance measures/results, and comments if provided
by the agencies.


    Bureau                                             Office of Inspector General (OIG)
 Program            Office of Inspector General

 Amount             $16.0M (includes $10 million for oversight of NTIA’s Broadband Technology Opportunity Program)

                    These funds are for general oversight of the Department’s ARRA activity. Early OIG uses include emphasis
                    on training of grants and contract officers to alert them to the signs of potentially fraudulent or wasteful
                    activity by grantees or contractors. The OIG audit work has included a review of the Department’s pre-award
 Description        process, the recipient reporting procedures required by ARRA, and the Department’s implementation of the
                    various grant programs. The OIG has put many of its resources into its oversight of NTIA’s monitoring of its
                    Broadband Technology Opportunities Program (BTOP) program because it was a new program with many
                    first-time recipients of federal funds.

                                               Measures                                        FY   Target          Actual
                    Complaints - received                                                  2010                         16
                                                                                           2011                         17
                    Whistleblower reprisal allegations:
                                                                                           2010                         1
                        ●●   Received
                                                                                           2011                         0
                                                                                           2010                         1
                        ●●   Accepted                                                      2011                         0
                    Investigations:
                                                                                           2010                          2
                        ●●   Closed without action
                                                                                           2011                         10
                                                                                           2010                          0
                        ●●   Accepted for prosecution
                                                                                           2011                          0
                                                                                           2010                          0
                        ●●   Prosecution denied
                                                                                           2011                          0
 Performance                                                                               2010                          0
 Measures/              ●●   Referred for alternative resolution                           2011                          0
 Results
                    Audits/Inspections/Evaluations/Reviews:
                                                                                           2010                         7
                        ●●   Final published work products
                                                                                           2011                         4
                                                                                           2010                         3
                        ●●   Interim published work products
                                                                                           2011                         1
                                                                                           2010                         0
                        ●●   Unpublished work products                                     2011                         0
                    Training/Outreach:
                                                                                           2010                        24
                        ●●   Training sessions provided
                                                                                           2011                        13
                                                                                           2010                       1,068
                        ●●   Individuals trained
                                                                                           2011                       1,459
                                                                                           2010                       1,171
                        ●●   Hours of training provided
                                                                                           2011                       1,629
                                                                                           2010                         7
                        ●●   Outreach sessions conducted
                                                                                           2011                         0




F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   35
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




             Bureau                                     Economic Development Administration (EDA)
        Program               Economic Development Assistance Programs (EDAP)

        Amount                $150.0M

                              EDA will direct funding through its existing program structures. Since EDA has always engaged in the
                              activities described in the ARRA, EDA will utilize the funding to accomplish the ARRA’s purposes, which
                              are consistent with its existing mission. Of the $147 million allocated to EDAP ($3 million was allocated to
                              salaries and expenses (S&E)), EDA funded $141.3 million in “brick and mortar” infrastructure investments.
                              EDA gave preference to projects that have the potential to quickly stimulate job creation and promote
                              regional economic development, such as investments that support science and technology parks, industrial
        Description           parks, business incubators, and other investments that spur entrepreneurship and innovation. Since ARRA
                              calls on EDA to “give priority consideration to areas of the Nation that have experienced sudden and severe
                              economic dislocation and job loss due to corporate restructuring,” EDA allocated funding to the regional
                              offices using a hybrid of its traditional allocation formula. Given the changing economic conditions, EDA
                              utilized an allocation method that minimized the use of lagging indicators. The Agency utilized three-month
                              unemployment1 figures, as this represented the most contemporary data on unemployment that was
                              available, and allowed EDA to ensure resources were being directed to the areas with the greatest need.

                                       Name                              Explanation                            FY          Target         Actual
                              Percentage of ARRA           A proxy measure for ensuring a high                 2011           10%             33%
                              construction grants          percentage of projects are expeditiously
                              investments that have        executed.
                              been completed

                              Percentage of                File must demonstrate ALL of the                    2011           90%             TBD
                              ARRA award files             following for compliance: (1) recipient
                              audited meeting all          submitted ARRA-required jobs report
                              compliance criteria          on time OR the regional office notified
                                                           recipient of a late report within 30 days;
        Performance                                        (2) recipient submitted all performance
        Measures/
        Results                                            and financial reports on time OR the
                                                           regional office notified recipient of a late
                                                           report within 30 days; (3) all terms and
                                                           conditions of the grant were fulfilled and
                                                           documented OR the regional office took
                                                           appropriate action; (4) all appropriate
                                                           terms and conditions were included in
                                                           the grant documents; and (5) the award
                                                           file demonstrates that the regional
                                                           office reviewed all recipient audits, as
                                                           required by A-133, for findings and took
                                                           appropriate action.

                              EDA is working closely with ARRA grantees to ensure full compliance with the requirements of the act.
        Comments              EDA has held face-to-face meetings, conference calls, and Webinars as well as developed lessons-learned
                              reports to educate ARRA grantees on recipient reporting requirements and deadlines.
        1   	 When this measure was developed, OMB directed grantees to report cumulatively. However, subsequent OMB guidance directs
              grantees to provide FTE values on a quarterly basis, rather than cumulatively, and has directed agencies not to aggregate these values.
              Quarterly data are available at Recovery.gov.




  36                                                   F Y   2 0 1 1    P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Bureau                        National Oceanic and Atmospheric Administration (NOAA)
 Program            Operations, Research, and Facilities

 Amount             $230.0M

                    Hydrographic Survey Backlog – $40 million to reduce the critical hydrographic survey backlog by approximately
                    1,700 square nautical miles. The critical areas to be addressed have high commercial traffic or hazardous
                    material transport, compelling requests from navigation services users, or seafloor areas that have not been
                    surveyed to modern standards.

                    Marine and Coastal Habitat Restoration – $167 million to support mid and large-scale restoration projects
                    addressing coral reef conservation, restoration of fish habitats that benefit commercial and recreational
                    fisheries, recovery of endangered species such as salmon and sea turtles, and improvement of coastal
 Description
                    resiliency in response to sea level rise and natural hazards.

                    Environmental Reviews and Consultations – $3 million to address the current backlog of Endangered Species
                    Act (ESA) Section 7 consultations and, if required, environmental reviews and consultations associated with
                    projects funded by ARRA.

                    Vessel Maintenance and Repair – $20 million to address critical repairs and replacements to NOAA’s fleet of
                    research and exploration vessels.

                                                Measure                                      FY        Target          Actual
                    Acres of habitat restored for ocean, coastal, and Great Lakes            2011        4,888          10,318
                    resources (GPRA)                                                         2012        2,007            TBD
                    Stream miles made accessible for ocean, coastal, and Great               2011         275             184
                    Lakes resources                                                          2012          4              TBD
                                                                                             2010       2,300            1,502
                    ARRA cumulative number of FTE/quarter supported
                                                                                             2011      none set           TBD
                                                                                             2010       3,000             377
 Performance        Hydrographic survey backlog within navigationally significant
 Measures/                                                                                   2011       2,400            2,278
                    areas (square nautical miles surveyed per year)
 Results                                                                                     2012        300              TBD
                    Percentage of ARRA-related consultations conducted
                                                                                             2010         70               86
                    on time
                    Number of received ARRA-related requests for consultations
                                                                                             2010         100             TBD
                    versus the number of ARRA-related consultations completed
                    Percentage of planned milestones met for vessel                          2010         80               51
                    maintenance and repairs                                                  2011         100             100
                                                                                             2010        3,757            456
                    Shoreline compilation completed
                                                                                             2011        3,876            TBD
                                                                                                                       (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     37
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Bureau                  National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program          Operations, Research, and Facilities (continued)

                         Habitat Restoration – NOAA is using GPRA, Corporate, and ARRA-specific measures to track program
                         performance. Those are Acres restored (GPRA), Stream miles opened (Corporate), and the Number of jobs
                         created/sustained (ARRA-specific). Since project selection, NOAA developed outcome-based ecological
                         metrics by project type to measure the impact of groups of projects on coastal ecosystems.

                         Hydrographic Survey Backlog – NOAA conducts hydrographic surveys to determine the depths and
                         configurations of the bottoms of water bodies, primarily for U.S. waters significant for navigation. This
                         activity includes the detection, location, and identification of wrecks and obstructions with side scan and
                         multi-beam sonar technology and the global positioning system (GPS). NOAA uses the data to produce
                         traditional paper, raster, and electronic navigational charts for safe and efficient navigation, and in addition
                         to the commercial shipping industry, other user communities that benefit include recreational boaters, the
                         commercial fishing industry, port authorities, coastal zone managers, and emergency response planners.
        Comments
                         Environmental Reviews and Consultations – NOAA focuses on the number of ARRA-related projects that
                         NOAA has timely reviewed for environmental impacts so that action agencies may minimize and mitigate
                         the impacts of these projects on the environment. Based on historical trend rates and available resources,
                         NOAA expects to complete 70 percent of them on time. External federal agencies require consultations
                         from the National Marine Fisheries Service on Endangered Species Act and essential fish habitat per the
                         Endangered Species Act and Magnuson-Stevens Reauthorization Act.

                         Vessel Maintenance and Repair – There has been an 89 percent increase in the number of significant
                         mechanical/electronic failures on NOAA’s ships and a 62 percent increase in lost days-at-sea for NOAA
                         programs—from 184 days-at-sea in FY 2005 to 299 days-at-sea in FY 2008. It is critical to maintain NOAA’s
                         aging ships, while meeting increasingly restrictive maritime standards. There are a total of 45 milestones for
                         all of the ships projects.




  38                                            F Y   2 0 1 1   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Bureau                         National Oceanic and Atmospheric Administration (NOAA)
 Program            Procurement, Acquisition, and Construction

 Amount             $600.0M

                    NOAA Climate Computing and Modeling – $170 million to accelerate and enhance NOAA’s High Performance
                    Computing (HPC) capabilities.

                    NEXRAD Dual Polarization Modification Acceleration – $7.4 million to accelerate the NEXRAD Dual Polarization
                    effort.

                    Weather Forecast Office (WFO) Construction – $9 million to accelerate WFO upgrade and modernization
                    projects in Barrow and Nome, AK, as well as upgrades to the HVAC systems of other WFOs.

                    Accelerate Satellite Development – $74 million to accelerate funding for the National Polar-orbiting Operational
                    Environmental Satellite System (NPOESS) and climate sensors on NOAA’s critical polar-orbiting satellites.

                    Pacific Regional Center – $154 million to complete the construction of the entire Pacific Regional Center on
                    Ford Island in Honolulu, HI.
 Description
                    Southwest Fisheries Science Center (SWFSC) – $81.2 million to complete the design, construction, and
                    occupancy of the replacement SWFSC facility in La Jolla, CA.

                    Fairbanks Satellite Facility Construction – $9 million to continue the replacement of the at-risk Fairbanks
                    Operations Building in Fairbanks, AK.

                    Facility Maintenance and Repair – $15.6 million to fund facility maintenance and repair issues. NOAA will
                    use this funding to address critical facility repair issues in order to ensure the health and safety of its
                    employees.

                    Fishery Survey Vessel Construction – $79.8 million to complete the construction of a fisheries survey vessel
                    (FSV6), an OSCAR DYSON class vessel, will replace the San Diego-based DAVID STARR JORDAN and is
                    intended to serve the SWFSC. The ship will not be fully operational until FY 2014.

                    NOAA Procurement, Acquisition, and Construction obligations for ARRA were $580.6 million or 97 percent
                    of the Congressional approved spend of $600 million. Of the remaining funds, approximately $16.7 million
                    is classified as “lapsed obligations.” The lapsed obligations are from funds transferred to the U.S. Army
 Performance        Corps of Engineers for repair to NOAA’s Norfolk facility seawall, and the Department of Navy’s Naval
 Measures/          Facilities Engineering Command for construction-related services required to construct the new Pacific
 Results            Regional Center at Ford Island Hawaii that resulted in contract awards less than the money provided.
                    The $16.7 million to be returned as lapsed obligations resulted from acquisitions accomplished between
                    September 1 and 24, 2010, too late for NOAA to reprogram to other ARRA projects. The following are the
                    performance measures and outcomes:

                                                                                                                          (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        39
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Bureau                 National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program          Procurement, Acquisition, and Construction (continued)

                                                 Measure                                    FY             Target           Actual
                                                                                           2010               12                14
                         Severe weather warnings for tornados – Lead time                  2011               12            12 (target)
                                                                                           2012               13               TBD
                                                                                           2010               70                72
                         Severe weather warnings for tornados – Accuracy                   2011               70            70 (target)
                                                                                           2012               72               TBD
                                                                                           2010               72                74
                         Severe weather warnings for tornados – False alarm rate           2011               72            72 (target)
                                                                                           2012               71               TBD
                                                                                           2010               38                71
                         Severe weather warnings for flash floods – Lead time              2011               38            38 (target)
                                                                                           2012               40               TBD
                                                                                           2010               72                79
                         Severe weather warnings for flash floods – Accuracy               2011               72            72 (target)
        Performance
        Measures/                                                                          2012               74               TBD
        Results                                                                            2010              TBD
        (continued)      Percentage of safety and conditions indices improvements
                                                                                           2011
                         for NOAA’s facility maintenance and repair projects
                                                                                           2012
                         Percentage of planned milestones met for NPOESS program           2010              83%                 83%
                                                                                           2010               32                  32
                         Percentage of planned milestones met for climate
                                                                                           2011               37                 TBD
                         instruments
                                                                                           2012               31
                                                                                           2010              120               90
                         Amount of megawatts saved from HVAC systems
                                                                                           2011              200           200 (target)
                         renovations
                                                                                           2012              200
                         Increase number of fish stocks with fishery-independent           2012              174
                         data needed to support adequate assessments                       2013              184
                         Increase the number of high priority protected species
                         with fishery-independent data to support adequate                 2013               13
                         population assessments
                         Increase number of program mission days-at-sea available
                                                                                           2014              220
                         to the Southwest Fisheries Science Center
                         NEXRAD Radar Systems and Dual Polarization – These funds will accelerate the dual polarization effort of the
                         next generation Doppler weather radar system (NEXRAD) that will allow signals to be transmitted and
                         received in two dimensions, resulting in a significant improvement in precipitation estimation; improved
                         ability to discriminate rain, snow, and hail; and a general improvement in data quality. The new system
        Comments
                         will improve flash flood warnings, improve precipitation estimates and severe weather detection, including
                         snow storms and icing conditions for air and ground transportation. These funds will not impact this target
                         until at least FY 2013. This is because forecasters need at least one full year of data before they can verify
                         and adjust outyear targets; and, the kits will not be installed until early FY 2011.

                                                                                                                                (continued)




  40                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Bureau                   National Oceanic and Atmospheric Administration (NOAA) (continued)
 Program            Procurement, Acquisition, and Construction (continued)

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Pacific Regional Center – NOAA will improve
                    the safety and condition indices at NOAA’s facilities through the collocation of NOAA employees on the
                    island of Oahu at the Pacific Regional Center. This collocation will also support improved efficiency and
                    effectiveness for employees in operations and mission performance by creating greater opportunity for
                    program collaboration and synergy.

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Fairbanks Satellite Operations Facility – NOAA
                    will improve the safety and condition indices at NOAA’s facilities through improving the health and safety
                    of employees at the Fairbanks Satellite Operations Facility by providing a new building that mitigates the
                    hazards of working within a seismic zone.

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Regional Facilities – NOAA will improve the
                    safety and condition indices at NOAA’s facilities through mitigating the risks from facility deficiencies
                    and health hazards, such as asbestos, the Galveston Laboratory, Geophysical Fluid Dynamics Laboratory,
                    Marine Operations Center–Atlantic, Milford Laboratory, Panama City Laboratory, and SWFSC–Pacific Grove.

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Southwest Fisheries Science Center – NOAA will
                    improve the safety and condition indices at NOAA’s facilities through replacing the SWFSC in La Jolla, CA,
 Comments           with a new, modern facility that will expand NOAA’s ability to develop and apply advanced technologies
 (continued)        for surveys of fisheries resources and their associated ecosystems and foster collaboration on fisheries
                    management issues through the construction of a large sea and fresh-water test tank.

                    Vessel Construction – The construction of a FSV6 vessel improves NOAA’s ability to more accurately manage
                    fisheries stocks. FSV6 will be designed and constructed with state-of-the-art technologies and specialized
                    survey equipment, which will produce significantly higher quality at-sea data, improved quality-of-life
                    outfitting and mission productivity. The enhanced FSV6 capabilities will deliver more precise and accurate
                    NOAA stock assessments for more effective management of living marine resources.

                    Cumulative Number of New Decadal Prototype Forecasts and Predictions Made with High-resolution Coupled
                    Climate Model – Decadal prediction was initially targeted to be attacked with an intergovernmental panel on
                    climate change—fourth assessment report class model with relatively low resolution. The ARRA computing
                    has allowed the use of a coupled climate model with approximately four times the resolution. Research
                    into decadal predictability will inform prototype forecasts incorporating new data assimilation schemes
                    using this high-resolution model. This will provide, for the first time, scientifically credible, regional scale
                    climate information, with estimates of uncertainty, to decisionmakers for improved management of water
                    resources, the coasts, transportation infrastructure, agriculture, and other sectors impacted by climate,
                    and to provide the Nation with early warnings of climate “surprises” resulting from climate variations on
                    decadal timescales.

                                                                                                                        (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       41
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Bureau                  National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program          Procurement, Acquisition, and Construction (continued)

                         Number of Regional Scale Projections for Assessments and Decision Support – Enhanced computing will enable
                         regional scale projections and will contribute to international assessments (e.g., IPCC AR5, scheduled for
                         2013), national assessments under the U.S. Global Climate Research Program, and other assessments as
                         requested. The number of meaningful regional projections possible will increase as NOAA’s earth system
                         model increases in realism and complexity. Examples of regional scale projections include: regional sea
                         level rise projections that require explicit representation of the global eddy field in the ocean models;
                         projections of parameters essential to ocean and coastal ecosystem forecasting; assessment of regional
                         carbon budgets; and projections of climate change in the Arctic region that require improved sea ice
                         models. Better information in these areas will improve decisions in transportation, fisheries and other
                         marine ecosystems, and emergency managers responsible for safety and infrastructure along the coasts.

                         Percentage Uncertainty in Possible 21st Century Sea Level Rise (0-1m = 100% uncertainty) – This metric is calculated
                         using the IPCC 4th Assessment Report estimates for the range of 21st century global-mean sea level rise.
                         Completion of the proposed effort will reduce the uncertainties by almost half as a result of modeling that
                         better captures the more accurate measurements of ice-sheet discharge, thermal expansion, and regional
                         anomalies due to ocean circulation and heat storage. These model improvements are a direct result of ARRA-
                         funded computing. Reducing the uncertainty in sea level rise will allow government and industry to have better
                         information on projected sea level rise and therefore tailor their planning and actions to address the impacts.

                         Cumulative Number of New Functionalities Incorporated into Earth System Model to Improve Realism of Climate
                         Simulation – Improve the realism of the NOAA earth system models by closing the nitrogen and phosphorus
                         cycles and improving the simulation of impacts of quality air on plant growth. Enhanced computing permits
                         the implementation of mechanistic models of biospheric processes in a comprehensive earth system
                         model which will reduce the uncertainty of future climate projections and provide more scientifically-
        Comments         credible information to managers of land and marine ecosystems and better estimates of carbon sources
        (continued)      and sinks.

                         Cumulative Number of Assessments of Carbon, Trace Gas and Aerosol Budgets and Feedbacks – Assessments are
                         one of the principal means by which credible scientific information is communicated to policymakers and
                         other stakeholders. Enhanced computing permits additional biogeochemical cycles to be included in NOAA
                         earth system models and so assessments of impacts of these additional processes improve the scope and
                         credibility of this information.

                         Improved Treatment of Key Physical Processes in Climate Models Aimed at Improving: Model Performance,
                         Understanding of Uncertainties, and Confidence in Climate Change Projection and Predictions – This performance
                         measure will reflect more confident projections of key climate change impacts. Better scientific
                         understanding of the key processes of clouds, aerosols, and water vapor in the earth system will lead to
                         research advances built into climate models that will then produce better predictions and projections to
                         address climate change impacts.

                         Accelerate Satellite Observations

                            Percentage of Planned Milestones Met for NPOESS program – NPOESS will conduct electrical payload critical
                            path reduction in calendar year 2009 and calendar year 2010.

                            Percentage of Planned Milestones for Climate Instruments – NOAA will accelerate the development of two
                            climate sensors, TSIS and CERES. These climate sensors will improve the Nation’s ability to collect and
                            distribute higher-resolution data and products to improve forecasts and climate monitoring. Corporate
                            performance measures will be evaluated by monitoring the percent of planned contract milestones
                            accomplished within 60 days of target. Nineteen major milestones are associated with these activities.




  42                                             F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Bureau                          National Institute of Standards and Technology (NIST)
 Program            Scientific and Technical Research and Services (STRS)

 Amount             $220.0M

                    The ARRA includes $220 million in STRS funding for “research, competitive grants, additional research
                    fellowships and advanced research and measurement equipment and supplies,” as stipulated in the
 Description        conference report to PL 111-5. The ARRA also provides for NIST $20 million from the Department of Health
                    and Human Services (HHS) for health information technology (IT), and $12 million from the Department of
                    Energy (DOE) for Smart Grid.

                    Use of NIST ARRA funding is targeted to have maximum impact on meeting the goals of the ARRA,
                    including: creating jobs; promoting economic recovery; providing investments needed to increase economic
                    efficiency by spurring technological advances in science; and making investments in areas of research that
                    will provide long-term economic benefits.

                    Advanced scientific equipment purchases from the STRS ARRA funding will have immediate and specific
                    impacts on NIST’s technological capabilities and abilities to work in new areas and address more complex
                    scientific challenges. To document these impacts, NIST is providing a series of examples in its ARRA
                    reporting that illustrate the overall impact and outcomes of the NIST STRS ARRA equipment purchases.
                    Illustrative impacts from these equipment purchases include:

                    Biometrics Research Lab High-End Compute Nodes and 1b Memory Upgrade – The new High-End Compute nodes
                    provided increased processing capacity for a biometrics research system at NIST which allowed the use of
                    larger biometric sample sizes for larger scale testing in the Biometric Research Lab (BRL). BRL’s compute
 Performance        capacity was doubled resulting in twice the previous throughput in its biometric testing. The 1b memory
 Measures/
 Results            upgrade permitted significantly larger biometric sample sizes for evaluations that will result in increased
                    statistical confidence in measured results. The High-End Compute nodes and additional memory has
                    allowed NIST to remain a leader in biometrics research as well as meet its Patriot Act mandates.

                    Refrigerators and Freezers for SRM Cold Storage – The increase in cold storage units will allow the Standard
                    Reference Materials (SRM) program to meet the growing needs of NIST to deliver temperature
                    sensitive reference materials worldwide. SRMs are the definitive artifact-based source of measurement
                    traceability in the United States and are certified in the NIST laboratories for their specific chemical and
                    material properties. Customers use SRMs to achieve measurement quality and conformance to process
                    requirements that address both national and international needs for commerce and trade and public safety
                    and health.

                    The table below reflects performance measures that were reported in Recovery.gov on May 15, 2009 for
                    NIST’s STRS ARRA appropriations. NIST has been collecting ARRA performance data on a quarterly basis.
                    Data is included in the table for each measure.

                                                                                                                      (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    43
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Bureau         National Institute of Standards and Technology (NIST) (continued)
        Program          Scientific and Technical Research and Services (STRS) (continued)

                                                 Measures                                     FY             Target               Actual
                         Advanced Scientific Equipment:
                                                                                             2009          $20,000,000      $22,458,461*
                            ●●   Dollars obligated                                           2010          $88,000,000      $88,161,408*
                                                                                             2011               0            $(468,923)
                                                                                             2009              15                17
                            ●●   Number of equipment purchased                               2010              45                45
                                                                                             2011               0                0
                         Measurement Science and Engineering Grants program:
                                                                                             2010          $34,125,000       $34,448,939
                            ●●   Dollars obligated
                                                                                             2011               0                 0
                                                                                             2010              20                27
                            ●●   Number of awards
                                                                                             2011               0                 0
                            ●●   Number of patent applications (lagging/outyear              2009               0                 0
                                                                                             2010               0                 1
                                 measure)                                                    2011               0                11
                            ●●   Number of peer-reviewed technical publications              2009               0                 0
                                                                                             2010               0                13
                                 (lagging/outyear measure)                                   2011               0                92
                                                                                             2009               0                 0
                            ●●   Number of licenses (lagging/outyear measure)                2010               0                 0
                                                                                             2011               0                 0
                         Postdoctoral Fellowships:
                                                                                             2009               48                  52
        Performance         ●●   Number of Postdoctoral Fellows                              2010               35                  38
        Measures/                                                                            2011               13                  17
        Results                                                                              2009               23                  19
                            ●●   Number of Postdoctoral Fellows retained after
        (continued)                                                                          2010               18                  46
                                 completion of tenure                                        2011               0                   0
                         Measurement Science and Engineering Fellowship
                         program:
                                                                                             2010          $19,500,000       $19,500,000
                            ●●   Dollars obligated                                           2011               0                 0
                         Research Contracts:
                                                                                             2009          $10,500,000      $9,825,985**
                            ●●   Dollars obligated                                           2010           $4,500,000     $18,669,205**
                                                                                             2011               0               $202
                                                                                             2009               34               33
                            ●●   Number of contracts awarded (SBIR, Smart Grid,
                                                                                             2010               1                9
                                 Cyber Security)                                             2011               0                0
                         Information Technology Research Contracts:
                                                                                             2009          $9,000,000        $7,588,530
                            ●●   Dollars obligated                                           2010              0             $1,195,138
                                                                                             2011              0              $(1,676)
                         *	 Actual obligations were approximately $2.6 million above cumulative planned Target levels as a result of lower
                            expenses from management and oversight funds that were redirected toward more funding for equipment.
                         **	Approximately $13.5 million was spent above cumulative Target levels as a result of additional funding provided
                            to this activity from the mandated SBIR assessments on the ARRA Measurement Science and Engineering
                            Grants (MSG&E) and Fellowships, Postdoctoral Research Fellowships, and Research Contracts amounts—and
                            $12 million in reimbursable funding received from the Department of Energy for Smart Grid.

                         Further results are available on the NIST ARRA Web site at http://www.nist.gov/recovery/.

                                                                                                                                  (continued)



  44                                            F Y   2 0 1 1   P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Bureau          National Institute of Standards and Technology (NIST) (continued)
 Program            Scientific and Technical Research and Services (STRS) (continued)

                    The measurements, standards, and technologies that are the essence of the work done by NIST’s
                    laboratories help U.S. industry and science to invent and manufacture superior products and to provide
                    services reliably. NIST’s programs are driven by six investment priority areas that address national priorities:
 Comments
                    Energy, Environment, Manufacturing, Health Care, Physical Infrastructure, and Information Technology.
                    Funds provided by the ARRA will enhance NIST’s efforts on the six investment priority areas by providing
                    the “tools” and knowledge base needed to make progress.


    Bureau          National Institute of Standards and Technology (NIST)
 Program            Construction of Research Facilities

 Amount             $360.0M

                    The ARRA includes $360 million for NIST activities funded in the Construction of Research Facilities
                    appropriation. Of this amount, $180 million supports NIST Construction Projects and the remaining $180
 Description
                    million funds competitive construction grants awarded to U.S. universities, colleges, and not-for-profit
                    research organizations.

                    Use of NIST ARRA funding was targeted to have maximal impact on meeting the goals of ARRA, including
                    creating jobs, promoting economic recovery, providing investments needed to increase economic efficiency
                    by spurring technological advances in science, and making investments in areas of research that will provide
 Performance        long-term economic benefits.
 Measures/
 Results
                    The table below reflects performance measures that were reported in Recovery.gov on May 15, 2009
                    for NIST’s Construction of Research Facilities ARRA appropriations. NIST has been collecting ARRA
                    performance data on a quarterly basis. Data is included in the table for each measure.

                                                                                                                         (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       45
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Bureau        National Institute of Standards and Technology (NIST) (continued)
        Program         Construction of Research Facilities (continued)

                                                    Measures                                         FY           Target             Actual
                        NIST construction projects:
                                                                                                     2009       $26,300,000        $10,956,133
                           ●●   Dollars obligated                                                    2010      $153,700,000       $164,362,072
                                                                                                     2011            0               $1,099
                                                                                                     2009            0                  0
                           ●●   Number of facilities renovated                                       2010            0                  0
                                                                                                     2011            1                  1
                                                                                                     2009            0                  0
                           ●●   Number of facilities constructed                                     2010            0                  0
                                                                                                     2011            0                  0
                        Construction Grants (approximately $60M):
                                                                                                     2009       $60,000,000        $55,536,981
                           ●●   Dollars obligated                                                    2010            0                  0
                                                                                                     2011            0                  0
        Performance                                                                                  2009            5                  4
        Measures/          ●●   Number of grants awarded                                             2010            0                  0
        Results                                                                                      2011            0                  0
        (continued)                                                                                  2009            0                  0
                           ●●   Number of research science facilities completed                      2010            0                  0
                                                                                                     2011            1                  1
                        Construction Grants (approximately $120M):
                                                                                                     2009            0                  0
                           ●●   Dollars obligated                                                    2010      $120,000,000       $123,517,167*
                                                                                                     2011            0                  0
                                                                                                     2009            0                  0
                           ●●   Number of grants awarded                                             2010           10                 12
                                                                                                     2011           0                   0
                                                                                                     2009           0                   0
                           ●●   Number of research science facilities completed                      2010           0                   0
                                                                                                     2011           1                   1
                        *	 FY 2010 Actual obligations are approximately $3.5 million above the cumulative Target levels as a result of redirect-
                           ing excess funding from the first round Construction Grants competition ($60M) into the second round competition
                           ($120M).

                        The measurements, standards, and technologies that are the essence of the work done by NIST’s
                        laboratories help U.S. industry and science to invent and manufacture superior products and to provide
                        services reliably. NIST manages some of the world’s most specialized measurement facilities where cutting-
                        edge research is done in areas such as new and improved materials, advanced fuel cells, and biotechnology.
                        Critically needed research facilities will help keep the Nation at the forefront of cutting-edge research and
        Comments
                        ensure that U.S. industry has the tools it needs to continually improve products and services. The investment
                        now in these advanced research facilities will be recouped many times over in increased U.S. innovation,
                        a critical ingredient for improved productivity and job creation. The construction projects will use green
                        technologies where possible, and will improve energy efficiency and environmental performance of NIST
                        facilities.




  46                                             F Y   2 0 1 1    P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Bureau          National Telecommunications and Information Administration (NTIA)
 Program            Broadband Technology Opportunities Program (BTOP)

 Amount             $4,700.0M

                    ARRA provided $4.7 billion to NTIA to establish BTOP to increase broadband access and adoption; provide
                    broadband training and support to schools, libraries, healthcare providers, and other organizations; improve
                    broadband access to public safety agencies; and stimulate demand for broadband. ARRA further provided
                    funding to NTIA to develop and maintain a comprehensive nationwide inventory map of broadband service
                    capability and availability, and to implement the State Broadband Data and Development Act and the
                    Broadband Data Improvement Act.

                    Following a rigorous application and review process documented in previous quarterly reports, NTIA
                    invested approximately $4 billion in 233 BTOP projects benefitting every state, territory, and the District of
                    Columbia. This BTOP portfolio of projects initially included:

                    ●●   123 infrastructure projects totaling $3.5 billion in federal grant funds to construct broadband networks;

                    ●●   66 public computer center (PCC) projects totaling $201 million in federal grant funds to provide access
                         to broadband, computer equipment, computer training, job training, and educational resources to the
                         public and specific vulnerable populations; and

                    ●●   44 sustainable broadband adoption (SBA) projects totaling $250.7 million in federal grant funds to
 Description             support innovative projects that promote broadband adoption, especially among vulnerable population
                         groups where broadband technology traditionally has been underutilized.

                    The infrastructure projects include seven grants totaling approximately $382 million for projects to deploy
                    public safety wireless broadband networks.

                    Additionally, through the State Broadband Initiative (SBI), NTIA granted approximately $293 million BTOP
                    funds to 56 recipients, one each from the 50 states, five territories, and the District of Columbia, or their
                    designees. With this funding, states are gathering data biannually on the availability, speed, and location of
                    broadband services, as well as the broadband services used by community institutions such as schools,
                    libraries, and hospitals. NTIA is using the data to update the publicly searchable, interactive National
                    Broadband Map, which was launched on February 17, 2011, in accordance with the ARRA’s requirements.
                    These grants also support state efforts to foster the efficient and creative use of broadband technology to
                    better compete in the digital economy. These state-led efforts vary depending on local needs but include
                    programs to assist small businesses and community institutions in using technology more effectively,
                    research to investigate barriers to broadband adoption, innovative applications that increase access to
                    government services and information, and state and local task forces to expand broadband access and
                    adoption.

                                                                                                                        (continued)




F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      47
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Bureau        National Telecommunications and Information Administration (NTIA) (continued)
        Program         Broadband Technology Opportunities Program (BTOP) (continued)

                        Current and planned performance measures include:
                                                                              FY 2011         FY 2011          FY 2012            FY 2013
                                                                              Target          Actual           Target             Target
                        New broadband network miles deployed                   10,000          18,5451          30,000            50,000
                        Community anchor institutions with
                        new or improved access to broadband                     3,000          1,3221           10,000            15,000
        Performance     services
        Measures/
        Results         New public computer center
                        workstations installed and available to                10,000          16.0601          20,000            25,000
                        the public
                        New sustainable broadband adoption
                        subscribers (households, businesses,                  100,000         111,829          250,000            350,000
                        and/or institutions)
                        1	   As of June 30, 2011.




  48                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                     P riorit y G oals




 P 
          riority Goals are a clear statement of the specific, measurable, ambitious near-term priority targets chosen by the
          senior leaders of major federal agencies. The Priority Goals communicate the performance improvements each
          agency is trying to accomplish relative to its priorities using existing legislative authority, previously appropriated
funds, and funding at levels proposed in the President’s FY 2011 Budget. The Priority Goals constitute the priority
operational targets the agency will work to accomplish within 18 to 24 months of setting the targets. This distinguishes
the Priority Goals from the longer-term targets agencies include in their strategic plans, and the full set of performance
goals and measures agencies include in the annual plans and reports required by the Government Performance and
Results Act (GPRA).


     Goal          2010 Decennial Census: Effectively execute the 2010 Census, and provide the states with
                   accurate and timely redistricting data. (Timely completion of milestones to conduct the
                   2010 Census and provide redistricting data as mandated by law.)
    Bureau         Census Bureau
 Performance       Achieve an accuracy level of an overall net coverage error at the national level of less than one-half of one
 Measures          percent.
 Description       The overall net coverage error is determined by an independent follow-up survey which measures the
                   accuracy of the census results. The survey estimates both the number of households missed and those
                   either mistakenly counted or counted multiple times. The undercount and overcount percentages are derived
                   by subtracting the number of people counted in the census from the number of people measured in the
                   survey and then dividing by the estimate of the total population according to the survey. A net overcount
                   occurs if the resulting percentage is negative, while a positive percentage indicates a net undercount.
 Results            Fiscal
                     Year                           Target                                              Actual
                     1991                                                                               1.61%
                     2003                                                                              -0.49%
                     2012                          +/-0.5%                                  Results expected in FY 2012
 Milestones        Deliver 2010 Census Questionnaires: Completed by April 9, 2010. Delivered 2010 Census questionnaires which
                   consisted of the mailing of advance letters, initial questionnaires, reminder postcards, and replacement
                   mailings.

                   Update Leave and Update Enumerate: Completed by June 1, 2010. Conducted update leave and update
                   enumerate operations in which enumerators deliver census questionnaires or conduct interviews in
                   communities that may not have a house number and street name address.

                   Group Quarters Enumeration: Completed enumeration of group quarters. The operation consists of the field
                   enumeration of individuals in group quarters, such as college dormitories, correctional facilities, military
                   vessels, and nursing facilities.

                   Nonresponse Follow-up: Completed by July 10, 2010. Conducted nonresponse follow-up operation
                   which includes follow-up visits and phone calls to all housing units that did not respond to the mailout
                   questionnaires.
                                                                                                                        (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      49
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




           Goal        2010 Decennial Census: Effectively execute the 2010 Census, and provide the states with
                       accurate and timely redistricting data. (continued)
          Bureau       Census Bureau (continued)
       Milestones      Coverage Follow-up: Completed coverage follow-up operation which resolves erroneous information in initial
       (continued)     census operations.
                       Vacant Delete Check: Completed vacant delete check operation by confirming vacant or nonexistent housing
                       unit statuses identified during nonresponse follow-up.
                       Census Coverage Measurement: Operations for census coverage measurement. These are independent of
                       the other census operations. They are designed to provide estimates of net coverage error and erroneous
                       enumerations for persons in housing units and for the housing units themselves.


           Goal        Intellectual Property (IP) Protection: Reduce patent pendency for first action and for
                       final actions from the end of 2009 levels of 25.8 and 34.6 months respectively by the end of 2011,
                       as well as the patent backlog.
          Bureau       U.S. Patent and Trademark Office (USPTO)
       Performance First Action Patent Pendency                        Final Action Patent Pendency        Patent Backlog
       Measures
       Description     This measure tracks the timeliness of            This measure identifies            This measure tracks the
                       first office actions on patent applications,     the timeliness related to          number of patent applications
                       measuring the time in months from                issuance of the patent             awaiting first action review
                       the application filing date to the date of       or abandonment of the              by an examiner.
                       mailing the first office actions.                application, measuring the
                                                                        average time in months
                                                                        from the application filing
                                                                        date to the date of issue or
                                                                        abandonment.
       Results          Fiscal
                         Year          Target            Actual            Target           Actual             Target             Actual
                         2003           18.4              18.3              27.7             26.7             484,700             457,274
                         2004           20.2              20.2              29.8             27.6             524,000             508,878
                         2005           21.3              21.1              31.0             29.1             594,800             586,580
                         2006           22.0              22.6              31.3             31.1             680,700             674,333
                         2007           23.7              25.3              33.0             31.9             801,000             737,288
                         2008           26.9              25.6              34.7             32.2             801,300             750,596
                         2009           27.5              25.8              37.9             34.6             741,400             718,835
                         2010           25.4              25.7              34.8             35.3             698,000             708,535
                         2011           25.7                                34.1                              635,700
                         2012           19.3                                34.7                              556,800
                         2013           14.9                                28.3                              477,800
                         2014           10.9                                23.9                              410,300
                         2015           10.2                                19.9                              377,000
                                                                                                                                  (continued)




  50                                            F Y   2 0 1 1     P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




     Goal          Intellectual Property (IP) Protection: Reduce patent pendency for first action and for
                   final actions from the end of 2009 levels of 25.8 and 34.6 months respectively by the end of 2011,
                   as well as the patent backlog. (continued)
    Bureau         U.S. Patent and Trademark Office (USPTO) (continued)
 Milestones        Re-engineer the Examiner Count System: During this fiscal year, the USPTO worked to re-engineer the entire
                   patent examination system to improve workload prioritization, decrease duplicative work, and streamline
                   reviews in collaboration with applicants. Establishing and improving mechanisms that would result in
                   accelerated examination were critical to this effort. Accelerating the patent process and boosting patent
                   quality are essential in translating inventors’ ideas into job-creating businesses that spur economic growth
                   and ensure U.S. competitiveness in the global market. In recognizing that applicants’ needs vary in patent
                   prosecution time as well as in application costs, this has resulted in the development and implementation of
                   new programs aimed at meeting these varied needs of stakeholders.
                   Project Exchange: The Project Exchange program allows advancement of applications out of turn in exchange
                   for express abandonment of another application. The Project Exchange enables applicants to determine and
                   prioritize their applications, thus freeing examiners from reviewing applications that are no longer of value
                   to their owners while also stimulating a reduction of the backlog of unexamined patent applications pending
                   before USPTO. The program was intended for use by small entities, but was expanded to include any and all
                   applications.
                   Measurement and Tracking of Patent Quality: USPTO has adopted new, more comprehensive procedures for
                   measuring the quality of patent examination. These new measurement procedures were crafted by a
                   joint USPTO-Patent Public Advisory Committee (PPAC) Task Force after extensive consultation with the
                   intellectual property community and the public. The new procedures measure seven diverse aspects of
                   the examination process to form a more comprehensive composite quality metric. To present, a balanced
                   approach to measurement of examination quality, these new procedures include new measures that assess
                   the degree to which the examiner’s action complies with best practices in conducting the search and initial
                   examination. This approach does not attempt to alter any of the standards for examination or patentability,
                   but to better educate and enable participants in the patent process to comply with existing standards.
                   Improve and Provide More Effective Training: Training both patent managers and examiners continues to be
                   an important element for achieving quality patent examination. Particular focus was given to providing
                   Supervisory Patent Examiners (SPE) with a Leadership Development Program. Patent managers and
                   supervisors participated in a newly developed, state-of-the-art leadership development program to enhance
                   their supervisory skill set. The Office of Patent Training’s (OPT) New Examiner Training program continues
                   to evolve in order to meet the changing needs of USPTO. The program has been re-engineered to serve two
                   different groups of new hires. An Experienced IP Program is a four-week, accelerated training program for
                   examiners who have prior IP experience. Also, a two-phase, 12-month program that consists of a four-month
                   training curriculum integrated with examination followed by an eight-month advanced examination training
                   program after the examiners transition to the Technology Centers.

                   The OPT also provided training for new SPEs. This program provided training for SPEs at time of their
                   selections. The program also encompasses more advanced topics during a second phase of training offered
                   approximately four months later.

                   The OPT provided Refresher Training on various examination specific topics from the application of
                   regulations and statutes and other topics that aid an examiner in their examination efficiencies. The
                   Refresher Training was designed to improve examiner communication and examination skills and encouraged
                   examiners to hold interviews throughout prosecution to prevent unnecessary Requests for Continued
                   Examinations. The OPT will continue to enhance and expand the courses being offered.
                                                                                                                      (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    51
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




           Goal        Intellectual Property (IP) Protection: Reduce patent pendency for first action and for
                       final actions from the end of 2009 levels of 25.8 and 34.6 months respectively by the end of 2011,
                       as well as the patent backlog. (continued)
          Bureau       U.S. Patent and Trademark Office (USPTO) (continued)
       Milestones      Ombudsman Pilot Program: The USPTO Ombudsman program is intended to provide patent applicants,
       (continued)     attorneys, and agents assistance with application-specific issues including concerns related to prosecution
                       advancement. The objective is to quickly resolve issues, and thereby to decrease pendency. Early last year,
                       we launched our Patents Ombudsman Pilot Program as part of our strategic priorities to increase patent
                       processing effectiveness, provide new channels to help resolve issues, and improve relations with the
                       USPTO stakeholder community.
                       Develop and Implement the Patent End-to-End Processing System: USPTO legacy patent systems are based
                       on obsolete technologies that are difficult to maintain, leaving USPTO highly vulnerable to disruptions in
                       patent operations. Patents databases are among the world’s largest, and continue to grow at multiple
                       terabytes per year, further raising the possibility of failure. Automation of many manual business functions
                       has been deferred because of the limitations of legacy systems. A new generation of patent systems is
                       needed, built upon modern data formats to provide end-to-end electronic processing. A first deliverable
                       will be the delivery prototype core patent processing infrastructure.
                       Prioritize Work – Green Technology Acceleration: Green technology acceleration allows inventors to accelerate
                       applications in certain technologies. Pending patent applications in green technologies are eligible to be
                       accorded special status and given expedited examination; the Green Technology Pilot Program will accelerate
                       the development and deployment of green technology, create green jobs, and promote U.S. competitiveness
                       in this vital sector. Patent applications are normally taken up for examination in the order that they are filed.
                       Under the pilot program, for the first 3,000 applications related to green technologies in which a proper
                       petition is granted, the Agency will examine the applications on an accelerated basis. Upon granting 3,000
                       petitions, USPTO may reevaluate the workload and resources needed to extend the pilot program.
                       Hire Patent Examiners: USPTO has launched a targeted hiring program which focuses on recruiting
                       experienced former examiners and IP professionals who can get up to speed examining patent applications
                       with a minimal amount of training time.
                       Target Overtime to High Backlog Areas: Strategically target overtime to Technology Center units with highest
                       backlogs and permit other examiners to work overtime in the targeted areas. Overtime is a critical element
                       of USPTO’s plan to reduce the backlog of pending patent applications and to achieve its pendency goals.
                       Over the years, overtime has proven to be more efficient on a per hour basis than equivalent regular time
                       hour, since each overtime hour worked is directly tied to production output. Overtime also allows USPTO
                       to manage its workload without adding additional new hires. Its inherent flexibility allows the Agency to
                       further expand its production capacity while maintaining optimal staffing levels. Based on funding availability,
                       USPTO plans to prioritize the use of overtime and target areas with highest backlogs first, then other areas
                       as resources permit.
                       Institute a “Nationwide Workforce”: USPTO will develop a nationwide workforce using telework which will
                       allow it to hire experienced IP professionals interested in joining USPTO, but who do not want to relocate
                       to the Washington, D.C. region. It is expected that this different hiring demographic will provide a more
                       productive and balanced workforce, lower attrition, and faster transition to productivity for new hires.
                       USPTO is forecasting to hire 25 examiners per quarter.
                       Reformulate Performance Appraisal Plans: Senior executive service performance appraisal plans will
                       continually be revised to ensure that they are more aligned with the strategic plan goals and objectives,
                       and flexible enough to adapt to changing conditions.




  52                                           F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




     Goal         Coastal and Ocean Resource Management: Ensure environmentally and economically
                  resilient oceans, coasts, and Great Lakes communities, with healthy and productive ecosystems.
    Bureau        National Oceanic and Atmospheric Administration (NOAA)
 Performance       Ensure that all 46 federal fishery            Reduce the number of stocks        Improve the Fish Stock
 Measures          management plans have required catch          subject to overfishing to zero     Sustainability Index (FSSI) to
                   limits to end overfishing in place by the     by the end of 2011.                586 by the end of 2011.
                   end of 2011.
 Description       This measure tracks the number of             This is the number of non-         The FSSI is a measure
                   federal fishery management plans              exempt overfishing stocks not      of stock status, including
                   in place that require annual catch            being fished under an annual       overfishing and overfished.
                   limits and accountability measures to         catch limit. Assessments in        The target represents a four
                   end overfishing by the end of 2011.           future years will confirm that     percent increase above the
                   NOAA staff track the status of annual         overfishing has ended.             FSSI score at the end of 2009.
                   catch limits implementation using                                                (Because the FSSI does not
                   information from the eight regional                                              score a stock as “not subject
                   Fishery Management Councils and                                                  to overfishing” until such
                   NOAA Fisheries regional offices. Fishery                                         status has been confirmed
                   management processes were established                                            through a stock assessment,
                   by Congress, which has established the                                           the improvements made to
                   role of the Fishery Management Councils                                          end overfishing will not be
                   in developing fishery management plans.                                          fully reflected in the FSSI
                                                                                                    score until the stock has
                                                                                                    been assessed.)
 Results            Fiscal
                     Year         Target            Actual           Target           Actual            Target           Actual
                     2003                            N/A                                34                                 N/A
                     2004                            N/A                                36                                 N/A
                     2005                            N/A                                36                                481.5
                     2006                            N/A                                39               507               501
                     2007                             0                                 35               505               516
                     2008                             0                                 31              530.5              535
                     2009                             1                                 24              548.5             565.5
                     2010            5                5                15               14               580              582.5
                     2011           23                                  0                                586
 Milestones       Ensure all 46 Federal Fishery Management Plans Have Required Catch Limits to End Overfishing: As of June 30, 2011,
                  14 fishery management plans had annual catch limits in place:Fish Resources of the Arctic; Consolidated
                  Atlantic Highly Migratory Species; Northeast Skate; Bering Sea and Aleutian Islands Groundfish; Gulf of
                  Alaska Groundfish; Pacific Coast Groundfish; Atlantic Herring; Atlantic Salmon; Monkfish; Hawaii Archipelago;
                  American Samoa; Mariana Archipelago; Pacific Remote Island Areas; and Western Pacific Pelagic Fisheries.
                                                                                                                         (continued)




F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       53
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




           Goal        Coastal and Ocean Resource Management: Ensure environmentally and economically
                       resilient oceans, coasts, and Great Lakes communities, with healthy and productive ecosystems.
                       (continued)
          Bureau       National Oceanic and Atmospheric Administration (NOAA) (continued)
       Milestones      Reduce the Number of Stocks Subject to Overfishing to Zero by the End of 2011: As of June 30, 2011, all non-
       (continued)     exempt stocks subject to overfishing have management measures in place to end overfishing. There are
                       still five overfishing stocks without annual catch limits in place, due to a delay in conducting an ESA Section
                       7 biological opinion on the action; however, the council has taken final action to recommend these annual
                       catch limits. Eight additional stocks are subject to overfishing due to international fishing efforts, but are
                       exempt from the requirement for annual catch limits because U.S. fishing management measures cannot
                       independently end overfishing on these stocks.
                       Increase the FSSI to 586 by the End of 2011: The index is a measure of fish stock status that includes fishing rates
                       and population levels. As of June 30, 2011, the index was at 585.5 out of a possible 920, up from 582.5
                       in 2010 and 481.5 in 2005. The National Marine Fisheries Service is targeting the index to increase to 586
                       by the end of FY 2011. Progress in NOAA’s efforts to end overfishing and to rebuild overfished stocks to
                       healthy population levels continue to increase the FSSI score. During FY 2011, red hake in the Gulf of Maine
                       and Pacific Cod (which were newly assessed) were found not to be subject to overfishing. In the Northeast
                       region, Gulf of Maine Haddock is now rebuilt. These and other improvements in stock status increased the
                       FSSI by three points during the year, advancing the Agency toward its goal of reaching a score of 586 by the
                       end of 2011, which it reached with a 587.
                       Provide Updated Fishery Stock Assessment Reports to Regional and International Management Agencies: The National
                       Marine Fisheries Service Fisheries Science Centers annually collect, analyze, and interpret information on
                       the status of managed fish stocks to meet requirements of the Magnuson-Stevens Act and international
                       agreements. Approximately 80 individual assessments are conducted and peer-reviewed through region-
                       specific processes and priorities based on national guidelines. Assessment results are used to implement
                       updates to fishery quotas and other management measures, determine the status of fish stocks with respect
                       to overfishing criteria, and track rebuilding of previously overfished stocks. These assessments also provide
                       information for calculating the FSSI and the scientific basis for implementing annual catch limits.




  54                                            F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                          M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




     Goal          Broadband Access: Efficiently and effectively implement the Broadband Technology
                   Opportunities Program (BTOP), to expand service to communities in a cost-effective manner
                   that maximizes impacts on economic growth, education, health care, and public safety.
    Bureau         National Telecommunications and Information Administration (NTIA)
 Performance Miles of broadband networks                    Community anchor            New and upgraded          New household and
 Measures    deployed (Infrastructure Projects)             institutions connected      public computer           business subscribers
                                                            (Infrastructure             workstations (Public      to broadband
                                                            Projects)                   Computer Centers          (Sustainable
                                                                                        Projects)                 Broadband Adoption
                                                                                                                  Projects)
 Description       BTOP is funding projects that            ARRA places a high          BTOP grants are           The BTOP portfolio
                   provide broadband service in             priority on deploying       funding expansion         of projects initially
                   unserved areas and enhance               and enhancing               of public computer        included 44
                   broadband service in underserved         broadband capabilities      center (PCC) capacity.    sustainable broadband
                   areas of the United States. The          for community               The BTOP portfolio        adoption (SBA)
                   BTOP portfolio of projects initially     anchor institutions         of projects initially     projects totaling
                   included 123 infrastructure              such as libraries,          included 66 PCC           $250.7 million in
                   projects totaling $3.5 billion           hospitals, schools,         projects totaling $201    federal grant funds
                   in federal grant funds to                and public safety           million in federal        to support innovative
                   construct broadband networks             entities. The BTOP          grant funds to provide    projects that promote
                   and to connect “community                portfolio of projects       access to broadband,      broadband adoption,
                   anchor institutions” such as             initially included 123      computer equipment,       especially among
                   schools, libraries, hospitals, and       infrastructure projects     computer training,        vulnerable population
                   public safety facilities. BTOP           totaling $3.5 billion in    job training, and         groups where
                   infrastructure projects are              federal grant funds to      educational resources     broadband technology
                   deploying a variety of technologies      construct broadband         to the public and         traditionally has been
                   and approaches to enhance the            networks and to             specific vulnerable       underutilized. This
                   Nation’s broadband capabilities.         connect “community          populations. This         measure’s target
                   This measure’s target is the             anchor institutions”        measure’s target is the   is the number of
                   number of miles of network (e.g.,        such as schools,            number of new and         new household and
                   fiber, microwave) deployed using         libraries, hospitals, and   improved computer         business subscribers
                   BTOP funding. The American               public safety facilities.   workstations funded       to broadband
                   Recovery and Reinvestment Act            This measure’s target       through the BTOP PCC      generated by projects
                   (ARRA) provided all of BTOP’s            is the number of            category of funding.      funded through the
                   grants funding.                          anchor institutions         ARRA provided all of      BTOP SBA category of
                                                            connected with new or       BTOP’s grants funding.    funding, as reported by
                                                            improved broadband                                    awardees.
                                                            capabilities. ARRA
                                                            provided all of BTOP’s
                                                            grants funding.
 Results                Fiscal
                         Year      Target       Actual        Target       Actual         Target      Actual        Target      Actual
                        2010        New             N/A        New           N/A          New          N/A          New          N/A
                        2011       10,000      18,5451         3,000       1,3221        10,000      16,0601       100,000
                   1	   As of June 30, 2011.




F Y   2 0 1 1   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                            55
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




           Goal        Export Opportunities: Increase the annual number of small and medium-sized enterprises
                       (SME) the Commercial Service successfully assists in exporting to a second or additional
                       country by 40 percent from 2009 to 2011.
          Bureau       International Trade Administration (ITA)
       Performance     Increase the annual number of small and medium-sized enterprises (SME) the Commercial Service
       Measures        successfully assists in exporting to a second or additional country by 40 percent from 2009 to 2011.
       Description     This metric demonstrates ITA’s effectiveness at helping companies, particularly SMEs, export to a country
                       for the first time. It counts the number of SMEs, which are defined as U.S. companies with less than
                       500 employees, that achieve an export to a country they have not exported to in 12 months due in part
                       to Commercial Service assistance. This assistance includes but is not limited to in-depth market entry
                       counseling, business-to-business matchmaking, market research and intelligence, trade show support, and
                       due diligence on foreign buyers and partners. Although data was collected for this metric starting in FY 2001,
                       it was not formally adopted as a performance measure until FY 2009 following an analysis of historical data
                       that showed declining results starting in FY 2006. In response to this trend, the Commercial Service adopted
                       this performance measure in FY 2009 with aggressive targets for FY 2009 and FY 2010 set to exceed
                       historical performance. Since that time, the Commercial Service has reupped its commitment to helping
                       companies enter new markets by setting an even more ambitious target for FY 2011.
       Results          Fiscal
                         Year                           Target                                               Actual
                         2003
                         2004                                                                                2,828
                         2005                                                                                2,943
                         2006                                                                                2,569
                         2007                                                                                2,453
                         2008                                                                                2,197
                         2009                           3,130                                                2,876
                         2010                           3,176                                                2,813
                         2011                           3,700                                                3,186
       Milestones      National Export Marketing Campaign Plan: Completed by March 19, 2010. Drafted a new national data-mining,
                       lead-generation, and marketing plan that leverages the Commercial Service strategic partnerships to help U.S.
                       companies expand exports from one to multiple markets.
                       National Export Marketing Campaign Phase 1: Refined contact lists of SME exporters provided by strategic
                       partners to just high potential leads. Designed marketing materials and created online content. Trained the
                       Commercial Service and strategic partner staff on the program.
                       National Export Marketing Campaign Phase 2: Initial marketing push to a subset of the contact list. Tracked
                       results and adjusted process as needed.
                       National Export Marketing Campaign Phase 3: Rolled out marketing campaign and tracked results.
                       International Buyer Program Expansion Plan: Completed by March 19, 2010. Drafted a plan to increase the dollar
                       value of exports resulting from foreign buyer attendance at U.S. trade shows.
                       International Buyer Program Expansion Phase 1: Conducted targeted outreach to trade show organizers, industry
                       associations, and the international business community.
                                                                                                                               (continued)




  56                                           F Y   2 0 1 1     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




     Goal          Export Opportunities: Increase the annual number of small and medium-sized enterprises
                   (SME) the Commercial Service successfully assists in exporting to a second or additional
                   country by 40 percent from 2009 to 2011. (continued)
    Bureau         International Trade Administration (ITA) (continued)
 Milestones        International Buyer Program Expansion Phase 2: Worked with trade show organizers to develop customized
 (continued)       programs to fit the needs and interests of companies in the industry. Coordinated with domestic and
                   international Commercial Service field staff and other U.S. government agencies to provide hands-on assistance
                   including export counseling, marketing analysis, and matchmaking services on-site at U.S. trade shows.
                   MDCP Plan: Completed by March 19, 2010. Developed a plan to increase the Market Development
                   Cooperator Program (MDCP)-related exports and expedite the timeline to award MDCP recipients in FY 2010.
                   MDCP Phase 1: Completed by April 19, 2010. Expedited application deadline for FY 2010 (ITA received 50
                   MDCP applications).
                   MDCP Phase 2: Announced MDCP award recipients in mid-July and developed export action plans.
                   Services Industry Export Expansion Plan: Completed by March 19, 2010. Developed services export expansion
                   plan to identify and focus on key growth industries in targeted markets, including travel and tourism. Also,
                   leveraged financial services and supply chain/infrastructure services to facilitate goods exports.
                   Services Industry Export Expansion – Supply Chain/Infrastructure Outreach: Expanded supply chain/infrastructure
                   outreach focus groups in Atlanta, Chicago, New Orleans (subject to oil spill resource limitations locally), and
                   Seattle.
                   Services Industry Export Expansion – Services Trade Data: Expanded the Services Trade Data conference to bring
                   together the results of the preceding focus groups and define larger objectives for data issues going forward.
                   Services Industry Export Expansion – Trade Finance Seminars: Expanded trade finance seminars in Miami, FL,
                   Cleveland, OH, Philadelphia, PA, Pittsburgh, PA, and Southern California to bring together exporters with
                   regional and community lenders to facilitate financing of U.S. exports. Engaged tourism policy counterparts
                   to expand high growth export markets.
                   Services Industry Export Expansion – Tourism: Secretary Locke chaired the first meeting of the interagency
                   Tourism Policy Council (TPC) on April 27. The working group on implementing the Travel Promotion
                   Act met on May 13 and participants discussed progress on the fee that will fund the Corporation for
                   Travel Promotion. The second TPC Working Group Meeting on was held on June 29. Subsequent
                   TPC meetings are being scheduled.
                   Green Exporter Outreach Plan: Completed by March 19, 2010. Developed a plan to identify and target U.S.
                   companies with green technology solutions, and improve coordination and delivery of U.S. government
                   services to the clean energy sector.
                   Green Exporter Outreach Phase 1: Conducted targeted trade promotion and policy events. Developed a
                   Competitive Assessment to (1) establish a baseline of U.S. green technology exports; and (2) articulate a
                   common U.S. government understanding of the current competitiveness of the U.S. clean energy industry.
                   Green Exporter Outreach Phase 2: Launched the Renewable Energy and Energy Efficiency (REEE) Export
                   Strategy to double U.S. REEE exports in five years.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     57
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




           Goal        Sustainable Manufacturing and Building Practices: Raise the number of firms adopting
                       sustainable manufacturing processes through the NIST Manufacturing Extension Partnership
                       (MEP) by 250 by the end of 2011. Raise the percentage of construction projects involving buildings
                       or structures funded by Economic Development Assistance Programs that are certified by the U.S.
                       Green Building Council’s Leadership in Energy and Environmental Design (LEED) or a comparable
                       third-party certification program to 12 percent.
          Bureau       National Institute of Standards and Technology (NIST) and Economic Development
                       Administration (EDA)
       Performance     Raise the percentage of construction projects                Raise the number of firms adopting sustainable
       Measures        involving buildings or structures funded by Economic         manufacturing processes through the NIST
                       Development Assistance Programs that are certified           Manufacturing Extension Partnership by 250 by
                       by the U.S. Green Building Council’s Leadership              the end of 2011.
                       in Energy and Environmental Design (LEED) or
                       a comparable third-party certification program to
                       12 percent.
       Description     FY 2011 targets are based on FY 2011 Global                  This measure tracks the number of firms adopting
                       Climate Change Mitigation Incentive Fund (GCCMIF)            economically and environmentally sustainable
                       funding being similar to that of FY 2010. Data and           practices and products through the NIST Hollings
                       targets are cumulative toward the end of FY 2010             MEP program.
                       fourth quarter and resets in FY 2011 first quarter to
                       be cumulative toward FY 2011 fourth quarter. EDA
                       may be modifying its grant application process,
                       including the establishment of quarterly deadlines
                       for the submittal and review of applications. As such,
                       there may be an opportunity to set more “level”
                       targets for the Priority Goals in FY 2011. However,
                       as the largest program contributor to the Priority
                       Goals, the GCCMIF—and its associated late-fiscal
                       year Congressional approvals/requirements—will
                       prevent a complete leveling of targets.
       Results          Fiscal
                         Year              Target                  Actual                      Target                         Actual
                         2008                                        7%
                         2009                                        9%                                                         46
                         2010              12%                      12%                         173                            266
                         2011              12%                                                  296                            724
                        *	 As with any new service, MEP’s piloted efforts focused on providing environmentally sustainable services to U.S.
                          manufacturers. During the pilot phase, the service offerings were more successful than planned. Due to the ex-
                          panded partnering efforts of resources from the Department with the Department of Energy and the Environmental
                          Protection Agency, MEP was extremely successful in engaging with a broader number of manufacturing firms than
                          originally estimated. In addition, the E3 community approach to pull together local resources with federal resources
                          to address specific environmental concerns expanded more quickly across multiple regions of the country than
                          envisioned.
                                                                                                                                     (continued)




  58                                             F Y   2 0 1 1   P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




     Goal          Sustainable Manufacturing and Building Practices: Raise the number of firms adopting
                   sustainable manufacturing processes through the NIST Manufacturing Extension Partnership
                   (MEP) by 250 by the end of 2011.Raise the percentage of construction projects involving buildings
                   or structures funded by Economic Development Assistance Programs that are certified by the U.S.
                   Green Building Council’s Leadership in Energy and Environmental Design (LEED) or a comparable
                   third-party certification program to 12 percent. (continued)
    Bureau         National Institute of Standards and Technology (NIST) and Economic Development
                   Administration (EDA) (continued)
 Milestones        Manufacturing Extension Partnership (MEP): To raise the number of firms adopting sustainable
                   manufacturing processes through the NIST MEP by 250 by the end of 2011, MEP is working to
                   expand the capacity of the existing and partner resources to support additional Economy, Energy
                   and Environment (E3) Initiative (www.e3.gov) community activities and the Green Suppliers Network
                   (GSN) program (www.greensuppliers.gov).

                   While NIST achieved its Priority Goal of raising the number of firms adopting sustainable
                   manufacturing processes with over 700 firms beginning the journey towards adoption of these
                   practices by the end of the fourth fiscal year quarter of 2011. MEP will continue to focus on actively
                   expanding partnerships and focus on providing manufacturers with tools and services to help
                   companies and communities adopt sustainable practices. As part of this effort, MEP is engaged in
                   expanding the capacity of the existing and partner resources to support additional E3 efforts as well
                   as increase awareness of synergies with the GSN. In parallel, MEP is establishing a sustainability
                   growth model for engagements with small and medium-sized enterprises (SME) to serve as a
                   framework for companies to respond to both sustainability-related cost reduction and business
                   growth opportunities. In addition to the active and pilot E3 project locations in Alabama, Michigan,
                   North Carolina, Ohio, South Carolina, Texas, West Virginia, and Wisconsin, a number of other states
                   are working with MEP to develop E3 projects.
                   Leadership in Energy and Environmental Design (LEED) Construction Projects: EDA will
                   monitor progress on a quarterly basis by tracking the number of projects that are LEED certified and
                   aim to meet the 12 percent threshold by the end of the fiscal year. EDA has already implemented
                   Environmentally Sustainable Development as one of its six core funding priorities. Accordingly,
                   EDA will give priority to projects that build the green economy in its evaluation of all project proposals
                   (not just GCCMIF). EDA also contemplates including a measure related to this in its balanced
                   scorecard metrics.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                59
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




  60                                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P erformance
   S ection
    Theme 1
Economic G rowth
                                                                                                      targets met
                    T H E M E , S T R AT E G I C G O A L S , A N D O B J E C T I V E S                or exceeded
THEME 1: ECONOMIC GROWTH
Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies, and technologies
critical to transforming our economy, fostering U.S. competitiveness, and driving the development of new
businesses

Objective 1            Improve intellectual property protection by reducing patent pendency,
                       maintaining trademark pendency, and increasing the quality of issued patents     9 of 10
                       and trademarks (USPTO)

Objective 2            Expand international markets for U.S. firms and inventors by improving the
                                                                                                         1 of 1
                       protection and enforcement of intellectual property rights (USPTO)

Objective 3            Stimulate high-growth business formation and entrepreneurship, through
                       investing in high-risk, high-reward technologies and by removing impediments     7 of 11
                       to accelerate technology commercialization (EDA, NIST)

Objective 4            Drive innovation by supporting an open global Internet and through
                       communications and broadband policies that enable robust infrastructure,          5 of 5
                       ensure integrity of the system, and support e-commerce (NTIA)

Objective 5            Provide measurement tools and standards to strengthen manufacturing,
                                                                                                         4 of 6
                       enable innovation, and increase efficiency (NIST)

Strategic Goal – Market Development and Commercialization: Foster market opportunities that equip
businesses and communities with the tools they need to expand, creating quality jobs with special
emphasis on unserved and underserved groups

Objective 61           Promote the advancement of sustainable technologies, industries, and
                                                                                                          N/A
                       infrastructure (EDA)

Objective 7            Promote the vitality and competitiveness of our communities and businesses,
                                                                                                         3 of 5
                       particularly those that are disadvantaged or in distressed areas (EDA, MBDA)

Objective 8            Improve the competitiveness of small and medium-sized firms in
                                                                                                         5 of 5
                       manufacturing and service industries (ITA, NIST)

Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness and foster
domestic job growth while protecting American security

Objective 9            Increase U.S. export value through trade promotion, market access,
                       compliance, and interagency collaboration (including support for small and        3 of 6
                       medium enterprises) (ITA)

Objective 10           Implement an effective export control reform program to advance national
                                                                                                         8 of 9
                       security and overall economic competitiveness (BIS)

Objective 11           Develop and influence international standards and policies to support the
                       full and fair competitiveness of the U.S. information and communications          1 of 1
                       technology sector (NTIA)

Objective 12           Vigorously enforce U.S. fair trade laws through impartial investigation
                       of complaints, improved access for U.S. firms and workers, and fuller             7 of 8
                       compliance with antidumping/countervailing duty remedies (ITA)
1	   The measures for this objective are shown in Objective 3.
                                                                                                               Performance Section • Theme 1




                                                      Theme 1:              Economic growth



                                          E C O N O M I C G R OW T H TOTA L R E S O U R C E S
                                        E C O N O M I C G R OW T H TOTA L R E S O U R C E S
                                     Funding Levels
                                  Funding   Levels
                                   (Dollars in Millions)                                                                               FTE1 Resources
                               (Dollars in Millions)                                                                                  FTE1 Resources
                                                                                                                                                                                 15,703
                                                                                                                          14,390             15,025            14,959            15,703
                                                            $8,295.6                                  14,002                                15,025            14,959
                                                         $8,295.6                                   14,002               14,390



            $4,581.5      $4,607.2         $4,973.0
        $4,581.5       $4,607.2         $4,973.0                         $4,227.4
                                                                       $4,227.4



                                                                                                     2007                 2008               2009                  2010          2011
                                                                                                    2007                 2008               2009                  2010           2011
            2007           2008            2009              2010         2011                                                           Fiscal Year
         2007           2008             2009              2010         2011                                                            Fiscal Year
                                         Fiscal Year                                        1
                                                                                              FTE—Full-Time Equivalent
                                      Fiscal Year                                      1
                                                                                           FTE—Full-Time Equivalent




 T 
            he Economic Growth theme consists of three strategic
                                                                                                                  ECONOMIC GROWTH
            goals related to Innovation and Entrepreneurship,                                                    ECONOMIC GROWTH
                                                                                                                P E R F O R M A N C E R E S U LT S
            Market Development and Commercialization, and                                                      P E R F O R M A N C E R E S U LT S
Trade Promotion and Compliance. Within those three goals are                                                    70
                                                                                                               70
                                                                                                     Results




                                                                                                                60
                                                                                            ReportedResults




12 corresponding objectives, five associated with Innovation and                                               60
                                                                                                                50
                                                                                               Numberofof




Entrepreneurship, three with Market Development and Commer-                                                    50
                                                                                                                40
                                                                                                               40
                                                                                              Number




cialization, and four with Trade Promotion and Compliance.                                                      30
                                                                                           Reported




                                                                                                               30
                                                                                                                20
                                                                                                               20
                                                                                                                10
                                                                                                               10
                                                                                                                  0
                                                                                                                0
                                                                                                                       2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                      2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                             Exceeded          3               7       10    14        16    22       21   19    21       18
                                                                                            Exceeded         3               7        10    14        16    22       21    19    21       18
                                                                                             Met               7             12        15    17        21    21       28   32    28       35
                                                                                            Met              7              12        15    17        21    21       28    32    28       35
                                                                                              Slightly Below                                            3              1     5    8        4
                                                                                            Slightly Below                                             3               1    5     8        4
                                                                                              Improved                                  1      1
                                                                                            Improved                                   1      1
                                                                                              Not Met          5                  6     2               2     2       2     6     8       10
                                                                                            Not Met          5                6        2               2     2        2     6     8       10

                                                                                       See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                      See Appendix A: Performance and Resource Tables for individual reported results.




F Y   2 0 1 1      P E R F O R M A N C E              A N D   A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                                           65
Performance Section • Theme 1




                                                         Public Benefits



Innovation and Entrepreneurship

The U.S. Patent and Trademark Office (USPTO) facilitates the generation of innovative and commercially viable processes and products,
while protecting the intellectual property rights (IPR) of the inventor. USPTO’s goal to provide efficient and thorough review of patents
and trademarks optimizes the economic value to investors and improves U.S. competitiveness. Economic Development Adminis-
tration (EDA) grants play a large role in encouraging innovation, and the forums that the Agency establishes create research-based
communities of practice that foster commercialization. The National Telecommunications and Information Administration (NTIA) assists
communication, key to business growth, by improving telecommunication performance, optimizing use of the federal spectrum, and
increasing broadband access. As the federal government’s National Laboratory focused on innovation and industrial competitiveness,
the National Institute of Standards and Technology (NIST) has long recognized the importance of technological innovation and a robust
manufacturing sector to the health of the Nation’s economy both as a source of high-paying, high-skilled jobs, and as a driver for future
technological advancement.

Market Development and Commercialization

NIST’s Hollings Manufacturing Extension Partnership (MEP) and the International Trade Administration (ITA) support small and medium-
sized enterprises (SME) to encourage job growth, job creation, and innovation, with a focus on environmentally and economically
sustainable technologies. Through private enterprise job creation, EDA and the Minority Business Development Agency (MBDA) assist
in developing markets in disadvantaged or distressed communities so as to reduce economic duress.

Trade Promotion and Compliance

The Department generates economic growth and jobs through extensive assistance to firms engaging in international trade. ITA focuses
on increasing exports by assisting U.S. exporters in expanding to foreign markets as outlined by the National Export Initiative (NEI).
ITA works to achieve this goal in three ways:

●● Provides the data and analysis used by businesses and government to develop effective trade policies and strategic decisions to
   support U.S. industries;

●● Confronts unfair trade practices at home and abroad in order to give workers and firms the opportunity to compete on a level
   playing field; and

●● Promotes strategically U.S. product and service exports.


Export control reform has become a central concern to the Bureau of Industry and Security (BIS) as it updates the intergovernmental
processes that are in place. NTIA promotes the use of telecommunication devices, speeding the pace of business.




  66                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                Performance Section • Theme 1




Strategic Goal – Innovation and Entrepreneurship
Develop the tools, systems, policies, and technologies critical to transforming our economy,
fostering U.S. competitiveness, and driving the development of new businesses

                     I N N OVAT I O N A N D E N T R E P R E N E U R S H I P TOTA L R E S O U R C E S
                   I N N OVAT I O N A N D E N T R E P R E N E U R S H I P TOTA L R E S O U R C E S
                                        Funding Levels
                                     Funding   Levels                                                                                   FTE1 Resources
                                      (Dollars in Millions)                                                                            FTE1 Resources
                                  (Dollars in Millions)
                                                                                                                                                                                 13,190
                                                                                                                                               12,591           12,517           13,190
                                                                                                    11,398                11,925              12,591           12,517
                                                                                                  11,398                 11,925
                                                             $7,388.1
                                                          $7,388.1


            $3,766.3      $3,799.7          $4,055.3
        $3,766.3       $3,799.7          $4,055.3                         $3,283.1
                                                                        $3,283.1


                                                                                                    2007                  2008                 2009              2010            2011
                                                                                                   2007                  2008                 2009              2010             2011
            2007           2008             2009             2010          2011                                                           Fiscal Year
         2007           2008              2009             2010          2011                                                            Fiscal Year
                                         Fiscal Year                                        1
                                                                                              FTE—Full-Time Equivalent
                                      Fiscal Year                                      1
                                                                                           FTE—Full-Time Equivalent




 T 
          his strategic goal is comprised of five objectives which
                                                                                       I N N OVAT I O N A N D E N T R E P R E N E U R S H I P
          contribute to the Secretary’s theme of Economic                            I N N OVAT I O N A N D E N T R E P R E N E U R S H I P
                                                                                                P E R F O R M A N C E R E S U LT S
          Growth. The following public benefits, achievements,                                 P E R F O R M A N C E R E S U LT S
and performance results are associated with each objective.                                                      35
                                                                                                                35
                                                                                                      Results




                                                                                                                 30
                                                                                             ReportedResults




                                                                                                                30
                                                                                                                 25
                                                                                                Numberofof




                                                                                                                25
                                                                                                                 20
                                                                                                                20
                                                                                               Number




                                                                                                                 15
                                                                                            Reported




                                                                                                                15
                                                                                                                 10
                                                                                                                10
                                                                                                                   5
                                                                                                                 5
                                                                                                                   0
                                                                                                                 0
                                                                                                                        2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                       2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                               Exceeded          2                 4      5      4        7    10     8     3      6       9
                                                                                              Exceeded         2               4         5      4        7    10      8     3      6       9
                                                                                               Met               5                 8     10     14       14    17    14    21     15      17
                                                                                              Met              5               8        10     14       14    17    14     21     15      17
                                                                                                Slightly Below                                            1            1     2     6       3
                                                                                              Slightly Below                                             1            1     2      6       3
                                                                                                Improved                                  1       1
                                                                                              Improved                                   1       1
                                                                                                Not Met          2                 3      2                     1           2       2      4
                                                                                              Not Met          2               3         2                     1            2       2      4

                                                                                         See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                       See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                         Objectives 3, 6 and 7 share measures that are related to EDA. The results of these measures
                                                                                       Objectives  3, 6 and
                                                                                         are reflected      7 share measures
                                                                                                        in Objective 3.      that are related to EDA. The results of these measures
                                                                                       are reflected in Objective 3.




F Y   2 0 1 1      P E R F O R M A N C E               A N D   A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                                           67
Performance Section • Theme 1




                                                           Objective 1

         Improve intellectual property protection by reducing patent pendency, maintaining trademark
               pendency, and increasing the quality of issued patents and trademarks (USPTO)


                                                           Public Benefits



 I  ntellectual Property (IP) contributes to a strong global economy by encouraging investment in innovation and fostering entre-
    preneurial spirit. People worldwide benefit from innovations, both directly on a personal level, and indirectly through economic
growth fueled by innovation. Continual development of a vigorous, flexible, and efficient IP system protects individual rights,
encourages investment in innovation, and fosters entrepreneurial spirit.

The Department promotes the IP system through the protection of inventions or creations via patent, trademark, trade secret, and
copyright laws. Under this system of protection, industry in the United States has flourished, creating employment opportunities for
millions of Americans.

Patents provide incentives to invent and invest in new technology by allowing innovators the opportunity to benefit from their discov-
eries. Registration of trademarks assists businesses in protecting their investments and safeguards consumers against confusion
and deception in the marketplace by providing notice of marks in use. Through dissemination of patent and trademark information,
the Department promotes a global understanding of IP protection and facilitates the development and sharing of new technologies
worldwide.

It is a legal requirement for patentability to determine whether an invention is new, useful, and non-obvious to someone knowledgeable
in that subject matter. To that end, not only is it important that a patent or trademark be issued in a timely manner, but that it is of
high quality. Patent examinations are subjected to both end-product allowance and in-process reviews that evaluate the quality of the
substantive basis for examiner decisions, applicability of publications found by the examiner, or the quality reviewer; evidence; and
clarity of communications with applicants. These reviews produce findings that are shared individually with examiners, are collected in
a database for ongoing analysis, serve as the basis for the development of training programs, and are used to strengthen the review
process.



Achievements

USPTO Implements Programs to Reduce Patent Pendency

In order to achieve its goal to reduce pendency, USPTO launched a major program to clean up the older cases in the pending backlog,
and more strictly manage its inventory in a first-in, first-out inventory environment. This initiative may result in a temporary rise in
pendency in the near-term, because pendency is determined by cases that were examined during a particular period. However,
clearing the oldest patent applications is important to USPTO’s long-term success in reducing pendency and the backlog of unexamined
patent applications. In an effort to eliminate the “tail” of backlog applications that were more than 16 months old at the beginning of
the fiscal year and which had not yet received a first office action, USPTO launched a unique initiative known as “Clearing the Oldest
Patent Applications,” or “COPA.” This initiative is a critical first step in reaching USPTO’s strategic goal of providing first office actions
on all new applications in an average of 10 months from their date of filing by 2014.




  68                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




USPTO continues to increase its examination capacity by employing new recruitment and development models to hire, train, and
retain a highly skilled and diverse workforce. While continuing to draw candidates from traditional sources, a targeted hiring program
was launched to focus on recruiting experienced former examiners and IP professionals. The new hiring model seeks individuals with
appropriate technology backgrounds who also have previous IP experience for patent examiner positions. In contrast with previous
hiring which focused on scientific background and experience, this new hiring model places more emphasis on recruiting candidates
with significant IP experience which will result in reduced training time as well as an increased ability to examine applications much
sooner than a new hire with little or no IP experience, thereby increasing overall production output.

USPTO Develops a Work Sharing Program

An ongoing effort to improve examination efficiency and use resources wisely is the development of Work Sharing. Work Sharing
has evolved as a significant tool in addressing pendency. Under the Work Sharing umbrella are the Patent Prosecution Highway
(PPH), Strategic Handling of Applications for Rapid Examination (SHARE), and First Look Application Sharing (FLASH). These work
sharing programs reduce re-work, increase collaboration, and provide consistency between IP offices. The benefits of work sharing
are immense. USPTO continues to work with the major IP offices toward collaborative work sharing solutions that aid in faster, higher
quality patents.

USPTO has implemented PPH with 15 other offices worldwide. In PPH, after an office of first filing determines that an application
contains at least one allowable claim, the applicant may request that the second office fast-track examination of corresponding claims
in its corresponding application filed in the office of second filing. By using the PPH, an applicant can receive patentability determina-
tions faster in multiple jurisdictions, saving time and money in the process. Offices greatly benefit from work sharing efficiency and
quality gains.

Beginning with the first PPH with the Japan Patent Office in 2006, USPTO has received over 6,000 PPH requests, and has met its
FY 2011 goal of 8,000 requests. Other important PPH metrics include:

●● An overall allowance rate of over 90 percent, about double the overall USPTO average allowance rate;

●● A reduction of almost one entire office action per disposal vs. the USPTO average of 2.41 actions/disposal;

●● A reduction in the number of appeals of over 80 percent vs. the overall USPTO average appeal rate; and

●● A decrease of over 50 percent in the number of requests for continued examination or continuation filings vs. the USPTO average.


This program was selected by Secretary of Commerce Gary Locke as one of the first two programs to be awarded the Department’s
first Performance Excellence Award for outstanding efforts to improve business processes.

USPTO Also Maintained and Improved Patent Quality

Reducing patent pendency is only one part in improving the IP system—USPTO also must maintain and improve patent quality.
USPTO continues to expand its quality management program by focusing on improving the quality of the initial patent application and
the entire examination and prosecution process. Quality improvement is a continuous process that must include public input on the
best ways to improve quality as well as measure that improvement without extending the overall examination process. Collaboration
between USPTO, the Patent Public Advisory Committee Quality Task Force, and the patent community resulted in a new quality
measure, the Quality Index Report. USPTO added this measure to the Composite Quality Metric which measures seven diverse
aspects of the examination process to form a more comprehensive composite of quality metric. Specifically the Quality Index Report




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     69
Performance Section • Theme 1




tracks the actions taken by examiners during prosecution of patent applications. It further provides a statistical analysis of quality-
related events in the prosecution, such as the reopening of final rejections and second non-final actions. Identifying quality issues prior
to final action allows for corrective actions to be taken via coaching, mentoring, and training.

USPTO Worked to Re-Engineer the Patent System

During FY 2011, USPTO worked to re-engineer the entire patent examination system to improve workload prioritization, decrease
duplicative work, and streamline reviews in collaboration with applicants. USPTO established and improved mechanisms that would
result in accelerated examination, critical to this effort. Accelerating the patent process and boosting patent quality are essential in
translating inventors’ ideas into job-creating businesses that spur economic growth and ensure U.S. competitiveness in the global
market. Recognizing that applicants’ needs vary in patent prosecution time as well as in application costs resulted in the development
and implementation of new programs aimed at meeting these varied needs of stakeholders.

USPTO Implements the Green Technology Pilot Program

The Green Technology Pilot Program provides accelerated examination of inventions involving green technology, thereby promoting
innovation in green technologies and reducing the pendency of patent applications critical to climate change mitigation. In response
to feedback from applicants, USPTO revised the Green Technology Pilot Program to allow more categories of technology to be eligible
for expedited processing under the program. As a result, the Green Technology Pilot Program has increased the development and
deployment of green technology and contributed to promoting U.S. competitiveness in this vital sector. More than 1,900 petitions
have been granted to green technology patent applicants since the pilot began in December 2009.

USPTO Improved Guidance for Patent Applications

For the first time in history, the IP community is able to work with USPTO collaboratively in making the Manual of Patent Examining
Procedure (MPEP) a state-of-the-art practice document through an interactive discussion tool specifically designed to solicit input
from stakeholders on the revision and publication process of the MPEP. The innovative use of Web-based technology to successfully
re-engineer the MPEP has not only transformed the way the MPEP is expeditiously updated, but also has established a more collab-
orative revision process to foster interaction and contributions from stakeholders. This tool benefits practitioners as well as examiners
by providing easy, accurate, and current guidance to ensure that all patent applications comply with the laws and regulations governing
the patent system.

USPTO Continues to Maintain First Action and Final Trademark Pendency

For the sixth consecutive year, the Trademark Organization has exceeded its pendency targets for first action and final disposition.
With final pendency less than 11 months, a record low for the office, USPTO registers a new application or issues a notice of allowance,
on average in less than a year. This rapid processing allows applicants to act quickly on marketing strategies and business plans.
Since an examiner issues a first action approximately three months from the filing date, an applicant has an important early indication
of registrability. USPTO has consistently maintained first action pendency between 2.5 and 3.5 months despite large variability in
incoming workloads and persistent economic uncertainty. The Trademark Organization has also dynamically aligned examination
capacity with incoming workloads by maintaining appropriate staffing levels, sustaining high productivity, and judiciously adjusting
production incentives to maintain first action pendency at 2.5 to 3.5 months and final pendency at 12.5 months or less.




  70                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




USPTO Has Increased Trademark Electronic Processing and Filing

Pendency has improved as electronic processing and filing have become the primary means of conducting business within the
Trademark Organization. Increased use of electronic forms, particularly Trademark Electronic Application System (TEAS) Plus filings has
improved the efficiency and timeliness of examination. While 30 percent of new applications are TEAS Plus filings, these applications
account for 48 percent of first action approvals.

USPTO Took Steps to Address Trademark Fraud and Inaccuracy

Following changes in the standard for fraud on USPTO, and resulting concerns about the potential for inaccuracy in the identifications
of goods and services on the register, the Trademark Organization began taking steps to assess this issue. The Trademark Organization
hosted a roundtable in 2010 with the George Washington University School of Law to discuss improvements to the accuracy of identi-
fications with members of the user community and collected public comments on suggestions from the roundtable. The Trademark
Organization also discussed the issue with the Trademark Public Advisory Committee.

Following up on one of the leading suggestions, in July 2011 the Trademark Organization issued a Notice of Proposed Rulemaking
that would permit USPTO to require additional specimens or other evidence in connection with a Section 8 affidavit of continued use.
Comments on the proposed rule are due September 12, 2011. Once finalized, the rules changes initially would facilitate a limited pilot
in a relatively small number of cases to assess the level of accuracy of the identifications. The pilot could yield information about the
reliability of the trademark register in this regard, so that USPTO and stakeholders may determine whether an inaccuracy problem
exists and consider measures to address it, if necessary.




                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                          Performance Measure (USPTO)                                       Target          Actual           Status
 Final rejection allowance compliance rate                                                  95.6% -
                                                                                                             95.6%              Met
                                                                                             96.5%
 Non-final in-process compliance rate                                                       94.6% -
                                                                                                             95.2%              Met
                                                                                             95.6%
 Patent first action pendency (months)                                                       26.3             28.0         Slightly Below

 Patent total pendency (months)                                                              34.8             33.7              Met

 Patent applications filed electronically                                                   90.0%            93.1%              Met

 Trademark first action compliance rate                                                     95.5%            96.5%              Met

 Trademark final compliance rate                                                            97.0%            97.0%              Met

 Trademark first action pendency (months)                                                   2.5-3.5           3.1               Met

 Trademark average total pendency (months), excluding suspended and inter
                                                                                             12.5             10.5              Met
 partes proceedings
 Trademark applications processed electronically                                            68.0%            73.0%              Met




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      71
Performance Section • Theme 1




FY 2011 Status

USPTO met 9 out of 10 targets, being slightly below the target for “Patent first action pendency.”



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure       Patent first action pendency (months) (USPTO)
                 The performance goal was set at an approximate target level, and the deviation from that level is slight. There was
 Explanation
                 no effect on overall program or activity performance.
 Action          No additional action was taken.




  72                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                                          Objective 2

                Expand international markets for U.S. firms and inventors by improving the protection
                              and enforcement of intellectual property rights (USPTO)


                                                         Public Benefits



 I   n an era of a global economy it is also important that the property rights of inventors be protected, not only in the United States,
     but internationally as well. USPTO plays a leadership role in promoting effective domestic and international protection and
enforcement of IPR by advocating U.S. government IPR policy, working to develop unified standards for international IPR, providing
policy guidance on domestic IPR issues, and fostering innovation. USPTO advises the President and federal agencies on national and
international IPR policy matters and trade-related aspects of IPR, and conducts technical assistance and capacity-building programs
for foreign governments seeking to develop or improve their IPR regulatory and enforcement mechanisms.



Achievements

USPTO Provides IP Education Opportunities

USPTO, through the Global Intellectual Property Academy (GIPA) in the Office of Policy and External Affairs, provides IP educational
opportunities to domestic SMEs, universities, foreign officials, and the public. GIPA provides expertise on administration, protection,
and enforcement in all areas of domestic and international IP. In FY 2011, GIPA conducted more than 120 training programs with more
than 5,500 attendees from over 120 different countries. The attendees included officials from foreign IP offices; law enforcement
authorities, including prosecutors, police, and customs officials; and members of the judiciary. Domestic opportunities include outreach
to Native American tribes, educational programs on IP awareness, and China Road Shows providing IP information to SMEs seeking
to do business in China. Additionally, GIPA partners to develop and deliver educational outreach programs with other areas of the U.S.
government, particularly the Small Business Administration, MBDA, and ITA. GIPA also worked with the White House Office of the IP
Enforcement Coordinator to coordinate all U.S. government IP training, including hosting a database of all training and capacity-building
activities. USPTO efforts will facilitate the export capabilities of domestic industry and SMEs, and ensure their competitiveness around
the world.

USPTO Expands Work Sharing

Throughout FY 2011, USPTO continued to emphasize work sharing among patent offices as a key to efficient management of office
workloads, reduction of backlogs and pendency, and improvement of the international patent system. USPTO’s primary work sharing
vehicle—PPH—has proven to be a major success, producing significant efficiency gains in terms of higher allowance rates, fewer
office actions per disposal, and substantially lower percentages of appeals and continuation applications. USPTO is on track to double
the total number of PPH requests in 2011 that it has received in the preceding four years combined.

USPTO continues to work with its international partners to evolve and improve the PPH and began testing a new approach in July 2011
that enhances flexibility and expands PPH eligibility. In parallel, the offices are working out details of a USPTO proposal for a next-
generation framework—PPH 2.0—that will replace the existing network of bilateral arrangements with a more centralized, easy-to-use
system incorporating the new approach being tested, as well as other user-friendly enhancements.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    73
Performance Section • Theme 1




USPTO Accelerates Work on the Trilateral ID Project

USPTO, along with the Trademark Trilateral Partners, the Japan Patent Office, and the Office for the Harmonization of the Internal
Market, have been accelerating work on one particular Trilateral Project, known as the “Trilateral ID Project.” The Trademark Trilateral
Partners have collaborated to compile a list of identifications of goods and services that are acceptable in each of their respective
offices. USPTO, with the approval of the Trilateral Partners, is taking the lead to invite other national trademark offices to participate
in the project. To date, Canada, Philippines, South Korea, Mexico, Singapore, and the Russian Federation have joined the project.
USPTO also worked with the World Intellectual Property Organization (WIPO) to ensure that the Trilateral ID list is incorporated into
the Madrid System for the International Registration of Marks to provide applicants with IDs that will be accepted by certain national
offices. Additionally, upon request by USPTO, WIPO has started to revise the Madrid application forms to better accommodate some
U.S. application requirements.

USPTO Works Closely with Other Agencies/Countries on International Issues

USPTO worked with the Office of the U.S. Trade Representative (USTR), the State Department, the Department of Health and Human
Services, and several other agencies, as well as U.S. stakeholders, to finalize a draft framework agreement in the World Health Organi-
zation (WHO) on the sharing of influenza samples and related benefits. The framework agreement was adopted by the General
Assembly of WHO in April 2011.

USPTO also worked closely with USTR throughout FY 2011 in ongoing IP discussion in the World Trade Organization (WTO) in seeking
to maintain the integrity of the Trade-related Aspects of Intellectual Property Rights (TRIPS) Agreements and defeat attempts to weaken
it. USPTO also advised USTR during the WTO accession process of several countries in evaluating IPR laws, regulations, and practices
of countries in the process of accession, and advising USTR as to their TRIPS consistency.

Through its attachés, USPTO has met a number of important objectives in host countries. For example, an agreement was signed with
the Russian Federal Service for Intellectual Property, Patents, and Trademarks (Rospatent) in which Rospatent agreed to undertake
international search and international preliminary examination for international applications filed with USPTO as the receiving office.
As a result, U.S. applicants will have an additional choice of international authorities for searches and preliminary examinations based
on the field of technology of the invention, as well as the speed and cost of service.




  74                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.


                          Performance Measure (USPTO)                                       Target      Actual         Status
 Percentage of prioritized countries that have implemented at least 75%
 of action steps in the country-specific action plans toward progress along
 following dimensions:
 1.	 Institutional improvements of IP office administration for advancing IPR               75%          75%            Met
 2.	 Institutional improvements of IP enforcement entities
 3.	 Improvements in IP laws and regulations
 4.	 Establishment of government-to-government cooperative mechanisms



FY 2011 Status

USPTO met the target for this measure.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              75
Performance Section • Theme 1




                                                         Objective 3

               Stimulate high-growth business formation and entrepreneurship through investing in
                  high-risk, high-reward technologies and by removing impediments to accelerate
                                     technology commercialization (EDA, NIST)


                                                         Public Benefits



 E     DA encourages entrepreneurship and commercialization through strategic investments and initiatives designed to encourage
       and reward innovative, groundbreaking ideas that will accelerate technology commercialization, and new venture formation
across the United States. EDA’s investments are designed to leverage the Agency’s partnership with University Centers across the
country, which have extensive resources, including specialized research, outreach and technology transfer and commercialization
capabilities, as well as recognized faculty expertise and sophisticated laboratories. In addition, EDA uses its Office of Innovation and
Entrepreneurship to conduct forums, collaborate on cutting-edge research, and analyze policy with the intent of identifying opportu-
nities for enhancing federal efforts to encourage commercialization and entrepreneurship.

NIST invests in high-risk, innovative projects with the potential to produce transformational results in areas of critical national need.
As established by the America COMPETES Act of 2007, the Technology Innovation Program (TIP) supports, promotes, and accelerates
innovation in the United States by making cost-shared awards for high-risk, high-reward research in areas of critical national need.
These areas need government attention because the magnitude of the problem is large and societal challenges are not being suffi-
ciently addressed. TIP funds projects that have strong potential for advancing state-of-the-art technology and contributing significantly
to the U.S. science and technology knowledge base, and that may result in the creation of IP vested in a U.S. entity. TIP may make
awards of up to a total of $3 million to individual small or medium-sized companies that cover three years or less, and awards of up to
a total of $9 million to joint ventures that cover five years or less.

The long-term nature of TIP-funded projects will result in a three to five-year lag from initial project funding to the generation of four
additional measureable outputs and outcomes. These additional measures will cover the number of publications, patent applications,
projects generating continued research and development (R&D), and projects with technologies under adoption.



Achievements


EDA

Using its broad portfolio of economic development programs, EDA took significant steps to stimulate high growth, business formation,
entrepreneurship, and technology commercialization through strategic investments in FY 2011. EDA’s investments in University
Centers helped to identify opportunities for technology commercialization, and facilitated implementation and dissemination of
programs to cultivate innovation and entrepreneurship. EDA’s Office of Innovation and Entrepreneurship worked with key stakeholders
throughout the country to identify and disseminate strategies to promote technology transfer and commercialization, especially through
the Nation’s federal laboratories. Vital to this effort was EDA-funded research completed in FY 2011 that identified factors affecting
technology transfer and commercialization and provided key innovative strategies that can be employed as they are pursued.




  76                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




In addition, in FY 2011, EDA led an initiative of 16 federal agencies and bureaus to introduce the Jobs and Innovation Accelerator
Challenge (Jobs Accelerator), an unprecedented initiative to spur economic growth through public-private partnerships in at least
20 regions around the country. The Jobs Accelerator supports the development and implementation of locally driven economic devel-
opment strategies by coordinating federal resources to support the development of self-identified, high-growth clusters and accelerate
the benefits of regional innovation cluster-based economic development, including business formation and expansion, high-wage job
growth, increased exports, and higher incomes for all residents.


NIST

New High-Risk Innovative Awards in Critical National Need Areas

NIST’s TIP funded a total of 38 new high-risk, innovative projects since the program’s inception in the critical national need areas of
inspecting and repairing the Nation’s civil infrastructure and accelerating advanced materials and critical processes in manufacturing
and biomanufacturing. The unique multi-disciplinary approaches and teaming efforts of the 78 recipient organizations involved in these
projects will help to achieve a transformational impact in both areas of national need.

Awards to Small Businesses Five Years or Less

In the first 38 cost-shared awards TIP awarded, 17 of the recipient companies (10 single company awards and seven joint venture
members) were small businesses five years old or less and were involved in research in 14 different TIP projects. These 14 projects
with small, young recipients received $41.9 million in federal support from TIP and contributed an additional $46.0 million in private
cost share for a total of $87.9 million invested in high-risk, high-reward research in areas of critical national need. These areas cover
inspecting and repairing the Nation’s civil infrastructure and accelerating advanced materials and critical processes in manufacturing
and biomanufacturing.

Advanced Manufacturing Research in Electronics, Biotechnology, and Nanotechnology

In December 2010, NIST announced TIP’s nine new research projects selected for cost-shared awards, targeting innovative manufac-
turing technologies in fields ranging from biopharmaceuticals and electronics to renewable energy sources and energy storage.
TIP would provide $22 million to these projects that, if successful, will generate an estimated $46 million in new advanced manufac-
turing research over the next three years.


                                            S UMMAR Y OF P ERFORMANCE


The following 10 measures associated with EDA overlap among Objectives 3, 6, and 7 and are reflected in the crosswalk below.
Objective 6 has no other measures other than the ones noted in this list while Objectives 3 and 7 have separate measures that don’t
overlap with each other.


                                 Performance Measure                                        Objective 3    Objective 6     Objective 7
 Private investment leveraged – 9 year totals (in millions)                                       3              3              3
 Private investment leveraged – 6 year totals (in millions)                                       3              3              3
 Private investment leveraged – 3 year totals (in millions)                                       3              3              3
 Jobs created/retained – 9 year totals                                                            3              3              3
 Jobs created/retained – 6 year totals                                                            3              3              3
                                                                                                                             (continued)



F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    77
Performance Section • Theme 1




                           Performance Measure (continued)                                  Objective 3      Objective 6    Objective 7
 Jobs created/retained – 3 year totals                                                             3              3                  3
 Percentage of Economic Development Districts (EDD) and Indian tribes
 implementing projects from the Comprehensive Economic Development Strategy                        3                                 3
 (CEDS) that lead to private investment and jobs
 Percentage of sub-state jurisdiction members actively participating in the Economic
                                                                                                   3                                 3
 Development District program
 Percentage of University Center clients taking action as a result of University Center
                                                                                                   3                                 3
 assistance
 Percentage of those actions taken by University Center clients that achieve the
                                                                                                   3                                 3
 expected results

The table that appears below reflects performance for those measures that apply to either all three, or to Objectives 3 and 7, and to the
TIP measure that applies to only Objective 3. Measures that apply to only Objective 7 appear under the text for that objective.


                             Performance Measure                                         Target              Actual               Status
 Private investment leveraged – 9 year totals (in millions) (EDA)                         $1,940              $3,960              Exceeded

 Private investment leveraged – 6 year totals (in millions) (EDA)                         $674                $1,617              Exceeded

 Private investment leveraged – 3 year totals (in millions) (EDA)                         $245                $1,475              Exceeded

 Jobs created/retained – 9 year totals (EDA)                                              57,800              56,058            Slightly Below

 Jobs created/retained – 6 year totals (EDA)                                              18,193              26,416              Exceeded

 Jobs created/retained – 3 year totals (EDA)                                              6,256               14,842              Exceeded

 Percentage of Economic Development Districts (EDD) and Indian tribes
 implementing projects from the Comprehensive Economic Development                         95%                 86%                 Not Met
 Strategy (CEDS) that lead to private investment and jobs (EDA)
 Percentage of sub-state jurisdiction members actively participating in the
                                                                                           89%                 85%              Slightly Below
 Economic Development District program (EDA)
 Percentage of University Center clients taking action as a result of the
                                                                                           75%                 68%                 Not Met
 University Center assistance (EDA)
 Percentage of those actions taken by University Center clients that achieve
                                                                                           80%                 83%                   Met
 the expected results (EDA)
 Cumulative number of TIP projects funded (NIST)                                            38                  38                   Met




FY 2011 Status

EDA met or exceeded six of 10 targets, and was slightly below the targets for two other measures. NIST met its lone target.




  78                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                    Performance Section • Theme 1




F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Jobs Created/Retained – 9 Year Totals (EDA)
                   The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                   There was no effect on overall program or activity performance.
 Action            No actions to be taken.
   Measure         Percentage of Economic Development Districts (EDD) and Indian tribes implementing projects from the
                   Comprehensive Economic Development Strategy (CEDS) that lead to private investment and jobs (EDA)
                   For this measure, EDA uses a strict definition that requires EDDs to report both jobs and private investment as
 Explanation       a result of their economic development projects. This year, a significant number of EDDs reported either jobs or
                   private investment, but not both. If these were to be counted, the percentage would be raised to 93 percent.
 Action            No actions to be taken.
   Measure         Percentage of sub-state jurisdiction members actively participating in the Economic Development
                   District program (EDA)
                   The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                   There was no effect on overall program or activity performance.
 Action            No actions to be taken.
   Measure         Percentage of University Center clients taking action as a result of the University Center assistance
                   (EDA)
                   The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                   There was no effect on overall program or activity performance.
 Action            No actions to be taken.



Historical Trends

EDA has consistently met or exceeded its targets for private investment leveraged and jobs created, as well as its EDD and University
Center targets.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                79
Performance Section • Theme 1




                                                         Objective 4

              Drive innovation by supporting an open global Internet and through communications
             and broadband policies that enable robust infrastructure, ensure integrity of the system,
                                        and support e-commerce (NTIA)


                                                         Public Benefits



 I   n this era of technological expansion two areas where the Department provides significant benefits to the U.S. public involve
     the radio frequency spectrum and broadband technology. NTIA acts as an advisor to the President on communications
policy matters: Internet domain names, high-speed Internet services, wireless telecommunications standards, and technology.
NTIA continues to further the technological advances for wireless communication, Internet services, domain name management
issues, and other advances in technology. NTIA’s responsibilities have increased considerably in this expansion of technology with
the enactment of the American Recovery and Reinvestment Act (ARRA) of 2009. NTIA and the U.S. Department of Agriculture’s
Rural Utilities Service are administering a $7 billion initiative to expand broadband access and adoption. Specifically, NTIA is utilizing
approximately $4 billion of that funding for grants through the Broadband Technology Opportunities Program (BTOP). BTOP projects
extend broadband access to unserved and underserved areas of the country and to vulnerable populations, including minorities, low
income residents, the aged, the unemployed, and people with disabilities. These projects are deploying broadband infrastructure,
enhancing capacity at public computing centers, and supporting projects to encourage non-users to subscribe to broadband services.
BTOP objectives include:

●● Extend broadband access to unserved and underserved areas;

●● Increase broadband education, awareness, training, access, equipment, and support;

●● Expand broadband access and use by public safety agencies; and

●● Stimulate broadband demand, economic growth, and job creation.


NTIA also leads Department activities in the areas of next-generation Internet Protocols, ultrawideband technology, wireless broadband
applications, wireless sensor technologies, and Internet technical functions. Congress directed NTIA to use ARRA funding to develop
a national broadband map which would educate the Nation about broadband availability and assist the public and private sectors in
making decisions affecting their businesses and constitutents.



Achievements

In November 2010, NTIA recommended that 115 MHz of spectrum be reallocated for wireless broadband service within the next five
years. NTIA also established a plan and timetable for identifying spectrum that can be made available for wireless broadband over the
next 10 years, working in collaboration with the Federal Communications Commission (FCC) and other federal government agencies.
The Ten-Year Plan and Timetable identifies over 2,200 MHz of spectrum for evaluation, establishes a process for evaluating these
candidate bands, and lays out the steps to potentially make the selected spectrum available for wireless broadband services. NTIA and
FCC will also identify 500 MHz of spectrum over the next 10 years to support commercial broadband services or products. In January,
NTIA selected the 1755-1850 MHz band as a priority for analysis based on a variety of factors, including industry interest and its
potential for commercial use within 10 years. NTIA began the detailed study phase of the 1755-1850 MHz immediately.




  80                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




NTIA has completed an initial version of a prototype online Spectrum Inventory. NTIA expects to release this publicly in April 2012.

BTOP is on track to meet—and in most cases exceed— its program goals, delivering significant progress in areas such as infrastructure
construction, computer center launches, and delivery of training to new broadband users. NTIA expects the pace of delivered miles to
continue to increase now that most infrastructure recipients have completed environmental and historic preservation requirements and
are taking advantage of the summer/fall construction season. NTIA also expects the deployment of new workstations and upgrades
of existing workstations to accelerate as recipients order, configure, and install computers at their sites. Furthermore, NTIA expects
the number of new subscribers to increase significantly as more households are reached by awareness campaigns, receive subsidized
computer equipment or broadband service, complete training programs, and take advantage of workstations and discounted subscrip-
tions provided by BTOP funds.

NTIA, in collaboration with FCC, launched the National Broadband Map on February 17, 2011. This tool publicly displays the geographic
areas where broadband service is available; the technology used to provide the service; the speeds of the service; and broadband
service availability at public schools, libraries, hospitals, colleges, universities, and public buildings. The map is also searchable by
address and shows the broadband providers offering service in the corresponding census block or street segment. NTIA makes the
underlying datasets readily available and offers analytical tools to help consumers, businesses, policymakers, and researchers make
further use of this data.

NTIA created DigitalLiteracy.gov, in partnership with nine federal agencies, to provide librarians, teachers, workforce trainers, and
others a central location to share digital literacy content and best practices. Anyone can use the Web site to identify the skills needed
for various jobs, locate suitable training, and search for employment. The Web site also provides a central location where grantees
from NTIA’s BTOP can upload and share digital literacy training materials with other practitioners and the general public, leveraging the
value of these projects.

Since the launch of DigitalLiteracy.gov, NTIA has bolstered its partnership with the American Library Association and the Institute of
Museum and Library Services to promote the use of the portal and identify additional content resources for the site. With the help of its
partners, NTIA has added more than 132 resources to the existing tools on the portal, including tutorials on using handheld devices and
mobile data applications, information on how technology is empowering the disabled community, and new resource topics, such as
child online protection. NTIA also uses the portal to highlight BTOP recipients and their progress in promoting digital literacy in commu-
nities across the country. NTIA continues to collaborate with its partners to promote the use of the portal helping to drive, on average,
more than 1,000 visitors to the site each week.

NTIA participated with other Department operating units in the Internet Policy Task Force (IPTF), which is conducting comprehensive
reviews of the nexus between privacy policy, copyright, global free flow of information, cybersecurity, and innovation in the Internet
economy. In December 2010, the IPTF released a privacy report with initial recommendations, outlining a framework to increase
protection of consumers’ data while supporting innovation and evolving technology. One of the recommendations was the adoption of
baseline privacy principles concerning how online companies collect and use personal information, a consumer online “bill of rights.”
The IPTF also released “green papers” and sought public comment on Copyright Policy, Creativity, and Innovation in the Internet
Economy; the Global Free Flow of Information; and Cybersecurity, Innovation, and the Internet Economy.

NTIA and FCC together will identify the 500 MHz of spectrum. There are no annual targets either for identification of spectrum bands
or for those undergoing study. In January 2011, NTIA selected the 1755-1850 MHz band as a priority for analysis based on a variety
of factors, including industry interest and its potential for commercial use within 10 years. NTIA has completed a key milestone in
submitting the draft detailed analysis report of this first priority band, 1755-1850 MHz.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     81
Performance Section • Theme 1




                                                  S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                               Performance Measure (NTIA)                                              Target             Actual             Status
 Update the spectrum inventory first established in FY 2010                                          Spectrum
                                                                                                     inventory          Completed              Met
                                                                                                       update
 Identify up to 500 MHz of spectrum to support commercial broadband                                  Complete
                                                                                                                        Completed              Met
 services or products                                                                              identification
 Miles of broadband networks deployed (infrastructure projects)                                        10,000             18,5451            Exceeded

 Community anchor institutions connected (infrastructure projects)                                     3,000              1,3221,2             N/A

 New and upgraded computer workstations (public computer centers
                                                                                                       10,000             16,0601            Exceeded
 projects)
 New household and business subscribers to broadband (sustainable
                                                                                                       25,000            111,8291            Exceeded
 broadband adoption projects)
 1	   As of June 30, 2011.
 2	   NTIA is uncertain whether this target will be met since data will not be available until January 2012.




FY 2011 Status

NTIA met, or exceeded, all of its targets.




  82                                                     F Y   2 0 1 1    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                                          Objective 5

           Provide measurement tools and standards to strengthen manufacturing, enable innovation,
                                       and increase efficiency (NIST)


                                                         Public Benefits



 T     he Nation’s ability to innovate and compete in a global economy depends on a robust scientific and technical infrastructure,
       including research, measurement tools, standards, data, and models. NIST works with U.S. industry and other stakeholders to
promote U.S. innovation and industrial competitiveness by advancing measurement science, standards, and technology in ways that
enhance economic security and improve quality of life. NIST leadership in measurement science research ensures that U.S. industry
and universities will have the tools they need to remain at the leading edge of innovation and to secure “first-mover advantage”
in bringing new technologies to market. NIST laboratories develop and disseminate measurement techniques, reference data, test
methods, standards, and other infrastructural technologies and services required by U.S. industry to compete in the 21st century.

NIST laboratories work at the frontiers of measurement science to ensure that the U.S. system of measurements is firmly grounded
on a sound scientific and technical foundation and promotes the use of the international system of units. Today, NIST laboratories
address increasingly complex measurement challenges. For example, NIST develops measurements focusing on the very small (e.g.,
nanotechnology devices) and the very large (e.g., skyscrapers); the physical, such as methods for characterizing strands of DNA for
forensic testing; and the virtual, such as methods for testing electronic health record systems.

NIST laboratories engage in international activities to support trade and global science, and to promote the international acceptance of
U.S. measurement standards. Industry and academia have access to NIST’s unique user facilities that support emerging technology
areas: the NIST Center for Neutron Research, which provides world class neutron measurement capabilities to the U.S. research
community; and the NIST Center for Nanoscale Science and Technology, which supports nanotechnology development from discovery
to production.

NIST laboratories also support the development of standards and specifications that define technical and performance requirements
for goods and services. These documentary standards are primarily developed collaboratively with the private sector through an open,
consensus-based process. In addition, NIST is designated under the National Technology Transfer Advancement Act as the coordi-
nator for all federal agencies using documentary standards that are developed by private-sector consensus bodies to carry out their
policy objectives.



Achievements

NIST Publishes Approved Testing Procedures for Electronic Health Records

In efforts to help the Nation’s health care industry make the transition to the digital age in an effective and meaningful fashion, NIST
published a set of approved procedures for testing information technology (IT) systems for electronic health records, which are
necessary to create confidence in and accelerate deployment of the technology. The set of 45 approved test procedures evaluates
components of electronic health records such as their encryption, how they plot and display growth charts, and how they limit access
to authorized users only. The procedures also will help ensure that electronic health records function properly and work across systems
developed by different vendors for doctor’s offices, hospitals, and other health care providers. The development of these tools was
mandated by ARRA in order to support a health IT infrastructure.


F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   83
Performance Section • Theme 1




Draft Guide to Cloud Computing

In May 2011, NIST began collecting public comments on a draft of its most complete guide to cloud computing to date. NIST Cloud
Computing Synopsis and Recommendations (Special Publication 800-146) explains cloud computing technology in plain terms and
provides practical information for IT decisionmakers interested in moving into the cloud. Cloud computing is a model for enabling
convenient, on-demand network access to a shared pool of configurable computing resources—for example, networks, servers,
storage, applications, and services—that can be rapidly provisioned and released with minimal management effort or service provider
interaction. The federal Chief Information Officer has asked NIST to lead government efforts on standards for data portability, cloud
interoperability, and security. The goal is to help the federal government reap the benefits of cloud computing.

NIST Develops New Scanning Probe Microscope

NIST developed the world’s most advanced low-temperature scanning probe microscope with unprecedented energy resolution. The
microscope operates at lower temperatures and higher magnetic fields than any other similar microscope, capabilities that enable the
device to resolve energy levels separated by as little as one millionth of an electron volt. Researchers at NIST created the microscope
together with a team of graduate students, postdoctoral students, and visiting scientists. NIST has already used the device to uncover
key properties of graphene, a flat two-dimensional sheet of carbon atoms with remarkable strength and electrical properties. Graphene
is highly anticipated to play a revolutionary role in the future of devices such as computers and batteries.

Final Report on Charleston Sofa Store Fire Includes 11 Recommendations for Changes to Codes and Procedures

NIST contributed to enhanced building, occupant, and firefighter safety nationwide by issuing recommendations for building and fire
codes at state and local levels. Based on a detailed technical investigation of the Sofa Super Store fire (Charleston, SC, 2007), the study
team made 11 recommendations for enhancing building, occupant, and firefighter safety nationwide. In particular, the team urged state
and local communities to adopt and strictly adhere to current national model building and fire safety codes. These codes are used as
models for building and fire regulations promulgated and enforced by U.S. state and local jurisdictions. Those jurisdictions have the
option of incorporating some or all of the code’s provisions but often adopt most provisions.

Ground Broken for New Green Technology and Fire Safety Facilities

On March 25, 2011, NIST held a groundbreaking ceremony at its Gaithersburg, MD, campus for three new facilities funded by ARRA.
The Net-Zero Energy Residential Test Facility resembles a typical suburban Maryland single-family home, and is designed to produce
as much energy as it consumes over the course of a year. The house will serve as a testbed for new home-scale energy technologies.
The National Fire Research Laboratory will be expanded with a 21,400 square foot (1,988 square meter) laboratory space that will
provide a unique capability for testing structures up to two stories in height, as well as subassemblies and systems under realistic fire
conditions. And more than 2,500 new photovoltaic modules will be installed, generating more than 700 megawatt hours of electricity
annually—enough to power 67 homes.

IPv6 Guide Provides Path to Secure Deployment of Next-Generation Internet Protocol

Researchers at NIST have issued a guide for managers, network engineers, transition teams, and others to help them deploy the next-
generation Internet Protocol (IPv6) securely. Guidelines for the Secure Deployment of IPv6 (NIST Special Publication 800-119) describes
the features of the protocol and possible related security impacts, provides a comprehensive survey of mechanisms to deploy the
protocol, and suggests a deployment strategy for a secure IPv6 environment. The ballooning popularity of devices tied to the Internet,
such as smart phones and netbooks, is rapidly depleting the number of so-called IP addresses available under the current Internet




  84                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




Protocol version 4 (IPv4), so the networkers of the world are preparing to move to IPv6, which has a vastly greater number of potential
addresses. NIST developed the IPv6 security guidelines in support of the Federal Information Security Management Act (FISMA).

New Web Application Simplifies Use of NIST’s Economically Green Building Products Tool

NIST released a free Web-based application to assist building designers, builders, and product manufacturers by bringing scientific
and economic considerations to green building product selection. The Building for Environmental and Economic Sustainability (BEES)
Online tool measures the environmental performance of 230 building products from cradle-to-grave based on consensus standards,
and is a valuable tool for the Leadership in Energy and Environmental Design (LEED) certification process. BEES Online is based on
consensus standards and is designed to be practical, flexible, and transparent.

NIST Puts a New Twist on the Electron Beam

Electron microscopes are among the most widely used scientific and medical tools for studying and understanding a wide range of
materials, from biological tissue to miniature magnetic devices, at tiny levels of detail. Now, researchers at NIST have found a novel and
potentially widely applicable method to expand the capabilities of conventional transmission electron microscopes. Passing electrons
through a nanometer-scale grating, the scientists imparted the resulting electron waves with so much orbital momentum that they
maintained a corkscrew shape in free space. Although NIST researchers were not the first to manipulate a beam of electrons in this
way, their device was much smaller, separated the fanned out beams 10 times more widely than previous experiments, and spun up
the electrons with 100 times the orbital momentum. The development could lead to quick and inexpensive imaging of a larger set of
magnetic and biological materials with atomic-scale resolution.

Environmental Studies Reveal Clues to Mercury Cycling and Pollutant Threats to Turtles

Three environmental studies were released this year by teams at the Hollings Marine Laboratory, a unique partnership of governmental
and academic agencies including NIST, the National Oceanic and Atmospheric Administration’s (NOAA) National Ocean Service, the
South Carolina Department of Natural Resources, the College of Charleston, and the Medical University of South Carolina. One study
suggests that mercury cycling in the flora and fauna of the Arctic may be linked to the amount of ice cover present. The researchers
found higher concentrations of mercury in eggs from areas of low or no sea-ice, compared with eggs in areas of high sea ice cover.
These findings take on greater significance in light of the potential for global warming to dramatically reduce Arctic sea ice. In another
pair of studies, researchers report that persistent organic pollutants are consistently showing up in the blood and eggs of loggerhead
sea turtles, that the turtles accumulate more of the contaminant chemicals the farther they travel up the Atlantic coast, and that
the pollutants may pose a threat to the survival of this endangered species. This large group of man-made chemicals persist in the
environment and spread great distances through air and water, accumulate in human and animal tissues, infiltrate food chains, and may
have carcinogenic and neurodevelopmental effects.

NIST and Researcher Recognized for Influential Forensic Science Citations

In July 2011, ScienceWatch.com listed NIST and one of its scientists among the most influential institutions and researchers in forensic
science. According to a ScienceWatch.com survey of legal medicine and forensic science journal papers published and cited between
2001 and early 2011, NIST ranked seventh place worldwide and second in the United States. In terms of impact—the average annual
number of citations in high-impact journals—NIST was top among U.S. institutions and third globally. NIST chemist and DNA forensics
expert John Butler was ranked as the number one “high-impact author in legal medicine and forensic science, 2001 to 2011” among
authors who published 20 or more papers during the decade. When authors were ranked by their H-index (a measure of both the
productivity and impact of their published work), Butler led all U.S. scientists and tied for fourth worldwide.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     85
Performance Section • Theme 1




NIST Develops New Tool for Processing Information at the Quantum Level

Physicists at NIST have demonstrated an electromechanical circuit in which microwaves communicate with a vibrating mechanical
component 1,000 times more vigorously than ever achieved before in similar experiments. The microscopic apparatus is a new tool for
processing information and potentially could control the motion of a relatively large object at the smallest possible, or quantum, scale.
The experiment is a step toward entanglement—a curious quantum state linking the properties of objects—between the microwave
photons and the drum motion. The drum has possible practical applications such as measuring length and force with sensitivities at
levels of attometers (billionths of a billionth of a meter) and attonewtons (billionths of a billionth of a newton), respectively.

Performance Indicators for Measurement Services and Publications

NIST measurement services, including calibration services, are critical for ensuring product performance and quality, improving
production processes, making marketplace transactions fair and efficient, and leveling the playing field for international trade. NIST offers
nearly 600 different types of physical calibrations in areas as diverse as radiance temperature, surface finish characterization, and
electrical impedance. Standard Reference Materials (SRM) are the definitive artifact-based source of measurement traceability in the
United States and are certified in NIST laboratories for their specific chemical and material properties. Customers use SRMs to achieve
measurement quality and conformance to process requirements that address both national and international needs for commerce
and trade and public safety and health. NIST’s technical publications serve as a major knowledge and technology mechanism to
transfer the results of its research to support the Nation’s technical infrastructure and provide measurements and standards to those in
industry, academia, and other government agencies. Each year, NIST’s technical staff produces an average of 2,000 publications with
approximately 50 to 60 percent appearing in prestigious scientific peer-reviewed journals. Citation impact of NIST-authored publications
demonstrates that NIST consistently produces relevant scientific and technical publications. Citation analysis provides an independent
and objective validation of peer review findings as research has shown that high citation rates—the cumulative number of citations per
publication—correlate with peer review judgment in terms of scientific quality and relevance. NIST also provides online access to over
80 scientific and technical databases to academia, industry, other government agencies, and the general public. An additional hundreds
of millions of annual downloads are associated with NIST Web-based, time-related services.


                                                S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                             Performance Measure (NIST)                                             Target              Actual             Status
 Qualitative assessment and review of technical quality and merit using peer                       Complete
 review                                                                                           annual peer         Completed              Met
                                                                                                    review
 Citation impact of NIST-authored publications                                                       > 1.1               > 1.11              Met

 Peer-reviewed technical publications produced                                                      1,350                1,210             Not Met

 Standard Reference Materials (SRM) sold                                                            31,000               32,864              Met

 NIST-maintained datasets downloaded                                                              24,500,000          19,100,000           Not Met

 Number of calibration tests performed                                                              9,700                18,195            Exceeded
 1	   Actual for this measure lags nine months. The actual shown here is based on FY 2010 data.




  86                                                  F Y   2 0 1 1   P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




FY 2011 Status

NIST met or exceeded four of the six targets for this objective.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Peer-reviewed technical publications (NIST)
                   Budget uncertainties disrupted NIST operations which negatively impacted the time and resources available for
 Explanation       research as the scientific and technical staff turned its attention to shutdown activities and other administrative
                   tasks.
                   NIST will continue to produce high quality relevant scientific and technical publications. In spite of the lower
                   number of publications in FY 2011 than expected, NIST is consistently producing high quality relevant scientific
 Action            and technical publications as demonstrated by NIST’s greater than average “relative citation impact.” Also,
                   during the first eight months of 2011, over 30 percent of NIST-authored publications appeared in “top tier”
                   journals as defined by Thomson Reuters Impact Factor.
   Measure         NIST-maintained datasets downloaded (NIST)
                   The lower number of datasets is due to a change in methodology for this measure. Beginning in FY 2011, Web
 Explanation       robot index searches were being filtered out of the total count of downloaded datasets to more accurately reflect
                   customer interest.
 Action            NIST revised this target for FY 2012 and FY 2013 based on the new methodology and the FY 2011 baseline.



Historical Trends

The National Research Council (NRC), in cooperation with NIST, has completed its peer assessments every year with typically high
praise for NIST programs. NIST typically meets all its targets each year. The missed NIST-maintained datasets target in FY 2011 is due
to a methodology change.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  87
Performance Section • Theme 1




Strategic Goal – Market Development
and Commercialization
Foster market opportunities that equip businesses and communities with the tools they need to expand,
creating quality jobs with special emphasis on unserved and underserved groups

         M A R K E T D E V E L O P M E N T A N D C O M M E R C I A L I Z AT I O N T O TA L R E S O U R C E S
        M A R K E T D E V E L O P M E N T A N D C O M M E R C I A L I Z AT I O N T O TA L R E S O U R C E S
                                   Funding Levels                                                                               FTE1 Resources
                                Funding   Levels
                                 (Dollars in Millions)                                                                         FTE1 Resources
                               (Dollars in Millions)

                                        $424.0
                                     $424.0              $382.5         $397.2
                                                                      $397.2                            486                                                502            477
          $356.9                                       $382.5                                                            457             449              502
       $356.9         $334.1                                                                          486                                                                 477
                   $334.1                                                                                               457             449




                                                                                                      2007              2008             2009              2010           2011
                                                                                                     2007              2008             2009              2010            2011
           2007       2008             2009              2010            2011                                                        Fiscal Year
        2007       2008              2009              2010            2011                                                         Fiscal Year
                                     Fiscal Year                                             1
                                                                                               FTE—Full-Time Equivalent
                                  Fiscal Year                                           1
                                                                                            FTE—Full-Time Equivalent




 T 
          his strategic goal is comprised of three objectives                                           MARKET DEVELOPMENT AND
          which contribute to the Secretary’s theme of Economic                                         M A RCKOE M
                                                                                                                  T MD EE R
                                                                                                                          VCE LI A
                                                                                                                                 OLPI M  E NI TO N
                                                                                                                                      Z AT       AND
                                                                                                            C  O M  M E  R C I  A L I Z AT  I
                                                                                                            P E R F O R M A N C E R E S U LT SO N
          Growth. The following public benefits, achievements,
                                                                                                           P E R F O R M A N C E R E S U LT S
and performance results are associated with each objective.
                                                                                                                 15
                                                                                                                15
                                                                                                      Results
                                                                                             ReportedResults




                                                                                                                 12
                                                                                                                12
                                                                                                Numberofof




                                                                                                                   9
                                                                                                                 9
                                                                                               Number




                                                                                                                   6
                                                                                            Reported




                                                                                                                 6
                                                                                                                   3
                                                                                                                 3
                                                                                                                   0
                                                                                                                 0 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                     2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                               Exceeded          1             2    4     8      5    8          7   7    10     4
                                                                                              Exceeded         1           2       4     8      5    8           7   7    10     4
                                                                                               Met               1             4    4     3      3    4          4   2     2     4
                                                                                              Met              1           4       4     3      3    4           4   2     2     4
                                                                                                Slightly Below                                   1                    2          1
                                                                                              Slightly Below                                    1                    2           1
                                                                                                Improved
                                                                                              Improved
                                                                                                Not Met          3             2                 2                   1     1     1
                                                                                              Not Met          3           2                    2                    1     1     1

                                                                                         See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                       See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                         Objectives 3, 6 and 7 share measures that are related to EDA. The results of these measures
                                                                                       Objectives  3, 6 and
                                                                                         are reflected      7 share measures
                                                                                                        in Objective 3.      that are related to EDA. The results of these measures
                                                                                       are reflected in Objective 3.




  88                                                            F Y   2 0 1 1    P E R F O R M A N C E                 A N D       A C C O U N T A B I L I T Y            R E P O R T
                                                                                    Performance Section • Theme 1




                                                          Objective 6

           Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)


                                                         Public Benefits



 G      reen technologies and industries refer to efforts and activities that preserve or enhance environmental quality by limiting
        the Nation’s dependence on fossil fuels, enhancing energy efficiency, curbing greenhouse-gas emissions, and protecting
natural systems. As a subset of green, blue technologies refer to environmentally-sustainable efforts and activities related to
oceans and waterways, aquaculture, renewable energy (hydropower, ocean thermal energy, wave power, etc.), and water science
management.

Facing the challenges presented by global warming and climate change also offers opportunities to U.S. businesses. It is a Depart-
mental priority to gather data about the environment, promote energy efficient and environmentally sustainable technologies, and use
this information to grow jobs in the blue and green economies.

The Economic Development Administration (EDA) provides strategic investments in projects that encourage growth of the green
economy. Recent EDA-funded research reveals that businesses in renewable energy and alternative fuels, green building and energy
efficiency technology, energy-efficient infrastructure, transportation, and recycling are growing faster than the rest of the economy.
These findings illustrate the promise environmentally sustainable economic development, and, more specifically, advances in green
industries and technologies, have for transforming regional economies and spurring innovation and fostering job growth.

Through its strategic investments, EDA helps communities leverage their regional assets to promote environmentally-sustainable
economic development in a sustainable manner. For example, EDA can provide technical assistance to plan or test the feasibility of
transitioning to green practices, resources to help construct U.S. Green Building Council’s Leadership in Energy and Environmental
Design (LEED) certified (or equivalent) buildings, or support to make a business or manufacturing process more environmentally-
friendly and more competitive. Since FY 2010, EDA has measured its success in promoting environmentally-sustainable economic
development through a Priority Goal by raising to 12 percent the percentage of construction projects involving buildings or structures
funded by Economic Development Assistance Programs that are certified by the U.S. Green Building Council’s LEED or a comparable
third-party certification program.



Achievements

In FY 2011, EDA exceeded its Priority Goal to raise the percentage of construction projects involving buildings or structures funded
by Economic Development Assistance Programs that are certified by the U.S. Green Building Council’s LEED or a comparable
third-part certification program to 12 percent, ensuring that at least 14 percent of its infrastructure investments followed sustainable
building practices. EDA views such investments in the green economy as essential to improving the Nation’s competitiveness.
These investments will help to build vibrant, regional innovation ecosystems that support job creation and economic growth. EDA’s
two-pronged approach toward environmentally sustainable economic development and sustainable building practices supports
EDA’s achievements in fostering sustainable building practices. First, EDA continues to follow a core set of investment priorities
which direct Agency funding toward projects that encourage environmentally-sustainable economic development, support emerging
industrial clusters related to energy, foster cutting-edge environmental technologies, and cultivate sustainable manufacturing practices.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    89
Performance Section • Theme 1




Secondly, EDA administers the Congressionally-directed Global Climate Change Mitigation Incentive Fund (GCCMIF) to invest in
economic development projects that foster job creation by limiting the Nation’s dependence on fossil fuels, enhancing energy efficiency,
curbing greenhouse gas emissions, and promoting green building practices. This two-pronged approach ensures that sustainable
practices are woven throughout EDA’s programs and strategic investments.

In addition, in FY 2011, EDA introduced the i6 Green Challenge: a $12 million competition, focused on incentivizing innovative, ground-
breaking ideas that enable technology commercialization, new venture formation, job creation, and economic growth in environmental
quality and green technology fields. Building on the success of last year’s inaugural i6 Challenge, this year’s competition is designed
to catalyze the creation of Proof of Concept Centers that support all aspects of the entrepreneurship process, from assisting with
technology feasibility and business plan development, to providing access to early-stage capital and mentors to offer critical guidance
to innovators. Centers allow emerging technologies to mature and demonstrate their market potential, making them more attractive to
investors and helping entrepreneurs turn their idea or technology into a business.

Winners of the i6 Green Challenge competition include: the Iowa Innovation Network i6 Green Project in Ames, IA; a Proof of Concept
Center for Green Chemistry Scale-up in Holland, MI; the iGreen New England Partnership; the Igniting Innovation (I2) Cleantech
Acceleration Network in Orlando, FL; the Louisiana Tech Proof of Concept Center in Ruston, LA, and the Washington Clean Energy
Partnership Project of Washington State. Their projects demonstrated viable plans for building regional capacity to assist entrepre-
neurs in starting, financing, and scaling companies that commercialize green technologies. The winners will provide solutions to real
and persistent problems for entrepreneurs aiming to commercialize green technologies. These challenge investments are expected to
result in numerous outcomes, including increased rates of business and job creation; inflows of capital; and the development of new
green technologies, products, and services.


                                           S UMMAR Y OF P ERFORMANCE


The measures for this objective overlap with those of Objectives 3 and 7. The targets and actual performance of those measures
appear on page 78.




  90                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                                          Objective 7

            Promote the vitality and competitiveness of our communities and businesses, particularly
                       those that are disadvantaged or in distressed areas (EDA, MBDA)


                                                         Public Benefits



 I   n support of disadvantaged individuals and communities, EDA promotes private enterprise and job creation in economically
     distressed communities and regions by investing in projects that produce jobs and generate private capital investment.
Through partnerships with local development officials, including Economic Development Districts (EDD); University Centers; faith-
based and community-based organizations; and local, state, and federal agencies, EDA can assist distressed communities with
strategic planning and investment activities. This process helps communities set priorities, determine the viability of projects, and
leverage outside resources to improve the local economy to sustain long-term economic growth.

For communities that are particularly distressed through natural disasters, EDA has a long history of providing concerted economic
assistance designed to assist these communities with their long-term economic recovery. In partnership with the Federal Emergency
Management Agency (FEMA), EDA will often provide the initial economic impact assessment of affected areas. EDA then works with
the community to provide tailored assistance, whether by supporting a disaster coordinator to help guide the community in its recovery
efforts, or by providing funds for targeted infrastructure designed to help catalyze the regional economy to overcome the effects of the
disaster.

The Minority Business Development Agency (MBDA) promotes the ability of minority business enterprises (MBE) to grow and
participate in the global economy through a range of activities that include funding a network of centers that provide MBEs a variety
of business assistance services. MBDA, through its direct federal client services and its network of funded centers (1) fosters the
expansion of opportunities for minority-owned business in the global marketplace, (2) identifies sources of financial capital for minority
owned firms, (3) develops and upgrades electronic tools to provide access to growth markets through automated matching of MBEs
to public and private sector opportunities, (4) provides management and technical assistance to minority-owned businesses, and
(5) advocates for the increased use of electronic commerce and new technologies by MBEs.



Achievements

EDA continued to provide economic development assistance to communities in the wake of severe natural disasters. After the
Northeast fisheries collapse, EDA deployed economic development assessment teams to conduct an analysis of six Northeast
fishing communities. These visits provided customized technical assistance for fishing communities that experienced reductions in
groundfish fishing revenues in recent years. Following the severe tornado in the Joplin, MO, region, EDA worked quickly to support
the appointment of both regional and local Disaster and Economic Recovery Coordinators who will work to advance economic recovery
efforts in the area..

Beginning in FY 2011, EDA implemented an unprecedented overhaul of its grant award process in order to enhance the transparency
of its decision-making process and to provide applicants with information on the status of their application as quickly as possible. As a
result of these efforts, EDA now provides winners of its quarterly funding competitions with letters of non-binding commitment within




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     91
Performance Section • Theme 1




20 business days of its quarterly competition deadline. In addition, any prospective applicant may come to EDA with an application at
any time and receive feedback on the application merits and deficiencies within 15 business days of submission to EDA.

In FY 2011, EDA participated in the development of the Strong Cities, Strong Communities initiative, a new interagency pilot initiative
that aims to strengthen neighborhoods, towns, cities, and regions around the country by strengthening the capacity of local govern-
ments to develop and execute their economic vision and strategies. The pilot will begin in six cities across the United States: Chester,
PA; Cleveland, OH; Detroit, MI; Fresno, CA; Memphis, TN; and New Orleans, LA. Future cities that also participate will benefit from
this transformative approach through innovative and creative competitions that will plan and build innovation ecosystems where they
are needed most.

In addition to the six pilot locations, Strong Cities, Strong Communities initiative includes an Economic Planning Challenge, spear-
headed by EDA, which is designed to help additional cities develop economic blueprints. This national grant competition will enable
cities to adopt and implement innovative economic development strategies to support comprehensive city and regional planning
efforts. Six cities will be competitively selected to receive a grant of approximately $1 million that they will use to administer an
“X-prize style” competition, whereby they will challenge multi-disciplinary teams of experts to develop comprehensive economic and
land use proposals for their city

MBDA’s year-end results exceeded its performance goals, achieving over $1.4 billion in contract awards and over $2.0 billion in financial
awards. Through its direct federal client services and network of funded centers, MBDA helped MBEs obtain contracts and financial
awards. MBDA’s programs and services helped create over 4,000 new jobs despite the economic downturn and overall decline in the
national job market.

In FY 2011, MBDA played an integral role in numerous Department and presidential priorities, including the National Export Initiative
(NEI), Deep Water Oil Spill Cleanup, the White House Task Force on Government Contracting, the Department Task Force on China,
CommerceConnect, and Jobs and Innovation Accelerator Challenge. Throughout FY 2011, MBDA continued to focus its resources to
build firms of size, scale, and capacity through its Strategic Growth Initiative (firms with $500,000 or more in annual sales or with rapid
growth potential). Based upon MBDA’s Strategic Growth Initiative, many high growth minority firms have successfully competed for
larger prime contracts and financial awards, and have had a significant economic impact within the minority community and overall
economy.

To expand the number of contract and financial awards and to create new job opportunities, MBDA initiated several new programs
in FY 2011. On November 10, 2010, MBDA completed a nationwide solicitation to operate 30 new MBDA Business Centers.
These funded centers provide one-on-one and group consulting services in such areas as business counseling (i.e., management and
technical assistance), deal facilitation and brokering services, marketing and growth strategies, teaming assistance, global expansion
assistance, and assistance in obtaining contract and financial award opportunities.

Launched late last year, the National Advisory Council on Minority Business Enterprises is a critical source of policy recommendations
on how to expand the economic capability of MBEs. MBDA worked closely with advisory board members to promote policies that
create a level playing field for MBEs across the Nation.

In FY 2011, MBDA also opened a center for government contracting to provide direct support to minority-owned companies across
the Nation that desire to compete for government contracts. This center provides a central location for minority-owned businesses to
obtain the information, skills, and relationships they need to achieve favorable contract acquisition.




  92                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




MBDA continued its series of Business-to-Business Forums to encourage MBEs to partner with other firms, form joint ventures,
and sign Mentor-Protégé Agreements. These forums encouraged enterprises with increased capacity and competitiveness to sustain
development within the minority community.

MBDA implemented a new customer relationship management (CRM) system during FY 2011. The CRM will revolutionize MBDA
operations by allowing the Agency to better track export activity, domestic business development activity, Agency-wide deal flow, and
provide a real-time view of the impact of the current economic events on the minority business community. More important, this CRM
will allow MBDA to respond more quickly to the needs of customers and stakeholders.

Under the auspices of President Obama’s NEI, export promotion and the globalization of the minority business community continued
to be a substantial focus of Agency activities in FY 2011. MBDA’s target clients have unique competitive advantages in the global
markets, including language skills, cultural knowledge, knowledge of local business practices, and familial and other relationships.
These competitive advantages have resulted in minority-owned firms being twice as likely to export as non-minority-owned firms.
To leverage these competitive advantages on behalf of the U.S. economy, MBDA engaged in an effort to identify those companies that
have export potential and support them as they globalize their business models.


                                            S UMMAR Y OF P ERFORMANCE


Several of the measures for this objective overlap with those of Objectives 3 and 6. The targets and actual performance of those
measures appear on page 78. In addition, the following measures apply only to this objective.


                              Performance Measure                                           Target       Actual           Status
 Percentage of Trade Adjustment Assistance Center (TAAC) clients taking
                                                                                            90%           73%              Not Met
 action as a result of the assistance facilitated by the TAACs (EDA)
 Percentage of those actions taken by Trade Adjustment Assistance Center
                                                                                            95%           100%               Met
 clients that achieved the expected results (EDA)
 Dollar value of contract awards obtained (billions) (MBDA)                                 $1.10         $1.40           Exceeded

 Dollar value of financial awards obtained (billions) (MBDA)                                $0.90         $2.10           Exceeded

 Number of new job opportunities created (MBDA)                                             4,300         4,200         Slightly Below




FY 2011 Status

EDA met one and missed one target in FY 2011. MBDA exceeded two targets and was slightly below for one target in FY 2011.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   93
Performance Section • Theme 1




F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure      Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result of the assis-
                tance facilitated by the TAACs (EDA)
                The decrease in the percentage of TAAC clients taking action as a result of the assistance facilitated by the
 Explanation    TAACs may be due to firms having to allocate resources that would have gone towards implementing projects to
                operating costs as a result of the recession-driven economic downturn.
 Action         No actions to be taken.
   Measure      Number of new job opportunities created (MBDA)
                The performance goal was set at an approximate target level, and the deviation from that level is slight. There
 Explanation
                was no effect on overall program or activity performance.
                MBDA was able to create over 4,000 jobs in a down economy and during a program transition of 30 new business
 Action         centers; expectation is for fourth quarter actual to increase as funded centers enter data for the prior fiscal year
                through first quarter, FY 2012.



Historical Trends

In the past, EDA and MBDA have consistently met their targets.




  94                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                                          Objective 8

                   Improve the competitiveness of small and medium-sized firms in manufacturing
                                         and service industries (ITA, NIST)


                                                         Public Benefits


ITA



 T     he International Trade Administration’s (ITA) Manufacturing and Services (MAS) program provides the Administration, Congress,
       and U.S. businesses the data and analysis needed to make informed decisions on issues impinging on U.S. competitiveness
and employment. The data program is especially valuable to policymakers who require trade information at sub-national (state and
metropolitan) and small and medium exporter levels. In addition, to be competitive in today’s global economy, U.S. companies need
to be able to move products and services securely, quickly, and efficiently within U.S. borders and beyond. MAS launched a national
dialogue to explore supply chain infrastructure issues that cut across the broad range of national priorities. MAS is framing the
issues and prioritizing what needs to be done to improve U.S. competitiveness, especially through coordinating with other ITA units
to develop in-depth and data-driven strategies that can be the basis for Administration policies and coordinated activities to expand
U.S. exports that support U.S. jobs.

The Nation’s approximately 326,000 manufacturers employ more than 13.1 million people in high-paying jobs. U.S. manufacturers
represent roughly two-thirds of total U.S. research and development (R&D) expenditures and account for almost 68.3 percent of all
U.S. exports. A strong manufacturing base is critical to the economic strength and stability of the United States. Increased manufac-
turing productivity and competitiveness are essential for the survival of this crucial industrial base.

MAS played a major role in launching the Corporation for Travel Promotion created by the Travel Promotion Act. ITA made appoint-
ments to the Travel Promotion Board and established a system to handle Electronic System for Travel Authorization fees for the corpo-
ration. This work reflects the critical importance of the Travel Promotion Act and the public-private partnership under the Corporation
for Travel Promotion, which will be the principal mechanism to promote the United States as a travel destination, attract more interna-
tional visitors to the country, and counteract the burgeoning competition from new emerging markets.

MAS continued to improve and manage the U.S. Travel and Tourism Statistical System. This system is the only source of official U.S.
government data and analysis on this critical industry; it also is an indispensable tool for the travel and tourism industries’ and U.S.
destination sites’ strategic planning and business decision-making. MAS issued nearly 700 reports to industry partners and clients.
MAS partnered with 13 private sector groups to save over $140,000 in research collection costs and generated over $200,000 in the
sale of international travel research. MAS also established an important partnership with the American Association of Port Authorities
that will help interested seaports develop and implement exporter education workshops, Webinars, and programs for local new-to-
export firms focused on expanding exports.

Success in today’s manufacturing environment requires not only an efficient production system but also developing business strategies
that highlight the unique capabilities of a firm. Manufacturers must master innovative product design, understand the benefits of
adopting environmentally sustainable processes, invest in human and physical capital, leverage a range of financing options, realize
international trade opportunities, and forecast future customer demands.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   95
Performance Section • Theme 1




The Market Development Cooperator Program (MDCP), managed by MAS, continues to make significant contributions to the NEI.
For example, for the first nine months of FY 2011, the National Tour Association’s MDCP-supported project, Visit USA Center in
Shanghai, generated $1.3 billion of exports over the pre-MDCP project baseline. The MDCP is a public-private partnership that
combines the resources of the government with those of the private sector and non-profit organizations to expand U.S. exports.
The MDCP is an effective way for the U.S. government to leverage scarce resources to assist small and medium-sized business to
compete in international markets. On average (FY 1997 – FY 2011), every government dollar invested in the MDCP has helped to
generate $172 of exports.


NIST

A strong domestic manufacturing base is essential to supporting the Nation’s middle class, national security, and growing renewable
energy economy. The National Institute of Standards and Technology’s (NIST) Hollings Manufacturing Extension Partnership (MEP)
connects manufacturers with the opportunities available through federal and state governments to invest in environmentally sustainable
manufacturing practices, develop innovative products, diversify into new markets, and increase options for growth and profitability.
In doing so, MEP supports the mission of NIST of promoting U.S. innovation and industrial competitiveness, while also advancing the
goals of the Department’s Market Development and Commercialization goal.

MEP is a federal-state-industry partnership that provides U.S. manufacturers with access to technologies, resources, and industry
experts. The MEP program consists of 60 MEP centers in every state and Puerto Rico that work directly with their local manufacturing
communities to strengthen the competitiveness of the Nation’s domestic manufacturing base. Funding for the MEP centers is a cost-
sharing arrangement consisting of support from the federal government, state and local government/entities, and fees charged to the
manufacturing clients for services provided by the MEP centers.

Through the MEP program, manufacturers have access to a network of manufacturing experts available to assist in the adoption of
new technologies, developing innovative products, and implementing process innovations to improve their productivity, profitability,
and competitiveness. MEP, in collaboration with partners in all levels of the government, university, community college, and the
private sector, is working to accelerate manufacturing’s ongoing transformation into a more efficient and powerful engine of innovation
that drives economic growth and job creation.

Each year MEP transforms thousands of U. S. manufacturers by working one-on-one to implement the best combination of process
improvements and growth services for each individual company. MEP is focused on providing the services that reduce manufacturer’s
bottom-line expenses, increase efficiencies, and build capacity. While process and quality improvements offer reduced expenses,
growth services provide the tools to improve top-line sales by adopting new technologies and creating new sales, new markets, and
new products.

Through an annual client survey, the program obtains quantifiable impacts of MEP services on its clients’ bottom line. MEP demonstrates
the impact of its services on increased sales, increased capital investment, and cost savings attributed to MEP assistance.



Achievements


ITA

ITA has increased its efforts to identify and act in key industry areas and markets that have the best opportunity for advancing U.S.
competitiveness globally and increasing U.S. exports that support U.S. jobs. By using data, in-depth analysis, and analytical expertise,
MAS has worked with other ITA units and U.S. industry to provide the Department’s leadership with focused and coordinated strategies



  96                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     Performance Section • Theme 1




that are driving decisions for developing and implementing outcome-oriented programs and activities. These decisions are taking into
account small and medium-sized enterprises (SME) as well as large U.S. companies. To date, strategies covering the full spectrum of
U.S. manufacturing and industries’ services have been developed and are being discussed with industry.

MAS launched the Free Trade Agreement (FTA) Tariff Tool which combines tariff and trade data into a simple and easy-to-search public
interface. With this tool, users are able to see how U.S. and FTA partner tariffs on individual products—searchable by keyword or tariff
code—are treated under an agreement. By combining sector and product groups, trade data, and the tariff elimination schedules,
users are able to analyze how various key sectors are treated under recently concluded FTAs. The tool allows users to easily identify
the share of trade or the share of tariff lines that fall within the various tariff elimination baskets. The tool is especially useful to small
and medium sized firms that have limited resources to search for this kind of information.

MAS also completed the development and deployment of an enhanced TradeStats Express platform. The new TradeStats Express
Plus platform features monthly data and expanded commodity detail at the national and state levels in addition to a host of new
features. Since the deployment of this new system, TradeStats Express and the new TradeStats Express Plus sites have received
more than 65,000 hits from users.

MAS analyzed regulations and other proposed policies that significantly affect the competitiveness of U.S. exports and worked with
other U.S. agencies to reduce harmful impacts of those proposed and existing policies and regulations on U.S. industries. For example,
MAS analysis supplied to the interagency rulemaking process persuaded the Environmental Protection Agency to make changes to
the Industrial Boiler MACT (Maximum Available Control Technology) rule that is expected to lower total capital costs by $4 billion and
annual compliance costs by $1.8 billion.


NIST

As a catalyst for strengthening U.S. manufacturing, MEP provides a range of services to manufacturers from process improvements
and strategies for growth, to green manufacturing. MEP also works with state and federal partners to accelerate manufacturing’s
ongoing transformation into a more efficient and powerful engine of innovation that drives economic growth and job creation. Through a
framework focused on five critical areas—technology acceleration, supplier development, sustainability, and workforce, as well as
continuous improvement—MEP is positioning manufacturers to develop new customers, expand into new markets, and create new
products with the end goal of increasing profitability and competitiveness. MEP offers manufacturers a wealth of unique and effective
resources. As a result, MEP clients achieve higher profits, save time and money, invest in physical and human capital, and create and
retain thousands of jobs.

Wenger Manufacturing Inc. Achieves Sales Increase with MAMTC Innovation Project

An example of MEP success is Wenger Manufacturing Inc. in Sabetha, KS. The company manufactures state-of-the-art commercial
extrusion systems ranging in size from small laboratory and research usage to large production applications, and was interested in
identifying new ideas to grow the business. Wenger approached the Mid-America Manufacturing Technology Center (MAMTC), a NIST
MEP network affiliate, for assistance. MAMTC led Wenger employees through ideation process to develop new products, services
or processes. As a result of the project, Wenger developed a new leasing system for its extruders. Previously, purchasing a Wenger
extruder was sometimes cost-prohibitive for smaller manufacturers in less-industrialized countries. The leasing system gives these
companies access to the equipment at a much lower initial investment. With the business strategy focused on the leasing program,
Wegner has achieved increased and retained sales of $4 million.




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          97
Performance Section • Theme 1




3C Cattle Feeders Expand Market with Innovative Product

Another example of MEP success is 3C Cattle Feeders in Millcreek, OK. 3C Cattle Feeders develops state-of-the-art cattle feeders that
are efficient, effective, and economical. The company was interested in retaining market share and growing the business. 3C turned
to the Oklahoma Manufacturing Alliance (The Alliance), a NIST MEP network affiliate for guidance. In working with The Alliance
and Oklahoma State University New Product Development Center, initial designs were developed and a Small Business Innovation
Research grant was secured. The funding was used to perfect the design and create a marketing plan for the high-tech feeder.
Now with the help of The Alliance, the new product is in production with initial sales increases of $500,000 and three new employees
have been hired.


                                               S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                                Performance Measure                                                Target               Actual             Status
 Annual cost savings resulting from the adoption of MAS recommendations
                                                                                                   $350M                 $1.8B             Exceeded
 contained in MAS studies and analysis (ITA)
 Number of clients served by Hollings MEP centers receiving federal funding                     29,000 from         34,299 from
 (NIST)                                                                                           FY 2010             FY 2010                Met
                                                                                                  funding             funding
 Increased sales attributed to Hollings MEP centers receiving federal funding                     $2,500M              $2,770M
 (NIST)                                                                                        from FY 2010         from FY 2010             Met
                                                                                                   funding             funding1
 Capital investment attributed to Hollings MEP centers receiving federal                          $1,000M              $1,820M
 funding (NIST)                                                                                from FY 2010         from FY 2010           Exceeded
                                                                                                   funding             funding2
 Cost savings attributed to Hollings MEP centers receiving federal                                $1,200M              $1,420M
 funding (NIST)                                                                                from FY 2010         from FY 2010             Met
                                                                                                   funding             funding1
 NOTE: NIST performance actuals for this objective lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in
 which NIST reports actuals one year later. This date lag, coupled with the time line for producing the PAR, precludes the reporting of actual FY 2011
 data. With the exception of the number of clients, the NIST data reported in the current year PAR are an estimate based on three-quarters of actual
 client reported impacts and one-quarter estimated client impacts.
 1	   Estimate as of June 30, 2011. Once final numbers are in, the status may change to “Exceeded.”
 2	   Estimate as of June 30, 2011.




FY 2011 Status

ITA and NIST met all of their targets in FY 2011.




  98                                                  F Y   2 0 1 1    P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                    Performance Section • Theme 1




Historical Trends

MEP has consistently exceeded its targets. Performance projections are based in part on past programmatic results but also on
the current operating realities of the MEP centers and their manufacturing clients. The projections reflect a realization that any sort
of forecast must be based on current economic and market conditions and also other contributing factors such as state funding
uncertainties. Simply projecting past results into the future in a linear fashion does not take into account these other considerations.
Data from the Federal Reserve Board, the Institute for Supply Management, Bureau of Labor Statistics, and Bureau of Economic
Analysis are monitored and assessed on a regular basis to inform MEP’s performance targets.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   99
Performance Section • Theme 1




Strategic Goal – Trade Promotion and Compliance
Improve our global competitiveness and foster domestic job growth while protecting American security

                    T R A D E P R O M OT I O N A N D C O M P L I A N C E TOTA L R E S O U R C E S
                  T R A D E P R O M OT I O N A N D C O M P L I A N C E TOTA L R E S O U R C E S
                                     Funding Levels
                                                                                                                                            FTE1 Resources
                                  Funding   Levels
                                   (Dollars in Millions)
                                                                                                                                           FTE1 Resources
                                 (Dollars in Millions)
                                                                          $547.1
                                                           $525.0
                                          $493.7                        $547.1                           2,118             2,008                                                   2,036
           $458.3       $473.4                           $525.0                                                                                    1,985          1,940
                                       $493.7                                                          2,118             2,008                                                     2,036
        $458.3       $473.4                                                                                                                       1,985          1,940




                                                                                                        2007              2008                     2009           2010             2011
           2007          2008             2009             2010            2011                        2007              2008                   2009 Year
                                                                                                                                              Fiscal             2010              2011
        2007          2008              2009 Year
                                       Fiscal            2010            2011                                                                Fiscal Year
                                                                                              1
                                                                                                  FTE—Full-Time Equivalent
                                    Fiscal Year                                          1
                                                                                             FTE—Full-Time Equivalent




 T 
          his strategic goal is comprised of four objectives which                       TRADE PROMOTION AND COMPLIANCE
          contribute to the Secretary’s theme of Economic                               T R A D E P PREORM
                                                                                                         FOORT M
                                                                                                               I OAN
                                                                                                                   NCAEN R
                                                                                                                         DE C
                                                                                                                            SUOLTM SP L I A N C E
          Growth. The following public benefits, achievements,                                    P E R F O R M A N C E R E S U LT S
                                                                                                                    25
and performance results are associated with each objective.                                                        25
                                                                                                Reported Results




                                                                                                                    20
                                                                                                       Results
                                                                                                         of of




                                                                                                                   20
                                                                                                                    15
                                                                                                   Number




                                                                                                                   15
                                                                                                 Number




                                                                                                                    10
                                                                                              Reported




                                                                                                                   10
                                                                                                                      5
                                                                                                                    5
                                                                                                                      0
                                                                                                                    0 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                        2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                    Exceeded                       1          1      2      4    4      6      9      5      5
                                                                                                   Exceeded
                                                                                                    Met               1        1             11     2      44   45      6
                                                                                                                                                                       10     99     5
                                                                                                                                                                                    11     145
                                                                                                   Met
                                                                                                     Slightly Below 1                        1             41   5     10      91    112    14
                                                                                                   Slightly Below
                                                                                                     Improved                                              1                  1      2
                                                                                                   Improved
                                                                                                     Not Met                           1                         1        2   3      5      5
                                                                                                   Not Met                         1                            1         2   3      5      5
                                                                                              See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                         See Appendix A: Performance and Resource Tables for individual reported results.




 100                                                              F Y   2 0 1 1    P E R F O R M A N C E                  A N D             A C C O U N T A B I L I T Y              R E P O R T
                                                                                    Performance Section • Theme 1




                                                          Objective 9

       Increase U.S. export value through trade promotion, market access, compliance, and interagency
                   collaboration (including support for small and medium enterprises) (ITA)


                                                          Public Benefits



 T     he health of the U.S. economy depends on small and medium-sized enterprises (SME) since they account for over 97 percent
       of all U.S. exporters. Many of these firms have been successful in doing business in countries that have recently negotiated
free trade agreements (FTA) with the United States. The U.S. and Foreign Commercial Service (US&FCS) program provides front-line
diplomatic support to U.S. companies for commercial issues overseas, advocates for U.S. companies bidding on foreign government
procurements, and creates a supporting environment at home in which all U.S. firms, including SMEs, can flourish by increasing
export opportunity awareness among U.S. companies. This is accomplished by advocating on behalf of the U.S. companies in
foreign markets; identifying potential exporters who need assistance; leveraging electronic and traditional media; enhancing relation-
ships with customers; and developing alliances and partnerships with state, local, and private partners to deliver export assistance.
US&FCS helps U.S. companies take advantage of world market conditions to find new buyers.



Achievements

US&FCS continued to help U.S businesses maximize their export potential, enabling them to diversify their customer base, remain
globally competitive, and maintain jobs for Americans. In 2011, US&FCS assisted over 20,000 U.S. companies by providing in-depth
export counseling, market entry plans, business-to-business matchmaking services, market research and due diligence reports, and
other customized export development and market entry services. US&FCS also led trade missions around the globe, brought foreign
buyer delegations to U.S. trade shows, represented U.S. companies at international trade events, and organized product launches and
technical seminars overseas. In addition, US&FCS continued to provide front-line diplomatic support to U.S. companies overseas and
advocated for U.S. companies bidding on foreign government procurements. As a result of these efforts, US&FCS facilitated more
than $54 billion in exports for nearly 5,600 U.S. companies in 2011. Over 85 percent of these companies were SMEs that exported for
the first time, entered a new market, or increased their market share in an existing market.

The Commercial Service continues to support President Obama’s National Export Initiative (NEI). Launched in February 2010, the NEI
is designed to reach the goal of doubling exports by 2014 to support two million jobs in the United States. The NEI focuses on three
key areas: (1) a more robust effort by this administration to expand its trade advocacy in all its forms, especially for SMEs; (2) improving
access to credit with a focus on small and medium-sized businesses that want to export; and (3) continuing the rigorous enforcement
of international trade laws to help remove barriers that prevent U.S. companies from getting free and fair access to foreign markets.
Since the President announced the NEI, the Department’s Advocacy Center has assisted U.S. companies competing for export oppor-
tunities, supporting $37.6 billion in exports and an estimated 188,000 jobs. With offices and staff around the globe and throughout the
United States, the Department’s Commercial Service has helped more than 8,000 companies generate $81.7 billion worth of exports.
In FY 2011, the Department has coordinated 55 trade missions with over 638 companies.

In FY 2011, the Strategic Partnership Program continued to deliver results through the New Market Exporter Initiative (NMEI). NMEI is
a program of the NEI, recommended in the September 16, 2010, Report to the President on the National Export Initiative: The Export
Promotion Cabinet’s Plan for Doubling U.S. Exports in Five Years. The NMEI leverages strategic partners to expand U.S. exports by




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      101
Performance Section • Theme 1




identifying their customers and members who sell to at least one international market and helping them sell to additional markets.
On average, approximately 58 percent of all U.S. exporters only sell to one market overseas. By focusing resources on these small and
medium-sized U.S. companies that are already knowledgeable about exporting, the NMEI increases the likelihood of having the largest
impact on U.S. exports.

Partners FedEx, UPS, the U.S. Postal Service, and the National Association of Manufacturers had proactively reached out to more
than 12,200 companies about increasing their exports (supporting as many as 735,000 U.S. jobs), and almost seven percent of these
companies registered for US&FCS assistance. Activities to build awareness include outreach at trade shows, direct mail campaigns,
and online registration for resource support.

On February 9, 2011, Secretary Locke declared the U.S. Pavilion at Aero India 2011 in Bangalore, India, open for business, kicking off
the successful U.S. aerospace and defense industry participation in the trade show. With India’s growing aviation sector expected
to offer an estimated $55 billion in export opportunities for the U.S. aerospace industry and additional billions in defense contracts,
Secretary Locke’s support and advocacy for U.S. companies at Aero India 2011 was vital to their interests at the show. Over 40
U.S. companies participated in Aero India 2011, with 24 U.S. companies located in the U.S. Pavilion. Secretary Locke and nearly a
dozen U.S. aerospace and high-technology companies met with Minister of Defense, A.K. Antony, and Indian government officials to
strengthen the U.S.-India strategic partnership and advocate on behalf of U.S. products and services.

In January 2011, Secretary Locke attended the 2011 International Consumer Electronics Show (CES), a participant in the US&FCS
International Buyer Program (IBP) in Las Vegas, NV. Secretary Locke provided closing remarks at the industry session “Accelerating
Global Innovation.” Secretary Locke also presented an Export Achievement Certificate to a U.S. company, Earthquake Sound Corpo-
ration, and met with IBP delegations, including the heads of the Dubai Chamber of Commerce and the President of Dalian Holywell
Inc., a Chinese integrator company that sources most of its supply inputs from U.S. companies. Through the IBP, US&FCS recruited
34 buyer delegations consisting of over 700 delegates that contributed to the record attendance reported at the event. CES is the
world’s largest annual trade show for the broad-based consumer electronics technology market, from mobile electronics, audio and
video, home networking information, and wireless technology to high-end audio and satellite systems. It is the premier event bringing
together consumer electronics product manufacturers, distributors, researchers, content developers, financial analysts, and the press
with the highest concentration of buyers and decisionmakers in the retail distribution channel.


                                           S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                          Performance Measure (ITA)                                      Target             Actual             Status
 Increase in the annual growth rate of total small and medium-sized (SME)
                                                                                         2.85%               3.9%              Exceeded
 exporters
 Percentage of advocacy bids won                                                          18%                9.9%              Not Met

 Commercial diplomacy success (cases) (annual)                                             172                243              Exceeded

 Export success firms/active client firms (annual)                                       21.5%                28.1             Exceeded

 US&FCS SME NTE/total change in SME exporters (annual)                                   13.1%                 1.3             Not Met

 Number of SME NTM firms/SME firms exporting to two to nine markets
                                                                                          5.0%               3.69%             Not Met
 (annual)




 102                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




FY 2011 Status

ITA met three of six targets in FY 2011.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Percentage of advocacy bids won (ITA)
                   ITA didn’t make this target because its overall caseload increased disproportionally to the number of cases won.
                   Although the number of cases won remained constant from 2010 to 2011, the Advocacy Center conducted
                   more outreach, especially to small businesses, and improved coordination of advocacy efforts across the federal
 Explanation       government in FY 2011 to meet NEI requirements. This focused effort is expected to lead to an increase in
                   the number of cases won in out years. In total, the Advocacy Center helped U.S. companies to win foreign
                   government tenders for infrastructure, energy, transportation, aerospace/defense, and telecommunications/IT
                   projects worth nearly $24 billion in U.S. export content value.
                   Please note that Commercial Service has replaced this Government Performance and Results Act (GPRA) metric
 Action            in FY 2012 with the dollar value of U.S. export content in advocacy bids won to better track the Advocacy Center’s
                   success at contributing to the NEI.
   Measure         US&FCS SME NTE/total change in SME exporters (annual) (ITA)
                   ITA shifted its focus in FY 2010 from assisting small and medium-sized enterprises (SME) to become new
 Explanation       exporters to helping current exporters, particularly SMEs, to enter a second or additional market. As a result, this
                   metric was not a priority in FY 2011.
 Action            The measure was deleted in the FY 2012 President’s Budget.
   Measure         Number of SME NTM firms/SME firms exporting to two to nine markets (annual) (ITA)
                   ITA helped 1,370 SMEs to enter a second or additional market in fourth quarter of 2011, exceeding the results
                   from fourth 2010 by six percent. Furthermore, ITA demonstrated a 13 percent increase in FY 2011 as compared
                   to FY 2010. This continues the upward trend begun in fourth quarter 2010 and indicates that results from the NEI
                   efforts, begun in early 2010, continued to gain momentum in 2011. ITA achieved a 20 percent increase over two
                   years by helping over 500 more SMEs to enter a new market in 2011 than in 2009. This increase was achieved
                   through a focus on recruiting more foreign buyer delegations to U.S. trade shows, leading more U.S. participants
 Explanation
                   on trade missions, and increasing outreach and assistance in priority markets and sectors. ITA did not achieve
                   the target of 5 percent of total SMEs exporting to two to nine markets, which was based on the funding increase
                   requested in the President’s FY 2011 Budget for the ITA’s Commercial Service. This increase in funding would
                   have enabled ITA to hire the additional domestic and international staff needed to achieve the target. As such,
                   ITA achieved an impressive 20 percent increase in the number of SMEs that entered a new market with ITA
                   assistance from FY 2009 to FY 2011 with a staffing decrease over the same period.
 Action            The measure was deleted in the FY 2012 President’s Budget.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  103
Performance Section • Theme 1




                                                        Objective 10

               Implement an effective export control reform program to advance national security
                                      and economic competitiveness (BIS)


                                                         Public Benefits



 I  t is essential to the security of the Unites States that it prevents the export of sensitive goods. To prevent illegal exports,
    the Department administers and enforces controls on exports of dual-use goods and technologies to counter proliferation
of weapons of mass destruction, combat terrorism, and pursue other national security policy goals. The Department processes
export license applications for controlled commodities of U.S. companies engaged in international trade in accordance with Export
Administration Regulations (EAR). The Department engages in activities to prevent violations before they occur and investigate and
prosecute violators to dismantle illicit proliferation networks. Preventative activities include the following:

●● screening license applications for enforcement concerns;

●● conducting end-use checks abroad to confirm the bona fides of parties to export transactions;

●● confirming compliance with license conditions;

●● uncovering diversions to unauthorized end-users/uses; and

●● reviewing Shippers Export Declarations and foreign visitors’ visa applications to identify potential export control issues.


Outreach activities include educating U.S. businesses on export control requirements and identifying suspicious transactions leading
to successful preventative and investigative actions. Investigation and prosecution activities involve Department Special Agents
conducting cases focused on significant proliferation, terrorism, and military end-use export violations, and the vigorous pursuit of
criminal and administrative sanctions. Finally, an integral part of the Bureau of Industry and Security’s (BIS) mission is to facilitate
compliance with U.S. export controls by keeping U.S. firms informed of export control regulations through an extensive domestic and
foreign outreach program.

The Department also works to strengthen the export control systems of other countries, assess the viability of key sectors of the
defense industrial base, and assure the timely availability of industrial resources to meet national defense and emergency preparedness
requirements. Further information on these tasks is available on www.bis.doc.gov/news/index.htm#annual. Finally, the Department
also serves as the lead agency for ensuring U.S. industry compliance with Chemical Weapons Convention (CWC).

Driven by the President’s call for an Export Control Reform Initiative, BIS is contributing to accomplishing the initiative’s key recommen-
dations of establishing a single control list, a single primary enforcement coordination agency, a single IT system, and a single licensing
agency. The initiative is split into three phases: make immediate improvements on the current system while creating a framework for
the new system, complete deployment of reforms, and complete the transition to the new U.S. export control system with legislative
assistance.




  104                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                    Performance Section • Theme 1




Achievements

On December 9, 2010, as part of the implementation of the new U.S. export control system, the President announced:

●● The publication of a draft rule setting out the criteria and procedures to be used in determining whether a product is subject to
   export controls;

●● The application of these criteria to one category of items (Category VII: Tanks and Military Vehicles), to be seen as an example of
   how the new policies would apply; and

●● The publication of a draft rule specifying what licensing policies will apply to products subject to export controls.


In FY 2011, the Administration debuted its Export Control Reform Initiative Web page, a new component of export.gov. It features the
government’s first-ever consolidated electronic screening list, which will enhance exporter compliance. Prior to this release, exporters
had to check different lists published in different formats maintained by different departments, or read the Federal Register every day
for names that are not published on any list, to ensure they were not exporting to someone who is sanctioned or otherwise requires
special scrutiny before receiving U.S. origin goods.

On June 16, 2011, BIS published a significant change to the dual-use regulations, a change that is part of the President’s Export Control
Reform Initiative. The new Strategic Trade Authorization License Exception (STA), which reflects interagency review and consideration
of public comments, allows for the license-free export, with conditions, of many dual-use items. This rule is the first step in imple-
menting the Administration’s vision of eliminating easy cases so the U.S. government can focus its limited resources on items and
end users that require more attention. STA facilitates trade and interoperability with the Nation’s closest friends. The reduced licensing
requirements are accompanied by new safeguards, however, to ensure that eligible items are not re-exported outside this group of
countries without U.S. government authorization.


                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                           Performance Measure (BIS)                                        Target            Actual          Status
 Percent of licenses requiring interagency referral referred within 9 days                  98%                 88%            Not Met

 Median processing time for new regime regulations (months)                                  2.0                 2.0            Met

 Percent of attendees rating seminars highly                                                93%                 94%             Met

 Percent of declarations received from U.S. industry in accordance with
 CWC regulations (time lines) that are processed, certified, and submitted
                                                                                            100%               100%             Met
 to the State Department in time so the United States can meet its treaty
 obligations
 Number of actions that result in a deterrence or prevention of a violation
                                                                                             850               1,073          Exceeded
 and cases which result in a criminal and/or administrative charge
 Percent of shipped transactions in compliance with the licensing
                                                                                            99%                 99%             Met
 requirements of the Export Administration Regulations (EAR)
                                                                                                                            (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      105
Performance Section • Theme 1




                     Performance Measure (BIS) (continued)                               Target             Actual             Status
 Percentage of post-shipment verifications completed and categorized above
                                                                                     315 PSVs/85%       382 PSVs/92%            Met
 the "unfavorable" classification
 Number of end-use checks completed                                                        850                891               Met

 Percent of industry assessments resulting in BIS determination, within three
                                                                                          100%               100%               Met
 months of completion, on whether to revise export controls



FY 2011 Status

BIS exceeded the target for measure “Number of actions that result in a deterrence or prevention of a violation and cases which result
in a criminal and/or administrative charge.” In FY 2011, there was a slight increase in resources. Export Enforcement recruited 16
special agent positions. With this increase in the number of agents, Export Enforcement was able to dedicate more resources towards
reaching this target.

BIS did not meet the target for measure “Percent of licenses requiring interagency referral referred within 9 days.”

BIS met all the other targets.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure        Percent of licenses requiring interagency referral referred within 9 days (BIS)
 Explanation      BIS missed its license processing target due to staffing level changes in first quarter and second quarter.
 Action           BIS has made internal improvements and filled three vacant positions in third quarter.



Historical Trends

BIS has consistently met or exceeded the targets for this outcome.




  106                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                                        Objective 11

   Develop and influence international standards and policies to support the full and fair competitiveness
                  of the U.S. information and communications technology sector (NTIA)


                                                         Public Benefits



 T     he National Telecommunications and Information Administration (NTIA) serves as the President’s primary policy advisor on
       domestic and international telecommunications and information issues. NTIA fulfills this role in part by advocating globally
for foreign regulatory and policy regimes that encourage competition and innovation, and by encouraging dialogue with the private
sector through sponsorship and participation in conferences, workshops, and other forums. NTIA will pursue policies promoting
international trade in telecommunications products and services, promoting consistent international approaches to telecommunica-
tions policies, and improving relations with countries with rapidly expanding markets.

NTIA is also responsible for coordinating the federal government’s participation in the International Telecommunication Union’s (ITU)
World Radiocommunication Conferences (WRC) and related national and international meetings. NTIA works with the Federal Commu-
nications Commission (FCC), which represents the civil spectrum community, and the State Department, to create United States
Preliminary Views and Proposals for the WRCs.



Achievements

NTIA succeeded in ensuring that for the first time, the ITU recognized the multi-stakeholder model and many Internet community
stake-holders (i.e., ICANN, IETF, the RIRs, ISOC, and W3C) in its resolutions, allowing for future discussions to focus on collaboration
and cooperation. The impact on industry is that the day-to-day private sector-led operation of the infrastructure is maintained, and the
Internet technical community is allowed a more active role in ITU activities.

As NTIA proposed, ITU made no changes to the definition of radiocommunication, and other key radio service definitions in treaty
texts. The impact of no change is that domestic regulations will not have to change, and industry and government spectrum users can
maintain current radiocommunications systems operations.

As NTIA proposed, the Inter-American Telecommunication Commission adopted several U.S. proposals as draft Inter-American
Proposals (IAP). Industry and government spectrum users are in a more favorable position to advance U.S. radio spectrum and satellite
proposals with other countries and regions as a result. NTIA successfully promoted U.S. proposals and supporting IAPs at bilateral and
regional meetings and favorably influenced other countries and regions.

NTIA continues to support ITU’s efforts to secure information and communication networks, and to develop best practices for
developing a culture of cybersecurity. NTIA’s efforts preserve the role of nation-states in cybersecurity activities. The impact for
industry is that ITU is developing best practice guidance recommended by communications service providers and manufacturers.

NTIA continued to advance U.S. WRC-12 objectives at ITU, regional, and bilateral meetings. One hundred percent of NTIA goals
and objectives were met at the 2011 Conference Preparatory Meeting for WRC-12. NTIA also developed the Administration’s policy
positions on Internet policymaking principles, which were subsequently adopted by Organization for Economic Co-operation and
Development in June.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  107
Performance Section • Theme 1




                                          S UMMAR Y OF P ERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.


                         Performance Measure (NTIA)                                    Target             Actual             Status
 Percent of NTIA positions substantially adopted or successful at                  75% adoption        95% adoption
                                                                                                                             Exceeded
 international meetings                                                             or success          or success



FY 2011 Status

NTIA met its target.




 108                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 1




                                                        Objective 12

   Vigorously enforce U.S. fair trade laws through impartial investigation of complaints, improved access
  for U.S. firms and workers, and fuller compliance with antidumping/countervailing duty remedies (ITA)


                                                         Public Benefits



 U      .S. industries are entitled to the benefits of trade agreements negotiated by the United States. They are also entitled to
        the aggressive investigation of unfair trade practices that undercut those agreements. Three program units in the Interna-
tional Trade Administration (ITA), Market Access and Compliance (MAC), Manufacturing and Services (MAS), and Import Adminis-
tration (IA), work to ensure that U.S. firms receive those benefits and obtain prompt relief from unfair trade practices, along with
improved access. Compliance with negotiated trade agreements and access to foreign markets are existing problems faced by U.S.
businesses that choose to sell their products overseas.

Ensuring that U.S. industries and workers have the opportunity to compete on a level playing field is critical to advancing business
competitiveness in the United States and abroad, and is a key component of the National Export Initiative (NEI). Accordingly, IA is
committed to the vigorous enforcement of U.S. trade laws. IA promotes free and fair trade by administering the U.S. antidumping (AD)
and countervailing duty (CVD) laws thereby providing U.S. industries and workers with a reliable and transparent mechanism to seek
critical relief from unfair trade practices, including injurious dumping and foreign government subsidies.

IA has a team of experts available to assist any U.S. business with questions on remedies available under the trade laws, or that wishes
to develop and file an AD or CVD petition. Particular attention is paid to small businesses that may find the petition process difficult to
comprehend, or may be unable to afford the assistance of outside trade counsel to develop and file a successful petition. IA also has a
team of experts dedicated to monitoring U.S. trade partners’ use of trade remedies and that works closely with U.S. businesses whose
access to export markets may be harmed by the misuse of these instruments. The Agency works with U.S. Customs and Border
Protection (CBP), Immigration and Customs Enforcement (ICE), Department of Justice (DOJ), and Office of the U.S. Trade Represen-
tative (USTR) to resolve AD/CVD issues. IA works closely with CBP to ensure that the trade remedy laws are enforced vigorously and
that efforts to evade the payment of AD/CVD duties are identified and thwarted.

MAC continued to work toward the prevention and elimination of non-tariff barriers in foreign markets. The long-term goal for MAC
is to “ensure fair competition in international trade.” This goal is reflected in the ITA strategic plan and supports the Department’s
objective to “advance responsible economic growth and trade while protecting American security.” In order to gauge the impact of
these strategic goals, MAC utilizes two primary performance measures, percentage of market access and compliance cases resolved
successfully and vaue of the cases resolved successfully. U.S. firms from every industry and service sector face myriad barriers
to trade and investment such as discriminatory regulatory treatment, unfair customs or tax treatment, nontransparent procurement
procedures, and violations of trade agreements signed by other countries.

MAC and MAS seek to obtain market access for U.S. industries and workers and to achieve full compliance by foreign nations with
trade agreements they sign with the United States. MAC and MAS ensure market access for U.S. businesses; advance the rule of law
internationally; and create a fair, open, and predictable trading environment. Based on customer needs, MAC has a sizable caseload
from U.S. firms that have encountered a trade barrier. Beyond casework, MAC and MAS work to develop a pro-growth business climate
in other markets that encourages U.S. exports and transparent policies. MAC and MAS also conduct critical trade policy analysis and
negotiation support for USTR and represent the Department in trade-related dealings with other U.S. government agencies.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     109
Performance Section • Theme 1




Achievements

Enforcement efforts in FY 2011 include the initiation of five CVD and 11 AD investigations covering a variety of products, including
steel nails, high pressure steel cylinders, steel wheels, galvanized steel wire, stilbenic optical brightening agents, bottom mount combi-
nation refrigerator-freezers, multilayered wood flooring, and large power transformers. Among these 16 cases were four CVD and five
AD investigations involving China. In FY 2011 to date, IA has issued 269 AD and CVD determinations. This year, partnering with CBP,
IA deployed a new module for the management and oversight of proper AD/CVD duty collection within CBP’s Automated Commercial
Environment (ACE). This was a major step toward more efficient and effective AD/CVD duty collection. With the goal of automating
the collection of AD/CVD duties, ACE serves as a repository for AD/CVD case information, provides a platform to better communicate
and implement IA case decisions, and enables stronger enforcement of the AD/CVD duty programs by CBP. IA’s AD/CVD enforcement
teams remained vigilant in identifying efforts by foreign companies to provide misleading information or evade the payment of duties.
For example, in several recent trade investigations, documents submitted to IA by foreign exporters proved to be inconsistent with
documents purported to be the same that had been provided to CBP. As a result, IA employed its statutory authority to assign AD/CVD
rates based on adverse inferences. Finally, IA continues to work with other U.S. government agencies including CBP, ICE, and DOJ to
ensure compliance with, and advance the enforcement of, the U.S. trade remedy laws.

MAC continued to work toward the prevention and elimination of non-tariff barriers in foreign markets. The long-term goal for the MAC
unit is to “ensure fair competition in international trade.” This goal is reflected in the ITA strategic plan and supports the Department’s
objective to “advance responsible economic growth and trade while protecting American security.” U.S. firms from every industry
and service sector face myriad barriers to trade and investment such as discriminatory regulatory treatment, unfair customs or tax
treatment, rigged or nontransparent procurement procedures, and violations of trade agreements signed by other countries.

In FY 2011, MAC successfully implemented aggressive monitoring and compliance efforts to break down trade barriers that keep
companies from competing on a level playing field. MAC’s leadership of the Trade Agreements Compliance Program has successfully
removed 56 trade barriers in 31 different countries that have directly benefitted U.S. industry and U.S. competitiveness. MAC success-
fully planned, organized, and delivered strategic bilateral and multilateral meetings to advance U.S. trade policy objectives.

MAC has played a lead role in orchestrating the 2010 JCCT meeting, where we reached agreement on market access issues in sizable
market sectors in China such as 3G/future technologies, smart grids, software, and wind power with a total potential value of more
than $25 billion; MAC was also responsible for planning and organizing the 2011 APEC SME Ministerial and related meetings in Big
Sky, which resulted, among other things, in the adoption of the first-ever industry-based anticorruption principles for the medical device
sector. In November 2010, MAC also planned, organized, and delivered the fourth America’s Competitiveness Forum in Atlanta, the
preeminent Western Hemisphere event that promotes trade, competitiveness, and innovation. In addition, MAC has played an integral
role in organizing the commercial components of two high profile visits by President Obama to India and Brazil, along with the corre-
sponding CEO and Commercial Dialogues in each country.

MAC also helped promote the development of 21st Century Trade Policy Initiatives through an interagency effort in establishing and
promoting high level regulatory cooperation initiatives with Canada, Mexico, and the European Union (EU), including soliciting private
sector feedback through the publication of notices in the Federal Register to identify leading trade barriers. MAC was also instrumental
in securing an agreement on principles for “best regulatory practices” with the EU, which concluded on June 8, 2011. This “principles”
document was designed to allow for greater accountability, transparency, and stakeholder participation in the U.S. and EU regulatory
processes. This is a major victory for U.S. interests as lack of access to the EU system is often noted as a major impediment to the
EU market. MAC has also led the effort to broaden the scope of new Trade Investment Framework Agreements to expressly address
anti-corruption as a trade barrier.




  110                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                         Performance Section • Theme 1




MAS worked closely with U.S. industry and foreign governments to eliminate, reduce, or prevent market barriers to U.S. exports.
For example, MAS, in consultation with MAC, US&FCS, USTR, FCC, the State Department, and the National Institute of Standards
and Technology (NIST) successfully negotiated the Mutual Recognition Agreement (MRA) on Test Results for Telecommunications
Equipment with Mexico. The MRA will reduce the costs associated with conformity assessments for telecommunications equipment
and facilitate trade between the two countries. This significant accomplishment by MAS is the culmination of the execution of
12 specific milestones related to the process of removing the trade barrier. Under the MRA, both nations recognize tests results
performed by designated Mexican or U.S. laboratories to a wide range of telecommunications equipment.


                                                 S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                                 Performance Measure (ITA)                                       Target         Actual           Status
 Percent of industry-specific trade barriers addressed that were removed or
                                                                                                 30%             35%               Met
 prevented
 Percent of industry-specific trade barrier milestones completed                                 70%             75%               Met

 Percent of agreement milestones completed                                                       100%            100%              Met

 Percentage reduction in trade-distorting foreign subsidy programs                               >2.0%           3.1%              Met

 Percent of AD/CVD determinations issued within statutory and/or regulatory
                                                                                                 90%             99%               Met
 deadlines
 Percent of ministerial errors in IA’s dumping and subsidy calculations                          <9%             5.1%1             Met

 Number of compliance and market access resolved successfully                                    50%             51%               Met

 Value of compliance and market access cases resolved successfully                               $2.5B          $0.23B           Not Met
 1	   Preliminary.




FY 2011 Status

ITA met seven of eight targets.



F Y 2 0 1 1 M i ss e d T a r g e t s

      Measure           Value of compliance and market access cases resolved successfully (ITA)
                        ITA did not meet the target for this measure in FY 2011. While ITA did exceed its leading targets of total cases
                        initiated and concluded, the actual immediate value of the exports did not match historical trends. One explanation
 Explanation            is that the global recession has had a disproportional impact on medium-sized firms, which tend to have smaller
                        export totals or are one element in an export supply chain. Also, ITA has an obligation to help SMEs regardless
                        of the value of their exports.
                        Increase outreach to major trade associations and refocus efforts on both FTA countries and the top 50 U.S.
 Action
                        export markets.




F Y   2 0 1 1        P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         111
Performance Section • Theme 1




                                    Theme 1 Program Evaluations


The following program evaluations were conducted on programs related to this theme in FY 2011.

 Bureau       Reviewer                  Name of Evaluation                        Date                       Web site
 ITA         GAO             Strategic Alignment of Agencies and Depart-        2/23/2011      http://www.gao.gov/products/
                             ments with International Responsibilities                         GAO-11-776R
 ITA         GAO             Department of Commerce: Office of                  7/7/2011       http://www.gao.gov/Products/
                             Manufacturing and Services Could Better                           GAO-11-583
                             Measure and Communicate Its Contributions
                             to Trade Policy
 NIST        Panel on        An Assessment of the NIST Information               3/2011        http://www.nist.gov/director/nrc/
             Information     Technology Laboratory, FY 2011                                    upload/it-panel-2011-final-report.pdf
             Technology,
             National
             Research
             Council
 NIST        Panel on        An Assessment of the NIST Center for                3/2011        http://www.nist.gov/director/nrc/
             Nanoscale       Nanoscale Science and Technology, FY 2011                         upload/cnst-panel-2011-final-report.
             Science and                                                                       pdf
             Technology,
             National
             Research
             Council
 NIST        Panel on        An Assessment of the NIST Center for                3/2011        http://www.nist.gov/director/nrc/
             Neutron         Neutron Research, FY 2011                                         upload/nr-panel-2011-final-report.pdf
             Research,
             National
             Research
             Council
 NIST        GAO             Factors for Evaluating the Cost Share              4/4/2011       http://www.gao.gov/new.items/
                             of Manufacturing Extension Partnership                            d11437r.pdf
                             Program to Assist Small and Medium-Sized
                             Manufacturers
 NIST        GAO             Electricity Grid Modernization: Progress Being     1/12/2011      http://www.gao.gov/new.items/
                             Made on Cybersecurity Guidelines, but Key                         d11117.pdf
                             Challenges Remain to be Addressed
 NIST        GAO             Information Security: Federal Agencies Have       11/30/2010      http://www.gao.gov/new.items/
                             Taken Steps to Secure Wireless Networks,                          d1143.pdf
                             but Further Actions Can Mitigate Risk

                                                                                                                             (continued)




 112                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                    Performance Section • Theme 1




  Bureau        Reviewer                  Name of Evaluation                          Date                  Web site
 NIST           GAO            Intragovernmental Revolving Funds: NIST's           10/20/2010   http://www.gao.gov/new.items/
                               Interagency Agreements and Workload                              d1141.pdf
                               Require Management Attention
 NTIA           GAO            NTIA Planning and Processes Need                     4/12/2011   http://www.gao.gov/new.items/
                               Strengthening to Promote the Efficient Use                       d11352.pdf
                               of Spectrum by Federal Agencies
 NTIA           GAO            Recovery Act: Broadband Programs Awards              2/10/2011   http://www.gao.gov/new.items/
                               and Risks to Oversight                                           d11371t.pdf
 NTIA           OIG            Broadband Program Faces Uncertain Funding,            11/2010    http://www.oig.doc.gov/Pages/
                               and NTIA Needs to Strengthen its Post Award                      BroadbandProgramFacesUncertain
                               Operations                                                       Funding,andNTIANeedstoStrength
                                                                                                enItsPost-AwardOperationsOIG-11-
                                                                                                005-A.aspx
 NTIA           OIG            Review of BTOP Award for the San Francisco           5/6/2011    http://www.oig.doc.gov/Pages/
                               Bay Area Wireless Enhanced Broadband                             Review-of-BTOP-Award-for-San-
                               (BayWEB) Project                                                 Francisco-BayWEB-Project.aspx
 USPTO          OIG            Stronger Management Controls Needed over            12/14/2010   http://www.oig.doc.gov/Pages/
                               USPTO's Projection of Patent Fee Collections                     StrongerManagementControls
                                                                                                NeededoverUSPTO'sProjection
                                                                                                ofPatentFeeCollectionsOIG-11-
                                                                                                014-A.aspx
 USPTO          OIG            USPTO Patent Quality Assurance Process               11/5/2010   http://www.oig.doc.gov/Pages/
                                                                                                USPTOPatentQualityAssurance
                                                                                                ProcessOIG-11-006-1.aspx




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                113
114   F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
       Theme 2
Science and I nformation
                                                                                                  targets met
               T heme , S trategic G oal , and O bjectives                                        or exceeded
THEME 2: SCIENCE AND INFORMATION
Strategic Goal: Generate and communicate new, cutting-edge scientific understanding of technical, economic,
social, and environmental systems

Objective 13     Increase scientific knowledge and provide information to stakeholders to
                 support economic growth and to improve innovation, technology, and public           4 of 4
                 safety (NTIS, NTIA)

Objective 14     Enable informed decision-making through an expanded understanding of the
                 U.S. economy, society, and environment by providing timely, relevant, trusted,      7 of 8
                 and accurate data, standards, and services (ESA/CENSUS, ESA/BEA, NOAA)

Objective 15     Improve weather, water, and climate reporting and forecasting (NOAA)               11 of 14
                                                                                                                 Performance Section • Theme 2




                                          Theme 2:                     S CIENCE AND INFORMATION



Strategic Goal: Generate and communicate new, cutting-edge scientific
understanding of technical, economic, social, and environmental systems

                               S C I E N C E A N D I N F O R M AT I O N TOTA L R E S O U R C E S
                             S C I E N C E A N D I N F O R M AT I O N TOTA L R E S O U R C E S
                                        Funding Levels
                                     Funding   Levels                                                                               FTE1 Resources
                                      (Dollars in Millions)
                                                                                                                                   FTE1 Resources
                                    (Dollars in Millions)
                                                            $9,683.0
                                                         $9,683.0
                                                                                                                                                              101,419
                                                                                                                                                             101,419
                                            $6420.4
                                         $6420.4
                                                                          $4,655.6
            $3,775.0      $4081.4
                                                                        $4,655.6                                                             33,962
        $3,775.0       $4081.4
                                                                                                                                            33,962                              18,768
                                                                                                      9,192              9,810
                                                                                                                                                                                18,768
                                                                                                    9,192              9,810
                                                                                                     2007               2008                 2009              2010             2011
            2007           2008              2009             2010         2011                     2007               2008               2009 Year
                                                                                                                                        Fiscal                2010              2011
         2007           2008               2009             2010         2011                                                          Fiscal Year
                                          Fiscal Year                                       1
                                                                                              FTE—Full-Time Equivalent
                                       Fiscal Year                                     1
                                                                                           FTE—Full-Time Equivalent




 T 
          his theme contains one strategic goal, and within that
                                                                                                         S C I E N C E A N D I N F O R M AT I O N
          strategic goal, three objectives. The following public                                        S C IP
                                                                                                             EN E RCFEOARN
                                                                                                                         MDA NI N
                                                                                                                                C EF ORRE M
                                                                                                                                          S UAT
                                                                                                                                              LTISO N
          benefits, achievements, and performance results are                                               P E R F O R M A N C E R E S U LT S
                                                                                                                  40
associated with each objective.                                                                                  40
                                                                                                       Results
                                                                                                      Results




                                                                                                                  30
                                                                                                        ofof




                                                                                                                 30
                                                                                                 Number




                                                                                                                  20
                                                                                                Number
                                                                                              Reported




                                                                                                                 20
                                                                                             Reported




                                                                                                                  10
                                                                                                                 10
                                                                                                                    0
                                                                                                                  0 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                      2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                               Exceeded                        1       3                      3      3     4     10       4
                                                                                              Exceeded                       1        3                      3       3     4     10       4
                                                                                               Met              15           18       16       24      24    25     23    19     17      18
                                                                                              Met              15           18       16       24      24    25     23     19     17      18
                                                                                                Slightly Below    1            1        3               2      1      2     4     1       2
                                                                                              Slightly Below    1            1        3                2      1      2     4      1       2
                                                                                                Improved                                2
                                                                                              Improved
                                                                                                Not Met                            4  21        2       3             2    3       2      2
                                                                                               Not Met                           4    1        2       3              2    3       2      2

                                                                                        See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                       See Appendix A: Performance and Resource Tables for individual reported results.




F Y   2 0 1 1      P E R F O R M A N C E              A N D    A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                                          117
Performance Section • Theme 2




                                                        Objective 13

        Increase scientific knowledge and provide information to stakeholders to support economic growth
                      and to improve innovation, technology, and public safety (NTIS, NTIA)


                                                         Public Benefits



 T     he National Technical Information Service (NTIS) advances measurement science by bringing scientific and technical infor-
       mation to U.S. business and industry. NTIS promotes innovation and economic growth for U.S. business by (1) collecting,
classifying, coordinating, integrating, recording, and cataloging scientific and technical information from a variety of sources, foreign
and domestic; (2) disseminating this information to the public; and (3) providing information management services to other federal
agencies that help them interact with and better serve the information needs of their own constituents, accomplishing this all
without appropriated funds.

Through its laboratory at the Institute for Telecommunication Sciences (ITS), the National Telecommunications and Information Admin-
istration (NTIA) supports basic research in innovative telecommunications and information technologies. This research has the potential
to improve both the performance of telecommunications networks and the availability of digital content on the Internet.

Currently, ITS and NTIA’s Office of Spectrum Management are conducting a pilot test-bed program to evaluate approaches and
techniques to increase spectrum sharing between federal and non-federal spectrum users. NTIA will publish an annual report
evaluating private sector-supplied devices in the areas of Emission Characterization, Sensor Characterization, Geo-Location Character-
ization, Spectrum Access Behavior, and Land Mobile Radio Emission Characterization.



Achievements


NTIS

Promote Increased Access to Federal Science, Technology, and Engineering Information (STEI)

During FY 2011, NTIS continued the development of the improved, open environment version of the National Technical Reports Library
(NTRL) that will substantially increase discovery of federally funded STEI while maintaining the NTRL cost-recovery subscription model.
The open environment version of NTRL is scheduled for release in early FY 2012. NTIS also established the Selected Research
Services (SRS) in FY 2011 as a tailored information service that delivers electronic copies of government publications in 378 subject
topics based on subscriber profiles.

To actively promote the growth of digital STEI content, NTIS began the Digital on Demand pilot program that offers select NTRL
customers the option of requesting electronic delivery of digitized STEI products that were only previously available in print and
microfiche formats. This pilot program is expected to provide a value-enhancement service to NTIS customers while expanding the
digital content of the NTRL.




  118                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 2




NTRL and SRS product advances provide customer-driven improvements in functionality and design. NTRL and SRS have substan-
tially improved perpetual access to federally funded STEI by increasing the amount of full text documents available in digital format.
The broadening of the customer base to include both domestic and international customers has furthered expanded the findability and
accessibility of federal STEI to a global audience. NTIS also completed an agreement with the National Archives and Records Adminis-
tration that will perpetually maintain the electronic STEI products in the NTIS clearinghouse.

The National Technical Reports Newsletter, a no-cost monthly digital publication, promotes STEI content to a worldwide subscriber
base. In FY 2011, NTIS refreshed the publication with new graphics, and redesigned it to include greater content arranged by subject.
The newsletter is dual-purposed: first, to promote discoverability of federal STEI; and second, as outreach and marketing to current
and potential NTRL and SRS customers.

NTIS also continues to expand its customer outreach programs by broadening its social media presence in Twitter, Facebook, and
YouTube. NTIS has planned further expansion to other social media venues during FY 2012 as part of NTIS outreach and education
activities to further the dissemination of STEI. NTIS programs continue to increase worldwide access to STEI through continuing
efforts to acquire and capture new federally funded STEI content. NTIS recently initiated new Joint Venture Partnerships in order to
explore innovative STEI products and services that will enhance new media offerings of STEI. The new public-private partnerships will
position NTIS as a significant participant in federal STEI development and dissemination.

Facilitate the Dissemination of Federal Science and Information

NTIS facilitates the dissemination of federal science and information by providing information management services to other federal
agencies to help them disseminate federal information to their constituents. In FY 2011, NTIS continued its long association with
the U.S. Department of Agriculture (USDA) Team Nutrition and Supplemental Nutrition Assistance Programs, by distributing over
10 million free brochures, pamphlets, and kits in both English and Spanish to citizens and state agencies. NTIS is supporting USDA
with the dissemination of the new generation icon “MyPlate” publications, which have replaced the Food Pyramid. Under the Presi-
dent’s initiative, the MyPlate materials have the new generation food icon to prompt children and parents to think differently about
their food choices. NTIS has continued its efforts with the Department of Education to improve and enhance the dissemination of
education publications through the effective implementation of cost-effective technologies that would enable broader outreach to
constituent groups without cost increases. Since 2009, NTIS has fulfilled these requirements providing customer contact center, Web
hosting, and publication fulfillment and distribution services for Department of Education publications and federal student assistance
programs. In FY 2011, NTIS processed over 77,000 orders and shipped 21.1 million items in support of these Department of Education
programs.

NTIS began supporting a new Social Security Administration (SSA) initiative in November 2009 to provide alternative modes of commu-
nication in its special notices to the blind and visually impaired. NTIS in conjunction with two Joint Venture Partners has been distrib-
uting the notices to the visually impaired on compact disk (CD) media for computer screen reading and in Braille print. Since April 2010,
NTIS shipped 50,000 CD and Braille documents to sight impaired SSA recipients. In May 2011, SSA and NTIS developed and launched
two new media formats, audio and large print. To date, NTIS and its partners have processed and shipped over 1,600 audio notices
and over 28,000 large print notices.

NTIS and its e-Learning and Knowledge Management Joint Venture Partners continue to work closely with other federal agencies to
assist them in implementing and maintaining their e-learning management and knowledge management systems and applications.
In FY 2011, NTIS provided e-learning and knowledge management support services to the following U.S. departments: Commerce,
Agriculture, Education, Health and Human Services, Justice, Interior, Treasury, and the U.S. Air Force.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   119
Performance Section • Theme 2




NTIA

The Spectrum Sharing Innovation Test-Bed pilot program (Test-Bed) is evaluating the ability of Dynamic Spectrum Access (DSA) devices
employing spectrum sensing and/or geo-location techniques to share spectrum with land mobile radio (LMR) systems operating in the
410-420 MHz federal band and in the 470-512 MHz non-federal band. To address potential interference to incumbent LMR spectrum
users, the Test-Bed pilot program includes both laboratory and field measurements performed in three phases to characterize the inter-
action with DSA-enabled devices.

Phase I testing of two candidate devices is complete; reports on Phase I findings (Equipment Characterization) will be published in
December 2011. Generally, in Phase I, NTIA learned that additional analytical modeling is necessary and will occur in tandem with
testing. NTIA also learned that device differences require customized testing plans, which adds time to the testing process. Test
results are being used to establish a technology neutral regulatory framework for dynamic spectrum access technology that will allow
sharing with federal land mobile systems. A report documenting measurements for Phase I is being prepared.

NTIA published the FY 2010 Annual Progress Report on the Test-Bed pilot program in March 2011.


                                           S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                             Performance Measure                                          Target             Actual             Status
 Number of updated items available (annual) (NTIS)                                        825,000            836,579             Met

 Number of information products disseminated (annual) (NTIS)                             47,800,000        48,958,993            Met

 Customer satisfaction (NTIS)                                                             95-98%              99.5%              Met

 Annual progress report on the Test-Bed program (NTIA)                               Publish annual         Published
                                                                                                                                 Met
                                                                                         report              report



FY 2011 Status

NTIA and NTIS met all of their targets.



Historical Trends

NTIS has consistently met its targets for the past 10 years.




 120                                             F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 2




                                                        Objective 14

           Enable informed decision-making through an expanded understanding of the U.S. economy,
          society, and environment by providing timely, relevant, trusted, and accurate data, standards,
                                 and services (ESA/CENSUS, ESA/BEA, NOAA)


                                                         Public Benefits



 I   n many ways the United States is a statistics driven society. The Nation depends on statistics provided by the Census Bureau and
     the Bureau of Economic Analysis (BEA) to determine business decisions, plan for geographic and economic (both national and
international) expansion, provide funds to needy organizations, and determine political expansion and contraction. Accurate business
information regarding the demographics of the Nation, including measures of the population, economy, and governments, assists
entrepreneurs in identifying market opportunities that can generate jobs. Population estimates serve as a starting point for allocating
federal, state, and local funds to various groups within society.

The Economics and Statistics Administration (ESA), comprised of the Census Bureau and BEA, provides decisionmakers with timely,
relevant, and accurate economic and statistical information related to the U.S. economy and population.

Current and benchmark measures of the U.S. population, economy, and governments play a vital role in the Nation’s economic well
being. The Census Bureau uses the Decennial Census to provide the official population counts for determining the allocation to
states of seats in the U.S. House of Representatives and for determining how the districts are defined for those seats. The Census
Bureau provides to each state the data necessary to determine Congressional, state, and local legislative boundaries. The Decennial
Census provides comprehensive and useful demographic information about all people living in the United States, Puerto Rico, and
the associated Island Areas. The program also provides data for small geographic areas and population groups that federal agencies
need to implement legally mandated programs. Approximately $400 billion a year is distributed to state and local governments using
formulas that are based on data such as state population and personal income.

The Economic Census provides comprehensive, detailed, and authoritative facts about the structure of the U.S. economy ranging
from the national to the local level. The Economic Census covers nearly 29 million business locations and 84 percent of the Nation’s
economic activity. The Census of Governments is the only source of comprehensive and uniformly classified data on the economic
activities of state and local governments. The Census of Governments covers about 90,000 local governments, 12 percent of the gross
domestic product (GDP) and nearly 14 percent of the U.S. workforce. The Demographic Surveys Sample Redesign (DSSR) program
designs and selects samples for the major national household surveys. The Intercensal Demographic Estimates program provides
updated estimates of the U.S. population for the country, states, counties, cities, and townships.

BEA invests in the improvement of the accuracy and relevance of GDP, international trade in goods and services, industry economic
measures, and regional and metropolitan statistics, thereby supplying the economic statistics essential to sound business forecasting
and monetary policy. In these ways, the Department seeks to understand the strength and direction of the economy as well as the
determinants of growth as the Nation shifts to more knowledge-based and skill-based industries.

One of the primary methods for improving the understanding of the environment is through the examination of oceanic and atmospheric
conditions patterns worldwide. To this end, the National Oceanic and Atmospheric Administration (NOAA) develops and procures
satellite systems, aircraft, and ships with the purpose of providing information to determine weather patterns and predict weather




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 121
Performance Section • Theme 2




forecasts. This information affects all facets of society from agricultural planning to electric power usage to disaster planning. It plays a
major role in the accuracy of national, regional, and local forecasting as well as impacting short and long-term climate modeling.



Achievements


Census Bureau

In FY 2011, the Census Bureau met its Constitutional and legal (Title 13, U.S.C.) deadline for delivering apportionment counts to the
President based on the 2010 Census. The Census Bureau also met its legal deadline (PL 94-171) for delivering redistricting data
products to the states. Release of other data products from the 2010 Census also occurred on schedule, as did various program
evaluations and assessments. The Census Bureau also launched its Count Question Resolution program to provide jurisdictions a
mechanism to challenge the census counts for their area. The remaining local census offices and the paper data capture centers
utilized for the 2010 Census were closed, and the Census Coverage Measurement operations were completed.

For the first time ever, in FY 2011 the American Community Survey (ACS) released five-year estimates, comprised of data collected
from 2005 to 2009. These estimates are now available for every state, county, city, town, place, American Indian Area, Alaska Native
Area, and Hawaiian Home Land, as well as for census tracts and block groups. The core ACS tables are being released by the end of
FY 2011.

In FY 2011, the report content form for the 2012 Economic Census was finalized, and completed 90 percent of the forms design for
the program’s core content report forms. The report content form for the 2012 Census of Governments was finalized, and completed
100 percent of the forms design for the program’s core content report forms. During FY 2011, principal activities of the Census of
Governments program included the finalization of survey content for each census component; development of survey instruments
for electronic and paper collection; outreach activities related to survey content; acquiring the Office of Management and Budget
(OMB) approval of census components; preparation and maintenance of the government master address file (GMAF); legal research
to enhance universe coverage; joint data collection with state agencies, including the assessment of current agreements and renegoti-
ating details; updates of existing collection, processing, and dissemination products and systems; and modernization and re-engineering
efforts of the business processes and corresponding software processing systems used for data entry, collection, processing, review,
and analysis.

In FY 2011, the Census Bureau released nearly 400 economic reports, including 120 principal economic indicators. Responses to
censuses and surveys provide information on manufacturing, retail, and wholesale trade; selected service industries; construction
activity; quantity and value of industrial output; inventories; new orders; capital expenditures; e-commerce sales; foreign trade; and
state and local government activities. All targeted current surveys programs achieved their response rate targets for FY 2011.

During FY 2011, the Census Bureau completed the process of expanding the annual and quarterly surveys of service industries. Prior to
the 2009 services expansion, the Service Annual Survey (SAS) coverage accounted for 30 percent of GDP and the Quarterly Services
Survey (QSS) coverage comprised 17 percent of GDP. The SAS and the QSS, as fully expanded, now each have achieved matching
coverage with the services portion of the Economic Census (55 percent of GDP). In FY 2011, the Census Bureau increased the
quarterly services coverage of GDP from 36 percent to 55 percent while, at the same time, the Census Bureau completely eliminated
the annual data coverage gap with publication of the 2009 SAS in March 2011.




  122                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     Performance Section • Theme 2




In April 2011, the Census Bureau introduced a new profile of U.S. importing companies to complement the existing profile of U.S.
exporting companies. The profile provides information on the value of goods imported and number of importing companies, based on
several company characteristics, for the years 2008 and 2009. This new report provides information never before available about the
U.S. import trade market, and introduces new capabilities to analyze companies that participate in importing and exporting.

The Census Bureau met its targets to achieve at least 90 percent of the planned response rates and dissemination targets for Census
Bureau surveys. Response rates are a measure of the quality of survey data. Dissemination targets are a measure of timeliness of
the data. By meeting these targets, the Census Bureau is providing its users with the high quality and timely data they need to make
important policy decisions that help improve the Nation’s social and economic conditions.


BEA

In FY 2011, BEA continued to maintain and improve the relevance and usefulness of its economic accounts. One of its primary accom-
plishments this year was the successful release of the 2011 flexible annual revision to the U.S. National Economic Accounts, which
included several important improvements to the National Income and Product Accounts, such as the incorporation of source data
from the 2007 Economic Census, improved price indexes for personal consumption expenditures for property and casualty insurance,
and improved seasonal adjustment of real measures of petroleum imports. Additionally, this revision expands BEA’s use of “flexible”
annual revisions, which began on a smaller scale in 2010. Flexible annual revisions expand the period of years open to revision beyond
the conventional three-year period, thereby providing BEA’s customers with up-to-date economic accounts that incorporate definitional,
classificational, or methodological improvements earlier than possible under the conventional revision cycle.

BEA also continued its multi-year efforts to improve its international economic accounts by aligning them with international standards.
In FY 2011, BEA released the annual revision of the U.S. International Transactions Accounts, which included improvements such as
the reclassification within services of cruise fares from passenger fares to travel; the reclassification of fees for the rights to distribute
film and television recordings from “other” private services to royalties and license fees; and the exclusion of expenditures of foreign
nationals working at international organizations in the United States from “other” private services and the inclusion of their compen-
sation in compensation of employees.

Another of BEA’s multi-year projects made significant advances in FY 2011, with the release of prototype statistics for quarterly GDP by
industry that allow for a more complete analysis of business cycle dynamics and supplement the current quarterly national income and
product accounts by providing a more comprehensive look at consumer spending, investment, international trade, and industry perfor-
mance on a quarterly basis. A series of articles in the Survey of Current Business presents these statistics and describe the prototype
methodology underlying them.

BEA also provided its customers with important improvements to its Web site in FY 2011. In keeping with BEA’s goal to make its
statistics more widely available and its Web site easier to use, it launched a new interactive table and chart service, as well as an
updated, more modern look on its Web site. The new interactive data system—available to the public free of charge—allows BEA
customers to access, visualize, and interpret BEA data in innovative new ways, create customized statistical tables using a streamlined
process, share the data via social media tools, create more functional charts, and download tables and charts in a variety of formats.
BEA also relaunched the frequently asked question database on its Web site, featuring an updated customer interface that allows
easier navigation and searching.

In the first half of 2011, ESA released one major report, Women in America, and four other reports: U.S. Trade in Private Services,
Foreign Direct Investment in the United States, STEM: Good Jobs Now and for the Future, and Women in STEM: A Gender Gap to
Innovation. The findings in these reports have been used across the Administration and have been widely reported on by the media.




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        123
Performance Section • Theme 2




ESA provides timely and accurate economic insight to the Secretary and his chief policy advisors through economic briefings. Recent
briefing topics have included inflation, the recent softness in the U.S. economy, and international trade. These briefings help to inform
the Department’s long term policy goals and senior staff enjoys the opportunity to hear a clear, concise summation of economic
events.


NOAA

STAR Provides Flood/Standing Water Imagery During Major Disasters

The Center for Satellite Applications and Research (STAR) Geostationary Operational Environmental Satellite Series R (GOES-R) land
application team, used satellite detections of land surface flood and standing water to develop imagery to monitor floods after the
March 2011 tsunami in Japan, and the Mississippi River breach in May 2011. In March 2011, the team produced a flood map along
the coastline of Sendai, Japan, and in early May 2011, a flood map of the levee breach near the confluence of the Ohio and Missis-
sippi Rivers. Precise mapping of floods and standing water is crucial for detecting deficiencies in existing flood control and for damage
claims. NOAA rapidly disseminated the imagery to decisionmakers and the public to permit informed responses to the disasters.
NOAA distributed the tsunami flood map through the NOAA Web site, the National Environmental Satellite, Data, and Information
Service (NESDIS) Web site, and the STAR Web site. NOAA selected the Mississippi River levee breach flood map as a “NOAA Image
of the Day” in May. Through the GOES-R program office, NOAA released an outreach booklet of the GOES-R Flood/Standing Water
Product.

1981–2010 Climate Normals Released

In FY 2011, the National Climatic Data Center (NCDC) released the decadal 1981–2010 Climate Normals. These Normals serve as a
point of reference for typical climate conditions at a given location. Commonly seen on TV weather segments for comparisons with
the day’s weather conditions, Normals are three-decade averages of numerous climatological variables, most notably temperature and
precipitation. Countless applications across a variety of sectors use them. Numerous stakeholders use Normals including: builders,
insurers, and engineers for planning and risk management; energy companies to predict fuel demand; farmers to help make decisions
on both crop selection and planting times; and agribusinesses to monitor departures from normal conditions throughout the growing
season and to assess past and current crop yields. This release updated the Normals for more than 7,500 locations across the United
States with over 1,000 new stations included in the new Normals. NCDC produced hourly, daily, monthly, seasonal, and annual
Normals for numerous climatological variables, including temperature, precipitation, and snowfall. NCDC also computed Normals for
derived quantities, such as heating and cooling degree days and the number of days per month above/below certain thresholds. NCDC
made many improvements and additions to the scientific methodology used to calculate the 1981–2010 Normals, including improved
scientific quality control and statistical techniques. NCDC provided full scale user engagement before and after releasing the Normals
and incorporated new products based on stakeholder feedback.

NOAA Develops New Arctic Ice Maps

In FY 2011, NOAA’s National Ice Center analysts began producing an Arctic-wide sea ice and snow extent map using a multitude of
data sources. The gridded four-kilometer product locates the ice edge with much greater accuracy than daily products based on single-
source satellite data. The National Ice Center and the National Snow and Ice Data Center developed the Multi-sensor Analyzed Sea
Ice Extent (MASIE) to meet a need for a more accurate daily product much like the existing Sea Ice Index product, but easier to use.
MASIE is a high-resolution depiction of sea ice extent based on the Office of Satellite and Product Operations Interactive Multi-sensor
Snow and Ice Mapping System (IMS) product. NOAA produces the MASIE utilizing visible images that depict the ice edge position
and enables users to view and download several kinds of data about the ice edge. The high user demand for this product is due to its




 124                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 2




use of multiple data sources with high temporal and image resolutions. The IMS product takes advantage of visible and radar imagery,
passive microwave data, National Ice Center weekly ice analysis products, and other data that are combined via meticulously analyzed
daily analysis of satellite imagery at the National Ice Center. The National Snow and Ice Data Center serves as a cryospheric archiving
node and is funded by the National Geophysical Data Center (NGDC) in the archival of IMS products. Scientists can now study the
extent of the constantly changing sea ice pack with much greater accuracy using the MASIE, giving the public a more reliable position
of the location of the ice edge than the previously used Sea Ice Index product.

NOAA Develops Digital Solid Earth

NGDC developed 11 high-resolution digital elevation models (DEM) of threatened U.S. coastal communities to support NOAA’s tsunami
and hurricane storm-surge forecast and warning efforts. The new DEMs are an addition to the more than 100 high-resolution, coastal
DEMs NGDC has now built, including integrated bathymetric-topographic DEMs of the U.S. Virgin Islands and coastal Louisiana,
and communities in North Carolina, Washington, Hawaii, and Alaska. The models integrate ocean bathymetry and land topography.
The center has been building DEMs across the shoreline for over 20 years and now is a leader and a source of expertise for NOAA
and federal agencies concerned with coastal ecosystems responses, community resilience, and informed management. NGDC also
developed interactive “flip book” DEM catalogs of U.S. coastal areas that inform the public about the usefulness of digital elevation
models and provide the public with a much more engaging format of information about the location, data, and motivation for the DEMs
of a given region. This is a significant and innovative leap towards public engagement. These DEMs can be used for modeling of
coastal processes (tsunami inundation, storm surge, sea-level rise, contaminant dispersal, etc.), ecosystems management and habitat
research, coastal and marine spatial planning, and hazard mitigation and community preparedness. NGDC provides guidance, training,
and support on DEM development, as well as creating outreach and educational materials. NGDC is now recognized within NOAA and
the United States as a DEM technical center of expertise.

NOAA Delivers State of the Climate in 2010

NOAA recently released the State of the Climate in 2010 report, stating that worldwide, 2010 was one of the two warmest years on
record. This report was the broadest to date in terms of authorship and the systematic tracking of more climate system components
than ever before. It provides a peer-reviewed annual “physical” of the climate system and insights into NOAA’s capacity to measure it,
using trusted sources of information. This helps to clarify and quantify climate change and variability in the face of a dissonant commu-
nications environment for climate issues. NOAA began the State of the Climate series (as Climate Assessment) in 1990. The report
has grown in scope to become a leading, anticipated publication. It is unique among annual major assessments in that it makes
no attempt to validate models or make projections of future climate conditions. It is strictly built upon data compiled in the world’s
agencies and academic institutions—the climate system’s vital signs. Last year was marked by important climate oscillations like the
El Niño-Southern Oscillation and the Arctic Oscillation, which affected regional climates and contributed to many of the world’s signif-
icant weather events in 2010. Meanwhile, the comprehensive analysis of 41 climate indicators shows a continuation of the long-term
trends scientists have seen over the last 50 years, consistent with global climate change.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   125
Performance Section • Theme 2




                                          S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                           Performance Measure                                          Target              Actual             Status
 Complete key activities for cyclical census programs on time to support         At least 90%          At least 90%
 effective decision-making by policymakers, businesses, and the public           of key prep           of key prep
 and meet constitutional and legislative mandates (ESA/CENSUS)                   activities            activities               Met
                                                                                 completed on          completed on
                                                                                 time                  time
 Meet or exceed the overall federal score of customer satisfaction on            74 (federal                  60
 the E-Government American Customer Satisfaction Index (ACSI) (ESA/              score)                                        Not Met
 CENSUS)
 Achieve pre-determined collection rates for Census Bureau censuses and          At least 90% of             Met
 surveys in order to provide statistically reliable data to support effective    key censuses            percentages
 decision-making of policymakers, businesses, and the public (ESA/               and surveys
 CENSUS)                                                                         meet/exceed                                    Met
                                                                                 collection
                                                                                 rates/levels of
                                                                                 reliability
 Release data products for key Census Bureau programs on time to                 •	 100% of            •	 100% of
 support effective decision-making of policymakers, businesses, and the             Economic              Economic
 public (ESA/CENSUS)                                                                Indicators            Indicators
                                                                                    released on           released on
                                                                                    time                  time
                                                                                                                                Met
                                                                                 •	 At least 90%       •	 At least 90%
                                                                                    of key prep           of key prep
                                                                                    activities            activities
                                                                                    completed on          completed on
                                                                                    time                  time
 Timeliness: Reliability of delivery of economic data statistics (number of
                                                                                         62                   62                Met
 scheduled releases issued on time) (ESA/BEA)
 Relevance: Customer satisfaction (mean rating on a 5-point scale)
                                                                                         >4.0                 4.1               Met
 (ESA/BEA)
 Accuracy: Percent of GDP estimates correct (ESA/BEA)                                   >85%                 89%                Met

 Complete all major strategic plan milestones related to improving the            Completion of           Completed
 economic accounts (ESA/BEA)                                                      strategic plan           all major            Met
                                                                                   milestones             milestones




 126                                            F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 2




FY 2011 Status

The Census Bureau and BEA met seven of eight targets.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Meet or exceed the overall federal score of customer satisfaction on the American Customer
                   Satisfaction Index (ACSI) (ESA/CENSUS)
                   The significant decline in the Census Bureau’s satisfaction performance starting in first quarter 2011 was due to
 Explanation       not meeting the visitors’ expectations to have the 2010 Census results available on the site and the introduction
                   of the new American FactFinder.
                   The Census Bureau’s Web team is targeting improvements on navigation and search on the Web site to improve
 Action
                   the ACSI rate.



Historical Trends

BEA has consistently met or achieved its targets for its four performance measures over the past several years, as shown in Appendix A.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 127
Performance Section • Theme 2




                                                       Objective 15

                       Improve weather, water, and climate reporting and forecasting (NOAA)


                                                        Public Benefits



 W       eather affects all facets of society, impacting the economy in ways ranging from agricultural preparation to transportation
         planning to disaster response. In certain situations, weather forecasting can affect the number of lives saved or lost as well
as mitigate the extent of property damage as a result of weather events. Weather also affects how power companies plan for daily,
weekly, and seasonal variances. Because of this, Americans benefit from sound weather forecasting both in their daily lives and
planning, and in preparation for major storm events.

A weather-ready nation will be able to prepare for and respond to environmental events that affect safety, health, the environment, the
economy, and homeland security. NOAA’s capacity to provide accurate and relevant information can help create a society that is more
adaptive to its environment; that experiences fewer disruptions, dislocation, and injuries; and that operates a more efficient economy.
Over the long-term, climate change may increase the intensity and even the frequency of adverse weather events, ranging from drought
and flooding to wildfires, heat waves, storms, and hurricanes. Changing weather, water, and climate conditions affect the economic
vitality of communities and commercial industries, such as the energy, transportation, and agriculture sectors. Environmental infor-
mation aligned with user needs will become ever more critical to the safety and well being of those exposed to sudden or prolonged
hazards and will enable U.S. businesses and policymakers to make informed decisions.

NOAA’s role in understanding, observing, forecasting, and warning of weather events is expanding. NOAA conducts sound, scientific
research and provides integrated observations, predictions, and advice for decisionmakers who manage environmental resources,
ranging from fresh water supplies to coastal ecosystems. Realizing that NOAA’s information and services bridge both weather and
climate timescales, NOAA will continue to collect and analyze environmental data and issue forecasts and warnings that help protect
life and property and enhance the U.S. economy. The Department is committed to excellent customer service and depends on its
partners in the private sector, academia, and government to add value and help disseminate critical weather and climate information.
NOAA will expand services to support evolving national needs, including those associated with space, weather, freshwater and coastal
ecosystems.

One of the growing challenges in the 21st century is the escalation of the demand for water and improved water and air quality.
Changing water temperatures and poor air quality impact the Nation’s population and its fish and shellfish populations. To this end,
NOAA can combine predictive weather information with an understanding of weather, water, and climate to develop integrated predic-
tions that can improve the health of ecosystems and communities.



Achievements

NOAA Installs New Coastal Radar in Washington State

NOAA finished the installation of a Next Generation Weather Radar (NEXRAD) to provide critical radar coverage along the coast of the
Pacific Northwest. The new radar is located on Langley Hill, near Copalis Beach in Grays Harbor County, WA, about 90 miles southwest
of Seattle. This radar joins the network of 159 other NEXRADs maintained by the National Weather Service (NWS) in partnership with
the Federal Aviation Administration (FAA) and the Department of Defense. The new radar allows weather forecasters to detect intense



 128                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     Performance Section • Theme 2




storms gathering off shore and to effectively warn residents living between the mouths of Juan DeFuca Strait in Washington, and
Willapa Bay in Oregon of intense storms gathering off shore. The Olympic Mountains largely blocked coverage of the closest NEXRAD
located on Camano Island, Washington. The new coastal radar closes this gap, enabling forecasters to better determine wind speed
and rainfall of incoming storms and to issue more accurate and timely warnings to residents in harm’s way, helping to prevent loss of
life and millions of dollars in property damage.

In addition, the Langley Hill NEXRAD is one of the first radars to receive the new Dual-polarization modification. Dual-polarization
technology adds a vertical scanning capability to the NEXRAD, providing an in-depth look into weather systems. With this new
technology, NWS forecasters are able to better predict the type, intensity, and duration of precipitation and severe weather.

NWS Upgrades Climate Forecast System Modeling

NOAA implemented major improvements to its Climate Forecast System (CFS) in March 2011. The CFS is the principal computer
model used in the development of seasonal climate forecasts out to nine months in the future. NWS issues seasonal climate forecasts
for temperatures, precipitation, and drought. Decisionmakers across the country depend on these seasonal climate forecasts to
improve their planning in areas such as transportation, water resources, and hazard preparedness. Considerable advancements over
the previous CFS version were made in the physics, resolution, model coupling, and data assimilation to all its individual models.
One such advancement was to improve the inclusion of carbon dioxide increases for seasonal temperature forecasts.

The upgrade represents a major improvement in NWS’s modeling capability to predict climate variability and climate events, such as
El Niño and La Niña, six to nine months in advance. The current CFS version increases the month-1 skill scores for temperature by
37 percent and precipitation by 29 percent. These improvements provide useful information for identifying major drought events like
the one being experienced in the central South, including Texas. NWS expects to see improvements in other seasonal predictions,
especially outlooks for the hurricane season and winter weather.

NOAA Substantially Improves Nation’s Weather Radars

NOAA has begun its Dual-polarization modification to the NEXRAD array. Dual-polarization technology adds a vertical scanning capability
to the NEXRAD providing a more three-dimensional look into weather systems. NEXRADs without the modification scan on a horizontal
dimension which does not provide the same wealth of information as Dual-polarization. With the Dual-polarization technology, NWS
forecasters will improve their prediction capability in detecting the type, intensity, and duration of precipitation. Dual-polarization enables
forecasters to detect tornado debris and improve hail detection for severe thunderstorm warnings. These improvements will result in
increased warning lead times for flash floods, which will better enable those impacted by the events to move out of harm’s way and
limit property losses. NOAA conducted extensive testing of the Dual-polarization modifications on the NEXRADs located at Vance Air
Force Base, OK; Phoenix, AZ; Morehead City, NC; and Pittsburgh, PA. NWS forecasters within the testing locations have begun using
the enhanced radar data to improve and refine weather warnings and forecasts.

In partnership with NOAA, the U.S. Air Force, and FAA, the Nation operates 160 NEXRADs. All 160 NEXRADs will be upgraded with
the Dual-polarization modification by the end of FY 2013.

NOAA’s NWS Strengthens Aviation Weather Forecasts

In 2011, NOAA demonstrated enhanced aviation weather services by providing more timely and accurate weather information to FAA’s
air traffic decisionmakers in three geographic test areas: New York, Atlanta, and Chicago, otherwise known as the “Golden Triangle.”
This area includes the Nation’s most heavily-traveled air space and is subject to considerable weather sensitivity. Weather delays
impacting any one of these terminals can result in significant delays throughout the National Airspace System. The Congressional Joint



F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         129
Performance Section • Theme 2




Economic Committee estimated in 2007 that weather-related flight delays cost the U.S. economy nearly $29 million a year. As a result
of the demonstration, the test areas have seen a 10 percent reduction in weather-related delays since the start of the experiment in
May 2010.

The experiment includes increasing the issuance frequency of terminal aerodrome forecasts to once every two hours, enhancing
collaboration with Air Route Traffic Control Centers prior to Strategic Planning Calls, and providing an enhanced convective forecast to
these three demonstration areas. As a result of this success, NWS Golden Triangle efforts will continue their enhanced set of products
and services into FY 2012. Improving NWS services to provide decisionmakers the best information available is a top priority as the
organization continues to develop innovative approaches to incorporate advances in the science of weather forecasting.

NOAA Provides Early Warnings for May 22 Joplin, MO Tornado

NOAA’s NWS provided early warnings for the May 22 EF-5 (greater than 200 mph) tornado that devastated a large portion of Joplin,
MO, and resulted in over 150 fatalities and over 1,000 injuries. The Joplin tornado is the single deadliest tornado since modern record-
keeping began in 1950 and is ranked as the seventh deadliest in U.S. history. The supercell thunderstorm that generated the Joplin
tornado tracked from far southeast Kansas into far southwest Missouri in the late afternoon and evening of May 22, generating multiple
tornadoes and wind damage along its path. These storms also produced flash flooding across far southwest Missouri.

The NOAA NWS Storm Prediction Center first forecasted severe weather for the Joplin area three days in advance. The Storm
Prediction Center issued a Tornado Watch that included Joplin, MO four hours prior to the tornado. The Springfield, MO, Weather
Forecast Office (WFO) issued a tornado warning with a preliminary lead time of 24 minutes. NWS Central Region Headquarters
moved additional forecasters into Springfield to help staff the office as they continued to fight ongoing severe weather threats while
dealing with the recovery from the tornado. While the early warnings saved countless lives, improvements in science and technology
are required in order to see further improvements in warning lead times. NWS is leading a national dialogue to find ways to build a
weather-ready Nation.

NOAA Provides Warnings and Support for Japanese Tsunami Impacts

NOAA’s NWS provided tsunami warnings and radiological forecast support for the March 2011 tsunami and its aftermath. Based on
seismographic data, NOAA’s Pacific Tsunami Warning Center issued a tsunami warning for Japan, Russia, Marcus Island, and Northern
Marianas Islands within nine minutes of the earthquake. The warning was expanded 90 minutes later to include Hawaii. Within 12
minutes of the earthquake, NOAA’s West Coast and Alaska Tsunami Warning Center issued a tsunami information statement for
Alaska, British Columbia, Washington, Oregon, and California.

Approximately 25 minutes after the earthquake, the tsunami was recorded by a NOAA Deep Ocean Assessment and Reporting of
Tsunamis (DART) buoy off the east coast of Japan. The information from the DART went into NOAA’s tsunami models that predict
arrival times, wave heights, and inundation areas for specific U.S. locations. Coastal evacuations in Hawaii and along the U.S. West
Coast were ordered as a result of NOAA’s tsunami warnings. Damage to U.S. interests from the tsunami was isolated, with the most
significant damage experienced at the Crescent City and Santa Cruz, CA, harbors. Local NWS WFOs that serve the U.S coastline
issued localized tsunami impact statements.

NWS’s National Centers for Environmental Prediction (NCEP) responded immediately to the government’s requests for information
and began providing 24/7 radiological dispersion model guidance. NCEP’s Environmental Modeling Center implemented experimental
modeling capabilities to track particles on the ocean surface, and to estimate dispersion and retention times of radionuclides by ocean
currents.




 130                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 2




NOAA Provides Exceptional Decision Support Services for Historic “Groundhog Day” Winter Storm

NOAA’s NWS provided continuous decision support for emergency management and coordination with other governmental agencies
during the February 2011 Groundhog Day Blizzard. During the first three days of February, a large and powerful winter storm, dubbed
the “Groundhog Day Blizzard,” hit the Central and Northern United States. The storm stretched for thousands of miles from New
Mexico northward to Wisconsin, and eastward to New England, leaving behind at least five inches of snow in 22 states. Winds gusting
to 70 mph created widespread blizzard conditions, disrupting surface and air transportation, schools, and businesses nationwide.
Severe weather, including a few rare winter tornadoes, swept across the Deep South. The heaviest snowfall occurred across northern
Illinois and southern Wisconsin. When the storm hit the Northeast, several hundred thousand residences and businesses lost power,
and many roofs and buildings collapsed due to the weight of the snow.

Miraculously, few deaths were directly attributed to the storm. NOAA estimates that total monetary losses, including insurance
claims, state and local snow removal, and business interruption, exceeded $1.1 billion.

NWS WFOs provided over 7,000 watches and warnings with average lead times of 48-60 hours and 25 hours, respectively. NWS kept
in close contact with emergency managers, FAA, and media with live Webinars and multi-media briefings throughout the event.
WFOs issued civil emergency messages in support of local officials and public safety.

President Obama and Prime Minister Cameron Promote United Kingdom/NOAA Space Weather Partnership

President Obama and United Kingdom Prime Minister David Cameron agreed to increase collaboration in the areas of higher education,
science, and innovation during the President’s visit to the United Kingdom in May 2011. The leaders welcomed in particular the growing
partnership between the U.K. Meteorological Office and NWS, codified with the signing of an historic Memorandum of Agreement in
February 2011. This agreement provides for a coordinated U.S.-U.K. partnership in the delivery of space weather alerts to help provide
critical infrastructure protection around the globe.

The two governments announced that they will embark together on an ambitious program to create the world’s first combined space
weather model. This model will be capable of forecasting terrestrial weather with great accuracy and also indicating where, when,
and for how long space weather effects will persist in the upper atmosphere and whether these anomalies are likely to disrupt and
degrade GPS-enabled positioning, navigation, and timing capabilities. The leaders also expressed a determination to maintain the level
of research excellence that leads to economic growth and job creation.

NOAA, U.S. Army Corps of Engineers, and U.S. Geological Survey Partner to Support Water Resources Management

Water resources decisionmakers nationwide require new and more integrated information and services to adapt to the uncertainty of
future climate, land-use changes, aging water delivery infrastructure, and increasing demand on limited resources. On May 11, 2011,
NOAA, the U.S. Army Corps of Engineers and the U.S. Geological Survey signed a Memorandum of Understanding (MOU) to form an
innovative partnership of federal agencies to address the Nation’s growing water resources challenges. These agencies, with comple-
mentary missions in water science, observation, prediction, and management, formed this partnership to unify their commitment
to address the Nation’s water resources information and management needs. The MOU also sets the foundation for other federal
agencies and partners to elect to join the collaborative partnership in the future.

The Integrated Water Resources Science and Services (IWRSS) consortium established through the MOU will allow the participating
agencies to coordinate and cooperate in activities to improve water resource services. Cooperative activities in these fields may
include, but are not limited to, project plan development; exchange of technical information, tools, and services; joint studies; research




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    131
Performance Section • Theme 2




and development activities of mutual interest; joint educational and communications activities to advance the understanding of water
resources planning and management; and exchange visits and work details of individuals sponsored by all agencies who are engaged
in water resources projects of mutual interest.

Through IWRSS, the agencies plan to create high-resolution forecasts of water resources showing where water for drinking, industry,
and ecosystems will be available. In addition, integrated water information will provide one-stop shopping through a database portal
to support stakeholders in managing water resources. NWS will leverage the partnership to enable earlier and more accurate flood
predictions and to collaboratively expand river and flood maps showing forecasted spatial extent and depth of flooding.

NWS Provides Early Warnings for Historic Tornado Outbreak in the Deep South

During a five-day period in late April 2011, NOAA’s NWS issued life-saving warnings, with an average lead time exceeding 20 minutes,
for the historic tornado outbreak in the Deep South. During this period, NWS issued nearly 1,000 tornado warnings nationwide and
over 1,500 Severe Thunderstorm Warnings. Despite early lead times, there were 321 fatalities during this period, with April 27, 2011,
ranked as the deadliest day for tornadoes since modern record keeping began in 1950.

NWS decision support for this event was extensive. NWS WFOs in the affected areas of Arkansas, Tennessee, Mississippi, Alabama,
and Georgia began alerting the public to the potential for a large tornado outbreak five days in advance. Local offices provided direct
decision support services to meet the specific needs of local emergency manager partners and the general public. NWS upgraded its
Hazardous Weather Outlook to the highest threat level at midnight prior to the event and issued “Particularly Dangerous Situation”
Tornado Watches over Missouri and Alabama more than two hours prior to the first tornadoes. NWS WFOs also continuously coordi-
nated with emergency managers and the broadcast media before and during the outbreak to ensure a coordinated approach to disaster
response and recovery.

In the aftermath of the outbreak, NWS sent several teams to survey the damage and coordinated high-resolution photography over-
flights of heavily damaged areas. A NOAA Service Assessment team began its field work in the week following the tornadoes.
Service Assessments are routine internal evaluations of NWS operations during major weather and natural hazard events, and they
include input from government agencies, emergency managers, media, and the public. Findings and recommendations from this
assessment will be used to improve the timeliness and effectiveness of products and services NOAA provides to the U.S. public.

NOAA Communicates Risk of Historic 2011 Flooding

NOAA provided extensive decision support services enabling the Nation to manage impacts of the Missouri and Mississippi Rivers
flooding throughout the spring and summer of 2011. As early as December 2010, NOAA identified factors that indicated a high
threat of widespread spring flooding throughout the North Central United States and into the Midwest and began coordination with
partners and stakeholders including federal, tribal, state, and local partners. These factors included high soil moisture, above average
snowpack conditions, elevated streamflows, and extended range forecasts that called for continued above average precipitation over
the threatened areas.

In March 2011, NOAA’s National Hydrologic Assessment and Spring Flood Outlook identified that almost half the country—from the
North Central United States through the Midwest and the Northeast—had an above-average risk of flooding beginning in spring.
This early assessment allowed partner agencies like the Federal Emergency Management Agency (FEMA), Red Cross, and U.S. Army
Corps of Engineers to pre-position vital resources necessary to respond to flooding. NWS coordination at the regional and national
levels aided federal agencies in monitoring levees at risk of failure, and assisted Emergency Managers and the public to prepare for and
respond to the flooding along the Missouri River.




 132                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                          Performance Section • Theme 2




The national flood threat continued to evolve through the spring. More than 20 inches of rain fell over the Ohio River and central
Mississippi River Valleys, exacerbating the flood wave from snowmelt in the northern Mississippi. During May and June, flooding
continued to impact portions of the Midwest and Western United States. As water receded on the Mississippi, significant runoff from
record mountain snowpack was further enhanced by 300-400 percent of average annual precipitation falling over the headwaters of the
Missouri River basin in Montana and the Dakotas during the month of May.

In response to flooding in the lower Mississippi River basin, NOAA coordinated daily briefings to FEMA and the Governor of Louisiana.
Based on these warnings, communities reinforced levees, FEMA prepositioned relief assets, and the U.S. Geological Survey ensured
the integrity of the area’s river gauge system. NOAA’s forecasts, coordination, and services enabled federal partner agencies and the
public at large to be well informed of the expected magnitude of flooding, and to take action to ensure safety of life and protection of
property.


                                                S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                            Performance Measure (NOAA)                                            Target   Actual           Status
 Severe weather warnings for tornadoes (storm-based) – Lead time
                                                                                                   12         15            Exceeded
 (minutes)1
 Severe weather warnings for tornadoes (storm-based) – Accuracy (%)1                              70%        76%               Met

 Severe weather warnings for tornadoes (storm-based) – False alarm rate
                                                                                                  72%        72%               Met
 (%)1
 Severe weather warnings for flash floods (storm-based) – Lead time
                                                                                                   38         71            Exceeded
 (minutes)
 Severe weather warnings for flash floods (storm-based) – Accuracy (%)                            72%        80%               Met

 Hurricane forecast track error (48 hours) (nautical miles)1                                       106        89            Exceeded

 Hurricane forecast intensity error (48 hours)(difference in knots)                                13         15             Not Met

 Accuracy (%) (threat score) of day 1 precipitation forecasts                                     30%        34%               Met

 Winter storm warnings – Lead time (hours)                                                         15         20            Exceeded

 Winter storm warnings – Accuracy (%)                                                             90%        88%          Slightly Below

 Marine wind speed accuracy (%)                                                                   69%        75%               Met

 Marine wave height accuracy (%)                                                                  74%        77%               Met

 Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less)(%)                 65%        63%          Slightly Below

 Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less)(%)                      41%        38%               Met
 1	   Prior to FY 2008, these warnings were county-based rather than storm-based.




FY 2011 Status

NOAA met or exceeded 11 of 14 targets and was slightly below for two others. The only target that is considered “Not Met” is for
Hurricane forecast intensity error.”




F Y   2 0 1 1    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                     133
Performance Section • Theme 2




F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure     Hurricane forecast intensity error (48 hours)(difference in knots) (NOAA)
               The 2010 Atlantic hurricane season had above normal activity, with 404 official forecasts issued. Official intensity
               errors for the Atlantic basin in 2010 were above the 5-year means at the 48 hours lead time used to calculate
 Explanation
               the Government Performance and Results Act (GPRA) measure, but below the 5-year means at the remaining
               lead times.
               NOAA’s Hurricane Forecast Improvement Program is a 5-year project that focuses on improving all hurricane
 Action
               forecast including better observing, better data assimilation, and better modeling.
   Measure     Winter storm warnings – Accuracy (%) (NOAA)
               Through the core of the winter season, a total of 8,670 winter storm events occurred (well above normal).
               The average lead time of 20 hours surpassed the GPRA goal of 15 hours by five hours (33%). For several historic
               storms in the Midwest and Northeast, NWS provided phenomenal lead times in excess of 24 hours and excellent
               decision support services. However, the nationwide accuracy fell short of the seasonal goal—88 percent vs.
 Explanation   90 percent. An analysis of the observed early season events indicated many storms in the central and southern
               states were difficult to forecast due to large areas of mixed precipitation types in areas not usually prone to early
               season winter weather. Winter storm forecasts and associated statistics did improve as expected during the
               latter half of the winter, but they could not overcome the early season misses and NWS did not read the GPRA
               goal for FY 2011.
               Continuous improvements in weather modeling and forecaster training have supported this upward trend for
 Action        most of NOAA’s weather GPRA measures. NOAA expects winter weather forecast to improve with these
               improvements.
   Measure     Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less)(%) (NOAA)
               This measure for aviation forecast is Instrument Flight Rules (IFR) conditions, one of two sets of regulations
               governing all aspects of civil aviation aircraft operations. FY 2011 performance was -1% below goal. In FY 2011,
 Explanation   convective weather systems affected the Continental United States, interspersed with large areas of high-
               pressure weather systems. The frequency of occurrence of IFR decreased, as did the frequency that IFR was
               forecast in most regions during and after June.
               Given the variability of all the performance factors, there exists an assumed statistical error of +-2 percent, which
               is larger than the change in performance. Forecasters are making the appropriate forecasts, in the appropriate
 Action
               proportion of predicted conditions, and are generally well within expected +/- 2 percent statistical error for the
               frequency of occurrence.




 134                                          F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 2




                                        Theme 2 Program Evaluations


The following program evaluations were conducted on programs related to this theme in FY 2011.

  Bureau        Reviewer                Name of Evaluation                       Date                     Web site
 CENSUS            GAO        2010 Census: Preliminary Lessons                 4/6/2011     http://www.gao.gov/new.items/
                              Learned Highlight the Need for Funda-                         d11496t.pdf
                              mental Reforms
 CENSUS            GAO        2010 Census: Data Collection Operations         12/14/2010    http://www.gao.gov/new.items/
                              Were Generally Completed as Planned,                          d11193.pdf
                              but Long-standing Challenges Suggest
                              Need for Fundamental Reforms
 CENSUS            GAO        2010 Census: Follow-up Should                   12/14/2010    http://www.gao.gov/new.items/
                              Reduce Coverage Errors, but Effects                           d11154.pdf
                              on Demographic Groups Need to Be
                              Determined
 CENSUS            GAO        2010 Census: Key Efforts to Include             12/14/2010    http://www.gao.gov/new.items/
                              Hard-to-Count Populations Went                                d1145.pdf
                              Generally as Planned; Improvements
                              Could Make the Efforts More Effective
                              for Next Census
 CENSUS            OIG        2010 Census: Cooperation Between                 4/8/2011     http://www.oig.doc.gov/
                              Partnership Staff and Local Census Office                     Pages/2010-Census-Cooperation-
                              Managers Challenged by Communication                          Between-Partnership-Staff-and-LCO-
                              and Coordination Problems                                     Managers-Challenged-by-Communication-
                                                                                            and-Coordination-Problems.aspx
 CENSUS            OIG        2010 Census: Contract Modifications             2/15/2011     http://www.oig.doc.gov/Pages/2010
                              and Award-Fee Actions on the Decennial                        CensusContractModificationsandAward-
                              Response Integration System (DRIS)                            FeeActionsontheDecennialResponse
                              Demonstrate Need for Improved                                 IntegrationSystem(DRIS)Demo.aspx
                              Contracting Practices
 CENSUS            OIG        2010 Census: Partner Support Program            11/18/2010    http://www.oig.doc.gov/Pages/2010
                              Lacked Adequate Controls for Monitoring                       CensusPartnerSupportProgramLacked
                              Purchases and Ensuring Compliance                             AdequateControlsforMonitoring
                                                                                            PurchasesandEnsuringCompliance
                                                                                            OI.aspx




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                135
Performance Section • Theme 2




 136                      F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
         Theme 3
E nvironmental S tewardship
                                                                                            targets met
               T heme , S trategic G oal , and O bjectives                                  or exceeded
THEME 3: ENVIRONMENTAL STEWARDSHIP
Strategic Goal: Promote economically-sound environmental stewardship and science

Objective 16    Support climate adaption and mitigation (NOAA)                                 3 of 4

Objective 17    Develop sustainable and resilient fisheries, habitats, and species (NOAA)      3 of 5

Objective 18    Support coastal communities that are environmentally and economically
                                                                                               5 of 7
                sustainable (NOAA)
                                                                                                                    Performance Section • Theme 3




                                      Theme 3:                   ENVIRONMENTAL S TEWARD S HI P


Strategic Goal: Promote economically-sound environmental stewardship and science
                           E N V I R O N M E N TA L S T E WA R D S H I P TOTA L R E S O U R C E S
                         E N V I R O N M E N TA L S T E WA R D S H I P TOTA L R E S O U R C E S
                                        Funding Levels                                                                                      FTE1 Resources
                                     Funding   Levels
                                      (Dollars in Millions)                                                                                FTE1 Resources
                                  (Dollars$2,479.4
                                           in Millions)                                                                                            5,169               5,260             5,2602
                                        $2,479.4           $2,249.3                                                                               5,169               5,260              5,2602
                          $1,880.4                      $2,249.3        $1,939.7
            $1,761.0
                       $1,880.4                                       $1,939.7
        $1,761.0




                                                                                                         N/A                N/A
                                                                                                        N/A
                                                                                                         2007              N/A
                                                                                                                            2008                   2009                2010              2011
            2007           2008             2009            2010         2011                          2007               2008                  2009 Year
                                                                                                                                              Fiscal                  2010               2011
         2007           2008              2009 Year
                                         Fiscal           2010         2011                                                                  Fiscal Year
                                                                                           1
                                                                                               FTE—Full-Time Equivalent                              2
                                                                                                                                                           Estimate
                                      Fiscal Year                                     1
                                                                                          FTE—Full-Time Equivalent                                    2
                                                                                                                                                          Estimate




 T 
           his theme contains one strategic goal and within                                           E N V I R O N M E N TA L S T E WA R D S H I P
           that strategic goal, three objectives, all of which are                                   ENVIP  R EORNF M
                                                                                                                    OREN
                                                                                                                       MTA
                                                                                                                         A NLC SE TRE EWA
                                                                                                                                       S URLT
                                                                                                                                            DSS H I P
           associated with the National Oceanic and Atmospheric                                            P E R F O R M A N C E R E S U LT S
                                                                                                                     20
Administration (NOAA). The following public benefits, achieve-                                                      20
                                                                                                 Reported Results
                                                                                                        Results




ments, and performance results are associated with each                                                              15
                                                                                                          of of




                                                                                                                    15
objective.
                                                                                                    Number




                                                                                                                     10
                                                                                                  Number




                                                                                                                    10
                                                                                               Reported




                                                                                                                       5
                                                                                                                     5
                                                                                                                       0
                                                                                                                     0 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                         2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                 Exceeded                             1       1      1         3       3        3    1             2
                                                                                                Exceeded
                                                                                                 Met                              1          11     13        36      39       38    1
                                                                                                                                                                                    13       9    29
                                                                                                Met
                                                                                                  Slightly Below                             1      3         6       9        81   13      91    91
                                                                                                 Slightly Below
                                                                                                   Improved                                   1                                1            1     1
                                                                                                 Improved
                                                                                                   Not Met                    1        3     11      1         3       2       2            4     4
                                                                                                 Not Met                  1        3         1      1         3       2        2            4     4
                                                                                           See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                      See Appendix A: Performance and Resource Tables for individual reported results.




F Y   2 0 1 1      P E R F O R M A N C E           A N D      A C C O U N T A B I L I T Y             R E P O R T
                                                                                                                                                                                                  139
Performance Section • Theme 3




                                                       Objective 16

                                     Support climate adaption and mitigation (NOAA)


                                                        Public Benefits



 T     he Nation has an urgent need to advance U.S. understanding of the climate system and climate impacts so as to improve
       climate predictions and projections and to better inform adaptation and mitigation strategies. Key scientific uncertainties limit
scientists’ ability to understand and predict changes in the climate system. International, national, state, and local efforts to limit
greenhouse gases require reliable information to support emissions verification, as do efforts to track climate changes and mitigate
impacts. Adaptation and mitigation strategies must also be informed by a solid scientific understanding of the climate system.

Society exists in a highly variable climate system, with conditions changing over the span of seasons, years, decades, and centuries.
Given such stresses as population growth, drought, and increasing demand for freshwater, it is essential for NOAA to provide reliable
observations, forecasts, and assessments of climate, water, and ecosystems to enhance decisionmakers’ ability to minimize climate
risks. This information supports decisions regarding community planning, business management, and natural resource and water
planning.

Climate-related changes projected for the future include the following:

●● increased global temperatures;

●● melting sea ice and glaciers;

●● rising sea levels;

●● increased frequency of extreme precipitation events;

●● acidification of the oceans;

●● modifications of growing seasons;

●● changes in storm frequency and intensity;

●● alterations in species’ ranges and migration patterns;

●● earlier snowmelt;

●● increased drought; and

●● altered river flow volumes.


The impacts of these changes are regionally diverse and affect numerous sectors, including water, energy, transportation, forestry,
tourism, fisheries, agriculture, and human health. These changes have profound implications for society, underscoring the need for
scientific information to aid decisionmakers in developing and evaluating options for mitigating the human causes of climate change
and adapting to foreseeable climate impacts.




  140                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 3




In FY 2011, NOAA continued its efforts to obtain the best science through the U.S. Global Change Research Program (USGCRP,
formerly the Climate Change Science Program) and NOAA Climate Program. NOAA accomplished this through its continuing role as
lead agency of the interagency USGCRP. In addition, NOAA increased the production of climate information and services for decisions,
including completion of the USGCRP Synthesis and Assessment Reports, and implementation of the National Integrated Drought
Information System (NIDIS).



Achievements

America’s Climate Choices Releases Final Report

A National Research Council committee report warned that the risk of dangerous climate change impacts is growing with every ton
of greenhouse gases emitted into the atmosphere, and reiterated the pressing need for substantial action to limit the magnitude of
climate change and to prepare to adapt to its impacts. The National Research Council’s new report, the final volume in America’s
Climate Choices, a series of studies requested by Congress and supported by NOAA, analyzed the Nation’s options for responding
to the risks posed by climate change. The report emphasized that the country needs a coordinated national response to climate
change, and should be guided by an iterative, risk management framework in which actions taken can be revised as new knowledge
is gained. The report committee included renowned scientists and engineers, economists, business leaders, an ex-governor, a former
congressman, and other policy experts.

Forecasting Drought in the South Central United States

NOAA and its partners throughout the South Central U.S. region continue to monitor drought conditions and release outlooks, aiming
to provide enough lead time to people whose lives and livelihoods may be vulnerable to drought impacts. The advance notice allowed
state fire managers in Texas and the surrounding states enough time to assess their fire risk, assets, and resources during one of the
driest winter and spring seasons on record. Texas experienced what may have been its worst fire season in history this past year.
As the extreme drought continued through 2011, NOAA weather and climate experts collaborated with the Department of the Interior
(DOI) and other stakeholders in the South Central U.S. region to prepare an updated drought outlook. The resulting forecast found
that given current drought conditions, the expected above-normal temperatures, and the precipitation outlook, there is less than five
percent chance that drought conditions will end between July and September.

NOAA Joins International Effort to Track Black Carbon in the Arctic

In April and May 2011, six nations participated in the Coordinated Investigation of Climate-Cryosphere Interactions project, a study that
looks at the potential role of black carbon, or soot, on the rapidly changing Arctic climate. NOAA used two small unmanned aircraft the
size of a large suitcase outfitted with sensors to sample the air. Other participants included scientists from Norway, Russia, Germany,
Italy, and China. The goal of the project was to coordinate more than a dozen research activities so that they can provide, for the first
time, a vertical profile of black carbon’s movement through the atmosphere, its deposition on snow and ice surfaces, and its effect on
warming in the Arctic.

New NOAA Buoy to Help Close Gap in Climate Understanding South of Africa

To better understand the effects of the ocean on global climate and weather, scientists from NOAA’s Pacific Marine Environmental
Laboratory (PMEL) (http://www.pmel.noaa.gov/) deployed an Ocean Climate Station mooring (http://www.pmel.noaa.gov/ocs/
ARC/)—an anchored buoy—on the edge of the warm Agulhas Return Current (ARC) southeast of South Africa in December 2011.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   141
Performance Section • Theme 3




The buoy, which is part of NOAA’s climate observation and monitoring efforts, is one of only two deep ocean climate buoys positioned
below the Tropic of Capricorn; the other is located south of Australia. With this mooring, scientists will be able to measure how this
powerful current warms the atmosphere and some of the effects it has on the local meteorology and climate.

Arctic Report Card: Region Continues to Warm at Unprecedented Rate

In 2006, NOAA’s Climate Program Office introduced the annual Arctic Report Card, which established a baseline of conditions at the
beginning of the 21st century to monitor the quickly changing conditions in the Arctic. This year’s report—released on October 21,
2010 and prepared by a team of 69 international scientists—found that the Arctic region continues to heat up, affecting local popula-
tions and ecosystems as well as weather patterns in the most populated parts of the Northern Hemisphere. Greenland is experiencing
record-setting high temperatures, ice melt, and glacier area loss. Summer sea ice continues to decline—the 2009 – 2010 summer sea
ice cover extent was the third lowest since satellite monitoring began in 1979—and sea ice thickness continues to thin. Arctic snow
cover duration was also at a record minimum since recordkeeping began in 1966.

New Guide to Help Natural Resource Managers Make Climate-Smart Conservation Decisions

On January 19, 2011, an expert working group consisting of leading scientists from federal agencies (including NOAA), state agencies,
non-profit organizations, and universities, produced Scanning the Conservation Horizon: A Guide to Climate Change Vulnerability
Assessment. This guide offers conservationists and resource managers a way to understand the impact of climate change on species
and ecosystems, and supports efforts to safeguard these valuable natural resources. The peer-reviewed guide helps conservation
professionals and natural resource managers craft effective strategies to prepare for and cope with the effects of rapid climate change
on the Nation’s fish, wildlife, and natural habitats—and the communities and economies that depend on them.

NOAA Establishes Supercomputing Center in West Virginia

On March 9, 2011, NOAA Administrator Jane Lubchenco announced a $27.6 million American Reinvestment and Recovery Act of 2009
(ARRA) investment to build a new state-of-the-art supercomputer center in Fairmont, WV, housed by the NOAA Environmental Security
Computing Center. The center is geared to develop and improve the accuracy of global and regional climate and weather model predic-
tions, giving NOAA a powerful new tool in climate and weather modeling and service delivery.


                                           S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                         Performance Measure (NOAA)                                      Target              Actual               Status
 U.S. temperature forecasts (cumulative skill score computed over the
                                                                                           21                   22                   Met
 regions where predictions are made)
 Uncertainty in the magnitude of the North American (NA) carbon uptake               0.45 GtC/year        0.45 GtC/year              Met

 Error in global measurement of sea surface temperature                                  0.50ºC               0.51ºC            Slightly Below

 Number of regionally focused climate impacts and adaptation studies                      41                   41
 communicated to decisionmakers                                                      assessments/         assessments/               Met
                                                                                      evaluations          evaluations




 142                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                    Performance Section • Theme 3




FY 2011 Status

NOAA met three of the four targets for this objective.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Error in global measurement of sea surface temperature (NOAA)
                   The performance target was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                   There was no effect on the overall program or activity performance.
                   Overall the program is successful but is working to improve buoy deployment to improve data quality and meet
 Action
                   future targets.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           143
Performance Section • Theme 3




                                                       Objective 17

                      Develop sustainable and resilient fisheries, habitats, and species (NOAA)


                                                        Public Benefits



 O      cean and coastal ecosystems provide many extremely visible human benefits—they provide nourishment, they provide
        recreational opportunities, and they support economies. Yet ocean and coastal resources are already stressed by human
uses and habitat changes resulting in depleted fish and shellfish stocks; increased numbers of species at-risk; and declining
marine, coastal, and Great Lakes biodiversity. Since humans are an integral part of the ecosystem, these declines in ocean and
coastal ecosystem functions and quality can directly impact human health and well being. As long-term environmental, climate,
and population trends continue, global demands for seafood, recreational use of the marine environment, and other pressures on
habitats and over-exploited species will increase, and concerns about the sustainability of ecosystems and safety of seafood will
rise commensurately. Depleted fish stocks and declines in iconic species such as killer whales, salmon, and sea turtles result in
lost opportunities for employment, economic growth, and recreation along the coasts. In addition, climate change impacts to the
ocean—sea level rise, acidification, and warming—will alter habitats and the relative abundance and distribution of species as well
as the productivity of coastal and marine ecosystems, affecting recreational, economic, and conservation activities.

NOAA will ensure that U.S. ocean, estuarine, and related ecosystems and the species that inhabit these ecosystems are vibrant and
sustainable in the face of these challenges. A stronger understanding of these systems will support an ecosystem-based approach to
management. These approaches account for the complex connections between organisms (including humans); their physical, biotic,
cultural, and economic environments; and the wide range of processes that control their dynamics, and can assist policymakers weigh
trade-offs between alternative courses of action. By working toward the long-term sustainability of all species, NOAA will also ensure,
for present and future generations, that seafood is a safe, reliable, and affordable food source; that seafood harvest and production,
recreational fishing opportunities, and non-consumptive uses of living marine resources continue to support vibrant coastal commu-
nities and economies; and that species of cultural and economic value can flourish. Restoration of natural habitat for compromised
species requires a substantial amount of time. The levels of native species also can be affected by the inadvertent introduction of
invasive species, often through the shipping industry or through direct human release of such species. NOAA defines them as “aquatic
and terrestrial organisms and plants that have been introduced into new ecosystems (i.e., Great Lakes, San Francisco Bay, Florida,
Hawaii) throughout the United States and the world and are both harming the natural resources in these ecosystems and threatening
the human use of these resources.” Examples of recent invasive species include zebra mussels and snakeheads.



Achievements

Steady Progress Toward Rebuilding the Nation’s Fisheries

In FY 2011, NOAA made significant progress toward ending overfishing and rebuilding overfished stocks. In July 2011, NOAA released
the 14th annual report to Congress on the status of the Nation’s fisheries that showed three additional formerly overfished stocks
rebuilt to healthy levels, bringing the total rebuilt since 2000 to 21. As of December 31, 2010, NOAA had put in place annual catch
limits or other management measures for all stocks subject to overfishing as mandated by the Magnuson-Stevens Act, with NOAA
being on track to have annual catch limits in place for all remaining stocks by the end of 2011. During FY 2011, NOAA established
required annual catch limits in 20 Fishery Management Plans (FMP), including key groundfish fisheries in Alaska, the mid-Atlantic, and




 144                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 3




on the Pacific Coast, crab and scallop fisheries in Alaska, and all the FMPs in the Western Pacific. As of September 30, 2011, 25 FMPs
had all required catch limits in place.

All Federal Waters of the Gulf Once Closed to Fishing Due to Spill Now Open

On April 19, 2011, NOAA reopened 1,041 square miles of Gulf waters immediately surrounding the Deepwater Horizon wellhead, just
east of Louisiana, to commercial and recreational fishing. This completed the reopening of all federal waters formerly closed to fishing
due to the Deepwater Horizon oil spill. Sensory analysis found no detectable oil or dispersant odors or flavors, and chemical analysis
for oil-related compounds and dispersants, conducted in part with a brand new method developed by NOAA to measure dispersants in
seafood, were well below the levels of concern. The reopening followed consultation with the U.S. Food and Drug Administration.

NOAA continues to be involved in numerous activities following the reopening. Staff are engaged in both assessment studies and
development of restoration activities under the Natural Resources Damage Assessment (NRDA) umbrella. NOAA is assessing damage
to turtles, marine mammals, fish, and other trust resources. NOAA is the lead agency/Trustee for the development of the Deepwater
Horizon Programmatic Environmental Impact Statement (PEIS), which will provide a framework to guide the decision-making of the
Trustee Council, as well as provide transparency to the public and policymakers about the NRDA process. While the PEIS is being
developed, NOAA has led the co-Trustees in the development of emergency restoration projects for submission to BP for funding, and
is providing guidance and counsel to the Trustees to execute the $1 billion framework agreement for early restoration.

NOAA Stimulates the Economy and Restores Habitat through the Implementation of the ARRA Habitat
Restoration Projects

In FY 2011, NOAA completed construction for 76 percent of the 50 habitat restoration projects supported through ARRA.
NOAA restored 10,318 habitat acres with ARRA funds in FY 2011, for a total of 12,142 acres since FY 2009, exceeding the total
cumulative projected target of 8,770 acres to be restored with ARRA funds. These projects will improve habitat conditions for living
marine resources, including threatened and endangered species, and will also help the economies of coastal communities.

Fisheries Benefit from Catch Share Programs

Final figures for Fishing Year 2010 of the Northeast groundfish fishery (May 1, 2010 – April 30, 2011), the first for the expanded sector
program, show total gross revenues from all species caught by commercial groundfish vessels increased 24 percent from 2009.
While total groundfish landings decreased by 17 percent, total groundfish revenues decreased by only two percent (likely due to higher
groundfish prices). This is also the first year the Northeast groundfish fleet fished under comprehensive catch limits for the 20 stocks
that account for both kept and discarded groundfish species; none of the new fishing sectors exceeded their annual catch allocations
for groundfish stocks. Whereas the implementation of this complex program was an enormous undertaking for NOAA, its apparent
success demonstrates the value of catch share programs.

Actions Taken to Combat Illegal, Unreported, and Unregulated Fishing and Bycatch of Protected
Living Marine Resources

In October 2010, a federal rule went into effect that allows NOAA to deny a vessel entry into a U.S. port or access to port services if
that vessel has been listed for engaging in illegal, unreported, and unregulated (IUU) fishing by a regional fishery management organi-
zation. The rule also prohibits persons and businesses from providing certain services to, and engaging in commercial transactions
with, listed foreign IUU vessels. Annual global economic losses due to IUU fishing are estimated to be as high as $23 billion. In the
2010 Report to Congress, China, France, Italy, Libya, Panama, and Tunisia had been identified as having IUU fishing issues. The 2011




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   145
Performance Section • Theme 3




Report concluded that all six countries had taken corrective action, but that Colombia, Ecuador, Italy, Panama, Portugal, and Venezuela
were identified as having new IUU fishing issues. The United States also joined more than 50 countries in July to recommend that tuna
regional fishery management organizations better track vessels engaged in IUU fishing for tunas, swordfish, sharks, and other highly
migratory species. Delegates also recommended a set of decision-making principles designed to ensure all management measures
are consistent with scientific advice.

Weak Hooks Used to Protect Non-Target Tuna and Whales

In May 2011, NOAA implemented a requirement for pelagic longline vessels in the Gulf of Mexico to use “weak hooks” designed to
release spawning bluefin tuna while retaining the target yellowfin tuna and swordfish. Bluefin tuna is a newly-designated species of
concern under the Endangered Species Act due to concerns regarding their depleted stock levels, and potential impacts of the Deep
Water Horizon oil spill on their only known spawning grounds in the Western Atlantic. NOAA scientists worked with fishermen over
three years to design and test weak hooks as a way of reducing bluefin tuna bycatch. To assist fishermen with the transition to these
new, improved hooks, NOAA worked in cooperation with the National Fish and Wildlife Foundation to develop a voucher program
whereby fishermen would be reimbursed by the foundation for the initial cost of purchasing the new hooks. NOAA also conducted a
field study to determine the commercial viability of using weak hooks in the Hawaii deep-set longline fishery for bigeye tuna to reduce
bycatch of false killer whales. The study showed that catch rates of bigeye tuna were maintained using hooks that can potentially be
straightened by false killer whales, allowing them to escape. The study may provide the basis for a conservation measure now under
consideration to reduce take in the Hawaii longline fishery.

NOAA Implements Improved Recreational Catch Estimates

In FY 2011, NOAA delivered a new, independently-reviewed, design-unbiased survey methodology that will improve the accuracy of
recreational catch estimates. The new approach addresses one of the major recommendations in the National Research Council’s
Review of Recreational Fisheries Survey Methods. NOAA staff coordinated with councils, commissions, and constituents to roll out
this major improvement to recreational fishing statistics, which is a milestone in meeting the data needs of NOAA’s management
partners as well as addressing issues of public confidence in NOAA data. The new recreational catch estimation method will be used
to produce the 2011 estimates and to revise historical estimates. In addition, NOAA met the Magnuson-Stevens Act January 1, 2011
deadline for the implementation of the registration renewal and fee acceptance functionality for the Marine Recreational Information
Program National Saltwater Angler Registry, including full integration with Pay.gov.

Complete Roll-out of Final NOAA National Aquaculture Policy

On June 9, 2011, the Department and NOAA issued complementary policies that together provide a national approach for supporting
and enabling sustainable domestic marine aquaculture. NOAA’s vision for sustainable seafood includes aquaculture as a complement
to wild-caught fisheries in meeting demand for seafood. NOAA’s policy will enable the development of sustainable marine aquaculture
within the context of NOAA’s stewardship missions and broader social and economic goals. The intent of the policy is to guide NOAA’s
aquaculture activities and to provide a national approach for supporting sustainable commercial production, expanding restoration
aquaculture, and researching and developing new technologies. The policy provides overarching guidance and context for domestic
aquaculture to contribute to the U.S. seafood supply, promote job creation, support coastal communities and important commercial
and recreational fisheries, and help restore habitat and endangered species. Initiatives announced with the release of the final policies
included: a national shellfish initiative; a job creation, technology transfer, and innovation initiative; and implementation of the Gulf of
Mexico Fishery Management Plan for aquaculture.




  146                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 3




                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.


                          Performance Measure (NOAA)                                         Target      Actual          Status
 Fish stock sustainability index (FSSI)                                                       586          587             Met

 Percentage of fish stocks with adequate population assessments and                           60.4%       55.7%
                                                                                                                          Not Met
 forecasts                                                                                  (139/230)   (128/230)
 Number of protected species with adequate population assessments and                        18.6%       17.6%
                                                                                                                          Not Met
 forecasts                                                                                  (73/392)    (69/392)
 Number of protected species designated as threatened, endangered, or
                                                                                               28          29              Met
 depleted with stable or increasing population levels
 Number of habitat acres restored (annual)                                                   8,888       15,420          Exceeded




FY 2011 Status

NOAA met three of the five targets under this objective.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Percentage of fish stocks with adequate population assessments and forecasts (NOAA)
                   The target for this measure was missed by 11 assessments. The completion of five assessments targeted for
                   FY 2011 fourth quarter was delayed until FY 2012 first quarter, due mainly to a backlog resulting from the heavy
 Explanation       workload for the statutorily mandated development of Annual Catch Limits, as well as funding delays in FY 2011.
                   Six assessments did not meet the targeted standard of adequacy for reasons specific to each stock, generally
                   due to an overall increase in expectations for what is needed to achieve adequacy.
                   The five delayed assessments will be completed in FY 2012 first quarter. NOAA will attempt to achieve adequacy
 Action            in FY 2012 on three of the six assessments that did not reach it in 2011, and one is scheduled for reassessment
                   in 2014. The other two are not currently on the assessment schedule.
   Measure         Percentage of protected species with adequate population assessments and forecasts (NOAA)
                   The target for this measure was missed by four assessments. Two assessments of shortnose sturgeon in
                   the Southeast were delayed until FY 2012 because the funds were not received in time for the contractor
 Explanation
                   to complete the work in FY 2011. Two assessments for corals in the Southeast were cancelled due to an
                   unexpected decrease in FY 2011 funding.
                   The two sturgeon assessments will be completed in FY 2012. The two coral assessments depend on available
 Action
                   funding and may be rescheduled once the FY 2012 appropriation is determined.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 147
Performance Section • Theme 3




                                                        Objective 18

         Support coastal communities that are environmentally and economically sustainable (NOAA)


                                                         Public Benefits



 C      oastal areas are among the most developed in the Nation, with over half the population living on less than one-fifth of the land
        in the contiguous United States. At over 230 persons per square mile, the population density of the near shore is three times
that of the Nation as a whole. The portion of the U.S. economy that depends directly on the ocean is also large, with 2.2 million
people employed and over $197 billion in value added to the national economy in 2000. Approximately 89 million people vacation
and recreate along U.S. coasts every year. The amount added annually to the national economy by the commercial and recreational
fishing industry alone is over $43 billion with an additional $1 billion of marine and freshwater aquaculture sales. With its Exclusive
Economic Zone of 3.4 million square miles, the United States manages the largest marine territory of any nation in the world. While
an increasing range of uses will allow coastal communities to create diverse ocean-based economies, care must be taken to ensure
continued access to coastal areas, sustained ecosystems, maintained cultural heritage, and limited cumulative impacts.

No single region better exemplifies the complex interdependence of communities and changing climate and ecosystem conditions than
the Arctic. There is evidence of widespread, dramatic change in the Arctic region, with local to global implications. National security
concerns are increasing as reductions in sea-ice bring opportunities for economic development and increased access to Arctic
resources. The breadth and complexity of the cultural, societal, economic, and environmental impacts within this region require a
concerted, systematic, and rapid effort with partners from local to international levels.

Within this context, NOAA works with its partners to achieve a balance between the use and protection of these resources to ensure
their sustainability, health, and vitality for the benefit of this and future generations and their optimal contribution to the Nation’s
economy and society. A coastal and marine spatial planning framework is a comprehensive management approach that is designed to
support sustainable uses and ensure healthy and resilient ocean and coastal ecosystems. In some areas, NOAA and its partners collab-
oratively protect and manage critical coastal and ocean ecosystems.

NOAA will invigorate coastal communities and economies, and lead to increased resiliency and productivity. Comprehensive planning
will address competing uses to protect coastal communities and resources from the impacts of hazards and land-based pollution on
vulnerable ecosystems, as well as to improve water quality and foster integrated management for sustainable uses. Geospatial services
will support communities, navigation, and economic efficiency with accurate, useful characterizations; charts and maps; assessments;
tools; and methods. Coastal decisionmakers will have the capacity to adaptively manage coastal communities and ecosystems with
best available natural and social science. Enabling this goal are strong collaborative partnerships with regional, state, and local private
and public entities that have responsibilities and interests in managing coastal communities and ecosystems. Close collaboration across
goals will ensure success in meeting NOAA’s strategic priorities.

NOAA’s Marine Transportation System (MTS) spans ports and inland waterways across U.S. coastal waters and oceans to support
commerce, recreation, and national security. MTS supports the Nation’s economy, with more than 77 percent by weight and 95 percent
by volume of U.S. overseas trade carried by ship. By 2020, the value of domestic maritime freight is forecasted to nearly double.
MTS is increasingly vulnerable to natural and human-caused disruptions, potentially impacting the viability of the economy. Increased
maritime activity can stress sensitive marine and freshwater environments and increase the risk of maritime accidents. Improving the
reliability and resilience of MTS will decrease risks to the economy and the environment.




 148                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 3




Achievements

NOAA Helps Exporters Load More Cargo and Ensures Safe Navigation across the Nation

Accurate depth information can make millions of dollars of difference to shippers taking U.S. exports to overseas markets, especially as
the Nation attempts to double exports by 2015. With underwater keel clearances of less than 12 inches in some places and overhead
bridge clearances just as tight, captains rely on NOAA’s navigational data to determine how much cargo they can load on a particular
vessel. NOAA worked with maritime communities in South Carolina and California to survey approaches and update nautical charts to
provide the most precise information to commercial mariners. NOAA’s navigation managers and navigation response teams worked
with the Charleston Pilots Association, who had voiced concerns about shoaling that may interfere with traffic approaching the port
terminal. NOAA also worked with the U.S. Army Corps of Engineers and U.S. Coast Guard to update navigational charts to reflect
depth changes in the Ports of Los Angeles and Long Beach. NOAA’s navigation response teams investigated a series of potential
threats to navigation in order to maintain safety and efficiency of the Nation’s maritime transportation system. One team searched for
a sunken vessel and investigated reports of shoaling and other depth changes causing problems for ships in the inter-coastal waterway
and the approach to Panama City, FL. At the request of the San Francisco Bar Pilot Association, another team investigated a variety
of navigation issues and surveyed anchorage areas where munitions were once (but are no longer) offloaded, so the restrictions can
be removed from NOAA nautical charts. Elsewhere, teams surveyed priority areas in Narragansett Bay, MA; King’s Bay, FL; and Puget
Sound, WA. A team also continued to survey in support of Lake Huron’s Thunder Bay National Marine Sanctuary.

Hydrographic Surveys Address Backlog in Continental Unites States and Alaska

Ocean transportation contributes more than $742 billion to the national economy and provides employment for more than 13 million
people. NOAA’s nautical charting services provide updated information that ports and shippers use to increase both efficiency and
safety. The United States has nearly 3.5 million square nautical miles of coastal waters U.S. Exclusive Economic Zone. NOAA’s Office
of Coast Survey began its 177th hydrographic survey season making progress towards addressing the survey backlog with updated
hydrographic surveys of critical areas of the continental United States and Alaska. NOAA ships THOMAS JEFFERSON, FAIRWEATHER,
and RAINIER surveyed more than 2,400 square nautical miles of coastal waters. NOAA works throughout the year with pilots, port
authorities, the U.S. Coast Guard, researchers, and others when setting priorities for its annual survey schedule. The Virginia Pilots
Association recently noted that the timing of NOAA’s upcoming surveys in southern Chesapeake Bay is especially opportune because
Operation Sail 2012 Virginia, a tall ship celebration, could generate more than $150 million for the state in related and visitor spending.

NOAA Increases Great Lakes Marine Forecasting Capability

NOAA significantly extended its Great Lakes forecasting of marine conditions, almost doubling its current 36-hour forecast capability
to 60 hours. The improvement adds vital information to the Great Lakes Operational Forecast System, which provides forecasts of
water levels, three-dimensional water temperature, and currents for the five Great Lakes every six hours. This output, combined with
wind and wave forecasts provided by the National Centers for Environmental Prediction (NCEP), provides users a complete forecast
package of important lake parameters. Users access the information via an interactive map offered online by NOAA’s Center for Opera-
tional Oceanographic Products and Services (CO-OPS) and from the Office of Coast Survey’s nowCOAST. This forecast improvement
is possible thanks to a collaborative effort between CO-OPS, Office of Coast Survey, NCEP, the Great Lakes Environmental Research
Laboratory, and Ohio State University.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     149
Performance Section • Theme 3




New Storm Surge Monitoring Network in Mobile County, AL

In summer 2011, NOAA completed the first three water level stations in the Mobile Bay Storm Surge Monitoring Network in Alabama.
This accomplishment involved CO-OPS’s first operational installation of microwave radar water level sensors, a new technology in
which CO-OPS has invested significant effort over the last three years with tests and evaluation. The main objective of the project is
to install a state-of-the-art water level network consisting of five new strategically located stations to provide real-time storm surge data
to Mobile County’s emergency managers, Weather Forecast Office, and others. The motivation is to provide better spatial coverage of
water level observations throughout Alabama’s complicated and flood prone coasts. Data will be extremely valuable to support local
storm surge warning and related decision-making, as well as to continue development of new and improved storm surge forecast
models. To ensure sustainability of the systems, measurement equipment is located high enough above the water to survive category
5 storm surge levels (22-25 feet above mean sea level). NOAA recently completed the first three stations, and will install the remaining
two stations in August and September.

Harmful Algal Bloom Forecasts, Research, and Response

The National Ocean Service’s National Centers for Coastal Ocean Science (NCCOS) issued experimental harmful algal bloom forecasts
bulletins for western Lake Erie. The region-specific software generates bulletins that are delivered to coastal resource managers; water
treatment facilities; local, state, and federal public health officials; and academic and research institutions to initiate in situ sampling
and bloom confirmation, and collect public health impact data. In the northeast, scientists from NCCOS’s Gulf of Maine Toxicity
project issued an outlook for a moderate regional bloom of toxic algae. In 2010, a forecast led to early monitoring of shellfish beds in
Maine that forced closure of portions of Casco Bay, potentially avoiding human illness. Information between users and scientists have
produced and transferred NOAA technologies to mitigate the socioeconomic impacts of harmful algal blooms on coastal communities.
These include phone applications for volunteers at over 200 monitoring sites, toxin detection methods promoting international trade,
autonomous underwater biosensors for early warning systems, hand-held sensors for health assessments, and event response and
non-invasive methods to measure toxins in humans and wildlife.

NOAA’s Office of Response and Restoration Continues to be the U.S. Scientific Resource for Oil Spills

NOAA’s Office of Response and Restoration (OR&R) is the leading U.S. scientific resource for oil spills, with mandates to provide
scientific support during responses and to conduct the Natural Resource Damage Assessment (NRDA). OR&R’s input is vital to
science-based decision-making in Gulf communities in the wake of the Deepwater Horizon oil spill. OR&R had Scientific Support
Coordinators on-scene throughout the incident who funneled scientific, technical, and environmental expertise from OR&R’s modelers,
chemists, biologists, and oceanographers to the response. OR&R oversees the Shoreline Cleanup and Assessment Technique (SCAT)
effort which is now the most visible component of the Deepwater response. Due to the size of the Deepwater Horizon release
and the large potential for injury, NRDA field efforts have far surpassed any other for a single oil release. By early June 2011, the
trustees had approved over 115 study plans and collected more than 36,000 water, tissue, sediment, soil, tarball, and oil samples.
More than 90 oceanic cruises have been conducted for NRDA with many more scheduled for the fall of 2011. NRDA will identify
the extent of injuries to resources, the best methods for restoring those resources, and the type and amount of restoration required.
OR&R also provides scientific input and review on high-level reports and assessments, e.g., Operational Science Advisory Team,
Federal On-Scene Commander report, Incident Specific Preparedness Review, Presidential Commission, Report to the President by
the National Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling, National Response Team after Action Report.
OR&R is also providing on-site scientific support for the Silvertip Pipeline spill in the Yellowstone River, and has been at the forefront
of coordinating federal partnerships to address marine debris created by the devastating March 2011 Japan tsunami. OR&R is using
supplemental funding from Congress to address targeted science-based issues including:




  150                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 3




●● Improvement of algorithms and models showing subsurface blowout dynamics and transport mechanisms in three dimensions;

●● Assessment of dispersed oil (both surface and subsurface) data and development of national research and development priorities
   for dispersants in marine environments; and

●● Use of new oil budget algorithms in real-time fate models for better and quicker oil budget estimates during continuous release
   scenarios.

NOAA Disaster Response Center Set to Open in 2012

The lessons learned from natural disasters over the past decade, such as the Deepwater Horizon spill and Hurricane Katrina, have
shown that effective application of federal capabilities requires keen awareness and operational understanding of key products and
services at every level of government. Delivering and applying these products and services requires highly trained staff and effective
support resources, which highlights the importance of the new NOAA Disaster Response Center currently nearing completion in
Mobile, AL. The center’s mission to efficiently apply NOAA’s capabilities to the unique circumstances of the Gulf of Mexico will
improve the Agency’s preparedness and response posture in a region known to be vulnerable to extreme events.

NOAA’s National Geodetic Survey Deploys to Flood and Storm-Ravaged Areas

Over the past year, the National Geodetic Survey (NGS) has provided vital emergency response imagery to flood and storm-ravaged
areas. In April 2011, the Remote Sensing Division of NGS and NOAA’s Office of Marine and Aviation Operations (OMAO) deployed to
North Dakota to collect aerial imagery of areas affected by the Red River flooding. With more than 30 hours of flight time, imagery data
were collected in coordination with NOAA’s North Central River Forecast Center to validate their flood models. Later in April, and in
early May, NGS and OMAO deployed to the Birmingham and Tuscaloosa, AL areas for aerial mapping of the long swath of catastrophic
tornado damage in the southeast. Later in May, NGS again deployed, this time to Joplin, MO, to collect disaster response imagery of
the catastrophic tornado damage that took place in that area, collecting nearly 1,500 images. NWS, OMAO, and the National Ocean
Service conducted and coordinated these interagency projects along with the U.S. Army Corps of Engineers, the Federal Emergency
Management Agency (FEMA), State of Alabama authorities, and others. NGS is ready to collect new imagery for hurricane damage
assessment should the need arise. All imagery data were processed immediately following the flights and are available for public view
on the NGS Web site www.ngs.noaa.gov.

Gulf of Mexico at a Glance: A Second Glance

On August 2, 2011, the National Ocean Service released a new publication, The Gulf of Mexico at a Glance: A Second Glance.
This publication provides coastal managers, planners, policy officials, and others with a reference to support regional decision-making
and communications about the importance of healthy Gulf coastal ecosystems to a robust national economy, a safe population, and a
high quality of life for residents. The report helps to better define the regional context in which NOAA and other state, local, and federal
partners work through the Gulf of Mexico Alliance to better manage the Gulf’s coastal natural resources. The report contributes to the
implementation of the National Ocean Policy, and serves as a valuable reference to NOAA and its partners working to advance regional
ocean governance through the Gulf of Mexico Alliance, and regional restoration through the Gulf Coast Ecosystem Restoration Task
Force. This report is an update to the original Gulf of Mexico at a Glance report, published in June 2008. This update was produced in
partnership with the U.S. Census Bureau and the U.S. Environmental Protection Agency Gulf of Mexico Program.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      151
Performance Section • Theme 3




NOAA’s Role in Developing a National Fish, Wildlife and Plants Climate Adaptation Strategy

In FY 2011, NOAA, DOI’s Fish and Wildlife Service, and the State of New York (on behalf of the States) initiated the development
of a National Fish, Wildlife, and Plant Climate Adaptation Strategy. The goal of the strategy is to provide a nationwide unified
approach—reflecting shared principles and science-based practices—to safeguard the Nation’s biodiversity, ecosystem functions,
and sustainable human uses of fish, wildlife, and plants in a changing climate. Congress called for development of the strategy by
DOI in an FY 2010 appropriations conference report, and DOI subsequently invited NOAA to co-lead the effort. NOAA responsibilities
include: co-chairing the intergovernmental Steering Committee that will oversee development of the strategy, providing direction and
expertise on the Management team for the effort, and providing leadership and expertise on Technical teams. The interagency, inter-
governmental Steering Committee officially kicked off the effort in January 2011, and five ecosystem-focused Technical teams began
development of strategy content in March. Each team has representatives from NOAA’s federal, state, and tribal partners in resource
management, with over 100 formally engaged in the effort. The Office of Ocean and Coastal Resource Management is co-leading
the Coastal Technical team along with the State of Florida. Teams have completed drafts of ecosystem sections that identify climate
impacts and key strategies and actions for managing species and natural resources in a changing climate. The strategy will also
include national-level strategies and a discussion of crosscutting issues such as the role of agriculture, transportation, and energy
sectors in building the resilience of natural resources. A draft of the strategy will be released for Agency review in October and public
review in December 2011.

Enhancing Access to Geospatial Information through the Digital Coast

The Digital Coast is a community-driven enabling platform and partnership effort that provides an integrated suite of data, decision
support tools, training, and real-world case studies for the Nation’s coastal communities. The Digital Coast brings critical, place-
based information to community leaders to ensure they are better equipped to take the steps needed to make their communities
and their economies more resilient. Almost 2,500 communities used the Digital Coast Web site in the third quarter of FY 2011,
exceeding the Department’s balanced scorecard target of 1,918. This figure includes 37 percent of all Census-designated cities within
NOAA-approved coastal counties. Improvements in FY 2011 included several new mapping and visualization tools. For each of these
additions, the common theme was making complicated information easy to understand and use. For instance, the Sea Level Rise and
Coastal Flooding Impacts Viewer allows users to ”see” potential impacts from flooding and sea level rise. The Land Cover Atlas is
making satellite imagery much more accessible to quickly evaluate changes in habitat or development. The expanded Coastal County
Snapshots now includes ocean and Great Lakes-related employment data provided by the Bureau of Economic Analysis and Bureau
of Labor Statistics, as well as a new economic-based dataset, Economics: National Ocean Watch, or ENOW. The new Digital Coast
Webinar series is providing a popular means for users to get their questions answered and gain a better understanding of the utility
provided in the Digital Coast.

NOAA Exceeds Performance Goal on Reprocessing Data for Other Purposes

NOAA is making great strides with the Integrated Ocean and Coastal Mapping (IOCM) approach of “map once, use many times.”
Led by Coast Survey, the NOAA IOCM effort has reprocessed 226 square nautical miles of multibeam data, including 126 square
nautical miles of fisheries multibeam data collected in southwest Alaska by the NOAA Ship OSCAR DYSON. The reprocessed data
was forwarded to NOAA’s hydrographic survey branch for use in navigation products such as nautical charts. An additional 100 square
nautical miles of hydrographic multibeam bathymetry and backscatter data from the NOAA Ship FAIRWEATHER for the Olympic Coast
National Marine Sanctuary was reprocessed to support the development of seafloor habitat maps. NOAA exceeded its target of 100
square nautical miles for reprocessed data while developing methods to reprocess data for additional uses, improved ease of data
access, and improved quality of mapping products.




 152                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                    Performance Section • Theme 3




                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities associated with this objective.

                          Performance Measure (NOAA)                                        Target          Actual           Status
 Annual number of coastal, marine, and Great Lakes ecological
                                                                                             50               50               Met
 characterizations that meet management needs
 Cumulative number of coastal, marine, and Great Lakes issue-based
                                                                                             45               55               Met
 forecasting capabilities developed and used for management
 Percentage of tools, technologies, and information services that are used by
                                                                                            87%              88%               Met
 NOAA partners/customers to improve ecosystem-based management
 Annual number of coastal, marine, and Great Lakes habitat acres acquired
                                                                                            19,219          17,274           Not Met
 or designated for long-term protection
 Percentage of U.S. coastal states and territories demonstrating 20% or
 more annual improvement in resilience capacity to weather and climate                      36%              43%            Exceeded
 hazards (%/year)
 Hydrographic survey backlog within navigationally significant areas (square
                                                                                            2,400            2,278           Not Met
 nautical miles surveyed per year)
 Percentage of U.S. counties rated as fully enabled or substantially enabled
                                                                                            83.0%           84.3%              Met
 with accurate positioning capacity


FY 2011 Status

NOAA met and/or exceeded five of the targets under this objective.


F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Hydrographic survey backlog within navigationally significant areas (square nautical miles
                   surveyed per year) (NOAA)
                   NOAA missed the target of 2,400 square nautical miles in part due to delays in contract task order awards, a
 Explanation       reduction in address survey backlog funds, and lost days at sea for NOAA Ship RAINIER due to emergency
                   repairs to the ship’s steering system and emergency generator switch board.
                   The National Ocean Service and OMAO are working together to rationalize how planning and performance
 Action
                   management is structured to monitor funds and performance for reducing the hydrographic survey backlog.
   Measure         Annual number of coastal, marine, and Great Lakes habitat acres acquired or designated for
                   long-term protection (NOAA)
                   The Coastal and Estuarine Land Conservation Program (CELCP) targets are established based on an evaluation
                   of what real estate contracts will be closed from management plans 1-3 years prior to the year of performance
                   measure execution. In FY 2010, a large CELCP contract closed September 30 that was expected to close in
 Explanation       FY 2011, this artificially elevated the actual for FY 2010 and impacted actual for FY 2011. In addition, due to late
                   appropriations for FY 2011, grants could not be processed in time to close a substantial contract closure prior to
                   September 30, 2011. Both of these events greatly impacted the ultimate actual. The remaining CELCP acres
                   will likely be achieved through contract closures in FY 2012.
 Action            No action is required.



F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     153
Performance Section • Theme 3




                                    Theme 3 Program Evaluations


The following program evaluations were conducted on programs related to this theme in FY 2011.

 Bureau        Reviewer                  NAME OF EVALUATION                       Date                          Web site
 NOAA        National          Precise Geodetic Infraastructure: National       10/2010        http://www.nap.edu/catalog.
             Research          Requirements for a Shared Resource                              php?record_id=12954
             Council
 NOAA        NOAA              NOAA Management Control Review                   Ongoing,       http://www.corporateservices.noaa.
                                                                                 2011          gov/~audit/MgmtControlOverview.
                                                                                               html
 NOAA        SRA Interna-      External Evaluation of State Coastal Zone        9/1/2010       http://coastalmanagement.noaa.gov/
             tional, Inc. &    Management and National Estuarine                               success/evaluation.html
             The Council       Research Reserve System Programs
             Oak
 NOAA        GAO               Chesapeake Bay: Restoration Effort Needs         Ongoing,       http://gao.gov
                               Common Federal and State Goals and                2011
                               Assessment Approach (GAO-11-802)
 NOAA        GAO               Financial Management: NOAA Needs                1/31/2011       http://www.gao.gov/new.items/
                               to Better Document Its Policies and                             d11226.pdf
                               Procedures for Providing Management
                               and Administration Services
 NOAA        National          Tsunami Warning and Preparedness: An             1/1/2011       http://www.nap.edu/catalog.
             Research          Assessment of the U.S. Tsunami Program                          php?record_id=12628
             Council           and the Nation's Preparedness Efforts
                               (2010)
 NOAA        NOAA              Great Lakes Environmental Research              11/1/2010       http://www.glerl.noaa.gov/review/
                               Laboratory Science Review
 NOAA        NOAA              Air Resources Laboratory Science Review          5/1/2011       http://www.arl.noaa.gov/LR2011_
                                                                                               Review.php
 NOAA        NOAA              Cooperative Institute for Limnology and          10/2010        http://www.sab.noaa.gov/Reports/
                               Ecosystems Research (CILER) External                            CILER_Review_Report_final.pdf
                               Science Review
 NOAA        NOAA              Cooperative Institute for Artic Research          7/2011        http://www.sab.noaa.gov/Reports/
                               (CIFAR) External Science Review                                 CIFAR_2004.pdf
 NOAA        OIG               Survey of NOAA's System and Processes           12/22/2010      http://www.oig.doc.gov/Pages/Survey
                               for Tracking Oil Spill Costs                                    ofNOAA'sSystemandProcessesforTra
                                                                                               ckingOilSpillCostsOlG-11-016-M.aspx




 154                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
ThemeS 4, 5, and 6
M anagement Themes
                                                                                                      targets met
               T H E M E S , S T R AT E G I C G O A L S , A N D O B J E C T I V E S                   or exceeded
Theme 4: Customer Service
Strategic Goal: Create a culture of outstanding communication and services to our internal and external customers

Objective 19       Provide streamlined services and a single point of contact assistance
                   to customers, improving interaction and communication through                      No measures
                   CommerceConnect, partnerships, and other means of stakeholder                       in FY 2011
                   involvement (DM)
                                                                                                      targets met
Objective 20          S T R information
                  Promote   AT E G I C G   O A L and
                                        access   S Atransparency
                                                      N D O B J Ethrough
                                                                   C T I V Ethe
                                                                             S use of technology,     or exceeded
                                                                                                      No measures
                  fuller understanding of customer requirements, and new data products and
Strategic Goal: xxx                                                                                    in FY 2011
                  services that add value for customers (DM)
Objective xx      xxx                                                                                     x of x
Objective 21      Provide a high level of customer service to our internal and external
                                                                                                      No measures
Objective xx      customers
                  xxx         through effective and efficient functions implemented by                    x of x
                                                                                                       in FY 2011
                  empowered employees (DM)
Objective xx      xxx                                                                                     x of x
Theme 5: Organizational Excellence
Strategic Goal: Create a high-performing organization with integrated, efficient, and effective service delivery

Objective 22       Strengthen financial and non-financial internal controls to maximize program
                   efficiency, ensure compliance with statutes and regulations, and prevent              2 of 5
                   waste, fraud, and abuse of government resources (DM, OIG)

Objective 23       Re-engineer key business processes to increase efficiencies, manage risk,
                                                                                                         0 of 1
                   and strengthen effectiveness (DM)

Objective 24       Create an IT enterprise architecture that supports mission-critical business
                   and programmatic requirements, including effective management of cyber                1 of 1
                   security threats (DM)

Theme 6: Workforce Excellence
Strategic Goal: Develop and support a diverse, highly qualified workforce with the right skills in the right jobs
to carry out the Department’s mission

Objective 25       Recruit, grow, develop, and retain a high-performing, diverse workforce with
                   the critical skills necessary for mission success, including the next generation      1 of 1
                   of scientists and engineers (DM)

Objective 26       Create an optimally-led Department by focusing on leadership development,          No measures
                   accountability, and succession planning (DM)                                        in FY 2011

Objective 27       Provide an environment that empowers employees and creates a productive            No measures
                   and safe workforce (DM)                                                             in FY 2011
                                                                                    Performance Section • themes 4, 5, and 6




                                     MANAGEMENT THEME S ( T h e m e s 4 , 5 , a n d 6 )




 B 
             elow is a funding, full-time equivalent (FTE), and performance summary of the following three management/
            administrative themes: Customer Service (Theme 4), Organizational Excellence (Theme 5), and Workforce Excellence
            (Theme 6). After this summary are individual sections for each of the themes.

                                          M A NAG E M E N T T H E M E S TOTA L R E S O U R C E S
                                         M A NAG E M E N T T H E M E S TOTA L R E S O U R C E S
                                        Funding Levels                                                                                FTE1 Resources
                                     Funding   Levels
                                      (Dollars in Millions)                                                                          FTE1 Resources
                                (Dollars in Millions)
                                                                                                                                                              349
                                                                                                                                                             349            334
                                                                                                          302              297                                              334
                                                                                                        302               297               278
                                                                                                                                           278
                                                                $94.1       $91.2
                                               $80.9          $94.1       $91.2
             $72.2           $67.6          $80.9
         $72.2            $67.6




                                                                                                        2007              2008              2009              2010          2011
                                                                                                       2007              2008              2009              2010           2011
            2007             2008             2009              2010        2011                                                         Fiscal Year
         2007             2008              2009              2010        2011                                                          Fiscal Year
                                            Fiscal Year                                        1
                                                                                                 FTE—Full-Time Equivalent
                                         Fiscal Year                                      1
                                                                                              FTE—Full-Time Equivalent



 A s U.S. society becomes increasingly oriented toward using
electronic means of communication and information dissemi-
                                                                                                                    M A N AG E M E N T T H E M E S
                                                                                                                   M
                                                                                                                   P EARN AG
                                                                                                                         FO RMEMA ENNCTE TRHE ES U
                                                                                                                                                 MLT
                                                                                                                                                   E SS
nation, federal agencies must ensure that they continue to be                                                     P E R F O R M A N C E R E S U LT S
as responsive as possible to the needs of the public, the private                                                  10
                                                                                                                  10
                                                                                                        Results




sector, other levels of government, and other federal agencies.
                                                                                               ReportedResults




                                                                                                                     8
                                                                                                                   8
                                                                                                  Numberofof




Departmental Management (DM) must promote leading-edge                                                               6
technologies, collaboration, and technology transformation across                                                  6
                                                                                                 Number




                                                                                                                     4
                                                                                              Reported




the Department, ensuring alignment with mission requirements,                                                      4
                                                                                                                     2
goals, and objectives in order to deploy and maintain systems                                                      2
able to perform at the highest levels.                                                                               0
                                                                                                                   0 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                       2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                 Exceeded                        1     2     2      1    1          2   2    1     1
Achieving organizational and management excellence is a goal that                               Exceeded                     1        2     2      1    1           2   2    1     1
                                                                                                 Met               2             3     4     4      5    5          4   4    3     3
requires extensive interaction and coordination among entities                                  Met              2           3        4     4      5    5           4   4    3     3
                                                                                                  Slightly Below                                                                   2
throughout the Department. DM—consisting of the Offices of                                      Slightly Below                                                                     2
                                                                                                  Improved                                                              1
the Secretary, Deputy Secretary, Chief Financial Officer (CFO)                                  Improved                                                                1
                                                                                                  Not Met          1             2           2      2    2          2   1    3     2
                                                                                                Not Met          1           2              2      2    2           2   1    3     2
and Assistant Secretary for Administration (ASA), Chief Infor-
                                                                                          See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                         See Appendix A: Performance and Resource Tables for individual reported results.




F Y   2 0 1 1        P E R F O R M A N C E             A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                                                                   157
Performance Section • themes 4, 5, and 6




mation Officer (CIO), and General Counsel—provides the policies and guidelines that support the management infrastructure the
Department needs to carry out its mission.

The Department must have the capacity to do business with the public and its partner agencies, both as a more than $8 billion
worldwide enterprise, and as an integrated set of individual programs. This requires that it identify, adopt, and maintain business
practices essential to successful operations; use its resources wisely; and effectively implement the laws that affect it. In order to
ensure the accomplishment of its mission, the Department has developed and put into place policies and programs designed to enable
the successful operation of its units, the effective and efficient use of both material and human resources, and the implementation of
laws and regulations that govern the use of those resources.




 158                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        Performance Section • themes 4, 5, and 6




                                             Theme 4:                  Customer Service


Strategic Goal: Create a culture of outstanding communication and services to our internal
and external customers


                                  C U S TO M E R S E RV I C E TOTA L R E S O U R C E S
                             Funding Levels
                                                                                                                       FTE Resources1, 2
                            (Dollars in Millions)

                                                                $9.3
         $8.6
                                   $7.7
                                                    $7.0
                     $6.1




                                                                                               N/A          N/A                 N/A            N/A             N/A
                                                                                              2007          2008               2009            2010            2011
         2007        2008          2009             2010        2011                                                         Fiscal Year
                                                                                1
                                                                                  FTE—Full-Time Equivalent
                               Fiscal Year                                      2
                                                                                  DM and OIG FTEs are shown in Theme 5, Organizational Excellence.




 T    his strategic goal is comprised of three objectives which contribute to the Secretary’s theme of Customer Service and all of
                                                                                   C Uduring
      which are associated with DM. Since the latest strategic plan was only finalized   STOM  FYE2011,
                                                                                P E R F benefits
developed performance measures for these three objectives. While there are definite
                                                                                                    R S Ethe
                                                                                        O R M Aassociated
                                                                                                           RV  ICE
                                                                                                             Department
                                                                                                   N C E R Ewith
                                                                                                              S UallLTthree
                                                                                                                            had not yet
                                                                                                                        S objectives,
the accomplishments have largely been associated with CommerceConnect, reflected
                                                                               30       in objective 19. Therefore, what follows are
                                                                                    Reported Results




the public benefits and achievements associated with the following objectives within
                                                                               25     this theme:
                                                                                       Number of




                                                                                                       20
                                                               Objective 19                            15
                                                                                                       10
          Provide streamlined services and a single point of contact assistance to customers, improving
                                                                     5
           interaction and communication through CommerceConnect, partnerships, and other means
                                                                     0
                                        of stakeholder involvement (DM)2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                      Exceeded                     1     1      1     3    3          3    1
                                                                                      Met                                1      3     6    9          8   13      9
                                                               O b j e c t i v eSlightly
                                                                                    2 0Below                                                          1           1
                                                                                      Improved                           1
     Promote information access and transparency through the use of technology, fuller understanding of
                                                         Not Met     1  3  1    1   3   2  2       4
       customer requirements, and new data products and services that add value for customers (DM)
                                                                               See Appendix A: Performance and Resource Tables for individual reported results.



                                                               Objective 21

       Provide a high level of customer service to our internal and external customers through effective
                     and efficient functions implemented by empowered employees (DM)




F Y   2 0 1 1   P E R F O R M A N C E      A N D       A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                      159
Performance Section • themes 4, 5, and 6




                                                        Public Benefits



T     hrough its CommerceConnect initiative, the Department provides a one-stop approach to expose businesses to the array of
      programs, services, and data available from the federal government. Teaming up with its partner bureaus and other federal
and local agencies, CommerceConnect hopes to develop and improve programs that meet business needs, and to identify existing
programs to better target areas of business need.

CommerceConnect streamlines access to enterprise assistance resources by assessing businesses needs and making targeted
referrals to appropriate Department bureaus for export promotion, access to capital, contract opportunities, intellectual property
protection, management and technical assistance, or guidance on how to make operations more efficient.

The Department initiated CommerceConnect to transform government and breakdown bureaucratic silos. The initiative fosters
customer service to U.S. business enterprises and interagency collaboration.

CommerceConnect acts as a one stop touch point for the entire Department. It supports U.S. businesses by matching and referring
them to the Department’s more than 70 programs, services, and resources. The goal is simple: to help emerging entrepreneurs and
established companies around the country overcome challenges, exploit opportunities, and connect to the right resources to advance
their objectives.

CommerceConnect will provide assistance to U.S. businesses through a Web-based portal, call centers, stand alone field offices, and
bureau field offices. All assistance portals are fully integrated with a customer relationship management system to track customer
service and performance metrics, respecting business privacy.

The Department is working to improve information sharing to promote open and transparent access to information generated by the
Department and bureaus. An understanding of existing processes, along with the willingness to accept change, is a critical factor in
creating an atmosphere of open and transparent access to information. The Department will develop a culture of information sharing
to promote outstanding customer service by using new tools, such as social media, to provide timely information sharing; providing
single point of contact assistance to customers; and promoting access to information that meets Department customers’ needs.

The Department-wide strategies to develop a culture of information sharing to promote outstanding customer service and transparency
include the following:

●● Develop the use of new tools, such as social media, to provide timely information sharing both inside and outside of the Department
   and bureaus. This may be achieved through integration of these tools into existing information dissemination processes.

●● Provide single point of contact assistance to customers. This is achieved by understanding customer requirements, communi-
   cating clearly with Department customers, and following up with partners and customers to ensure that customers get the level of
   service they expect.

●● Promote information access. This is achieved by understanding customer requirements, and then applying existing technology as
   well as creating new data products and services to meet customer requirements.

In addition to developing a culture of information sharing and a single point of access for customers, the Department will use its open
government initiative to improve transparency, collaboration, and cooperation with the public and across all levels of government.




 160                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  Performance Section • themes 4, 5, and 6




In seeking to develop a culture which emphasizes outstanding customer service, a variety of strategies will be developed and measured
using a strategic planning and management system known as the Balanced Scorecard. The Department-wide strategies include the
following:

●● Provide integrated services and single point of contact assistance to customers. This may be achieved through enhanced stake-
   holder involvement, by means of improved interaction and communication using techniques such as partnerships and branding (see
   Objective 19).

●● Promote information access. This may be achieved by establishing an understanding of customer requirements, and then applying
   existing technology as well as creating new data products and services to deliver added value to customers (see Objective 20).

●● Establish the Department open government initiative to improve transparency, collaboration, and cooperation with the public and
   across all levels of government (see Objective 20).

●● Implement CommerceConnect to provide businesses and entrepreneurs with a single source for economic, technology, trade, and
   statistical information (see Objective 19).

●● Re-engineer key business processes in accordance with the President’s Government-wide Hiring Reform Initiative to increase
   efficiencies and strengthen effectiveness (see Objective 25).

●● Improve risk management and reduce Department exposure to high risk contracts (see Objective 23).


In addition, each operating unit will develop strategies unique to its mission; for example:

●● Establish a uniform customer survey (CFO/ASA);

●● Partner with the General Services Administration (GSA) to effectively represent the Department in all aspects of the Herbert C.
   Hoover Building renovation project for which GSA has responsibility, and plan and coordinate all aspects of the project for which the
   Department has responsibility (CFO/ASA);

●● Evaluate and improve the means by which economic, statistical, trade, and other data may be made available to businesses,
   communities, and individuals (Economics and Statistics Administration (ESA));

●● Create a modern IT infrastructure for a scientific enterprise (National Oceanic and Atmospheric Administration (NOAA));

●● Increase the percentage of calls resolved directly by the Bureau of Industry and Security (BIS) call center operators (BIS); and

●● Expand outreach to new stakeholders who participate in the open government initiative (Economic Development Administration
   (EDA)).



Achievements

CommerceConnect extended its local reach to 17 locations (beyond its stand alone operation in Michigan and a group of detailees
working in the Gulf Coast) by cross-training existing bureau field staff including: Philadelphia, PA; Chicago, IL; Atlanta, GA; Los Angeles,
CA; San Francisco, CA; Seattle, WA; Denver, CO; Boston, MA; New York, NY; Austin, TX; Dallas, TX; Kansas City, MO; Middletown, CT,
Birmingham, AL; Charlotte, NC; Charleston, WV; and Baltimore, MD.




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      161
Performance Section • themes 4, 5, and 6




CommerceConnect made considerable progress in establishing an operational infrastructure to support the growth of the initiative,
expand inter-bureau collaboration, and implement a Department-wide customer-oriented business model.

●● CommerceConnect trained over 175 Department staff to help small and medium-size businesses to grow.

●● Year-to-date, CommerceConnect engaged nearly 900 customers (vs. 90 clients in FY 2010); and provided over 1,300 referrals (vs.
   333 referrals in FY 2010) to Department and other federal, state, local, and non-profit programs that address their specific needs.

●● Customer service excellence is achieved by providing courteous interaction, easy matching, and responsive customer referrals that
   help U.S. businesses access key programs, resources, and services. CommerceConnect served as the Department’s singular point
   of contact for first time callers. Customers in search of assistance received (on average) three referrals, thereby broadening their
   growth objectives.

●● Customer service is also measured through feedback provided by clients during service engagements. Approximately 75 percent of
   the referrals made have been acted upon by clients. In other words, clients decided to take follow-up action three out of four times
   for every referral made.

●● Referrals are critically important because among other things they help companies obtain financing for operations and expansion,
   improve the efficiency of their operations, protect their intellectual property, increase their exports, access data and information for
   more effective decision-making, and a host of other activities critical to the Nation’s growth and economic prosperity.

In terms of infrastructure, CommerceConnect established a call center operation as the first point of contact for clients and a customer
relationship management system to manage those client relationships and track outcomes. CommerceConnect also added a new self-
service online tool, new Web site, and expanded marketing and research. CommerceConnect will soon release a more robust virtual
service interface to better match business needs with programs, products and, services via the Internet. It will also initiate a new
Web-based training program for additional Department staff in local field offices.


                                            S UMMAR Y OF P ERFORMANCE


The Department is in the process of developing measures to evaluate progress toward achieving the objectives associated with this
theme. Measures will appear in the FY 2012 Performance and Accountability Report (PAR).




 162                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   Performance Section • themes 4, 5, and 6




                                        Theme 5:                       Organizational Excellence


Strategic Goal: Create a high-performing organization with integrated, efficient,
and effective service delivery

                            O R G A N I Z AT I O NA L E X C E L L E N C E TOTA L R E S O U R C E S
                           O R G A N I Z AT I O NA L E X C E L L E N C E TOTA L R E S O U R C E S
                                         Funding Levels
                                      Funding   Levels                                                                                      FTE1 Resources
                                       (Dollars in Millions)                                                                               FTE1 Resources
                                     (Dollars in Millions)
                                                                                                                                                                      349           334
                                                                                                                                                                     349            334
                                                                                                        302                  297
                                                               $81.7                                  302                   297                   278
                                                             $81.7         $76.5                                                                 278
                                              $67.2                      $76.5
             $58.5           $56.6         $67.2
         $58.5            $56.6




                                                                                                      2007                  2008                  2009            2010              2011
                                                                                                     2007                  2008                  2009            2010               2011
            2007             2008             2009             2010        2011                                                               Fiscal Year
         2007             2008              2009             2010        2011                                                                Fiscal Year
                                           Fiscal Year                                       1
                                                                                               FTE—Full-Time Equivalent
                                        Fiscal Year                                     1
                                                                                            FTE—Full-Time Equivalent




 T 
           his theme is comprised of three objectives which
                                                                                                     O R G A N I Z AT I O N A L                                EXCELLENCE
           contribute to the Secretary’s theme of Organizational                                    O R GPAENRIFZOAT
                                                                                                                   RMI OANNACLE                               ERXECS EULLT
                                                                                                                                                                         L ESN C E
           Excellence. The following public benefits, achieve-                                           PERFORMANCE                                          R E S U LT S
                                                                                                                     8
ments, and performance results are associated with each                                                          8
                                                                                                       Results
                                                                                              ReportedResults




objective.                                                                                                           6
                                                                                                 Numberofof




                                                                                                                 6
                                                                                                                     4
                                                                                                Number




                                                                                                                 4
                                                                                             Reported




                                                                                                                     2
                                                                                                                 2
                                                                                                                     0
                                                                                                                 0        2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                                                         2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                               Exceeded                                1     2     2      1      1          1   1    1
                                                                                              Exceeded                             1        2     2      1      1           1   1    1
                                                                                               Met               2                     3     4     3      4      4          4   4    2     3
                                                                                              Met              2                   3        4     3      4      4           4   4    2     3
                                                                                                Slightly Below                                                                             2
                                                                                              Slightly Below                                                                               2
                                                                                                Improved                                                                        1
                                                                                              Improved                                                                          1
                                                                                                Not Met          1                     2            2     2      2          2   1    3     2
                                                                                              Not Met          1                   2               2     2      2           2   1    3     2

                                                                                         See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                        See Appendix A: Performance and Resource Tables for individual reported results.




F Y   2 0 1 1        P E R F O R M A N C E            A N D     A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                                                           163
Performance Section • themes 4, 5, and 6




                                                         Objective 22

            Strengthen financial and non-financial internal controls to maximize program efficiency,
                   ensure compliance with statutes and regulations, and prevent waste, fraud,
                                 and abuse of government resources (DM, OIG)


                                                          Public Benefits



 D       M strengthens financial and non-financial internal controls within the Department by conducting the Office of Management
         and Budget (OMB) Circular A-123 financial internal controls assessments annually, performing non-financial management
internal controls reviews on selected sensitive programs, overseeing the development of corrective action plans to address any
identified weakness, and continuously monitoring the progress made on corrective actions.

The Office of Inspector General (OIG) is responsible for improving Departmental programs and operations through independent and
objective oversight and for detecting and preventing fraud, waste, abuse, and violations of law. Annually, it presents the Secretary
with an objective analysis of the Department’s top management challenges and areas of greatest program risk. Most of DM’s and
the OIG’s work can be characterized as “behind-the-scenes,” contributing to the efficiency with which operating units throughout the
Department administer their programs.

The OIG audits and evaluations review critical Department activities to identify vulnerabilities, deficiencies or irregularities; and ineffi-
ciencies in information technology (IT) systems, contracts, and grants, and program operations. OIG criminal, civil, and administrative
investigations continue to disclose instances of misconduct by employees, contractors, and grantees that threaten the integrity of the
Department’s programs and operations. In addition, auditors or inspectors in some matters identify investigative issues, such as fraud
and conflicts of interest, and refer such matters to the OIG’s investigators.



Achievements

DM achieved an unqualified audit opinion for the thirteenth consecutive year in FY 2011, and plans to maintain the same in FY 2012
and beyond.

DM continued work on the Business Application Solutions project (formerly known as the Future Financial and Administrative Planning
Business Analysis). The project provided comprehensive business system modernization support services by determining the
long-term viability of the legacy business systems and defining, planning, and driving Departmental modernization efforts.

In FY 2011, OIG audits and evaluations highlighted major Departmental challenges and made recommendations to improve the Depart-
ment’s operations. The OIG provided extensive oversight of the 2010 Census resulting in recommendations for the Census Bureau
to operate more effectively and efficiently for the next decennial operation. In addition, the OIG has taken a proactive approach to
monitoring the Broadband Technology Opportunities Program by providing the National Telecommunications and Information Admin-
istration (NTIA) with recommendations to enhance its administration of a critical American Recovery and Reinvestment Act (ARRA)
of 2009 program. Finally, the OIG’s ongoing reviews of Department IT security systems revealed vulnerabilities and provided the
Department with recommendations to better protect valuable systems and data.




  164                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 Performance Section • themes 4, 5, and 6




OIG investigative activities resulted in more than $6.2 million in fines and other financial judgments in FY 2011. Most notable was a
civil judgment against a National Institute of Standards and Technology (NIST) grantee convicted of intentionally misusing $500,000 in
grant funds that amounted to $4.3 million in damages, penalties, restitution, and forfeited property, plus 15 months’ imprisonment.

In addition to audits, evaluations, and investigations, the OIG supports the Secretary and Congress in many other ways. In FY 2011,
the OIG advised the Secretary on ways to enhance internal operations, such as through a more effective suspension and debarment
program, better controls on motor pool operations, and execution of the Department’s Acquisition Reform initiatives, all of which
would help the Department realize significant cost savings.


                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities ssociated with this objective.


                  Performance Measure                                   Target                        Actual               Status
 Provide accurate and timely financial information and        ●● Eliminate any              ●● Eliminated
 conform to federal standards, laws, and regulations             significant deficiency       significant
 governing accounting and financial management                   within 1 year of             deficiency.
 (DM)                                                            determination that
                                                                 there is a significant                                       Met
                                                                 deficiency
                                                              ●● Complete FY 2011           ●● Completed A-123
                                                                 A-123 assessment of          assessment
                                                                 internal controls
 Effectively use commercial services management               ●● Increase use of            ●● > 2%
 (DM)                                                            competition by
                                                                 2% measured by
                                                                 procurement dollars
                                                                 awarded
                                                              ●● Decrease procurement       ●● > 10%                          Met
                                                                 dollars awarded on
                                                                 cost-reimbursement,
                                                                 time and materials, and
                                                                 labor hour contracts by
                                                                 10%
 Percent of OIG recommendations accepted by
                                                                         95%                           94%               Slightly Below
 Departmental and bureau management (OIG)
 Dollar value of financial benefits identified by the OIG
                                                                        $39.0M                        $33.6M                Not Met
 (OIG)
 Percent of criminal and civil matters that are
                                                                         75%                           73%               Slightly Below
 accepted for prosecution (OIG)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    165
Performance Section • themes 4, 5, and 6




FY 2011 Status

DM met both of its targets while the OIG was slightly below for two targets and didn’t meet the third target.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure       Percent of OIG recommendations accepted by Departmental and bureau management (OIG)
                 The performance goal was set at an approximate target level, and the deviation from that level is slight. There
 Explanation
                 was no effect on overall program or activity performance.
 Action          No additional action to be taken.
   Measure       Dollar value of financial benefits identified by the OIG (OIG)
 Explanation     Investigative recoveries were less than in previous years.
 Action          TBD
   Measure       Percent of criminal and civil matters that are accepted for prosecution (OIG)
                 The performance goal was set at an approximate target level, and the deviation from that level is slight. There
 Explanation
                 was no effect on overall program or activity performance.
 Action          No additional action to be taken.



Historical Trends

FY 2011 was an unusual year for the OIG. In the past, the OIG has consistently met its targets.



                                                       Objective 23

  Re-engineer key business processes to increase efficiencies, manage risk, and strengthen effectiveness (DM)


                                                        Public Benefits



A     s U.S. society becomes increasingly oriented toward using electronic means of communication and information dissemi-
      nation, federal agencies must ensure that they continue to be as responsive as possible to the needs of the public, the private
sector, other levels of government, and other federal agencies. DM must promote leading-edge technologies, collaboration, and
technology transformation across the Department, ensuring alignment with mission requirements, goals, and objectives in order to
deploy and maintain systems able to perform at the highest levels.



Achievements

Acquisitions is one of the key areas in terms of re-engineering key business processes. The Office of Acquisitions Management
achieved the following results in FY 2011:




 166                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 Performance Section • themes 4, 5, and 6




●● Provided proactive and timely guidance and oversight to the acquisition and grants community in the Department to ensure smooth
   implementation and execution of the ARRA, and has been recognized for the superior performance of its oversight of recipient
   reporting.

●● Completed an in-depth spend analysis, prioritized commodities, and initiated five strategic sourcing projects to leverage spending
   opportunities across the Department and achieve savings.

●● Developed a comprehensive and corporate framework for overseeing and managing acquisition projects with regard to
   requirements development/management and project management processes.


                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measure to gauge the performance of the activities ssociated with this objective.


                           Performance Measure (DM)                                         Target       Actual           Status
 Obligate funds through performance-based contracting (% of eligible service
                                                                                            50%           39%             Not Met
 contracting $)



FY 2011 Status

DM did not meet the target for this measure.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure         Obligate funds through performance-based contracting (% of eligible service contracting $) (DM)
                   Not all requirements lend themselves to performance-based contracting. Successful implementation of
                   performance-based contracting requires a behavioral management approach. Due to staffing shortages, resources
 Explanation
                   have not been available to assist bureaus and program offices with a better understanding and implementation
                   of performance-based contracting.
 Action            TBD



Historical Trends

DM has consistently missed this target due to the reasons noted in the explanation above.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               167
Performance Section • themes 4, 5, and 6




                                                         Objective 24

         Create an IT enterprise architecture that supports mission-critical business and programmatic
                 requirements, including effective management of cyber security threats (DM)


                                                          Public Benefits



T      he benefits of this objective are both internal and external. By having a strong IT enterprise architecture, the Department
       ensures the security of information both within its own structure and with outside stakeholders. The priorities driving
the achievement of this objective are to (1) improve the effectiveness of IT investments and resources across the Department,
(2) strengthen cyber security through an increased use of security technologies, and (3) increase collaboration across bureaus using
the Department CIO community.

The Department IT Enterprise Architecture has a federated structure. This allows the various bureaus the flexibility they need to meet
their mission-specific goals while at the same time providing an overarching structure to meet Department-wide program needs, and
to encourage deploying and using IT resources more effectively wherever possible.

The goals of the Enterprise Architecture are to:

●● Foster the development and use of IT architectural standards based on established best practices;

●● Assist in identifying applications and systems that can be deployed with new technology solutions;

●● Identify technologies and services that can be purchased and/or deployed Department-wide to reduce costs;

●● Increase the use of automated continuous monitoring tools; and

●● Provide tools and analysis to capital planners and acquisitions staff to channel purchases in the direction established by the CIO
   Council.

Taking a phased approach, initially the larger bureaus are looking at optimization and consolidation across geographically distributed
organizations, while smaller co-located bureaus are prompted to work collaboratively. Subsequently, such efforts can be expanded to
optimize more broadly the activities, operations, and investments of the Department as a whole.



Achievements

In FY 2011, the Office of the CIO (OCIO) completed the following tasks/activities to support this objective:

●● Instituted the TechStat process which is a face-to-face, risk-based review by the Department’s senior management that produces
   corrective action strategies for any of the Department’s major IT investments which are underperforming and not providing value
   to the taxpayer. As part of the Department’s transparency efforts, OCIO evaluated and submitted 45 business cases to the federal
   IT Dashboard, demonstrating to the public the sound management of the Department’s IT investments. On average, OCIO
   achieved within five percent of its cost, schedule, and performance targets for the major IT investments undergoing development
   and enhancement. OCIO developed solid business cases for major IT investments with the business cases ensuring that OCIO
   managed and wisely invested those IT funds.



 168                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 Performance Section • themes 4, 5, and 6




●● Leveraged the Department Web Advisory Council to publish a Social Media and Web 2.0 Use Policy that includes an approval process
   for each use of social media in the Department. Additionally, this policy ensures that a Department terms of service agreement
   negotiated by the Office of General Counsel, is in place for each approved use of social media. OCIO, in conjunction with the Chief
   Privacy Officer, has approved and currently maintains 70 Privacy Impact Assessments which are posted on the Web.

●● Signed Commerce Interim Technical Requirements (CITR) policies for Wireless Encryption and Contingency Plan testing and exercise
   activities. Provided additional guidance for Bluetooth, Configuration Management, and Risk Management Framework transition.

●● Conducted 12 IT Security Compliance CIO-one-to-one evaluations and performed an additional eight security assessments of
   programs, applications; and systems to satisfy FY 2011 Internal Control Review activities.

●● Conducted monthly reviews of Department information systems utilizing information within the IT security tool, Cyber Security
   Assessment and Management (CSAM). The reviews track progress in Authority to Operate (ATO) status, and in plans of action and
   milestones (POA&M) management. The scorecards and analysis were presented to the Department’s CIO Council. The implemen-
   tation of these metrics has helped improve operating unit management of system ATOs and POA&Ms.

●● Launched the Department’s first PII (personally identifiable information) Privacy Training module to be used as a companion to IT
   Security General Awareness Training.

●● Hosted first annual Commerce IT Security Conference with role-based training sessions such as mobile device security; social
   networking; continuous monitoring; implementing cloud computing and managing a remote workforce; provided mandatory training
   for all Office of Secretary Approving Officer/Security Officers.

●● Completed Cyber Security Development Program (CSDP) cycle with 19 graduates in FY 2011; and 52 IT Security personnel
   Department-wide obtaining IT security industry professional certifications.


                                            S UMMAR Y OF P ERFORMANCE


The Department uses the following measures to gauge the performance of the activities ssociated with this objective.


 Performance Measure (DM)                                  Target                                     Actual              Status
 Improve the management            ●● IT investments have cost/schedule overruns and        ●● All IT investments
 of information technology              performance shortfalls averaging less than 10%          within 10% of cost and
                                   ●● Perform IT security compliance review of all              schedule
                                      operating units, and 10 FISMA systems in
                                      CSAM                                                  ●● Reviews completed
                                   ●● Increase security training completion rate to
                                                                                                                            Met
                                      80% for privileged users (role-based)
                                   ●● Deploy 80% of the required NCSD 3-10                  ●● 89% completion rate
                                      communications capabilities. Expand cyber
                                      intelligence communications channel to all
                                      operating unit Computer Incident Response             ●● NCSD 3-10 did not
                                      Teams.                                                    receive funding



FY 2011 Status

DM met its target.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  169
Performance Section • themes 4, 5, and 6




                                          Theme 6:                     Workforce Excellence


Strategic Goal: Develop and support a diverse, highly qualified workforce with the right
skills in the right jobs to carry out the Department’s mission

                                WO R K F O R C E E X C E L L E N C E TOTA L R E S O U R C E S
                               WO R K F O R C E E X C E L L E N C E TOTA L R E S O U R C E S
                                   Funding Levels
                                Funding   Levels                                                                                    FTE Resources1, 2
                                 (Dollars in Millions)                                                                             FTE Resources1, 2
                               (Dollars in Millions)



                                         $6.0
             $5.1                     $6.0                $5.4            $5.4
                        $4.9                           $5.4             $5.4
         $5.1        $4.9


                                                                                                     N/A                    N/A            N/A           N/A            N/A
                                                                                                    N/A                    N/A            N/A            N/A            N/A
                                                                                                    2007                    2008          2009           2010           2011
                                                                                                   2007                    2008          2009           2010            2011
           2007         2008            2009             2010             2011                                                         Fiscal Year
        2007         2008             2009             2010             2011                                                          Fiscal Year
                                                                                        1
                                                                                           FTE—Full-Time Equivalent
                                     Fiscal Year                                         FTE—Full-Time
                                                                                       1 2
                                                                                                       Equivalent
                                                                                           DM and OIG FTEs are shown in Theme 5, Organizational Excellence.
                                  Fiscal Year                                          2
                                                                                         DM and OIG FTEs are shown in Theme 5, Organizational Excellence.




 T 
           his theme consists of three objectives which
                                                                                                                WORKFORCE EXCELLENCE
           contribute to the Secretary’s theme of Workforce                                                     WPOE RR K
                                                                                                                        FOFO
                                                                                                                           RRMCAENECXECREELSLU
                                                                                                                                             ENLTCSE
           Excellence. The following public benefits, achieve-                                                   P E R F O R M A N C E R E S U LT S
                                                                                                                     2
ments, and performance results are associated with each                                                          2
                                                                                                      Results
                                                                                             ReportedResults




objective.
                                                                                                Numberofof




                                                                                                                     1
                                                                                               Number




The Department continues to refine and develop programs to help                                                  1
                                                                                            Reported




train and retain a highly qualified workforce and avoid disruption in
the services it provides. Leadership priorities for improvement are
                                                                                                                     0
based on employee feedback to surveys, various skills assess-                                                    0        2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
ments, and comprehensive workforce analyses. While perfor-                                                               2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
                                                                                              Exceeded                                                          1   1          1
mance management systems are effective in rewarding high                                     Exceeded                                                           1   1          1
                                                                                              Met                                           1     1      1                1
performers, more targeted approaches are necessary to close                                  Met                                           1     1      1                 1
                                                                                               Slightly Below
                                                                                             Slightly Below
skill gaps in the entire workforce. Training and development                                   Improved
                                                                                             Improved
programs are based on competency assessments for mission-                                      Not Met
                                                                                             Not Met
critical occupations such as meteorologist, statistician, acquisition,
                                                                                        See Appendix A: Performance and Resource Tables for individual reported results.
engineer, and chemist.                                                                 See Appendix A: Performance and Resource Tables for individual reported results.




  170                                                            F Y   2 0 1 1   P E R F O R M A N C E                     A N D     A C C O U N T A B I L I T Y         R E P O R T
                                                                 Performance Section • themes 4, 5, and 6




                                                        Objective 25

  Recruit, grow, develop, and retain a high-performing, diverse workforce with the critical skills necessary
             for mission success, including the next generation of scientists and engineers (DM)


                                                         Public Benefits



T      he Department is implementing the President’s Hiring Reform Initiative that became effective November 1, 2010. This initiative
       is expected to streamline the process and increase the number of applicants who apply for positions thus attracting applicants
in mission-critical occupations. The Department’s front-end automated hiring system allows applicants to electronically submit their
resumes (in any format), and cover letters as mandated by the President’s initiative, enabling hiring managers and human resources
practitioners to reduce the processing time. In addition, the front-end system allows applicants to receive status notifications
electronically. The Department developed a Veterans Recruitment and Employment Operational Plan in FY 2010 that it will use over
the next few years as a model to develop an operational plan for recruiting veterans and persons with disabilities. The Department
will continue to provide retention incentives to retain skilled employees at all levels of the organization. The Department will
continue to implement its pay for performance systems that have proven to be positive factors in the scientific and engineering
fields, where historically, private sector pay scales for these difficult-to-fill positions are much higher than in the federal sector.



Achievements

Among the DM accomplishments in FY 2011 are:

●● Reduced the average time-to-hire to 75 calendar days in the third quarter of FY 2011 from 105 days in FY 2010 in support of the
   Presidential Memorandum dated May 11, 2010, “Improving the Federal Recruitment and Hiring Process.” This exceeds the OMB
   and Office of Personnel Management (OPM) target of 80 calendar days to hire, from the submission of a request to recruit to
   the Entrance on Duty. Significant quarterly improvements were achieved through policy and procedural modifications, the estab-
   lishment of automated tracking systems, comprehensive data collection and analysis, the creation of a Hiring Timeline Dashboard,
   and top leadership involvement and review.

●● Increased veteran new hires to 12.2 percent in FY 2011 (as of August 2011) from 10.2 percent in FY 2010, in support of Executive
   Order 13518, “Employment of Veterans in the Federal Government.” Enhanced employment opportunities for veterans were
   cultivated through the creation of a Veterans Hiring Dashboard, Office of Civil Rights co-sponsored hiring manager training on
   veteran recruitment and hiring authorities, advertisement in G.I. Jobs Magazine, participation in the 2011 Wounded Warrior Federal
   Employment Conference, and direct delivery of qualified disabled veteran resumes to hiring managers. Strategies for continued
   progress will be executed in accordance with the FY 2011 – 2012 Veterans Employment and Recruitment Operational Plan.

●● Obtained approval from OPM to utilize the Voluntary Early Retirement Authority and Voluntary Separation Incentive Program to
   assist in restructuring and streamlining the Department workforce to continue to meet mission goals during the current lean federal
   fiscal environment. Currently, the authority covers designated positions within certain units of ESA’s Bureau of Economic Analysis
   (BEA) and Census Bureau, International Trade Administration (ITA), Minority Business Development Agency (MBDA), NIST, NTIA,
   and the Office of the Secretary.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 171
Performance Section • themes 4, 5, and 6




                                           S UMMAR Y OF P ERFORMANCE


The Department uses the following measure to gauge the performance of the activities associated with this objective.


           Performance Measure (DM)                                  Target                              Actual                   Status
 Acquire and maintain diverse and highly              ●● Have new competency                  ●● Four occupations
 qualified staff in mission-critical occupations         models in place for three
                                                         mission-critical occupations for
                                                         use in workforce recruitment,
                                                         training, and development
                                                         activities
                                                      ●● Meet or exceed the 80-day            ●● 83 days
                                                         hiring goals mandated by                                                 Exceeded
                                                         OPM
                                                      ●● Train 100-200 participants           ●● 103 participants
                                                         on leadership development
                                                         programs via ALDP, ELDP, and
                                                         APCP
                                                      ●● Train 180-200 participants via       ●● 382 participants
                                                         Careers in Motion



FY 2011 Status

DM met or exceeded three of the four parts of this measure and was slightly below for the fourth.



F Y 2 0 1 1 M i ss e d T a r g e t s

   Measure       Acquire and maintain diverse and highly qualified staff in mission-critical occupations (DM)
 Subpart         Meet or exceed the 80-day hiring goals mandated by OPM
                 The deviation from the target was slight. In fact, the target was met in the third and fourth quarters. There was
 Explanation
                 no effect on overall program or activity performance.
                 Since the target was met in the third and fourth quarters, it is expected to be met in FY 2012. However,
 Action          services HR offices will continue to refine business processes, increase automation, issue guidance, enhance
                 communication, and maintain accountability in efforts to further reduce the average hiring timeline.



Historical Trends

DM has consistently met the different parts of this measure.




 172                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 Performance Section • themes 4, 5, and 6




                                                        Objective 26

          Create an optimally-led Department by focusing on leadership development, accountability,
                                        and succession planning (DM)


                                                         Public Benefits



B       y creating, sustaining, and strengthening its development of emerging leaders to assume leadership positions within all
        levels, the Department will ensure effective leadership during the Departmental changes that are sure to come within future
decades. A continuous cycle of improved performance will become the culture of the Department by putting systems for account-
ability in place that will drive performance and excellence.



Achievements

●● Received OPM notification that the Department Senior Executive Service (SES) performance management program was recom-
   mended to obtain full OPM and OMB certification for calendar year 2012 – 2013. With a certified appraisal system, the Department
   has the authority to increase the base salary of superior performing SES members above Executive Schedule level III up to level
   II and have access to the higher aggregate pay limit. Achieving full or provisional certification requires agency programs to meet
   specific criteria in the areas of accountability, alignment, measureable results, balance, consultation, organizational assessment and
   guidelines, oversight, training, and performance differentiation. As of April 2011, only 52 percent of certified SES appraisal systems
   were fully certified.

●● Launched an eight-month Executive Education Program Pilot for the continuing development of current SES members, in accordance
   with the revised regulations under Title 5, Code of Federal Regulations, Part 412. Upon the pilot’s completion, feedback from the
   29 SES participants was analyzed and used to support the redesign of the program for FY 2012, which will have a greater focus on
   the “Leading Change” and “Leading People” Executive Core Qualifications.


                                            S UMMAR Y OF P ERFORMANCE


The Department is in the process of developing measures to evaluate progress toward achieving this objective. Measures will appear
in the FY 2012 PAR.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   173
Performance Section • themes 4, 5, and 6




                                                         Objective 27

    Provide an environment that empowers employees and creates a productive and safe workforce (DM)


                                                          Public Benefits



I   n the current economic climate, an effective and efficient workforce will be more critical than ever to the continued success
    of the Department in achieving its diverse missions. This will require workplaces free of recognized hazards so personnel can
conduct their work safely in a variety of environments and the Department can provide its visitors and partners a safe experience.
Identifying and controlling exposures to occupational safety and health hazards are an essential part of everyone’s duties in the
Department. Doing so will enhance the Department’s safety culture and ensure that it remains an employer of choice.

The Department focuses on having its executives and managers responsible for safety programs in their bureaus actively participate in
safety activities, such as the Department’s Safety and Health Council meetings and awareness training opportunities. The Department
enhances the role of leadership by making certain that the executives, managers, supervisors, and employees have the knowledge,
skills, resources, and commitment in order to control hazards in the workplace and to strengthen efforts to protect employees,
contractors, visitors, and others who enter Department workplaces. One method of doing this is conducting a gap analysis and
preparing a written strategy to update and continuously improve the Department’s Safety and Health Program Manual so that it is a
comprehensive policy document to guide the bureaus’ occupational safety and health programs to ensure a culture of safety.



Achievements

●● Launched the Organizational Excellence Initiative (OEI) in response to the consultant recommendations resulting from a four-month
   comprehensive organizational and customer service assessment of the Office of Human Resources Management (OHRM).
   Leveraging current internal resources and subject matter expertise, more than 75 percent of the OHRM workforce volunteered to
   participate on four project teams that will produce 30 proposed deliverables to address multiple aspects of organizational design,
   including customer service, internal processes, technology, culture, strategic partnerships, and organizational structure. The initiative
   is overseen by top Department leadership on the OEI Governance Board and obtains Agency-wide human resources and finance
   executive input though the OEI Customer Advisory Board.

●● Obtain approval from OPM/OMB for an exception business case to allow the Department to begin to migrate to a Human Resources
   Management system provided by the Department of Treasury. Migration will begin with the Census Bureau in FY 2012.


                                            S UMMAR Y OF P ERFORMANCE


The Department is in the process of developing measures to evaluate progress toward achieving these objectives. Measures will
appear in the FY 2012 PAR.




 174                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                 Performance Section • themes 4, 5, and 6




                           Management Themes Program Evaluations


The following program evaluations were conducted on programs related to the management themes in FY 2011.

  Bureau        Reviewer                  Name of Evaluation                         Date                    Web site
 DM             OIG           Commerce Has Procedures in Place for                 07/27/2011   http://www.oig.doc.gov/Pages/
                              Recovery Act Recipient Reporting, but                             Commerce-Has-Procedures-in-
                              Improvements Should Be Made                                       Place-for-Recovery-Act-Recipient-
                                                                                                Reporting,-but-Improvements-Should-
                                                                                                Be-Made-.aspx

 DM             OIG           Commerce Needs to Strengthen Its Improper            03/25/2011   http://www.oig.doc.gov/Pages/
                              Payment Practices and Reporting                                   Commerce-Needs-to-Strengthen.aspx

 DM             OIG           Commerce Should Strengthen Accountability            10/27/2010   http://www.oig.doc.gov/Pages/
                              and Internal Controls in Its Motor Pool                           CommerceShouldStrengthen
                              Operations                                                        AccountabilityandInternalControls
                                                                                                inItsMotorPoolOperationsOIG-11-
                                                                                                004-A.aspx




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    175
Performance Section • themes 4, 5, and 6




 176                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
Financial
 S ection
     M e s s ag e f r o m t h e c h i e f f i na n c i a l o f f i c e r




Message from the Chief Financial Officer
 T 
        his FY 2011 Performance and Accountability Report provides        For example, the Department launched a Department-wide strategic
        financial and program performance information to enable           sourcing/cost reduction program built around specific commodities
        the Department’s stakeholders to understand and evaluate          with expected savings of $13 million to $23 million in FY 2012 in
the achievements that have been made relative to its mission and          addition to greater process efficiencies. The commodities, which
the resources with which it is entrusted. The report highlights the       include personal computers (PCs), wireless, print management,
Department’s performance, provides detailed financial information,        office supplies, small package delivery, software, professional and
and fulfills several statutory requirements, including the Reports        technical services, will use better contracting strategies and better
Consolidation Act of 2000, the Chief Financial Officers Act, the          management of Department resources to drive savings and effi-
Government Performance and Results Act, the Federal Managers’             ciencies. The Department validated reported administrative savings
Financial Integrity Act, and the Government Management Reform             through a new process, launched in April, 2011, after collaboration
Act.                                                                      between the Office of the Chief Financial Officer/Assistant Secre-
                                                                          tary of Administration (CFO/ASA) and the bureaus, and in consulta-
We are proud to report that in FY 2011 the Department of Commerce         tion with the OIG, including review and control with emphasis on
achieved an unqualified audit opinion for the thirteenth consecutive      appropriate visibility at all organizational levels.
year.
                                                                          While strengthening its financial management and driving savings
In addition, the Department successfully resolved a long-standing         and efficiencies, the Department remains committed to success-
significant deficiency in the Consolidated Financial Statement Audit      fully meeting its mission to help make American businesses more
concerning information technology security controls for financial         innovative at home and more competitive abroad. In the past year,
systems. The Office of the Chief Information Officer (OCIO) and           the Department launched CommerceConnect, a comprehensive
the Office of the Inspector General (OIG) collaborated to develop         portfolio of federal, state, local, and non-profit business assis-
a strategy to improve certification and accreditation (C&A). The          tance resources, including more than 70 Department programs.
most significant impact of this strategy has been the Department’s        By matching American businesses and entrepreneurs to specific
leverage of a tracking tool for security reporting and monitoring         business needs, the Department is helping them breakdown
to improve the quality of the C&A process. Accomplishments                programmatic silos and connect to the right resources to advance
resulting from the Department’s efforts to remove the information         their objectives. The Department is also leading in developing a
technology (IT) significant deficiency include developing the Cyber       White House initiative to expand this “no-wrong-door” customer
Security Strategic Plan with input of the Department’s operating          service model across the many government agencies. This initiative,
units; implementing a Cyber Security Development Program, a role-         called BusinessUSA, is focused on promoting exports and meeting
based training program offered Department-wide; and implementing          the highest priority service needs of small and medium-sized busi-
the IT Audit Working Group, a joint effort between the OCIO and           nesses, including but not limited to, those wanting to export.
the Office of Financial Management to resolve prior year findings
and design enterprise-wide solution. The Department received a            Moving forward, the Department remains committed to ensuring
significant deficiency in FY 2011 relating to the National Oceanic        strong financial management and leadership to ensure the appro-
and Atmospheric Administration (NOAA) accounting for satellites.          priate stewardship of public resources and efficient and effective
                                                                          delivery of mission critical programs. By putting in place strong
The Department also continued to participate in the government-           controls, working collaboratively within and outside the Department,
wide initiative to strengthen internal controls under the Federal         and focusing on accountability, transparency and performance, we
Managers’ Financial Integrity Act and Office of Management and            are hopeful that we can continue to build on the success of the
Budget (OMB) Circular A-123, and is currently engaged in enhancing        previous year.
both financial and non-financial controls. These efforts are a reflec-
tion of our commitment to excellence in managing financial systems
and safeguarding financial resources and investments. The Depart-
ment’s assessment for FY 2011 identified no material weaknesses                           Scott Quehl
in its financial internal controls.                                                       Chief Financial Officer
                                                                                          and Assistant Secretary for Administration
The Department is committed to driving savings and efficiencies by                        November 15, 2011
pursuing over $140 million in acquisition, personnel, facility, travel,
and related costs through its FY 2012 Administrative Savings Plan.



       178
                                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                    Financial
                M anagement
                            and
                    A nalysis
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                        FINANCIAL M ANAGE M ENT AND ANALYSIS




 U 
           nder the Secretary’s leadership, the Department is continuing to give the highest priority to providing accurate financial
           data to its internal and external customers, and to its accountability for all assets. Ensuring that there are strong
           internal controls throughout the Department remains a priority. The Department has created a financial management
environment that complies with federal laws and regulations and that provides its executives with timely, accurate financial and
performance information. This is evidenced with the Department continuing to receive unqualified audit opinions, maintaining
a single integrated financial system, and continuing its compliance with the Federal Financial Management Improvement Act
(FFMIA).

Highlights of accomplishments for FY 2011 and future initiatives are discussed further below.



                                         FINANCIAL MANAGEMENT SYSTEMS

The Department maintains an FFMIA-compliant financial management system, the Commerce Business Systems (CBS). CBS
provides reliable, timely information within a sophisticated security infrastructure. The system is capable of producing both
financial and budget reports from information generated within the financial management system. CBS consists of a Core
Financial System (CFS), including the Commerce Purchase Card System (CPCS) and the Budget and Execution Data Warehouse.
CBS is interfaced with the Commerce Standard Acquisition and Reporting System (CSTARS), the National Finance Center Payroll
System, and the Automated Standard Application for Payments (ASAP).

The financial information from CBS is integrated in the Corporate Database for consolidated financial reporting, resulting in a
single integrated financial management system. The Corporate Database is a commercial, off-the-shelf software package for
consolidating financial data and producing financial reports. The Corporate Database is an integrated solution that provides
financial statements and Adjusted Trial Balances reported at the Department, bureau, and Treasury Appropriation/Fund Group
level. It also provides the ability to perform data analysis and produce the Department’s footnotes, financial analysis reports, and
other additional information required for the government-wide financial statements.

During FY 2011, the Department accomplished the following initiatives:

   ●●   Continued Operations and Maintenance activities for CBS;

   ●●   Continued work on the Business Application Solutions (BAS) project (formerly known as the Future Financial and
        Administrative Planning Business Analysis). Determined the long-term viability of the legacy business system and began
        definition and planning of the Departmental modernization efforts;

   ●●   Continued to support the C.Award migration—upgrading the Commerce Standard Acquisition and Reporting System
        (CSTARS) contract writing and management system—for NOAA, Office of the Secretary, NIST and Census. Assisted
        the vendor with mock migrations for each bureau, arranging the training logistics and supporting the production migration
        preparation activities;

   ●●   Completed analysis and finalized the list of all standard Office of Management and Budget (OMB) and non-OMB object
        classes to be utilized by all Department bureaus;




                                                                                                                               181
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




  ●●   Continued to monitor bureau efforts in implementing standardized processes for identified accounting events, and track
       and measure the bureaus’ performance through performance metric reports;

  ●●   Continued to support the key areas of the Modernization Blueprint effort. This initiative facilitates a critical review and
       prioritization of the Department’s administrative business systems and provides a framework for managing projects from
       start through operation; and

  ●●   Conducted an analysis of E-Invoicing solutions to automate existing manual invoice processes and to support the
       Department’s goal of lowering the cost to process an invoice while streamlining the process. Initiated an Internet Payment
       Platform (IPP) Pilot Proof of Concept to determine if this is a viable option for the Department.

In FY 2012 and beyond, the Department will continue its efforts to enhance its financial systems. The Department plans to
accomplish the following:

  ●●   Continue Operations and Maintenance activities for CBS;

  ●●   Continue the Modernization Blueprint program, focus on maintaining a comprehensive inventory of programs, initiatives,
       and systems across the Chief Financial Officer/Assistant Secretary for Administration (CFO/ASA) in order to enable
       Department managers to prioritize and plan resources, and perform better analyses of programs and initiatives that are
       underway or planned through FY 2013;

  ●●   Complete the upgrade of CSTARS; the existing procurement and acquisition system to the web version of C.Award.

  ●●   Complete the IPP Pilot Proof of Concept;

  ●●   Maintain and possibly enhance the OFM/CSC Portal that provides for a unified gateway for access to Department
       administrative applications, including single sign-on and self-service administration, as well as hosting the Modernization
       Blueprint program; and

  ●●   Continue to monitor bureau efforts in implementing standardized processes for identified accounting events, and track and
       measure the bureaus’ performance through performance metrics reports.



                                                FINANCIAL REPORTING

The Department is committed to making financial management a priority, and significant efforts are being made to further
improve the management of its financial resources. The Department has received unqualified opinions on its consolidated
financial statements since 1999. The Department met the financial statement submission deadlines for FY 2011. The significant
deficiency cited from prior years relating to deficiencies in general information technology (IT) controls was resolved. These
achievements resulted from the Department’s commitment to strong management controls and accountability for its resources.
The Department received a significant deficiency in FY 2011 relating to the National Oceanic and Atmospheric Administration
(NOAA) accounting for satellites. In FY 2011, the Department conducted an assessment of the effectiveness of internal controls
over financial reporting in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix
A, including adhering to the risk-based three-year rotational testing plan. A Senior Management Council (SMC) and a Senior
Assessment Team (SAT) worked together to provide oversight guidance and decision-making for the A-123 implementation
process. The final report, which reported no material weaknesses, was incorporated into management’s overall assurance
statement provided under the requirements of the Financial Managers’ Financial Integrity Act (FMFIA). In addition, the
Department conducted an improper payment sample testing; the results revealed no significant improper payment or internal
control deficiencies. Overall, the Department’s assessments demonstrate that the Department has strong internal controls over



 182
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




the disbursement processes, the amounts of improper payment in the Department are immaterial, and the risk of improper
payment is low. See Appendix D for reporting details of the Improper Payments Information Act (IPIA) of 2002, as amended.

The Department accomplished the following initiatives that resulted in meeting the aforementioned goals:

   ●●   I	mplemented, effective 2011, the payment recapture audit provisions of the Improper Payments Elimination and Recovery
         Act (IPERA) of 2010, including an evaluation of the cost-effectiveness of expanding payment recapture audits to additional
         categories of disbursements. As a result of this evaluation, the Department expanded payment recapture auditing to
         grants and other cooperative agreements (i.e. financial assistance), and a payment recapture audit of Department-wide
         grants and other cooperative agreements was carried out in 2011. The Department also continues to perform payment
         recapture audits of bureaus’ closed contracts/obligations on a rotational basis, and carried out a payment recapture audit
         of closed contracts/obligations for NTIA in 2011;

   ●●   I	mplemented, effective FY 2011, revised single-asset capitalization thresholds, and new personal property bulk purchase
         capitalization thresholds, for several bureaus/reporting entities for property, plant, and equipment acquisitions;

   ●●   Each of the Department’s bureaus/reporting entities has completed over a one to three-year period (depending on the
        size of the entity), an initial improper payment risk assessments covering all programs/activities as required by OMB
        Circular A-123, Appendix C. These improper payment risk assessments of the entity’s programs/activities also include
        assessments of the control, procurement, and grants management environments, and are now in the continuous process
        stage of being updated or revised every three years, unless significant changes occur, in which case an assessment will
        be updated quicker;

   ●●   Each of the Department’s bureaus/reporting entities has completed an entity-level controls assessment as required by
        OMB Circular A-123, Appendix A;

   ●●   Prepared and monitored CAPs for the significant deficiency and management letter comments and monitored progress
        toward their completion throughout the year;

   ●●   Facilitated intragovernmental transaction reconciliations using the Department’s Corporate Database application to
        collect, extract, and report on a quarterly basis its intragovernmental account balances, by trading partner, to the Treasury
        Department. The Department took a proactive approach of initiating contact with all trading partner agencies to reconcile
        large differences. Although the Department has seen an improvement in trading partners’ participation, continued
        improvement is needed in order to reconcile all differences;

   ●●   Quarterly financial metrics were compiled, analyzed, and reported to individual bureaus which also included a status report
        comparing bureau results with Departmental goals. The results of bureaus’ metrics and any corrective actions needed
        were discussed at the bureau CFOs’ individual monthly meetings;

   ●●   Held monthly or quarterly meetings led by the Department’s Deputy CFO with individual bureau CFOs to discuss financial
        management issues, including financial statements, OMB Circular A-123, and financial performance metrics. These
        meetings were in addition to the Department’s monthly CFO Council meetings led by the Department’s CFO and the
        monthly Finance Officer meetings led by the Deputy CFO;

   ●●   Held meetings throughout the fiscal year with the Office of Inspector General (OIG) and independent auditors to ensure
        timely completion of the audit and issuance of the financial statements;

   ●●   Published guidance on the preparation and submission of financial statements, including a calendar of milestone dates.
        Each quarter, with the participation of all bureaus, guidance was reviewed and updated to reflect lessons learned and to




                                                                                                                               183
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




        identify best practices among the bureaus. When necessary, task forces were formed to resolve issues that could have
        impeded the Department’s ability to produce timely, accurate financial statements.

In FY 2012 and beyond, the Department plans to accomplish the following:

   ●●   Continue to enhance OMB Circular A-123, Management’s Responsibility for Internal Controls, process and monitor the
        implementation of the CAPs for any identified deficiencies as a result of the A-123 and financial statement audit process;

   ●●   Continue to identify areas that will facilitate the acceleration of providing accurate, reliable financial information to Department
        managers and central agencies. This will be achieved through ongoing meetings and workgroups among the Department’s
        financial managers and participation in government-wide financial management committees and workgroups;

   ●●   Continue to monitor and minimize improper payments, and continue to work with OMB and Treasury Department as
        appropriate, on the future implementation of the Presidential Memorandum regarding “Do Not Pay List” screening
        requirements;

   ●●   	 ontinue to work with OMB, Treasury Department, and the government-wide Central Reporting Team to improve the
        C
        intragovernmental transactions reconciliation process; and

   ●●   Continue to work with Treasury Department to implement Government-wide Treasury Account Symbol Adjusted Trial
        Balance System (GTAS) for production in December 2013.



                                                    GRANTS MANAGEMENT

Under the CFO/ASA, the Office of Acquisition Management (OAM) is responsible for the Department’s enterprise-wide grants
management policy, projects, and oversight. The Department’s focus is to standardize policy and procedures for its grant and
cooperative agreement programs in order to strengthen compliance, work toward a single automated grants management
system, and enhance/formalize workforce education. Targeted efforts continue to transform the decentralized Department grants
management community into an effective and efficient partnership. The sharing of resources and responsibilities to accomplish
enterprise goals is a recurring theme throughout the partnership effort.

Integral to the Department’s effort to move aggressively into the world of electronic grants is the continued utilization of the
National Oceanic and Atmospheric Administration’s (NOAA) Grants Online system, a back-office solution to the Grants.gov
storefront. The system is designed to facilitate efficiencies through standardized business processes and provide a direct
interface to other Departmental systems and with grant recipients. It continues to demonstrate significant success in reducing
paperwork, increasing accountability, and simplifying the post award process. The Grants Online system has also been identified
as the solution to standardizing grants procedures in the Department. Grants Online is a paperless electronic grants management
system that has gained government-wide recognition for streamlining and accelerating the grants application process. This
standardization effort is successfully aligning internal processes for the federal Grants Management Line of Business (GMLOB)
system consolidation efforts.

System consolidation plans have moved forward in FY 2011. In October 13, 2010, the Department CFO advised the grant making
bureaus at the National Institute of Standards and Technology (NIST), NOAA, and the Economic Development Administration
(EDA) that the Department had committed to OMB to consolidate all the bureau grant management systems within the
Department to NOAA’s Grants Online system if a planned analysis demonstrated that it makes good business sense. Accordingly,
the Department has secured the services of a contractor to complete a gap analysis between Grants Online, employed by NOAA,
and the grants systems employed by NIST, known as Grants Management Information System (GMIS), and the system employed



 184
                                                   F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




by the EDA, known as the Operations Planning and Control System (OPCS). The gap analysis will determine what gaps exist
between Grants Online functionality and the current requirements of both EDA and NIST grant management processes. The
gap analysis will further include the identification of potential solutions to close the gaps, resources needed, and the resulting
impacts. The gap analysis is scheduled to be finished by the end of November 2011.

This action continues a process already set in motion by the migration of the grant management functions of the International
Trade Administration (ITA), the Minority Business Development Administration (MBDA), and the Office of the Secretary (OS)
from OAM to NOAA Grants Online. OAM coordinates quarterly Departmental Grants Council meetings and works closely with
the OIG and the Office of General Counsel to implement sound policy and ensure consistency for the Department’s financial
assistance programs. The Department is committed to the goal of strengthening its grant operations and improving its business
processes to provide better services to its customers in the federal grant recipient community. OAM has formally instituted a
process of Grant Management Reviews which requires that the respective grants divisions at NOAA, NIST, and EDA undergo a
review of its functions and processes once every three years. The reviews are conducted by multi-bureau teams lead by OAM.
The first of these reviews was completed at NIST in FY 2010. A second review was performed at NOAA in FY 2011.

The Department is currently conducting a comprehensive Grants Internal Control Assessment involving all grant-making bureaus
and service providers to include grants program process mapping, risk identification, development and completion of a grants
program and grants administration internal control risk assessment questionnaire, evaluation and scoring of risk categories, and
eventual testing of grant internal controls. Incorporating risk management into the grants process will help to ensure effective
use of resources and achievement of intended program objectives and mission.

The OAM Director and the Director of the Grants Management Division (GMD) serve on the Grants Executive Board and the
Grants Policy Committee, participating in workgroups and pilot activities. The Department is now fully compliant with Grants.gov
milestones and has revised its Grants and Cooperative Agreements Manual and Standard Grants Terms and Conditions to
recognize the emerging growth of electronic government. Continued review and updating of the manual will occur to keep
pace with the new requirements engendered by the transition to Grants.gov as the business process model for federal financial
assistance programs.

The Department made significant progress in meeting the data-reporting requirements of the Federal Funding Accountability
and Transparency Act of 2006 (PL 109-282). Significant technical requirements were presented by this act. As of FY 2011, the
Department continues to be up to date with its three grant-making bureaus in providing accepted data to the universal Web site,
USAspending.gov, consistent with the goal established in the FY 2008 PAR.

OAM GMD is the point of contact for Catalogue of Federal Domestic Assistance (CFDA) updates and represents the Department
at CFDA User Group meetings. GMD coordinates the response to annual CFDA data calls. OAM GMD continues to hold the
responsibility for coordinating and processing Individual Background Screenings utilizing form CD-346 (Applicant for Funding
Assistance) which passed from the OIG to OAM/GMD in FY 2010. As of mid-August 2011, GMD had processed 490 Individual
Background Screenings for Department bureaus through a Federal Bureau of Investigation database. The relative reduction at
this date may be attributable to the hold in processing awards connected to the delay in the passage of a Continuing Resolution
by Congress.

OAM has taken further steps to provide guidance to improve accuracy in data quality for all Department financial assistance
programs. Grants officers and subordinate supervisors along with program offices are required to verify that data reported
to USASpending.gov is accurate and consistent. This element will be a performance metric in grants management reviews
conducted by GMD. On February 10, 2011, the OMB Controller announced that the Federal Assistance Awards Data System




                                                                                                                             185
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




(FAADS) is terminated for FY 2011 and beyond. Accordingly, the Department is taking the following steps pursuant to OMB
guidance:

   ●●   Data will be submitted via FAADS for FY 2010, and any required modifications of FY 2010 data should continue to be
        coordinated with the Census Bureau.

   ●●   Effective for FY 2011, the collection of federal financial assistance data will be done through the existing FAADS+ collection
        process used to populate USAspending.gov.

   ●●   There will be no new submissions of FY 2011 data via FAADS.

The Department’s grant awards are processed by the grant management systems of the three major grant making bureaus—NIST,
NOAA, and EDA. These bureaus upload grant award data monthly to USASpending.gov through the Data System Validation Tool
Web site. In addition to their own grant awards, these bureaus serve as grants offices for the programs of smaller Department
grant making bureaus including NTIA, ITA, and OS.

The Department bureaus have made progress in reducing the backlog of expired awards and deobligating unexpired balances of
funds from these awards during FY 2011. The following table illustrates the number of awards closed and amount deobligated
by each bureau from October 1, 2010 through July 31, 2011 as well as the expired awards remaining to be closed and funds
pending deobligation. NTIA, ITA and OS are included in the NOAA data below as NOAA is their servicing bureau.


                                       Awards                  Funds               Awards Pending            Funds Pending
                Bureau                 Closed                Deobligated              Closure                 Deobligation
         NOAA                             678                $	 19,299,784                  30                 $	 2,870,281
         NIST                             698                $	 13,145,636                 846                 $	 25,995,330
         EDA                              141                $	 24,108,148                 105                 $	 10,829,923


Under OMB circulars, organizations receiving federal awards are assigned to a single federal agency (cognizant agency) which
acts on behalf of all federal agencies in approving indirect cost and other rates for that organization. The Department is responsible
for reviewing indirect cost proposals (IDC) submitted by assigned grantee organizations and, based on those reviews, negotiates
appropriate indirect cost rates. OAM’s responsibility for the management of this program continued throughout the fiscal year.
New rate review procedures that were implemented during FY 2007 produced greater levels of financial analysis that resulted
in financial savings to the Department through indirect cost rate adjustments from grantees’ proposed rates. In FY 2011, GMD
expects to approve in excess of 100 IDCs. Program focus for the coming year will include continued implementation of stronger
internal controls.

OAM will continue to actively seek opportunities to support government-wide goals of transparency and data quality
management.




 186
                                                 F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                                                        HUMAN CAPITAL

Both the President and Congress recognize that the federal workforce is central to the delivery of services to the U.S. public.
Acknowledging that people are the key to mission accomplishment, Departmental leadership continues to implement and
evaluate programs to ensure that there is succession planning in the area of financial management. Internship and leadership
development programs are used as vehicles for making progress in the recruitment and retention of a highly-skilled and diverse
workforce. Internship programs are implemented through a variety of sources to provide finance and accounting majors an
opportunity to gain hands-on experience, while introducing potential future employees to the opportunities that exist at the
Department. Ongoing training and development opportunities are offered as a component of continuous learning in the area of
financial management.

The Department continued its recruitment efforts in the area of financial management by maintaining its partnership with the
National Academy Foundation (NAF) Academy of Finance (AOF). The NAF AOF students are brought on-board through the
Student Temporary Employment Program to enhance their individual and collective learning experiences in the finance and
accounting fields. At the completion of the eight weeks of the NAF program, students make presentations to Department
leaders to demonstrate newly acquired skills in their respective areas. Departmental supervisors monitor the performance of
the interns throughout their appointment, and after successful completion, many supervisors have extended the temporary
appointment or utilized other programs (i.e., Student Career Experience Program) to bring in entry-level talent. In FY 2011, the
Department recruited six AOF high school students for the summer who were placed across finance offices in bureaus and
organizational units including, EDA, ITA, NOAA, and OFM. Additionally, four previous NAF interns were asked to return as
temporary appointments to the Census Bureau, the Bureau of Economic Analysis (BEA), and NOAA.

In addition to the recruitment efforts being implemented to attain a highly-skilled workforce in the area of financial management,
the Department has succession planning strategies in place, including the development of competencies within the current
workforce. As one of the Department’s recognized mission-critical occupations, accounting and budgeting series employees
at the GS-7 through GS-15 and equivalent levels are eligible to apply for the following major leadership development programs:
Leadership Education and Development Certificate Program, Aspiring Leaders Development Program, Executive Leadership
Development Program, and Senior Executive Service Candidate Development Program. These program activities include
competency assessments, formal classroom training, developmental assignments, seminars, action learning task team projects,
and mentoring sessions.



                                                Debt Management


                                        RECEIVABLES AND DEBT MANAGEMENT




 T 
         he Department has incorporated the principles of the Credit Reform Act of 1990 into the operations of its credit
         and debt programs. Prescreening procedures, account-servicing standards, determined collection of delinquent
         debt, inventory management, and asset disposition standards have helped to diminish significantly the amount of
risk inherent in credit programs. These procedures were established to ensure that credit costs are properly identified and
controlled, that borrowers’ needs are met, and that costs to the taxpayers are minimized.




                                                                                                                             187
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




The Department’s gross receivables increased 15.1 percent, from $593 million at September 30, 2010 to $682 million at
September 30, 2011, as reported on the Department’s Treasury Report on Receivables (TROR). The TROR is the primary means
for the Department to provide comprehensive information on its gross receivables and delinquent debt due from the public. Debt
over 180 days delinquent decreased from just under $40 million at September 30, 2010 to $ 39 million at September 30, 2011.
Total delinquencies as a percentage of gross receivables decreased from 7.5 percent at September 30, 2010 to 6.4 percent at
September 30, 2011, due to a significant increase in gross receivables.

                                                                    The Debt Collection Improvement Act of 1996 established
                                                                    the Treasury Department as the collection agency for eligible
                                                                    federal agency debts that are more than 180 days delinquent.
                                                                    It also established Treasury’s Financial Management Service
                                                                    as the federal government’s debt collection center. Nearly
                                                                    $36 million in delinquent debt has been referred to Treasury
                                                                    for cross-servicing since FY 2002. Currently, over 50 percent
                                                                    of the Department’s overall delinquent debt that is eligible
                                                                    for referral to Treasury is in litigation with the Department of
                                                                    Justice for enforced collection.

                                                                    During FY 2001, the issuance of the revised Federal
                                                                    Claims Collection Standards and the revised OMB Circular
                                                                    A-129, Policies for Federal Credit Programs and Non-Tax
                                                                    Receivables, provided agencies greater latitude to maximize
                                                                    the effectiveness of federal debt collection procedures. Since
                                                                    then, the Department has utilized all the tools available to
                                                                    improve the management of its debt.




 188
                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                                                P AY M ENT P RACTICES

Prompt Payment




 T 
                                                                                          T I M E LY V E N D O R PAY M E N T
         he Prompt Payment Act of 1982 generally requires
         agencies to pay their bills to vendors on a timely basis
         (within 30 days of receipt of relevant documents),
and to pay interest penalties when payments are made
late. The Department closely monitors its prompt payment




                                                                          PERCENTAGE
performance, and the bureaus submit quarterly reports of
prompt payment performance to the Deputy Chief Financial
Officer.

The Department has decreased slightly its prompt payment
performance to 98 percent in FY 2011 from 99 percent in
FY 2010. The number of invoices with late-payment interest
penalties remained steady with 5,108 in FY 2011 and 5,102
in FY 2010. The Department continues to focus on improving
its prompt payment percentage by working closely with its
bureaus to identify opportunities for new or improved business processes. For example, the Department conducted an analysis
of E-invoicing solutions to automate existing manual invoice processes, and initiated an Internal Payment Platform (IPP) Pilot
Proof of Concept to determine whether this would be a viable option.

A September 2011 OMB memorandum, Accelerating Payment to Small Businesses for Goods and Services, outlines a new
Executive Branch policy that, to the full extent permitted by law, agencies shall make their payments to small business contractors
as soon as practicable, with the goal of making payments within 15 days of such receipt. This policy will improve cash flow
for small businesses and provide them with a more predictable stream of resources, and will have the effect of preserving and
increasing small business participation in federal contracting, which benefits the federal agencies and taxpayers. The Department
will implement this new payment policy for small business contractors in FY 2012.

Bankcards

The Department is committed to the use of bankcards (purchase cards) as a means of streamlining Departmental procurements.
Bankcard usage is closely monitored, and those that are no longer needed are promptly closed. The Department has incorporated
more effective oversight and risk management reviews relative to purchase card accounts that are inactive over an 18 month
period. For inactive accounts, the Department determines if there is a need for the card; if it is determined that there is not a
sufficient need for the card, the account is subsequently closed. Additionally, more stringent training requirements are required
for employees with purchase cards, which has contributed to the decrease over the years in the number of bankcards issued
and in use by the Department.

The Department has incorporated the use of the purchase card for existing Departmental payment vehicles, when possible, to
enhance Departmental efficiency for disbursements and increase purchase card refunds.

Due to findings identified in FY 2010 through internal testing of the Purchase Card cycle under OMB Circular A-123, Appendix A, the
Department hired an independent contractor to perform a full Department-wide purchase card review during FY 2011. This review



                                                                                                                               189
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y        R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




included data mining, analyzing and testing data, updating internal control documentation, developing communications and training
programs, and improving the Department’s Purchase Card program. The independent contractor concurred with the Department’s
findings, and identified additional findings and recommendations for Department-wide corrective actions. The Department
developed corrective action plans that are tracked to ensure timely resolution of all the findings and recommendations identified. The
Department plans to test the Purchase Card cycle in FY 2012 through the OMB Circular A-123, Appendix A process. The Department
continues to monitor the internal controls surrounding bankcard purchases to ensure that all such purchases are legal and proper.



          ANALYSIS OF FY 2 0 1 1 FINANCIAL CONDITION AND RES U LTS


Composition of Assets and Assets by Responsibility Segment




 T       he composition (by percentage) and distribution (by responsibility segment) of the Department’s assets changed
         somewhat from September 30, 2010 to September 30, 2011. Fund Balance with Treasury decreased from 75 percent of
total assets at September 30, 2010 to 69 percent of total assets at September 30, 2011. General Property Plant and Equipment,
Net increased from 21 percent of total assets at September 30, 2010 to 27 percent of total assets at September 30, 2011. As a
result of the above fluctuations (explained in Trends in Assets section below), ESA’s assets decreased from 10 percent of total
assets at September 30, 2010 to 4 percent of total assets at September 30, 2011.

Total assets amounted to $31.40 billion at September 30, 2011. Fund Balance with Treasury of $21.66 billion is the aggregate
amount of funds available to make authorized expenditures and pay liabilities. General Property, Plant, and Equipment, Net of
Accumulated Depreciation (General PP&E) of $8.36 billion includes $5.48 billion of Construction-in-progress, primarily of satellites
and weather measuring and monitoring systems; $1.05 billion of Satellites/Weather Systems; $972 million of Structures, Facilities,
and Leasehold Improvements; and $866 million of other General PP&E. Direct Loans and Loan Guarantees, Net of $566 million
primarily relates to NOAA’s direct loan programs. Other Assets of $809 million primarily includes Advances and Prepayments of
$416 million; Accounts Receivable, Net of $239 million; and Inventory, Materials, and Supplies, Net of $98 million.




 190
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Trends in Assets

Total Assets decreased $3.03 billion or 9 percent, from $34.43 billion at September 30, 2010 to $31.40 billion at September 30,
2011. Fund Balance with Treasury decreased $4.12 billion or 16 percent, from $25.79 billion to $21.66 billion primarily due to
significantly decreased appropriations and significantly increased rescissions for Census Bureau as a result of the completion of
the 2010 Decennial Census, and a significant increase in payments to grantees for NTIA’s Broadband Technology Opportunities
Program. General PP&E, Net increased $968 million or 13 percent, from $7.39 billion to $8.36 billion, mainly due to an increase
in NOAA Construction-in-progress of $1.17 billion, primarily for satellite programs. Other Assets increased by $97 million or
14 percent, primarily due to an increase of $73 million in NOAA Accounts Receivable with an oil company for restoration activities
related to the 2010 Deepwater Horizon oil spill.




Composition of Liabilities and Liabilities by Responsibility Segment

The composition (by percentage) and distribution (by responsibility segment) of the Department’s liabilities remained consistent
from September 30, 2010 to September 30, 2011. Total liabilities amounted to $4.59 billion at September 30, 2011. Unearned
Revenue of $1.37 billion represents the portion of monies received from customers for which goods and services have not
been provided or rendered by the Department. Federal Employee Benefits Liability of $808 million is composed of the actuarial
present value of projected benefits for the NOAA Corps Retirement System ($524 million) and the NOAA Corps Post-retirement
Health Benefits ($48 million), and Actuarial FECA Liability ($236 million), which represents the actuarial liability for future workers’
compensation benefits. Accrued Grants of $596 million, which relates to a diverse array of financial assistance programs and
projects, includes EDA’s accrued grants of $385 million for its economic development assistance funding to state and local
governments. Accrued Payroll and Annual Leave of $579 million includes salaries and wages earned by employees, but not
disbursed as of September 30, 2011. Debt to Treasury of $540 million consists of monies borrowed primarily for NOAA’s direct
loan programs. Accounts Payable of $432 million consists primarily of amounts owed for goods, services, or capitalized assets
received, progress on contract performance by others, and other expenses due. Other Liabilities of $262 million primarily includes
Environmental and Disposal Liabilities of $63 million, Accrued Benefits of $48 million, an accrued liability of $42 million related
to the NOAA satellites program, Accrued FECA Liability of $30 million, Resources Payable to Treasury of $21 million, ITA Foreign
Service Nationals’ Voluntary Separation Pay Liability of $12 million, and Capital Lease Liabilities of $10 million.




                                                                                                                                  191
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Trends in Liabilities

Total Liabilities decreased $89 million or 2 percent, from $4.68 billion at September 30, 2010 to $4.59 billion at September 30, 2011.
Accrued Grants decreased by $170 million or 22 percent, from $766 million to $596 million, primarily resulting from a decrease of
$103 million in EDA’s Accrued Grants, mainly due to reduced grantee expenditures related to previous funding received under the
American Recovery and Reinvestment Act of 2009, and received under a FY 2010 supplemental appropriation for a major storms
and flooding disaster that occurred in 2010. NTIA’s Accrued Grants also decreased by $79 million, mainly due to a refinement
in the grant accrual methodology for the Broadband Technology Opportunities Program. There was a decrease of $32 million or
93 percent, from $34 million to $2 million, in NTIA’s Spectrum Auction Proceeds Liability to FCC. This liability represents FCC
auction proceeds for which licenses have not yet been granted by FCC. During FY 2011, the liability was reduced due to the
payment of FCC administrative fees for developing and implementing the auction program. Unearned Revenue increased by
$42 million or 3 percent, from $1.33 billion at September 30, 2010 to $1.37 billion at September 30, 2011, primarily due to a $74
million increase in USPTO’s Unearned Revenue from patent and trademark fees. Federal Employee Benefits Liability increased
$39 million or 5 percent, from $769 million to $808 million, primarily due to an increase of $21 million in the NOAA Corps




 192
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Retirement System Liability, and from the effect of increased Decennial Census employees on the valuation of the Department’s
Actuarial FECA Liability. Debt to Treasury increased $22 million or 4 percent, from $518 million to $540 million, mainly due to new
borrowings in FY 2011 for NOAA’s direct loan programs.

Composition of and Trends in Financing Sources

The Department’s Financing Sources, shown on the Consolidated
Statement of Changes in Net Position, are traditionally obtained
primarily from Appropriations Received, Net of Reductions.
The composition (by percentage) and dollar amount of the
Department’s financing sources changed significantly from FY 2010
to FY 2011, mainly due to the large decrease in Appropriations
Received of $6.07 billion or 87 percent, for Census Bureau’s
Periodic Censuses and Programs fund group, as well as $1.74
billion of rescissions in FY 2011 for this fund group, as compared to
$129 million of recissions in FY 2010, as a result of the completion
of the 2010 Decennial Census.

Other typical Financing Sources include net transfers to and from
other federal agencies without reimbursement, and imputed
financing sources from costs absorbed by other federal agencies.

Total Financing Sources decreased $7.79 billion or 55 percent, from $14.08 billion for FY 2010 to $6.29 billion for FY 2011.
Appropriations Received, Net of Reductions decreased by $7.60 billion or 57 percent, from $13.41 billion for FY 2010 to $5.81
billion for FY 2011, primarily due to the large decrease in Appropriations Received for Census Bureau, and the large FY 2011
rescissions for the Census Bureau.

FY 2011 Net Cost of Operations by Theme

In FY 2011, Net Cost of Operations amounted to $9.23 billion, which
consists of Gross Costs of $12.42 billion less Earned Revenue of
$3.19 billion.

Theme 1, Economic Growth, includes Net Program Costs of
($131) million (Gross Costs of $2.11 billion less Earned Revenue of
$2.24 billion) for the U.S. Patent and Trademark Office’s (USPTO)
patents and trademark programs. The issuance of patents provides
incentives to invent and invest in new technology by allowing
innovators the opportunity to benefit from their discoveries.
Registration of trademarks assists businesses in protecting their
investments and safeguards consumers against confusion and
deception in the marketplace by providing notice of trademarks in
use. Through dissemination of patent and trademark information,
the Department promotes a global understanding of intellectual
property protection and facilitates the development and sharing of
new technologies worldwide. Theme 1 also includes Net Program




                                                                                                                             193
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Costs of $714 million (Gross Costs of $845 million less Earned Revenue of $131 million) for NIST’s Measurement and Standards
Laboratories. These laboratories are the stewards of the Nation’s measurement infrastructure, and provide measurement
methods, reference materials, test procedures, instrument calibrations, fundamental data, and standards that comprise essential
tools for research, production, and buyer-seller transactions. NTIA’s programs and activities also support Theme 1, with Net
Program Costs of $1.00 billion (Gross Costs of $1.03 billion less Earned Revenue of $25 million). NTIA serves as the principal
adviser to the President on domestic and international communications and information policy-making, promotes access to
telecommunications services for all Americans and competition in domestic and international markets, manages all federal use of
the electromagnetic spectrum and generally promotes efficient use of spectrum, and conducts telecommunications technology
research, including standards-setting in partnership with business and other federal agencies. ITA’s programs and activities also
support Theme 1, with Net Program Costs of $472 million (Gross Costs of $494 million less Earned Revenue of $22 million). ITA
assists the export growth of small and medium-sized businesses, enforces U.S. trade laws and trade agreements, monitors and
maintains trading relationships with established markets, promotes new business in emerging markets, and improves access
to overseas markets by identifying and pressing for the removal of trade barriers. Theme 1 also includes Net Program Costs
of $351 million (Gross Costs of $361 million less Earned Revenue of $10 million) for EDA. EDA helps distressed communities
address problems associated with long-term economic distress, as well as sudden and severe economic dislocations including
recovering from the economic impacts of natural disasters, the closure of military installations and other federal facilities, changing
trade patterns, and the depletion of natural resources.

Theme 2, Science and Information, includes Net Program Costs of $2.27 billion (Gross Costs of $2.40 billion less Earned Revenue
of $132 million) for NOAA’s programs and activities related to improving weather, water quality, and climate reporting and
forecasting, as well as supporting economic growth through improved innovation and technology. NOAA develops and procures
satellite systems, aircraft, and ships to examine oceanic and atmospheric patterns worldwide and to provide information on
weather patterns and forecasts. The Census Bureau also supports Theme 2, with Net Program Costs of $1.54 billion (Gross
Costs of $1.83 billion less Earned Revenue of $292 million) for the Census Bureau. The Census Bureau carries out the Decennial
Census, periodic censuses, and demographic and other surveys, and prepares and releases targeted data products for economic
and other programs.

Theme 3, Environmental Stewardship, includes Net Program Costs of $2.38 billion (Gross Costs of $2.66 billion less Earned
Revenue of $278 million) related to NOAA’s stewardship of ecosystems, which reflects NOAA’s mission to conserve, protect,
manage, and restore fisheries and coastal and ocean resources. The Department has a responsibility for stewardship of the marine
ecosystem and for setting standards to protect and manage the shared resources and harvests of the oceans. The Department
strives to balance sustainable development and healthy functioning marine ecosystems, and to conserve, protect, restore, and
better manage resources.



                 LI M ITATIONS OF THE FINANCIAL STATE M ENTS

These financial statements have been prepared to report the overall financial position and results of operations of the Department,
pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the books and records of the
Department in accordance with the form and content prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of the U.S. government, a sovereign
entity. One implication of this is that liabilities cannot be liquidated without legislation that provides the resources to do so.




 194
                                                 F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                 P rincipal
                 Financial
                S tatements
                                                                                       P RINCI P AL FINANCIAL STATE M ENTS



United States Department of Commerce Consolidated Balance Sheets
As of September 30, 2011 and 2010 (In Thousands)
                                                                                                        FY 2011             FY 2010

 ASSETS
        Intragovernmental:
        Fund Balance with Treasury (Notes 2 and 18)                                             $   21,661,030      $   25,785,547
        Accounts Receivable (Note 3)                                                                    98,360              84,479
        Advances and Prepayments                                                                       415,683             400,042
        Total Intragovernmental                                                                     22,175,073          26,270,068

        Cash (Note 4)                                                                                       3,466               3,616
        Accounts Receivable, Net (Note 3)                                                                 140,846              70,780
        Direct Loans and Loan Guarantees, Net (Note 5)                                                    566,250             540,147
        Inventory, Materials, and Supplies, Net (Note 6)                                                   97,823              98,326
        General Property, Plant, and Equipment, Net (Note 7)                                            8,362,263           7,394,711
        Other (Note 8)                                                                                     53,320              55,122
 TOTAL ASSETS                                                                                   $   31,399,041      $   34,432,770

 Stewardship Property, Plant, and Equipment (Note 23)

 LIABILITIES
        Intragovernmental:
        Accounts Payable                                                                        $         88,455    $         60,088
        Debt to Treasury (Note 10)                                                                       540,001             517,930
        Other
        	 Spectrum Auction Proceeds Liability to Federal Communications Commission (Note 18)        	      2,436        	     33,838
        	 Resources Payable to Treasury                                                                   21,448              18,899
        	 Unearned Revenue                                                                               338,657             373,921
        	 Other (Note 11)                                                                                 90,668             104,344
        Total Intragovernmental                                                                         1,081,665           1,109,020

        Accounts Payable                                                                                 343,280             402,605
        Loan Guarantee Liabilities (Notes 5 and 16)                                                          563                 565
        Federal Employee Benefits (Note 12)                                                              808,482             769,035
        Environmental and Disposal Liabilities (Note 13)                                                  63,377              54,649
        Other
        	 Accrued Payroll and Annual Leave                                                                578,952            561,154
        	 Accrued Grants                                                                                  595,721            766,204
        	 Capital Lease Liabilities (Note 14)                                                              10,068              9,278
        	 Unearned Revenue                                                                              1,035,867            958,474
        	 Other (Note 11)                                                                                  73,153             49,181
 TOTAL LIABILITIES                                                                              $       4,591,128   $       4,680,165

 Commitments and Contingencies (Notes 5, 14, and 16)                                                	

 NET POSITION
       Unexpended Appropriations
       	 Unexpended Appropriations - Earmarked Funds (Note 21)                                  $ 	 3,390,451       $ 	 4,099,319
       	 Unexpended Appropriations - All Other Funds                                                5,829,206           8,782,873
       Cumulative Results of Operations
       	 Cumulative Results of Operations - Earmarked Funds (Note 21)                               10,073,516          10,189,816
       	 Cumulative Results of Operations - All Other Funds                                          7,514,740           6,680,597
 TOTAL NET POSITION                                                                             $   26,807,913      $   29,752,605
 TOTAL LIABILITIES AND NET POSITION                                                             $   31,399,041      $   34,432,770

The accompanying notes are an integral part of these statements.



                                                                                                                                 197
F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statements of Net Cost

For the Year Ended September 30, 2011 (Note 17) (In Thousands)

                                                                                                                               FY 2011


Theme 1: Economic Growth
  Gross Costs                                                                                                           $          5,315,520
  Less: Earned Revenue                                                                                                         	 (2,450,163)

  Net Program Costs                                                                                                            	 2,865,357


Theme 2: Science and Information
  Gross Costs                                                                                                                      4,436,424
  Less: Earned Revenue                                                                                                         	    (481,062)

  Net Program Costs                                                                                                                3,955,362


Theme 3: Environmental Stewardship
  Gross Costs                                                                                                                      2,667,910
  Less: Earned Revenue                                                                                                         	    (254,829)

  Net Program Costs                                                                                                                2,413,081


NET COST OF OPERATIONS                                                                                                  $          9,233,800



For the Year Ended September 30, 2010 (Note 17) (In Thousands)

                                                                                                                               FY 2010


Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic Growth for American Industries,
Workers, and Consumers
  Gross Costs                                                                                                           $          8,140,086
  Less: Earned Revenue                                                                                                         	    (261,482)

  Net Program Costs                                                                                                            	 7,878,604


Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
  Gross Costs                                                                                                                      3,586,729
  Less: Earned Revenue                                                                                                         	 (2,324,724)

  Net Program Costs                                                                                                                1,262,005


Strategic Goal 3: Promote Environmental Stewardship
  Gross Costs                                                                                                                      4,800,594
  Less: Earned Revenue                                                                                                         	    (277,123)

  Net Program Costs                                                                                                                4,523,471


NET COST OF OPERATIONS                                                                                                  $      13,664,080

The accompanying notes are an integral part of these statements.




 198
                                                 F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
                                                                                                      P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2011 and 2010 (In Thousands)

                                                                                   FY 2011                                                          FY 2010

                                                        Earmarked                                                         Earmarked
                                                           Funds               All Other          Consolidated               Funds              All Other         Consolidated
                                                         (Note 21)              Funds                Total                 (Note 21)             Funds               Total
Cumulative Results Of Operations:
	 Beginning Balance                                    $ 10,189,816        $        6,680,597     $       16,870,413     $ 10,155,041       $        6,044,457    $       16,199,498

Budgetary Financing Sources:
  Appropriations Used                                   	     665,766               8,776,595              9,442,361      	     249,598             13,406,937            13,656,535
  Non-exchange Revenue                                         95,804          	       15,379                111,183             18,515         	        1,028                19,543
  Donations and Forfeitures of Cash and
     		 Cash Equivalents                                	             -                 1,651                  1,651      	            -                1,335                    1,335
  Transfers In of Spectrum Auction Proceeds from	
     Federal Communications Commission (Note 18)        	            -         	             -        	             -     	     196,613         	           -                196,613
  Transfers In/(Out) Without Reimbursement, Net         	      25,795          	       93,378         	     119,173       	      18,613         	     107,179         	      125,792
  Rescissions (Note 18)                                 	            -         	      (54,800)        	      (54,800)     	           -         	           -         	             -
  Other Budgetary Financing Sources/(Uses), Net         	            -         	        (4,000)       	        (4,000)    	           -         	         817         	          817

Other Financing Sources (Non-exchange):
  Donations and Forfeitures of Property                 	             -        	          458         	          458      	            -        	          461        	            461
  Transfers In/(Out) Without Reimbursement, Net         	             -        	       (4,062)        	       (4,062)     	         (349)       	       (4,455)       	         (4,804)
  Imputed Financing Sources from Cost Absorbed by
     Others                                             	      22,797                325,128                347,925       	      22,990               323,782                346,772
  Downward Subsidy Reestimates Payable to Treasury      	             -        	            -         	            -      	            -        	       (8,087)       	         (8,087)
Other Financing Sources/(Uses), Net                     	             -                (8,246)                (8,246)     	            -                    18                      18

Total Financing Sources                                       810,162               9,141,481              9,951,643            505,980             13,829,015            14,334,995

Net Cost of Operations                                        (926,462)            (8,307,338)            (9,233,800)           (471,205)       (13,192,875)          (13,664,080)

Net Change                                                    (116,300)              834,143                717,843              34,775               636,140                670,915

Cumulative Results of Operations – Ending Balance           10,073,516              7,514,740             17,588,256          10,189,816             6,680,597            16,870,413

Unexpended Appropriations:
  Beginning Balance                                     	 4,099,319                 8,782,873             12,882,192      	 4,890,417                8,246,105            13,136,522

Budgetary Financing Sources:
  Appropriations Received (Note 18)                     	             -             7,669,352              7,669,352      	            -            14,109,905            14,109,905
  Appropriations Transferred In/(Out), Net              	             -        	      11,239          	      11,239       	            -        	      14,387         	         14,387
  Rescissions of Appropriations (Note 18)               	              -           (1,803,198)            (1,803,198)     	     (541,500)       	  (155,000)          	      (696,500)
  Other Adjustments                                     	       (43,102)              (54,465)               (97,567)     	            -             (25,587)                  (25,587)
  Appropriations Used                                   	     (665,766)            (8,776,595)            (9,442,361)     	     (249,598)       (13,406,937)              (13,656,535)

Total Budgetary Financing Sources                       	     (708,868)            (2,953,667)            (3,662,535)     	     (791,098)             536,768                (254,330)

Unexpended Appropriations – Ending Balance              	 3,390,451            	 5,829,206            	 9,219,657         	 4,099,319           	 8,782,873           	 12,882,192

NET POSITION                                           $ 	 13,463,967      $ 13,343,946           $       26,807,913     $ 	 14,289,135     $ 15,463,470          $       29,752,605

The accompanying notes are an integral part of these statements.




                                                                                                                                                                          199
  F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y            R E P O R T
P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Combined Statements of Budgetary Resources
For the Years Ended September 30, 2011 and 2010 (Note 18) (In Thousands)
                                                                                            FY 2011                                                  FY 2010
                                                                                            Non-budgetary Credit Program                             Non-budgetary Credit Program
                                                                         Budgetary              Financing Accounts               Budgetary               Financing Accounts

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1                      $       12,155,652           $           873            $       16,593,521            $          2,335
Adjustments to Unobligated Balance, Brought Forward                      	            1               	         (1)              	            -                	          -
Recoveries of Prior-years Unpaid Obligations                                    323,886               	    98,196                	      230,289                	     10,149
Budget Authority
	 Appropriations                                                         	    7,693,976               	         -                	 14,322,512                  	          -
	 Borrowing Authority                                                    	            -               	    77,597                	          -                  	     78,375
	 Spending Authority From Offsetting Collections
		 Earned
			 Collected                                                                 3,976,827                    72,048                     3,698,411                      98,229
			 Change in Receivables                                                        88,936               	          -                       37,895                	          -
		 Change in Unfilled Customer Orders
			 Advances Received                                                            49,386               	         -                         8,453                	            -
			 Without Advances                                                             33,929               	      (345)                      193,858                	            -
		 Previously Unavailable                                                	        2,591               	         -                	        2,716                	            -
Total Budget Authority                                                     11,845,645                    149,300                   18,263,845                       176,604
Nonexpenditure Transfers, Net                                                 129,434                 	         -                     140,391                  	          -
Temporarily Not Available Pursuant to Public Law                         	   (208,856)                	         -                	    (52,543)                 	          -
Permanently Not Available                                                  (1,955,880)                	 (139,216)                    (722,371)                 	    (79,884)
TOTAL BUDGETARY RESOURCES                                            $       22,289,882           $       109,152            $       34,453,132            $        109,204

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred
	 Direct                                                             $        8,402,497           $       109,066            $       18,874,186            $        108,331
	 Reimbursable                                                                3,892,270               	          -                    3,423,294                	          -
Total Obligations Incurred                                                   12,294,767                   109,066                    22,297,480                     108,331
Unobligated Balance
	 Apportioned                                                                   581,374               	          -                    2,651,510                	            -
	 Exempt From Apportionment                                                     392,735               	          -                      577,107                	            -
Total Unobligated Balance                                                       974,109               	         -                     3,228,617                	           -
Unobligated Balance Not Available                                             9,021,006               	        86                     8,927,035                	         873
TOTAL STATUS OF BUDGETARY RESOURCES                                  $       22,289,882           $       109,152            $       34,453,132            $        109,204

CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligated Balance, Net, Brought Forward, October 1                	                                                       	
	 Unpaid Obligations, Brought Forward                                $       13,171,979           $   	 229,115              $        8,073,367            $   	    261,279
	 Less: Uncollected Customer Payments, Brought Forward                         (523,383)                   (735)                       (291,630)                       (735)
Total Unpaid Obligated Balance, Net, Brought Forward                         12,648,596                 228,380                        7,781,737                     260,544
Obligations Incurred                                                          12,294,767                109,066                       22,297,480                     108,331
Less: Gross Outlays                                                          (13,990,252)               (94,906)                     (16,968,579)                   (130,346)
Less: Actual Recoveries of Prior-years Unpaid Obligations                       (323,886)             	 (98,196)                         (230,289)             	     (10,149)
Change in Uncollected Customer Payments                                         (122,865)             	     345                          (231,753)             	           -
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                   $       10,506,360           $       144,689            $       12,648,596            $        228,380
Unpaid Obligated Balance, Net, End of Period
	 Unpaid Obligations                                                 $       11,152,608           $       145,079            $       13,171,979            $        229,115
	 Less: Uncollected Customer Payments                                          (646,248)                     (390)                     (523,383)                       (735)
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                   $       10,506,360           $       144,689            $       12,648,596            $        228,380

NET OUTLAYS:
Gross Outlays                                                        $     13,990,252             $      94,906              $     16,968,579              $        130,346
Less: Offsetting Collections                                               (4,026,213)                  (72,048)                   (3,706,864)                       (98,229)
Less: Distributed Offsetting (Receipts)/Outlays, Net                     	    (33,570)                	        -                 	    (28,541)                 	           -
NET OUTLAYS                                                          $        9,930,469           $        22,858            $       13,233,174            $         32,117

The accompanying notes are an integral part of these statements.




 200
                                                            F Y   2 0 1 1       P E R F O R M A N C E             A N D    A C C O U N T A B I L I T Y              R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Notes to the Financial Statements
(All Tables are Presented in Thousands)


   Note 1. Summary of Significant Accounting Policies


A	 Reporting Entity



 T 
          he Department of Commerce (the Department) is a cabinet-level agency of the Executive Branch of the U.S. government.
          Established in 1903 to promote U.S. business and trade, the Department’s broad range of responsibilities includes predicting
          the weather, granting patents and registering trademarks, measuring economic growth, gathering and disseminating
statistical data, expanding U.S. exports, developing innovative technologies, helping local communities improve their economic
development capabilities, promoting minority entrepreneurial activities, and monitoring the stewardship of national assets.
The Department is composed of 12 bureaus, the Emergency Oil and Gas and Steel Loan Guarantee Programs, the National
Intellectual Property Law Enforcement Coordination Council, and Departmental Management.

For the Consolidating Statements of Net Cost (see Note 17), the Department’s entities have been grouped together as follows:

      ●●    National Oceanic and Atmospheric Administration (NOAA)

      ●●    U.S. Patent and Trademark Office (USPTO)

      ●●    Economics and Statistics Administration (ESA) — based on organizational structure

                ●●   Bureau of Economic Analysis (BEA)

                ●●   Census Bureau

      ●●    National Institute of Standards and Technology (NIST)

      ●●    National Telecommunications and Information Administration (NTIA)

      ●●    Others

                ●●   Bureau of Industry and Security (BIS)

                ●●   Economic Development Administration (EDA)

                ●●   Emergency Oil and Gas and Steel Loan Guarantee Programs (ELGP)

                ●●   International Trade Administration (ITA)

                ●●   Minority Business Development Agency (MBDA)

                ●●   National Intellectual Property Law Enforcement Coordination Council (NIPC)

                ●●   National Technical Information Service (NTIS)




                                                                                                                                201
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




       ●●   Departmental Management (DM)

               ●●   Franchise Fund

               ●●   Gifts and Bequests (G&B)

               ●●   Herbert C. Hoover Building Renovation Project (HCHB)

               ●●   Office of Inspector General (OIG)

               ●●   Salaries and Expenses (S&E)

               ●●   Working Capital Fund (WCF)


B	   Basis of Accounting and Presentation

The Department’s fiscal year ends September 30. These financial statements reflect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned and expenses are recognized
when incurred, without regard to the receipt or payment of cash. Budgetary accounting is designed to recognize the obligation
of funds according to legal requirements, which in many cases is made prior to the occurrence of an accrual-based transaction.
Budgetary accounting is essential for compliance with legal constraints and controls over the use of federal funds.

These financial statements have been prepared from the accounting records of the Department in conformance with U.S.
generally accepted accounting principles (GAAP) and the form and content for entity financial statements specified by the Office
of Management and Budget (OMB) in Revised Circular No. A-136, Financial Reporting Requirements. GAAP for federal entities
are the standards prescribed by the Federal Accounting Standards Advisory Board, which is the official body for setting the
accounting standards of the U.S. government.

Throughout these financial statements, intragovernmental assets, liabilities, earned revenue, and costs have been classified
according to the type of entity with whom the transactions were made. Intragovernmental assets and liabilities are those from
or to other federal entities. Intragovernmental earned revenue represents collections or accruals of revenue from other federal
entities, and intragovernmental costs are payments or accruals to other federal entities.

The Department has allocation transfer transactions with other federal agencies as both a transferring (parent) entity and/
or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department. A separate fund account (allocation account) is created in the U.S.
Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances are
credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation
account as they execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these
allocation transfers (e.g. budget authority, obligations, and outlays) is reported in the financial statements of the parent entity,
from which the underlying legislative authority, appropriations, and budget apportionments are derived. EDA allocates
funds, as the parent, to the U.S. Department of Agriculture’s Rural Development Administration. Therefore, all financial
activity related to these funds are reported in the Department’s financial statements. NIST, NOAA, EDA, Census Bureau,
BEA, NTIS, and USPTO receive allocation transfers, as the child, from the General Services Administration, Environmental
Protection Agency, Delta Regional Authority, and Appalachian Regional Commission. Activity relating to these child
allocation transfers is not reported in the Department’s financial statements.




 202
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




In FY 2011, the Department is reporting Gross Costs and Earned Revenue according to the Department’s new FY 2011-2016
Strategic Plan, which replaces strategic goals with themes, and modifies performance objectives and measures accordingly.
Because the new themes and the old strategic goals are not equivalent, FY 2011 and FY 2010 are presented separately on the
Consolidated Statements of Net Cost.


C	   Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which remain
available over time. These specifically identified revenues and other financing sources are required by statute to be used for
designated activities, benefits, or purposes, and must be accounted for separately from the government’s general revenues.
Earmarked funds include a general fund, public enterprise revolving funds (not including credit reform financing funds), special
funds, and a trust fund. (See Note 21, Earmarked Funds.)


D	   Elimination of Intra-entity and Intra-Departmental Transactions and Balances

Transactions and balances within a reporting entity (intra-entity) have been eliminated from the financial statements, except
as noted below. Transactions and balances among the Department’s entities (intra-Departmental) have been eliminated from
the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in
Net Position. The Statements of Budgetary Resources are presented on a combined basis; therefore, intra-Departmental and
intra-entity transactions and balances have not been eliminated from these statements.


E	   Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of funds in the Department’s accounts with the U.S. Department of the
Treasury (Treasury). Deposit Funds include amounts held in customer deposit accounts and the Spectrum Auction Proceeds
Liability to the Federal Communications Commission (FCC).

Treasury processes cash receipts and disbursements for the Department’s domestic operations. Cash receipts and disbursements
for the Department’s overseas operations are primarily processed by the U.S. Department of State’s financial service centers.


F	   Accounts Receivable, Net

Accounts Receivable are recognized primarily when the Department performs reimbursable services or sells goods. Accounts
Receivable are reduced to net realizable value by an Allowance for Uncollectible Accounts. This allowance is estimated periodically
using methods such as the identification of specific delinquent receivables, and the analysis of aging schedules and historical
trends adjusted for current market conditions.


G	   Advances and Prepayments

Advances are payments the Department has made to cover a part or all of a grant recipient’s anticipated expenses, or are advance
payments for the cost of goods and services to be acquired. For grant awards, the recipient is required to periodically (monthly or
quarterly) report the amount of costs incurred. Prepayments are payments the Department has made to cover certain periodic
expenses before those expenses are incurred, such as subscriptions and rent. Advances and Prepayments are included in
Other Assets.



                                                                                                                             203
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




H	   Direct Loans and Loan Guarantees

A direct loan is recorded as a receivable after the Department disburses funds to a borrower. The Department also makes loan
guarantees with respect to the payment of all or part of the principal or interest on debt obligations of non-federal borrowers to
non-federal lenders. A borrower-defaulted loan guaranteed by the Department is recorded as a receivable from the borrower
after the Department disburses funds to the lender.

Interest Receivable generally represents uncollected interest income earned on loans. For past-due loans, only up to 180 days
of interest income is generally recorded.

Foreclosed Property is acquired primarily through foreclosure and voluntary conveyance, and is recorded at the fair market value
at the time of acquisition. Foreclosed Property is adjusted to the current fair market value each fiscal year-end.

Direct Loans and Loan Guarantees Obligated before October 1, 1991 (pre-FY 1992): Loans Receivable are reduced by
an Allowance for Loan Losses, which is based on an analysis of each loan’s outstanding balance. The value of each receivable,
net of any Allowance for Loan Losses, is supported by the values of pledged collateral and other assets available for liquidation,
and by the Department’s analysis of financial information of parties against whom the Department has recourse for the collection
of these receivables.

The Economic Development Revolving Fund is required to make annual interest payments to Treasury after each fiscal year-end,
based on its outstanding receivables as of September 30.

Direct Loans and Loan Guarantees Obligated after September 30, 1991 (post-FY 1991): Post-FY 1991 obligated direct
loans and loan guarantees and the resulting receivables are governed by the Federal Credit Reform Act of 1990.

For a direct or guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended
to estimate the long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of
estimated cash outflows over the life of the loan, minus the present value of estimated cash inflows, discounted at the applicable
Treasury interest rate. Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from
interest rate differentials, interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows.
The Department calculates its subsidy costs based on a model created and provided by OMB.

A Loan Receivable is recorded at the present value of the estimated cash inflows less cash outflows. The difference between
the outstanding principal of the loan and the present value of its net cash inflows is recorded as the Allowance for Subsidy Cost.
A subsidy reestimate is normally performed annually, as of September 30. The subsidy reestimate takes into account all factors
that may have affected the estimated cash flows. Any adjustment resulting from the reestimate is recognized as a subsidy
expense (or a reduction in subsidy expense). The portion of the Allowance for Subsidy Cost related to subsidy modifications and
reestimates is calculated annually, as of September 30.

The amount of any downward subsidy reestimates as of September 30 must be disbursed to Treasury in the subsequent
fiscal year. Appropriations are normally obtained in the following fiscal year for any upward subsidy reestimates.


I	   Inventory, Materials, and Supplies, Net

Inventory, Materials, and Supplies, Net are stated at the lower of cost or net realizable value primarily under the average,
weighted-average, and first-in, first-out methods, and are adjusted for the results of physical inventories. Inventory, Materials,
and Supplies are expensed when consumed. There are no restrictions on their sale, use, or disposition.


 204
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




J	   General Property, Plant, and Equipment, Net

General Property, Plant, and Equipment, Net (General PP&E) is composed of capital assets used in providing goods or services.
General PP&E is stated at full cost, including all costs related to acquisition, delivery, and installation, less Accumulated
Depreciation. General PP&E also includes assets acquired through capital leases, which are initially recorded at the amount
recognized as a liability for the capital lease at its inception.

Capitalization Thresholds:

For FY 2010, the Department’s general policy was to capitalize General PP&E if the initial acquisition price is $25 thousand or
more and the useful life is two years or more. NOAA was an exception to this policy, based on a cost vs. benefits and materiality
analysis given the size of NOAA, having a capitalization threshold of $200 thousand. General PP&E with an acquisition cost less
than the capitalization threshold was expensed when purchased. NOAA and Census Bureau had bulk purchase capitalization
thresholds of $1 million and $250 thousand, respectively, for personal property bulk purchases. For other bureaus, when the
purchase of a large quantity of personal property items, each costing less than the capitalization threshold, would materially
distort the amount of costs reported in a given period, the purchase was capitalized as a group.

Effective FY 2011, based on a Department-wide capitalization threshold review that was completed in 2010, revisions were
made to the Department’s capitalization thresholds. NOAA’s capitalization thresholds did not change. For NIST and USPTO, the
capitalization threshold was increased to $50 thousand. All other bureaus retained their capitalization thresholds of $25 thousand,
and all bureaus other than NOAA now have a bulk purchase capitalization threshold of $250 thousand for personal property bulk
purchases. NOAA retained its $1 million capitalization threshold for personal property bulk purchases.

Depreciation: Depreciation is recognized on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements, which are depreciated over the remaining life of the lease or over the useful life of the improvement,
whichever is shorter. Land and Construction-in-progress are not depreciated.

Real Property: The U.S. General Services Administration (GSA) provides most of the facilities in which the Department
operates, and generally charges rent based on comparable commercial rental rates. Accordingly, GSA-owned properties are not
included in the Department’s General PP&E. The Department’s real property primarily consists of facilities for NIST and NOAA.
Land Improvements consist of a retaining wall to protect against shoreline erosion.

Construction-in-progress: Costs for the construction, modification, or modernization of General PP&E are initially recorded
as Construction-in-progress. The Department’s construction-in-progress consists primarily of satellites under development for
NOAA, and major laboratory renovations and construction projects under development for NIST. Upon completion of the work,
the costs are transferred to the appropriate General PP&E account.


K	   Notes Receivable

Notes Receivable, included in Other Assets, arise through the NOAA sale of foreclosed property to non-federal parties. The
property is used as collateral, and an Allowance for Uncollectible Amounts is established if the net realizable value of the
collateral is less than the outstanding balance of the Notes Receivable. An analysis of the collectability of receivables is
performed periodically. Any gains realized through the sale of foreclosed property are initially deferred and recognized in
proportion to the percentage of principal repaid.




                                                                                                                             205
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




L	   Non-entity Assets

Non-entity assets are assets held by the Department that are not available for use in its operations. Non-entity Fund Balance
with Treasury includes customer deposits held by the Department until customer orders are received, and monies payable to the
Treasury General Fund for custodial activity and for loan programs. Non-entity Direct Loans and Loan Guarantees, Net represents
EDA’s Drought Loan Portfolio. The Portfolio collections are submitted to Treasury monthly.


M	   Liabilities

A liability for federal accounting purposes is a probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events.

Accounts Payable: Accounts Payable are amounts primarily owed for goods, services, or capitalized assets received, progress
on contract performance by others, and other expenses due.

Debt to Treasury: The Department has borrowed funds from Treasury through the Fisheries Finance Financing Account
for various NOAA direct loan programs, and has borrowed funds for the Fishing Vessel Obligation Guarantee (FVOG) loan
guarantee program. To simplify interest calculations, all borrowings are dated October 1. Interest rates are based on a
weighted average of rates during the term of the borrowed funds. The weighted average rate for each cohort’s borrowing
is recalculated at the end of each fiscal year during which disbursements are made. Annual interest payments on unpaid
principal balances as of September 30 are required. Principal repayments are required only at maturity, but are permitted
at any time during the term of the loan. The Department’s primary financing source for repayments of Debt to Treasury is
the collection of principal on the associated Loans Receivable. Balances of any borrowed but undisbursed funds will earn
interest at the same rate used in calculating interest expense. The amount reported for Debt to Treasury includes accrued
interest payable.

Spectrum Auction Proceeds Liability to Federal Communications Commission: FCC completed the auction of licenses for
recovered analog spectrum in March 2008. These auction proceeds provide funding for several programs. Auction proceeds are
considered a liability to FCC until FCC grants the license. When the license is granted, a budgetary financing source is recognized
on the Consolidated Statement of Changes in Net Position for the earned net auction proceeds (auction proceeds less FCC
administrative fees due to FCC), and the liability is reduced by the dollar amount of the license granted. See Note 18, Combined
Statements of Budgetary Resources, for more information on NTIA’s Digital Television and Transition Public Safety Fund.

Resources Payable to Treasury: Resources Payable to Treasury includes liquidating fund assets in excess of liabilities that
are being held as working capital for the Economic Development Revolving Fund loan programs and the FVOG loan guarantee
program. EDA’s Drought Loan Portfolio is a non-entity asset; therefore, the amount of the Portfolio is also recorded as a liability
to the Treasury General Fund. The Portfolio collections are returned to the Treasury General Fund annually, and the liability is
reduced accordingly.

Unearned Revenue: Unearned Revenue is the portion of monies received for which goods and services have not yet been
provided or rendered by the Department. Revenue is recognized as reimbursable costs are incurred, and the Unearned Revenue
balance is reduced accordingly. Unearned Revenue also includes the balances of customer deposit accounts held by the Depart-
ment. The intragovernmental Unearned Revenue primarily relates to monies collected in advance under reimbursable agree-
ments. The majority of the Unearned Revenue with the public represents patent and trademark application and user fees that are
pending action.




 206
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Accrued FECA Liability: The Federal Employees Compensation Act (FECA) provides income and medical cost protection to
covered federal civilian employees injured on the job, to employees who have incurred work-related occupational diseases, and
to beneficiaries of employees whose deaths are attributable to job-related injuries or occupational diseases. The FECA program
is administered by the U.S. Department of Labor (DOL), which pays valid claims against the Department and subsequently
seeks reimbursement from the Department for these paid claims. Accrued FECA Liability, included in Intragovernmental Other
Liabilities, represents amounts due to DOL for claims paid on behalf of the Department.

Loan Guarantee Liabilities: Post-FY 1991 obligated loan guarantees are governed by the Federal Credit Reform Act of 1990.
For a guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to estimate
the long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated cash
outflows over the lives of the loans, minus the present value of estimated cash inflows, discounted at the applicable Treasury
interest rate. Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate
differentials, interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department
calculates its subsidy costs based on a model created and provided by OMB.

For a non-acquired guaranteed loan outstanding, the present value of the estimated cash inflows less cash outflows of the loan
guarantee is recognized as a Loan Guarantee Liability. The Loan Guarantee Liability is normally reestimated annually each year,
as of September 30. The subsidy reestimate takes into account all factors that may have affected the estimated cash flows.
Any adjustment resulting from the reestimate is recognized as a subsidy expense (or a reduction in subsidy expense).

Federal Employee Benefits:

Actuarial FECA Liability: Actuarial FECA Liability represents the liability for future workers’ compensation (FWC) benefits,
which includes the expected liability for death, disability, medical, and miscellaneous costs for approved cases. The liability
is determined by DOL annually, as of September 30, using a method that utilizes historical benefits payment patterns related
to a specific incurred period to predict the ultimate payments related to that period. The projected annual benefit payments
are discounted to present value using OMB’s economic assumptions for ten-year Treasury notes and bonds. To provide more
specifically for the effects of inflation on the liability for FWC benefits, wage inflation factors (Cost of Living Allowance) and
medical inflation factors (Consumer Price Index - Medical) are applied to the calculation of projected future benefits. These factors
are also used to adjust historical payments of benefits by the Department to current-year constant dollars.

The model’s resulting projections are analyzed by DOL to ensure that the amounts are reliable. The analysis is based on two
tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change in the actual
payments; and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning year calculated for
the current projection to the liability-payment ratio calculated for the prior projection.

NOAA Corps Retirement System Liability and NOAA Corps Post-retirement Health Benefits Liability: These liabilities are
recorded at the actuarial present value of projected benefits, calculated annually, as of September 30. The actuarial cost method
used to determine these liabilities is the aggregate entry age normal method. Under this method, the actuarial present value
of projected benefits is allocated on a level basis over the earnings or the service of the group between entry age and assumed
exit ages. The portion of this actuarial present value allocated to the valuation year is called the normal cost. For purposes of
calculating the normal cost, certain actuarial assumptions utilized for the actual valuation of U.S. Military Retirement System are
used. Actuarial gains and losses, and prior and past service costs, if any, are recognized immediately in the year they occur,
without amortization. The medical claim rates used for the NOAA Corps Post-retirement Health Benefits Liability actuarial
calculations are based on the claim rates used for the U.S. Department of Defense Medicare-Eligible Retiree Health Care Fund




                                                                                                                                207
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




actuarial valuations. Demographic assumptions appropriate to covered personnel are also used. For background information
about these plans, see Note 1.Q, Employee Retirement Benefits.

Environmental and Disposal Liabilities: NIST operates a nuclear reactor licensed by the U.S. Nuclear Regulatory Commission,
in accordance with NIST’s mission of setting standards and examining new technologies. The Department currently estimates
the cost of decommissioning this facility to be $80.3 million. The NIST decommissioning estimate includes an assumption that an
offsite waste disposal facility will become available, when needed, estimated in 2029. Currently, an offsite disposal location has
not been identified, and the NIST environmental liability cost estimate includes an amount approved by the Nuclear Regulatory
Commission for offsite waste disposal. The total estimated decommissioning cost is being accrued on a straight-line basis over
the expected life of the facility. Under current legislation, funds to cover the expense of decommissioning the facility’s nuclear
reactor should be requested in a separate appropriation when the decommissioning date becomes relatively certain.

The Department has incurred cleanup costs related to the costs of removing, containing, and/or disposing of hazardous waste
from facilities used by NOAA. The Department has estimated its liabilities for environmental cleanup costs at all NOAA-used
facilities, including the decommissioning of ships. The largest of NOAA’s environmental liabilities relates to the clean-up of the
Pribilof Islands in Alaska, which contains waste from the U.S. Department of Defense’s use during World War II. The Department
does not recognize a liability for environmental cleanup costs for NOAA-used facilities that are less than $25 thousand per project.
When an estimate of cleanup costs includes a range of possible costs, the most likely cost is reported. When no cost is more
likely than another, the lowest estimated cost in the range is reported. The liability is reduced as progress payments are made.

The Department may have liabilities associated with asbestos-containing materials (ACM) and lead-based paints (LBP) at certain
NOAA facilities. The Department has scheduled surveys to assess the potential for liabilities for ACM and LBP contamination.
All known issues, however, are contained, and NOAA facilities meet current environmental standards. No cost estimates are
presently available for facilities that have not yet been assessed for ACM or LBP issues.

Accrued Payroll and Annual Leave: These categories include salaries, wages, and other compensation earned by employees,
but not disbursed as of September 30. Annually, as of September 30, the balances of Accrued Annual Leave are adjusted to
reflect current pay rates. Sick leave and other types of non-vested leave are expensed as taken.

Accrued Grants: The Department administers a diverse array of financial assistance programs and projects concerned with the
entire spectrum of business and economic development efforts that promote activities such as expanding U.S. exports, creating
jobs, contributing to economic growth, developing innovative technologies, promoting minority entrepreneurship, protecting
coastal oceans, providing weather services, managing worldwide environmental data, and using telecommunications and
information technologies to better provide public services. Disbursements of funds under the Department’s grant programs are
generally made when requested by grantees. These drawdown requests may be received and fulfilled before grantees make the
program expenditures. When the Department has disbursed funds but the grant recipient has not yet reported expenditures, these
disbursements are recorded as advances. If a recipient, however, reports program expenditures that have not been advanced by
the Department by September 30, such amounts are recorded as grant expenses and grants payable as of September 30.

Capital Lease Liabilities: Capital leases are leases for property, plant, and equipment that transfer substantially all the benefits
and risks of ownership to the Department.

ITA Foreign Service Nationals’ Voluntary Separation Pay: This liability, included in Other Liabilities, is based on the salaries
and benefit statuses of employees in countries where governing laws require a provision for separation pay.




 208
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Contingent Liabilities and Contingencies: A contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible gain or loss. The uncertainty will ultimately be resolved when one or more future events occur or fail to
occur. A contingent liability (included in Other Liabilities) and an expense are recognized when a past event has occurred, and a future
outflow or other sacrifice of resources is measurable and probable. A contingency is considered probable when the future confirming
event or events are more likely than not to occur, with the exception of pending or threatened litigation and unasserted claims.
For pending or threatened litigation and unasserted claims, the future confirming event or events are likely to occur. A contingency
is disclosed in the Notes to the Financial Statements if any of the conditions for liability recognition are not met and there is at least
a reasonable possibility that a loss or an additional loss may have been incurred. A contingency is considered reasonably possible
when the chance of the future confirming event or events occurring is more than remote but less than probable. A contingency is
not recognized as a contingent liability and an expense nor disclosed in the Notes to the Financial Statements when the chance of
the future event or events occurring is remote. A contingency is considered remote when the chance of the future event or events
occurring is slight.

Liabilities Not Covered by Budgetary Resources: These are liabilities for which congressional actions are needed before budgetary
resources can be provided. The Department anticipates that liabilities not covered by budgetary resources will be funded from future
budgetary resources when required. These amounts are detailed in Note 15.

Under accrual accounting, the expense for annual leave is recognized when the leave is earned. However, for most of the Department’s
fund groups, appropriations are provided to pay for the leave when it is taken. As a result, budgetary resources do not cover a large
portion of Accrued Annual Leave.

The Department generally receives budgetary resources for Federal Employee Benefits when they are needed for disbursements.


N	   Commitments

Commitments are preliminary actions that will ultimately result in an obligation to the U.S. government if carried through, such as
purchase requisitions, estimated travel orders, or unsigned contracts/grants. Major long-term commitments are disclosed in Note 16,
Commitments and Contingencies.


O	   Net Position

Net Position is the residual difference between assets and liabilities, and is composed of Unexpended Appropriations and Cumulative
Results of Operations.

Unexpended Appropriations represent the total amount of unexpended budget authority, both obligated and unobligated. Unexpended
Appropriations are reduced for Appropriations Used and adjusted for other changes in budgetary resources, such as transfers and
rescissions. Cumulative Results of Operations is the net result of the Department’s operations since inception.


P	   Revenues and Other Financing Sources

Appropriations Used: Most of the Department’s operating funds are provided by congressional appropriations of budget authority.
The Department receives appropriations on annual, multiple-year, and no-year bases. Upon expiration of an annual or multiple-
year appropriation, the obligated and unobligated balances retain their fiscal year identity, and are maintained separately within an
expired account. The unobligated balances can be used to make legitimate obligation adjustments, but are otherwise not available




                                                                                                                               209
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




for expenditures. Annual and multiple-year appropriations are canceled at the end of the fifth year after expiration. No-year
appropriations do not expire. Appropriations of budget authority are recognized as used when costs are incurred, for example,
when goods and services are received or benefits and grants are provided.

Exchange and Non-exchange Revenue: The Department classifies revenue as either exchange revenue or non-exchange
revenue. Exchange revenue is derived from transactions in which both the government and the other party receive value,
including processing patents and registering trademarks, the sale of weather data, nautical charts, and navigation information,
and other sales of goods and services. This revenue is presented on the Department’s Consolidated Statements of Net Cost, and
serves to reduce the reported cost of operations borne by the taxpayer. Non-exchange revenue is derived from the government’s
sovereign right to demand payment, including fines for violations of fisheries and marine protection laws. Non-exchange revenue
is recognized when a specifically identifiable, legally enforceable claim to resources arises, and to the extent that collection is
probable and the amount is reasonably estimable. This revenue is not considered to reduce the cost of the Department’s
operations and is therefore reported on the Consolidated Statements of Changes in Net Position.

In certain cases, law or regulation sets the prices charged by the Department, and, for program and other reasons, the Department
may not receive full cost (e.g., the processing of patents and registering of trademarks, and the sale of weather data, nautical
charts, and navigation information). Prices set for products and services offered through the Department’s working capital funds
are intended to recover the full costs incurred by these activities.

Imputed Financing Sources from Cost Absorbed by Others (and Related Imputed Costs): In certain cases, operating
costs of the Department are paid for in full or in part by funds appropriated to other federal entities. For example, Civil Service
Retirement System pension benefits for applicable Departmental employees are paid for in part by the U.S. Office of Personnel
Management (OPM), and certain legal judgments against the Department are paid for in full from the Judgment Fund maintained
by Treasury. The Department includes applicable Imputed Costs on the Consolidated Statements of Net Cost. In addition, an
Imputed Financing Source from Cost Absorbed by Others is recognized on the Consolidated Statements of Changes in Net
Position.

Transfers In/(Out): Intragovernmental transfers of budget authority (i.e., appropriated funds) or of assets without reimbursement
are recorded at book value.


Q	     Employee Retirement Benefits

Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS): Most employees of the
Department participate in either the CSRS or FERS defined-benefit pension plans. FERS went into effect on January 1, 1987.
FERS and Social Security automatically cover most employees hired after December 31, 1983. Employees hired prior to January
1, 1984 could elect to either join FERS and Social Security, or remain in CSRS.

The Department is not responsible for and does not report CSRS or FERS assets, accumulated plan benefits, or liabilities
applicable to its employees. OPM, which administers the plans, is responsible for and reports these amounts.

For CSRS-covered regular employees, the Department was required to make contributions to the plan equal to 7 percent of an
employee’s basic pay. Employees contributed 7 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s
service cost for covered employees, which is an estimate of the amount of funds, that, if accumulated annually and invested over
an employee’s career, would be enough to pay that employee’s future benefits. Since the U.S. government’s estimated service




 210
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




cost exceeds contributions made by employer agencies and covered employees, this plan is not fully funded by the Department
and its employees. The Department has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by
Others for the difference between the estimated service cost and the contributions made by the Department and its covered
employees.

For FERS-covered regular employees, the Department was required to make contributions of 11.7 percent of basic pay.
Employees contributed 0.8 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s service cost for
covered employees. Since the U.S. government’s estimated service cost exceeds contributions made by employer agencies
and covered employees, this plan was not fully funded by the Department and its employees. The Department has recognized
an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others for the difference between the estimated
service cost and the contributions made by the Department and its covered employees.

Employees participating in FERS are covered under the Federal Insurance Contributions Act (FICA), for which the Department
contributes a matching amount to the Social Security Administration.

NOAA Corps Retirement System: Active-duty officers of the NOAA Corps are covered by the NOAA Corps Retirement
System, an unfunded, pay-as-you-go, defined-benefit plan administered by the Department. Participants do not contribute to
this plan. Plan benefits are based primarily on years of service and compensation. Participants, as of September 30, 2011,
included 306 active duty officers, 359 nondisability retiree annuitants, 17 disability retiree annuitants, and 50 surviving families.
Key provisions include voluntary nondisability retirement after 20 years of active service, disability retirement, optional survivor
benefits, Consumer Price Index (CPI) optional survivor benefits, and CPI adjustments for benefits.

Foreign Service Retirement and Disability System, and the Foreign Service Pension System: Foreign Commercial
Officers are covered by the Foreign Service Retirement and Disability System and the Foreign Service Pension System.
ITA makes contributions to the systems based on a percentage of an employee’s pay. Both systems are multi-employer
plans administered by the U.S. Department of State. The Department is not responsible for and does not report plan assets,
accumulated plan benefits, or liabilities applicable to its employees. The U.S. Department of State, which administers the
plan, is responsible for and reports these amounts.

Thrift Savings Plan (TSP): Employees covered by CSRS and FERS are eligible to contribute to the U.S. government’s TSP,
administered by the Federal Retirement Thrift Investment Board. A TSP account is automatically established for FERS-covered
employees, and the Department makes a mandatory contribution of one percent of basic pay. FERS and CSRS covered
employees have no limit on the percentage of pay contributed to their TSP account. However, the total contribution for 2011 may
not exceed the IRS limit of $16.5 thousand. The Department makes no matching contributions for CSRS-covered employees.
TSP participants age 50 or older who are already contributing the maximum amount of contributions for which they are
eligible may also make catch-up contributions, subject to the IRS dollar limit for catch-up contributions.

Federal Employees Health Benefit (FEHB) Program: Most Departmental employees are enrolled in the FEHB Program,
which provides post-retirement health benefits. OPM administers this program and is responsible for the reporting of liabilities.
Employer agencies and covered employees are not required to make any contributions for post-retirement health benefits. OPM
calculates the U.S. government’s service cost for covered employees each fiscal year. The Department has recognized the entire
service cost of these post-retirement health benefits for covered employees as an Imputed Cost and an Imputed Financing
Source From Cost Absorbed by Others.




                                                                                                                               211
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NOAA Corps Post-retirement Health Benefits: Active-duty officers of the NOAA Corps are covered by the health benefits
program for the NOAA Corps, which provides post-retirement health benefits. This is a pay-as-you-go plan administered by the
Department. Participants do not make any contributions to this plan.

Federal Employees Group Life Insurance (FEGLI) Program: Most Department employees are entitled to participate in the
FEGLI Program. Participating employees can obtain basic term life insurance, with the employee paying two-thirds of the cost
and the Department paying one-third. Additional coverage is optional, to be paid fully by the employee. The basic life coverage
may be continued into retirement if certain requirements are met. OPM administers this program and is responsible for the
reporting of liabilities. For each fiscal year, OPM calculates the U.S. government’s service cost for the post-retirement portion
of basic life coverage. Because the Department’s contributions to the basic life coverage are fully allocated by OPM to the pre-
retirement portion of coverage, the Department has recognized the entire service cost of the post-retirement portion of basic life
coverage as an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others.


R	   Use of Estimates

The preparation of financial statements requires the Department to make estimates and assumptions that affect these financial
statements. Actual results may differ from those estimates.


S	   Tax Status

The Department is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.


T	   Fiduciary Activities

Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the U.S.
government of cash or other assets in which non-federal individuals or entities have an ownership interest that the U.S.
government must uphold. Fiduciary cash and other assets are not assets of the U.S. government, and, accordingly, are not
recognized in the accompanying consolidated financial statements.

The Department’s fiduciary activities consist of the following:

The Patent Cooperation Treaty authorizes USPTO to collect patent filing and search fees on behalf of the World Intellectual
Property Organization (WIPO), European Patent Office, Korean Intellectual Property Office, and the Australian Patent Office,
from U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act authorizes USPTO to collect
trademark application fees on behalf of the International Bureau of WIPO from U.S. citizens requesting an international trademark.
These fiduciary activities are reported in Note 20.




 212
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 2. Fund Balance with Treasury

Fund Balance with Treasury, by type, is as follows:
                                                                                        FY 2011              FY 2010
           General Funds                                                            $   11,214,030       $   15,013,746
           Revolving Funds                                                                 957,367              912,082
           Special Funds
           	    Patent and Trademark Surcharge Fund                                          233,529              233,529
           	 Digital Television Transition and Public Safety Fund                           9,062,212            9,396,152
           	 Others                                                                     	      76,244        	     84,423
           Deposit Funds
           	 Spectrum Auction Proceeds Liability to FCC                                 	       2,436        	      33,838
           	 Others                                                                     	    124,547         	    123,020
           Trust Funds                                                                          1,407                2,104
           Other Fund Types                                                                   (10,742)             (13,347)
           Total                                                                    $   21,661,030       $   25,785,547



Status of Fund Balance with Treasury is as follows:
                                                                                        FY 2011              FY 2010
           Temporarily Precluded From Obligation                                    $        810,049     $        603,783
           Unobligated Balance
             Available                                                                      973,765            3,228,225
             Unavailable                                                                  9,021,092            8,927,908
           Obligated Balance Not Yet Disbursed                                           10,506,354           12,648,592
           Non-budgetary                                                                	 349,770            	 377,039
           Total                                                                    $   21,661,030       $   25,785,547

See Note 18, Combined Statements of Budgetary Resources, for legal arrangements affecting the Department’s
use of Fund Balance with Treasury for FY 2011 and FY 2010.




                                                                                                                              213
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 3. Accounts Receivable, Net

                                                               FY 2011
                                                     Accounts              Allowance for                   Accounts
                                                    Receivable,            Uncollectible                  Receivable,
                                                      Gross                  Accounts                        Net
                  Intragovernmental             $        98,360           $ 	              -          $           98,360

                  With the Public               $       152,642           $         (11,796)          $          140,846


                                                               FY 2010
                                                     Accounts              Allowance for                   Accounts
                                                    Receivable,            Uncollectible                  Receivable,
                                                      Gross                  Accounts                        Net
                  Intragovernmental             $        84,479           $ 	              -          $           84,479

                  With the Public               $        82,980           $         (12,200)          $           70,780


As a major partner in the federal response to the 2010 Deepwater Horizon oil spill, NOAA has incurred certain costs for
providing coordinated scientific weather and biological response services to that region, for which it expects to be reimbursed.
As of September 30, 2011, NOAA has recorded receivables from the Coast Guard (Intragovernmental) totaling $33.5 million
for response and removal activities. NOAA has also recorded receivables from an oil company (With the Public) totaling
$94.8 million for restoration activities. NOAA believes these receivables are fully collectible, based on costs submitted to date,
and reimbursements received. Therefore, no allowance for uncollectible accounts has been established for these receivables.



   Note 4. Cash

                                                                                       FY 2011                    FY 2010
          Cash Not Yet Deposited with Treasury                                  $          3,120             $          3,222
          Imprest Funds                                                                      346                  	       394
          Total                                                                 $          3,466             $          3,616


Cash Not Yet Deposited with Treasury primarily represents patent and trademark fees that were not processed as of September
30, due to the lag time between receipt and initial review. Certain bureaus maintain imprest funds for operational necessity, such
as law enforcement activities, and for environments that do not permit the use of electronic payments.




 214
                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                NOTES TO THE FINANCIAL STATE M ENTS




   Note 5. Direct Loans and Loan guarantees, NET

The Department operates the following direct loan and loan guarantee programs:

           Direct Loan Programs:
           EDA                                     Drought Loan Portfolio
           EDA                                     Economic Development Revolving Fund
           NOAA                                    Alaska Purse Seine Fishery Buyback Loans1
           NOAA                                    Bering Sea and Aleutian Islands Non-Pollock Buyback Loans
           NOAA                                    Bering Sea Pollock Fishery Buyback
           NOAA                                    Coastal Energy Impact Program (CEIP)
           NOAA                                    Crab Buyback Loans
           NOAA                                    Federal Gulf of Mexico Reef Fish Buyback Loans1
           NOAA                                    Fisheries Finance Individual Fishing Quota (IFQ) Loans
           NOAA                                    Fisheries Finance Traditional Loans
           NOAA                                    Fisheries Finance Tuna Fleet Loans
           NOAA                                    Fisheries Loan Fund
           NOAA                                    New England Groundfish Buyback Loans1
           NOAA                                    New England Lobster Buyback Loans1
           NOAA                                    Pacific Groundfish Buyback Loans
           1    No loans have been issued under these programs as of September 30, 2011.

           Loan Guarantee Programs:
           EDA                                     Economic Development Revolving Fund
           ELGP-Steel                              Emergency Steel Loan Guarantee Program
           NOAA                                    Fishing Vessel Obligation Guarantee Program (FVOG Program)



The net assets for the Department’s loan programs consist of:

                                                                                          FY 2011           FY 2010
           Direct Loans Obligated Prior to FY 1992                                    $        20,910   $        23,834
           Direct Loans Obligated After FY 1991                                               544,773           514,038
           Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees                         	         4       	         4
           Defaulted Guaranteed Loans from Post-FY 1991 Guarantees                                563             2,271
           Total                                                                      $       566,250   $       540,147




                                                                                                                          215
F Y   2 0 1 1     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Direct Loans Obligated Prior to FY 1992 consist of:

                                                   FY 2011
                                                                                                     Value of Assets
                                  Loans                                                                Related to
           Direct               Receivable,             Interest        Allowance for                 Direct Loans,
        Loan Program              Gross                Receivable       Loan Losses                        Net
CEIP                        $       20,223         $      4,965         $    (18,974)               $        6,214
Drought Loan Portfolio               9,926                  141                 (104)                   	    9,963
Fisheries Loan Fund                    244                   39             	 (283)                     	         -
Economic Development
   Revolving Fund                    4,756                    25            	       (48)                     4,733

Total                       $       35,149         $      5,170         $       (19,409)            $       20,910


                                                   FY 2010
                                                                                                     Value of Assets
                                  Loans                                                                Related to
           Direct               Receivable,             Interest        Allowance for                 Direct Loans,
        Loan Program              Gross                Receivable       Loan Losses                        Net
CEIP                        $       20,318         $      5,035         $       (18,636)            $        6,717
Drought Loan Portfolio              11,522                  156                    (117)                    11,561
Economic Development
   Revolving Fund                    5,579                    33                    (56)                     5,556
Total                       $       37,419         $      5,224         $       (18,809)            $       23,834




 216
                                              F Y   2 0 1 1   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                       NOTES TO THE FINANCIAL STATE M ENTS




Direct Loans Obligated After FY 1991 consist of:

                                                                      FY 2011
                                                        Loans                                        Allowance for     Value of Assets
                                                      Receivable,             Interest               Subsidy Cost        Related to
                Direct Loan Program                     Gross                Receivable             (Present Value)   Direct Loans, Net
      Bering Sea and Aleutian Islands
         Non-Pollock Buyback Loans                $      33,458          $         274              $     7,304       $    41,036
      Bering Sea Pollock Fishery Buyback                 46,499                	    63                    4,190            50,752
      Crab Buyback Loans                                 91,609                  2,798                   22,098           116,505
      Fisheries Finance IFQ Loans                        24,362                    214                    4,561            29,137
      Fisheries Finance Traditional Loans              	229,847                	 2,129                   33,189           265,165
      Pacific Groundfish Buyback Loans                   31,662                	 1,021                    9,495            42,178

      Total                                       $     457,437          $             6,499        $    80,837       $   544,773


                                                                      FY 2010
                                                        Loans                                        Allowance for     Value of Assets
                                                      Receivable,             Interest               Subsidy Cost        Related to
                Direct Loan Program                     Gross                Receivable             (Present Value)   Direct Loans, Net
      Bering Sea and Aleutian Islands
         Non-Pollock Buyback Loans                $      33,645          $             1,036        $      7,825      $      42,506
      Bering Sea Pollock Fishery Buyback                 49,232                	         143               6,185             55,560
      Crab Buyback Loans                                 94,049                        2,957              20,770           117,776
      Fisheries Finance IFQ Loans                        21,665                          245               3,379             25,289
      Fisheries Finance Traditional Loans              	197,583                	       1,938              28,477           227,998
      Fisheries Finance Tuna Fleet Loans               	    374                	           1            	     (2)          	    373
      Pacific Groundfish Buyback Loans                   33,472                	       1,043              10,021             44,536

      Total                                       $     430,020          $             7,363        $    76,655       $    514,038


New Disbursements of Direct Loans (Post-FY 1991):

                  Direct Loan Program                       FY 2011                     FY 2010
       Fisheries Finance IFQ Loans                      $       5,132              $        5,349
       Fisheries Finance Traditional Loans                     50,811                      84,935
       Total                                            $      55,943              $       90,284




                                                                                                                                      217
F Y   2 0 1 1    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Subsidy Expense for Direct Loans by Program and Component:
Subsidy Expense for New Disbursements of Direct Loans:
                                                              FY 2011
                                                                                 Fees and
                                      Interest Rate                               Other
        Direct Loan Program            Differential               Defaults      Collections                 Other               Total
Fisheries Finance IFQ Loans           $ 	 (1,064)             $ 	       19     $ 	       (29)          $ 	   444          $ 	 (630)
Fisheries Finance Traditional Loans     	 (8,018)               	      158       	     (236)             	 3,805            	 (4,291)
Total                                 $        (9,082)        $        177     $ 	     (265)           $      4,249       $      (4,921)

                                                              FY 2010
                                                                                 Fees and
                                      Interest Rate                               Other
        Direct Loan Program            Differential               Defaults      Collections                Other                Total
Fisheries Finance IFQ Loans           $ 	 (1,094)             $ 	       21     $ 	       (36)         $ 	   424           $ 	 (685)
Fisheries Finance Traditional Loans     	 (13,777)              	      202       	     (486)            	 7,447             	 (6,614)
Total                                 $       (14,871)        $        223     $ 	     (522)          $       7,871       $      (7,299)

Modifications and Reestimates:
                       FY 2011                                                                             FY 2011
                                         Total                                 Interest Rate            Technical            Total
        Direct Loan Program           Modifications                            Reestimates             Reestimates        Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans          $   	          -                         $ 	            -       $ 	    187          $ 	    187
Bering Sea Pollock Fishery Buyback        	          -                           	            -         	 1,605             	 1,605
Crab Buyback Loans                        	          -                           	            -         	 (3,823)           	 (3,823)
Fisheries Finance IFQ Loans               	          -                           	            -         	 (781)             	 (781)
Fisheries Finance Traditional Loans       	          -                           	            -         	 (2,008)           	 (2,008)
Fisheries Finance Tuna Fleet Loans        	          -                           	            -         	      (3)          	      (3)
Pacific Groundfish Buyback Loans          	          -                           	            -         	 (196)             	 (196)
Total                                 $   	          -                         $ 	            -       $ 	 (5,019)         $ 	 (5,019)


                       FY 2010                                                                             FY 2010
                                         Total                                 Interest Rate            Technical            Total
        Direct Loan Program           Modifications                            Reestimates             Reestimates        Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans          $   	          -                         $ 	            -       $ 	    274          $ 	    274
Bering Sea Pollock Fishery Buyback        	          -                           	            -         	 (3,483)           	 (3,483)
Crab Buyback Loans                        	          -                           	            -              901                 901
Fisheries Finance IFQ Loans               	          -                           	            -         	    (95)           	     (95)
Fisheries Finance Traditional Loans       	          -                           	            -              582                 582
Fisheries Finance Tuna Fleet Loans        	          -                           	            -         	    572            	    572
Pacific Groundfish Buyback Loans          	          -                           	            -         	    154            	    154
Total                                 $   	          -                         $ 	            -       $      (1,095)      $      (1,095)




 218
                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                                 NOTES TO THE FINANCIAL STATE M ENTS




Total Direct Loan Subsidy Expense:

                   Direct Loan Program                          FY 2011                        FY 2010
          Bering Sea and Aleutian Islands Non-
            Pollock Buyback Loans                           $ 	          187             $ 	          274
          Bering Sea Pollock Fishery Buyback                    	       1,605                  	   (3,483)
          Crab Buyback Loans                                    	      (3,823)                 	      901
          Fisheries Finance IFQ Loans                                  (1,411)                      (780)
          Fisheries Finance Traditional Loans                   	      (6,299)                 	   (6,032)
          Fisheries Finance Tuna Fleet Loans                    	          (3)                 	      572
          Pacific Groundfish Buyback Loans                      	        (196)                 	      154

          Total                                             $ 	        (9,940)           $ 	       (8,394)


Subsidy Rates for Direct Loans by Program and Component:

Budget Subsidy Rates for Direct Loans for the Current Fiscal-year’s Cohorts:

                                                                    FY 2011
                                                                                          Fees and
                                                Interest Rate                              Other
          Direct Loan Program                    Differential          Defaults          Collections             Other       Total
 Fisheries Finance IFQ Loans                      (18.51) %             0.14 %           	 (0.38) %          	   3.50 %   	(15.25) %
 Fisheries Finance Traditional Loans              (13.28) %             0.06 %           	 (0.17) %          	   2.93 %   	(10.46) %


                                                                    FY 2010
                                                                                          Fees and
                                                Interest Rate                              Other
          Direct Loan Program                    Differential          Defaults          Collections             Other       Total
 Fisheries Finance IFQ Loans                      (21.26) %             0.42 %           	 (0.57) %          	   9.41 %   	(12.00) %
 Fisheries Finance Traditional Loans              (16.90) %             0.42 %           	 (0.54) %          	   8.53 %   	 (8.49) %

The budget subsidy rates disclosed pertain only to the reporting period’s cohorts. These rates cannot be applied to the new
disbursements of direct loans during the reporting period to yield the subsidy expense. The subsidy expense for new disbursements
of direct loans for the reporting period could result from disbursements of loans from both the reporting period’s cohorts and
prior fiscal-year(s) cohorts. The subsidy expense for the reporting period may also include modifications and reestimates.




                                                                                                                                     219
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Schedule for Reconciling Allowance for Subsidy Cost (Post-FY 1991 Direct Loans):
                                                                                              FY 2011                      FY 2010

   Beginning Balance of the Allowance for Subsidy Cost                                   $ 	          76,655           $ 	      68,463

   Add Subsidy Expense for Direct Loans Disbursed During the
     Reporting Years by Component:
   		   Interest Rate Differential Costs                                                               9,082                    14,871
   		   Default Costs (Net of Recoveries)                                                     	          (177)                     (223)
   		   Fees and Other Collections                                                                        265                       522
   		   Other Subsidy Costs                                                                            (4,249)                   (7,871)

   Total of the above Subsidy Expense Components                                                       4,921                      7,299

   Adjustments:
   		   Fees Received                                                                                    (378)                     (316)
   		   Subsidy Allowance Amortization                                                        	        (5,380)             	        114
   Total of Adjustments                                                                                (5,758)                     (202)

   Ending Balance of the Allowance for Subsidy Cost Before Reestimates                        	       75,818               	    75,560

   Add or Subtract Subsidy Reestimates by Component:
   		   Technical/Default Reestimates                                                         	        5,019               	      1,095

   Ending Balance of the Allowance for Subsidy Cost                                      $            80,837           $        76,655


Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees:

                                                       FY 2011
                                                                                                             Value of Assets
                                        Defaulted                                                          Related to Defaulted
        Loan Guarantee               Guaranteed Loans         Interest              Allowance for           Guaranteed Loans
           Program                   Receivable, Gross       Receivable             Loan Losses              Receivable, Net
FVOG Program                         $       7,785          $ 	        2        $ 	 (7,783)                $ 	             4


                                                       FY 2010
                                                                                                             Value of Assets
                                        Defaulted                                                          Related to Defaulted
        Loan Guarantee               Guaranteed Loans         Interest              Allowance for           Guaranteed Loans
           Program                   Receivable, Gross       Receivable             Loan Losses              Receivable, Net
FVOG Program                         $      11,997          $ 	        4        $ 	 (11,997)               $ 	             4




 220
                                            F Y   2 0 1 1   P E R F O R M A N C E     A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                                 NOTES TO THE FINANCIAL STATE M ENTS




Defaulted Guaranteed Loans from Post-FY 1991 Guarantees:

                                                        FY 2011
                                                                               Allowance for        Value of Assets
                                 Defaulted                                     Subsidy Cost       Related to Defaulted
    Loan Guarantee            Guaranteed Loans            Interest                (Present         Guaranteed Loans
       Program                Receivable, Gross          Receivable                Value)           Receivable, Net
FVOG Program 	               $          14,128          $ 	     1,254         $ 	    (14,819)     $            563


                                                        FY 2010
                                                                               Allowance for        Value of Assets
                                 Defaulted                                     Subsidy Cost       Related to Defaulted
    Loan Guarantee            Guaranteed Loans            Interest                (Present         Guaranteed Loans
       Program                Receivable, Gross          Receivable                Value)           Receivable, Net
FVOG Program 	               $          14,128          $ 	     1,254         $ 	    (13,111)     $          2,271



Loan Guarantees:

Guaranteed Loans Outstanding:

Outstanding non-acquired guaranteed loans as of September 30, 2011 and 2010, which are not reflected in the financial
statements, are as follows:


                                                              FY 2011                                         FY 2010
                                            Outstanding                   Amount of               Outstanding              Amount of
                                             Principal of                Outstanding               Principal of           Outstanding
         Loan Guarantee                   Guaranteed Loans,                Principal            Guaranteed Loans,           Principal
            Program                          Face Value                  Guaranteed                Face Value             Guaranteed
FVOG Program                              $ 	           2,467           $ 	         2,467       $ 	        3,939         $ 	    3,939




                                                                                                                                  221
F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




New Guaranteed Loans Disbursed:
        There were no new guaranteed loans disbursed during FY 2011 and FY 2010.

Loan Guarantee Liabilities:
                                                                                FY 2011                                FY 2010
                                                                            Loan Guarantee                        Loan Guarantee
                                                                           Liabilities for Post-                 Liabilities for Post-
                                                                          FY 1991 Guarantees,                   FY 1991 Guarantees,
                      Loan Guarantee Program                                  Present Value                         Present Value
        FVOG Program                                                  $                563                  $                  565


Subsidy Expense for Loan Guarantees by Program and Component:

Subsidy Expense for New Loan Guarantees Disbursed:
        As there were no new loan guarantees disbursed during FY 2011 and FY 2010, there is not any related subsidy
        expense.


Modifications and Reestimates:
                         FY 2011                                                                        FY 2011
           Loan Guarantee                Total                                 Interest Rate           Technical             Total
              Program                 Modifications                            Reestimates            Reestimates         Reestimates
       FVOG Program                  $ 	          -                           $ 	            -       $ 	         614     $ 	         614


                         FY 2010                                                                        FY 2010
           Loan Guarantee                Total                                 Interest Rate           Technical             Total
              Program                 Modifications                            Reestimates            Reestimates         Reestimates
       FVOG Program                  $ 	          -                           $ 	            -       $ 	         510     $ 	         510


Total Loan Guarantee Subsidy Expense:

                      Loan Guarantee Program                                 FY 2011                       FY 2010
        FVOG Program                                                  $ 	           614              $ 	           510




 222
                                            F Y   2 0 1 1   P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y    R E P O R T
                                                                                    NOTES TO THE FINANCIAL STATE M ENTS




Subsidy Rates for Loan Guarantees by Program and Component:

Budget Subsidy Rates for Loan Guarantees for the Current Fiscal-year’s Cohorts:
         There were no new cohorts of guaranteed loans during FY 2011 and FY 2010.


Schedule for Reconciling Loan Guarantee Liabilities (Post-FY 1991 Loan Guarantees):

                                                                                                          FY 2011                FY 2010

          Beginning Balance of Loan Guarantee Liabilities                                             $ 	        565         $ 	     589

          Adjustments:
          	     Fees Received                                                                                      1                    8
          	     Interest Accumulation on the Liabilities Balance                                          	       (3)            	    (32)
          Ending Balance of Loan Guarantee Liabilities                                                $          563         $       565


Administrative Expenses:

Administrative expenses in support of the Department’s direct loan and loan guarantee programs consist of:


                          Direct Loan Program                                       FY 2011                   FY 2010
          Drought Loan Portfolio and
             Economic Development Revolving Fund                          $               1,206       $             776
          NOAA Direct Loan Programs                                                       3,368                   2,494

          Total                                                           $               4,574       $           3,270


                        Loan Guarantee Program                                      FY 2011                   FY 2010
          Emergency Steel Loan Guarantee Program                          $ 	                     -   $ 	               98
          FVOG Program                                                          	           189           	         180

          Total                                                           $                 189       $             278




                                                                                                                                           223
F Y   2 0 1 1     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




     Note 6. Inventory, Materials, and Supplies, Net

                     Category                             Cost Flow Assumption                FY 2011               FY 2010
Inventory
Items Held for Current Sale
	     NIST Standard Reference Materials                   Average                         $      22,414         $      22,340
	     Other                                               Various                                   449                   166
Allowance for Excess, Obsolete, and
   Unserviceable Items                                                                               (97)                 (140)

Total Inventory, Net                                                                             22,766                22,366


Materials and Supplies
Items Held for Use
	     NOAA’s National Logistics Support Center            Weighted-average                       44,279                49,178
	     Census Bureau’s Decennial Census                    First-in, first-out                       155                26,089
	     Other                                               Various                                 4,816                 4,699
Items Held for Repair
	     NOAA’s National Reconditioning Center               Weighted-average                       42,607                42,775
Allowance for Excess, Obsolete, and
   Unserviceable Items                                                                           (16,800)             (46,781)

Total Materials and Supplies, Net                                                                75,057                75,960

Total                                                                                     $      97,823         $      98,326


NIST’s Standard Reference Materials Program provides reference materials for quality assurance of measurements, while
NOAA’s Materials and Supplies are primarily repair parts for weather forecasting equipment. The Census Bureau’s Decennial
Census materials and supplies are comprised of employment forms, payroll forms, various other administrative forms, and
training and production materials.




    224
                                                 F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                NOTES TO THE FINANCIAL STATE M ENTS




   Note 7. General Property, Plant, and Equipment, Net

                                                              FY 2011
                                             Useful Life                                  Accumulated
                Category                      (Years)                 Cost                Depreciation      Net Book Value
Land                                             N/A           $ 	        16,749       $ 	             -    $ 	     16,749
Land Improvements                              30-40                       2,996                  (1,378)            1,618
Structures, Facilities, and
   Leasehold Improvements                        2-60                 1,543,671                (571,303)           972,368
Satellites/Weather Systems
   Personal Property                             3-20                 5,137,980               (4,091,908)         1,046,072
Other Personal Property                          2-30                 2,499,056               (1,656,622)          842,434
Assets Under Capital Lease                       3-40             	       23,067          	      (18,274)     	      4,793
Construction-in-progress                         N/A              	   5,478,229           	            -      	   5,478,229

Total                                    	                     $ 	 14,701,748          $ 	    (6,339,485)   $ 	   8,362,263


                                                              FY 2010
                                             Useful Life                                  Accumulated
                Category                      (Years)                 Cost                Depreciation      Net Book Value
Land                                             N/A           $ 	        16,787       $ 	             -    $ 	     16,787
Land Improvements                              30-40                       2,996                  (1,286)            1,710
Structures, Facilities, and
   Leasehold Improvements                        2-60                 1,406,982                (520,827)           886,155
Satellites/Weather Systems
   Personal Property                             3-20                 5,080,613               (3,656,875)         1,423,738
Other Personal Property                          2-30                 2,365,104               (1,518,219)          846,885
Assets Under Capital Lease                       3-40             	       23,562          	      (17,693)     	      5,869
Construction-in-progress                         N/A              	   4,213,567           	            -      	   4,213,567

Total                                    	                     $ 	 13,109,611          $ 	    (5,714,900)   $ 	   7,394,711




                                                                                                                              225
F Y   2 0 1 1    P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 8. Other Assets

                                                                   FY 2011                 FY 2010
         With the Public                                           	                       	
         Advances and Prepayments                              $        45,448         $        47,254
         Note Receivable                                                 1,601                   1,410
         Bibliographic Database                                          6,267                   6,454
         Other                                                     	         4             	          4
         Total                                                 $        53,320         $        55,122


As of September 30, 2011 and 2010, there is one Note Receivable with a maturity date of July 2024 and an interest rate of
7.0 percent. The balance includes accrued interest.

The bibliographic database relates to NTIS’s scientific and technical information used to prepare products and services for sale.
The database is stated at capitalized costs of $65.3 million and $62.7 million, less accumulated amortization of $59.0 million and
$56.2 million, at September 30, 2011 and 2010, respectively.



   Note 9. Non-entity Assets

The assets that are not available for use in the Department’s operations are summarized below:

                                                                   FY 2011                 FY 2010
         Intragovernmental                                         	                       	
         Fund Balance with Treasury                            $ 	     121,036         $ 	     153,731
         Total Intragovernmental                                       121,036                 153,731

         With the Public
         Cash                                                      	      756              	       652
         Accounts Receivable, Net                                        2,187                   8,022
         Direct Loans and Loan
            Guarantees, Net                                        	    13,693             	    11,561
         Other                                                           1,604             	           -
         Total                                                 $       139,276         $       173,966




 226
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   NOTES TO THE FINANCIAL STATE M ENTS




   Note 10. Debt to Treasury

                                                                   FY 2011
                                                                       Beginning         Net Borrowings        Ending
                           Loan Program                                 Balance           (Repayments)         Balance
          Direct Loan Program
          Fisheries Finance, Financing Account                 $           514,841      $       24,461     $      539,302

          Loan Guarantee Program
          FVOG Program                                             	         3,089               (2,390)             699
          Total                                                $ 	         517,930      $       22,071     $      540,001


For the Direct Loan and Loan Guarantee programs, maturity dates range from September 2012 to September 2038, and interest
rates range from 2.59 to 6.97 percent.




                                                                   FY 2010
                                                                       Beginning         Net Borrowings        Ending
                           Loan Program                                 Balance           (Repayments)         Balance
          Direct Loan Program
          Fisheries Finance, Financing Account                 $           482,405      $       32,436     $      514,841

          Loan Guarantee Program
          FVOG Program                                             	         4,870               (1,781)            3,089
          Total                                                $ 	         487,275      $       30,655     $      517,930




                                                                                                                            227
F Y   2 0 1 1     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 11. Other Liabilities

                                                                           FY 2011                                        FY 2010
                                                                       Non-current
                                             Current Portion             Portion                     Total                     Total
        Intragovernmental
        Accrued FECA Liability              $        21,810        $           8,595         $         30,405        $          44,253
        Accrued Benefits                             47,907            	             -                 47,907                   43,613
        Custodial Activity                             1,769           	             -                   1,769                   7,964
        Downward Subsidy Reestimates
          Payable to Treasury                          9,135           	             -                   9,135                   8,087
        Other                                          1,452           	             -                   1,452                    427
        Total                               $        82,073        $           8,595         $         90,668        $         104,344


        With the Public
        ITA Foreign Service Nationals’
           Voluntary Separation Pay         $          2,558       $           9,835         $         12,393        $          10,694
        Contingent Liabilities (Note 16)               3,402           	             -                   3,402                  12,155
        Employment-related                             8,000           	             -                   8,000                  17,954
        Other                                        49,358            	             -                 49,358                    8,378
        Total                               $        63,318        $           9,835         $         73,153        $          49,181



The Current Portion represents liabilities expected to be paid by September 30, 2012, while the Non-current Portion represents
liabilities expected to be paid after September 30, 2012.




 228
                                             F Y   2 0 1 1   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 12. Federal Employee Benefits

These liabilities consist of:

                                                                                                FY 2011          FY 2010
          Actuarial FECA Liability                                                   $ 	         235,982   $ 	    210,235
          NOAA Corps Retirement System Liability                                            	    524,100     	    502,800
          NOAA Corps Post-retirement Health Benefits Liability                              	     48,400     	     56,000

          Total                                                                      $ 	         808,482   $ 	    769,035


Actuarial FECA Liability:

Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future benefit payments to
present value, the interest rate assumptions used by DOL were as follows:

                                                                                                FY 2011          FY 2010
          Year 1                                                                            	    3.54%       	    3.65%
          Year 2 and Thereafter                                                             	    4.03%       	    4.30%


The wage inflation factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index - Medical) applied to the
calculation of projected future benefits, and also used to adjust the methodology’s historical payments to current year constant
dollars, were as follows:

                                                    FY 2011
                                                             Cost of Living           Consumer Price
                         Fiscal Year                          Allowance               Index - Medical
          2012                                                    2.10 %                         3.07 %
          2013                                                    2.53 %                         3.62 %
          2014                                                    1.83 %                         3.66 %
          2015                                                    1.93 %                         3.73 %
          2016                                                    2.00 %                         3.73 %


                                                    FY 2010
                                                             Cost of Living           Consumer Price
                         Fiscal Year                          Allowance               Index - Medical
          2011                                                    2.23 %                         3.45 %
          2012                                                    1.13 %                         3.43 %
          2013                                                    1.70 %                         3.64 %
          2014                                                    1.90 %                         3.66 %
          2015                                                    1.93 %                         3.73 %




                                                                                                                             229
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NOAA Corps Retirement System Liability:

This liability represents the unfunded actuarial present value of projected plan benefits. The actuarial calculation is
performed annually, as of September 30. The September 30, 2011 and 2010 actuarial calculations used the following
economic assumptions:
                                                                                 FY 2011                     FY 2010
         Discount Rate                                                            4.73%                       4.89%
         Annual Basic Pay Scale Increases                                         3.15%                       3.12%
         Annual Inflation                                                         2.40%                       2.37%

The related pension costs included in the Consolidated Statements of Net Cost are as follows:
                                                                                 FY 2011                     FY 2010
         Normal Cost                                                     $           9,800           $           9,100
         Interest on the Unfunded Liability                                  	      24,100               	      26,500
         Actuarial (Gains)/Losses, Net
         	   From Experience                                                 	       (6,500)             	       5,200
         	   From Discount Rate Assumption Change                            	      11,000               	      65,100
         	   From Long-term Assumption Changes                               	                           	
         		    Annual Inflation                                              	       1,500               	      (37,800)
         		    Annual Basic Pay Scale Increases                              	          600              	      (14,900)
         		    Demographic                                                   	       1,800               	         (400)

         Total Pension Costs                                             $          42,300           $          52,800


NOAA Corps Post-retirement Health Benefits Liability:

This liability represents the unfunded actuarial present value of projected post-retirement plan benefits. The actuarial calculation
is performed annually, as of September 30. The actuarial calculations used the same U.S. Department of Defense Retirement
Board of Actuaries economic assumptions as used for the NOAA Corps Retirement System actuarial calculations:
                                                                                 FY 2011                     FY 2010
         Discount Rate                                                            4.74%                       4.77%
         Ultimate Medical Trend Rate                                              5.65%                       6.25%

The related post-retirement health benefits costs included in the Consolidated Statements of Net Cost are as follows:
                                                                                 FY 2011                     FY 2010
         Normal Cost                                                     $ 	         1,500           $ 	         1,800
         Interest on the Unfunded Liability                                  	       2,600               	       2,000
         Actuarial (Gains)/Losses, Net
         	   From Experience                                                 	        (100)              	       2,100
         	   From Discount Rate Assumption Change                            	          100              	       3,800
         	   From Long-term Assumption Changes –
             	 Medical Claims Costs                                          	       (9,100)             	       5,200

         Total Post-retirement Health Benefits Costs                     $ 	         (5,000)         $ 	        14,900


 230
                                                F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                  NOTES TO THE FINANCIAL STATE M ENTS




    Note 13. Environmental and Disposal Liabilities

                                                                                       FY 2011                FY 2010
          Pribilof Islands Cleanup                                            $ 	          2,569      $ 	         3,017
          Nuclear Reactor                                                          	      57,362          	      48,598
          Other                                                                    	       3,446          	       3,034

          Total                                                               $           63,377      $          54,649




   Note 14. Leases

Capital Leases:

Assets under capital leases are as follows:

                                                                                       FY 2011                FY 2010
          Structures, Facilities, and Leasehold Improvements                  $ 	         23,043      $ 	        23,538
          Equipment                                                                	             24       	             24
          Less: Accumulated Depreciation                                           	      (18,274)        	      (17,693)

          Net Assets Under Capital Leases                                     $            4,793      $           5,869


Capital Lease Liabilities are primarily related to NOAA. NOAA has real property capital leases covering both land and buildings.
The majority of these leases are for weather forecasting offices, but the leases are also for radar system sites, river forecasting
centers, and National Weather Service enforcement centers. NOAA’s real property capital leases range from 10 to 40 years.




                                                                                                                             231
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Capital Lease Liabilities:

Future payments due under capital leases are as follows:


                                        FY 2011
                                                  General PP&E Category

                  Fiscal Year                            Real Property
              2012                                   $             3,877
              2013                                                 3,723
              2014                                                 3,041
              2015                                                 1,903
              2016                                                  873
              Thereafter                                           9,929

        Total Future Lease Payments                               23,346
        Less: Imputed Interest                                    (9,303)
        Less: Executory Costs                                     (3,975)

        Net Capital Lease Liabilities                $            10,068


                                        FY 2010
                                                  General PP&E Category

                  Fiscal Year                            Real Property
              2011                                   $             4,081
              2012                                                 3,878
              2013                                                 3,729
              2014                                                 3,049
              2015                                                 1,901
              Thereafter                                          10,770

        Total Future Lease Payments                               27,408
        Less: Imputed Interest                                (13,399)
        Less: Executory Costs                                     (4,731)

        Net Capital Lease Liabilities                $             9,278




 232
                                                  F Y   2 0 1 1    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




Operating Leases:

Most of the Department’s facilities are rented from GSA, which generally charges rent that is intended to approximate commercial
rental rates. For federally owned property rented from GSA, the Department generally does not execute an agreement with
GSA; the Department, however, is normally required to give 120 to 180 days notice to vacate. For non-federally owned property
rented from GSA, an occupancy agreement is generally executed, and the Department may normally cancel these agreements
with 120 days notice.

The Department’s (1) estimated real property rent payments to GSA for FY 2012 through FY 2016; and (2) future payments due
under noncancellable operating leases (non-GSA real property) are as follows:


                                                                      FY 2011
                                                                                 General PP&E Category

                                                                                GSA                Non-GSA
                                           Fiscal Year                      Real Property        Real Property
                                        2012                            $        254,865     $         18,582
                                        2013                                     253,985               17,423
                                        2014                                     247,318               12,823
                                        2015                                     246,892               11,322
                                        2016                                     245,527                 9,854
                                        Thereafter                                       1            107,387

                               Total Future Lease Payments                        N/A        $        177,391


                               1	   Not estimated.




                                                                                                                          233
F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 15. Liabilities Not Covered by Budgetary Resources

                                                                                  FY 2011                   FY 2010
         Intragovernmental
         Accrued FECA Liability                                           $          30,307         $          37,216
         Total Intragovernmental                                                     30,307                    37,216

         Accrued Payroll                                                      	      41,003             	      36,359
         Accrued Annual Leave                                                       270,561                   264,720
         Federal Employee Benefits                                                  808,482                   769,035
         Environmental and Disposal Liabilities                                      63,377                    54,649
         Contingent Liabilities                                                        3,402                   12,155
         Unearned Revenue                                                           667,775                   551,263
         ITA Foreign Service Nationals’ Voluntary Separation Pay                     12,393                    10,694
         Other                                                                           89                      253

         Total                                                            $       1,897,389         $       1,736,344


Due to USPTO’s funding structure, budgetary resources do not cover a portion of its Unearned Revenue. The Unearned
Revenue reported above is the portion of USPTO’s Unearned Revenue that is considered not covered by budgetary resources.
USPTO’s Unearned Revenue is a liability for revenue received before the patent or trademark work has been completed.
Budgetary resources derived from the current reporting period’s revenue have been partially used to cover the current reporting
period’s costs associated with unearned revenue from a prior reporting period. In addition, the current patent fee structure sets
low initial application fees that are followed by income from maintenance fees as a supplement in later years to cover the full
cost of the patent examination and issuance processes. The combination of these funding circumstances requires USPTO to
obtain additional budgetary resources to cover its liability for unearned revenue.




 234
                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                   NOTES TO THE FINANCIAL STATE M ENTS




   Note 16. Commitments and Contingencies

Commitments:

The Department has entered into long-term contracts for the purchase, construction, and modernization of environmental
satellites and weather measuring and monitoring systems. A summary of major long-term commitments as of September 30,
2011 is shown below.

Major Long-term Commitments:

                                                                  FY 2011
Description                       FY 2012          FY 2013        FY 2014            FY 2015         FY 2016       Thereafter   Total
Geostationary Operational
  Environmental Satellites $ 819,600 $ 817,000 $                      816,900 $          817,500 $       562,500 $ 1,233,100 $ 5,066,600
Convergence Satellites            1,160,000           960,000         740,000            610,000         834,500    3,655,000   7,959,500
Polar Operational
   Environmental Satellites             40,900         40,900          40,900             40,900          22,900        3,000    189,500
Climate Sensors                         55,400         51,100          50,600             35,500          25,700       21,400    239,700
Ocean Surface Topography                53,000         29,000           2,000              2,000           1,000        2,000     89,000
Deep Space Climate
  Observatory                           38,300         25,400           3,800              2,400           5,700        7,500     83,100
Other Weather Service               135,518           118,161         104,117            104,225          82,150       82,506    626,677
Other                                      87     	          -    	            -     	           -   	         -   	        -           87
Total                           $ 2,302,805 $ 2,041,561 $ 1,758,317 $ 1,612,525 $ 1,534,450 $ 5,004,506 $ 14,254,164

Legal Contingencies:

The Department is subject to potential liabilities in various administrative proceedings, legal actions, environmental suits, and
claims brought against it. In the opinion of the Department’s management and legal counsel, the ultimate resolution of these
proceedings, actions, suits, and claims will not materially affect the financial position or net costs of the Department.

Probable Likelihood of an Adverse Outcome:

The Department is subject to potential liabilities where adverse outcomes are probable, and claims are approximately
$3.4 million and $12.2 million as of September 30, 2011 and 2010, respectively. Accordingly, these contingent liabilities were
included in Other Liabilities on the Consolidated Balance Sheets as of September 30, 2011 and 2010, respectively. For a majority
of these claims, any amounts ultimately due will be paid out of Treasury’s Judgment Fund. For the claims to be paid by Treasury’s
Judgment Fund, once the claims are settled or court judgments are assessed relative to the Department, the liability will be
removed and an Imputed Financing Source From Cost Absorbed by Others will be recognized.

Reasonably Possible Likelihood of an Adverse Outcome:

The Department and other federal agencies are subject to potential liabilities for a variety of environmental cleanup costs,
many of which are associated with the Second World War, at various sites within the U.S. Since some of the potential
liabilities represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed




                                                                                                                                    235
F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




$86.1 million as of September 30, 2011. For these potential liabilities, it is reasonably possible that an adverse outcome will
result. It is not possible, however, to speculate as to a range of loss. In the absence of a settlement agreement, decree, or
judgment, there is neither an allocation of response costs between the U.S. government and other potentially responsible
parties, nor is there an attribution of such costs to or among the federal agencies implicated in the claims. Although the
Department has been implicated as a responsible party, the U.S. Department of Justice was unable to provide an amount
for these potential liabilities that is attributable to the Department. Of these potential liabilities, all will be funded by
Treasury’s Judgment Fund, if any amounts are ultimately due.

The Department and other federal agencies are subject to other potential liabilities. Since some of the potential liabilities
represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $551.7 million
as of September 30, 2011. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not
possible, however, to speculate as to a range of loss. Of these potential liabilities, most will be funded by Treasury’s Judgment
Fund, if any amounts are ultimately due.

Guaranteed Loan Contingencies

Fishing Vessels Obligation Guarantee Program: This loan guarantee program has outstanding non-acquired guaranteed
loans (fully guaranteed by the Department) as of September 30, 2011 and 2010, with outstanding principal balances totaling
$2.5 million and $3.9 million respectively. A loan guarantee liability of $563 thousand and $565 thousand is recorded for the
outstanding guarantees at September 30, 2011 and 2010, respectively.

Restructuring the National Polar-orbiting Operational Environmental Satellite System (NPOESS) to the Joint Polar
Satellite System (JPSS)

In 2010, the Executive Office of the President directed the restructure of the government’s approach to meeting its polar-orbiting
environmental data collection needs. Accordingly, the President’s FY2011 budget contains a restructuring of the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) in order to put the critical program on a more sustainable pathway
toward success. The Joint Polar Satellite Program (JPSS) is a national priority -- essential to meeting both civil and military
weather forecasting, storm tracking, and climate monitoring requirements. After reviewing options, including those suggested
by an Independent Review Team (IRT) and Congressional Committees, the President’s FY2011 budget takes significant new
steps. The Executive Office of the President directed NOAA and the Air Force to no longer continue to jointly procure the
polar-orbiting satellite system, known as NPOESS. This decision is in the best interest of the American public to preserve critical
operational weather and climate observations into the future.

The three agencies (DoD, NOAA and NASA) have and will continue to partner to ensure a successful way forward for the
respective programs, while utilizing international partnerships to sustain and enhance weather and climate observation from
space.

The major challenge of NPOESS was jointly executing the program between three agencies of different sizes with divergent
objectives and different acquisition procedures. The new system will resolve this challenge by splitting the procurements.
NOAA and NASA will take primary responsibility for the afternoon orbit, and DoD will take primary responsibility for the morning
orbit. The agencies will continue to partner in those areas that have been successful in the past, such as a shared ground system.
The restructured programs will also eliminate the NPOESS tri-agency structure that has made management and oversight
difficult, contributing to the poor performance of the program.




 236
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




The restructuring effort continued throughout FY 2011. During this time, NOAA and the Air Force continued to work together to
decide which program components will remain with DoD versus which program components will transfer to NOAA to become
part of JPSS. If any program component that remains with NOAA is not needed for JPSS, the costs incurred for those components
will be written off. For example, one component that will not be used by NOAA was the Conical-scanning Microwave Image/
Sounder (CMIS) sensor, with costs incurred of $107.5M, which was charged to expense in FY2010.

During FY 2011, the following equipment and instruments were transferred to NOAA (through the NASA contact): 1) all
Ground Tracking systems equipment, 2) the Ozone Mapping and Profiler Suite (OMPS)-Nadir sensor, 3) the Cross-track Infrared
Sounder (CrIS) sensor, and 4) the Visible/Infrared Imager/Radiometer Suite (VIIRS) Flight Model 2 (F2) sensor (to fly on JPSS-1).
The Advanced Technology Microwave sensor (ATMS) was transferred to NOAA on October 4, 2011. The Material for VIIRS F3
and the Charlie 1(CI) bus remained under the Air Force contract.

NOAA has determined that it will not use the C1 bus for its JPSS-1 satellite, and uncertainties exist with NOAA’s use of the C1
bus design for its JPSS-2 satellite. NOAA plans to recompete the contract for this component for use on JPSS-2 in 2014.

The Air Force contract with Northrop Grumman has not been terminated and a final cost accounting to finalize the split of all
costs incurred between NOAA and the Air Force relating to the NPOESS program has not yet taken place. Final costs are
subject to change pending verification of all costs with the Air Force and a reconciliation of those costs to NOAA’s Construction
Work in Progress records and the final distribution of assets (i.e., systems, components, and instruments, and their costs.
The ultimate amount of impairment charges, if any, that may result from the satellite restructuring cannot be estimated as of
September 30, 2011.




                                                                                                                           237
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
     NOTES TO THE FINANCIAL STATE M ENTS




    Note 17. Consolidated Statements of Net Cost (Note 1)

FY 2011 Consolidating Statement of Net Cost:

                                                                                                                                                                              Intra-
                                                                                                                                          Departmental    Combining        Departmental   Consolidating
                                         NOAA              USPTO            ESA             NIST            NTIA             Others       Management        Total          Eliminations      Total

Theme 1: Economic Growth
    Intragovernmental Gross Costs   $	          - $        456,141 $ 	            - $       143,462 $       312,972 $ 271,871             $ 82,225       $ 1,266,671 $ 	 (101,299)        $ 1,165,372
    Gross Costs With the Public      	          -         1,691,956     	         -         994,864         713,608          718,578           31,142         4,150,148     	         -        4,150,148
       Total Gross Costs             	          -         2,148,097     	         -     1,138,326       1,026,580            990,449        113,367           5,416,819     	 (101,299)        5,315,520
    Intragovernmental Earned
         Revenue                     	          -     	      (8,060)    	         -     	 (122,955)     	 (24,757)       	 (21,177)        	 (77,851)     	 (254,800)           101,299    	 (153,501)
    Earned Revenue From the
        Public                       	          -     	(2,228,314)      	         -     	 (53,618)      	          (7)   	 (14,720)        	       (3)    	(2,296,662)      	         -    	(2,296,662)
       Total Earned Revenue          	          -     	(2,236,374)      	         -     	 (176,573)     	 (24,764)       	 (35,897)        	 (77,854)     	(2,551,462)          101,299    	(2,450,163)
    Net Program Costs                	          -     	     (88,277)    	         -         961,753     1,001,816            954,552           35,513         2,865,357     	         -        2,865,357
Theme 2: Science and Information
    Intragovernmental Gross Costs        523,874      	            -        466,185     	          -          8,067            7,811           82,224         1,088,161     	 (96,834)          991,327
    Gross Costs With the Public       1,876,549       	            -    1,477,867       	          -         15,376           44,163           31,142         3,445,097     	         -        3,445,097
       Total Gross Costs              2,400,423       	            -    1,944,052       	          -         23,443           51,974        113,366           4,533,258     	 (96,834)         4,436,424
    Intragovernmental Earned
         Revenue                     	 (121,539)      	            -    	 (287,288)     	          -    	 (17,480)       	 (41,846)        	 (77,851)     	 (546,004)            96,834    	 (449,170)
    Earned Revenue From the
        Public                       	   (10,396)     	            -    	 (10,855)      	          -    	      (137)     	 (10,501)        	       (3)    	     (31,892)    	         -    	     (31,892)
       Total Earned Revenue          	 (131,935)      	            -    	 (298,143)     	          -    	 (17,617)       	 (52,347)        	 (77,854)     	 (577,896)            96,834    	 (481,062)
    Net Program Costs                 2,268,488       	            -    1,645,909       	          -          5,826      	      (373)          35,512         3,955,362     	         -        3,955,362
Theme 3: Environmental
Stewardship
    Intragovernmental Gross Costs        311,824      	            -    	         -     	          -    	           -    	            -        82,249          394,073      	 (100,998)         293,075
    Gross Costs With the Public       2,343,684       	            -    	         -     	          -    	           -    	            -        31,151         2,374,835     	         -        2,374,835
       Total Gross Costs              2,655,508       	            -    	         -     	          -    	           -    	            -     113,400           2,768,908     	 (100,998)        2,667,910
    Intragovernmental Earned
         Revenue                     	   (95,827)     	            -    	         -     	          -    	           -    	            -    	 (77,874)     	 (173,701)           100,998    	     (72,703)
    Earned Revenue From the
        Public                       	 (182,123)      	            -    	         -     	          -    	           -    	            -    	       (3)    	 (182,126)       	         -    	 (182,126)
       Total Earned Revenue          	 (277,950)      	            -    	         -     	          -    	           -    	            -    	 (77,877)     	 (355,827)           100,998    	 (254,829)
	   Net Program Costs                 2,377,558       	            -    	         -     	          -    	           -    	            -        35,523         2,413,081     	         -        2,413,081
NET COST OF OPERATIONS              $ 4,646,046 $ 	         (88,277) $ 1,645,909 $          961,753 $ 1,007,642 $ 954,179                 $ 106,548      $ 9,233,800 $ 	              -   $ 9,233,800




        238
                                                                       F Y   2 0 1 1        P E R F O R M A N C E               A N D          A C C O U N T A B I L I T Y            R E P O R T
                                                                                                           NOTES TO THE FINANCIAL STATE M ENTS




FY 2010 Consolidating Statement of Net Cost:

                                                                                                                                                                               Intra-
                                                                                                                                         Departmental      Combining        Departmental    Consolidating
                                          NOAA             USPTO            ESA            NIST            NTIA             Others       Management          Total          Eliminations       Total

Strategic Goal 1: Maximize U.S.
Competitiveness and Enable
Economic Growth for American
Industries, Workers, and
Consumers
    Intragovernmental Gross Costs   $ 	          - $ 	              - $ 1,045,041 $               30 $ 	          - $       273,146 $          77,819    $ 1,396,036 $ 	 (87,024)          $ 1,309,012
    Gross Costs With the Public       	          -    	             -   5,770,979          102,393     	          -         926,965            30,737          6,831,074     	        -         6,831,074
       Total Gross Costs              	          -    	             -   6,816,020          102,423     	          -     1,200,111          108,556             8,227,110     	 (87,024)         8,140,086
    Intragovernmental Earned
         Revenue                      	          -    	             -   	 (230,177)    	           -   	          -     	 (28,747)         	 (74,893)      	 (333,817)           87,024     	 (246,793)
    Earned Revenue From the
        Public                        	          -    	             -   	    (5,724)   	           -   	          -     	     (8,962)      	       (3)     	     (14,689)    	        -     	     (14,689)
       Total Earned Revenue           	          -    	             -   	 (235,901)    	           -   	          -     	 (37,709)         	 (74,896)      	 (348,506)           87,024     	 (261,482)
    Net Program Costs                 	          -    	             -   6,580,119          102,423     	          -     1,162,402              33,660          7,878,604     	        -         7,878,604
Strategic Goal 2: Promote
U.S. Innovation and Industrial
Competitiveness
    Intragovernmental Gross Costs     	          -         425,881      	         -        133,541         386,909             7,425           77,820          1,031,576     	 (98,523)          933,053
    Gross Costs With the Public       	          -        1,581,057     	         -        788,127         213,178           40,576            30,738          2,653,676     	        -         2,653,676
       Total Gross Costs              	          -        2,006,938     	         -        921,668         600,087           48,001        108,558             3,685,252     	 (98,523)     	 3,586,729
    Intragovernmental Earned
         Revenue                      	          -    	      (9,375)    	         -    	(113,045)      	 (29,939)       	 (38,567)         	 (74,893)      	 (265,819)           98,523     	 (167,296)
    Earned Revenue From the
        Public                        	          -    	(2,092,307)      	         -    	 (54,445)      	      (151)     	 (10,522)         	       (3)     	(2,157,428)      	        -     	 (2,157,428)
       Total Earned Revenue           	          -    	(2,101,682)      	         -    	(167,490)      	 (30,090)       	 (49,089)         	 (74,896)      	(2,423,247)          98,523     	 (2,324,724)
    Net Program Costs                 	          -    	     (94,744)    	         -        754,178         569,997      	     (1,088)          33,662          1,262,005     	        -         1,262,005
Strategic Goal 3: Promote
Environmental Stewardship
    Intragovernmental Gross Costs         772,455     	             -   	         -    	           -   	          -     	            -         77,850           850,305      	 (99,604)          750,701
    Gross Costs With the Public       4,019,147       	             -   	         -    	           -   	          -     	            -         30,746          4,049,893     	        -         4,049,893
       Total Gross Costs              4,791,602       	             -   	         -    	           -   	          -     	            -     108,596             4,900,198     	 (99,604)         4,800,594
    Intragovernmental Earned
         Revenue                      	 (203,896)     	             -   	         -    	           -   	          -     	            -     	 (74,915)      	 (278,811)           99,604     	 (179,207)
    Earned Revenue From the
        Public                        	 (97,913)      	             -   	         -    	           -   	          -     	            -     	       (3)     	     (97,916)    	        -     	     (97,916)
       Total Earned Revenue           	 (301,809)     	             -   	         -    	           -   	          -     	            -     	 (74,918)      	 (376,727)           99,604     	 (277,123)
	   Net Program Costs                 4,489,793       	             -   	         -    	           -   	          -     	            -         33,678          4,523,471     	        -         4,523,471
NET COST OF OPERATIONS              $ 4,489,793 $ 	         (94,744) $ 6,580,119 $         856,601 $       569,997 $ 1,161,314 $ 101,000                 $ 13,664,080 $ 	             -    $ 13,664,080




                                                                                                                                                                                           239
     F Y   2 0 1 1    P E R F O R M A N C E          A N D         A C C O U N T A B I L I T Y             R E P O R T
 NOTES TO THE FINANCIAL STATE M ENTS



Major Programs: The following tables illustrate major programs of the Department. “Other Programs” refers to the other
programs within each theme (FY 2011) or strategic goal (FY 2010). The “Others” column refers to the Department’s reporting
entities that are not listed. The Others column data and the Other Programs data are presented solely to reconcile these tables to
the Combining Total columns on the Consolidating Statements of Net Cost.

FY 2011 Statement of Net Cost by Major Program (Combining Basis):
                                                                     Census                                                                       Combining
            Program Costs                          NOAA              Bureau                 NIST               USPTO             Others             Total
Theme 1: Economic Growth
Measurements and Standards Laboratories
	 Gross Costs                                 $	             -     $ 	          -   $     845,241 $ 	                  -   $ 	            -   $           845,241
	 Less: Earned Revenue                         	             -       	          -       	(131,317)  	                  -     	            -       	      (131,317)
	 Net Program Costs                            	             -       	          -         713,924   	                  -     	            -               713,924
Patents
	 Gross Costs                                  	             -       	          -       	          -         1,913,354       	            -          1,913,354
	 Less: Earned Revenue                         	             -       	          -       	          -       	(2,005,269)      	            -       	 (2,005,269)
	 Net Program Costs                            	             -       	          -       	          -       	 (91,915)        	            -       	    (91,915)
Trademarks
	 Gross Costs                                  	             -       	          -       	          -          191,760        	            -               191,760
	 Less: Earned Revenue                         	             -       	          -       	          -       	 (231,105)                            	      (231,105)
	 Net Program Costs                            	             -       	          -       	          -       	 (39,345)        	            -       	       (39,345)
Other Programs
	 Gross Costs                                  	             -       	          -        293,085                 42,983       2,130,396                 2,466,464
	 Less: Earned Revenue                         	             -       	          -       	 (45,256)         	           -     	 (138,515)                 (183,771)
	 Net Program Costs                            	             -       	          -        247,829                 42,983       1,991,881                 2,282,693
Net Program Costs for Theme 1                  	             -       	          -        961,753           	    (88,277)      1,991,881                 2,865,357

Theme 2: Science and Information
Decennial and Periodic Censuses
	 Gross Costs                                  	             -           656,684        	          -       	           -     	            -              656,684
	 Less: Earned Revenue                         	             -       	          -       	          -       	           -     	            -       	            -
	 Net Program Costs                            	             -           656,684        	          -       	           -     	            -              656,684
Weather, Water, and Climate
	 Gross Costs                                      1,457,847         	          -       	          -       	           -     	            -             1,457,847
	 Less: Earned Revenue                         	      (76,349)       	          -       	          -       	           -     	            -       	       (76,349)
	 Net Program Costs                                1,381,498         	          -       	          -       	           -     	            -             1,381,498
Other Programs
	 Gross Costs                                        942,576         1,177,607          	          -       	           -        298,544                 2,418,727
	 Less: Earned Revenue                         	      (55,586)       	 (292,298)        	          -       	           -     	 (153,663)          	      (501,547)
	 Net Program Costs                                  886,990            885,309         	          -       	           -        144,881                 1,917,180
Net Program Costs for Theme 2                      2,268,488         1,541,993          	          -       	           -        144,881                 3,955,362

Theme 3: Environmental Stewardship
Sustainable Fisheries
	 Gross Costs                                      1,410,297         	          -       	          -       	           -     	            -             1,410,297
	 Less: Earned Revenue                         	      (87,112)       	          -       	          -       	           -     	            -       	       (87,112)
	 Net Program Costs                                1,323,185         	          -       	          -       	           -     	            -             1,323,185
Other Programs
	 Gross Costs                                      1,245,211         	          -       	          -       	           -          113,400               1,358,611
	 Less: Earned Revenue                         	    (190,838)        	          -       	          -       	           -     	     (77,877)       	      (268,715)
	 Net Program Costs                                1,054,373         	          -       	          -       	           -            35,523              1,089,896
Net Program Costs for Theme 3                      2,377,558                            	          -       	           -           35,523               2,413,081
NET COST OF OPERATIONS                        $ 4,646,046          $ 1,541,993      $       961,753      $ 	    (88,277) $ 2,172,285          $         9,233,800




   240
                                                   F Y   2 0 1 1    P E R F O R M A N C E              A N D    A C C O U N T A B I L I T Y           R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




FY 2010 Statement of Net Cost by Major Program (Combining Basis):
                                                                    Census                                                           Combining
                Program Costs                          NOAA         Bureau             NIST            USPTO            Others         Total
Strategic Goal 1: Maximize U.S. Competitiveness and
Enable Economic Growth for American Industries, Workers,
and Consumers
Decennial and Periodic Censuses                                                                                                         	
	 Gross Costs                                $	          -         $ 5,648,403    $	          -   $	           -   $	            -   $ 5,648,403
	 Less: Earned Revenue                        	          -          	        -     	          -    	           -    	            -    	          -
	 Net Program Costs                           	         -            5,648,403     	          -    	           -    	            -       5,648,403
Other Programs
	 Gross Costs                                      	           -    1,053,844          102,423     	           -     1,422,440         2,578,707
	 Less: Earned Revenue                             	           -    	 (229,415)    	          -    	           -    	 (119,091)       	 (348,506)
	 Net Program Costs                                	           -       824,429         102,423     	           -     1,303,349         2,230,201
Net Program Costs for Strategic Goal 1             	           -    6,472,832          102,423     	           -     1,303,349         7,878,604

Strategic Goal 2: Promote U.S. Innovation and Industrial
Competitiveness
Measurement and Standards Laboratories
	 Gross Costs                                   	              -    	         -      643,838       	           -    	            -       643,838
	 Less: Earned Revenue                          	              -    	         -    	(127,894)      	           -    	            -    	 (127,894)
	 Net Program Costs                             	              -    	         -      515,944       	           -    	            -       515,944
Patents
	 Gross Costs                                      	           -    	         -    	          -      1,777,871      	            -      1,777,871
	 Less: Earned Revenue                             	           -    	         -    	          -    (	1,887,538)     	            -    	(1,887,538)
	 Net Program Costs                                	           -    	         -    	          -     	 (109,667)     	            -    	 (109,667)
Trademarks
	 Gross Costs                                      	           -    	         -    	          -       182,565       	            -       182,565
	 Less: Earned Revenue                             	           -    	         -    	          -    	 (214,144)      	            -    	 (214,144)
	 Net Program Costs                                	           -    	         -    	          -    	 (31,579)       	            -    	 (31,579)
Other Programs
	 Gross Costs                                      	           -    	         -      277,830          46,502           756,646         1,080,978
	 Less: Earned Revenue                             	           -    	         -    	 (39,596)      	        -       	 (154,075)       	 (193,671)
	 Net Program Costs                                	           -    	         -      238,234          46,502           602,571           887,307
Net Program Costs for Strategic Goal 2             	           -    	         -      754,178       	 (94,744)          602,571         1,262,005

Strategic Goal 3: Promote Environmental Stewardship
Ecosystems
	 Gross Costs                                       1,781,600       	         -    	          -    	           -    	            -     1,781,600
	 Less: Earned Revenue                             	 (109,657)      	         -    	          -    	           -    	            -    	 (109,657)
	 Net Program Costs                                 1,671,943       	         -    	          -    	           -    	            -     1,671,943
Other Programs
	 Gross Costs                                       3,010,002       	         -    	          -    	           -         108,596       3,118,598
	 Less: Earned Revenue                             	 (192,152)      	         -    	          -    	           -    	     (74,918)    	 (267,070)
	 Net Program Costs                                 2,817,850       	         -    	          -    	           -           33,678      2,851,528
Net Program Costs for Strategic Goal 3                 4,489,793    	         -    	          -    	           -          33,678       4,523,471
NET COST OF OPERATIONS                            $ 4,489,793      $ 6,472,832    $ 856,601       $	 (94,744)      $ 1,939,598       $ 13,664,080




                                                                                                                                           241
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




  Note 18. Combined Statements of Budgetary Resources

The amount of Budget Authority, Appropriations, on the Combined Statements of Budgetary Resources (SBR) reconciles to the
amount of Budgetary Financing Sources, Appropriations Received, reported on the Consolidated Statements of Changes in Net
Position (SCNP) as follows:


                                                                                                      FY 2011                     FY 2010
            Budget Authority, Appropriations (SBR)                                          $          7,693,976          $       14,322,512
            Less:
               Appropriated Receipts for NOAA and DM/G&B, Classified as
                 Exchange Revenue                                                                 	       (24,624)            	      (15,994)
               Appropriated Receipts for NTIA’s Digital Television Transition and
                 Public Safety Fund, Classified as Transfers In of Spectrum
                 Auction Proceeds from Federal Communications Commission                          	              -                  (196,613)
            Budgetary Financing Sources, Appropriations Received (SCNP)                     $          7,669,352          $       14,109,905


Budget Authority, Appropriations, included on the SBR decreased significantly from FY 2010 to FY 2011 primarily due to
the large decrease of $6.07 billion in Appropriations for Census Bureau’s Periodic Censuses and Programs fund.

Total borrowing authority available for NOAA’s loan programs amounted to $144.7 million and $228.4 million at September
30, 2011 and 2010, respectively. The Borrowing Authority amounts reported in the SBR Budgetary Resources section
represent only borrowing authority realized during the fiscal year being reported. See Note 1M, Debt to Treasury, for debt
repayment requirements, financing sources for repayments, and other terms of borrowing authority used.

Ninety five percent of the Department’s reporting entities have one or more permanent no-year appropriations to finance
operations.

Reductions to the Department’s appropriations under Public Laws 112-6 and 112-10 amounted to $1.86 billion for FY 2011,
while reductions for FY 2010 under Public Laws 111-226, 111-212, 111-224, and 111-118 amounted to $696.5 million. These
reductions are included in the SBR Budgetary Resources line Permanently Not Available. These reductions are also reported on
the Rescissions lines of the SCNP.

Legal arrangements affecting the Department’s use of Unobligated Balances of Budget Authority and/or Fund Balance with
Treasury during FY 2011 and FY 2010 include the following:

       ●●   The Department’s Deposit Funds, reported in Note 2, Fund Balance with Treasury, are not available to finance operating
            activities. These funds are also included in Note 2 on the line Non-budgetary (breakdown by status).

       ●●   The Department’s Fund Balance with Treasury as of September 30, 2011 and 2010 includes $790.1 million and
            $581.2 million, respectively, of USPTO offsetting collections exceeding the current year and prior years’ appropriations.
            USPTO may use these funds only as authorized by the U.S. Congress, and only as made available by the issuance of a
            Treasury warrant. These funds are included in Note 2 on the lines General Funds (breakdown by type), and Temporarily
            Precluded From Obligation (breakdown by status).




 242
                                                  F Y   2 0 1 1   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




      ●●   The Omnibus Budget Reconciliation Act of 1990 established surcharges on certain statutory patent fees collected
           by USPTO. Subsequent legislation extended the surcharges through the end of FY 1998. These surcharges were
           deposited into the Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury. USPTO may
           use monies from this account only as authorized by Congress and made available by the issuance of a Treasury warrant.
           At September 30, 2011 and 2010, $233.5 million is held in the Patent and Trademark Surcharge Fund. These funds are
           included in Note 2 on the lines Special Fund (Patent and Trademark Surcharge Fund) (breakdown by type), and Non-
           budgetary (breakdown by status).

      ●●   The Department’s Fund Balance with Treasury as of September 30, 2011 and 2010 includes funds temporarily not
           available for the Digital Television and Transition Public Safety Fund of $8.74 billion. These funds are included in Note
           2 on the lines Digital Television and Transition Public Safety Fund - Special Funds section (breakdown by type), and
           Unobligated Balance - Unavailable (breakdown by status). On the SBR, these funds are included on the line Unobligated
           Balance Not Available.

      ●●   The Department’s Fund Balance with Treasury as of September 30, 2011 and 2010 includes $17.8 million and
           $20.4 million, respectively, of funds temporarily not available for the Coastal Zone Management Fund, which accounts
           for the Coastal Energy Impact Program direct loans. These funds are included in Note 2 on the lines Revolving Funds
           (breakdown by type), and Temporarily Precluded From Obligation (breakdown by status).

      ●●   For loan programs prior to the Federal Credit Reform Act of 1990 (pre-FY 1992 loans), most or all liquidating fund
           unobligated balances in excess of working capital needs are required to be transferred to Treasury as soon as practicable
           during the following fiscal year.

      ●●   For direct loan programs under the Federal Credit Reform Act of 1990 (post-FY 1991 loans) that have outstanding debt
           to Treasury, regulations require that most unobligated balances be returned to Treasury on September 30, or require that
           the borrowing authority be cancelled on September 30.

      ●●   For loan guarantee programs under the Federal Credit Reform Act of 1990 that have outstanding debt to Treasury,
           regulations require that unobligated balances in excess of the outstanding guaranteed loans’ principal and interest be
           returned to Treasury on September 30.

There are no material differences between the amounts reported in the FY 2010 and FY 2009 Combined Statements
of Budgetary Resources and the actual FY 2010 and FY 2009 amounts reported in the FY 2012 and FY 2011 budgets of
the U.S. government, respectively. The President’s Budget that will report actual amounts for FY 2011 has not yet been
published.




                                                                                                                              243
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Apportionment Categories of Obligations Incurred:

The amounts of direct and reimbursable obligations incurred against amounts apportioned under Category A, Category B, and
Exempt from Apportionment are as follows:

                                                                                         FY 2011
                                                               Direct                  Reimbursable                     Total
         Category A                                   $ 	       3,146,550        $        2,837,935            $       5,984,485
         Category B                                       	     5,195,930                         965                  5,196,895
         Exempt from Apportionment                        	      169,083                  1,053,370                    1,222,453
         Total                                        $         8,511,563        $        3,892,270            $      12,403,833

                                                                                         FY 2010
                                                                Direct                 Reimbursable                     Total
         Category A                                   $ 	       8,365,156        $         2,529,674           $      10,894,830
         Category B                                       	    10,457,428                       25,150                10,482,578
         Exempt from Apportionment                        	      159,933                    868,470                    1,028,403
         Total                                        $        18,982,517        $         3,423,294           $      22,405,811

Category A apportionments distribute budgetary resources by fiscal quarters, whereas Category B apportionments typically
distribute budgetary resources by activities, projects, objects, or a combination of these categories.

Undelivered Orders:

Undelivered orders were $10.44 billion and $12.36 billion at September 30, 2011 and 2010, respectively.

Digital Television Transition and Public Safety Fund:

The Digital Television Transition and Public Safety Fund (Fund) was created by the Digital Television Transition and Public Safety
Act of 2005. This NTIA fund receives proceeds from the auction of licenses for recovered analog spectrum from discontinued
analog television signals, and provides funding for several programs from these receipts.

The Federal Communications Commission (FCC) completed the auction of licenses for recovered analog spectrum in March
2008. The auction resulted in proceeds of $18.96 billion, which were deposited to the Fund by FCC on June 30, 2008. A net
auction proceed (auction proceed less any FCC administrative fees due to FCC) becomes a budgetary resource on the SBR
when FCC grants the license and the net auction proceed is provided as a budgetary resource by OMB. Net auction proceeds
for which licenses have been granted, totaling $0 and $196.6 million for FY 2011 and FY 2010, respectively, are included as a
budgetary resource on the SBR (Budget Authority, Appropriations), and as a budgetary financing source on the SCNP. Auction
proceeds for which licenses have not yet been granted, totaling $2.4 million and $33.8 million as of September 30, 2011 and
2010, respectively, are considered a non-budgetary financing source (unavailable for use), and, accordingly, are not included in
the SBR and are recorded as a liability to FCC on the Consolidated Balance Sheet. For the proprietary financial statements, an
auction proceed is considered a liability to FCC until FCC grants the license. When the license is granted, a financing source
(Transfers In of Spectrum Auction Proceeds from FCC) is recognized on the SCNP for the earned net auction proceeds, and the
liability is reduced by the dollar amount of the license granted.




 244
                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




As of September 30, 2011, payments for the programs under the Fund may not exceed $2.82 billion. In September 2009, the
Fund transferred $7.36 billion to the General Fund of the Treasury. The Department understands that Congress’ intent is for the
Fund to further transfer funds beyond the needs of its programs to the General Fund of the Treasury. At September 30, 2011,
the Fund has a Net Position, Cumulative Results of Operations balance of $9.24 billion.

Below is a brief summary of the two largest active programs under this Fund, and significant financial activity recorded for the
FY 2011 and FY 2010 SBR under this Fund for each program:

Public Safety Interoperable Communications (PSIC): This is a grant program to assist public safety agencies in the acquisition
of, deployment of, or training for the use of interoperable communications systems that can utilize reallocated public
safety spectrum for radio communication. The Fund may make payments not to exceed $1.00 billion for this program. The
Department has in place a Memorandum of Understanding with the Federal Emergency Management Agency (FEMA),
in which FEMA administers the PSIC grant program. NTIA provides FEMA with funds for the grants under the program,
and for the charges for FEMA’s management and administrative services. NTIA records budgetary obligations with FEMA,
while FEMA records the grants activity under the program. Budgetary obligations for FY 2011 and FY 2010 under the PSIC
program amounted to $2.6 million and $8.8 million, respectively. Budgetary obligations through September 30, 2009 under the
PSIC program amounted to $987.0 million.

National Alert and Tsunami Warning Program: This program is to implement a unified national alert system capable of alerting
the public, on a national, regional, or local basis to emergency situations by using a variety of communications technologies. The
Fund made payments not exceeding $156.0 million for this program. The Department shall use $50.0 million of such amounts
to implement a tsunami warning and coastal vulnerability program. Budgetary obligations for FY 2011 and FY 2010 amounted to
$47.6 million and $37.5 million, respectively.



   Note 19. Custodial Nonexchange Activity

NOAA receives interest, penalties, and fines primarily related to its past due Accounts Receivable, while BIS receives
civil monetary penalties from private entities that violate the Export Administration Act. These collections are required to
be transferred to Treasury. For FY 2011, the Department had custodial nonexchange revenue of $6.7 million; custodial
nonexchange revenue of $1.8 million was payable to Treasury at September 30, 2011. For FY 2010, the Department had
custodial nonexchange revenue of $19.5 million; custodial nonexchange revenue of $8.0 million was payable to Treasury at
September 30, 2010.




                                                                                                                            245
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




  Note 20. Fiduciary Activities

Schedule of Fiduciary Activities for the Year Ended September 30, 2011
                                                                                                       FY 2011
                                                                        Patent
                                                                      Cooperation                  Madrid
                                                                        Treaty                     Protocol                         Total
       Fiduciary Net Assets, Beginning Balance                    $ 	             9,452        $       	      576       $       	     10,028
       Contributions                                                   	       131,755             	       14,551           	        146,306
       Disbursements to and on Behalf of Beneficiaries                 	       (128,343)           	       (14,789)         	       (143,132)
       Increase/(Decrease) in Fiduciary Net Assets                     	          3,412            	          (238)         	          3,174
       Fiduciary Net Assets, Ending Balance                       $        	    12,864         $       	      338       $       	     13,202


Fiduciary Net Assets as of September 30, 2011
                                                                                                       FY 2011
                                                                        Patent
                                                                      Cooperation                  Madrid
                                                                        Treaty                     Protocol                         Total
       Fund Balance with Treasury                                 $        	    12,864         $ 	            338       $       	     13,202


Schedule of Fiduciary Activities for the Year Ended September 30, 2010
                                                                                                       FY 2010
                                                                        Patent
                                                                      Cooperation                  Madrid
                                                                        Treaty                     Protocol                         Total
       Fiduciary Net Assets, Beginning Balance                    $ 	             9,134        $    	         452       $    	         9,586
       Contributions                                                   	       121,679             	        9,923           	        131,602
       Disbursements to and on Behalf of Beneficiaries                 	       (121,361)           	        (9,799)         	       (131,160)
       Increase/(Decrease) in Fiduciary Net Assets                     	           318             	          124           	               442
       Fiduciary Net Assets, Ending Balance                       $     	         9,452        $    	         576       $    	        10,028


Fiduciary Net Assets as of September 30, 2010
                                                                                                       FY 2010
                                                                        Patent
                                                                      Cooperation                  Madrid
                                                                        Treaty                     Protocol                         Total
       Fund Balance with Treasury                                 $     	         9,452        $ 	            576       $    	        10,028




 246
                                              F Y   2 0 1 1   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y       R E P O R T
                                                                                           NOTES TO THE FINANCIAL STATE M ENTS




   Note 21. Earmarked Funds

The following tables depict major earmarked funds separately chosen based on their significant financial activity and importance to taxpayers.
All other earmarked funds not shown are aggregated as “Other Earmarked Funds.”
United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2011

                                                                                     Damage
                                                NTIA Digital   Broadband           Assessment Environmental
                                                 Television    Technology              and     Improvement
                                   USPTO       Transition and Opportunities        Restoration     and        NTIS                 Coastal Zone     Other               Total
                                 Earmarked     Public Safety    Program -           Revolving   Restoration Revolving              Management     Earmarked          Earmarked
                                   Funds            Fund      Recovery Act            Fund         Fund       Fund                    Fund          Funds              Funds

 ASSETS
 	 Fund Balance with
   	 Treasury                  $ 1,526,349 $ 9,062,212            $ 3,389,425      $ 124,660       $       36,350   $ 27,231 $ 17,848             $       43,979 $ 14,228,054
 	 Cash                              2,364  	        -              	       -        	     -           	        -     	     - 	     -                 	        -        2,364
 	 Accounts Receivable, Net            433  	        -              	       -            164           	        -       3,180 	     -                        193        3,970
 	 Direct Loans and Loan	
   	 Guarantees, Net             	       -  	        -                	        -       	       -       	        -     	        -          6,213       	        -             6,213
 	 Inventory, Materials, and 	
   	 Supplies, Net               	       -  	        -                	        -       	       -       	        -            48      	        -       	        -                48
 	 General Property, Plant, 	
   	 and Equipment, Net            206,628  	        -                	        -       	       -       	       -           1,882     	        -       	       -            208,510
 	 Other                            12,137     175,620                    18,767       	       -              53           6,736     	        -              56            213,369
 	 TOTAL ASSETS              $ 1,747,911 $ 9,237,832              $ 3,408,192      $ 124,824       $       36,403   $ 39,077 $           24,061   $       44,228 $ 14,662,528

 LIABILITIES                                                                                                                                                         	
 	 Accounts Payable          $        85,554 $           1,557    $ 	          -   $        693    $ 	          -   $ 10,839 $ 	              -   $         127 $           98,770
 	 Federal Employee 		
    	 Benefits                         8,406      	           -       	        -       	       -       	        -          1,176     	        -       	        -             9,582
 	 Other                                                                                                                                                             	           -
     	 Accrued Payroll and
    		     Annual Leave              188,709                11        	        -            460        	        -          1,644     	        -           198              191,022
     	 Accrued Grants            	         -               301            24,183       	      -             1,327     	        -     	        -         1,677               27,488
     	 Unearned Revenue              845,782      	          -        	        -       	      -        	        -          8,277     	        -       	     -              854,059
     	 Other                          17,200      	          -        	        -            149        	        -            225     	        -            66               17,640
 	 TOTAL LIABILITIES         $ 1,145,651 $               1,869    $       24,183   $       1,302   $        1,327   $ 22,161 $ 	              -   $        2,068 $        1,198,561

  NET POSITION
 	 Unexpended 		
   	 Appropriations          $ 	             - $ 	            -   $ 3,384,009      $ 	         -   $                $ 	        - $ 	          -   $        6,442 $        3,390,451
 	 Cumulative Results of 	
   	 Operations                      602,260          9,235,963       	        -       123,522             35,076         16,916         24,061           35,718         10,073,516
 	 TOTAL NET POSITION        $       602,260 $ 9,235,963          $ 3,384,009      $ 123,522       $       35,076   $ 16,916 $           24,061   $       42,160 $ 13,463,967
 	 TOTAL LIABILITIES AND
   NET POSITION          $ 1,747,911 $ 9,237,832                  $ 3,408,192      $ 124,824       $       36,403   $ 39,077 $           24,061   $       44,228 $ 14,662,528




                                                                                                                                                              247
F Y   2 0 1 1   P E R F O R M A N C E     A N D        A C C O U N T A B I L I T Y         R E P O R T
          NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2010

                                                                                   Damage
                                                     NTIA Digital   Broadband    Assessment Environmental
                                                      Television    Technology       and     Improvement
                                      USPTO         Transition and Opportunities Restoration      and       NTIS                             Coastal Zone Other                   Total
                                    Earmarked       Public Safety    Program -    Revolving   Restoration Revolving                          Management Earmarked              Earmarked
                                      Funds              Fund      Recovery Act     Fund         Fund       Fund                                Fund      Funds                  Funds

ASSETS
	 Fund Balance with
  	 Treasury                    $ 1,334,757 $ 9,396,152              $ 4,172,152 $ 42,163                  $       35,405   $ 29,749 $ 20,439               $ 53,453 $ 15,084,270
	 Cash                                2,570  	        -               	        -  	     -                      	        -     	     -  	    -                 	    -        2,570
	 Accounts Receivable, Net              758  	        -               	        -      265                      	        -       2,503  	    -                    182        3,708
	 Direct Loans and Loan	
  	 Guarantees, Net                 	           -    	           -       	            -      	         -       	        -     	        -            6,717       	        -             6,717
	 Inventory, Materials, and 	
  	 Supplies, Net                   	           -    	           -       	            -      	         -       	        -            30        	        -       	        -                30
	 General Property, Plant, 	
  	 and Equipment, Net                  174,397      	          -                   49       	         -       	       -           2,274       	        -       	       -            176,720
	 Other                                  13,167           139,738               20,335       	         -             100           6,948       	        -             100            180,388
	 TOTAL ASSETS                  $ 1,525,649 $ 9,535,890              $ 4,192,536 $               42,428    $       35,505   $ 41,504 $             27,156   $ 53,735 $ 15,454,403

LIABILITIES
	 Accounts Payable              $        70,114 $             534    $           1,450 $            408    $ 	          -   $ 12,244 $ 	                -   $         154 $           84,904
	 Federal Employee 		
   	 Benefits                             8,299      	           -       	            -      	         -       	        -          1,208       	        -       	        -             9,507
	 Other                                                                                                                                                                        	           -
    	 Accrued Payroll and
   		     Annual Leave                  165,490                56                1,135               50        	        -          1,661       	        -           179              168,571
    	 Accrued Grants                	         -             1,453               96,902       	        -             1,501     	        -       	        -         1,923              101,779
    	 Unearned Revenue                  774,388      	          -        	           -       	        -        	        -         10,556       	        -       	     -              784,944
    	 Other                              15,053      	          -        	           -               40        	        -            411       	        -            59               15,563
	 TOTAL LIABILITIES             $ 1,033,344 $               2,043    $          99,487 $            498    $        1,501   $ 26,080 $ 	                -   $        2,315 $        1,165,268

 NET POSITION
	 Unexpended 		
  	 Appropriations              $ 	             - $ 	            -   $ 4,093,000 $ 	                   -   $ 	          -   $ 	        - $ 	            -   $        6,319 $        4,099,319
	 Cumulative Results of 	
  	 Operations                          492,305          9,533,847                  49           41,930            34,004         15,424           27,156           45,101         10,189,816
	 TOTAL NET POSITION            $       492,305 $ 9,533,847          $ 4,093,049 $               41,930    $       34,004   $ 15,424 $             27,156   $ 51,420 $ 14,289,135
	 TOTAL LIABILITIES AND
  NET POSITION                  $ 1,525,649 $ 9,535,890              $ 4,192,536 $               42,428    $       35,505   $ 41,504 $             27,156   $ 53,735 $ 15,454,403




            248
                                                                             F Y   2 0 1 1       P E R F O R M A N C E       A N D         A C C O U N T A B I L I T Y         R E P O R T
                                                                                        NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2011

                                                                                Damage
                                                NTIA Digital   Broadband      Assessment Environmental
                                                 Television    Technology         and     Improvement
                                 USPTO         Transition and Opportunities   Restoration      and       NTIS    Coastal Zone Other                                Total
                               Earmarked       Public Safety    Program -      Revolving   Restoration Revolving Management Earmarked                           Earmarked
                                 Funds              Fund      Recovery Act       Fund         Fund       Fund       Fund      Funds                               Funds

Theme 1: Economic Growth
   Gross Costs                $ 	 2,148,097 $ 	 297,884        $ 6
                                                                 	 65,937     $	           -   $	          -   $	       -    $ 	        -    $        5,050    $ 3,116,968
   Less: Earned Revenue         	(2,236,374)  	        -         	      -      	           -    	          -    	       -      	        -        	        -     	(2,236,374)
    Net Program Costs           	   (88,277)     	 297,884        	665,937        	        -       	       -    	       -        	      -             5,050            880,594

Theme 2: Science and Information
   Gross Costs                 	           -     	         -      	      -        	        -       	       -     51,976          	      -        	        -             51,976
   Less: Earned Revenue        	           -     	         -      	      -        	        -       	       -    	(52,349)        	      -        	        -            (52,349)
    Net Program Costs           	          -     	         -      	      -        	        -       	       -    	   (373)        	      -        	        -               (373)

Theme 3: Environmental Stewardship
   Gross Costs               	             -     	         -      	      -            16,207           8,823    	       -             338            21,117             46,485
   Less: Earned Revenue      	             -     	         -      	      -        	        -       	       -    	       -        	   (244)       	        -               (244)
    Net Program Costs           	          -     	         -      	      -            16,207           8,823    	       -             94             21,117             46,241
NET COST OF OPERATIONS        $	    (88,277) $ 297,884         $ 665,937      $       16,207   $       8,823   $	   (373)    $        94     $ 26,167          $       926,462



United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2010

                                                                                Damage
                                                NTIA Digital   Broadband      Assessment Environmental
                                                 Television    Technology         and     Improvement
                                 USPTO         Transition and Opportunities   Restoration     and        NTIS    Coastal Zone Other                                   Total
                               Earmarked       Public Safety    Program -      Revolving   Restoration Revolving Management Earmarked                              Earmarked
                                 Funds              Fund      Recovery Act       Fund         Fund       Fund       Fund      Funds                                  Funds

Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers
    Gross Costs               $	         - $	        -   $ 	     -  $	                     -   $	          -   $	       -    $ 	        -    $        5,652    $         5,652
    Less: Earned Revenue        	        -   	       -      	    -   	                     -    	          -    	       -      	        -        	        -        	         -
    Net Program Costs                            	         -      	      -        	        -       	       -    	       -        	      -             5,652              5,652

Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
    Gross Costs                   2,006,938     279,527     262,653      	                 -       	       -      48,007         	      -        	(17,558)           2,579,567
    Less: Earned Revenue        	(2,101,682)  	        -    	 (223)      	                 -       	       -    	(49,093)        	      -        	       -         	(2,150,998)
    Net Program Costs           	   (94,744)         279,527      262,430         	        -       	       -    	 (1,086)        	      -        	(17,558)             428,569

Strategic Goal 3: Promote Environmental Stewardship
    Gross Costs                 	       -   	       -             	      -             6,991           8,280    	       -        	   (144)           22,177             37,304
    Less: Earned Revenue        	       -   	       -             	      -        	        -       	       -    	       -        	   (320)       	        -        	      (320)
    Net Program Costs           	          -     	         -      	      -             6,991           8,280    	       -        	 (464)             22,177             36,984
NET COST OF OPERATIONS        $	    (94,744) $ 279,527          $ 262,430     $        6,991   $       8,280   $ 	 (1,086)   $ 	 (464)       $ 10,271          $       471,205




                                                                                                                                                              249
F Y   2 0 1 1   P E R F O R M A N C E   A N D        A C C O U N T A B I L I T Y       R E P O R T
       NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2011

                                                                                  Damage
                                               NTIA Digital     Broadband       Assessment Environmental
                                                Television      Technology          and     Improvement
                                 USPTO        Transition and   Opportunities    Restoration     and        NTIS    Coastal Zone Other                         Total
                               Earmarked      Public Safety      Program -       Revolving   Restoration Revolving Management Earmarked                    Earmarked
                                 Funds             Fund        Recovery Act        Fund         Fund       Fund       Fund      Funds                        Funds

Cumulative Results of
Operations:
	 Beginning Balance            $ 492,305      $ 9,533,847      $	        49     $        41,930   $ 34,004      $ 15,424      $ 27,156      $ 45,101 $ 10,189,816

Budgetary Financing Sources:
	 Appropriations Used           	         -    	           -         665,888        	         -    	       -     	        -    	        -    	     (122)        665,766
	 Non-exchange Revenue          	         -    	           -     	         -             73,783        9,895     	        -    	        -        12,126          95,804
	 Transfers In/(Out) Without
   	 Reimbursement, Net         	         -    	           -     	         -             24,016    	       -     	        -    	 (3,001)          4,780          25,795

Other Financing Sources
(Non-exchange):
	 Imputed Financing Sources
   	 from Cost Absorbed by
   	 Others                     	 21,678       	         -       	         -        	        -     	       -          1,119    	       -     	       -         22,797
 Total Financing Sources        	 21,678       	        -           665,888            97,799         9,895           1,119    	 (3,001)       16,784         810,162
 Net Cost of Operations         	 88,277       	 (297,884)       	 (665,937)        	 (16,207)     	 (8,823)            373    	    (94)     	(26,167)     	 (926,462)
Net Change                      	 109,955      	 (297,884)       	       (49)            81,592        1,072          1,492    	 (3,095)     	 (9,383)     	 (116,300)
Cumulative Results of
Operations - Ending Balance         602,260        9,235,963     	         -            123,522    35,076            16,916        24,061        35,718    10,073,516

Unexpended Appropriations:                                                                                                                                 	           -
	 Beginning Balance             	         -    	           -     	4,092,999         	         -    	       -     	        -    	        -         6,320        4,099,319

Budgetary Financing Sources:                                                                                                                               	           -
	 Other Adjustments             	         -    	           -     	 (43,102)         	         -    	       -     	        -    	        -    	        -    	 (43,102)
	 Appropriations Used           	         -    	           -     	 (665,888)        	         -    	       -     	        -    	        -          122     	 (665,766)
Total Budgetary Financing
Sources                         	         -    	           -     	 (708,990)        	         -    	       -     	        -    	        -          122     	 (708,868)
Unexpended Appropriations
  - Ending Balance              	         -    	           -     3,384,009          	         -    	       -     	        -    	        -         6,442        3,390,451
NET POSITION                   $ 602,260      $ 9,235,963      $ 3,384,009      $ 123,522         $ 35,076      $ 16,916      $ 24,061      $ 42,160 $ 13,463,967




         250
                                                               F Y   2 0 1 1    P E R F O R M A N C E          A N D    A C C O U N T A B I L I T Y        R E P O R T
                                                                                         NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2010

                                                                                  Damage
                                               NTIA Digital      Broadband      Assessment Environmental
                                                Television       Technology         and     Improvement
                                  USPTO       Transition and    Opportunities   Restoration     and        NTIS    Coastal Zone Other                             Total
                                Earmarked     Public Safety       Program -      Revolving   Restoration Revolving Management Earmarked                        Earmarked
                                  Funds            Fund         Recovery Act       Fund         Fund       Fund       Fund      Funds                            Funds

Cumulative Results of
Operations:
	 Beginning Balance             $ 375,794     $ 9,616,912       $	          -   $       36,649    $ 32,414        $ 13,115      $ 29,692      $ 50,465        $ 10,155,041

Budgetary Financing Sources:                                                                                                                                   	           -
	 Appropriations Used            	        -    	           -       262,677          	         -       	       -    	        -    	        -    	 (13,079)           249,598
	 Non-exchange Revenue           	        -    	           -     	       -               4,762            9,870    	        -    	        -        3,883             18,515
	 Transfers In of Spectrum
   	 Auction Proceeds from
   	 Federal Communications
   	 Commission                  	        -         196,613      	          -       	         -       	       -    	        -    	        -    	         -          196,613
	 Transfers In/(Out) Without
   	 Reimbursement, Net          	        -    	           -     	          -            7,510        	       -    	        -    	 (3,000)          14,103           18,613

Other Financing Sources
(Non-exchange):                                                                                                                                                	           -
   Transfers In/(Out) Without
        Reimbursement, Net       	        -    	        (151)    	      (198)       	         -       	       -    	        -    	        -    	         -     	        (349)
   Imputed Financing Sources
        from Cost Absorbed by
        Others                       21,767    	           -     	          -       	         -       	       -         1,223    	        -    	         -           22,990
 Total Financing Sources             21,767       196,462           262,479           12,272             9,870          1,223    	 (3,000)         4,907          505,980
 Net Cost of Operations              94,744    	 (279,527)       	 (262,430)        	 (6,991)         	 (8,280)         1,086         464      	 (10,271)      	 (471,205)
Net Change                       116,511       	     (83,065)             49             5,281            1,590         2,309    	 (2,536)     	 (5,364)             34,775
Cumulative Results of
Operations - Ending Balance      492,305           9,533,847              49            41,930        34,004           15,424        27,156         45,101     10,189,816

Unexpended Appropriations:                                                                                                                                     	           -
	 Beginning Balance              	        -    	           -      4,657,677         	         -       	       -    	        -    	        -        232,740         4,890,417

Budgetary Financing Sources:                                                                                                                                   	           -
	 Rescissions of
   	 Appropriations              	        -    	           -     	 (302,000)        	         -       	       -    	        -    	        -    	(239,500)      	 (541,500)
	 Appropriations Used            	        -    	           -     	 (262,677)        	         -       	       -    	        -    	        -       13,079       	 (249,598)
Total Budgetary Financing
Sources                          	        -    	           -     	 (564,677)        	         -       	       -    	        -    	        -    	(226,421)      	 (791,098)
Unexpended Appropriations
  - Ending Balance               	        -    	           -      4,093,000         	         -       	       -    	        -    	        -          6,319         4,099,319
NET POSITION                    $ 492,305     $ 9,533,847       $ 4,093,049     $       41,930    $ 34,004        $ 15,424      $ 27,156      $ 51,420        $ 14,289,135


Below is a description of major earmarked funds shown in the above tables.

The USPTO Earmarked Funds consist of its Salaries and Expenses Fund, and the Patent and Trademark Surcharge Fund.

The Salaries and Expenses Fund contains monies used for the administering of the laws relevant to patents and trademarks and advising
the Secretary of Commerce, the President of the United States, and the Administration on patent, trademark, and copyright protection,
and trade-related aspects of intellectual property. This fund is used for USPTO’s three core business activities – granting patents;




                                                                                                                                                             251
F Y   2 0 1 1   P E R F O R M A N C E    A N D      A C C O U N T A B I L I T Y         R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




registering trademarks; and intellectual property policy, protection, and enforcement – that promote the use of intellectual
property rights as a means of achieving economic prosperity. These activities give innovators, businesses, and entrepreneurs
the protection and encouragement they need to turn their creative ideas into tangible products, and also provide protection for
their inventions and trademarks. USPTO may use monies from this account only as authorized by Congress via appropriations.

The Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury, is discussed in Note 18, Combined
Statements of Budgetary Resources. USPTO may use monies from this account only as authorized by Congress and made
available by the issuance of a Treasury warrant. As of September 30, 2011 and 2010, $233.5 million is held in this fund.

The NTIA Digital Television Transition and Public Safety Fund makes digital television available to every home in America,
improves communications between local, state, and federal agencies, allows smaller television stations to broadcast
digital television, and improves how warnings are received when disasters occur. NTIA received funding from borrowings
from the Bureau of Public Debt, and repaid the Bureau of Public Debt from the proceeds of the auction of recovered analog
spectrum which was completed in March 2008. The proceeds from the auction provide funding for several programs,
and has been and is expected to be further used to reduce the National Deficit. The law establishing this program can be
found in the Deficit Reduction Act of 2005, P.L. 109-171 Sections 3001-3014.

The Broadband Technology Opportunities Program - Recovery Act includes funds from the American Recovery and
Reinvestment Act of 2009 (Recovery Act) that provides awards to eligible entities to develop and expand broadband services
to rural and underserved areas and improve access to broadband by public safety agencies. Specifically, funds are used
for innovative programs that encourage sustainable adoption of broadband services, to upgrade technology and capacity at
public computing centers, including community colleges and public libraries, and for the development and maintenance of
statewide broadband inventory maps.

The Coastal Zone Management Fund, operated by NOAA, is primarily used for interstate projects, demonstration projects
for improving coastal zone management, and emergency grants to state coastal zone management agencies to address
unforeseen or disaster-related circumstances. The law establishing the Coastal Zone Management Fund can be found in
16 USC Section 1456a.

The Environmental Improvement and Restoration Fund makes available interest that was earned in the Fund in the
previous fiscal year. 80 percent of such amounts shall be made available to be equally divided among the Directors of the
National Park Service, the United States Fish and Wildlife Service, the Bureau of Land Management, and the Chief of the
Forest Service for high-priority deferred maintenance and modernization of facilities that directly enhance the experience
of visitors, including natural, cultural, recreational, and historic resources protection projects in National Parks, National
Wildlife Refuges, and the public lands, and for payment to the State of Louisiana and its lessees for oil and gas drainage in
the West Delta field. 20 percent of such amounts shall be made available to the Secretary of Commerce for the purpose
of carrying out marine research activities in the North Pacific. The law establishing the Environmental Improvement and
Restoration Fund can be found at 43 USC Section 147d.

The NTIS Revolving Fund is used to collect, process, market, and disseminate government-sponsored and foreign scientific,
technical, and business information, and to assist other agencies with their information programs. Activities funded by the NTIS
Revolving Fund allow customers, both public and private, access to scientific and technical information produced by and for the
federal government. All receipts from the sale of products and services are deposited in this fund, and all expenses, including
capital expenditures, are paid from it.




 252
                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     NOTES TO THE FINANCIAL STATE M ENTS




The Damage Assessment and Restoration Revolving Fund receives monies for the reimbursement of expenses related
to oil or hazardous substance spill response activities, or natural resource damages assessment, restoration, rehabilitation,
replacement, or acquisition activities conducted by NOAA. The recovered sums by a federal, state, indian, or foreign trustee
for natural resource damages is retained by the trustee and is only used to reimburse or pay costs incurred by the trustee for
the damaged natural resources. The law establishing the Damage Assessment and Restoration Revolving Fund can be found
in 33 USC Section 2706.



   Note 22. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget reconciles the Department’s Resources Used to Finance Activities
(first section), which consists of the budgetary basis of accounting Net Obligations plus the proprietary basis of accounting Other
Resources, to the proprietary basis of accounting Net Cost of Operations. The second section, Resources Used to Finance
Items Not Part of Net Cost of Operations, reverses out items included in the first section that are not included in Net Cost
of Operations. The third section, Components of Net Cost of Operations that Will Not Require or Generate Resources in the
Current Period, adds items included in Net Cost of Operations that are not included in the first section.

The third section’s subsection, Components Requiring or Generating Resources in Future Periods, includes costs reported in the
current period that are included in the Liabilities Not Covered by Budgetary Resources reported in Note 15. This subsection does
not include costs reported in prior fiscal years that are also included in Liabilities Not Covered by Budgetary Resources.

The reconciliations of Net Cost of Operations to Budget for FY 2011 and FY 2010 are as follows:

                                                                                                            FY 2011           FY 2010
Resources Used to Finance Activities:
Budgetary Resources Obligated
Obligations Incurred                                                                                 $ 12,403,833       $ 22,405,811
Less: Spending Authority From Offsetting Collections and Recoveries                                    	(4,645,454)       	 (4,280,000)
Obligations Net of Offsetting Collections and Recoveries                                                   7,758,379      18,125,811
Less: Distributed Offsetting (Receipts)/Outlays, Net                                                   	     (33,570)     	    (28,541)
Net Obligations                                                                                            7,724,809      18,097,270

Other Resources
Donations and Forfeitures of Property                                                                           458               461
Transfers In/(Out) Without Reimbursement, Net                                                                 (4,062)     	     (4,804)
Imputed Financing From Cost Absorbed by Others                                                         	    347,925           346,772
Downward Subsidy Reestimates Payable to Treasury                                                       	           -      	     (8,087)
Other Financing Sources/(Uses), Net                                                                           (8,246)              18
Net Other Resources Used to Finance Activities                                                              336,075           334,360
Total Resources Used to Finance Activities                                                                 8,060,884      18,431,630
                                                                                                                           (continued)




                                                                                                                                  253
F Y   2 0 1 1     P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




(continued)
                                                                                                                                   FY 2011            FY 2010

Resources Used to Finance Items Not Part of Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided                            1,920,989          (4,489,923)
Resources that Fund Expenses Recognized in Prior Periods                                                                      	     (12,253)     	       (6,255)
Budgetary Obligation for Downward Subsidy Reestimates Payable to Treasury                                                     	      (8,087)     	       (6,190)
Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations:
	 Distributed Offsetting (Receipts)/Outlays, Net (excludes Clearing Accounts’ Gross Costs)                                          33,570              28,541
  Credit Program Collections which Increase Loan Guarantee Liabilities or Allowance for Subsidy Cost                                40,204              71,812
  Budgetary Financing Sources/(Uses), Net                                                                                          106,572               8,272
Resources that Finance the Acquisition of Assets                                                                              	(1,743,564)       	 (1,433,050)
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations:
  Change in Unfilled Customer Orders                                                                                          	     82,970             202,311
  Donations and Forfeitures of Property                                                                                                (458)               (461)
  Transfers In/(Out) Without Reimbursement, Net                                                                               	      4,062       	       4,804
	 Downward Subsidy Reestimates Payable to Treasury                                                                            	           -      	       8,087
  Other Financing Sources/(Uses), Net                                                                                         	      8,246       	          (18)
	 Other                                                                                                                       	      (4,643)     	              -
Total Resources Used to Finance Items Not Part of Net Cost of Operations                                                           427,608           (5,612,070)
Total Resources Used to Finance Net Cost of Operations                                                                            8,488,492      12,819,560

Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods
Increase in Accrued Annual Leave Liability                                                                                    	      5,841              11,373
Increase in Federal Employee Benefits                                                                                               39,447              81,601
Increase (Decrease) in Contingent Liabilities                                                                                 	      (8,753)     	       (1,807)
Reestimates of Credit Subsidy Expense                                                                                                (4,921)             (2,857)
Other                                                                                                                                7,391              11,223
Total Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods                                39,005              99,533

Components Not Requiring or Generating Resources
Depreciation and Amortization                                                                                                      687,009             524,296
NOAA Impairment of Construction-in-progress (Note 16)                                                                         	           -            107,518
NOAA Issuances of Materials and Supplies                                                                                            30,247              29,325
Census Bureau Issuances of Materials and Supplies                                                                             	           -      	      37,383
Revaluation of Assets or Liabilities                                                                                          	        (101)     	      40,871
Other                                                                                                                         	     (10,852)     	       5,594
Total Components of Net Cost of Operations that Will Not Require or Generate Resources                                             706,303             744,987
Total Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period                       745,308             844,520
NET COST OF OPERATIONS                                                                                                    $       9,233,800    $ 13,664,080




  254
                                                           F Y   2 0 1 1    P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y        R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 23. Stewardship PROPERTY, PLANT, AND EQUIPMENT

This note provides information on certain resources entrusted to the Department and certain stewardship responsibilities
assumed by the Department. The physical properties of stewardship property, plant, and equipment (Stewardship PP&E)
resemble those of the General PP&E that is capitalized traditionally in the financial statements of federal entities. Due to the
nature of these assets, however, valuation would be difficult and matching costs with specific periods would not be meaningful.
Therefore, federal accounting standards require the disclosure of the nature and quantity of these assets. NOAA, NIST, and the
Census Bureau are the only entities within the Department that have Stewardship PP&E. Additional information on Stewardship
PP&E is presented in the Required Supplementary Information section.

Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area:

NOAA maintains the following Stewardship PP&E, which are similar in nature to stewardship land:

National Marine Sanctuaries: In 1972, Congress passed the Marine Protection, Research, and Sanctuaries Act (Act) in
response to a growing awareness of the intrinsic environmental and cultural value of coastal waters. The Act authorized the
Secretary of Commerce to designate special nationally-significant areas of the marine environment as national marine sanctuaries.
These protected waters provide a secure habitat for species close to extinction, and also protect historically significant shipwrecks
and prehistoric artifacts. National marine sanctuaries are also used for recreation (e.g, boating, diving, and sport fishing), and
support valuable commercial industries such as fishing and kelp harvesting. As of September 30, 2011, 13 National Marine
Sanctuaries, which include both coastal and offshore areas, have been designated, covering a total area of nearly 19,000 square
miles. Each individual sanctuary site (Monterey Bay, the Florida Keys, the Olympic Coast, and Channel Island are the largest four)
conducts research and monitoring activities to characterize existing resources and document changes.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround
the Northwestern Hawaiian Islands (NWHI). Papahãnaumokuãkea Marine National Monument was designated by Presidential
Proclamation in 2006 and overlays several previously designated protected areas and forges a co-management regime for the
entire area. The overlayed protected areas comprising the monument are the NWHI Coral Reef Ecosystem Reserve (from 3
to 50 miles in federal waters from the corridor of islands of the NWHI); the National Wildlife Refuges (the islands, atolls and
some federal waters; and the State of Hawaii Refuge and lands and waters. The Monument is managed by NOAA, with the
Department of the Interior, and the state of Hawaii. Papahãnaumokuãkea is co-managed by the Department of Commerce-
NOAA with the Department of the Interior, and the state of Hawaii.

Rose Atoll Marine National Monument: On January 6, 2009, President Bush designated the Rose Atoll Marine National
Monument in American Samoa. The monument includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres
of land and 1,600 acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic
reef ecosystem that is home to many land and marine species, many of which are threatened or endangered. The Department of
the Interior has primary management responsibility of the atoll while NOAA has primary management responsibility for the marine
areas of the monument seaward of mean low water, with respect to fishery-related activities regulated pursuant to the Magnuson-
Stevens Fishery Conservation and Management Act (16 U.S.C. 1801 et seq. ) and any other applicable authorities. An inter-
governmental committee comprised of NOAA, Department of the Interior, and the American Samoa Government has been
established to develop and coordinate management strategies. NOAA is progressing with fisheries management strategies, and
has begun the process to consider incorporation of the area into the Fagatele Bay National Marine Sanctuary.




                                                                                                                               255
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Marianas Trench Marine National Monument: On January 6, 2009, President Bush designated the Marianas Trench Marine
National Monument. The Monument consists of approximately 95,000 square miles of submerged lands and waters of the
Mariana Archipelago. It includes three units: the Islands Unit, the waters and submerged lands of the three northernmost
Mariana Islands; the Volcanic Unit, the submerged lands within 1 nautical mile of 21 designated volcanic sites; and the Trench
Unit, the submerged lands extending from the northern limit of the Exclusive Economic Zone of the United States in the
Commonwealth of the Northern Mariana Islands (CNMI) to the southern limit of the Exclusive Economic Zone of the United
States in the Territory of Guam. No waters are included in the Volcanic and Trench Units, and CNMI maintains all authority for
managing the three islands within the Islands Unit (Farallon de Pajaros or Uracas, Maug, and Asuncion) above the mean low
water line. The Department of the Interior, in consultation with NOAA, has management responsibility for the monument. With
respect to fishery-regulated activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act
and any other applicable authorities, however, NOAA has primary management responsibility, and, when necessary, consults
with the Department of the Interior. All but one of the Marianas Monument Advisory Council (MMAC) members have been
appointed, and the MMAC is planning to have its first meeting in early 2012. NOAA is progressing with fisheries management
strategies, and has begun scoping for management plan development, in cooperation with the Department of the Interior.

Pacific Remote Islands Marine National Monument: On January 6, 2009, President Bush designated the Pacific Remote
Islands Marine National Monument. The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis Islands,
Johnston Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake Island,
these islands are administered as National Wildlife Refuges by the Department of the Interior. They sustain many endemic
species, including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds, insects, and vegetation not found
elsewhere.

The Department of the Interior has responsibility for management of the Monument in consultation with NOAA, including out
to 12 nautical miles from the mean low water lines of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll, Kingman Reef
and Palmyra Atoll, pursuant to applicable legal authorities. NOAA is progressing with fisheries management strategies, and is
scoping to develop a Monument Management Plan in cooperation with the Department of the Interior.

Aleutian Islands Habitat Conservation Area: On July 28, 2006, NOAA formally established the Aleutian Islands Habitat
Conservation Area in Alaska, which covers nearly 370,000 square miles and may harbor among the highest diversity of deep-
water corals in the world. The conservation area established a network of fishing closures in the Aleutian Islands and Gulf of
Alaska, and protects habitat for deep water corals and other sensitive features that are slow to recover once disturbed by fishing
gear or other activities. Six small areas that include fragile coral gardens discovered by NOAA Fisheries Service scientists
are closed to all bottom-contact fishing gear. This effort is part of a network of new marine protected areas in Alaskan waters
designed to protect essential fish habitat and prevent any further damage of the area.

Written policy statements or permit guidelines for the National Marine Sanctuaries and Monuments have been developed for
the areas of acoustic impacts, artificial reefs, climate change, invasive species, and marine debris. Submarine cable policy was
finalized in 2011. NOAA’s Office of Marine National Sanctuaries may be updating artificial reefs policy to reflect recent information
about the effects of artificial reefs on natural habitats. The Office of Marine National Sanctuaries answers the most frequently
asked questions related to alternative energy and oil and gas policy decisions for national marine sanctuaries.

Heritage Assets:

Heritage assets are unique for their historical or natural significance, for their cultural, educational, or artistic importance, or for
their significant architectural characteristics. The Department generally expects that these assets will be preserved indefinitely.




 256
                                                 F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




In cases where a heritage asset also has a practical and predominant use for general government operations, the asset is
considered a multi-use heritage asset. The cost of a multi-use heritage asset is capitalized as General PP&E and is depreciated
over the useful life of the asset.

NOAA has established policies for heritage assets to ensure the proper care and handling of these assets under its control
or jurisdiction. The Deputy Under Secretary of NOAA established the Heritage Assets Working Committee to administer
NOAA’s stewardship policies and procedures. In carrying out these policies and procedures, the Working Committee:

   ●●   Maintains a nationwide inventory of heritage assets, ensuring that they are identified and recorded in the Personal Property
        Heritage Asset Accountability System;

   ●●   	
        Establishes nationwide NOAA policies, procedures, and standards for the preservation, security, handling, storage, and
        display of NOAA heritage assets;

   ●●   Tracks and updates each loan of NOAA heritage assets, including assigning current values and inventory numbers, and
        reporting the current conditions of heritage assets;

   ●●   Determines the feasibility of new asset loans, such as meters, standard tide gauges, portraits, and books for exhibit loans;
        and

   ●●   Collects heritage assets and properties of historic, cultural, artistic, or educational significance to NOAA.

NOAA maintains the following Heritage Assets:

Galveston Laboratory: Galveston Laboratory is comprised of seven buildings that were originally part of Fort Crockett, Texas,
an army coastal defense facility built shortly after 1900. These buildings are eligible for placement on the National Register.
Due to their historic significance, exterior architectural features, and predominant use in government operations, the Galveston
Laboratory is considered a multi-use heritage asset. The Sea Water System has been updated in 2011 with new electrical and
pump housing.

National Marine Fisheries Service (NMFS) St. George Sealing Plant: On St. George Island, in the Pribilof Islands group,
Alaska, is the only remaining northern fur seal pelt processing building in the world. In 1986, the building was listed on the
National Register of Historic Properties, within the Seal Islands National Historic Landmark. The Pribilof Islands commercial fur
seal harvest was an extremely profitable business for the U.S. government, and, by the early 1900s, had covered the purchase
price of Alaska. The building is the largest on the island, and is comprised of four distinct work areas from the seal pelt processing
area. In 1950, the original wood-framed pelt processing plant was destroyed in a fire and rebuilt in 1951 with concrete walls on
remnants of the original foundation. Harsh weather and a lack of maintenance funding after the expiration of the Northern Fur
Seal Convention in 1985 resulted in significant deterioration of the building by the early 1990s.

In November 1999, after numerous site surveys and assessments, the building’s crumbling foundation was stabilized and the
building’s exterior was painted. This effort allowed for NOAA’s continued, but limited, use of the building by the NMFS Alaska
Region and Alaska Fisheries Science Center to achieve NOAA’s mission on St. George Island. In addition, the U.S. Fish and
Wildlife Service (USFWS) Alaska Maritime National Wildlife Refuge used the building as a bunkhouse until 2006, when NOAA’s
Safety Officer and the USFWS Safety Officer both determined the bunkhouse portion of the building lacked sufficient means
of egress in the event of fire and deemed it to be unsafe for habitation. It was determined by USFWS that the cost of making
the necessary modifications to the space was not fiscally justifiable. NOAA’s Preserve America program funded an interpretive
display project in the Seal Plant to promote public outreach and education for the modest tourism program on St. George.




                                                                                                                                257
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NMFS Cottage M, St. George: The last remnants of the U.S. commercial harvest of northern fur seals can be found on
St. George Island, in the Pribilof Islands group, Alaska. In 1986, Cottage M (locally known as Cottage C), was listed on the
National Register of Historic Places within the Seal Islands National Historic Landmark. This building was constructed in
the 1930s and was the residence of the island doctor and hospital through 1955, when the current clinic/hospital was built.
Later, the construction of a health clinic on St. George Cottage M provided housing for government scientists and managers.
In recent years, USFWS Alaska Maritime National Wildlife Refuge staff have also used the building. NMFS Cottage M is
considered a multi-use heritage asset because of the critical housing for NOAA’s research and management staff, along with
USFWS staff.

NMFS St. Paul Old Clinic/Hospital: On St. Paul Island, in the Pribilof Islands group, Alaska, fewer historic structures remain
than on St. George Island. In 1986, the clinic/hospital was listed on the National Register of Historic Places within the Seal
Islands National Historic Landmark. The old clinic/hospital is the combination of three historic buildings (physician’s house, 1929;
dispensary, 1929; and hospital, 1934) connected in 1974 with an addition. The building was used as a clinic/hospital through
2006 under a Memorandum of Agreement between NMFS and the Department of Health, Education and Welfare, and later, the
Indian Health Service/Bureau of Indian Affairs. Since August 2007, NMFS has maintained the facility. While the facility remains
largely unused at this time, except for occasional storage needs, NMFS will continue to maintain the facility, and plans to retain
it to accommodate its expanding mission needs on St. Paul Island. During the winter of 2010, there was a freeze resulting in
broken plumbing pipes and substantial flooding and icing throughout the building. Damage assessment and abatement work was
completed. An engineering analysis to structurally stabilize the building is expected to begin in the spring of 2012. This will be
followed by a design exercise to develop plans for future construction and expanded use of the building.

NMFS Aquarium: In Woods Hole, Massachusetts, this aquarium was established in 1875 by Spencer Baird, the originator of
NMFS. In addition to being part of the first laboratory of today’s NMFS, this aquarium is the oldest marine research display
aquarium in the world. It is used to educate the public, raise public awareness of NMFS activities, and accommodate in-house
research for the Northeast Fisheries Science Center. The aquarium houses 16 permanent exhibition tanks and approximately
12 freestanding aquaria and touch tanks holding more than 140 species of fish and invertebrates and, on occasion, sea turtles.
The facility also has an exterior seal habitat that currently exhibits non-releasable harbor seals obtained through the NOAA marine
mammal stranding network. The tanks range in size from 75 to 2,800 gallons. NMFS Aquarium is considered a multi-use heritage
asset because it is also used for NOAA’s scientific research, which is part of its mission.

Office of Atmospheric Research (OAR) Great Lakes Environmental Research Laboratory (GLERL), Lake Michigan
Field Station (LMFS): In Muskegon, Michigan, the GLERL main building, constructed in 1904 by the U.S. Life Saving
Service, is eligible for National Register designation and has been recognized by state and local historical societies for its
maritime significance. With the creation of the U.S. Coast Guard in 1915, the facility was transferred and served as a base
for search and rescue operations for 75 years. In 2004, a renovation project was completed that restored the exterior to
its original architecture and color scheme - a style that is considered rare. Today, GLERL carries out research and provides
scientific products, expertise, and services required for effective management and protection of Great Lakes and coastal
ecosystems. GLERL/LMFS includes three buildings and a research vessel dockage. The function of the field station is to
provide a base of operations for GLERL’s primary research vessel, which is presently the Research Vessel Laurentian, and to
provide a focal point for GLERL’s research on Lake Michigan. Due to its historic significance, exterior architectural features,
and predominant use in government operations, GLERL/LMFS is considered a multi-use heritage asset.

NOAA’s collection-type heritage assets are comprised primarily of books, journels, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central
Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique.




 258
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Historically, 40 percent of the items catalogued are not found anywhere else. Many older books cannot be replaced. The works
include 17th century works of Francis Bacon and Robert Boyle, 18th century works of Daniel Bernouilli, Daniel Defoe, and Pierre
Bougher, and 19th and 20th century works of Benjamin Franklin and George Washington Carver. The Library has an extensive
collection of historical Coast and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including
foreign and historical meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection (Collection). In 2004, the
Thunder Bay National Marine Sanctuary (jointly managed by NOAA and the State of Michigan to protect and interpret a nationally
significant collection of shipwrecks and other maritime heritage resources) established an agreement with the Alpena County
George N. Fletcher Public Library to jointly manage this Collection. Amassed over a period of more than 40 years by historian
C. Patrick Labadie, the Collection includes information about such diverse subjects as Great Lakes ports and waterways, docks,
cargoes, ships, shipbuilders, owners and fleets, machinery and rigging, notable maritime personalities, and shipwrecks. Special
features of the Collection are extensive collections of a) data cards listing most of the ships on the Great Lakes before year 1900,
a roster of some 15,000 vessels complete with descriptive data and highlights of the ships’ careers and their ultimate losses;
and b) ship photograph negatives of 19th and 20th century Great Lakes ships. Heritage assets also include copies of vessel
ownership documents, contemporary ship photographs, books, and other items documenting the Great Lakes history.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include
a) books, manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment. The NOAA Logistics
Office continued its review of the National Climatic Data Center Library in FY 2011 and concluded that many items previously
reported as separate items belong in an existing heritage assets collection, or were deemed as not meeting the heritage assets
criteria. This resulted in a significant decrease in the Library’s collection type heritage assets in FY 2011.

Historical artifacts are designated collection-type heritage assets if they help illustrate the social, educational, and cultural heritage
of NOAA and its predecessor agencies (Coast and Geodetic Survey, U.S. Fish Commission, the Weather Bureau, the Institutes
for Environmental Research, the Environmental Science Services Administration, etc.). These include, but are not limited to,
bells, gyrocompasses, brass citations, flags, pennants, chronometers, ship seals, clocks, compasses, fittings, miscellaneous
ship fragments, lithographic plates, barometers, rain gauges, and any items that represent the uniqueness of the mission of
NOAA and its predecessor agencies.

NIST currently maintains collection-type heritage assets under its Museum and History Program, which collects, conserves,
and exhibits artifacts, such as scientiﬁc instruments, equipment, objects, and records of signiﬁcance to NIST and predecessor
agencies. This program provides institutional memory and demonstrates the contributions of NIST to the development of
standards measurement, technology, and science. The Information Services Office (ISO) maintains the historical archives, rare
book collection, and oversees the oral history program. The historical archives and rare book collection contain titles that are
considered “classics” of historical scientiﬁc interest, books by prominent contemporary scientists, and books by NIST authors
or about NIST work. Titles are recommended for inclusion by ISD staff and customers. Materials are not speciﬁcally purchased
for the collection nor are funds speciﬁcally allocated for the collection. Photos and manuscripts include images of NIST staff,
facilities, and artifacts that demonstrate NIST accomplishments.

NIST’s Museum and History Program has policies in place for acquisitions and loans. Objects are either on display or in storage
and are not used by visitors. In FY 2011, the number of NIST Artifacts and Scientiﬁc Measures increased signiﬁcantly because
artifacts held in storage were added to the inventory of collection-type heritage assets. Archives, including the historical book




                                                                                                                                    259
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




collection, are used according to established research library policies and procedures. When considering artifacts for accession,
the following criteria are considered:

   ●●   Direct connection to NIST program activity

   ●●   Direct connection to a NIST prominent person

   ●●   Physical size

   ●●   Safety considerations

Archive material is not loaned. Artifacts are rarely loaned, but can be loaned within established policies and procedures for
educational purposes, scholarly research, and limited public exhibition to qualiﬁed institutions. The loan policy packet for these
artifacts includes an introduction to the NIST Loan Program, Borrower Checklist, Artifact Loan Request, NIST Loan Policy,
Insurance Requirements, Facilities Report, Outgoing Loan Agreement, Condition Report Form, and Outgoing Loan Process.

ISO preserves and promotes the history of NIST through a program that collects, organizes, and preserves records of enduring
value and encourages and supports their use by researchers. The policies and procedures cover such topics as submitting
reference inquiries, regulations for use of the archives collection, scope of archives collection, criteria for accepting archival
material, providing physical and bibliographic access, preservation, and reviewing the collection.

Collection-type heritage assets maintained by Census Bureau are items considered unique for their historical, cultural, educational,
technological, methodological, or artistic importance. They help illustrate the social, educational, and cultural heritage of Census
Bureau. Some items because of their age or obvious historical significance are inherently historical artifacts. Some examples
of these historical artifacts include:

1900 Hollerith Key Punch: Census Bureau clerks used the key punch during the 1900s to punch round holes into cards for
tabulation by electric tabulating machines housed at the Census Bureau. The key punch increased the speed with which clerks
could transfer data entered on census schedules to the punch cards used to tabulate census results.

Hollerith Tabulator (Dial): The Hollerith Tabulator dial was manufactured by the Tabulating Machine Company for the Census
Bureau. The Hollerith Tabulator dial mechanically illustrated the data being read from punched paper cards entered into the
tabulator. The holes punched in cards were sensed by pins or pointers making contact through the holes to a drum. The
completion of an electric circuit through a hole advanced the counter on this dial representing data tabulated for a specific
population, economic, or agriculture inquiry on the census schedule.

Gang Punch: The Gang punch was manufactured by the Tabulating Machine Company for the Census Bureau. The gang punch
was used for recording facts common to a number of punch cards, such as the month, day, year, etc. It is equipped with a
number of moveable punches, which can easily be changed and set for any desired combination. Using the gang punch, clerks
could punch a number of cards at once, thus speeding the transcription of data.

Pantograph: This item was manufactured by the Tabulating Machine Company for the Census Bureau. Census Bureau clerks
used the pantograph, or keyboard punch, to transfer information on the census schedule to punch cards. To operate the
pantograph, the clerk guided one end of the lever over a board showing the categories of information from the census (age, sex,
place of birth, etc.) and depressed the lever at the appropriate position, punching a hole in the punch card. With the information
found on the schedule translated into punch holes on cards, the data could then be read and the results tallied by tabulators
designed to read the punch cards.




 260
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Census Bureau Enumerators Badge: The Census Bureau provided enumerators with badges during the 1900s and later
censuses, and recipients were instructed to wear them when on duty. The 1900s instructions to enumerators noted that the
badge offered additional evidence of the bearer’s authority to ask the question required by law. Furthermore, enumerators were
instructed to wear the badge attached to the vest under the coat, and to exhibit it only when it would aid the enumerator in
obtaining the information. Upon completion of the census, the Census Bureau permitted enumerators to keep the badge as a
souvenir of their service.

Unisys Tape and Reel: It is assumed that Unisys Corporation manufactured this tape and reel in the 1980s. This tape technology,
released in 1964, introduced what is now generally known as 9-track tape. The magnetic tape is ½ inch wide, with eight data
tracks and one parity track for a total of nine parallel tracks. Data is stored as 8-bit characters, spanning the full width of the tape
(including the parity bit). Various recording methods are used to place the data on tape, depending on the tape speed and data
density, including PE (phase encoding), GCR (group code recording), and NRZI (non-return-to-zero, inverted).

Film Optical Sensing Device for Input to Computers (FOSDIC): This 1980s file cabinet-sized version of FOSDIC was
manufactured by the Census Bureau for the 1990 census. During the 1950s, the Census Bureau and the National Bureau of
Standards developed a system called Film Optical Sensing Device for Input to Computers (FOSDIC), which took census and
survey questionnaires that had been photographed onto microfilm, read blackened dots opposite the appropriate answers, and
transferred that data to magnetic tape. These tapes constituted the input for the Census Bureau’s computers. One important
result of this process was the elimination of most discrepancies in data records sent for processing. First used to process 1960
census results, FOSDIC played an integral part in the Census Bureau’s data processing system into the mid-1990s.

Artwork and Gifts: Census Bureau’s artwork and gifts include items bequeathed to, given to, or commissioned by the agency,
such as posters, paintings, sculptures, postage stamps, photographs, antiques, memorial plaques, cultural artifacts from other
statistical agencies and countries, awards, time capsules, buttons and badges, and more.

Census Bureau has developed a Project Charter for heritage assets which has developed policies and procedures for the
acquisition and removal of Census Bureau heritage assets. Census Bureau employees submit items for consideration as heritage
assets to the Heritage Assets Committee. The Committee will decide if the item meets the criteria for a heritage asset based
on the uniqueness, historical age, and/or if the item helps to illustrate Census Bureau’s historic contributions to the nation’s
growth. If the item is deemed a heritage asset, the applicable property management office will ensure the heritage asset is
catalogued and stored in a safe, secure environment, allowing for appropriate preservation and conservation. All necessary
actions will be taken to reduce deterioration of heritage assets due to environmental conditions, and to limit damage, loss, and
misuse of heritage assets. The Committee meets on a regular basis to determine if any heritage assets should be removed from
the approved list, or if a newly arrived item should be classified as a heritage asset. Once a determination has been made to
no longer classify an item as a heritage asset, Census Bureau will follow any applicable established policies and procedures for
surplus property.




                                                                                                                                  261
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
 NOTES TO THE FINANCIAL STATE M ENTS




(In Actual Quantities)

                                         Collection-type Heritage Assets
                                                                         Quantity of                                           Quantity of
                                                                         Items Held                                            Items Held
                                                                        September 30,            FY 2011            FY 2011   September 30,
 Category                       Description of Assets                       2010                Additions         Withdrawals     2011
 NOAA Central Library:
    Circulating Collection      Books, journals, and other
                                publications                                       1        	      N/A            	     N/A                  1
    Rare Book Room
    Collection                  Books and publications                             1        	      N/A            	     N/A                  1
    Collection of
    photographs and motion
    pictures                    Photographs and motion pictures                    1        	      N/A            	     N/A                  1
    Other                       Artifacts, documents, and other
                                items                                            57                     1         	        2                56
 National Ocean Service–        Data cards, photograph negatives,
 Thunder Bay Sanctuary          document copies, photographs,
 Research Collection            books, and other items                      106,254         	           -         	        -          106,254
 National Climatic Data         Artifacts, books, documents, and
 Center Library                 other items                                     870         	           -               545                325
 NOAA Others                    Artifacts, artwork, books, films,
                                instruments, maps, and records                3,788                 10                  376               3,422
 NIST Artifacts and             National Bureau of Standards
 Scientific Measures            (NBS)/NIST scientific instruments,
                                equipment, and objects                          343         	      647            	        -               990
 NIST Historical Books          Books of historical scientific
 and Manuscripts                interest, books by prominent
                                contemporary scientists, and
                                books by NBS/NIST authors and
                                manuscripts of NBS/NIST staff,
                                facilities, and artifacts                        61         	           -         	        -                61
 Census Bureau Artwork          Artifacts, artwork, books, films,
 and Gifts                      instruments, and records                        132         	           -         	        -               132
 Census Bureau                  Publications, books, manuscripts,
 Collectable Assets             photographs, and maps                            22         	           8         	        -                30
 Total                                                                      111,530                666                  923           111,273
 N/A - Not applicable; this category is reported as one collection.


Additional information on the condition of the above Heritage Assets is presented in the Required Supplementary Information section.




   262
                                                    F Y   2 0 1 1   P E R F O R M A N C E       A N D       A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




            Consolidating
              Bal ance
               S heet
                              United States Department of Commerce Consolidating Balance Sheet
                              As of September 30, 2011 (In Thousands)
                                                                                                         Intra-
                                                                                       Consolidating Departmental                          Census                                                                                                       Franchise




F Y   2 0 1 1
                                                                                          Total      Eliminations            BIS           Bureau        DM/G&B DM/S&E DM/WCF                                EDA            ELGP       ESA/BEA            Fund              HCHB                 ITA           MBDA               NIST             NOAA              NTIA        NTIS             OIG           USPTO

                              ASSETS

                              Intragovernmental:
                              Fund Balance with Treasury                                $ 21,661,030     $	        -    $ 31,030       $ 963,039         $ 1,407      $ 22,374         $ 46,662      $1,292,820         $       995    $ 17,351         $ 2,839         $ 33,887         $ 109,836         $ 14,037       $1,123,900          $ 3,786,993      $12,538,673      $27,922      $ 16,059       $ 1,631,206
                              Accounts Receivable                                              98,360     	 (16,491)           237               7,037    	       -            7,999         1,304              262      	         -             300        	       -       	        -             2,751     	        -             6,056            84,809              188         2,773          839                296
                              Advances and Prepayments                                        415,683     	 (76,814)           986              31,185    	       -            3,613         2,261             1,136     	         -            1,041             83        	        -             6,331           722              9,456           230,193          202,485          287           666               2,052
                              Total Intragovernmental                                       22,175,073    	 (93,305)         32,253        1,001,261          1,407           33,986        50,227       1,294,218              995            18,692           2,922           33,887           118,918         14,759       1,139,412            4,101,995    12,741,346       30,982           17,564        1,633,554

                              Cash                                                              3,466     	        -     	         -       	         -    	       -    	           -    	        -       	          -    	         -       	        -       	       -       	        -       	         -     	        -       	           -             346     	           -          29     	         -             3,091
                              Accounts Receivable, Net                                        140,846     	        -          4,659              5,602    	       -               4            50                  3     	         -       	        -       	       -       	        -              246            124              5,186           124,421                 7         407     	         -              137




P E R F O R M A N C E
                              Direct Loans and Loan Guarantees, Net                           566,250     	        -     	         -       	         -    	       -    	           -    	        -            14,696     	         -       	        -       	       -       	        -       	         -     	        -       	           -         551,554     	           -    	       -    	         -       	                 -
                              Inventory, Materials, and Supplies, Net                          97,823     	        -     	         -              155     	       -    	           -            3               307      	         -       	        -       	       -       	        -       	         -     	        -            27,224            70,086     	           -          48     	         -       	                 -
                              General Property, Plant, and Equipment, Net                    8,362,263    	        -            16             145,479        7,198            1,904         2,084             1,363     	         -             563        	       -            9,287             2,793     	        -           829,163          7,145,643           8,260         1,882    	         -           206,628




A N D
                              Other                                                            53,320     	        -               6              472            4                4     	        -       	          -    	         -       	        -       	       -       	        -              638      	        -                  25          35,635     	           -        6,449    	         -            10,087

                              TOTAL ASSETS                                             $ 31,399,041      $	 (93,305)    $ 36,934       $ 1,152,969 $ 8,609            $ 35,898         $ 52,364      $ 1,310,587 $              995    $ 19,255         $       2,922   $ 43,174         $ 122,595 $             14,883   $ 2,001,010 $ 12,029,680 $ 12,749,613 $ 39,797 $ 17,564                           $ 1,853,497



                              LIABILITIES

                              Intragovernmental:
                              Accounts Payable                                          $      88,455    $	 (14,574)    $ 1,369        $        17,304   $	       -   $         946    $ 1,698       $          465     $	         -   $ 1,226          $          2    $	           -   $         3,953   $       485    $         2,002     $      57,345    $       2,585    $ 7,945      $       73     $         5,631
                              Debt to Treasury                                                540,001     	        -     	         -       	         -    	       -       	        -    	        -       	          -       	      -       	        -       	       -       	        -       	         -     	        -       	           -         540,001     	           -    	       -    	         -       	                 -

                              Other
                              	   Spectrum Auction Proceeds Liability to Federal
                                   	 Communications Commission                                   2,436    	        -     	         -       	         -    	       -       	        -    	        -       	          -       	      -       	        -       	       -       	        -       	         -     	        -       	           -    	           -           2,436     	       -    	         -       	                 -
                              	   Resources Payable to Treasury                                21,448     	        -     	         -       	         -    	       -       	        -    	        -            19,843        	      -       	        -       	       -       	        -       	         -     	        -       	           -           1,605     	           -    	       -    	         -       	                 -
                              	   Unearned Revenue                                            338,657     	 (76,814)           235             154,194    	       -            6,494        33,351            54,346        	      -       	        -             80        	        -             1,102            34             83,392            34,698           35,092         4,393         1,890              6,170




A C C O U N T A B I L I T Y
                              	   Other                                                        90,668     	   (1,917)         2,494             14,583    	       -            1,439         1,643              914         	      -             823        	       -               7              3,965           591              8,368            39,301              810          225           306              17,116

                              Total Intragovernmental                                        1,081,665    	 (93,305)          4,098            186,081    	       -            8,879        36,692            75,568        	      -            2,049             82                7              9,020          1,110            93,762           672,950           40,923     12,563            2,269             28,917

                              Accounts Payable                                                343,280     	        -           842              61,947    	       -            2,288         3,138                 87              1             695               3              122              2,666           153             20,833           163,732            1,392         2,894         2,564             79,923
                              Loan Guarantee Liabilities                                          563     	        -     	         -       	         -    	       -       	        -    	        -       	          -       	      -       	        -       	       -       	        -       	         -     	        -       	           -             563     	           -    	       -    	         -       	                 -
                              Federal Employee Benefits                                       808,482     	        -          3,180            130,544    	       -            1,778         4,806             1,193        	      -             437        	       -              38              8,033          2,383             8,782           635,767            1,791         1,176          168               8,406




R E P O R T
                              Environmental and Disposal Liabilities                           63,377     	        -     	         -       	         -    	       -       	        -    	        -       	          -    	         -       	        -       	       -       	        -       	         -     	        -            57,363             6,014     	           -    	       -    	         -       	                 -

                              Other
                              	   Accrued Payroll and Annual Leave                            578,952     	        -          6,206             82,116    	       -            4,533        10,345             3,602               3            7,665       	       -              80             30,238          1,197            47,729           186,931            4,849         1,644         3,105            188,709
                              	   Accrued Grants                                              595,721     	        -     	         -       	         -    	       -    	           -    	        -           384,908     	         -       	        -       	       -       	        -             2,285          1,271           102,359            67,399           37,499     	       -    	         -       	                 -
                              	   Capital Lease Liabilities                                    10,068     	        -     	         -       	         -    	       -    	           -    	        -       	          -    	         -       	        -       	       -       	        -       	         -     	        -       	           -          10,068     	           -    	       -    	         -       	                 -
                              	   Unearned Revenue                                           1,035,867    	        -          4,274              2,076    	       -    	           -    	        -              313      	         -       	        -       	       -       	        -            12,675     	        -            25,298            41,178              253         4,604    	         -           945,196
                              	   Other                                                        73,153     	        -            88               8,700    	       -    	           -    	        -       	          -    	         -              46        	       -               2             12,394     	        -                  25          51,812     	           -    	       -    	         -               86

                              TOTAL LIABILITIES                                        $ 4,591,128       $	 (93,305)    $ 18,688       $       471,464 $ 	        -   $ 17,478         $ 54,981      $       465,671 $             4   $ 10,892         $         85    $         249    $        77,311 $        6,114   $       356,151 $ 1,836,414 $               86,707 $ 22,881 $            8,106    $ 1,251,237


                              NET POSITION

                              Unexpended Appropriations
                              	   Unexpended Appropriations - Earmarked Funds           $ 3,390,451      $	        -    $	         -   $	            -   $	       -   $	           -   $	        -   $	             -   $	         -   $	           -   $	          -   $	           -   $	            -   $	         -   $	              -   $	           -   $ 3,390,451      $	       -   $	         -   $	                    -
                              	   Unexpended Appropriations - All Other Funds                5,829,206    	        -         24,728            416,646    	       -           19,614    	        -           848,696            991            12,424       	       -           33,718            75,541         12,362           803,012          3,539,096          33,028     	       -         9,350        	                 -
                              Cumulative Results of Operations
                              	   Cumulative Results of Operations - Earmarked Funds        10,073,516    	        -     	         -       	         -    	       -       	        -    	        -       	          -       	      -       	        -       	       -       	        -             4,319     	        -       	           -         214,058         9,235,963    16,916       	         -           602,260
                              	   Cumulative Results of Operations - All Other Funds         7,514,740    	        -     	 (6,482)             264,859        8,609       	 (1,194)     	 (2,617)        	    (3,780)       	      -       	 (4,061)            2,837            9,207       	 (34,576)      	 (3,593)            841,847          6,440,112           3,464     	       -          108         	                 -

                              TOTAL NET POSITION                                       $ 26,807,913      $	        -    $ 18,246       $       681,505 $ 8,609        $ 18,420         $ 	 (2,617) $         844,916 $          991    $        8,363   $       2,837   $ 42,925         $        45,284 $        8,769   $ 1,644,859 $ 10,193,266 $ 12,662,906 $ 16,916 $                         9,458    $       602,260

                              TOTAL LIABILITIES AND NET POSITION                       $ 31,399,041      $	 (93,305)    $ 36,934       $ 1,152,969 $ 8,609            $ 35,898         $ 52,364      $ 1,310,587 $              995    $ 19,255         $       2,922   $ 43,174         $ 122,595 $             14,883   $ 2,001,010 $ 12,029,680 $ 12,749,613 $ 39,797 $ 17,564                           $ 1,853,497




             265
                                                                                                                                                                                                                                                                                                                                                                                                                        CONSOLIDATING BALANCE SHEET




                              See accompanying independent auditors’ report.
CONSOLIDATING BALANCE SHEET




 266
                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L        S    E   C   T   I   O   N




                    R equired
            S upplementary
              I nformation
                        (u n a u d i t e d)
                                                   R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




Required Supplementary Information (unaudited)
A	 Deferred Maintenance
Deferred maintenance is maintenance that was not performed when it should have been, that was scheduled and not performed,
or that was delayed for a future period. Maintenance is the act of keeping property, plant, and equipment (PP&E) in acceptable
operating condition and includes preventive maintenance, normal repairs, replacement of parts and structural components,
and other activities needed to preserve the asset so that it can deliver acceptable performance and achieve its expected life.
Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise upgrading it to serve needs different
from or significantly greater than those originally intended. Critical maintenance is defined as those projects where the required
maintenance will have a critical impact on the public access, functionality and mission support, health and safety, and life cycle
cost of a facility if the maintenance is not performed. The significant portions of Departmental deferred maintenance relate to
the PP&E of both NOAA and NIST (see below for abbreviations). These two entities represent 95 percent of the Department’s
General PP&E, Net balance as of September 30, 2011.

National Oceanic and Atmospheric Administration (NOAA):

NOAA uses the Condition Assessment Survey (CAS) method to identify and quantify deferred maintenance for assets meeting
NOAA’s $200 thousand capitalization threshold. The CAS method employs a periodic inspection of real property, heritage assets,
ships, and other applicable assets to determine its current condition and to estimate costs to correct any deficiencies. Estimated
costs reflect potential costs variance of +/- 10 percent.

The following shows NOAA’s deferred maintenance for projects with estimated costs greater than $50 thousand (Buildings and
Structures; Heritage Assets) and $25 thousand (Ships; Other), as of September 30, 2011:

                     (In Thousands)

                                                                                     Estimated Cost to Return
                               PP&E Category               Asset Condition
                                                                                     to Acceptable Condition

                       Buildings and Structures                   3                 $    5,139   to   $    6,281
                       Heritage Assets                           4, 3                   11,756   to       14,369
                       Ships                                      2                     42,433   to       51,863
                       Other                                      3                       360    to         440
                       Total                                                        $ 59,688     to   $ 72,953


The CAS method for all PP&E categories is based on a five-point scale, with 1 representing excellent condition;
2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very poor condition. NOAA has established a “facility
condition code” to classify the conditions of Buildings and Structures. Each building or structure is assessed an individual
“facility condition code.” The average of the individual “facility condition codes” determines the CAS Asset Condition.
The deferred maintenance amounts reported represent non-critical maintenance to bring the Buildings and Structures
to good condition. Buildings and Structures deferred maintenance is comprised of projects submitted to the Capital
Improvements Program. There is an annual call each year to the NOAA elements requesting their submission of new
projects and updates to existing unfunded projects to reflect changes in requirements or costs. For Heritage Assets, the


                                                                                                                                269
F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




deferred maintenance amounts reported represent non-critical maintenance to bring each class of Heritage Assets to an
acceptable condition through cleaning, restoration, and preservation. NOAA has established a “range of current asset
condition code” to classify the conditions of Ships. The average of the individual “range of current asset condition codes”
determines the CAS Asset Condition.

National Institute of Standards and Technology (NIST):

NIST also uses the CAS method to estimate deferred maintenance. NIST values the condition of assets using a five-point scale,
with 1 representing excellent condition; 2 – good condition; 3 – acceptable condition; 4 – poor condition; and 5 – very poor
condition. Assets that are assessed at 4 or 5 require repairs and maintenance to increase their value to 3, or acceptable condition.
The following shows NIST’s deferred maintenance as of September 30, 2011:

                 (In Thousands)

                                                                                        Estimated Cost to Return
                              PP&E Category                   Asset Condition
                                                                                        to Acceptable Condition
                  Mechanical and Electrical Devices                   5               $ 323,300 to      $ 436,300
                  Buildings (Internal Structures)                     4                     22,800 to        30,900
                  Buildings (External Structures)                     4                     38,100 to        50,100

                  Total                                                               $ 384,200 to $ 517,300


B	 Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area
NOAA maintains the following sanctuaries, marine national monuments, and conservation area, which are similar in nature to
stewardship land and which are more fully described in Note 23, Stewardship Property, Plant, and Equipment, of the Notes to
the Financial Statements.

National Marine Sanctuaries: Marine sanctuaries provide protection for nationally significant natural areas, including species
close to extinction, and protect historically significant shipwrecks and prehistoric artifacts. Each of the 13 sanctuaries, which may
include habitats as diverse as near-shore coral reefs and open ocean, conducts research and monitoring activities to characterize
existing resources and document changes. Resource status in the marine sanctuaries varies from good to poor, depending on
resource type. Where conditions are compromised, they appear to reflect historical levels of use and development, and in some
cases recent disturbances (e.g. diseases that have caused mass mortality of critically important species). The effects of recent
disturbance may have been exacerbated by impaired environmental conditions in some areas. Human activities related to each
of these threats are the focus of current management efforts, and favorable trends in resource quality appear to be the result of
active management.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround
the Northwestern Hawaiian Islands (NWHI). The Papahãnaumokuãkea Marine National Monument, located off the coast of
the NWHI, encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of relatively
undisturbed coral reef habitat that is home to more than 7,000 species. The condition of the Papahãnaumokuãkea Marine
National Monument is good, but resources in the Monument are affected by an abundance of marine debris, and face emerging
threats related to climate change (e.g. increasing temperature, acidification, and sea level).




 270
                                                    F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                 R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




Rose Atoll Marine National Monument: The atoll includes the Rose Atoll National Wildlife Refuge. It also includes about 20
acres of land and 1,600 acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support
a dynamic reef ecosystem that is home to many land and marine species, many of which are threatened or endangered.
The condition of the Rose Atoll Marine National Monument is good, though it has apparently not recovered completely from the
effects of a 1993 shipwreck and spill that altered community structure on a large portion of the reef.

Marianas Trench Marine National Monument: The Marianas Trench Marine National Monument consists of approximately
95,000 square miles of submerged lands and waters of the Mariana Archipelago. It includes three units: the Islands Unit, the
waters and submerged lands of the three northernmost Mariana Islands; the Volcanic Unit, the submerged lands within 1 nautical
mile of 21 designated volcanic sites; and the Trench Unit, the submerged lands extending from the northern limit of the Exclusive
Economic Zone of the United States in the Commonwealth of the Northern Mariana Islands (CNMI) to the southern limit of the
Exclusive Economic Zone of the United States in the Territory of Guam. The condition of the Marianas Trench Marine National
Monument is good.

Pacific Remote Islands Marine National Monument: The Pacific Remote Islands area consists of Wake, Baker, Howland,
and Jarvis Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the
exception of Wake Island, these islands are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of
the Department of the Interior. They sustain many endemic species including corals, fish, shellfish, marine mammals, seabirds,
water birds, land birds, insects, and vegetation not found elsewhere. The condition of the Pacific Remote Islands Marine National
Monument is good.

Aleutian Islands Habitat Conservation Area: This conservation area in Alaska, which covers nearly 370,000 square miles,
may harbor among the highest diversity of deep-water corals in the world, and protects habitat for deep water corals and other
sensitive features that are slow to recover once disturbed by fishing gear or other activities. The condition of the Aleutian Islands
Habitat Conservation Area is generally good, although some specific resources are threatened. For example, the conservation
area contains six small areas of fragile coral gardens.


C	   Collection-type Heritage Assets

NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central
Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique.
Historically, 40 percent of the items catalogued are not found anywhere else. The Library has an extensive collection of historical
Coast and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical
meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection, composed primarily of
a) data cards listing most of the ships on the Great Lakes before 1900, a roster of some 15,000 vessels complete with descriptive
data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include
a) books, manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.




                                                                                                                               271
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




NOAA uses the Condition Assessment Survey (CAS) method to describe the condition of its assets. The CAS method is based
on a five-point scale with 1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very
poor condition. Assets with the condition assessment level between 1 through 3 are defined as being suitable for public display.
The books, journals, and other publications that make up the majority of the NOAA Central Library collection-type heritage assets
are in 4 – poor condition, and 5 – very poor condition. The heritage assets of the Thunder Bay Sanctuary Research Collection are
in 2 – good condition, and the heritage assets of the National Climatic Data Center Library are generally in 3 – fair condition.

NIST currently maintains the Museum and History Program, which collects, conserves, and exhibits artifacts such as scientific
instruments, equipment, objects and records of significance to NIST and the National Bureau of Standards (NBS). This program
provides institutional memory and demonstrates the contributions of NIST to the development of standards, measurement,
technology, and science. Conditions of these artifacts are listed in the Registrar’s database and are generally fair.

NIST Information Services Office (ISO) maintains the historical archives, a historical book collection, and oversees the oral history
program. The book collection contains titles that are of historical scientific interest, rare titles, and books by NIST authors or
about NIST work. Materials are not specifically purchased for the collection nor are funds specifically allocated for the collection.
Conditions of the books are generally fair. The archives maintain photos of NIST staff, facilities, and artifacts that demonstrate
NIST accomplishments. These images are in good condition.

Heritage assets at the Census Bureau are items considered unique for their historical, cultural, educational, technological,
methodological, or artistic importance. These assets help illustrate the social, educational, and cultural heritage of the Census
Bureau. Some items, because of their age or obvious historical significance, are inherently historical artifacts. These historical
artifacts include but are not limited to: Hollerith Key Punch, Hollerith Tabulator, Gang Punch, Pantograph, Census Bureau
Enumerators Badge, Unisys Tape and Reel, Film Optical Sensing Device, Artwork and Gifts, and any items which represent the
uniqueness of the mission of the Census Bureau. The heritage assets at the Census Bureau are classified as generally being in
good condition.


D	   Schedule of Budgetary Resources by Major Budget Account

The following table illustrates the Department’s FY 2011 budgetary resources by major budget account. The “Other Programs”
column refers to the Department’s reporting entities and their budget accounts that are not listed.




 272
                                                 F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                              United States Department of Commerce Schedule of Budgetary Resources by Major Budget Account
                              For the Year Ended September 30, 2011 (In Thousands)
                                                                                                                                                                                                                                                                                              NTIA Digital-




F Y   2 0 1 1
                                                                                                                                                                                                                                                               Census          NTIA            to-Analog       NOAA
                                                                                                                                                           NOAA                NTIA Digital                    Census                                          Bureau      Broadboand          Converter    Procurement,
                                                                                                                NOAA                    USPTO           Procurement,            Television       ITA           Bureau                                         Periodic      Technology            Box        Acquisition,
                                                                                                              Operations,               Salaries        Acquisition,          Transition and  Operations      Periodic                          EDA         Censuses and   Opportunities       Program -        and
                                                                                             Combining       Research, and                and               and               Public Safety      and        Censuses and                        Grant        Programs -      Program -         Recovery     Construction -               Other
                                                                                               Total           Facilities              Expenses         Construction               Fund      Administration   Programs                          Fund        Recovery Act   Recovery Act           Act       Recovery Act               Programs

                              BUDGETARY RESOURCES:
                              Unobligated Balance, Brought Forward, October 1            $ 12,156,525        $        212,323      $        222,674     $          50,207     $ 8,841,884         $        20,368    $ 1,862,579        $        61,515 $            3     $         3,018    $       6,102    $           982     $        874,870
                              Adjustments to Unobligated Balance, Brought Forward          	        -            	          (1)        	           -                    1               1             	        (1)    	        -            	          -  	           -        	          -       	        -       	          -        	          -
                              Recoveries of Prior-years Unpaid Obligations                    422,082                  37,093                15,166                33,026           1,412                   8,666         90,400                 31,337            706              43,315        	        -            12,533              148,428
                              Budget Authority
                              	 Appropriations                                                   7,693,976           3,214,152         	            -           1,335,353         	           -           441,550            893,000            246,000      	         -       	          -       	        -       	          -            1,563,921




P E R F O R M A N C E
                              	 Borrowing Authority                                                 77,597       	            -        	            -       	            -        	           -       	         -        	         -        	          -     	         -       	          -       	        -       	          -               77,597
                              	 Spending Authority From Offsetting Collections
                              		 Earned
                              			 Collected                                                      4,048,875            303,536              2,236,213                  148                1,239             22,390             10,514              9,648            288                 320             133                  17             1,464,429




A N D
                              			 Change in Receivables                                             88,936             86,074                    575        	            -        	          -                427        	         -        	          -     	        -        	          -       	       -        	          -                1,860
                              		 Change in Unfilled Customer Orders                          	
                              			 Advances Received                                                49,386        	     (19,023)               72,828        	            -        	           -               203        	         -        	     (8,432)    	         -       	          -       	        -       	          -                3,810
                              			 Without Advances                                                 33,584               48,505         	            -       	            -        	           -             1,332        	         -        	           -    	         -       	          -       	        -       	          -        	     (16,253)
                              		 Previously Unavailable                                             2,591        	            -                             	            -        	           -       	         -        	         -        	           -    	         -       	          -       	        -       	          -                2,591
                              Total Budget Authority                                          11,994,945             3,633,244           2,309,616              1,335,501                1,239          465,902              903,514            247,216             288                320             133                  17           3,097,955
                              Nonexpenditure Transfers, Net                                       129,434                66,265        	          -                 67,368        	          -            6,753          	 (44,561)         	     (1,531)    	         -       	          -       	       -        	          -             35,140
                              Temporarily Not Available Pursuant to Public Law               	 (208,856)         	             -       	 (208,856)          	             -       	          -        	       -          	         -        	           -    	         -       	          -       	       -        	          -        	         -
                              Permanently Not Available                                      	 (2,095,096)       	      (30,012)       	          -         	      (23,961)       	          -        	 (1,333)          	(1,744,651)       	       (493)    	     (872)       	   (43,102)       	       -        	          -        	 (250,672)
                              TOTAL BUDGETARY RESOURCES                                  $ 22,399,034        $ 3,918,912           $ 2,338,600          $ 1,462,142           $ 8,844,536         $ 500,355          $ 1,067,281        $       338,044 $          125     $         3,551    $       6,235    $        13,532     $ 3,905,721


                              STATUS OF BUDGETARY RESOURCES:
                              Obligations Incurred
                              	 Direct                                                   $    8,511,563      $ 3,279,575           $	               -   $ 1,437,785           $         57,955    $ 455,488          $       966,546    $       306,788 $            14    $            44    $ 	          -   $           361     $ 2,007,007
                              	 Reimbursable                                                  3,892,270          451,040                   2,160,895      	          -            	          -       23,036              	         -                654   	            -       	          -     	          -       	          -      1,256,645




A C C O U N T A B I L I T Y
                              Total Obligations Incurred                                     12,403,833        3,730,615                   2,160,895        1,437,785                   57,955      478,524                  966,546            307,442              14                 44      	          -               361       3,263,652
                              Unobligated Balance
                              	 Apportioned                                                        581,374            128,682            177,705                    9,259                40,572            12,274             36,843          30,602         	        -        	          -       	        -       	          -             145,437
                              	 Exempt From Apportionment                                          392,735       	           -         	        -           	            -        	           -       	         -        	         -        	       -        	        -        	          -       	        -       	          -             392,735
                              Total Unobligated Balance                                            974,109            128,682            177,705                    9,259                40,572            12,274             36,843          30,602         	       -         	         -        	       -        	         -              538,172
                              Unobligated Balance Not Available                                  9,021,092             59,615          	        -                  15,098             8,746,009             9,557             63,892        	       -              111               3,507            6,235             13,171              103,897




R E P O R T
                              TOTAL STATUS OF BUDGETARY RESOURCES                        $ 22,399,034        $ 3,918,912           $ 2,338,600          $ 1,462,142           $ 8,844,536         $ 500,355          $ 1,067,281        $       338,044 $          125     $         3,551    $       6,235    $        13,532     $ 3,905,721

                              CHANGE IN UNPAID OBLIGATED BALANCE, NET:
                              Unpaid Obligated Balance, Net, Brought Forward, October 1
                              	 Unpaid Obligations, Brought Forward                     $ 13,401,094         $ 2,276,738           $       297,045      $ 1,263,580           $      554,268      $      89,854      $       645,644 $ 1,284,564 $    35,114               $ 4,169,134        $        217     $     331,665       $ 2,453,271
                              	 Less: Uncollected Customer Payments, Brought Forward      	 (524,118)          	 (369,441)                     277        	          -            	        -          	 (14,672)         	         -   	         - 	        -                	          -         	        -       	        -       	 (140,282)
                              Total Unpaid Obligated Balance, Net, Brought Forward          12,876,976           1,907,297                 297,322          1,263,580                554,268             75,182              645,644   1,284,564      35,114                   4,169,134               217           331,665          2,312,989
                              Obligations Incurred                                          12,403,833           3,730,615               2,160,895          1,437,785                 57,955            478,524              966,546      307,442         14                          44          	        -             361          3,263,652
                              Less: Gross Outlays                                         	(14,085,158)        	(3,745,834)            	(2,117,449)       	(1,496,896)            	 (335,179)         	(473,061)         	(1,198,507)  	 (353,798) 	 (29,263)                	 (739,945)          	     (11)       	(145,205)       	(3,450,010)
                              Less: Actual Recoveries of Prior-years Unpaid Obligations    	 (422,082)         	 (37,093)              	 (15,166)         	 (33,026)              	   (1,412)         	 (8,666)          	 (90,400)    	 (31,337)  	    (706)                	 (43,315)           	        -       	 (12,533)       	 (148,428)
                              Change in Uncollected Customer Payments                      	 (122,520)         	 (134,579)             	      (575)       	          -            	        -          	 (1,759)          	         -   	         - 	        -                	          -         	        -       	        -            14,393
                              Total Unpaid Obligated Balance, net, End of Period $ 10,651,049                $ 1,720,406           $        325,027     $ 1,171,443           $        275,632    $        70,220    $       323,283    $ 1,206,871 $             5,159    $ 3,385,918        $        206     $       174,288     $ 1,992,596
                              Unpaid Obligated Balance, Net, End of Period
                              	 Unpaid Obligations                                       $ 11,297,687        $ 2,224,426           $        325,325     $ 1,171,443           $        275,632    $      86,651      $       323,283    $ 1,206,871 $             5,159    $ 3,385,918        $        206     $       174,288     $ 2,118,485
                              	 Less: Uncollected Customer Payments                        	 (646,638)         	 (504,020)             	       (298)      	        -              	          -        	 (16,431)         	         -      	       -   	                -     	        -           	       -        	          -     	 (125,889)
                              TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD $ 10,651,049                $ 1,720,406           $        325,027     $ 1,171,443           $        275,632    $        70,220    $       323,283    $ 1,206,871 $             5,159    $ 3,385,918        $        206     $       174,288     $ 1,992,596

                              NET OUTLAYS:
                              Gross Outlays                                              $ 14,085,158        $ 3,745,834           $ 2,117,449          $ 1,496,896           $        335,179    $ 473,061          $ 1,198,507 $ 353,798 $   29,263                      $       739,945    $          11    $       145,205     $ 3,450,010
                              Less: Offsetting Collections                                 	 (4,098,261)       	 (284,513)           	(2,309,041)         	    (148)              	     (1,239)     	 (22,593)        	 (10,514)  	 (1,216)  	   (288)                         	      (320)       	    (133)       	        (17)    	(1,468,239)
                              Less: Distributed Offsetting (Receipts)/Outlays, Net         	     (33,570)      	         -           	          -         	        -              	          -      	        -        	        -  	       -  	       -                         	          -       	        -       	          -     	 (33,570)
                              NET OUTLAYS                                                $       9,953,327   $ 3,461,321           $ 	 (191,592) $ 1,496,748                  $        333,940    $ 450,468          $ 1,187,993        $       352,582 $        28,975    $       739,625    $ 	      (122) $         145,188     $ 1,948,201




             273
                                                                                                                                                                                                                                                                                                                                                        R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




 274
                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                    R equ i r ed
        S u pp l e m e n ta r y
         S t e wa r d s h i p
          I n f o r m at i o n
                        (UNAUDITED)
                          REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




Required Supplementary Stewardship
Information (unaudited)
Stewardship Investments

Stewardship investments are substantial investments made by the federal government for the benefit of the nation, but are not
physical assets owned by the federal government. Though treated as expenses when incurred to determine the Department’s
Net Cost of Operations, these items merit special treatment so that users of federal financial reports know the extent of
investments that are made for the long-term benefit of the nation.

Investments in Non-federal Physical Property:

Non-federal physical property investments are expenses included in the Department’s Net Cost of Operations for the purchase,
construction, or major renovation of physical property owned by state and local governments. Based on a review of the
Department’s programs, NOAA and EDA have significant investments in non-federal physical property.

NOAA:

     National Estuarine Research Reserves (NERR): The NERR system consists of 28 estuarine reserves protected by
     federal, state, and local partnerships that work to preserve and protect the nation’s estuaries. The NERR system helps to
     fulfill NOAA’s stewardship mission to sustain healthy coasts by improving the nation’s understanding and stewardship of
     estuaries. Estuarine reserves are the areas where freshwater from rivers meet the ocean. These areas are known as bays,
     swamps, sloughs, and sounds. These important coastal habitats are used as spawning grounds and nurseries for the nation’s
     commercial fish and shellfish. Estuaries filter much of the polluted runoff from rivers and streams that would otherwise
     contaminate oceans. The reserves were created with the passage of the Coastal Zone Management Act of 1972, and, as of
     September 30, 2011, encompassed approximately 1.4 million acres of estuarine waters, wetlands, and uplands. The newest
     reserve, Lake Superior, WI, was designated on October 26, 2010. NERRs are state-operated and managed in cooperation with
     NOAA. NOAA’s investments in non-federal physical property are for the acquisition of lands and development or construction
     of facilities, auxiliary structures, and public access routes for any NERR site.

     Coastal and Estuarine Land Conservation Program: This program was established under the Commerce, Justice, and
     State Appropriations Act of 2002, “for the purpose of protecting important coastal and estuarine areas that have significant
     conservation, recreation, ecological, historical, or aesthetic values, or that are threatened by conversion from their natural
     or recreational state to other uses.” The investments in non-federal physical property include matching grants awarded to
     state and local governments for land acquisition in coastal and estuarine areas. Since FY 2002, matching grants have been
     directed to 208 such projects.

     Coastal Zone Management Fund: The Coastal Zone Management Program is authorized by the Coastal Zone Management
     Act of 1972, and administered at the federal level by NOAA’s Office of Ocean and Coastal Resource Management. The
     investments in non-federal physical property include incidental expenses of land acquisition, and low-cost construction
     on behalf of various state and local governments, for the purpose of preservation or restoration of coastal resources and
     habitats. NOAA’s financing supports various coastal states in their redevelopment of deteriorating and urbanized waterfronts
     and ports, as well as providing for public access to beaches and coastal areas. The state and local governments receive
     funding for these investments through NOAA grant expenditures, and these grant expenditures also include funding for




                                                                                                                             277
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   purposes other than the investments in non-federal physical property. There is currently not in place a mechanism for the
   state and local governments to determine and report to NOAA the amount of monies they expend for the investments
   in non-federal physical property. The Department, accordingly, cannot report the amount of investments in non-federal
   physical property for the Coastal Zone Management Fund.

   NOAA’s investments in non-federal physical property for FY 2007 through FY 2011 were as follows:
   (In Millions)

                           Program                         FY 2007      FY 2008     FY 2009      FY 2010      FY 2011             Total
       National Estuarine Research Reserves                $    11.6    $   11.8    $    11.7    $    14.7    $     5.5       $     55.3
       Coastal and Estuarine Land Conservation Program          34.7        28.1         21.6         32.4          6.9            123.7
       Total                                               $    46.3    $   39.9    $    33.3    $    47.1    $    12.4       $ 179.0


EDA:
   Public Works: The Public Works program promotes long-range economic development in distressed areas by providing
   investments for vital public infrastructure and development facilities. These critical investments enable communities to
   attract new, or support existing, businesses that will generate new jobs and income for unemployed and underemployed
   residents. Among the types of projects funded are water, sewer, fiber optics, access roads, and facilities such as industrial
   and business parks, business incubator and skill training facilities, and port improvements.

   Economic and Defense Adjustments: The Economic and Defense Adjustments program provides flexible investments
   for communities facing sudden or severe economic distress to diversify and stabilize its economy. Factors that
   seriously threaten the economic survival of local communities include essential plant closures, military base closures or
   realignments, defense laboratory or contractor downsizings, natural resource depletion, out-migration, under-employment,
   and destructive impacts of foreign trade.

   Global Climate Change Mitigation Incentive Fund (GCCMIF): The GCCMIF program was established to strengthen
   the linkage between economic development and environmental quality. The purpose and mission of the GCCMIF program
   is to finance projects that foster economic development by advancing the green economy in distressed communities.
   The GCCMIF program is the development and use of products and services that contribute to economic growth and
   alleviate economic distress by respecting and revitalizing the environment. The GCCMIF program supports projects that
   create jobs through, and increase private capital investment in, efforts to limit the nation’s dependence on fossil fuels,
   enhance energy efficiency, curb greenhouse gas emissions, and protect natural systems.

   Disaster Recovery: The Disaster Recovery program awards grants for the repair of infrastructure and economic
   development-related facilities damaged by floods and other natural disasters. Funding for the Disaster Recovery program is
   generally through supplemental funding from Congress for recovery efforts to save, sustain, and preserve private enterprise
   and job creation in economically distressed communities.




 278
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
                           REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     EDA’s investments in non-federal physical property for FY 2007 through FY 2011 were as follows:
     (In Millions)

                            Program                          FY 2007         FY 2008       FY 2009     FY 2010     FY 2011         Total
       Public Works                                          $       155.5   $   133.5     $   139.9   $   175.8   $   224.4   $      829.1
       Economic and Defense Adjustments                               53.5         60.0         68.6        61.4        47.6          291.1
       Global Climate Change Mitigation Incentive Fund           	       -             -         0.2         5.5         6.8           12.5
       Disaster Recovery                                               4.4          1.8          6.3        32.4        85.1          130.0
       Total                                                 $       213.4   $   195.3     $   215.0   $   275.1   $   363.9   $    1,262.7

     The above investments require matching funds by state and local governments of 20 to 50 percent.

Investments in Human Capital:

Human capital investments are expenses, included in the Department’s Net Cost of Operations, for education and training
programs that are intended to increase or maintain national economic productive capacity and produce outputs and outcomes that
provide evidence of the constant or increasing national productive capacity. These investments exclude education and training
expenses for federal civilian and military personnel. Based on a review of the Department’s programs, the most significant dollar
investments in human capital are by NOAA.

NOAA:

     National Sea Grant College Program: Sea Grant is a nationwide network, administered through NOAA, of 32 university-
     based programs that work with coastal communities. With the adoption in 1966 of the National Sea Grant College Act,
     Congress established an academic/industry/government partnership that would enhance the nation’s education, economy,
     and environment into the 21st century. The program supports activities designed to increase public awareness of coastal,
     ocean, and Great Lakes issues, to provide information to improve management decisions in coastal, ocean, and Great
     Lakes policy, and to train graduate students in marine and Great Lakes science. The Knauss Fellowship Program offers
     qualified masters and doctoral students the opportunity to spend a year working on marine and Great Lakes policy issues
     with the Executive and Legislative branches of the federal government. The program awarded 12 fellowships in FY 2011.
     There is also a Graduate Fellowship Program for Ph.D. candidates in the specialized areas of population dynamics and
     marine resource economics. Participants in this program can receive up to three years of funding. 10 fellowships were
     awarded in FY 2011.

     National Estuarine Research Reserve Program: This program supports activities designed to increase public awareness
     of estuary issues, provide information to improve management decisions in estuarine areas, and train graduate students
     in estuarine science. The National Estuarine Research Reserve System’s Graduate Research Fellowship (GRF) Program
     offers qualified masters and doctoral students the opportunity to address scientific questions of local, regional, and national
     significance. The result is high-quality research focused on improving coastal management issues. All GRF projects must be
     conducted in a National Estuarine Research Reserve and enhance the scientific understanding of the reserve’s ecosystem.
     The program awarded 50 fellowships in FY 2010. In FY 2011, 47 fellowships were awarded.

     Educational Partnership Program: The NOAA Educational Partnership Program (EPP) with Minority Serving
     Institutions (MSI) provides financial assistance through competitive processes to minority serving institutions that support
     research and training of students in NOAA-related sciences. The program’s goal is to increase the number of trained and




                                                                                                                                       279
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   graduated students from underrepresented communities in science and technology directly related to NOAA’s mission. The
   EPP/MSI also seeks to increase collaborative research efforts between NOAA scientists and researchers at minority serving
   academic institutions. Financial assistance is provided through four competitive program components: the Cooperative
   Science Centers, the Environmental Entrepreneurship Program, the Graduate Sciences Program, and the Undergraduate
   Scholars Program.

   NOAA provides funding to eligible MSIs on a competitive basis to educate, train, and graduate students in NOAA sciences,
   particularly atmospheric, oceanic, environmental, living marine resources, remote sensing, and scientific environmental
   technology. NOAA EPP Cooperative Science Centers’ goals are to:

       ●●   Train and graduate students, particularly from underrepresented communities, in NOAA mission sciences;

       ●●   Develop expertise in a NOAA scientific area;

            •	 Strengthen and build capacity in a NOAA scientific and management area

            •	 Build research experience in a NOAA scientific and management area

       ●●   Increase graduation rates of students from underrepresented communities in NOAA mission sciences;

       ●●   Impact NOAA workforce statistics by increasing representation from underrepresented communities in NOAA mission
            sciences; and

       ●●   Leverage NOAA funds to build the education and research capacity at MSIs.

   The EPP/MSI Environmental Entrepreneurship Program (EEP) provides funding to eligible minority serving institutions on
   a competitive basis to engage students to pursue advanced academic study and entrepreneurship opportunities in the
   NOAA-related sciences. NOAA’s EEP supports student training and experiential learning opportunities for the purpose of
   stimulating job creation and business development, and revitalizing local communities. EEP’s objective is to increase the
   number of students at MSIs proficient in environmental business enterprises.

   The Graduate Sciences Program (GSP) is aimed primarily at increasing opportunities for students in NOAA-related
   fields to pursue research and educational training in atmospheric, environmental, remote sensing, and oceanic
   sciences at MSIs when possible. GSP offers between two years (master’s candidates) to four years (doctoral students)
   of NOAA-related research and training opportunities. GSP provides college graduates entry-level employment and
   hands-on research and work experience at NOAA. 6 students were selected to participate in GSP in FY 2010.
   NOAA did not select any of the elegible applicants as student trainees in FY 2011.

   The Undergraduate Scholarship Program is designed to increase the number of students who undertake course work and
   graduate with degrees in the targeted areas integral to NOAA’s mission. Appointments are for two years, and are made
   to students who have recently declared or are about to declare a major in atmospheric, oceanic, or environmental science.
   The students participate in research, training, and development activities at NOAA offices and facilities during two summer
   internships. The program added 10 students in FY 2010. The program added 11 students in FY 2011.

   Ernest F. Hollings Undergraduate Scholarship Program: This program was established in 2005 to (1) increase
   undergraduate training in oceanic and atmospheric science, research, technology, and education, and foster
   multidisciplinary training opportunities; (2) increase public understanding and support for stewardship of the ocean and




 280
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                          REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     atmosphere and improve environmental literacy; (3) recruit and prepare students for public service careers with NOAA
     and other agencies at the federal, state, and local levels of government; and (4) recruit and prepare students for careers
     as teachers and educators in oceanic and atmospheric science and to improve scientific and environmental education
     in the U.S. The program added 139 students in FY 2010. The program added 104 students in FY 2011.

     The NOAA Office of Education selected 104 Hollings scholars and 11 EPP Undergraduates scholars for the Class of 2011.
     They live and attend universities in 40 states across the U.S. They are majoring in the following Science, Technology,
     Engineering, and Mathematics fields: Mathematics; Meteorology; Engineering; Biology; Chemistry; Climatology; Computer
     Science; Earth Sciences; Economics; Science Teachers; Physical Sciences; and Science Policy.

     Southeast Fisheries Science Center’s Recruiting Training Research Program: This is a joint program between NMFS
     and Virginia Tech to: (1) recruit top undergraduates into the field of fisheries population dynamics and careers with NMFS;
     (2) train graduate students; and (3) conduct population dynamics and stock assessment research in support of the NMFS
     mission. The program also offers graduate courses and workshops in computer programming, simulation modeling, and
     fish population dynamics. In FY 2010, 15 undergraduate students from across the country participated in a week-long
     undergraduate workshop, 8 students participated in a six-week summer program, and 3 M.S. students were supported by
     the program at Virginia Tech. In FY 2011, 20 undergraduate students from across the country participated in a week-long
     undergraduate workshop, 4 students participated in a six-week summer program, and 3 M.S. students were supported by
     the program at Virginia Tech.

     Northeast Fisheries Science Center (NEFSC) Partnership Education Program (PEP): The NEFSC of NOAA’s National
     Marine Fisheries Service leads a consortium of six science institutions in Woods Hole, MA., offering a ten-week summer
     program that combines undergraduate course work with research in marine and environmental science. Launched in 2009,
     PEP is an ongoing diversity program designed to recruit talent from minority groups that are under-represented in marine
     and environmental sciences. PEP recruitment targets college students with priority given to entering juniors and seniors
     majoring in the natural sciences who have had some course work in marine and/or environmental science. The program
     includes a credit course taught in Woods Hole by research scientists from Woods Hole science institutions, student research
     projects, and presentation of research results in a one-day seminar. Participants receive financial support for tuition, travel,
     and room and board, as well as a stipend. In FY 2011, 15 students participated in the ten-week summer program.

     Northeast Fisheries Science Center Bradford E. Brown Student Internship Program: The NEFSC has named its
     student intern program after Dr. Bradford Brown, a retired NOAA Fisheries Service scientist who was a leader in recruiting
     young people into fishery science. The program is open to active undergraduate and graduate students. Research topics
     include population biology and dynamics, resource assessment and environmental surveys, taxonomy, physical and biological
     oceanography, social sciences, data management, larval fish/plankton ecology, large marine ecosystems, aquaculture,
     biotechnology, remote sensing, protected species, and apex predators. Summer positions are offered throughout NEFSC
     laboratories, which are located in Woods Hole, MA; Narragansett, RI; Milford, CT; Highlands, NJ; Washington, DC; and
     Orono, ME. In FY 2011, 14 students participated in the student intern program.

     Woods Hole Science Aquarium (WHSA) High School Intern Program: WHSA offers three summer programs for
     students who have completed grades 10, 11, or 12. The programs are run by WHSA staff, and are projects of the NEFSC of
     NOAA’s National Marine Fisheries Service and the Marine Biological Laboratory. Interns selected for the five-week program
     work in the aquarium, help lead public collecting walks, and participate in the Careers in Marine Science seminars. The one
     and two-week Careers in Marine Science seminars consist of short presentations by marine scientists, activities, and field




                                                                                                                               281
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   trips that introduce students to marine-related careers. All students learn basic animal husbandry and aquarist skills, visit the
   local Woods Hole research institutions, meet with working scientists in a variety of fields, and visit area aquariums, zoos,
   and waterfronts. 17 students participated in the three summer programs in FY 2011.

   Pacific Islands Fisheries Science Center (PIFSC) Student Intern Program (PSIP): PSIP offers qualified college
   students professional work experience and formal training opportunities tailored to meet their educational and professional
   goals and interests. PSIP is a paid, summer-long (8-12 weeks) program that combines on-the-job training, formal training,
   one-to-one mentoring, and developmental assignments at PIFSC. Internship opportunities are established in specific PIFSC
   projects. Program components include:

       ●●   Performance Plans to establish goals and timelines for the intern’s work assignments (established in meetings between
            intern and mentor)

       ●●   Periodic meetings between intern and mentor to check on progress (includes a mid-point review and final review)

       ●●   Inclusion of intern in PIFSC staff activities (division meetings, all-hands meetings, training, and other activities)

       ●●   Program wrap up: Interns and mentors hold a final meeting to review final products and discuss the internship
            experience

       ●●   Evaluations: Interns and mentors complete a program evaluation to provide feedback that will help PIFSC improve the
            structure of the internship program

   In addition to the individual and group mentoring by PIFSC staff, PSIP interns are encouraged to synergize with each other
   and with other undergraduate and graduate interns at PIFSC. In FY 2011, PIFSC scientists hosted three undergraduate
   summer interns; one each in PIFSC’s Socioeconomics Program, Coral Reef Ecosystems Division, and Ecosystems and
   Oceanography Division.

   The following table summarizes NOAA’s investments in human capital for FY 2007 through FY 2011:

   (In Millions)

                                 Program                             FY 2007    FY 2008     FY 2009       FY 2010     FY 2011          Total
       National Sea Grant College Program                            $    0.5   $    0.5    $       0.7   $    0.9    $    0.8     $      3.4
       National Estuarine Research Reserve Program                        0.8        0.8            1.0        1.3         1.5            5.4
       Educational Partnership Program                                   14.2       12.8           15.0       14.3        14.3           70.6
       Ernest F. Hollings Undergraduate Scholarship Program               4.1        3.6            3.6        4.6         4.5           20.4
       Southeast Fisheries Science Center’s Recruiting Training
       Research Program                                                   N/A        N/A            0.4        0.5         0.5            1.4
       Northeast Fisheries Science Center Partnership Education
       Program                                                            N/A        N/A              -           -        0.2            0.2
       Northeast Fisheries Science Center Bradford E. Brown
       Student Internship Program                                         N/A        N/A           N/A        N/A          0.2            0.2
       Total                                                         $   19.6   $   17.7    $      20.7   $   21.6    $   22.0     $    101.6
       N/A = Not Applicable




 282
                                                   F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y   R E P O R T
                          REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     The following table further summarizes NOAA’s human capital investments for FY 2007 to FY 2011 by performance
     goal:

     (In Millions)

                        Performance Outcome                           FY 2007            FY 2008         FY 2009     FY 2010        FY 2011
        Protect, Restore, and Manage the Use of Coastal and            	                  	               	              	              	
        Ocean Resources                                           $        19.6      $        17.7   $        20.7   $       21.6           N/A
        Increase Scientific Knowledge and Provide Information
        to Stakeholders to Support Economic Growth and to              	                  	               	              	              	
        Improve Innovation, Technology, and Public Safety                  N/A                N/A             N/A            N/A    $       22.0
        N/A = Not Applicable


Investments in Research and Development (R&D):

Investments in R&D are expenses that are included in the Department’s Net Cost of Operations. The investments
are divided into three categories: (1) basic research, the systematic study to gain knowledge or understanding of the
fundamental aspects of phenomena and of observable facts without specific applications toward processes or products in
mind; (2) applied research, the systematic study to gain knowledge or understanding necessary for determining the means
by which a recognized and specific need may be met; and (3) development, the systematic use of the knowledge and
understanding gained from research for the production of useful materials, devices, systems, or methods, including the
design and development of prototypes and processes. The investments are made with the expectation of maintaining or
increasing national economic productive capacity, or yielding other future economic or societal benefits. Based on a review
of the Department’s programs, the only significant investments in R&D are by NIST and NOAA.

NIST:

     NIST Laboratories Program:

     NIST Laboratories have been the stewards of the nation’s measurement infrastructure since their inception in 1901 as
     the National Bureau of Standards. NIST Laboratories foster scientific and technological leadership by helping the U.S.
     to drive and take advantage of the increased pace of technological change, fostering more efficient transactions in
     the domestic and global marketplace, and addressing other critical needs assigned to NIST by the Administration and
     Congress. In support of the President’s Plan for Science and Innovation, NIST develops and disseminates measurement
     techniques, reference data, test methods, standards, and other infrastructural technologies and services required by
     U.S. industry, government, and academia to compete in the 21st century. NIST laboratories promote innovation,
     facilitate trade, and ensure public safety and security by strengthening the nation’s measurement and standards
     infrastructure.

     NIST Laboratories work at the frontiers of measurement science to ensure that the U.S. system of measurements is
     firmly grounded on a sound scientific and technical foundation. NIST promotes the use of measurements based on
     the international system of units. The measurement science research at NIST is useful to all science and engineering
     disciplines. NIST Laboratories directly support U.S. innovation and industrial competitiveness by developing new
     measurement instruments and facilities to address critical barriers to innovation; disseminating validated measurement
     methods and protocols; providing reference data, reference materials, and calibration services to ensure that industry-
     performed measurements are traceable to NIST standards; and developing testing protocols and supporting laboratory




                                                                                                                                             283
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   accreditation programs. NIST works actively with other metrology institutes from around the world to ensure that the
   global marketplace is supported with sound measurements and standards.

   NIST Laboratories also support the development of written standards and specifications that define technical and
   performance requirements for goods and services. These standards, also known as documentary standards, are often
   developed collaboratively with the private sector through an open, consensus-based process. NIST scientists and
   engineers lend their expertise to these efforts in order to promote standards that are based on sound science and to
   ensure that the standards are supported by effective measurements and testing for conformity to the standards.

   Primary areas being researched with the program’s base resources include:

       ●●   Maintaining and disseminating national measurement standards;

       ●●   Developing new measurement technologies and ways to tie needed measurements to fundamental national
            standards;

       ●●   Developing, maintaining, and improving existing measurement science, services, references, and standards; and

       ●●   Pursuing basic and applied research in measurement areas within NIST’s mission.

   The work performed by NIST Laboratories affects many aspects of daily life in the U.S. Examples include:

       ●●   Providing the measurement science and standards needed for technologies that address rising energy costs, scarcity
            of fossil fuels, and environmental impacts of energy consumption;

       ●●   Ensuring that the national infrastructure of measurement methods, standards, data, and data technologies is sufficient
            to help U.S. industry develop, evaluate, and implement sustainable business practices in areas such as chemicals,
            materials, processes, manufacturing methods, and products;

       ●●   Enabling U.S. industries to innovate and compete in global trade by providing the ability to measure and precisely control
            production processes using measurements traceable to internationally recognized standards;

       ●●   Establishing measurements and standards that are necessary for fundamental business services and communications;
            and

       ●●   Providing the measurement assurance behind sensitive detection systems for homeland security, such as for detecting
            chemical, biological, explosive, and radiological weapons.

   The American Recovery and Reinvestment Act of 2009 included $250 million (including transfers from the U.S.
   Department of Health and Human Services, and the U.S. Department of Energy) in funding for NIST laboratory research,
   measurements, and other services supporting economic growth and U.S. innovation through funding of such items as
   competitive grants, research fellowships, advanced measurement equipment and supplies, standards-related research
   that supports the security and interoperability of electronic medical records to reduce health care costs and improve
   the quality of care, and development of a comprehensive framework for a nationwide, fully interoperable smart grid
   for the U.S. electric power system. This funding will result in additional R&D investments for the NIST Laboratories
   Program.




 284
                                                  F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                            REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     Advanced Technology Program (ATP)/Technology Innovation Program (TIP):

     ATP was a cost-shared funding program for businesses that was intended to develop new technologies for commercial
     use. ATP was abolished by the America COMPETES Act, which was signed into law by President Bush on August 9, 2007.
     This same Act established TIP, which supports, promotes, and accelerates innovation in the United States by offering cost-
     shared funding for high-risk, high-reward research in areas of critical national need.

     Critical national need areas in TIP are those for which government attention is demanded because the magnitude of the
     problem is large and the societal challenges that need to be overcome are not being addressed. TIP was explicitly established
     within NIST to assist U.S. small- and medium-size businesses, institutes of higher education, national laboratories, and non-
     profit research organizations to conduct high-risk, high-reward research that has the potential for yielding transformational
     results with wide-reaching implications, and that is within NIST’s areas of technical competence. The America COMPETES
     Act statute allows for continued support for previously awarded ATP projects and new TIP awards.

     The following table summarizes NIST’s R&D investments for FY 2007 through FY 2011 by R&D Category:

     (In Millions)

                                                                         Advanced Technology Program/
                                     NIST Laboratories                   Technology Innovation Program                                         Total

                           FY       FY        FY       FY       FY      FY       FY           FY           FY       FY          FY      FY      FY        FY       FY
       R&D Category       2007     2008      2009     2010     2011    2007     2008         2009         2010     2011        2007    2008    2009      2010     2011

       Basic Research     $ 110.7 $ 132.8 $ 144.9 $ 162.0 $ 185.3 $           - $        - $        - $          - $       - $ 110.7 $ 132.8 $ 144.9 $ 162.0 $ 185.3

       Applied Research    345.3    381.0    378.5     395.9   377.8    31.0        23.2       25.0        26.2         22.1   376.3   404.2   403.5      422.1   399.9

       Development          15.3     14.4     15.4      15.3    19.4    30.9        23.2       25.1        26.2         22.1    46.2    37.6    40.5       41.5    41.5

       Total              $ 471.3 $ 528.2 $ 538.8 $ 573.2 $ 582.5 $ 61.9 $ 46.4 $ 50.1 $ 52.4 $ 44.2 $ 533.2 $ 574.6 $ 588.9 $ 625.6 $ 626.7



     The following tables further summarize NIST’s R&D investments for FY 2007 through FY 2011 by performance outcome.

     In Millions)

                                                                         FY 2011
                                                                                          Basic               Applied
                                 Performance Outcome                                                                            Development            Total
                                                                                         Research            Research
       NIST Laboratories: Provide Measurement Tools and Standards to        	
       Strengthen Manufacturing, Enable Innovation, and Increase Efficiency   $                185.3         $         377.8      $     19.4      $     582.5
       Technology Innovation Program: Stimulate High-growth Business
       Formation and Entrepreneurship through Investing in High-risk, High-
       reward Technologies and by Removing Impediments to Accelerate                 	
       Technology Commercialization                                                                   -                 22.1            22.1              44.2
       Total                                                                             $     185.3         $         399.9      $     41.5      $     626.7




                                                                                                                                                           285
F Y   2 0 1 1   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y     R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   (In Millions)

                                                                     FY 2010
                                                                                    Basic          Applied
                             Performance Outcome                                                                Development              Total
                                                                                   Research       Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s         	
       Measurements and Standards Infrastructure                                   $   162.0      $    395.9       $    15.3         $     573.2
       Technology Innovation Program: Promote U.S. Competitiveness by
       Directing Federal Investment and R&D into Areas of Critical National
       Need that Support, Promote and Accelerate High-risk, High-reward        	
       Research in the United States                                                       -            26.2            26.2                52.4
       Total                                                                       $   162.0      $    422.1       $    41.5         $     625.6


   (In Millions)

                                                                     FY 2009
                                                                                    Basic          Applied
                             Performance Outcome                                                                Development              Total
                                                                                   Research       Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s         	
       Measurements and Standards Infrastructure                                   $   144.9      $    378.5       $    15.4         $     538.8
       Technology Innovation Program: Promote U.S. Competitiveness by
       Directing Federal Investment and R&D into Areas of Critical National
       Need that Support, Promote, and Accelerate High-risk, High-reward       	
       Research in the United States                                                       -            25.0            25.1                50.1
       Total                                                                       $   144.9      $    403.5       $    40.5         $     588.9


   (In Millions)

                                                                     FY 2008
                                                                                    Basic          Applied
                             Performance Outcome                                                                Development              Total
                                                                                   Research       Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s         	
       Measurements and Standards Infrastructure                                   $   132.8      $    381.0       $    14.4         $     528.2
       Advanced Technology Program: Accelerate Private Investment in and       	
       Development of High-risk, Broad-impact Technologies                                 -            23.2            23.2                46.4
       Total                                                                       $   132.8      $    404.2       $    37.6         $     574.6




 286
                                                   F Y   2 0 1 1   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y       R E P O R T
                          REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     (In Millions)

                                                                    FY 2007
                                                                                   Basic               Applied
                             Performance Outcome                                                                      Development                Total
                                                                                  Research            Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s        	       	           	       	           	       	          	
       Measurements and Standards Infrastructure                                  $       110.7       $       345.3       $       15.3       $    471.3
       Advanced Technology Program: Accelerate Private Investment in and      	       	           	       	           	       	          	
       Development of High-risk, Broad-impact Technologies                                    -                31.0               30.9              61.9
                                                                                      	                   	                   	
       Total                                                                      $       110.7       $       376.3       $       46.2       $    533.2




NOAA:

     NOAA conducts a substantial program of environmental R&D in support of its mission, much of which is performed to
     improve the United States’ understanding of and ability to predict environmental phenomena. The scope of research
     includes:

      ●●   Improving predictions and warnings associated with the weather, on timescales ranging from minutes to weeks;

      ●●   Improving predictions of climate, on timescales ranging from months to centuries; and

      ●●   Improving understanding of natural relationships to better predict and manage renewable marine resources and coastal
           and ocean ecosystems.

     NOAA also conducts research that is intended to provide a solid scientific basis for environmental policy-making in government.
     Examples of this research include determining the stratospheric ozone-depleting potential of proposed substitutes for
     chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone levels that significantly damage
     crops and forests.

     NOAA conducts most R&D in-house; however, contractors to NOAA undertake most systems R&D. External R&D work
     supported by NOAA includes that undertaken through federal-academic partnerships such as the National Sea Grant College
     Program, the Cooperative Institutes of the Environmental Research Laboratories, the Climate and Global Change Program,
     and the Coastal Ocean Program.

     Here is a brief description of the major R&D programs of NOAA:

     Environmental and Climate: The Office of Oceanic and Atmospheric Research is NOAA’s primary research and
     development office. This office conducts research in three major areas: climate research; weather and air quality research;
     and ocean, coastal, and Great Lakes research. NOAA’s research laboratories, Climate Program Office, and research partners
     conduct a wide range of research into complex climate systems, including the exploration and investigation of ocean
     habitats and resources. NOAA’s research organizations conduct applied research on the upper and lower atmosphere as
     well as the space environment.




                                                                                                                                                     287
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   Fisheries: NOAA’s National Marine Fisheries Service (NMFS) is responsible for the conservation and management of
   living marine resources and their habitat within the Nation’s Exclusive Economic Zone. NMFS manages these resources
   through science-based conservation and management to ensure their continuation as functioning components of
   productive ecosystems, while also affording economic opportunities and enhancing the quality of life for the American
   public. Fishery stocks and protected species are surveyed; catch, bycatch, incidental take, economic and social data are
   collected, and research is conducted to better understand the variables affecting the abundance and variety of marine fishes
   and protected species, their habitat, and the benefits they provide to society. Protection of endangered species, restoration
   of coastal and estuarine fishery habitats, and enforcement of fishery regulations are primary NOAA activities. The research
   and management of living marine resources is conducted in partnership with states, tribes, universities, other countries,
   international organizations, and a broad range of stakeholders who benefit from the use and existence of living marine
   resources and their habitat.

   Marine Operations and Maintenance and Aircraft Services: These efforts support NOAA’s programs requiring
   operating days and flight hours to collect data at sea and in the air. NOAA’s Marine and Aviation Operations manage a wide
   variety of specialized aircraft and ships to complete NOAA’s environmental and scientific missions. The aircraft collect the
   environmental and geographic data essential to NOAA hurricane and other weather and atmospheric research, conduct
   aerial surveys for hydrologic research to help predict flooding potential from snowmelt, and provide support to NOAA’s
   fishery research and marine mammal assessment programs. NOAA’s ship fleet provides oceanographic and atmospheric
   research and fisheries research vessels to support NOAA’s strategic plan elements and mission.

   Weather Service: The National Weather Service conducts applied research and development, building upon research
   conducted by NOAA laboratories and the academic community. Applied meteorological and hydrological research is integral
   to providing more timely and accurate weather, water, and climate services to the public.

   Other Programs: As a national lead for coastal stewardship, National Ocean Service promotes a wide range of research
   activities to create the strong science foundation required to advance the sustainable use of precious coastal systems.
   Understanding of the coastal environment is enhanced through coastal ocean activities that support science and resource
   management programs. The National Environmental Satellite Data and Information Service, through its Office of Research
   and Applications, conducts atmospheric, climatological, and oceanic research into the use of satellite data for monitoring
   environmental characteristics and their changes. It also provides guidance for the development and evolution of spacecraft
   and sensors to meet future needs.

   NOAA’s R&D investments by program for FY 2007 through FY 2011 were as follows:

   (In Millions)

                         Program                    FY 2007         FY 2008        FY 2009          FY 2010         FY 2011           Total
       Environmental and Climate                $      289.3    $      331.2   $      337.0     $      344.1    $      346.4      $    1,648.0
       Fisheries                                        49.3            53.6           55.7             59.9            69.3             287.8
       Marine Operations and Maintenance and
       Aircraft Services                                51.1            51.5           38.4             34.3            34.4             209.7
       Weather Service                                  40.8            56.7           58.4             53.9            54.7             264.5
       Others                                          120.2           111.1          103.8            102.0            98.1             535.2
       Total                                    $      550.7    $      604.1   $      593.3     $      594.2    $      602.9      $    2,945.2




 288
                                               F Y   2 0 1 1   P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y       R E P O R T
                          REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     The following table summarizes NOAA’s R&D investments for FY 2007 through FY 2011 by R&D category:

     (In Millions)

                     R&D Category                        FY 2007        FY 2008           FY 2009            FY 2010          FY 2011          Total
       Applied Research                              $      475.7   $       517.6     $      491.3       $      452.4     $        439.9   $   2,376.9
       Development                                           75.0            86.5            102.0              141.8              163.0         568.3
       Total                                         $      550.7   $       604.1     $      593.3       $      594.2     $        602.9   $   2,945.2



     The following tables further summarize NOAA’s R&D investments for FY 2007 to FY 2011 by performance outcome:

     (In Millions)

                                                                        FY 2011
                                                                                                      Applied
                                     Performance Outcome                                                                Development            Total
                                                                                                     Research
       Increase Scientific Knowledge and Provide Information to Stakeholders to Support
       Economic Growth and to Improve Innovation, Technology, and Public Safety                      $       149.5        $         9.3    $    158.8
       Enable Informed Decision-making through an Expanded Understanding of the U.S.
       Economy, Society, and Environment by Providing Timely, Relevant, Trusted, and
       Accurate Data, Standards, and Services                                                                 48.3                 12.6          60.9
       Improve Weather, Water, and Climate Reporting and Forecasting                                          17.8                 36.9          54.7
       Support Climate Adaptation and Mitigation                                                              97.6                 96.1         193.7
       Develop Sustainable and Resilient Fisheries, Habitats, and Species                                     62.7                  6.6          69.3
       Support Coastal Communities that are Environmentally and Economically Sustainable                      64.0                  1.5          65.5
       Total                                                                                         $       439.9        $       163.0    $    602.9


     (In Millions)

                                                                        FY 2010
                                                                                                      Applied
                                     Performance Outcome                                                                Development            Total
                                                                                                     Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                           $       218.4        $ 	       6.8    $    225.2
       Advance Understanding of Climate Variability and Change                                               125.1            	 84.0            209.1
       Provide Accurate and Timely Weather and Water Information                                             108.0            	 48.4            156.4
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                                0.9            	     2.6           3.5
       Total                                                                                         $       452.4        $ 	141.8         $    594.2




                                                                                                                                                   289
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   (In Millions)

                                                                     FY 2009
                                                                                                Applied
                                     Performance Outcome                                                     Development              Total
                                                                                               Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                     $    211.5       $ 	    8.1        $    219.6
       Advance Understanding of Climate Variability and Change                                      140.4          	 60.5              200.9
       Provide Accurate and Timely Weather and Water Information                                    138.9          	 32.7              171.6
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                       0.5          	   0.7                1.2
       Total                                                                                   $    491.3       $ 	102.0          $    593.3


   (In Millions)

                                                                     FY 2008
                                                                                                Applied
                                     Performance Outcome                                                     Development              Total
                                                                                               Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                     $    229.8       $ 	 11.4          $    241.2
       Advance Understanding of Climate Variability and Change                                      145.9          	 35.7              181.6
       Provide Accurate and Timely Weather and Water Information                                    140.3          	 39.2              179.5
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                       1.6          	   0.2                1.8
       Total                                                                                   $    517.6       $ 	 86.5          $    604.1


   (In Millions)

                                                                     FY 2007
                                                                                                Applied
                                     Performance Outcome                                                     Development              Total
                                                                                               Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources through an
       Ecosystem-based Management                                                              $    225.9       $ 	 12.3          $    238.2
       Understand Climate Variability and Change to Enhance Society's Ability to Plan and
       Respond                                                                                      145.9          	 12.3              158.2
       Serve Society's Needs for Weather and Water Information                                      101.6          	 50.2              151.8
       Support the Nation's Commerce with Information for Safe, Efficient, and
       Environmentally Sound Transportation                                                           2.3          	   0.2                2.5
       Total                                                                                   $    475.7       $ 	 75.0          $    550.7




 290
                                                   F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y       R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                I ndependent
                   Auditors’
                    R eport
                                                                                     I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                November 14, 2011


                MEMORANDUM FOR:                 The Honorable John E. Bryson
                                                The Secretary of Commerce



                FROM:                           Todd J. Zinser

                SUBJECT:                        FY 2011 Consolidated Financial Statements
                                                Final Report No. OIG-12-009-A

                I am pleased to provide you with the attached audit report, which presents an unqualified opinion
                on the Department of Commerce’s fiscal year 2011 consolidated financial statements. KPMG
                LLP, an independent public accounting firm, performed the audit in accordance with U.S.
                generally accepted government auditing standards and Office of Management and Budget
                Bulletin 07-04, Audit Requirements for Federal Financial Statements, as amended.

                In its audit of the Department, KPMG found

                •   that the financial statements were fairly presented in all material respects and in conformity
                    with U.S. generally accepted accounting principles;

                •   one significant deficiency in internal control over financial reporting related to NOAA’s
                    accounting for satellite costs;

                •   no instances of reportable noncompliance with applicable laws, regulations, contracts, and
                    grant agreements; and

                •   no instances in which the Department’s financial management systems did not substantially
                    comply with the requirements of the Federal Financial Management Improvement Act of
                    1996.

                My office oversaw the audit performance. We reviewed KPMG’s report and related
                documentation and made inquiries of its representatives. Our review disclosed no instances
                where KPMG did not comply, in all material respects, with U.S. generally accepted government
                auditing standards. However, our review cannot be construed as an audit in accordance with
                these standards; it was not intended to enable us to express—nor do we express—any opinion on
                the Department’s consolidated financial statements, conclusions about the effectiveness of
                internal controls, or conclusions on compliance with laws, regulations, contracts, and grant
                agreements. KPMG is solely responsible for the attached audit report, dated November 14, 2011,
                and the conclusions expressed in the report.




                                                                                                                                 293
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




            If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C.
            Eilers, Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.

            We appreciate the cooperation and courtesies the Department extended to both KPMG and my
            staff during the audit.


            Attachment


            cc:    Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration




 294
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                          I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                                                 KPMG LLP
                                                 2001 M Street, NW
                                                 Washington, DC 20036-3389



                                                  INDEPENDENT AUDITORS’ REPORT


                 Inspector General, U.S. Department of Commerce and
                 Secretary, U.S. Department of Commerce:

                 We have audited the accompanying consolidated balance sheets of the U.S. Department of Commerce
                 (Department) as of September 30, 2011 and 2010, and the related consolidated statements of net cost and
                 changes in net position, and combined statements of budgetary resources (hereinafter referred to as
                 consolidated financial statements) for the years then ended. The objective of our audits was to express an
                 opinion on the fair presentation of these consolidated financial statements. In connection with our fiscal
                 year 2011 audit, we also considered the Department’s internal controls over financial reporting and tested
                 the Department’s compliance with certain provisions of applicable laws, regulations, contracts, and grant
                 agreements that could have a direct and material effect on these consolidated financial statements.

                 Summary

                 As stated in our opinion on the consolidated financial statements, we concluded that the Department’s
                 consolidated financial statements as of and for the years ended September 30, 2011 and 2010, are presented
                 fairly, in all material respects, in conformity with U.S. generally accepted accounting principles.

                 Our consideration of internal control over financial reporting resulted in identifying certain deficiencies,
                 related to weaknesses in accounting for the National Oceanic and Atmospheric Administration (NOAA)
                 satellite construction costs that we consider to be a significant deficiency, as defined in the Internal Control
                 Over Financial Reporting section of this report. We did not identify any deficiencies in internal control
                 over financial reporting that we consider to be material weaknesses as defined in the Internal Control Over
                 Financial Reporting section of this report.

                 The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
                 agreements disclosed no instances of noncompliance that are required to be reported under Government
                 Auditing Standards, issued by the Comptroller General of the United States, and Office of Management
                 and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

                 The following sections discuss our opinion on the Department’s consolidated financial statements; our
                 consideration of the Department’s internal controls over financial reporting; our tests of the Department’s
                 compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements; and
                 management’s and our responsibilities.

                 Opinion on the Consolidated Financial Statements

                 We have audited the accompanying consolidated balance sheets of the U.S. Department of Commerce as of
                 September 30, 2011 and 2010, and the related consolidated statements of net cost and changes in net
                 position, and the combined statements of budgetary resources for the years then ended.




                                                 KPMG LLP is a Delaware limited liability partnership,
                                                 the U.S. member firm of KPMG International Cooperative
                                                 (“KPMG International”), a Swiss entity.




                                                                                                                                                      295
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y                 R E P O R T
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




               In our opinion, the consolidated financial statements referred to above present fairly, in all material
               respects, the financial position of the U.S. Department of Commerce as of September 30, 2011 and 2010,
               and its net costs, changes in net position, and budgetary resources for the years then ended, in conformity
               with U.S. generally accepted accounting principles.

               The information in the Management’s Discussion and Analysis (including the Financial Management
               Analysis on pages 181-194), Required Supplementary Stewardship Information, and Required
               Supplementary Information sections is not a required part of the consolidated financial statements, but is
               supplementary information required by U.S. generally accepted accounting principles. We have applied
               certain limited procedures, which consisted principally of inquiries of management regarding the methods
               of measurement and presentation of this information. However, we did not audit this information and,
               accordingly, we express no opinion on it.

               Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
               taken as a whole. The September 30, 2011 consolidating balance sheet on page 265 is presented for
               purposes of additional analysis of the consolidated balance sheet rather than to present the financial
               position of the Department’s bureaus individually. The September 30, 2011 consolidating balance sheet
               has been subjected to the auditing procedures applied in the audit of the consolidated financial statements
               and, in our opinion, is fairly stated, in all material respects, in relation to the September 30, 2011
               consolidated balance sheet taken as a whole. The information in the FY 2011 Performance Section,
               Appendices, and the information on pages VI through XI are presented for purposes of additional analysis
               and are not required as part of the consolidated financial statements. This information has not been
               subjected to auditing procedures and, accordingly, we express no opinion on it.

               Internal Control Over Financial Reporting

               A deficiency in internal control exists when the design or operation of a control does not allow
               management or employees, in the normal course of performing their assigned functions, to prevent, or
               detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
               of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
               the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

               Our consideration of the internal control over financial reporting was for the limited purpose described in
               the Responsibilities section of this report and was not designed to identify all deficiencies in internal
               control over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses.
               In our fiscal year 2011 audit, we did not identify any deficiencies in internal control over financial
               reporting that we consider to be material weaknesses, as defined above. However, we identified the
               following deficiency, discussed in Exhibit I, which we consider to be a significant deficiency in internal
               control over financial reporting. A significant deficiency is a deficiency in internal control that is less
               severe than a material weakness, yet important enough to merit attention by those charged with
               governance.

                   Accounting for NOAA Satellite Construction Costs Needs Improvement. We identified internal
                   control deficiencies relating to the accounting for satellite construction costs. NOAA needs to
                   make improvements in the effective accounting for satellite construction costs and in monitoring of
                   significant events and transactions related to its satellite programs, to ensure that only capitalizable
                   costs are included in construction work in progress (CWIP) and that the balances of satellites,
                   including related CWIP, are fairly stated.

               Exhibit II presents the status of the prior year significant deficiency.




 296
                                                  F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                     I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                  We noted certain additional matters that we reported to management of the Department in two separate
                  documents addressing information technology and other internal control matters, respectively.

                  Compliance and Other Matters

                  The results of our tests of compliance as described in the Responsibilities section of this report, exclusive
                  of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no
                  instances of noncompliance that are required to be reported herein under Government Auditing Standards
                  or OMB Bulletin No. 07-04, as amended.

                  The results of our tests of FFMIA disclosed no instances in which the Department’s financial management
                  systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
                  applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
                  the transaction level.

                  Other Matters: In fiscal year 2011, the Department of Commerce informed us of potential Anti-
                  Deficiency Act compliance matters that are currently being reviewed for the following operating units:
                  U.S. Census Bureau relating to potential obligation for interagency agreements, Economic Development
                  Administration relating to potential obligations in excess of the quarterly apportionment from OMB, and
                  the Office of Inspector General relating to timing of an awarded contract and OMB apportionment. Since
                  the reviews are not complete, the outcome of these matters is not presently known.

                                                                  *******

                  Responsibilities

                  Management’s Responsibilities. Management is responsible for the consolidated financial statements;
                  establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
                  and grant agreements applicable to the Department.

                  Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
                  consolidated financial statements of the Department based on our audits. We conducted our audits in
                  accordance with auditing standards generally accepted in the United States of America; the standards
                  applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
                  General of the United States; and OMB Bulletin No. 07-04, as amended. Those standards and OMB
                  Bulletin No. 07-04, as amended, require that we plan and perform the audits to obtain reasonable assurance
                  about whether the consolidated financial statements are free of material misstatement. An audit includes
                  consideration of internal control over financial reporting as a basis for designing audit procedures that are
                  appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
                  the Department’s internal control over financial reporting. Accordingly, we express no such opinion.

                  An audit also includes:

                  •   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
                      financial statements;
                  •   Assessing the accounting principles used and significant estimates made by management; and
                  •   Evaluating the overall consolidated financial statement presentation.

                  We believe that our audits provide a reasonable basis for our opinion.




                                                                                                                                  297
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




               In planning and performing our fiscal year 2011 audit, we considered the Department’s internal control
               over financial reporting by obtaining an understanding of the Department’s internal control, determining
               whether internal controls had been placed in operation, assessing control risk, and performing tests of
               controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
               consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
               the Department’s internal control over financial reporting. Accordingly, we do not express an opinion on
               the effectiveness of the Department’s internal control over financial reporting. We did not test all internal
               controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
               Act of 1982.

               As part of obtaining reasonable assurance about whether the Department’s fiscal year 2011 consolidated
               financial statements are free of material misstatement, we performed tests of the Department’s compliance
               with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which
               could have a direct and material effect on the determination of the consolidated financial statement
               amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as
               amended, including the provisions referred to in Section 803(a) of FFMIA. We limited our tests of
               compliance to the provisions described in the preceding sentence, and we did not test compliance with all
               laws, regulations, contracts, and grant agreements applicable to the Department. However, providing an
               opinion on compliance with laws, regulations, contracts, and grant agreements was not an objective of our
               audit and, accordingly, we do not express such an opinion.

                                                  ______________________________

               This report is intended solely for the information and use of the Department’s management, the
               Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
               Congress and is not intended to be and should not be used by anyone other than these specified parties.




               November 14, 2011




 298
                                                F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                     I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                  U.S. Department of Commerce
                  Independent Auditors’ Report
                  Exhibit I – Significant Deficiency

                  Accounting for NOAA Satellite Construction Costs Needs Improvement

                  The Department has a substantial investment in general property, plant, and equipment (PP&E).
                  The National Oceanic and Atmospheric Administration (NOAA) accounts for a majority of the
                  Department’s property balances, with construction work-in-progress (CWIP) related to satellites
                  of $4.6 billion and completed satellites with a net book value of $826 million. Accounting for
                  satellites is highly complex; each satellite series/program is accounted for separately; and the
                  construction spans many years, and involves significant contracts and arrangements with
                  contractors and other Government agencies. During our FY 2011 audit, we identified the
                  following matters relating to the accounting for satellite costs, primarily related to CWIP:

                  •   Uncapitalized Satellite Costs. In fiscal year 2011, the National Aeronautics and Space
                      Administration (NASA) billed NOAA approximately $57.6 million for costs incurred in
                      previous fiscal years related to two satellites (the NOAA 19 satellite and the Geostationary
                      Operational Environmental Satellite (GOES) 15 satellite). NOAA added these costs to the
                      completed satellite balances in FY 2011. However, during our audit, we identified an
                      additional $49 million of estimated costs incurred for these satellites that should have been
                      recorded when the satellites were declared operational in prior years. As a result, NOAA
                      recorded an additional adjustment to capitalize these costs in fiscal year 2011.
                  •   Adjustments to CWIP Balances. In fiscal year 2011, NOAA conducted a review of the
                      CWIP costs in its GOES-R Satellite Series and identified $46 million in costs pertaining to
                      studies, designs, and other pre-acquisition costs that had been inappropriately capitalized in
                      CWIP in prior periods. While NOAA implemented new controls that identified this correction,
                      these costs should have been expensed when incurred, rather than in FY 2011. Similar review
                      efforts should be undertaken routinely on this and other satellite series.

                  •   CWIP Reconciliation Not Accurately Prepared. On NOAA’s September 30, 2011 CWIP
                      reconciliation for its GOES-R Satellite Series, the total uncapitalized costs for one project code
                      was inaccurately reported as zero. This balance did not agree to the detailed CWIP balance,
                      amounting to approximately $10 million. Although the financial statement amounts were not
                      misstated as a result of this error, the failure to accurately complete monthly CWIP
                      reconciliations increases the risk that material misstatements in the CWIP balance may not be
                      timely identified, and could result in misstatements of the completed property balances, when
                      a satellite is declared operational. We reported similar findings in fiscal years 2008, 2009, and
                      2010.

                  •   Review and Approval of Certain Payments to NASA. NASA serves as the acquisition agent
                      for the construction of various NOAA satellites. During our internal control testing, NOAA
                      could not provide us with sufficient documentation to evidence NOAA’s Line Office’s review
                      and approval of 13 out of the 20 Intra-governmental Payment and Collection (IPAC) payments
                      to NASA. NOAA informed us that it had recently developed a formal procedure for
                      documenting the review and approval of IPAC payments to NASA; however, this process was




                                                                                                                                 299
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




               U.S. Department of Commerce
               Independent Auditors’ Report
               Exhibit I – Significant Deficiency

                   not implemented in fiscal year 2011. Inaccurate IPAC payments to NASA would result in
                   misstatements to NOAA’s satellite CWIP balance.
               •   Analysis of Costs Related to the JPSS Satellite. In 2010, the Executive Office of the
                   President directed NOAA and the U.S. Air Force to no longer continue to jointly procure the
                   polar-orbiting satellite system, known as National Polar-orbiting Operational Environmental
                   Satellite System (NPOESS). As a result, NOAA transitioned the development of its polar-
                   orbiting satellites to a NOAA-managed Joint Polar Satellite System (JPSS).
                   The transition from NPOESS to JPSS resulted in the need for NOAA to perform an
                   assessment to determine whether or not there were any potential cost impairments arising from
                   changes to the program. NOAA asserted that because of complexities in finalizing the
                   transition, it could not yet determine whether impairment had occurred. However, based on
                   transition activity that did occur in FY 2011, including various contract actions, a more
                   detailed and comprehensive assessment of the recorded CWIP costs transferred to the JPSS
                   program was needed to determine whether impairment charges should be recorded for any
                   satellite components that would not be part of the ultimate JPSS design. At our request, a
                   more detailed analysis was conducted, to determine if the JPSS CWIP balance was fairly
                   stated. Although an impairment adjustment was ultimately not required, the lack of a detailed
                   and timely assessment as to whether recorded satellites CWIP balances could be impaired,
                   could result in a material misstatement of Department’s PP&E balance.
                   The additional analysis that was performed did identify contract termination liabilities that
                   were not previously recorded. As a part of restructuring the NPOESS program, certain
                   instruments/components were terminated from the NPOESS contract. These actions will result
                   in contract claim liabilities, which NOAA will share with the U.S. Air Force, which are
                   probable and reasonably estimable. These contract termination liabilities were recorded as an
                   audit adjustment at September 30, 2011.
               Recommendations
               We recommend that NOAA:
               •   Clarify the CWIP guidance and procedures regarding the accrual of estimated costs for
                   satellites declared operational, and ensure that completed CWIP projects are transferred into
                   PP&E timely.
               •   Ensure that CWIP activity managers receive appropriate training regarding NOAA’s CWIP
                   capitalization policies, to ensure that non-capitalizable costs, such as concept studies, designs,
                   and other pre-acquisition costs, are not included in CWIP.

               •   Ensure that a thorough review of CWIP reconciliations is performed.
               •   Implement the planned procedures to ensure that the manager’s review and approval of IPAC
                   payments to NASA are documented properly.




 300
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                     I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                  U.S. Department of Commerce
                  Independent Auditors’ Report
                  Exhibit I – Significant Deficiency

                  •   Improve procedures for conducting a detailed review of recorded satellite CWIP balances,
                      including analysis of components/costs, to determine if any costs incurred should be written
                      off as impairment charges when components are not used in the final satellite configuration.
                  •   Improve the process to identify and determine the financial statement impact of significant
                      events or transactions related to the satellite program.
                  Management’s Response

                  The Department concurs that improvements and enhancements can be made to accounting for
                  satellite costs. We will develop corrective action plans and ensure timely implementation to
                  address KPMG’s recommendations.




                                                                                                                                 301
F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit II – Status of Prior Year Significant Deficiency

                           Reported                        Prior Year                   Fiscal Year 2011
                            Issue                       Recommendation                       Status

                Financial Management Systems         Need Improvement

                Weaknesses in information            The Department should       During FY 2011, the
                technology access and                monitor bureau actions to   Department implemented
                configuration management             ensure effective            corrective actions to improve
                controls.                            implementation of our       information technology access
                                                     recommendations.            and configuration
                                                                                 management controls relating
                                                                                 to the financial management
                                                                                 systems. This area is no
                                                                                 longer considered to be a
                                                                                 significant deficiency.




 302
                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A ppendices
                                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                 PERFORMANCE AND RESOURCE TABLES




 T 
        o make the report more useful, this FY 2011 Performance and Accountability Report (PAR) reports on targets and measures
        from the FY 2011 Annual Performance Plan (APP)—exhibit 3A of each bureau’s budget. Measures have been modified
        to incorporate any changes made to the FY 2011 budget that appear in the FY 2012 budget. Individual bureau-specific
APPs can be found on the Department Web site at http://www.osec.doc.gov/bmi/budget/budgetsub_perf_strategicplans.htm.
The resource tables with the performance tables are also combined to make the information easier to follow.

In FY 2011, the Department began implementing its new FY 2011-FY 2016 Strategic Plan. In so doing, the Department
restructured the FY 2010 PAR to reflect the structure of the new strategic plan. The Department has applied that new structure
to this FY 2011 PAR. The following tables provide an array of financial and FTE information from FY 2007 to FY 2011, covering a
period of five fiscal years where the information is available. In some cases, performance information is available from FY 2002
onward. The information should help the reader clearly understand the resources expended for each Theme, Strategic Goal, and
Performance Objective.

The system of reporting does not currently allow the Department to report on resources at the performance measure level but
it is the Department’s hope to develop this capability in the future. For a given year, it is important to note that if a performance
measure has been exceeded (more than 125 percent of target), the status box for that year will be shaded blue. If a performance
measure has been met (100 to 125 percent of target), the box is shaded green. The status box for a measure that was slightly
below target (95 to 99 percent of the target) is shaded yellow, while the box for a measure that was definitely not met is shaded
red. In addition, for FY 2008 OMB introduced a new category, “Improved but not met.” In those cases, the box is shaded
orange. No targets that were in the form of text (e.g., a series of milestones met) would ever be considered exceeded since
they cannot be quantified.

The information in the tables will follow the following format:

●● Strategic Theme and Resources
●● Strategic Goal and Resources
●● Performance Objective and Resources
●● Performance Measure


Note: Unless otherwise indicated, measures that do not have FY 2011 targets are not included in any count in this document.
FY 2011 resources for each performance objective may be estimates and may be updated in the budget for FY 2013. FY 2010
resources may have been updated since the FY 2010 PAR.

Target and performance data are tracked back to FY 2002 where available. If a measure was developed after FY 2002, actual
performance data is shown back to the year that the measure first appeared.

FTE = Full-time equivalent employment. All dollar amounts shown are in millions, unless otherwise indicated.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               305
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 1: ECONOMIC GROWTH
                                             ECONOMIC GROWTH TOTAL RESOURCES
                                                    (Dollars in Millions)
                          FY 2007            FY 2008                 FY 2009                 FY 2010                  FY 2011
                          Actual             Actual                  Actual                  Actual                   Actual
 Funding                  $4,581.5           $4,607.2                $4,973.0                $8,295.6                $4,227.4
 FTE                       14,002             14,390                  15,025                  14,959                  15,703



Strategic Goal – Innovation and Entrepreneurship: Develop the tools, systems, policies,
and technologies critical to transforming our economy, fostering U.S. competitiveness, and driving the
development of new businesses

                                     INNOVATION AND ENTREPRENEURSHIP TOTAL RESOURCES
                                                     (Dollars in Millions)
                          FY 2007            FY 2008                 FY 2009                 FY 2010                  FY 2011
                          Actual             Actual                  Actual                  Actual                   Actual
 Funding                  $3,766.3           $3,799.7                $4,055.3                $7,388.1                $3,283.1
 FTE                       11,398             11,925                  12,591                  12,517                 13,190.0



OBJECTIVE 1: Improve intellectual property protection by reducing patent pendency, maintaining trademark pendency, and
increasing the quality of issued patents and trademarks (USPTO)

                                                OBJECTIVE 1 TOTAL RESOURCES
                                                     (Dollars in Millions)
                          FY 2007            FY 2008                 FY 2009                 FY 2010                  FY 2011
                          Actual             Actual                  Actual                  Actual                   Actual
 Funding                  $1,698.0           $1,806.8                $1,813.2                $1,890.3                $2,111.7
 FTE                       7,970              8,821                   9,455                   9,286                   9,842


                                                USPTO PERFORMANCE MEASURE
                                       MEASURE: Final rejection allowance compliance rate
    Year         Status                          Actual                                                 Target
   FY 2011        Met                             95.6%                                             95.6% - 96.5%
   FY 2010        Met                             96.3%                                                 94.5%
   FY 2009        Met                             94.4%                                                  N/A


                                                USPTO PERFORMANCE MEASURE
                                         MEASURE: Non-final in-process compliance rate
    Year         Status                          Actual                                                 Target
   FY 2011        Met                             95.2%                                             94.6% - 95.6%
   FY 2010        Met                             94.9%                                                 94.0%
   FY 2009        Met                             93.6%                                                  N/A




 306                                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                           A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       USPTO PERFORMANCE MEASURE
                                                MEASURE: Patent first action pendency (months)
     Year           Status                              Actual                                           Target
   FY 2011       Slightly Below                          28.0                                             26.3
   FY 2010       Slightly Below                          25.7                                             25.4
   FY 2009            Met                                25.8                                             27.5
   FY 2008            Met                                25.6                                             26.9
   FY 2007          Not Met                              25.3                                             23.7
   FY 2006       Slightly Below                          22.6                                             22.0
   FY 2005            Met                                21.1                                             21.3
   FY 2004            Met                                20.2                                             20.2
   FY 2003            Met                                18.3                                             18.4
   FY 2002          Not Met                              16.7                                             14.7


                                                       USPTO PERFORMANCE MEASURE
                                                  MEASURE: Patent total pendency (months)
     Year           Status                              Actual                                           Target
   FY 2011            Met                                33.7                                             34.8
   FY 2010       Slightly Below                          35.3                                             34.8
   FY 2009            Met                                34.6                                             37.9
   FY 2008            Met                                32.2                                             34.7
   FY 2007            Met                                31.9                                             33.0
   FY 2006            Met                                31.1                                             31.3
   FY 2005            Met                                29.1                                             31.0
   FY 2004            Met                                27.6                                             29.8
   FY 2003            Met                                26.7                                             27.7
   FY 2002            Met                                24.0                                             26.5


                                                       USPTO PERFORMANCE MEASURE
                                            MEASURE: Patent applications filed electronically
     Year           Status                              Actual                                           Target
   FY 2011            Met                               93.1%                                            90.0%
   FY 2010       Slightly Below                         89.5%                                            90.0%
   FY 2009            Met                               82.4%                                            80.0%
   FY 2008            Met                               71.7%                                            69.0%
   FY 2007            Met                               49.3%                                            40.0%
   FY 2006         Exceeded                             14.2%                                            10.0%
                 Improved but
   FY 2005         Not Met                               2.2%                                             4.0%

                 Improved but
   FY 2004         Not Met                               1.5%                                             2.0%

   FY 2003          Not Met                              1.3%                                             2.0%




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                307
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                  USPTO PERFORMANCE MEASURE
                                          MEASURE: Trademark first action compliance rate
    Year         Status                            Actual                                                Target
   FY 2011         Met                             96.5%                                                 95.5%
   FY 2010         Met                             96.6%                                                 95.5%
   FY 2009         Met                             96.4%                                                 95.5%
   FY 2008         Met                             95.8%                                                 95.5%
   FY 2007         Met                             95.9%                                                 95.5%
   FY 2006         Met                             95.7%                                                 93.5%
   FY 2005         Met                             95.3%                                                 92.5%
   FY 2004         Met                             92.1%                                                 91.7%


                                                  USPTO PERFORMANCE MEASURE
                                             MEASURE: Trademark final compliance rate
    Year         Status                            Actual                                                Target
   FY 2011         Met                             97.0%                                                 97.0%
   FY 2010    Slightly Below                       96.8%                                                 97.0%
   FY 2009         Met                             97.6%                                                 97.0%


                                                  USPTO PERFORMANCE MEASURE
                                         MEASURE: Trademark first action pendency (months)
    Year         Status                            Actual                                                Target
   FY 2011         Met                               3.1                                                 2.5-3.5
   FY 2010         Met                               3.0                                                 2.5-3.5
   FY 2009         Met                               2.7                                                 2.5-3.5
   FY 2008         Met                               3.0                                                 2.5-3.5
   FY 2007         Met                               2.9                                                   3.7
   FY 2006         Met                               4.8                                                   5.3
   FY 2005         Met                               6.3                                                   6.4
   FY 2004       Not Met                             6.6                                                   5.4
   FY 2003       Not Met                             5.4                                                   3.0
   FY 2002       Not Met                             4.3                                                   3.0


                                                  USPTO PERFORMANCE MEASURE
                MEASURE: Trademark average total pendency (months), excluding suspended and inter partes proceedings
    Year         Status                            Actual                                                Target
   FY 2011         Met                              10.5                                                  12.5
   FY 2010         Met                              10.5                                                  13.0
   FY 2009         Met                              11.2                                                  13.0




 308                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            USPTO PERFORMANCE MEASURE
                                               MEASURE: Trademark applications processed electronically
     Year           Status                                    Actual                                                   Target
   FY 2011           Met                                      73.0%                                                    68.0%
   FY 2010           Met                                      68.1%                                                    65.0%
   FY 2009           Met                                      62.0%                                                    62.0%



OBJECTIVE 2: Expand international markets for U.S. firms and inventors by improving the protection and enforcement if
intellectual property rights (USPTO)

                                                             OBJECTIVE 2 TOTAL RESOURCES
                                                                  (Dollars in Millions)
                              FY 2007                     FY 2008                    FY 2009                 FY 2010            FY 2011
                              Actual                      Actual                     Actual                  Actual             Actual
 Funding                       $68.4                       $45.7                      $43.2                   $48.7              $49.2
 FTE                            321                         141                        139                     145                150


                                                            USPTO PERFORMANCE MEASURE
                    MEASURE: Percentage of prioritized countries that have implemented at least 75% of action steps in the
                    country-specific action plans toward progress along following dimensions:
                                  1.	   Institutional improvements of IP office administration for advancing IPR
                                  2.	   Institutional improvements of IP enforcement entities
                                  3.	   Improvements in IP laws and regulations
                                  4.	   Establishment of government-to-government cooperative mechanisms
     Year           Status                                    Actual                                                   Target
   FY 2011           Met                                       75%                                                      75%
   FY 2010         Exceeded                                    75%                                                      50%



Objectives 3, 6, and 7

The following 10 measures associated with EDA overlap among the following three different objectives. A crosswalk of these
measures appears after this list followed by the histories of each. While Objective 6 has no other measures other than the ones
noted in this list, Objectives 3 and 7 have separate measures that don’t overlap with each other. These measures are shown
separately under the appropriate goal after this section, along with the funding breakout for all three objectives.

●● Objective 3: Stimulate high-growth business formation and entrepreneurship through investing in high-risk, high-reward
   technologies and by removing impediments to accelerate technology commercialization (EDA, NIST)

●● Objective 6: Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)

●● Objective 7: Promote the vitality and competitiveness of our communities and businesses, particularly those that are
   disadvantaged or in distressed areas (EDA, MBDA)




F Y   2 0 1 1   P E R F O R M A N C E         A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                          309
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                         Performance Measure                                             Objective 3    Objective 6       Objective 7
 Private investment leveraged – 9 year totals (in millions)                                                  3                  3             3
 Private investment leveraged – 6 year totals (in millions)                                                  3                  3             3
 Private investment leveraged – 3 year totals (in millions)                                                  3                  3             3
 Jobs created/retained – 9 year totals                                                                       3                  3             3
 Jobs created/retained – 6 year totals                                                                       3                  3             3
 Jobs created/retained – 3 year totals                                                                       3                  3             3
 Percentage of Economic Development Districts (EDD) and Indian tribes implementing projects
 from the Comprehensive Economic Development Strategy (CEDS) that lead to private investment                 3                                3
 and jobs
 Percentage of sub-state jurisdiction members actively participating in the Economic
                                                                                                             3                                3
 Development District program
 Percentage of University Center clients taking action as a result of University Center assistance           3                                3
 Percentage of those actions taken by University Center clients that achieve the expected results            3                                3


                                                              EDA Performance measure
                                          MEASURE: Private investment leveraged – 9 year totals (in millions)1
     Year              Status                                 Actual                                                   Target
   FY 2011            Exceeded                                $3,960                                                   $1,940
   FY 2010               Met                                  $2,758                                                   $2,410
   FY 2009               Met                                  $2,210                                                   $2,040
   FY 2008            Exceeded                                $4,173                                                   $2,080
   FY 2007            Exceeded                                $1,937                                                   $1,350
   FY 2006            Exceeded                                $2,331                                                   $1,162
 1	EDA tracks the results of its investments and jobs created/retained at 3, 6, and 9 year periods. The FY 2011 actual is a result of investments made
  in FY 2002. Since EDA did not begin tracking results until FY 1997 in this format, 9 year results are not available for the years prior to FY 2006.


                                                              EDA Performance measure
                                          MEASURE: Private investment leveraged – 6 year totals (in millions)1
     Year              Status                                 Actual                                                   Target
   FY 2011            Exceeded                                $1,617                                                   $674
   FY 2010            Exceeded                                $2,281                                                   $824
   FY 2009               Met                                   $855                                                    $810
   FY 2008            Exceeded                                $1,393                                                   $970
   FY 2007            Exceeded                                $2,118                                                   $1,200
   FY 2006               Met                                  $1,059                                                   $1,020
   FY 2005            Exceeded                                $1,781                                                   $1,040
   FY 2004            Exceeded                                $1,740                                                   $650
   FY 2003            Exceeded                                $2,475                                                   $581
 1	This   is the 6 year result measure. FY 2011 actuals are the result of investments made in FY 2005.




  310                                                    F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             EDA Performance measure
                                          MEASURE: Private investment leveraged – 3 year totals (in millions)1
     Year              Status                                Actual                                                   Target
   FY 2011            Exceeded                                $1,475                                                   $245
   FY 2010            Exceeded                                $1,544                                                   $259
   FY 2009            Exceeded                                 $484                                                    $265
   FY 2008            Exceeded                                $1,013                                                   $270
   FY 2007            Exceeded                                 $810                                                    $330
   FY 2006            Exceeded                                $1,669                                                   $320
   FY 2005            Exceeded                                $1,791                                                   $390
   FY 2004            Exceeded                                 $947                                                    $480
   FY 2003            Exceeded                                $1,251                                                   $400
   FY 2002            Exceeded                                 $640                                                    $420
 1	This   is the 3 year result measure. FY 2011 actuals are the result of investments made in FY 2008.


                                                             EDA Performance measure
                                                     MEASURE: Jobs created/retained – 9 year totals1
     Year              Status                                Actual                                                   Target
   FY 2011          Slightly Below                            56,058                                                  57,800
   FY 2010             Not Met                                66,527                                                  72,000
   FY 2009             Not Met                                45,866                                                  56,500
   FY 2008               Met                                  57,701                                                  56,900
   FY 2007            Exceeded                                73,559                                                  54,000
   FY 2006               Met                                  50,546                                                  50,400
 1	EDA tracks the results of its investments and jobs created/retained at 3, 6, and 9 year periods. The FY 2011 actual is a result of investments made
  in FY 2002. Since EDA did not begin tracking results until FY 1997 in this format, 9 year results are not available for the years prior to FY 2006.


                                                             EDA Performance measure
                                                     MEASURE: Jobs created/retained – 6 year totals1
     Year              Status                                Actual                                                   Target
   FY 2011            Exceeded                                26,416                                                  18,193
   FY 2010               Met                                  26,695                                                  22,497
   FY 2009               Met                                  24,533                                                  22,900
   FY 2008               Met                                  30,719                                                  28,900
   FY 2007            Exceeded                                49,806                                                  36,000
   FY 2006            Exceeded                                42,958                                                  28,200
   FY 2005            Exceeded                                47,374                                                  28,400
   FY 2004            Exceeded                                68,109                                                  27,000
   FY 2003            Exceeded                                47,607                                                  25,200
 1	This   is the 6 year result measure. FY 2011 actuals are the result of investments made in FY 2005.




F Y   2 0 1 1     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                 311
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             EDA Performance measure
                                                    MEASURE: Jobs created/retained – 3 year totals1
     Year              Status                                Actual                                                   Target
   FY 2011            Exceeded                                14,842                                                   6,256
   FY 2010            Exceeded                                9,159                                                    6,628
   FY 2009            Exceeded                                9,137                                                    7,019
   FY 2008            Exceeded                                14,819                                                   7,227
   FY 2007            Exceeded                                16,274                                                   8,999
   FY 2006            Exceeded                                11,833                                                   9,170
   FY 2005            Exceeded                                19,672                                                  11,500
   FY 2004            Exceeded                                21,901                                                  14,400
   FY 2003            Exceeded                                39,841                                                  11,300
   FY 2002            Exceeded                                29,912                                                  11,300
 1	This   is the 3 year result measure. FY 2011 actuals are the result of investments made in FY 2008.

The following four measures apply to Objectives 3 and 7, but not Objective 6.


                                                             EDA Performance measure
                   MEASURE: Percentage of Economic Development Districts (EDD) and Indian tribes implementing projects from the
                         Comprehensive Economic Development Strategy (CEDS) that lead to private investment and jobs
     Year              Status                                Actual                                                   Target
   FY 2011             Not Met                                 86%                                                     95%
   FY 2010             Not Met                                 89%                                                     95%
   FY 2009          Slightly Below                             93%                                                     95%
   FY 2008          Slightly Below                             92%                                                     95%
   FY 2007               Met                                   95%                                                     95%
   FY 2006               Met                                   96%                                                     95%
   FY 2005               Met                                   97%                                                     95%
   FY 2004               Met                                   97%                                                     95%
   FY 2003               Met                                   99%                                                     95%




  312                                                    F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          EDA Performance measure
            MEASURE: Percentage of sub-state jurisdiction members actively participating in the Economic Development District program
     Year             Status                              Actual                                                  Target
   FY 2011        Slightly Below                           85%                                                     89%
   FY 2010        Slightly Below                           87%                                                    89-93%
   FY 2009             Met                                 92%                                                    89-93%
   FY 2008             Met                                 90%                                                    89-93%
   FY 2007             Met                                 92%                                                    89-93%
   FY 2006             Met                                 90%                                                    89-93%
   FY 2005             Met                                 91%                                                    89-93%
   FY 2004             Met                                 90%                                                    89-93%
   FY 2003             Met                                 97%                                                    89-93%
   FY 2002             Met                                 95%                                                     93%


                                                          EDA Performance measure
                     MEASURE: Percentage of University Center clients taking action as a result of University Center assistance
     Year             Status                              Actual                                                  Target
   FY 2011           Not Met                               68%                                                     75%
   FY 2010             Met                                 76%                                                     75%
   FY 2009           Not Met                               70%                                                     75%
   FY 2008             Met                                 80%                                                     75%
   FY 2007             Met                                 84%                                                     75%
   FY 2006             Met                                 76%                                                     75%
   FY 2005             Met                                 79%                                                     75%
   FY 2004             Met                                 78%                                                     75%
   FY 2003             Met                                 78%                                                     75%


                                                          EDA Performance measure
                    MEASURE: Percentage of those actions taken by University Center clients that achieve the expected results
     Year             Status                              Actual                                                  Target
   FY 2011             Met                                 83%                                                     80%
   FY 2010             Met                                 90%                                                     80%
   FY 2009             Met                                 92%                                                     80%
   FY 2008             Met                                 84%                                                     80%
   FY 2007             Met                                 89%                                                     80%
   FY 2006             Met                                 82%                                                     80%
   FY 2005             Met                                 87%                                                     80%
   FY 2004             Met                                 88%                                                     80%
   FY 2003             Met                                 86%                                                     80%




F Y   2 0 1 1    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                        313
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Objective 3: Stimulate high-growth business formation and entrepreneurship through investing in high-risk, high-reward
technologies and by removing impediments to accelerate technology commercialization (EDA, NIST)

                                                         OBJECTIVE 3 TOTAL RESOURCES
                                                              (Dollars in Millions)
                             FY 2007                 FY 2008                   FY 2009                   FY 2010                    FY 2011
                             Actual1                 Actual                    Actual                    Actual                     Actual
 Funding                     $215.5                   $198.2                    $248.6                    $202.5                    $231.9
 FTE                          404                      151                       152                       173                       180
 1	ForFY 2007, NIST data is associated with the NIST Advanced Technology Program (ATP) which was discontinued in FY 2007. However, since
  the funding amounts factor into the total for this objective, strategic goal, and theme, this PAR shows these amounts for informational purposes.
  FY 2008 – FY 2011 reflects amounts for the NIST Technology Innovation Program (TIP).


The EDA measures associated with this objective also apply to Objectives 6 and 7. The histories of these measures appear
immediately after Objective 2. The following measures are unique to Objective 3 and are associated with the NIST Technology
Innovation Program (TIP).


                                                         NIST Performance measure
                                              MEASURE: Cumulative number of TIP projects funded
     Year           Status                                Actual                                                      Target
   FY 2011           Met                                    38                                                          38
   FY 2010           Met                                    29                                                          25
   FY 2009           Met                                       9                                                         9

NIST began tracking the following TIP measures in FY 2009, however, the results will not be available until beginning in FY 2012.


                                                         NIST Performance measure
                                                  MEASURE: Cumulative number of publications
     Year           Status                                Actual                                                      Target
   FY 2011           N/A                                   N/A                                                     105 in FY 2014
   FY 2010           N/A                                   N/A                                                     60 in FY 2013
   FY 2009           N/A                                   N/A                                                     24 in FY 2012


                                                         NIST Performance measure
                                              MEASURE: Cumulative number of patent applications
     Year           Status                                Actual                                                      Target
   FY 2011           N/A                                   N/A                                                     35 in FY 2014
   FY 2010           N/A                                   N/A                                                     30 in FY 2013
   FY 2009           N/A                                   N/A                                                     12 in FY 2012


                                                         NIST Performance measure
                                       MEASURE: Cumulative number of projects generating continued R&D
     Year           Status                                Actual                                                      Target
   FY 2011           N/A                                   N/A                                                     18 in FY 2014
   FY 2010           N/A                                   N/A                                                     10 in FY 2013
   FY 2009           N/A                                   N/A                                                      4 in FY 2012


  314                                                F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                       A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                 NIST Performance measure
                                            MEASURE: Cumulative number of projects with technologies under adoption
        Year           Status                                    Actual                                                     Target
   FY 2011                  N/A                                   N/A                                                     9 in FY 2014
   FY 2010                  N/A                                   N/A                                                     5 in FY 2013
   FY 2009                  N/A                                   N/A                                                     2 in FY 2012



Objective 4: Drive innovation by supporting an open global Internet and through communications and broadband policies
that enable robust infrastructure, ensure integrity of the system, and support e-commerce (NTIA)

                                                                OBJECTIVE 4 TOTAL RESOURCES
                                                                     (Dollars in Millions)
                                  FY 2007                    FY 2008                     FY 2009               FY 2010                     FY 2011
                                  Actual                     Actual                      Actual                Actual                      Actual
 Funding                          $1,122.0                    $989.7                  $1,137.9                 $4,396.3                    $118.7
 FTE                                137                        141                      144                      179                        168


                                                                 NTIA Performance measure
                                               MEASURE: Update the spectrum inventory first established in FY 2010
        Year           Status                                    Actual                                                     Target
   FY 2011               Met                                   Completed                                       Spectrum inventory update


                                                                 NTIA Performance measure
                            MEASURE: Identify up to 500 MHz of spectrum to support commercial broadband services or products
        Year           Status                                    Actual                                                     Target
   FY 2011               Met                                   Completed                                         Complete identification


                                                                 NTIA Performance measure
                                             MEASURE: Miles of broadband networks deployed (infrastructure projects)
        Year           Status                                    Actual                                                     Target
   FY 2011            Exceeded                                   18,5451                                                    10,000
 1	As   of June 30, 2011.


                                                                 NTIA Performance measure
                                         MEASURE: Community anchor institutions connected (infrastructure projects)
        Year           Status                                    Actual                                                     Target
   FY 2011                  N/A                                  1,3221,2                                                    3,000
 1	As   of June 30, 2011.
 2	NTIA    is uncertain whether this target will be met since data will not be available until January 2012.


                                                                 NTIA Performance measure
                                   MEASURE: New and upgraded computer workstations (public computer centers projects)
        Year           Status                                    Actual                                                     Target
   FY 2011            Exceeded                                   16,0601                                                    10,000
 1	As   of June 30, 2011.


F Y   2 0 1 1     P E R F O R M A N C E           A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                     315
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NTIA Performance measure
                     MEASURE: New household and business subscribers to broadband (sustainable broadband adoption projects)
        Year           Status                               Actual                                                  Target
   FY 2011            Exceeded                             111,8291                                                 25,000
 1	As   of June 30, 2011.



Objective 5: Provide measurement tools and standards to strengthen manufacturing, enable innovation, and increase
efficiency (NIST)

                                                           OBJECTIVE 5 TOTAL RESOURCES
                                                                (Dollars in Millions)
                                 FY 2007                FY 2008                  FY 2009                  FY 2010                 FY 2011
                                 Actual                 Actual                   Actual                   Actual                  Actual
 Funding                         $662.4                  $759.3                   $812.4                  $850.3                  $771.6
 FTE                             2,566                   2,671                    2,721                    2,734                   2,850


                                                            NIST Performance measure
                              MEASURE: Qualitative assessment and review of technical quality and merit using peer review
        Year           Status                               Actual                                                  Target
   FY 2011              Met                               Completed                                      Complete annual peer review
   FY 2010              Met                               Completed                                      Complete annual peer review
   FY 2009              Met                               Completed                                      Complete annual peer review
   FY 2008              Met                               Completed                                      Complete annual peer review
   FY 2007              Met                               Completed                                      Complete annual peer review
   FY 2006              Met                               Completed                                      Complete annual peer review
   FY 2005              Met                               Completed                                      Complete annual peer review
   FY 2004              Met                               Completed                                      Complete annual peer review
   FY 2003              Met                               Completed                                      Complete annual peer review
   FY 2002              Met                               Completed                                      Complete annual peer review


                                                            NIST Performance measure
                                                MEASURE: Citation impact of NIST-authored publications
        Year           Status                               Actual                                                  Target
   FY 2011              Met                                  >    1.11                                              > 1.1
   FY 2010              Met                                  > 1.1                                                  > 1.1
   FY 2009              Met                                  > 1.1                                                  > 1.1
   FY 2008              Met                                  > 1.1                                                  > 1.1
   FY 2007              Met                                  > 1.1                                                  > 1.1
 1	Actual   for this measure lags nine months. The actual shown here is based on FY 2010 data.




  316                                                   F Y   2 0 1 1    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             NIST Performance measure
                                             MEASURE: Peer-reviewed technical publications produced
     Year             Status                                 Actual                                              Target
   FY 2011            Not Met                                 1,210                                               1,350
   FY 2010         Slightly Below                             1,243                                               1,300
   FY 2009              Met                                   1,463                                               1,275
   FY 2008              Met                                   1,271                                               1,100
   FY 2007              Met                                   1,272                                               1,100
   FY 2006              Met                                   1,163                                               1,100
   FY 2005              Met                                   1,148                                               1,100
   FY 2004            Not Met                                 1,070                                               1,300


                                                             NIST Performance measure
                                                MEASURE: Standard Reference Materials (SRM) sold1
     Year             Status                                 Actual                                              Target
   FY 2011              Met                                  32,864                                              31,000
   FY 2010              Met                                  31,667                                              31,000
   FY 2009         Slightly Below                            29,769                                              31,000
   FY 2008              Met                                  33,373                                              31,000
   FY 2007              Met                                  32,614                                              30,000
   FY 2006              Met                                  31,195                                              30,000
   FY 2005              Met                                  32,163                                              29,500
   FY 2004              Met                                  30,490                                              29,500
   FY 2003            Not Met                                 1,214                                               1,360
   FY 2002              Met                                   1,353                                               1,350
 1	From   FY 2002 – FY 2003 this was SRMs available.


                                                             NIST Performance measure
                                                   MEASURE: NIST-maintained datasets downloaded
     Year             Status                                 Actual                                              Target
   FY 2011            Not Met                               19,100,000                                         24,500,000
   FY 2010              Met                                24,956,0001                                         24,500,0001
   FY 2009              Met                                226,000,000                                         200,000,000
   FY 2008           Exceeded                              195,500,000                                         130,000,000
   FY 2007           Exceeded                              130,000,000                                         80,000,000
   FY 2006              Met                                 94,371,001                                         80,000,000
   FY 2005              Met                                 93,305,136                                         80,000,000
   FY 2004           Exceeded                               73,601,352                                         56,000,000
 1	Beginning
           in FY 2010, NIST has revised the methodology for this measure by excluding the hundreds of millions of annual downloads associated
  with Web-based, time-related services which dominated the total number of downloads in previous years. This adjusted measure will more clearly
  demonstrate the use of NIST’s other online datasets covering scientific and technical databases throughout the NIST laboratories.




F Y   2 0 1 1    P E R F O R M A N C E     A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                           317
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NIST Performance measure
                                                  MEASURE: Number of calibration tests performed1
    Year              Status                               Actual                                                   Target
   FY 2011           Exceeded                              18,195                                                    9,700
   FY 2010             Met                                 17,697                                                   15,000
   FY 2009             Met                                 18,609                                                   15,000
   FY 2008           Exceeded                              25,944                                                   12,000
   FY 2007           Exceeded                              27,489                                                   12,000
   FY 2006             Met                                  3,026                                                    2,700
   FY 2005             Met                                  3,145                                                    2,700
   FY 2004             Met                                  3,376                                                    2,800
   FY 2003             Met                                  3,194                                                    2,900
   FY 2002             Met                                  2,924                                                    2,900
 1	From   FY 2002 – FY 2006, this measure reflected the number of items tested, an amount considerably lower than the number of tests performed.



Strategic Goal – Market Development and Commercialization: Foster market
opportunities that equip businesses and communities with the tools they need to expand, creating
quality jobs with special emphasis on unserved and underserved groups

                                          MARKET DEVELOPMENT AND COMMERCIALIZATION TOTAL RESOURCES
                                                              (Dollars in Millions)
                                FY 2007                FY 2008                   FY 2009                  FY 2010                   FY 2011
                                Actual                 Actual                    Actual                   Actual                    Actual
 Funding                        $356.9                  $334.1                   $424.0                    $382.5                   $397.2
 FTE                             486                     457                      449                       502                      477



Objective 6: Promote the advancement of sustainable technologies, industries, and infrastructure (EDA)

                                                          OBJECTIVE 6 TOTAL RESOURCES
                                                               (Dollars in Millions)
                                FY 2007                FY 2008                   FY 2009                  FY 2010                   FY 2011
                                Actual                 Actual                    Actual                   Actual                    Actual
 Funding                         N/A                     10.4                     16.0                      28.9                     $20.5
 FTE                             N/A                      6                        6                         15                       16


The measures associated with this objective also apply to Objectives 3 and 7. The histories of these measures appear immediately
after Objective 2.




  318                                                  F Y   2 0 1 1   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Objective 7: Promote the vitality and competitiveness of our communities and businesses, particularly those that are
disadvantaged or in distressed areas (EDA, MBDA)

                                                        OBJECTIVE 7 TOTAL RESOURCES
                                                             (Dollars in Millions)
                               FY 2007               FY 2008                    FY 2009               FY 2010                  FY 2011
                               Actual                Actual                     Actual                Actual                   Actual
 Funding                        189.9                 186.5                      242.4                 172.3                   $201.1
 FTE                             176                   154                        160                   181                     187


Several of the EDA measures associated with this objective also apply to Objectives 3 and 6. The histories of these shared
measures appear immediately after Objective 2. The following measures are unique to Objective 7 and are associated with EDA
and MBDA.


                                                         EDA Performance measure
 MEASURE: Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result of the assistance facilitated by the TAACs
     Year            Status                              Actual                                                 Target
   FY 2011           Not Met                              73%                                                    90%
   FY 2010           Not Met                              82%                                                    90%
   FY 2009        Slightly Below                          88%                                                    90%
   FY 2008             Met                                92%                                                    90%
   FY 2007             Met                                99%                                                    90%
   FY 2006             Met                                90%                                                    90%
   FY 2005             Met                                99%                                                    90%
   FY 2004             Met                                90%                                                    90%
   FY 2003             Met                                92%                                                    90%


                                                         EDA Performance measure
           MEASURE: Percentage of those actions taken by Trade Adjustment Assistance Center clients that achieved the expected results
     Year            Status                              Actual                                                 Target
   FY 2011             Met                                100%                                                   95%
   FY 2010             Met                                100%                                                   95%
   FY 2009        Slightly Below                          93%                                                    95%
   FY 2008             Met                                95%                                                    95%
   FY 2007             Met                                99%                                                    95%
   FY 2006             Met                                96%                                                    95%
   FY 2005             Met                                97%                                                    95%
   FY 2004             Met                                98%                                                    95%
   FY 2003             Met                                98%                                                    95%




F Y   2 0 1 1    P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                         319
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                 MBDA Performance measure
                                    MEASURE: Dollar value of contract awards obtained (billions)
    Year         Status                            Actual                                                 Target
   FY 2011      Exceeded                            $1.40                                                  $1.10
   FY 2010      Exceeded                            $1.69                                                  $1.00
   FY 2009      Exceeded                            $2.12                                                  $0.90
   FY 2008         Met                              $0.91                                                  $0.90
   FY 2007      Exceeded                            $1.20                                                  $0.85
   FY 2006      Exceeded                            $1.17                                                  $0.85
   FY 2005      Exceeded                            $1.10                                                  $0.80
   FY 2004         Met                              $0.95                                                  $0.80
   FY 2003       Not Met                            $0.70                                                  $1.00
   FY 2002      Exceeded                            $1.30                                                  $1.00


                                                 MBDA Performance measure
                                    MEASURE: Dollar value of financial awards obtained (billions)
    Year         Status                            Actual                                                 Target
   FY 2011      Exceeded                            $2.10                                                  $0.90
   FY 2010      Exceeded                            $2.26                                                  $0.60
   FY 2009      Exceeded                            $0.91                                                  $0.50
   FY 2008      Exceeded                            $1.09                                                  $0.50
   FY 2007         Met                              $0.55                                                  $0.45
   FY 2006       Not Met                            $0.41                                                  $0.45
   FY 2005         Met                              $0.50                                                  $0.45
   FY 2004      Exceeded                            $0.60                                                  $0.40
   FY 2003         Met                              $0.40                                                  $0.40
   FY 2002         Met                              $0.40                                                  $0.40


                                                 MBDA Performance measure
                                        MEASURE: Number of new job opportunities created
    Year         Status                            Actual                                                 Target
   FY 2011    Slightly Below                        4,200                                                  4,300
   FY 2010      Exceeded                            6,397                                                  4,000
   FY 2009      Exceeded                            4,134                                                  3,000
   FY 2008      Exceeded                            4,603                                                  3,000
   FY 2007      Exceeded                            3,506                                                  2,050
   FY 2006      Exceeded                            4,254                                                  1,800
   FY 2005      Exceeded                            2,270                                                  1,800




 320                                           F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            MBDA Performance measure
                                                        MEASURE: Cumulative economic impact1
     Year              Status                                Actual                                                    Target
   FY 2011               N/A                                   N/A                                                       N/A
   FY 2010            Exceeded                                $23B                                                      $16B
 1	This   is a long-term goal. As such, targets appear every five years with the next one appearing in FY 2015.



Objective 8: Improve the competitiveness of small and medium-sized firms in manufacturing and service industries (ITA, NIST)

                                                            OBJECTIVE 8 TOTAL RESOURCES1
                                                                 (Dollars in Millions)
                                 FY 2007                 FY 2008                    FY 2009                  FY 2010                   FY 2011
                                 Actual                  Actual                     Actual                   Actual                    Actual
 Funding                         $167.0                  $137.2                     $165.6                    $181.3                   $175.6
 FTE                              310                     297                        283                       306                      274
 1	NIST’s performance actuals for this objective lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in
  which NIST reports actuals one year later. This date lag, coupled with the time line for producing the PAR, precludes the reporting of actual FY 2011
  data. With the exception of the number of clients, the NIST data reported in the current year PAR are an estimate based on three-quarters of actual
  client reported impacts and one-quarter estimated client impacts.


                                                              ITA Performance measure
             MEASURE: Annual cost savings resulting from the adoption of MAS recommendations contained in MAS studies and analysis
     Year              Status                                Actual                                                    Target
   FY 2011            Exceeded                                $1.8B                                                    $350M
   FY 2010            Exceeded                               $647M                                                     $350M
   FY 2009            Exceeded                               $552M                                                     $350M
   FY 2008            Exceeded                               $455M                                                     $350M
   FY 2007            Exceeded                               $413M                                                     $168M
   FY 2006             Not Met                               $287M                                                     $350M


                                                             NIST Performance measure
                                  MEASURE: Number of clients served by Hollings MEP centers receiving federal funding
     Year              Status                                Actual                                                    Target
   FY 2011               Met                       34,299 from FY 2010 funding                               29,000 from FY 2010 funding
   FY 2010            Exceeded                     32,926 from FY 2009 funding                               25,500 from FY 2009 funding
   FY 2009            Exceeded                     31,961 from FY 2008 funding                               14,500 from FY 2008 funding
   FY 2008            Exceeded                     28,004 from FY 2007 funding                               21,237 from FY 2007 funding
   FY 2007            Exceeded                     24,722 from FY 2006 funding                               16,440 from FY 2006 funding
   FY 2006          Slightly Below                 16,448 from FY 2005 funding                               16,640 from FY 2005 funding
   FY 2005            Exceeded                     16,090 from FY 2004 funding                                6 517 from FY 2004 funding
   FY 2004               Met                       18,422 from FY 2003 funding                               16,684 from FY 2003 funding
   FY 2003             Not Met                     18,748 from FY 2002 funding                               21,543 from FY 2002 funding




F Y   2 0 1 1     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                  321
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NIST Performance measure
                                 MEASURE: Increased sales attributed to Hollings MEP centers receiving federal funding
    Year               Status                               Actual                                                  Target
   FY 2011              Met                      $2,770M from FY 2010   funding1                         $2,500M from FY 2010 funding
   FY 2010            Exceeded                    $3,500M from FY 2009 funding                           $2,000M from FY 2009 funding
   FY 2009            Exceeded                    $3,610M from FY 2008 funding                           $630M from FY 2008 funding
   FY 2008            Exceeded                    $5,600M from FY 2007 funding                           $630M from FY 2007 funding
   FY 2007            Exceeded                    $3,100M from FY 2006 funding                           $591M from FY 2006 funding
   FY 2006            Exceeded                    $2,842M from FY 2005 funding                           $591M from FY 2005 funding
   FY 2005            Exceeded                    $1,889M from FY 2004 funding                           $228M from FY 2004 funding
   FY 2004            Exceeded                    $1,483M from FY 2003 funding                           $522M from FY 2003 funding
   FY 2003            Exceeded                    $953M from FY 2002 funding                             $728M from FY 2002 funding
   FY 2002            Not Met                     $636M from FY 2001 funding                             $708M from FY 2001 funding
 1	Estimate   as of June 30, 2011. Once final numbers are in, the status may change to “Exceeded.”


                                                            NIST Performance measure
                                MEASURE: Capital investment attributed to Hollings MEP centers receiving federal funding
    Year               Status                               Actual                                                  Target
   FY 2011            Exceeded                   $1,820M from FY 2010   funding1                         $1,000M from FY 2010 funding
   FY 2010            Exceeded                    $1,900M from FY 2009 funding                           $1,000M from FY 2009 funding
   FY 2009            Exceeded                    $1,710M from FY 2008 funding                           $485M from FY 2008 funding
   FY 2008            Exceeded                    $2,190M from FY 2007 funding                           $955M from FY 2007 funding
   FY 2007            Exceeded                    $1,650M from FY 2006 funding                           $740M from FY 2006 funding
   FY 2006            Exceeded                    $2,248M from FY 2005 funding                           $740M from FY 2005 funding
   FY 2005            Exceeded                    $941M from FY 2004 funding                             $285M from FY 2004 funding
   FY 2004            Exceeded                    $912M from FY 2003 funding                             $559M from FY 2003 funding
   FY 2003              Met                       $940M from FY 2002 funding                             $910M from FY 2002 funding
   FY 2002            Not Met                     $680M from FY 2001 funding                             $913M from FY 2001 funding
 1	Estimate   as of June 30, 2011.




 322                                                    F Y   2 0 1 1    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                  A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NIST Performance measure
                                   MEASURE: Cost savings attributed to Hollings MEP centers receiving federal funding
     Year             Status                                Actual                                                  Target
   FY 2011              Met                      $1,420M from FY 2010   funding1                         $1,200M from FY 2010 funding
   FY 2010           Exceeded                     $1,300M from FY 2009 funding                           $1,000M from FY 2009 funding
   FY 2009           Exceeded                     $1,410M from FY 2008 funding                           $330M from FY 2008 funding
   FY 2008           Exceeded                     $1,440M from FY 2007 funding                           $521M from FY 2007 funding
   FY 2007           Exceeded                     $1,100M from FY 2006 funding                           $405M from FY 2006 funding
   FY 2006           Exceeded                     $1,304M from FY 2005 funding                           $405M from FY 2005 funding
   FY 2005           Exceeded                     $721M from FY 2004 funding                             $156M from FY 2004 funding
   FY 2004           Exceeded                     $586M from FY 2003 funding                             $353M from FY 2003 funding
   FY 2003           Exceeded                     $681M from FY 2002 funding                             $497M from FY 2002 funding
   FY 2002            Not Met                     $442M from FY 2001 funding                             $576M from FY 2001 funding
 1	Estimate   as of June 30, 2011. Once final numbers are in, the status may change to “Exceeded.”



Strategic Goal – Trade Promotion and Compliance: Improve our global competitiveness
and foster domestic job growth while protecting American security

                                               TRADE PROMOTION AND COMPLIANCE TOTAL RESOURCES
                                                              (Dollars in Millions)
                                FY 2007                 FY 2008                     FY 2009               FY 2010                 FY 2011
                                Actual                  Actual                      Actual                Actual                  Actual
 Funding                        $458.3                   $473.4                     $493.7                $525.0                   $547.1
 FTE                            2,118                    2,008                      1,985                 1,940                    2,036



Objective 9: Increase U.S. export value through trade promotion, market access, compliance, and interagency
collaboration (including support for small and medium enterprises) (ITA)

                                                            OBJECTIVE 9 TOTAL RESOURCES
                                                                 (Dollars in Millions)
                                FY 2007                 FY 2008                     FY 2009               FY 2010                 FY 2011
                                Actual                  Actual                      Actual                Actual                  Actual
 Funding                        $263.0                   $273.4                     $283.1                $296.3                   $336.5
 FTE                            1,202                    1,151                      1,120                 1,051                    1,176


                                                             ITA Performance measure
                              MEASURE: Increase in the annual growth rate of total small and medium-sized (SME) exporters
     Year             Status                                Actual                                                  Target
   FY 2011           Exceeded                                3.9%                                                   2.85%
   FY 2010           Exceeded                                6.42%                                                  2.80%
   FY 2009           Exceeded                                4.69%                                                  2.75%




F Y   2 0 1 1     P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                            323
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       ITA Performance measure
                                               MEASURE: Percentage of advocacy bids won
    Year         Status                               Actual                                                 Target
   FY 2011       Not Met                               9.9%                                                   18%
   FY 2010       Not Met                                9%                                                    17%
   FY 2009        N/A                                  11%                                                    N/A


                                                       ITA Performance measure
                                        MEASURE: Commercial diplomacy success (cases) (annual)
    Year         Status                               Actual                                                 Target
   FY 2011      Exceeded                                243                                                   172
   FY 2010       Not Met                                112                                                   166
   FY 2009        Met                                   196                                                   162
   FY 2008        Met                                   181                                                   160


                                                       ITA Performance measure
                                        MEASURE: Export success firms /active clients firms (annual)
    Year         Status                               Actual                                                 Target
   FY 2011      Exceeded                               28.1%                                                 21.5%
   FY 2010      Exceeded                               29.1%                                                 11.0%
   FY 2009      Exceeded                               23.3%                                                 10.5%


                                                       ITA Performance measure
                                   MEASURE: US&FCS SME NTE / total change in SME exporters (annual)
    Year         Status                               Actual                                                 Target
   FY 2011       Not Met                               1.3%                                                  13.1%
   FY 2010       Not Met                               2.3%                                                  12.7%
   FY 2009        Met                                  15.2%                                                 12.4%


                                                       ITA Performance measure
                          MEASURE: Number of SME NTM firms / SME firms exporting to two to nine markets (annual)
    Year         Status                               Actual                                                 Target
   FY 2011       Not Met                               3.6%                                                   5.0%
   FY 2010       Not Met                               3.1%                                                   3.9%
   FY 2009       Not Met                               3.5%                                                   3.8%




 324                                              F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Objective 10: Implement an effective export control reform program to advance national security and economic
competitiveness (BIS)

                                                          OBJECTIVE 10 TOTAL RESOURCES
                                                               (Dollars in Millions)
                              FY 2007                  FY 2008                    FY 2009                FY 2010             FY 2011
                              Actual                   Actual                     Actual                 Actual              Actual
 Funding                       $75.4                    $74.9                      $83.7                  $100.3             $102.9
 FTE                            364                      353                        329                    322                351


                                                           BIS Performance measure
                                  MEASURE: Percent of licenses requiring interagency referral referred within 9 days
     Year           Status                                 Actual                                                  Target
   FY 2011          Not Met                                 88%                                                        98%
   FY 2010       Slightly Below                             90%                                                        95%
   FY 2009            Met                                   99%                                                        95%
   FY 2008            Met                                   98%                                                        95%
   FY 2007            Met                                   98%                                                        95%
   FY 2006            Met                                   98%                                                        95%


                                                           BIS Performance measure
                                        MEASURE: Median processing time for new regime regulations (months)
     Year           Status                                 Actual                                                  Target
   FY 2011            Met                                       2.0                                                    2.0
   FY 2010            Met                                       3.0                                                    3.0
   FY 2009         Exceeded                                     2.0                                                    3.0
   FY 2008         Exceeded                                     2.0                                                    3.0
   FY 2007         Exceeded                                     2.0                                                    3.0
   FY 2006            Met                                       2.5                                                    3.0
   FY 2005         Exceeded                                     1.0                                                    3.0
   FY 2004         Exceeded                                     2.0                                                    3.0
   FY 2003          Not Met                                     7.0                                                    3.0


                                                           BIS Performance measure
                                                MEASURE: Percent of attendees rating seminars highly
     Year           Status                                 Actual                                                  Target
   FY 2011            Met                                   94%                                                        93%
   FY 2010            Met                                   94%                                                        85%
   FY 2009            Met                                   93%                                                        85%
   FY 2008            Met                                   93%                                                        85%
   FY 2007            Met                                   90%                                                        85%
   FY 2006            Met                                   90%                                                        85%




F Y   2 0 1 1   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                       325
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        BIS Performance measure
  MEASURE: Percent of declarations received from U.S. industry in accordance with CWC regulations (time lines) that are processed, certified,
                     and submitted to the State Department in time so the United States can meet its treaty obligations
    Year           Status                               Actual                                                  Target
   FY 2011           Met                                100%                                                     100%
   FY 2010           Met                                100%                                                     100%
   FY 2009           Met                                100%                                                     100%
   FY 2008           Met                                100%                                                     100%
   FY 2007           Met                                100%                                                     100%
   FY 2006           Met                                100%                                                     100%


                                                        BIS Performance measure
                MEASURE: Number of actions that result in a deterrence or prevention of a violation and cases which result in a
                                                  criminal and/or administrative charge
    Year           Status                               Actual                                                  Target
   FY 2011        Exceeded                              1,073                                                     850
   FY 2010      Slightly Below                           806                                                      850
   FY 2009           Met                                 876                                                      850
   FY 2008        Exceeded                               881                                                      675
   FY 2007        Exceeded                               930                                                      450
   FY 2006        Exceeded                               872                                                      350
   FY 2005        Exceeded                               583                                                      275
   FY 2004           Met                                 310                                                      250
   FY 2003        Exceeded                               250                                                      85
   FY 2002           Met                                  82                                                      75


                                                        BIS Performance measure
   MEASURE: Percent of shipped transactions in compliance with the licensing requirements of the Export Administration Regulations (EAR)
    Year           Status                               Actual                                                  Target
   FY 2011           Met                                 99%                                                     99%
   FY 2010           Met                                 98%                                                     97%
   FY 2009           Met                                 96%                                                     95%
   FY 2008           Met                                 87%                                                     87%


                                                        BIS Performance measure
             MEASURE: Percentage of post-shipment verifications completed and categorized above the “unfavorable” classification
    Year           Status                               Actual                                                  Target
   FY 2011           Met                            382 PSVs/92%                                            315 PSVs/85%
   FY 2010           Met                            256 PSVs/93%                                            260 PSVs/85%
   FY 2009           Met                            314 PSVs/88%                                            260 PSVs/85%
   FY 2008           Met                            136 PSVs 93%                                            215 PSVs/80%




 326                                               F Y   2 0 1 1   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                 A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           BIS Performance measure
                                                   MEASURE: Number of end-use checks completed
     Year           Status                                 Actual                                                  Target
   FY 2011            Met                                       891                                                 850
   FY 2010          Not Met                                     708                                                 850
   FY 2009          Not Met                                     737                                                 850
   FY 2008          Not Met                                     490                                                 850
   FY 2007            Met                                       854                                                 850
   FY 2006         Exceeded                                     942                                                 700


                                                           BIS Performance measure
                  MEASURE: Percent of industry assessments resulting in BIS determination, within three months of completion,
                                                    on whether to revise export controls
     Year           Status                                 Actual                                                  Target
   FY 2011            Met                                   100%                                                   100%
   FY 2010            Met                                   100%                                                   100%
   FY 2009            Met                                   100%                                                   100%
   FY 2008            Met                                   100%                                                   100%
   FY 2007            Met                                   100%                                                   100%
   FY 2006            N/A                                   N/A1                                                   100%
 1	No assessments fell within the metric timeframe in FY 2006.
                                                            BIS completed two industry assessments late in the fourth quarter of FY 2006, thus not
  meeting the three month window (before the end of the fiscal year) to make a final determination on revising export controls. This was the first
  year this measure was in place. Industry assessment data will be available in subsequent fiscal years.



Objective 11: Develop and influence international standards and policies to support the full and fair competitiveness of the
U.S. information and communications technology sector (NTIA)

                                                          OBJECTIVE 11 TOTAL RESOURCES
                                                               (Dollars in Millions)
                              FY 2007                  FY 2008                    FY 2009                FY 2010                  FY 2011
                              Actual                   Actual                     Actual                 Actual                   Actual
 Funding                       $1.7                      $1.6                      $1.7                   $1.9                      $2.3
 FTE                            8                         8                         8                      8                         8


                                                           NTIA Performance measure
                        MEASURE: Percent of NTIA positions substantially adopted or successful at international meetings
     Year           Status                                 Actual                                                  Target
   FY 2011         Exceeded                        95% adoption or success                               75% adoption or success




F Y   2 0 1 1   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                             327
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Objective 12: Vigorously enforce U.S. fair trade laws through impartial investigation of complaints, improved access for
U.S. firms and workers, and fuller compliance with antidumping/countervailing duty remedies (ITA)

                                                        OBJECTIVE 12 TOTAL RESOURCES
                                                             (Dollars in Millions)
                           FY 2007                    FY 2008                 FY 2009                  FY 2010                 FY 2011
                           Actual                     Actual                  Actual                   Actual                  Actual
 Funding                   $118.2                     $123.5                   $125.2                  $126.5                   $99.1
 FTE                        544                        496                      528                     559                      501


                                                          ITA Performance measure
                      MEASURE: Percent of industry-specific trade barriers addressed that were removed or prevented
    Year         Status                                   Actual                                                 Target
   FY 2011         Met                                     35%                                                    30%
   FY 2010         Met                                     35%                                                    30%
   FY 2009      Exceeded                                   30%                                                    20%
   FY 2008      Exceeded                                   29%                                                    15%


                                                          ITA Performance measure
                                     MEASURE: Percent of industry-specific trade barrier milestones completed
    Year         Status                                   Actual                                                 Target
   FY 2011         Met                                     75%                                                    70%
   FY 2010      Exceeded                                   75%                                                    55%
   FY 2009      Exceeded                                   72%                                                    55%
   FY 2008      Exceeded                                   73%                                                    55%
   FY 2007       Not Met                                   54%                                                    85%
   FY 2006    Slightly Below                               81%                                                    85%


                                                          ITA Performance measure
                                              MEASURE: Percent of agreement milestones completed
    Year         Status                                   Actual                                                 Target
   FY 2011         Met                                    100%                                                   100%
   FY 2010         Met                                    100%                                                   100%
   FY 2009       Not Met                                   23%                                                   100%
   FY 2008       Not Met                                   70%                                                   100%
   FY 2007      Exceeded                                  100%                                                    70%
   FY 2006      Exceeded                                  100%                                                    70%


                                                          ITA Performance measure
                                 MEASURE: Percentage reduction in trade-distorting foreign subsidy programs
    Year         Status                                   Actual                                                 Target
   FY 2011         Met                                     3.1%                                                  > 2.0%
   FY 2010         Met                                     1.7%                                                  > 1.5%
   FY 2009      Exceeded                                   1.8%                                                  > 1.0%
   FY 2008      Exceeded                                   1.6%                                                  > 0.5%



 328                                                 F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          ITA Performance measure
                        MEASURE: Percent of AD/CVD determinations issued within statutory and/or regulatory deadlines
     Year           Status                                Actual                                                    Target
   FY 2011            Met                                  99%                                                       90%
   FY 2010            Met                                  94%                                                       90%
   FY 2009       Slightly Below                            86%                                                       90%
   FY 2008            Met                                  92%                                                       90%


                                                          ITA Performance measure
                                  MEASURE: Percent of ministerial errors in IA’s dumping and subsidy calculations
     Year           Status                                Actual                                                    Target
   FY 2011            Met                                  5.1%                                                     < 9%
   FY 2010         Exceeded                                7.9%                                                     < 10%
   FY 2009         Exceeded                                8%                                                       < 11%
   FY 2008            Met                                  10%                                                      < 12%


                                                          ITA Performance measure
                                  MEASURE: Number of compliance and market access cases resolved successfully
     Year           Status                                Actual                                                    Target
   FY 2011            Met                                  51%                                                       50%
   FY 2010            Met                                  58%                                                       50%
   FY 2009         Exceeded                                61%                                                       35%
   FY 2008            Met                                  39%                                                       35%
   FY 2007         Exceeded                                54%                                                       25%
   FY 2006         Exceeded                                46%                                                       25%


                                                          ITA Performance measure
                                   MEASURE: Value of compliance and market access cases resolved successfully
     Year           Status                                Actual                                                    Target
   FY 2011          Not Met                               $0.23B                                                    $2.5B
   FY 2010         Exceeded                               $21.4B                                                    $2.5B
   FY 2009         Exceeded                               $25.4B                                                    $2.0B
   FY 2008         Exceeded                               $12.3B                                                    $1.5B




F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 329
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 2: SCIENCE AND INFORMATION
Strategic Goal: Generate and communicate new, cutting-edge scientific understanding of technical,
economic, social, and environmental systems

                                         SCIENCE AND INFORMATION TOTAL RESOURCES
                                                     (Dollars in Millions)
                           FY 2007            FY 2008                 FY 2009                 FY 2010                  FY 2011
                           Actual             Actual                  Actual                  Actual                   Actual
 Funding                  $3,775.0           $4,081.4                 $6,420.4                $9,693.0                $4,655.6
 FTE                       9,192              9,810                    33,962                 101,419                  18,768

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.


Objective 13: Increase scientific knowledge and provide information to stakeholders to support economic growth and to
improve innovation, technology, and public safety (NTIS, NTIA, NOAA)

                                                OBJECTIVE 13 TOTAL RESOURCES
                                                     (Dollars in Millions)
                           FY 2007            FY 2008                 FY 2009                 FY 2010                  FY 2011
                           Actual             Actual                  Actual                  Actual                   Actual
 Funding                   $419.2             $289.0                   $317.6                  $364.3                  $307.6
 FTE                        238                235                      642                     636                     626


                                                 NTIS Performance measure
                                       MEASURE: Number of updated items available (annual)
    Year         Status                           Actual                                                 Target
   FY 2011        Met                            836,579                                                 825,000
   FY 2010      Exceeded                         969,473                                                 765,000
   FY 2009        Met                            893,138                                                 745,000
   FY 2008        Met                            813,775                                                 725,000
   FY 2007        Met                            744,322                                                 665,000
   FY 2006        Met                            673,087                                                 660,000
   FY 2005        Met                            658,138                                                 530,000
   FY 2004        Met                            553,235                                                 525,000
   FY 2003        Met                            530,910                                                 520,000
   FY 2002        Met                            514,129                                                 510,000




 330                                          F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NTIS Performance measure
                                           MEASURE: Number of information products disseminated (annual)
     Year             Status                                 Actual                                                 Target
   FY 2011              Met                                48,958,993                                              47,800,000
   FY 2010           Exceeded                              50,333,206                                              33,000,000
   FY 2009           Exceeded                              49,430,840                                              32,850,000
   FY 2008              Met                                32,267,167                                              32,100,000
   FY 2007              Met                                32,027,113                                              27,100,000
   FY 2006              Met                                30,616,338                                              27,000,000
   FY 2005              Met                                26,772,015                                              25,800,000
   FY 2004           Exceeded                              25,476,424                                              18,000,000
   FY 2003           Exceeded                              29,134,050                                              17,000,000
   FY 2002              Met                                16,074,862                                              16,000,000


                                                            NTIS Performance measure
                                                            MEASURE: Customer satisfaction
     Year             Status                                 Actual                                                 Target
   FY 2011              Met                                  99.5%                                                  95-98%
   FY 2010              Met                                   98%                                                   95-98%
   FY 2009              Met                                   98%                                                   95-98%
   FY 2008              Met                                   96%                                                   95-98%
   FY 2007              Met                                   98%                                                   95-98%
   FY 2006              Met                                   98%                                                   95-98%
   FY 2005              Met                                   98%                                                    98%
   FY 2004         Slightly Below                             96%                                                    98%
   FY 2003         Slightly Below                             97%                                                    98%
   FY 2002              Met                                   98%                                                    97%



                                                            NTIA Performance measure
                                              MEASURE: Annual progress report on the Test-Bed program
     Year             Status                                 Actual                                                 Target
   FY 2011              Met                             Published report                                   Publish annual report


Objective 14: Enable informed decision-making through an expanded understanding of the U.S. economy, society, and
environment by providing timely, relevant, trusted, and accurate data, standards, and services (ESA/CENSUS, ESA/BEA, NOAA)

                                                           OBJECTIVE 14 TOTAL RESOURCES1
                                                                (Dollars in Millions)
                                FY 2007                 FY 2008                    FY 2009              FY 2010                    FY 2011
                                Actual                  Actual                     Actual               Actual                     Actual
 Funding                       $2,380.9                 $2,800.8                  $5,053.9              $8,225.5                   $3,278
 FTE                            8,954                    9,575                     28,282                95,689                    13,048
 1	NOAA    had funding for this objective beginning in FY 2007 and FTE beginning in FY 2009.




F Y   2 0 1 1    P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                             331
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      ESA/CENSUS Performance measure
           MEASURE: Correct street features in TIGER (geographic) database (number of counties completed) to more effectively support
          Census Bureau censuses and surveys, facilitate the geographic partnerships between federal, state, local and tribal governments,
                                and support the E-Government initiative in the President’s Management Agenda1
     Year            Status                                Actual                                                   Target
   FY 2011             N/A                                  N/A                                                      N/A
                                           Increased TIGER update submissions                        Increase TIGER update submissions
   FY 2010          Exceeded
                                                  electronically by 51%                                     electronically by 10%
                                                                                              Complete updates to eligible counties in the United
   FY 2009             Met                               Complete
                                                                                                   States, Puerto Rico, and Island Areas
   FY 2008             Met                                  320                                                      320
   FY 2007             Met                                  737                                                      690
   FY 2006             Met                                  700                                                      700
   FY 2005             Met                                  623                                                      610
   FY 2004             Met                                  602                                                      600
   FY 2003             Met                                  250                                                      250
 1	Thismeasure is associated with the 2010 Decennial Census so there are no targets for FY 2011 onward. However, this measure will be updated in
  the future to reflect activities associated with the 2020 Decennial Census.


                                                      ESA/CENSUS Performance measure
           MEASURE: Complete key activities for cyclical census programs on time to support effective decision-making by policymakers,
                                 businesses, and the public and meet constitutional and legislative mandates
     Year            Status                                Actual                                                   Target
   FY 2011             Met          At least 90% of key prep activities completed on time   At least 90% of key prep activities completed on time
   FY 2010             Met          At least 90% of key prep activities completed on time   At least 90% of key prep activities completed on time
   FY 2009             Met          At least 90% of key prep activities completed on time   At least 90% of key prep activities completed on time
                                       Some of the planned dress rehearsal activities
   FY 2008           Not Met                                                                At least 90% of key prep activities completed on time
                                                      were cancelled
   FY 2007             Met             > 90% of key prep activities completed on time       At least 90% of key prep activities completed on time
   FY 2006             Met                  100% of activities completed on time            At least 90% of key prep activities completed on time
   FY 2005             Met                      Activities completed on time                        Various activities with different dates


                                                      ESA/CENSUS Performance measure
 MEASURE: Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer Satisfaction Index (ACSI)
     Year            Status                                Actual                                                   Target
   FY 2011           Not Met                                60.0                                             74.0 (federal score)
   FY 2010           Not Met                 Score was lower in 2 of 4 quarters                     Meet or exceed overall federal score
   FY 2009           Not Met                                68.0                                                     75.2
   FY 2008           Not Met                                66.0                                                     73.9
   FY 2007             Met                                  74.0                                                     71.0
   FY 2006             Met                                  72.0                                                     71.3
   FY 2005             Met                                  73.0                                                     73.0
   FY 2004        Slightly Below                            71.0                                                     72.0




  332                                                 F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      ESA/CENSUS Performance measure
      MEASURE: Achieve pre-determined collection rates for Census Bureau censuses and surveys in order to provide statistically reliable
                          data to support effective decision-making of policymakers, businesses, and the public
     Year           Status                                Actual                                                       Target
                                                                                             At least 90% of key censuses and surveys meet/exceed
   FY 2011           Met                             Met percentages
                                                                                             collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
   FY 2010           Met                             Met percentages
                                                                                             collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
   FY 2009           Met                             Met percentages
                                                                                             collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
   FY 2008           Met                             Met percentages
                                                                                             collection rates/levels of reliability.
                                                                                             At least 90% of key censuses and surveys meet/exceed
   FY 2007           Met                             Met percentages
                                                                                             collection rates/levels of reliability
                                                                                             At least 90% of key censuses and surveys meet/exceed
   FY 2006           Met                             Met percentages
                                                                                             collection rates/levels of reliability
   FY 2005           Met                             Met percentages                                        Various %s - see FY 2006 APP
   FY 2004           Met                             Met percentages                                        Various %s - see FY 2005 APP
   FY 2003           Met                             Met percentages                                        Various %s - see FY 2004 APP


                                                      ESA/CENSUS Performance measure
                MEASURE: Release data products for key Census Bureau programs on time to support effective decision-making of
                                                 policymakers, businesses, and the public
     Year           Status                                Actual                                                       Target
                                ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2011           Met
                                ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2010           Met
                                ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2009           Met
                                ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2008           Met
                                ●●   At least 90% of key prep activities completed on time   ●●   At least 90% of key prep activities completed on time
                                ●●   100% of Economic Indicators released on time            ●●   100% of Economic Indicators released on time
   FY 2007           Met        ●●   At least 90% of other key censuses and surveys data     ●●   At least 90% of other key censuses and surveys data
                                     released on time                                             released on time
                                ●●   100% of Economic Indicators                             ●●   100% of Economic Indicators released on time;
   FY 2006           Met        ●●   100% of other products                                  ●●   At least 90% of other key censuses and surveys data
                                                                                                  released on time
   FY 2005           Met                                22 products                                                  22 products
   FY 2004         Exceeded                             10 products                                                  7 products
   FY 2003         Not Met                              2 products                                                   3 products
   FY 2002           Met                          Maintained FY 2009 time                                       Maintain FY 2009 time




F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                  333
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        ESA/BEA Performance measure
               MEASURE: Timeliness: Reliability of delivery of economic data statistics (number of scheduled releases issued on time)
        Year          Status                              Actual                                                  Target
    FY 2011            Met                                  62                                                      62
    FY 2010         Exceeded                                61                                                      55
    FY 2009       Slightly Below                            56                                                      57
    FY 2008            Met                                  571                                                     58
    FY 2007            Met                                  54                                                      54
    FY 2006            Met                                  54                                                      54
    FY 2005            Met                                  54                                                      54
    FY 2004            Met                                  54                                                      54
    FY 2003            Met                                  48                                                      48
    FY 2002            Met                                  50                                                      50
 1	In
    FY 2008, the Annual Industry Accounts statistical release was rescheduled from December 13, 2007 to January 29, 2008, in order to include
  important information from the Census 2006 Annual Survey of Manufacturers (ASM). By delaying this release, BEA was able to provide a better
  product for BEA’s data users, so this measure was considered “Met.”


                                                        ESA/BEA Performance measure
                                   MEASURE: Relevance: Customer satisfaction (mean rating on a 5-point scale)
        Year          Status                              Actual                                                  Target
    FY 2011            Met                                  4.1                                                    > 4.0
    FY 2010            Met                                  4.4                                                    > 4.0
    FY 2009            Met                                  4.2                                                    > 4.0
    FY 2008            Met                                  4.2                                                    > 4.0
    FY 2007            Met                                  4.3                                                    > 4.0
    FY 2006            Met                                  4.2                                                    > 4.0
    FY 2005            Met                                  4.4                                                    > 4.0
    FY 2004            Met                                  4.3                                                    > 4.0
    FY 2003            Met                                  4.4                                                    > 4.0
    FY 2002            Met                                  4.3                                                    > 4.0




  334                                                 F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        ESA/BEA Performance measure
                                              MEASURE: Accuracy: Percent of GDP estimates correct
     Year             Status                              Actual                                                  Target
   FY 2011             Met                                 89%                                                       > 85%
   FY 2010             Met                                 88%                                                       > 85%
   FY 2009             Met                                 88%                                                       > 85%
   FY 2008             Met                                 94%                                                       > 85%
   FY 2007             Met                                 93%                                                       > 85%
   FY 2006             Met                                 96%                                                       > 85%
   FY 2005             Met                                 96%                                                       > 85%
   FY 2004             Met                                 88%                                                       > 85%
   FY 2003             Met                                 88%                                                       > 85%


                                                        ESA/BEA Performance measure
                        MEASURE: Complete all major strategic plan milestones related to improving the economic accounts1
     Year             Status                              Actual                                                  Target
   FY 2011             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2010             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2009             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2008             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2007             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2006             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2005             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2004             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2003             Met                    Completed all major milestones                      Completion of strategic plan milestones
 1	The   BEA Strategic Plan and a report card of completed milestones are available in “About BEA” on www.bea.gov.



Objective 15: Improve weather, water, and climate reporting and forecasting (NOAA)

                                                         OBJECTIVE 15 TOTAL RESOURCES
                                                              (Dollars in Millions)
                               FY 2007                FY 2008                    FY 2009                FY 2010                  FY 2011
                               Actual                 Actual                     Actual                 Actual                   Actual
 Funding                       $974.9                 $992.4                   $1,050.5                $1,093.2                  $1,086.9
 FTE                           5,072                  5,114                     5,038                   5,094                     5,0941
 1	Estimate.




F Y   2 0 1 1    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                            335
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          NOAA Performance measure
                                 MEASURE: Severe weather warnings for tornadoes (storm-based) – Lead time (minutes)1
     Year              Status                              Actual                                                  Target
   FY 2011            Exceeded                               15                                                     12
   FY 2010              Met                                  12                                                     12
   FY 2009              Met                                  12                                                     12
   FY 2008            Exceeded                               14                                                     11
   FY 2007              Met                                  14                                                     13
   FY 2006              Met                                  13                                                     13
   FY 2005              Met                                  13                                                     13
   FY 2004              Met                                  13                                                     12
   FY 2003              Met                                  13                                                     12
   FY 2002              Met                                  12                                                     11
 1	Prior   to FY 2008, these warnings were county-based rather than storm-based.


                                                          NOAA Performance measure
                                    MEASURE: Severe weather warnings for tornadoes (storm-based) – Accuracy (%)1
     Year              Status                              Actual                                                  Target
   FY 2011              Met                                 76%                                                     70%
   FY 2010              Met                                 74%                                                     70%
   FY 2009         Slightly Below                           65%                                                     69%
   FY 2008              Met                                 72%                                                     67%
   FY 2007              Met                                 80%                                                     75%
   FY 2006         Slightly Below                           75%                                                     76%
   FY 2005              Met                                 76%                                                     73%
   FY 2004              Met                                 75%                                                     72%
   FY 2003              Met                                 80%                                                     70%
   FY 2002              Met                                 76%                                                     69%
 1	Prior   to FY 2008, these warnings were county-based rather than storm-based.




  336                                                  F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA Performance measure
                                 MEASURE: Severe weather warnings for tornadoes (storm-based) – False alarm rate (%)1
     Year              Status                               Actual                                                  Target
   FY 2011              Met                                  72%                                                     72%
   FY 2010         Slightly Below                            74%                                                     72%
   FY 2009            Not Met                                77%                                                     72%
   FY 2008              Met                                  75%                                                     74%
   FY 2007              Met                                  75%                                                     68%
   FY 2006            Not Met                                79%                                                     69%
   FY 2005            Not Met                                77%                                                     69%
                    Improved but
   FY 2004            Not Met                                74%                                                     70%

   FY 2003            Not Met                                76%                                                     70%
   FY 2002         Slightly Below                            73%                                                     71%
 1	Prior   to FY 2008, these warnings were county-based rather than storm-based.


                                                           NOAA Performance measure
                                 MEASURE: Severe weather warnings for flash floods (storm-based) – Lead time (minutes)
     Year              Status                               Actual                                                  Target
   FY 2011            Exceeded                                71                                                      381
   FY 2010            Exceeded                                71                                                      38
   FY 2009            Exceeded                                66                                                      49
   FY 2008            Exceeded                                77                                                      49
   FY 2007            Exceeded                                60                                                      48
   FY 2006              Met                                   49                                                      48
   FY 2005              Met                                   54                                                      48
                    Improved but
   FY 2004            Not Met                                 48                                                      50

   FY 2003            Not Met                                 41                                                      46
   FY 2002              Met                                   53                                                      45
 1	Beginning in FY 2008, NOAA shifted to a storm-based method of forecast as opposed to a county-based method.     The reason for this change was to
  reduce the area warned to provide more specific information to emergency responders and the public. By reducing the areal coverage of NOAA’s
  flash flood warnings, the emergency management community can more effectively target mitigation and response efforts. This new storm-based
  verification methodology is more stringent and results in lower metric scores for lead time and accuracy for flash floods. Flash flood performance
  data using this new verification methodology was computed beginning in FY 2008 with actuals and targets being reported from FY 2010 onward.




F Y   2 0 1 1     P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                               337
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA Performance measure
                                MEASURE: Severe weather warnings for flash floods (storm-based) – Accuracy (%)
    Year            Status                                Actual                                                    Target
   FY 2011           Met                                   80%                                                       72%1
   FY 2010           Met                                   79%                                                       72%
   FY 2009           Met                                   91%                                                       90%
   FY 2008           Met                                   92%                                                       90%
   FY 2007           Met                                   90%                                                       89%
   FY 2006           Met                                   89%                                                       89%
   FY 2005           Met                                   89%                                                       89%
   FY 2004           Met                                   89%                                                       89%
   FY 2003           Met                                   89%                                                       87%
   FY 2002           Met                                   89%                                                       86%
 1	Beginning in FY 2008, NOAA shifted to a storm-based method of forecast as opposed to a county-based method.     The reason for this change was to
  reduce the area warned to provide more specific information to emergency responders and the public. By reducing the areal coverage of NOAA’s
  flash flood warnings, the emergency management community can more effectively target mitigation and response efforts. This new storm-based
  verification methodology is more stringent and results in lower metric scores for lead time and accuracy for flash floods. Flash flood performance
  data using this new verification methodology was computed beginning in FY 2008 with actuals and targets being reported from FY 2010 onward.


                                                         NOAA Performance measure
                                       MEASURE: Hurricane forecast track error (48 hours) (nautical miles)1
    Year            Status                                Actual                                                    Target
   FY 2011         Exceeded                                 89                                                        106
   FY 2010         Exceeded                                 89                                                        107
   FY 2009         Exceeded                                 70                                                        108
   FY 2008         Exceeded                                 89                                                        110
   FY 2007         Exceeded                                 86                                                        110
   FY 2006           Met                                    97                                                        111
   FY 2005           Met                                    101                                                       128
   FY 2004         Exceeded                                 94                                                        129
   FY 2003           Met                                    107                                                       130
   FY 2002           Met                                    122                                                       142
 1	Beginningin FY 2007, NOAA reported the previous year’s results because data is not available until February and good estimates cannot be
  determined.


                                                         NOAA Performance measure
                                   MEASURE: Hurricane forecast intensity error (48 hours) (difference in knots)
    Year            Status                                Actual                                                    Target
   FY 2011         Not Met                                  15                                                        13
   FY 2010         Not Met                                  15                                                        13
   FY 2009         Not Met                                  18                                                        13
   FY 2008           Met                                    14                                                        14




 338                                                  F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                           A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       NOAA Performance measure
                                   MEASURE: Accuracy (%) (threat score) of day 1 precipitation forecasts
     Year           Status                              Actual                                             Target
   FY 2011            Met                                34%                                                30%
   FY 2010            Met                                35%                                                30%
   FY 2009            Met                                29%                                                29%
   FY 2008            Met                                33%                                                29%
   FY 2007            Met                                31%                                                29%
   FY 2006            Met                                30%                                                28%
   FY 2005            Met                                29%                                                27%
   FY 2004            Met                                29%                                                25%
   FY 2003            Met                                29%                                                25%
   FY 2002         Exceeded                              26%                                                17%


                                                       NOAA Performance measure
                                           MEASURE: Winter storm warnings – Lead time (hours)
     Year           Status                              Actual                                             Target
   FY 2011         Exceeded                               20                                                15
   FY 2010         Exceeded                               21                                                15
   FY 2009            Met                                 18                                                16
   FY 2008            Met                                 17                                                15
   FY 2007         Exceeded                               18                                                15
   FY 2006            Met                                 17                                                15
   FY 2005            Met                                 17                                                15
   FY 2004            Met                                 16                                                14
   FY 2003            Met                                 14                                                14
   FY 2002            Met                                 13                                                13


                                                       NOAA Performance measure
                                                MEASURE: Winter storm warnings – Accuracy (%)
     Year           Status                              Actual                                             Target
   FY 2011       Slightly Below                          88%                                                90%
   FY 2010            Met                                90%                                                90%
   FY 2009       Slightly Below                          90%                                                91%
   FY 2008       Slightly Below                          89%                                                90%
   FY 2007            Met                                92%                                                90%
   FY 2006       Slightly Below                          89%                                                90%
   FY 2005            Met                                91%                                                90%
   FY 2004            Met                                90%                                                89%
   FY 2003            Met                                90%                                                88%
   FY 2002            Met                                89%                                                86%




F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               339
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          NOAA Performance measure
                                                    MEASURE: Marine wind speed accuracy (%)
    Year            Status                                 Actual                                                     Target
   FY 2011           Met                                    75%                                                        69%
   FY 2010           Met                                    74%                                                        69%
   FY 2009           Met                                    74%                                                        69%
   FY 2008           Met                                    72%                                                        68%
   FY 2007           Met                                    73%                                                        68%
   FY 2006          Not Met                                 55%                                                        58%
   FY 2005           Met                                    57%                                                        56%
   FY 2004           Met                                    57%                                                        55%
   FY 2003           Met                                    57%                                                        54%


                                                          NOAA Performance measure
                                                    MEASURE: Marine wave height accuracy (%)
    Year            Status                                 Actual                                                     Target
   FY 2011           Met                                    77%                                                        74%
   FY 2010           Met                                    76%                                                        74%
   FY 2009           Met                                    79%                                                        74%
   FY 2008           Met                                    77%                                                        73%
   FY 2007           Met                                    78%                                                        73%
   FY 2006           Met                                    70%                                                        68%
   FY 2005           Met                                    78%                                                        67%
   FY 2004           Met                                    70%                                                        69%
   FY 2003           Met                                    67%                                                        66%


                                                          NOAA Performance measure
                              MEASURE: Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less) (%)1
    Year            Status                                 Actual                                                     Target
   FY 2011      Slightly Below                              63%                                                        65%
   FY 2010           Met                                    65%                                                        65%
   FY 2009      Slightly Below                              63%                                                        64%
   FY 2008      Slightly Below                              62%                                                        63%
   FY 2007      Slightly Below                              61%                                                        62%
   FY 2006          Not Met                                 43%                                                        47%
   FY 2005           Met                                    46%                                                        46%
   FY 2004      Slightly Below                              45%                                                        46%
   FY 2003           Met                                    47%                                                        45%
 1	From FY 2007 on, the aviation measures were redefined to cover the IFR (Instrument Flight Rule) airspace instead of the limited IFR range of 5,000
  feet to three miles. This change was to increase the usefulness of the measure to the general and commercial aviation communities. This change
  required the measures to be re-baselined. While the numbers for accuracy and FAR appear to be reversed when comparing earlier years, they
  are actually measuring different things.




 340                                                   F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA Performance measure
                                MEASURE: Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less) (%)1
     Year           Status                                Actual                                                     Target
   FY 2011           Met                                    38%                                                          41%
   FY 2010           Met                                    36%                                                          42%
   FY 2009           Met                                    38%                                                          43%
   FY 2008           Met                                    39%                                                          44%
   FY 2007           Met                                    40%                                                          45%
   FY 2006           Met                                    64%                                                          64%
   FY 2005          Not Met                                 63%                                                          51%
   FY 2004          Not Met                                 64%                                                          52%
   FY 2003          Not Met                                 64%                                                          52%
 1	From FY 2007 on, the aviation measures were redefined to cover the IFR (Instrument Flight Rule) airspace instead of the limited IFR range of 5,000
  feet to three miles. This change was to increase the usefulness of the measure to the general and commercial aviation communities. This change
  required the measures to be re-baselined. While the numbers for accuracy and FAR appear to be reversed when comparing earlier years, they
  are actually measuring different things.




F Y   2 0 1 1   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                341
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 3: ENVIRONMENTAL STEWARDSHIP
Strategic Goal: Promote economically-sound environmental stewardship and science

                                             ENVIRONMENTAL STEWARDSHIP TOTAL RESOURCES
                                                         (Dollars in Millions)
                              FY 2007               FY 2008                  FY 2009                 FY 2010                 FY 2011
                              Actual                Actual                   Actual                  Actual                  Actual
 Funding                      $1,761.0              $1,880.4                $2,479.4                 $2,249.3                $1,948.8
 FTE                           4,924                 4,920                   5,169                    5,260                   5,2601
 1	Estimate.



This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.


Objective 16: Support climate adaption and mitigation (NOAA)

                                                       OBJECTIVE 16 TOTAL RESOURCES
                                                            (Dollars in Millions)
                              FY 2007               FY 2008                  FY 2009                 FY 2010                 FY 2011
                              Actual                Actual                   Actual                  Actual                  Actual
 Funding                      $160.2                 $297.7                  $395.6                  $436.6                   $319.6
 FTE                           650                    580                     744                     796                      7961
 1	Estimate.



                                                       NOAA Performance measure
               MEASURE: U.S. temperature forecasts (cumulative skill score computed over the regions where predictions are made)
     Year           Status                              Actual                                                  Target
   FY 2011            Met                                 22                                                     21
   FY 2010          Not Met                               18                                                     24
   FY 2009         Exceeded                               27.5                                                   20
   FY 2008         Exceeded                               26                                                     19
   FY 2007         Exceeded                               29                                                     19
   FY 2006         Exceeded                               25                                                     18
   FY 2005            Met                                 19                                                     18
   FY 2004          Not Met                               17                                                     21
   FY 2003          Not Met                               17                                                     20
   FY 2002          Not Met                               18                                                     20




  342                                               F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA Performance measure
                                  MEASURE: Uncertainty in the magnitude of the North American (NA) carbon uptake
     Year           Status                                Actual                                                 Target
   FY 2011            Met                              0.45 GtC/year                                         0.45 GtC/year
   FY 2010          Not Met                            0.45 GtC/year                                         0.40 GtC/year
   FY 2009            Met                              0.40 GtC/year                                         0.30 GtC/year
   FY 2008          Not Met                            0.45 GtC/year                                         0.40 GtC/year
   FY 2007          Not Met                            0.44 GtC/year                                         0.40 GtC/year
   FY 2006          Not Met                            0.46 GtC/year                                         0.40 GtC/year
   FY 2005          Not Met                            0.53 GtC/year                                         0.48 GtC/year
   FY 2004            Met                              0.51 GtC/year                                         0.70 GtC/year
   FY 2003          Not Met                            0.57 GtC/year                                         0.50 GtC/year


                                                         NOAA Performance measure
                                         MEASURE: Error in global measurement of sea surface temperature
     Year           Status                                Actual                                                 Target
   FY 2011       Slightly Below                           0.51ºC                                                   0.50ºC
   FY 2010            Met                                 0.50ºC                                                   0.53ºC
   FY 2009            Met                                 0.50ºC                                                   0.50ºC
   FY 2008            Met                                 0.50ºC                                                   0.50ºC
   FY 2007          Not Met                               0.53ºC                                                   0.50ºC
   FY 2006          Not Met                               0.53ºC                                                   0.50ºC


                                                         NOAA Performance measure
                MEASURE: Number of regionally focused climate impacts and adaptation studies communicated to decisionmakers
     Year           Status                                Actual                                                 Target
   FY 2011            Met                       41 assessments/evaluations                           41 assessments/evaluations
   FY 2010            Met                       41 assessments/evaluations                           41 assessments/evaluations
   FY 2009            Met                       37 assessments/evaluations                           37 assessments/evaluations
   FY 2008            Met                       35 assessments/evaluations                           35 assessments/evaluations
   FY 2007            Met                       32 assessments/evaluations                           32 assessments/evaluations
   FY 2006            Met                       33 assessments/evaluations                           32 assessments/evaluations



Objective 17: Develop sustainable and resilient fisheries, habitats, and species (NOAA)

                                                         OBJECTIVE 17 TOTAL RESOURCES
                                                              (Dollars in Millions)
                              FY 2007                 FY 2008                    FY 2009              FY 2010                FY 2011
                              Actual                  Actual                     Actual               Actual                 Actual
 Funding                      $986.0                  $973.6                   $1,245.4               $1,125.8               $1,067.7
 FTE                          2,983                   2,994                     3,058                  3,105                  3,1051
 1	Estimate.




F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                        343
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NOAA Performance measure
                                                     MEASURE: Fish stock sustainability index (FSSI)
     Year              Status                                Actual                                                      Target
   FY 2011               Met                                   587                                                        586
   FY 2010               Met                                  582.5                                                       580
   FY 2009               Met                                  565.5                                                       548.5
   FY 2008               Met                                   535                                                        530.5
   FY 2007               Met                                   524                                                        505


                                                            NOAA Performance measure
                                 MEASURE: Percentage of fish stocks with adequate population assessments and forecasts
     Year              Status                                Actual                                                      Target
   FY 2011             Not Met                           55.7% (128/230)                                             60.4% (139/230)
   FY 2010               Met                             57.4% (132/230)                                             57.4% (132/230)
   FY 2009               Met                             59.1% (136/230)                                             57.4% (132/230)
   FY 2008               Met                             56.1% (129/230)                                             55.7% (128/230)
   FY 2007               Met                             55.7% (128/230)                                             53.9% (124/230)
   FY 2006             Not Met                           52.2% (120/230)                                             57.8% (133/230)


                                                            NOAA Performance measure
                               MEASURE: Number of protected species with adequate population assessments and forecasts
     Year              Status                                Actual                                                      Target
   FY 2011             Not Met                            17.6% (69/392)                                             18.6% (73/392)
   FY 2010               Met                              20.1% (75/373)                                             20.1% (75/373)
   FY 2009               Met                              29.8% (74/248)                                             27.8% (69/248)
   FY 2008             Not Met                            25.2% (61/242)                                             27.3% (66/242)
   FY 2007               Met                              26.6% (64/241)                                             26.6% (63/237)
   FY 2006               Met                              26.1% (61/234)                                             25.2% (59/464)


                                                            NOAA Performance measure
     MEASURE: Number of protected species designated as threatened, endangered, or depleted with stable or increasing population levels
     Year              Status                                Actual                                                      Target
   FY 2011               Met                                    29                                                         281
   FY 2010               Met                                    29                                                         25
   FY 2009               Met                                    25                                                         22
   FY 2008               Met                                    24                                                         22
   FY 2007               Met                                    26                                                         26
   FY 2006               Met                                    26                                                         24
 1	This   target was revised from 25 to 28 as a result of the FY 2010 actual coming in higher than expected.




  344                                                    F Y   2 0 1 1     P E R F O R M A N C E    A N D      A C C O U N T A B I L I T Y   R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        NOAA Performance measure
                                               MEASURE: Number of habitat acres restored (annual)
     Year             Status                             Actual                                                Target
   FY 2011           Exceeded                            15,420                                                8,888
   FY 2010            Not Met                             6,907                                                8,875
   FY 2009              Met                               9,232                                                9,000
   FY 2008           Exceeded                            11,254                                                9,000
   FY 2007              Met                               5,974                                                5,000
   FY 2006           Exceeded                             7,598                                                4,500
   FY 2005           Exceeded                             8,333                                                4,500
   FY 2004           Exceeded                             5,563                                                3,700
   FY 2003           Exceeded                             5,200                                                2,829



Objective 18: Support coastal communities that are environmentally and economically sustainable (NOAA)

                                                        OBJECTIVE 18 TOTAL RESOURCES
                                                             (Dollars in Millions)
                                FY 2007              FY 2008                    FY 2009              FY 2010                 FY 2011
                                Actual               Actual                     Actual               Actual                  Actual
 Funding                        $614.8               $609.1                     $838.4               $686.9                  $566.5
 FTE                            1,291                1,346                      1,367                1,359                   1,3591
 1	Estimate.



                                                        NOAA Performance measure
               MEASURE: Annual number of coastal, marine, and Great Lakes ecological characterizations that meet management needs
     Year             Status                             Actual                                                Target
   FY 2011              Met                                50                                                   50
   FY 2010         Slightly Below                          48                                                   50
   FY 2009              Met                                50                                                   50
   FY 2008              Met                                45                                                   45
   FY 2007              Met                                27                                                   27
   FY 2006              Met                                62                                                   53


                                                        NOAA Performance measure
  MEASURE: Cumulative number of coastal, marine, and Great Lakes issue-based forecasting capabilities developed and used for management
     Year             Status                             Actual                                                Target
   FY 2011              Met                                55                                                   45
   FY 2010              Met                                42                                                   42
   FY 2009              Met                                41                                                   41
   FY 2008              Met                                38                                                   38
   FY 2007              Met                                35                                                   35
   FY 2006              Met                                31                                                   31




F Y   2 0 1 1     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                       345
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA Performance measure
                  MEASURE: Percentage of tools, technologies, and information services that are used by NOAA partners/customers
                                                    to improve ecosystem-based management
    Year              Status                              Actual                                                 Target
   FY 2011             Met                                 88%                                                    87%
   FY 2010             Met                                 88%                                                    86%
   FY 2009             Met                                 86%                                                    86%
   FY 2008             Met                                 86%                                                    86%
   FY 2007             Met                                 85%                                                    85%


                                                         NOAA Performance measure
             MEASURE: Annual number of coastal, marine, and Great Lakes habitat acres acquired or designated for long-term protection
    Year              Status                              Actual                                                 Target
   FY 2011           Not Met                              17,274                                                 19,219
   FY 2010             Met                                 2,000                                                  2,000
   FY 2009             Met                                 2,247                                                  2,000
   FY 2008           Exceeded                              6,219                                                  2,000
   FY 2007           Exceeded                              3,020                                                  2,000
   FY 2006           Exceeded                          > 86,000,0001                                            200,137
 1	The   large FY 2006 actual reflects the new Northwest Hawaiian Islands Marine National Monument.


                                                         NOAA Performance measure
              MEASURE: Percentage of U.S. coastal states and territories demonstrating 20% or more annual improvement in resilience
                                               capacity to weather and climate hazards (%/year)
    Year              Status                              Actual                                                 Target
   FY 2011           Exceeded                              43%                                                    36%


                                                         NOAA Performance measure
              MEASURE: Hydrographic survey backlog within navigationally significant areas (square nautical miles surveyed per year)
    Year              Status                              Actual                                                 Target
   FY 2011           Not Met                               2,278                                                  2,400
   FY 2010           Not Met                               4,395                                                  5,160
   FY 2009             Met                                 3,219                                                  3,000
   FY 2008           Not Met                               2,127                                                  2,500
   FY 2007           Exceeded                              3,198                                                  1,350
   FY 2006             Met                                 2,851                                                  2,500
   FY 2005             Met                                 3,079                                                  2,700
                   Improved but
   FY 2004           Not Met                               2,070                                                  2,290

   FY 2003           Not Met                               1,762                                                  2,100




 346                                                  F Y   2 0 1 1    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                            A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        NOAA Performance measure
             MEASURE: Percentage of U.S. counties rated as fully enabled or substantially enabled with accurate positioning capacity
     Year           Status                               Actual                                                  Target
   FY 2011            Met                                84.3%                                                   83.0%
   FY 2010            Met                                79.0%                                                   74.0%
   FY 2009            Met                                72.0%                                                   69.0%
   FY 2008            Met                                60.2%                                                   60.0%
   FY 2007            Met                                51.6%                                                   49.0%
   FY 2006            Met                                43.3%                                                   39.0%
   FY 2005            Met                                32.2%                                                   28.0%




F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       347
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 4: CUSTOMER SERVICE
Strategic Goal: Create a culture of outstanding communication and services to our internal and
external customers

                                             CUSTOMER SERVICE TOTAL RESOURCES
                                                    (Dollars in Millions)
                       FY 2007               FY 2008                 FY 2009                 FY 2010                  FY 2011
                       Actual                Actual                  Actual                  Actual                   Actual
 Funding                 $8.6                  $6.1                    $7.7                    $7.0                    $9.3
 FTE                     N/A                   N/A                     N/A                     N/A                     N/A

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.

While funding has been allotted to Objectives 19, 20, and 21, measures had not yet been developed in time for the FY 2011
budget cycle. Therefore, they do not appear in this PAR. Measures for these objectives will appear in the FY 2012 PAR.


Objective 19: Provide streamlined services and a single point of contact assistance to customers, improving interaction
and communication through CommerceConnect, partnerships, and other means of stakeholder involvement (DM)

                                                OBJECTIVE 19 TOTAL RESOURCES
                                                     (Dollars in Millions)
                       FY 2007               FY 2008                 FY 2009                 FY 2010                  FY 2011
                       Actual                Actual                  Actual                  Actual                   Actual
 Funding                 N/A                   N/A                     N/A                     N/A                     $0.9
 FTE                     N/A                   N/A                     N/A                     N/A                     N/A



Objective 20: Promote information access and transparency through the use of technology, fuller understanding of
customer requirements, and new data products and services that add value for customers (DM)

                                                OBJECTIVE 20 TOTAL RESOURCES
                                                     (Dollars in Millions)
                       FY 2007               FY 2008                 FY 2009                 FY 2010                  FY 2011
                       Actual                Actual                  Actual                  Actual                   Actual
 Funding                 N/A                   N/A                     N/A                     N/A                     N/A
 FTE                     N/A                   N/A                     N/A                     N/A                     N/A



Objective 21: Provide a high level of customer service to our internal and external customers through effective and
efficient functions implemented by empowered employees (DM)

                                                OBJECTIVE 21 TOTAL RESOURCES
                                                     (Dollars in Millions)
                       FY 2007               FY 2008                 FY 2009                 FY 2010                  FY 2011
                       Actual                Actual                  Actual                  Actual                   Actual
 Funding                 $8.6                  $6.1                    $7.7                    $7.0                    $8.4
 FTE                     N/A                   N/A                     N/A                     N/A                     N/A




 348                                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 5: ORGANIZATIONAL EXCELLENCE
Strategic Goal: Create a high-performing organization with integrated, efficient, and effective
service delivery

                                                    ORGANIZATIONAL EXCELLENCE TOTAL RESOURCES
                                                                (Dollars in Millions)
                               FY 2007                    FY 2008                    FY 2009                    FY 2010                   FY 2011
                               Actual                     Actual                     Actual                     Actual                    Actual
 Funding                        $58.5                      $56.6                      $67.2                      $81.7                     $76.5
 FTE                             302                        297                        278                        349                       334

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.


Objective 22: Strengthen financial and non-financial internal controls to maximize program efficiency, ensure compliance
with statutes and regulations, and prevent waste, fraud, and abuse of government resources (DM, OIG)

                                                             OBJECTIVE 22 TOTAL RESOURCES
                                                                  (Dollars in Millions)
                               FY 2007                    FY 2008                    FY 2009                    FY 2010                   FY 2011
                               Actual                     Actual                     Actual                     Actual                    Actual
 Funding                        $49.1                      $48.4                      $53.9                      $66.2                     $59.2
 FTE                             302                        297                        278                        349                       334


                                                               DM Performance measure
                MEASURE: Provide accurate and timely financial information and conform to federal standards, laws, and regulations
                                               governing accounting and financial management
     Year            Status                                    Actual                                                     Target
                                    ●●   Eliminated significant deficiency                     ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed A-123 assessment                                 determination that there is a significant deficiency
   FY 2011             Met
                                                                                               ●●   Complete FY 2011 A-123 assessment of internal
                                                                                                    controls
                                    ●●   One significant deficiency was not eliminated         ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed FY 2010 A-123 assessment of internal             determination that there is a significant deficiency
   FY 2010           Not Met
                                         controls for financial reporting                      ●●   Complete FY 2010 A-123 assessment of internal
                                                                                                    controls
                                    ●●   One significant deficiency was not eliminated         ●●   Eliminate any significant deficiency within 1 year of
                                    ●●   Completed FY 2009 A-123 assessment of internal             determination that there is a significant deficiency
   FY 2009           Not Met
                                         controls for financial reporting.                     ●●   Complete FY 2009 A-123 assessment of internal
                                                                                                    controls
                                    ●●   The Department closed 70% of prior year financial     ●●   Eliminate any significant deficiency within 1 year of
                                         systems audit findings                                     determination
   FY 2008           Not Met        ●●   Completed FY 2008 A-123 assessment of internal        ●●   Complete FY 2008 A-123 assessment of internal
                                         controls for financial reporting                           controls
                                    ●●   Significant deficiency was not eliminated
                                    ●●   Completed migration of Commerce Business              ●●   Eliminate any significant deficiency within 1 year of
                                         System.                                                    determination
                                    ●●   Completed assessment of internal controls             ●●   Complete internal control and document review
   FY 2007           Not Met        ●●   Significant deficiency was not eliminated             ●●   Complete FY 2007 A-123 assessment of internal
                                                                                                    controls
                                                                                               ●●   Migrate Commerce Business System to an all
                                                                                                    Web-base architecture
                                                                                                                                              (continued)


F Y   2 0 1 1    P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                     349
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                    DM Performance measure (continued)
             MEASURE: Provide accurate and timely financial information and conform to federal standards, laws, and regulations
                                      governing accounting and financial management (continued)
    Year          Status                                  Actual                                                       Target
                               ●●   Reportable condition not eliminated                    ●●   Eliminate any reportable condition within 1year of
                                                                                                determination
   FY 2006        Not Met
                                                                                           ●●   95% of management with access to the CRS have
                                                                                                financial data/reports by the 15th of month
                               ●●   Corrective action plan (CAP) met                       ●●   Eliminate any reportable condition within 1 year
                               ●●   Reportable condition not eliminated                         of the determination that there is a reportable
                                                                                                condition
   FY 2005        Not Met                                                                  ●●   90% of management that have access to the
                                                                                                Consolidated Reporting System (CRS) have financial
                                                                                                data/reports available within 1 day of the 15th of the
                                                                                                month after submitting the raw data to the CRS
   FY 2004          Met                                   100%                                                          100%
   FY 2003          Met                                   100%                                                          100%
   FY 2002          Met                                   100%                                                          100%


                                                          DM Performance measure
                                            MEASURE: Effectively use commercial services management
    Year          Status                                  Actual                                                       Target
                               ●●   > 2%                                                   ●●   Increase use of competition by 2% measured by
                               ●●   > 10%                                                       procurement dollars awarded
   FY 2011          Met                                                                    ●●   Decrease procurement dollars awarded on cost-
                                                                                                reimbursement, time and materials, and labor hours
                                                                                                contracts by 10%
                               ●●   Maintained and monitored existing activities,          ●●   Increase use of competition by 2%, measured by
                                    however, no new cost comparisons were permitted             procurement dollars awarded
   FY 2010          N/A             under this year’s appropriation language, therefore    ●●   Decrease procurement dollars awarded on a cost-
                                    the result is considered not applicable                     reimbursement, time and materials, and labor hours
                                                                                                contracts by 10%
                               ●●   Due to change in Administration, all new competitive   ●●   Use business process re-engineering, feasibility
                                    sourcing comparisons have been placed on hold.              studies, and/or similar initiatives to identify opera-
   FY 2009          Met
                                    The same is true for the Green Plan.                        tional efficiency and effectiveness opportunities
                               ●●   2009 FAIR Act Inventory filed timely with OMB
                               ●●   Completed several feasibility studies in FY 2008 and   ●●   Use business process re-engineering, feasibility
   FY 2008          Met             planned several more for FY 2009                            studies, and/or similar initiatives to identify opera-
                                                                                                tional efficiency and effectiveness opportunities
                               ●●   Bureaus identified FY 2008 feasibility studies which   ●●   Update and/or continue to implement FY 2006 plan to
                                    were submitted as part of the Green Plan                    conduct feasibility studies of Department commer-
   FY 2007          Met
                                                                                                cial functions to determine potential new competi-
                                                                                                tions/studies in the outyears
                               ●●   Green Plan submitted to OMB on 9/28/2006               ●●   Finalize new green competition plan based on
   FY 2006          Met
                                                                                                08/2005 CFO council outcome
                               ●●   Feasibility studies nominated for 168 FTE              ●●   Complete feasibility studies for 168 FTE to determine
   FY 2005          Met
                                                                                                2005-2006 studies
   FY 2004          Met        ●●   New FAIR inventory guidance developed                  ●●   Multi-year plan under development
   FY 2003        Not Met      ●●   Completed competition on 6.6%                          ●●   Complete competitions on 10%
   FY 2002        Not Met      ●●   Completed competition on 1%                            ●●   Complete competition on 5%




 350                                                 F Y   2 0 1 1    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           OIG Performance measure
                         MEASURE: Percent of OIG recommendations accepted by Departmental and bureau management
     Year           Status                                Actual                                                     Target
   FY 2011       Slightly Below                             94%                                                       95%
   FY 2010            Met                                95%/100%                                                     95%
   FY 2009            Met                                   97%                                                       95%
   FY 2008            Met                                  100%                                                       95%
   FY 2007            Met                                   96%                                                       95%
   FY 2006            Met                                   96%                                                       95%
   FY 2005            Met                                   99%                                                       90%
   FY 2004            Met                                   98%                                                       90%
   FY 2003            Met                                   97%                                                       90%


                                                           OIG Performance measure
                                          MEASURE: Dollar value of financial benefits identified by the OIG
     Year           Status                                Actual                                                     Target
   FY 2011          Not Met                               $33.6M                                                     $39.0M
   FY 2010         Exceeded                               $47.8M                                                     $38.0M
   FY 2009         Exceeded                               $126.9M                                                    $32.0M
   FY 2008         Exceeded                               $113.0M                                                    $28.0M
   FY 2007         Exceeded                               $51.7M                                                     $29.6M
   FY 2006            Met                                 $34.2M                                                     $30.0M
   FY 2005         Exceeded                               $32.0M                                                     $23.0M
   FY 2004         Exceeded                               $26.0M                                                     $20.0M
   FY 2003         Exceeded                               $43.3M                                                     $20.0M


                                                           OIG Performance measure
                                  MEASURE: Percent of criminal and civil matters that are accepted for prosecution
     Year           Status                                Actual                                                     Target
   FY 2011       Slightly Below                             73%                                                       75%
   FY 2010          Not Met                                 61%                                                       75%
   FY 2009            Met                                   78%                                                       63%
   FY 2008            Met                                   73%                                                       63%
   FY 2007            Met                                   73%                                                       63%
   FY 2006         Exceeded                                 91%                                                       63%
   FY 2005         Exceeded                                 81%                                                       62%
   FY 2004         Exceeded                                 67%                                                       50%
   FY 2003            Met                                   50%                                                       50%




F Y   2 0 1 1   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                  351
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Objective 23: Re-engineer key business processes to increase efficiencies, manage risk, and strengthen effectiveness (DM)

                                                    OBJECTIVE 23 TOTAL RESOURCES
                                                         (Dollars in Millions)
                           FY 2007               FY 2008                  FY 2009                 FY 2010                 FY 2011
                           Actual                Actual                   Actual                  Actual                  Actual
 Funding                      $3.2                $3.0                     $4.0                     $3.6                   $3.9
 FTE                          N/A                 N/A                      N/A                      N/A                    N/A


                                                     DM Performance measure
                   MEASURE: Obligate funds through performance-based contracting (% of eligible service contracting $)
    Year         Status                              Actual                                                 Target
   FY 2011       Not Met                              39%                                                    50%
   FY 2010       Not Met                              37%                                                    50%
               Improved but
   FY 2009       Not Met                              45%                                                    50%

   FY 2008       Not Met                              28%                                                    50%
   FY 2007       Not Met                              28%                                                    40%
   FY 2006       Not Met                              30%                                                    50%
   FY 2005       Not Met                             < 50%                                                   50%
   FY 2004         Met                                42%                                                    40%
   FY 2003       Not Met                              24%                                                    30%
   FY 2002         Met                                31%                                                    25%



Objective 24: Create an IT enterprise architecture that supports mission-critical business and programmatic requirements,
including effective management of cyber security threats (DM)

                                                    OBJECTIVE 24 TOTAL RESOURCES
                                                         (Dollars in Millions)
                           FY 2007               FY 2008                  FY 2009                 FY 2010                 FY 2011
                           Actual                Actual                   Actual                  Actual                  Actual
 Funding                      $6.2                $5.2                     $9.3                    $11.9                   $13.4
 FTE                          N/A                 N/A                      N/A                     N/A                     N/A




 352                                             F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          DM Performance measure
                                         MEASURE: Improve the management of information technology
     Year           Status                                Actual                                                    Target
                               ●●   All IT investments within 10% of cost and schedule    ●●   IT investments have cost/schedule overruns and
                               ●●   Reviews completed                                          performance shortfalls averaging less than 10%
                               ●●   89% completion rate                                   ●●   Perform IT security compliance review of all
                               ●●   NCSD 3-10 did not receive funding                          operating units, and 10 FISMA systems in CSAM
                                                                                          ●●   Increase security training completion rate to 80%
   FY 2011           Met
                                                                                               for privileged users (role-based)
                                                                                          ●●   Deploy 80% of the required NCSD 3-10 communi-
                                                                                               cations capabilities. Expand cyber intelligence
                                                                                               communications channel to all operating unit
                                                                                               Computer Incident Response Teams
                               ●●   IT had investments had cost/schedule overruns and     ●●   IT investments have cost/schedule overruns and
                                    performance shortfalls averaging less than 10%             performance shortfalls averaging less than 10%
                               ●●   Completed security and vulnerability assessments      ●●   Perform IT security compliance review of all oper-
                                    for all operating units. Submitted findings and            ating units, and 10 FISMA systems in CSAM
                                    recommendations to operating units and OCIO for       ●●   Deploy an enterprise-wide role-based cybersecurity
                                    review.                                                    training program
                               ●●   Implemented cybersecurity development program         ●●   Deploy national security and emergency initial
                                    and graduated 20 candidates from the Department’s          operating capability
   FY 2010           Met
                                    first class. Enrolled candidates in the program’s
                                    second class. More than eight candidates have
                                    obtained or are planning to obtain security-related
                                    certifications.
                               ●●   Deployed national security and emergency network
                                    in the development environment. Received official
                                    approval to connect from Defense Intelligence
                                    Agency.
                               ●●   Cost/schedule overruns/performance shortfalls         ●●   Cost/schedule overruns/performance shortfalls less
                                    averaged under 10%                                         than 10%
   FY 2009           Met       ●●   CSAM C&A enhancements were deployed                   ●●   All national-critical and mission-critical systems
                               ●●   IT security compliance in all operating unites and         certified and accredited with acceptable, quality
                                    five FISMA systems in CSAM were reviewed                   documentation in place
                               ●●   Cost/schedule overruns/performance shortfalls less    ●●   Cost/schedule overruns/performance shortfalls less
                                    than 10%                                                   than 10%
   FY 2008           Met       ●●   All national-critical and mission-critical systems    ●●   All national-critical and mission-critical systems
                                    certified and accredited with acceptable, quality          certified and accredited with acceptable, quality
                                    documentation in place                                     documentation in place
                               ●●   Cost/schedule overruns/performance shortfalls less    ●●   Cost/schedule overruns/performance shortfalls less
                                    than 10%                                                   than 10%
   FY 2007           Met
                               ●●   All national-critical and mission-critical systems    ●●   All national-critical and mission-critical systems
                                    certified and accredited                                   certified and accredited
                               ●●   Cost overruns and performance shortfalls less than    ●●   Cost/schedule overruns/performance shortfalls less
                                    10%                                                        than 10%
   FY 2006           Met
                               ●●   All national-critical and mission-critical systems    ●●   All national-critical and mission-critical systems
                                    certified and accredited                                   certified and accredited
                               ●●   Cost overruns and performance shortfalls less than    ●●   Cost overruns and performance shortfalls less than
   FY 2005           Met
                                    10%                                                        10%




F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                               353
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




THEME 6: WORKFORCE EXCELLENCE
Strategic Goal: Develop and support a diverse, highly qualified workforce with the right skills in the
right jobs to carry out the Department’s mission

                                                     WORKFORCE EXCELLENCE TOTAL RESOURCES
                                                              (Dollars in Millions)
                           FY 2007                       FY 2008                     FY 2009                   FY 2010                   FY 2011
                           Actual                        Actual                      Actual                    Actual                    Actual
 Funding                    $5.1                          $4.9                        $6.0                       $5.4                      $5.4
 FTE                        N/A                           N/A                         N/A                        N/A                       N/A

This theme has only one goal. Therefore the Funding and FTE resources for the theme and the strategic goal are the same.

While funding has been allotted to Objectives 26 and 27, measures had not yet been developed in time for the FY 2011 budget
cycle. Therefore, they do not appear in this PAR. Measures for these objectives will appear in the FY 2012 PAR.


Objective 25: Recruit, grow, develop, and retain a high-performing, diverse workforce with the critical skills necessary for
mission success, including the next generation of scientists and engineers (DM)

                                                           OBJECTIVE 25 TOTAL RESOURCES
                                                                (Dollars in Millions)
                           FY 2007                       FY 2008                     FY 2009                   FY 2010                   FY 2011
                           Actual                        Actual                      Actual                    Actual                    Actual
 Funding                    $5.1                          $4.9                        $6.0                       $5.4                      $5.4
 FTE                        N/A                           N/A                         N/A                        N/A                       N/A


                                                             DM Performance measure
                    MEASURE: Acquire and maintain diverse and highly qualified staff in mission-critical occupations
    Year         Status                                      Actual                                                       Target
                                   ●●   Four mission-critical occupations                      ●●   Have new competency models in place for three
                                   ●●   83 calendar days                                            mission-critical occupations for use in workforce
                                   ●●   103 participants in leadership development                  recruitment, training, and development activities
                                   ●●   382 participants in Careers in Motion                  ●●   Meet or exceed the 80-day hiring goals mandated
   FY 2011      Exceeded
                                                                                                    by OPM
                                                                                               ●●   Train 100-200 participants on leadership develop-
                                                                                                    ment programs via ALDP, ELDP, and APCP
                                                                                               ●●   Train 180-200 participants via Careers in Motion
                                   ●●   Produced competency models for four mission-           ●●   Have new competency models in place for three
                                        critical occupations                                        mission-critical occupations for use in workforce
                                   ●●   Established a hiring process baseline at 133 days           recruitment, training, and development activities
                                   ●●   Trained 98 ALDP, ELDP, and APCP participants via       ●●   Meet or exceed the 80-day hiring goals mandated
                                        leadership programs and 181 employees via the               by OPM
   FY 2010        Met                   Careers in Motion Program                              ●●   Train up to 50-70 participants on leadership develop-
                                   ●●   Integrated Commerce Learning Center in program              ment programs via ALDP, ELDP, and APCP, and
                                        administration to enhance measurement of results            180-200 participants via Careers in Motion
                                                                                               ●●   Integrate Commerce Learning Center in program
                                                                                                    administration to enhance tracking and progress
                                                                                                    monitoring
                                                                                                                                             (continued)




 354                                                     F Y   2 0 1 1   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                     A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         DM Performance measures (continued)
                  MEASURE: Acquire and maintain diverse and highly qualified staff in mission-critical occupations (continued)
     Year           Status                                      Actual                                                     Target
                                     ●●   Competency models in place for four series            ●●   Have new competency models in place for three
                                          including budget analyst, meteorologist, oceanogra-        mission-critical occupations for use in workforce
                                          pher, and hydrologist                                      recruitment, training, and development activities
                                     ●●   Average time to fill of 31 days for non-SES           ●●   Meet or exceed the 45-day hiring goals mandated
   FY 2009         Exceeded
                                          candidates                                                 by OPM
                                     ●●   100 trainees graduated from leadership development    ●●   Train up to 50-60 participants on leadership develop-
                                          programs                                                   ment programs via ALDP, ELDP, and APCP
                                     ●●   Department employees nationwide applied to ALDP       ●●   Open ALDP to Department employees nationwide
                                     ●●   Delivered a total of four competency models for the   ●●   Have new competency models in place for three
                                          economist, acquisition, mathematical statistician,         mission-critical occupations for use in applicant
                                          and chemist series                                         selections and training and development decisions
   FY 2008         Exceeded
                                     ●●   Exceeded the OPM 45-day-time-to-hire standard         ●●   Meet or exceed the 45-day hiring goals mandated
                                          with an average fill time of 31 days for non-SES           by OPM
                                          vacancies
                                     ●●   Trained post-secondary internship program             ●●   Improve recruitment strategies via targeted
                                          applicants to increase applicant pools                     activities
   FY 2007           Met             ●●   Trained managers to make better hiring decisions      ●●   Assist managers in making better selections
                                     ●●   Trained employees in project management to close      ●●   Close skill gaps
                                          skill gaps
                                     ●●   Marketed job vacancies to organizations via           ●●   Improve recruitment strategies via targeted
                                          automated hiring system                                    activities
   FY 2006           Met
                                     ●●   Participated in career fairs and special programs     ●●   Assist managers in making better selections
                                     ●●   Conducted training of managers and employees          ●●   Close skill gaps
                                     ●●   Improved from 28% to 29%                              ●●   Improve representation in underrepresented groups
   FY 2005           Met
                                     ●●   Maintained 30 day fill-time                           ●●   Maintain 30 day fill-time



Objective 26: Create an optimally-led Department by focusing on leadership development, accountability, and succession
planning (DM)

                                                              OBJECTIVE 26 TOTAL RESOURCES
                                                                   (Dollars in Millions)
                              FY 2007                      FY 2008                    FY 2009                   FY 2010                   FY 2011
                              Actual                       Actual                     Actual                    Actual                    Actual
 Funding                       N/A                           N/A                       N/A                        N/A                       N/A
 FTE                           N/A                           N/A                       N/A                        N/A                       N/A



Objective 27: Provide an environment that empowers employees and creates a productive and safe workplace (DM)

                                                              OBJECTIVE 27 TOTAL RESOURCES
                                                                   (Dollars in Millions)
                              FY 2007                      FY 2008                    FY 2009                   FY 2010                   FY 2011
                              Actual                       Actual                     Actual                    Actual                    Actual
 Funding                       N/A                           N/A                       N/A                        N/A                       N/A
 FTE                           N/A                           N/A                       N/A                        N/A                       N/A




F Y   2 0 1 1   P E R F O R M A N C E          A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                     355
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                  Crosswalk between the FY 2011 – FY 2016 (new) Strategic Plan

                                      and FY 2007 – FY 2012 (old) Strategic Plan




 W 
             ith the completion of the new strategic plan in FY 2011, the Department implemented the structure of the new
             strategic plan as the structure of the FY 2011 PAR. The first table below is a crosswalk from the new strategic
             plan to the old strategic plan. The second table shows where the FY 2010 measures appear in the new structure
(and the FY 2011 PAR) including which measures have been discontinued in FY 2011 and don’t appear in this PAR. The third
table shows the bureaus and where they appear in the old strategic plan and the new strategic plan.


                                  Crosswalk between the FY 2011 – FY 2016 (new) Strategic Plan and
                                               FY 2007 – FY 2012 (old) Strategic Plan

          FY 2011 – FY 2016 Strategic Plan (new)                                           FY 2007 – FY 2012 Strategic Plan (old)

 New Objective                                                           Old Goal, Objective(s)/Outcome(s) which most closely match

 Objective 1: Improve intellectual property protection by reducing       Goal 2: Promote U.S. innovation and industrial competitiveness
 patent pendency, maintaining trademark pendency, and                    Objective 2.2: Protect intellectual property and improve the patent and trademark
 increasing the quality of issued patents and trademarks (USPTO)         system (portion)
                                                                         ●● Optimize patent quality and timeliness (USPTO)
                                                                         ●● Optimize trademark quality and timeliness (USPTO)

 Objective 2: Expand international markets for U.S. firms and            Goal 2: Promote U.S. innovation and industrial competitiveness
 inventors by improving the protection and enforcement of                Objective 2.2: Protect intellectual property and improve the patent and trademark
 intellectual property rights (USPTO)                                    system (portion)
                                                                         ●● Provide domestic and global leadership to improve intellectual property policy,
                                                                             protection, and enforcement worldwide (USPTO)

 Objective 3: Stimulate high-growth business formation and               Goal 2: Promote U.S. innovation and industrial competitiveness
 entrepreneurship, through investing in high-risk, high-reward           Objective 2.1: Advance measurement science and standards that drive
 technologies and by removing impediments to accelerate                  technological change
 technology commercialization (EDA, NIST)                                ●● Promote U.S. competitiveness by directing federal investment and R&D into
                                                                            areas of critical national need that support, promote, and accelerate high-risk,
                                                                            high-reward research and innovation in the United States (NIST)

 Objective 4: Drive innovation by supporting an open global              Goal 2: Promote U.S. innovation and industrial competitiveness
 Internet and through communications and broadband policies              Objective 2.3: Advance global e-commerce as well as telecommunications and
 that enable robust infrastructure, ensure integrity of the system,      information services
 and support e-commerce (NTIA)                                           ●● Promote the availability, and support new sources, of advanced
                                                                             telecommunications and information services (NTIA)
                                                                         ●● Ensure the effective implementation of the Broadband Technology
                                                                             Opportunities Program (NTIA)

 Objective 5: Provide measurement tools and standards to                 Goal 2: Promote U.S. innovation and industrial competitiveness
 strengthen manufacturing, enable innovation, and increase               Objective 2.1: Advance measurement science and standards that drive
 efficiency (NIST)                                                       technological change
                                                                         ●● Promote innovation, facilitate trade, and ensure public safety and security by
                                                                            strengthening the Nation’s measurement and standards infrastructure (NIST)

                                                                                                                                                (continued)




 356                                                     F Y   2 0 1 1    P E R F O R M A N C E        A N D    A C C O U N T A B I L I T Y       R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                            Crosswalk between the FY 2011 – FY 2016 (new) Strategic Plan and
                                    FY 2007 – FY 2012 (old) Strategic Plan (continued)
          FY 2011 – FY 2016 Strategic Plan (new)                                      FY 2007 – FY 2012 Strategic Plan (old)

 New Objective                                                      Old Goal, Objective(s)/Outcome(s) which most closely match

 Objective 6: Promote the advancement of sustainable                New – no corresponding objective
 technologies, industries, and infrastructure (EDA)

 Objective 7: Promote the vitality and competitiveness of           Goal 1: Maximize U.S. competitiveness and enable economic growth for American
 our communities and businesses, particularly those that are        industries, workers, and consumers
 disadvantaged or in distressed areas (EDA, MBDA)                   Objective 1.1: Foster domestic economic development as well as export
                                                                    opportunities
                                                                    ●● Promote private investment and job creation in economically distressed
                                                                        communities (EDA)
                                                                    ●● Improve community capacity to achieve and sustain economic growth (EDA)
                                                                    ●● Increase access to the marketplace and financing for minority-owned
                                                                        businesses (MBDA)

 Objective 8: Improve the competitiveness of small and medium-      Goal 1: Maximize U.S. competitiveness and enable economic growth for American
 sized firms in manufacturing and service industries (ITA, NIST)    industries, workers, and consumers
                                                                    Objective 1.1: Foster domestic economic development as well as export
                                                                    opportunities
                                                                    ●● Strengthen U.S. competitiveness in domestic and international markets (ITA)

                                                                    Objective 1.4: Position manufacturers to compete in a global economy
                                                                    ●● Increase the productivity, profitability, and competitiveness of manufacturers
                                                                       (NIST)

 Objective 9: Increase U.S. export value through trade promotion,   Goal 1: Maximize U.S. competitiveness and enable economic growth for American
 market access, compliance, and interagency collaboration           industries, workers, and consumers
 (including support for small and medium enterprises) (ITA)         Objective 1.1: Foster domestic economic development as well as export
                                                                    opportunities
                                                                    ●● Broaden and deepen U.S. exporter base (ITA)

                                                                    Objective 1.2: Advance responsible economic growth and trade while protecting
                                                                    American security
                                                                    ●● Identify and resolve unfair trade practices (ITA)

 Objective 10: Implement an effective export control reform         Goal 1: Maximize U.S. competitiveness and enable economic growth for American
 program to advance national security and overall economic          industries, workers, and consumers
 competitiveness (BIS)                                              Objective 1.2: Advance responsible economic growth and trade while protecting
                                                                    American security
                                                                    ●● Maintain and strengthen an adaptable and effective U.S. export control and
                                                                        treaty compliance system (BIS)
                                                                    ●● Integrate non-U.S. actors to create a more effective global export control and
                                                                        treaty compliance system (BIS)
                                                                    ●● Ensure continued U.S. technology leadership in industries that are essential to
                                                                        national security (BIS)

                                                                                                                                           (continued)




F Y   2 0 1 1   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                   357
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                             Crosswalk between the FY 2011 – FY 2016 (new) Strategic Plan and
                                     FY 2007 – FY 2012 (old) Strategic Plan (continued)
          FY 2011 – FY 2016 Strategic Plan (new)                                          FY 2007 – FY 2012 Strategic Plan (old)

 New Objective                                                           Old Goal, Objective(s)/Outcome(s) which most closely match

 Objective 11: Develop and influence international standards and         New – no corresponding objective
 policies to support the full and fair competitiveness of the U.S.
 information and communications technology sector (NTIA)

 Objective 12: Vigorously enforce U.S. fair trade laws through           Goal 1: Maximize U.S. competitiveness and enable economic growth for American
 impartial investigation of complaints, improved access for U.S.         industries, workers, and consumers
 firms and workers, and fuller compliance with antidumping/              Objective 1.1: Foster domestic economic development as well as export
 countervailing duty remedies (ITA)                                      opportunities
                                                                         ●● Strengthen U.S. competitiveness in domestic and international markets (ITA)

 Objective 13: Increase scientific knowledge and provide                 Goal 2: Promote U.S. innovation and industrial competitiveness
 information to stakeholders to support economic growth and to           Objective 2.1: Advance measurement science and standards that drive
 improve innovation, technology, and public safety (NTIS, NTIA)          technological change
                                                                         ●● Increase public access to worldwide scientific and technical information
                                                                            through improved acquisition and dissemination activities (NTIS)

 Objective 14: Enable informed decision-making through an                Goal 1: Maximize U.S. competitiveness and enable economic growth for American
 expanded understanding of the U.S. economy, society, and                industries, workers, and consumers
 environment by providing timely, relevant, trusted, and accurate        Objective 1.3: Advance key economic and demographic data that support
 data, standards, and services (ESA/CENSUS, ESA/BEA, NOAA)               effective decision-making of policymakers, businesses, and the American public
                                                                         ●● Provide benchmark measures of the U.S. population, economy, and
                                                                             governments (ESA/CENSUS)
                                                                         ●● Provide current measures of the U.S. population, economy, and governments
                                                                             (ESA/CENSUS)
                                                                         ●● Provide timely, relevant, and accurate economic statistics (ESA/BEA)

 Objective 15: Improve weather, water, and climate reporting and         Goal 3: Promote environmental stewardship
 forecasting (NOAA)                                                      Objective 3.3: Provide accurate and timely weather and water information (NOAA)
                                                                         Objective 3.4: Support safe, efficient, and environmentally sound commercial
                                                                         navigation (portion) (NOAA)

 Objective 16: Support climate adaptation and mitigation (NOAA)          Goal 3: Promote environmental stewardship
                                                                         Objective 3.2: Advance understanding of climate variability and change (NOAA)

 Objective 17: Develop sustainable and resilient fisheries, habitats,    Goal 3: Promote environmental stewardship
 and species (NOAA)                                                      Objective 3.1: Protect, restore, and manage the use of coastal and ocean
                                                                         resources (portion) (NOAA)

 Objective 18: Support coastal communities that are                      Goal 3: Promote environmental stewardship
 environmentally and economically sustainable (NOAA)                     Objective 3.1: Protect, restore, and manage the use of coastal and ocean
                                                                         resources (portion) (NOAA)
                                                                         Objective 3.4: Support safe, efficient, and environmentally sound commercial
                                                                         navigation (portion) (NOAA)

                                                                                                                                              (continued)




 358                                                     F Y   2 0 1 1    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y      R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                             Crosswalk between the FY 2011 – FY 2016 (new) Strategic Plan and
                                     FY 2007 – FY 2012 (old) Strategic Plan (continued)
          FY 2011 – FY 2016 Strategic Plan (new)                                      FY 2007 – FY 2012 Strategic Plan (old)

 New Objective                                                      Old Goal, Objective(s)/Outcome(s) which most closely match

 Objective 19: Provide streamlined services and a single point      New – no corresponding objective
 of contact assistance for customers, improving interaction and
 communication through CommerceConnect, partnerships, and
 other means of stakeholder involvement (DM)

 Objective 20: Promote information access and transparency          New – no corresponding objective
 through the use of technology, fuller understanding customer
 requirements, and new data products and services that add value
 to customers (DM)

 Objective 21: Provide a high level of customer service to our      New – no corresponding objective
 internal and external customers through effective and efficient
 functions implemented by empowered employees (DM)

 Objective 22: Strengthen financial and non-financial internal      Management Integration Goal: Achieve organizational and management
 controls to maximize program efficiency, ensure compliance with    excellence
 statutes and regulations, and prevent waste, fraud, and abuse of   ●● Ensure effective resource stewardship in support of the Department’s
 government resources (DM, OIG)                                        programs (DM)
                                                                    ●● Promote improvements to Department programs and operations by identifying
                                                                       and completing work that (1) promotes integrity, efficiency, and effectiveness;
                                                                       and (2) prevents and detects fraud, waste, and abuse (OIG)

 Objective 23: Re-engineer key business processes to increase       New – no corresponding objective
 efficiencies, manage risk, and strengthen effectiveness (DM)

 Objective 24: Create an IT enterprise architecture that supports   Management Integration Goal: Achieve organizational and management
 mission-critical business and programmatic requirements,           excellence
 including effective management of cyber security threats (DM)      ●● Acquire and manage technology resources to support program goals (DM)

 Objective 25: Recruit, grow, develop, and retain a high-           Management Integration Goal: Achieve organizational and management
 performing, diverse workforce with the critical skills necessary   excellence
 for mission success, including the next generation of scientists   ●● Ensure retention of highly qualified staff in mission-critical positions (DM)
 and engineers (DM)

 Objective 26: Create an optimally-led Department by focusing on    New – no corresponding objective
 leadership development, accountability, and succession planning
 (DM)

 Objective 27: Provide an environment that empowers employees       New – no corresponding objective
 and creates a productive and safe workplace (DM)




F Y   2 0 1 1   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                       359
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                       Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                                    and the FY 2011 – FY 2016 (new) Strategic Plan
                                                                                                                         FY 2011 – FY 2016
    FY 2007 – FY 2012                                                                                                    Strategic Plan
  Strategic Plan (old)                          Performance Measures (Bureau)                                                 (new)

 Goal 1: Maximize U.S.
 competitiveness and
 enable economic growth
 for American industries,
 workers, and consumers

 Objective 1.1: Foster domestic   Private investment leveraged – 9 year totals (EDA)                          Objective 3: Stimulate high-growth
 economic development as                                                                                      business formation and entrepreneurship,
                                  Private investment leveraged – 6 year totals (EDA)
 well as export opportunities                                                                                 through investing in high-risk, high-
                                  Private investment leveraged – 3 year totals (EDA)                          reward technologies and by removing
                                                                                                              impediments to accelerate technology
                                  Jobs created/retained – 9 year totals (EDA)                                 commercialization
                                  Jobs created/retained – 6 year totals (EDA)
                                                                                                              Objective 6: Promote the advancement of
                                  Jobs created/retained – 3 year totals (EDA)                                 sustainable technologies, industries, and
                                                                                                              infrastructure

                                                                                                              Objective 7: Promote the vitality and
                                                                                                              competitiveness of our communities and
                                                                                                              businesses, particularly those that are
                                                                                                              disadvantaged or in distressed areas

                                  Percentage of Economic Development Districts (EDD) and Indian tribes        Objective 3: Stimulate high-growth
                                  implementing economic development projects from the Comprehensive           business formation and entrepreneurship,
                                  Economic Development Strategy (CEDS) that lead to private investment        through investing in high-risk, high-
                                  and jobs (EDA)                                                              reward technologies and by removing
                                                                                                              impediments to accelerate technology
                                  Percentage of sub-state jurisdiction members actively participating in
                                                                                                              commercialization
                                  the Economic Development District (EDD) program (EDA)

                                  Percentage of University Center clients taking action as a result           Objective 7: Promote the vitality and
                                  University Center assistance (EDA)                                          competitiveness of our communities and
                                                                                                              businesses, particularly those that are
                                  Percentage of those actions taken by University Center clients that         disadvantaged or in distressed areas
                                  achieve the expected results (EDA)


                                                                                                                                            (continued)




 360                                                   F Y   2 0 1 1    P E R F O R M A N C E         A N D   A C C O U N T A B I L I T Y    R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                       Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                              and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                           FY 2011 – FY 2016
     FY 2007 – FY 2012                                                                                                     Strategic Plan
   Strategic Plan (old)                          Performance Measures (Bureau)                                                  (new)

 Objective 1.1: Foster domestic   Percentage of Trade Adjustment Assistance Center (TAAC) clients             Objective 7: Promote the vitality and
 economic development as          taking action as a result of the assistance facilitated by the TAACs        competitiveness of our communities and
 well as export opportunities     (EDA)                                                                       businesses, particularly those that are
 (continued)                                                                                                  disadvantaged or in distressed areas
                                  Percentage of those actions taken by Trade Adjustment Assistance
                                  Center clients that achieved the expected results (EDA)

                                  Dollar value of contract awards obtained (MBDA)

                                  Dollar value of financial awards obtained (MBDA)

                                  Number of new job opportunities created (MBDA)

                                  Cumulative economic impact (MBDA)

                                  Percent increase in client gross receipts (MBDA)                            Discontinued

                                  Annual cost savings resulting from the adoption of MAS                      Objective 8: Improve the competitiveness
                                  recommendations contained in MAS studies and analysis (ITA)                 of small and medium-sized firms in
                                                                                                              manufacturing and service industries

                                  Percent of industry-specific trade barriers addressed that were             Objective 12: Vigorously enforce U.S. fair
                                  removed or prevented (ITA)                                                  trade laws through impartial investigation
                                                                                                              of complaints, improved access for U.S.
                                  Percent of industry-specific trade barrier milestones completed (ITA)
                                                                                                              firms and workers, and fuller compliance
                                                                                                              with antidumping/countervailing duty
                                                                                                              remedies

                                  Export success firms/active client firms (annual) (ITA)                     Objective 9: Increase U.S. export
                                                                                                              value through an emphasis on trade
                                  Increase in the annual growth rate of total small and medium-sized
                                                                                                              promotion, market access, compliance,
                                  (SME) exporters (ITA)1
                                                                                                              and interagency cooperation (including
                                  US&FCS SME NTE/total change in SME exporters (annual) (ITA)                 support for small and medium enterprises)

                                  Commercial diplomacy success (cases) (annual) (ITA)

                                  Percentage of advocacy bids won (ITA)

                                  Number of SME NTM firms/SME firms exporting to two to nine markets
                                  (annual) (ITA)
 1	This measure was formerly known as “Increase in the percent of small and medium-sized firms that export (ITA).”   It will be discontinued in FY 2012.

                                                                                                                                                (continued)




F Y   2 0 1 1   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                                           361
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                       Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                              and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                       FY 2011 – FY 2016
    FY 2007 – FY 2012                                                                                                  Strategic Plan
  Strategic Plan (old)                          Performance Measures (Bureau)                                               (new)

 Objective 1.1: Foster domestic   Percent of agreement milestones completed (ITA)                           Objective 12: Vigorously enforce U.S. fair
 economic development as                                                                                    trade laws through impartial investigation
 well as export opportunities                                                                               of complaints, improved access for U.S.
 (continued)                                                                                                firms and workers, and fuller compliance
                                                                                                            with antidumping/countervailing duty
 Objective 1.2: Advance           Number of compliance and market access cases resolved successfully
                                                                                                            remedies
 responsible economic growth      (ITA)
 and trade while protecting
                                  Value of compliance and market access cases resolved successfully
 American security
                                  (ITA)

                                  Percent of AD/CVD determinations issued within statutory and/or
                                  regulatory deadlines (ITA)

                                  Percent of ministerial errors in IA’s dumping and subsidy calculations
                                  (ITA)

                                  Percent reduction in trade distorting foreign subsidy programs (ITA)

                                  Percent of licenses requiring interagency referral referred within 9      Objective 10: Implement an effective
                                  days (BIS)                                                                export control reform program to advance
                                                                                                            national security and overall economic
                                  Median processing time for new regime regulations (months) (BIS)
                                                                                                            competitiveness
                                  Percent of attendees rating seminars highly (BIS)

                                  Percent of declarations received from U.S. industry in accordance
                                  with CWC regulations (time lines) that are processed, certified, and
                                  submitted to the State Department in time so the United States can
                                  meet its treaty obligations (BIS)

                                  Number of actions that result in a deterrence or prevention of a
                                  violation and cases which result in a criminal and/or administrative
                                  charge (BIS)

                                  Percent of shipped transactions in compliance with the licensing
                                  requirements of the Export Administration Regulations (EAR) (BIS)

                                  Percentage of post-shipment verifications completed and categorized
                                  above the “unfavorable” classification (BIS)

                                  Number of end-use checks completed (BIS)

                                  Percent of industry assessments resulting in BIS determination, within
                                  three months of completion, on whether to revise export controls (BIS)

                                                                                                                                          (continued)




 362                                                   F Y   2 0 1 1    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y     R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                      Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                             and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                     FY 2011 – FY 2016
     FY 2007 – FY 2012                                                                                               Strategic Plan
   Strategic Plan (old)                       Performance Measures (Bureau)                                               (new)

 Objective 1.3: Advance key     Correct street features in the TIGER (geographic) database (number        Objective 14: Enable informed
 economic and demographic       of counties completed) to more effectively support Census Bureau          decision-making through an expanded
 data that support effective    censuses and surveys, facilitate the geographic partnerships              understanding of the U.S. economy,
 decision-making of             between federal, state, local and tribal governments, and support the     society, and environment by providing
 policymakers, businesses,      E-Government initiative in the President’s Management Agenda (ESA/        timely, relevant, trusted, and accurate
 and the American public        CENSUS)                                                                   data, standards, and services

                                Complete key activities for cyclical census programs on time to support
                                effective decision-making by policymakers, businesses, and the public
                                and meet constitutional and legislative mandates (ESA/CENSUS)

                                Meet or exceed the overall federal score of customer satisfaction on
                                the E-Government American Customer Satisfaction Index (ACSI) (ESA/
                                CENSUS)

                                Achieve pre-determined collection rates for Census Bureau censuses
                                and surveys in order to provide statistically reliable data to support
                                effective decision-making of policymakers, businesses, and the public
                                (ESA/CENSUS)

                                Release data products for key Census Bureau programs on time to
                                support effective decision-making of policymakers, businesses, and the
                                public (ESA/CENSUS)

                                Timeliness: Reliability of delivery of economic statistics (number of
                                scheduled releases issued on time) (ESA/BEA)

                                Relevance: Customer satisfaction (mean rating on a 5-point scale)
                                (ESA/BEA)

                                Accuracy: Percent of GDP estimates correct (ESA/BEA)

                                Complete all major strategic plan milestones related to improving the
                                economic accounts (ESA/BEA)

 Objective 1.4: Position        Number of clients served by Hollings MEP centers receiving federal        Objective 8: Improve the competitiveness
 manufacturers to compete in    funding (NIST)                                                            of small and medium-sized firms in
 a global economy                                                                                         manufacturing and service industries
                                Increased sales attributed to Hollings MEP centers receiving federal
                                funding (NIST)

                                Capital investment attributed to Hollings MEP centers receiving federal
                                funding (NIST)

                                Cost savings attributed to Hollings MEP centers receiving federal
                                funding (NIST)

                                                                                                                                        (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                                    363
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                        Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                               and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                     FY 2011 – FY 2016
    FY 2007 – FY 2012                                                                                                Strategic Plan
  Strategic Plan (old)                        Performance Measures (Bureau)                                               (new)

 Goal 2: Promote U.S.
 innovation and industrial
 competitiveness

 Objective 2.1: Advance          Qualitative assessment and review of technical quality and merit using   Objective 5: Provide measurement
 measurement science             peer review (NIST)                                                       tools and standards to strengthen
 and standards that drive                                                                                 manufacturing, enable innovation, and
                                 Citation impact of NIST-authored publications (NIST)
 technological change                                                                                     increase efficiency
                                 Peer-reviewed technical publications produced (NIST)

                                 Standard Reference Materials (SRM) sold (NIST)

                                 NIST-maintained datasets downloaded (NIST)

                                 Number of calibration tests performed (NIST)

                                 Number of updated items available (annual) (NTIS)                        Objective 13: Increase scientific
                                                                                                          knowledge and provide information to
                                 Number of information products disseminated (annual) (NTIS)
                                                                                                          stakeholders to support economic growth
                                 Customer satisfaction (NTIS)                                             and to improve innovation, technology,
                                                                                                          and public safety

                                 Cumulative number of TIP projects funded (NIST)                          Objective 3: Stimulate high-growth
                                                                                                          business formation and entrepreneurship,
 NIST began tracking these       Cumulative number of publications (NIST)
                                                                                                          through investing in high-risk, high-
 lagging measures related to
                                 Cumulative number of patent applications (NIST)                          reward technologies and by removing
 the Technology Innovation
                                                                                                          impediments to accelerate technology
 Program (TIP) in FY 2009,       Cumulative number of projects generating continued R&D (NIST)            commercialization
 however, the results will not
 be available until FY 2012.     Cumulative number of projects with technologies under adoption (NIST)



                                                                                                                                        (continued)




 364                                                 F Y   2 0 1 1    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y    R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                       Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                              and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                  FY 2011 – FY 2016
     FY 2007 – FY 2012                                                                                            Strategic Plan
   Strategic Plan (old)                       Performance Measures (Bureau)                                            (new)

 Objective 2.2: Protect         Non-final in-process compliance rate (USPTO)                           Objective 1: Improve intellectual property
 intellectual property and                                                                             protection by reducing patent pendency,
                                Final rejection allowance compliance rate (USPTO)
 improve the patent and                                                                                maintaining trademark pendency, and
 trademark system               Patent first action pendency (months) (USPTO)                          increasing the quality of issued patents
                                                                                                       and trademarks
                                Patent total pendency (months) (USPTO)

                                Patent applications filed electronically (USPTO)

                                Trademark first action compliance rate (USPTO)

                                Trademark final compliance rate (USPTO)

                                Trademark first action pendency (months) (USPTO)

                                Trademark average total pendency (months), excluding suspended and
                                inter partes proceedings (USPTO)

                                Trademark applications processed electronically (USPTO)

                                Percent of prioritized countries that have implemented at least 75%    Objective 2: Expand international markets
                                of action steps in the country-specific action plans toward progress   for U.S. firms and inventors by improving
                                in: institutional improvements of IP enforcement entities, IP office   the protection and enforcement of
                                administration, and the establishment of government-to-government      intellectual property rights
                                cooperative mechanisms to improve IP laws and regulations (USPTO)

                                                                                                                                     (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                             365
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                     Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                            and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                    FY 2011 – FY 2016
    FY 2007 – FY 2012                                                                                               Strategic Plan
  Strategic Plan (old)                     Performance Measures (Bureau)                                                 (new)

 Objective 2.3: Advance      Update the spectrum inventory first established in FY 2010 (NTIA)           Objective 4: Drive innovation by
 global e-commerce as well                                                                               supporting an open global Internet and
                             Identify up to 500 MHz of spectrum to support commercial broadband
 as telecommunications and                                                                               through communications and broadband
                             services or products (NTIA)
 information services                                                                                    policies that enable robust infrastructure,
                             Miles of broadband networks deployed (infrastructure projects) (NTIA)       ensure integrity of the system, and support
                             [Note: This is a Priority Goal]                                             e-commerce

                             Community anchor institutions connected (infrastructure projects)
                             (NTIA) [Note: This is a Priority Goal]

                             New and upgraded public computer workstations (public computer
                             centers projects) (NTIA) [Note: This is a Priority Goal]

                             New household and business subscribers to broadband (sustainable
                             broadband adoption projects) (NTIA) [Note: This is a Priority Goal]

                             Percent of NTIA positions substantially adopted or successful at            Objective 11: Develop and influence
                             international meetings (NTIA)                                               international standards and policies to
                                                                                                         support the full and fair competitiveness of
                                                                                                         the U.S. information and communications
                                                                                                         technology sector

                             Annual progress report on the Test-Bed program (NTIA)                       Objective 13: Increase scientific
                                                                                                         knowledge and provide information to
                                                                                                         stakeholders to support economic growth
                                                                                                         and to improve innovation, technology,
                                                                                                         and public safety

                                                                                                                                        (continued)




 366                                             F Y   2 0 1 1    P E R F O R M A N C E          A N D   A C C O U N T A B I L I T Y      R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                      Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                             and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                       FY 2011 – FY 2016
     FY 2007 – FY 2012                                                                                                 Strategic Plan
   Strategic Plan (old)                       Performance Measures (Bureau)                                                 (new)

 Goal 3: Promote
 environmental stewardship

 Objective 3.1: Protect,        Fish stock sustainability index (FSSI) (NOAA)                              Objective 17: Develop sustainable and
 restore, and manage the                                                                                   resilient fisheries, habitats, and species
                                Percentage of fish stocks with adequate population assessments and
 use of coastal and ocean
                                forecasts (NOAA)
 resources
                                Number of protected species with adequate population assessments
                                and (NOAA)

                                Number of protected species designated as threatened, endangered, or
                                depleted with stable or increasing population levels (NOAA)

                                Number of habitat acres restored (annual) (NOAA)

                                Annual number of coastal, marine, and Great Lakes ecological charac-       Objective 18: Support coastal
                                terizations that meet management needs (NOAA)                              communities that are environmentally and
                                                                                                           economically sustainable
                                Cumulative number of coastal, marine, and Great Lakes issue-based
                                forecasting capabilities developed and used for management (NOAA)

                                Percentage of tools, technologies, and information services that are
                                used by NOAA partners/customers to improve ecosystem-based
                                management (NOAA)

                                Annual number of coastal, marine, and Great Lakes habitat acres
                                acquired or designated for long-term protection (NOAA)

 New measure beginning in       Percentage of U.S. coastal states and territories demonstrating 20% or
 FY 2011                        more annual improvement in resilience capacity to weather and climate
                                hazards (%/year) (NOAA)

 Objective 3.2: Advance         U.S. temperature forecasts (cumulative skill score computed over the       Objective 16: Support climate adaptation
 understanding of climate       regions where predictions are made) (NOAA)                                 and mitigation
 variability and change
                                Uncertainty in the magnitude of the North American (NA) carbon
                                uptake (NOAA)

                                Error in global measurement of sea surface temperature (NOAA)

                                Number of regionally focused climate impacts and adaptation studies
                                communicated to decisionmakers (NOAA)

                                Uncertainty in model simulations of the influence of aerosols on climate   Discontinued
                                (NOAA)

                                                                                                                                           (continued)




F Y   2 0 1 1   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                   367
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                       Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                              and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                             FY 2011 – FY 2016
    FY 2007 – FY 2012                                                                                                        Strategic Plan
  Strategic Plan (old)                           Performance Measures (Bureau)                                                    (new)

 Objective 3.3: Provide           Severe weather warnings for tornados (storm-based) – Lead time                  Objective 15: Improve weather, water, and
 accurate and timely weather      (minutes) (NOAA)                                                                climate reporting and forecasting
 and water information
                                  Severe weather warnings for tornadoes (storm-based) – Accuracy (%)
                                  (NOAA)

                                  Severe weather warnings for tornadoes (storm-based) – False alarm
                                  rate (%) (NOAA)

                                  Severe weather warnings for flash floods (storm-based) – Lead time
                                  (minutes) (NOAA)

                                  Severe weather warnings for flash floods (storm-based) – Accuracy
                                  (%) (NOAA)

                                  Hurricane forecast track error (48 hours) (nautical miles) (NOAA)

                                  Hurricane forecast intensity error (48 hours) (difference in knots)
                                  (NOAA)

                                  Accuracy (%) (threat score) of day 1 precipitation forecasts (NOAA)

                                  Winter storm warnings – Lead time (hours) (NOAA)

                                  Winter storm warnings – Accuracy (%) (NOAA)

 Objective 3.4: Support safe,     Marine wind speed accuracy (%) (NOAA)
 efficient, and environmentally
                                  Marine wave height accuracy (%) (NOAA)
 sound commercial navigation
                                  Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less)
                                  (%) (NOAA)

                                  Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less) (%)
                                  (NOAA)

                                  Hydrographic survey backlog within navigationally significant areas             Objective 18: Support coastal
                                  (square nautical miles surveyed per year) (NOAA)                                communities that are environmentally and
                                                                                                                  economically sustainable
                                  Percentage of U.S. counties rated as fully enabled or substantially
                                  enabled with accurate positioning capacity (NOAA)

                                                                                                                                                (continued)




 368                                                    F Y   2 0 1 1     P E R F O R M A N C E          A N D    A C C O U N T A B I L I T Y    R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                      Crosswalk of Measures between the FY 2007 – FY 2012 (old) Strategic Plan
                             and the FY 2011 – FY 2016 (new) Strategic Plan (continued)
                                                                                                                 FY 2011 – FY 2016
     FY 2007 – FY 2012                                                                                           Strategic Plan
   Strategic Plan (old)                       Performance Measures (Bureau)                                           (new)

 Management                     Provide accurate and timely financial information and conform to      Objective 22: Strengthen financial and
 Integration Goal               federal standards, laws, and regulations governing accounting and     non-financial internal controls to maximize
 (no objectives existed         financial management (DM)                                             program efficiency, ensure compliance
 within this goal)                                                                                    with statutes and regulations, and prevent
                                Effectively use commercial services management (DM)
                                                                                                      waste, fraud, and abuse of government
                                Percentage of OIG recommendations accepted by Departmental and        resources
                                bureau management (OIG)

                                Dollar value of financial benefits identified by the OIG (OIG)

                                Percentage of criminal and civil matters that are accepted for
                                prosecution (OIG)

                                Obligate funds through performance-based contracting (% of eligible   Objective 23: Re-engineer key business
                                service contracting $) (DM)                                           practices to increase efficiencies, manage
                                                                                                      risk, and strengthen effectiveness

                                Improve the management of information technology (DM)                 Objective 24: Create an IT enterprise
                                                                                                      architecture that supports mission-critical
                                                                                                      business and programmatic requirements,
                                                                                                      including effective management of cyber
                                                                                                      security threats

                                Acquire and maintain diverse and highly qualified staff in mission-   Objective 25: Recruit, grow, develop,
                                critical occupations (DM)                                             and retain a high-performing, diverse
                                                                                                      workforce with the critical skills
                                                                                                      necessary for mission success, including
                                                                                                      the next generation of scientists and
                                                                                                      engineers




F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                             369
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                Crosswalk of Bureaus between the FY 2007 – FY 2012 (old) Strategic Plan and
                                the FY 2011 – FY 2016 (new) Strategic Plan
       Bureau           FY 2007 – FY 2012 Strategic Plan (old)                         FY 2011 – FY 2016 Strategic Plan (new)

 DM              Management Integration Goal                                 Customer Service Theme
                                                                             ●● Objective 19: Provide streamlined services and a single
                                                                                point of contact assistance for customers, improving
                                                                                interaction and communication through CommerceConnect,
                                                                                partnerships, and other means of stakeholder involvement
                                                                             ●● Objective 20: Promote information access and transparency
                                                                                through the use of technology, fuller understanding of
                                                                                customer requirements, and new data products and
                                                                                services that add value to customers
                                                                             ●● Objective 21: Provide a high level of customer service to
                                                                                our internal and external customers through effective and
                                                                                efficient functions implemented by empowered employees

                                                                             Organizational Excellence Theme
                                                                             ●● Objective 22: Strengthen financial and non-financial
                                                                                internal controls to maximize program efficiency, ensure
                                                                                compliance with statutes and regulations, and prevent
                                                                                waste, fraud, and abuse of government resources
                                                                             ●● Objective 23: Re-engineer key business processes
                                                                                to increase efficiencies, manage risk, and strengthen
                                                                                effectiveness
                                                                             ●● Objective 24: Create an IT enterprise architecture that
                                                                                supports mission-critical business and programmatic
                                                                                requirements, including effective management of cyber
                                                                                security threats

                                                                             Workforce Excellence Theme
                                                                             ●● Objective 25: Recruit, grow, develop, and retain a
                                                                                high-performing, diverse workforce with the critical
                                                                                skills necessary for mission success, including the next
                                                                                generation of scientists and engineers
                                                                             ●● Objective 26: Create an optimally-led Department by
                                                                                focusing on leadership development, accountability, and
                                                                                succession planning
                                                                             ●● Objective 27: Provide an environment that empowers
                                                                                employees and creates a productive and safe workplace

 OIG             Management Integration Goal                                 Organizational Excellence Theme
                                                                             ●● Objective 22: Strengthen financial and non-financial
                                                                                internal controls to maximize program efficiency, ensure
                                                                                compliance with statutes and regulations, and prevent
                                                                                waste, fraud, and abuse of government resources

                                                                                                                               (continued)




 370                                           F Y   2 0 1 1   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                    Crosswalk of Bureaus between the FY 2007 – FY 2012 (old) Strategic Plan and
                              the FY 2011 – FY 2016 (new) Strategic Plan (continued)
       Bureau                FY 2007 – FY 2012 Strategic Plan (old)                           FY 2011 – FY 2016 Strategic Plan (new)

 EDA                 Goal 1: Maximize U.S. competitiveness and enable economic         Economic Growth Theme
                     growth for American industries, workers, and consumers            ●● Objective 3: Stimulate high-growth business formation
                     ●● Objective 1.1: Foster domestic economic development as            and entrepreneurship, through investing in high-risk,
                        well as export opportunities                                      high-reward technologies and by removing impediments to
                                                                                          accelerate technology commercialization
                                                                                       ●● Objective 6: Promote the advancement of sustainable
                                                                                          technologies, industries, and infrastructure
                                                                                       ●● Objective 7: Promote the vitality and competitiveness of
                                                                                          our communities and businesses, particularly those that are
                                                                                          disadvantaged or in distressed areas

 ESA/CENSUS          Goal 1: Maximize U.S. competitiveness and enable economic         Science and Information Theme
                     growth for American industries, workers, and consumers            ●● Objective 14: Enable informed decision-making through
                     ●● Objective 1.3: Advance key economic and demographic               an expanded understanding of the U.S. economy, society,
                        data that support effective decision-making of policymakers,      and environment by providing timely, relevant, trusted, and
                        businesses, and the American public                               accurate data, standards, and services

 ESA/BEA             Goal 1: Maximize U.S. competitiveness and enable economic         Science and Information Theme
                     growth for American industries, workers, and consumers            ●● Objective 14: Enable informed decision-making through
                     ●● Objective 1.3: Advance key economic and demographic               an expanded understanding of the U.S. economy, society,
                        data that support effective decision-making of policymakers,      and environment by providing timely, relevant, trusted, and
                        businesses, and the American public                               accurate data, standards, and services

 ITA                 Goal 1: Maximize U.S. competitiveness and enable economic         Economic Growth Theme
                     growth for American industries, workers, and consumers            ●● Objective 8: Improve the competitiveness of small and
                     ●● Objective 1.1: Foster domestic economic development as            medium-sized firms in manufacturing and service industries
                        well as export opportunities                                   ●● Objective 9: Increase U.S. export value through trade
                     ●● Objective 1.2: Advance responsible economic growth and            promotion, market access, compliance, and interagency
                        trade while protecting American security                          collaboration (including support for small and medium
                                                                                          enterprises)
                                                                                       ●● Objective 12: Vigorously enforce U.S. fair trade laws
                                                                                          through impartial investigation of complaints, improved
                                                                                          access for U.S. firms and workers, and fuller compliance
                                                                                          with antidumping/countervailing duty remedies

 BIS                 Goal 1: Maximize U.S. competitiveness and enable economic         Economic Growth Theme
                     growth for American industries, workers, and consumers            ●● Objective 10: Implement an effective export control reform
                     ●● Objective 1.2: Advance responsible economic growth and            program to advance national security and economic
                        trade while protecting American security                          competitiveness

 MBDA                Goal 1: Maximize U.S. competitiveness and enable economic         Economic Growth Theme
                     growth for American industries, workers, and consumers            ●● Objective 7: Promote the vitality and competitiveness of
                     ●● Objective 1.1: Foster domestic economic development as            our communities and businesses, particularly those that are
                        well as export opportunities                                      disadvantaged or in distressed areas

                                                                                                                                          (continued)




F Y   2 0 1 1   P E R F O R M A N C E    A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                  371
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




             Crosswalk of Bureaus between the FY 2007 – FY 2012 (old) Strategic Plan and
                       the FY 2011 – FY 2016 (new) Strategic Plan (continued)
    Bureau            FY 2007 – FY 2012 Strategic Plan (old)                           FY 2011 – FY 2016 Strategic Plan (new)

 NOAA         Goal 3: Promote environmental stewardship                         Science and Information Theme
              ●● Objective 3.1: Protect, restore, and manage the use of         ●● Objective13: Increase scientific knowledge and provide
                 coastal and ocean resources                                       information to stakeholders to support economic growth
              ●● Objective 3.2: Advance understanding of climate variability       and to improve innovation, technology, and public safety
                 and change                                                     ●● Objective 14: Enable informed decision-making through
              ●● Objective 3.3: Provide accurate and timely weather and            an expanded understanding of the U.S. economy, society,
                 water information                                                 and environment by providing timely, relevant, trusted, and
              ●● Objective 3.4: Support safe, efficient, and environmentally       accurate data, standards, and services
                 sound commercial navigation                                    ●● Objective 15: Improve weather, water, and climate reporting
                                                                                   and forecasting

                                                                                Environmental Stewardship Theme
                                                                                ●● Objective 16: Support climate adaptation and mitigation
                                                                                ●● Objective 17: Develop sustainable and resilient fisheries,
                                                                                   habitats, and species
                                                                                ●● Objective 18: Support coastal communities that are
                                                                                   environmentally and economically sustainable

 USPTO        Goal 2: Promote U.S. innovation and industrial competitiveness    Economic Growth Theme
              ●● Objective 2.2: Protect intellectual property and improve the   ●● Objective 1: Improve intellectual property protection
                 patent and trademark system                                       by reducing patent pendency, maintaining trademark
                                                                                   pendency, and increasing the quality of issued patents and
                                                                                   trademarks
                                                                                ●● Objective 2: Expand international markets for U.S. firms and
                                                                                   inventors by improving the protection and enforcement of
                                                                                   intellectual property rights

 NIST         Goal 1: Maximize U.S. competitiveness and enable economic         Economic Growth Theme
              growth for American industries, workers, and consumers            ●● Objective 3: Stimulate high-growth business formation
              ●● Objective 1.4: Position manufacturers to compete in a             and entrepreneurship, through investing in high-risk,
                 global economy                                                    high-reward technologies and by removing impediments to
                                                                                   accelerate technology commercialization
              Goal 2: Promote U.S. innovation and industrial competitiveness
                                                                                ●● Objective 5: Provide measurement tools and standards to
              ●● Objective 2.1: Advance measurement science and
                                                                                   strengthen manufacturing, enable innovation, and increase
                 standards that drive technological change
                                                                                   efficiency
                                                                                ●● Objective 8: Improve the competitiveness of small and
                                                                                   medium-sized firms in manufacturing and service industries

 NTIS         Goal 2: Promote U.S. innovation and industrial competitiveness    Science and Information Theme
              ●● Objective 2.1: Advance measurement science and                 ●● Objective 13: Increase scientific knowledge and provide
                 standards that drive technological change                         information to stakeholders to support economic growth
                                                                                   and to improve innovation, technology, and public safety

                                                                                                                                   (continued)




 372                                           F Y   2 0 1 1    P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y       R E P O R T
APPENDIX B: Crosswalk between FY 2011 – FY 2016 (new) and FY 2007 – FY 2012 (old) Strategic Plans




                    Crosswalk of Bureaus between the FY 2007 – FY 2012 (old) Strategic Plan and
                              the FY 2011 – FY 2016 (new) Strategic Plan (continued)
     Bureau                  FY 2007 – FY 2012 Strategic Plan (old)                              FY 2011 – FY 2016 Strategic Plan (new)

 NTIA                Goal 2: Promote U.S. innovation and industrial competitiveness      Economic Growth Theme
                     ●● Objective 2.3: Advance global e-commerce as well as              ●● Objective 4: Drive innovation through supporting an open
                        telecommunications and information services                         global Internet and through communications and broadband
                                                                                            policies that enable robust infrastructure, ensure integrity of
                                                                                            the system, and support e-commerce

                                                                                         Science and Information Theme
                                                                                         ●● Objective 11: Develop and influence international standards
                                                                                            and policies to support the full and fair competitiveness of
                                                                                            the U.S. information and communications technology sector
                                                                                         ●● Objective 13: Increase scientific knowledge and provide
                                                                                            information to stakeholders to support economic growth
                                                                                            and to improve innovation, technology, and public safety




F Y   2 0 1 1   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y         R E P O R T
                                                                                                                                                       373
A P P E N D I X C : S TA K E H O L D E R S A N D C R O S S C U T T I N G P R O G R A M S




                                   S ta k eholders and crosscutting programs




T 
          he Department has numerous crosscutting programs involving multiple bureaus: other federal, state, and local

 
          agencies; foreign government; and private enterprise. Federal programs dealing with economic and technological
          development, the natural environment, international trade, and demographic and economic statistics play a major role
in advancing the welfare of all Americans. The Department continues to work with other government agencies in furthering
efforts in these areas for the American public. Examples of crosscutting programs external to the Department’s bureaus include
the following federal, state, local, and international agencies:


          DEPARTMENT OF COMMERCE BUREAU                                               OTHER FEDERAL AGENCIES
                    ACTIVITIES                                                          And organizations1

 Chemical Weapons Convention compliance                 Department of Agriculture                   National Science Foundation

 Defense industrial base activities                     Department of Defense                       Small Business Administration

 Economic development                                   Department of Education                     U.S. Postal Service

 Economic distress and recovery efforts                 Department of Energy                        Agency for Health Care Research and
                                                                                                       Quality
 Environmental programs                                 Department of Health and Human
                                                           Services                                 Customs/Border and Transportation
 Export controls
                                                                                                       Security/Homeland Security
                                                        Department of Homeland Security
 Homeland security
                                                                                                    Federal Aviation Administration
                                                        Department of Housing and Urban
 Improvements to the environment
                                                           Development                              Federal Bureau of Investigation
 Market access/improvements
                                                        Department of Justice                       Food and Drug Administration
 Measurements and standards
                                                        Department of Labor                         Bureau of Justice Statistics
 Minority-owned business development
                                                        Department of State                         National Institutes of Health
 Patents, trademarks, and intellectual property
                                                        Department of Transportation                Bureau of Transportation Statistics
 Research
                                                        Department of the Treasury                  U.S. Coast Guard
 Telecommunications
                                                        Agency for International Development        Delta Regional Authority
 Technology transfer
                                                        Appalachian Regional Commission             Indian Tribes
 Tracking the U.S. economy through GDP and
                                                        Central Intelligence Agency                 States
    other statistics
                                                        Environmental Protection Agency             Other Countries and Organizations
 Trade policies
                                                        Federal Communications Commission           European Patent Office

                                                        National Aeronautics and Space
                                                           Administration
 1   Note: This is not an all-inclusive listing.




    374                                            F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y       R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en



                          2 0 1 1 M anagement C hallenges A N D A C T I O N S T A K E N


                                                    Management Challenges
                Challenge 1: IT Security--Strengthening Department-Wide Information
                            Security
                OIG Statement

                The Department uses over 300 information technology (IT) systems to fulfill cross-cutting responsibilities
                in trade, technology, entrepreneurship, economic development, environmental stewardship, and
                statistical research and analysis. These systems perform functions as varied as processing census and
                economic data, managing patent and trademark applications, handling atmospheric and meteorological
                data, and controlling weather satellites. The Department must ensure that these systems maintain the
                confidentiality, integrity, and availability of information by providing protection from a growing range of
                malicious attacks. Cyber attacks against the government continue to increase in frequency and level of
                sophistication, and federal agencies must improve their ability to cope with them. Although the
                Department of Commerce has put forth extra effort to reinforce its cyber defenses, our ongoing
                assessment of Commerce’s progress toward implementing effective IT security shows there is more to be
                accomplished.

                In the past year, the Department has taken steps toward improving the capabilities of its IT security
                workforce and developed a long-term strategic plan that should enhance its ability to identify
                vulnerabilities and detect malicious activities. However, in both agency and contractor systems we
                continue to find security weaknesses that undermine the Department’s ability to defend its systems and
                information. Our FY 2010 Federal Information Security Management Act (FISMA) audit identified
                significant issues requiring management attention. Most concerning, system components had high-risk
                vulnerabilities that were previously unknown due to inadequate policy, procedures, and practices for
                patch management and vulnerability scanning. These deficiencies increase the risk of serious compromise
                of information confidentiality, integrity, and availability.


                While Commerce Has Plans to Strengthen IT Security, Successful Implementation Is Crucial
                In response to an OIG audit of the Department’s IT security workforce, completed in September 2009, the
                Department established a policy, effective for all operating units, requiring mandatory training for those
                employees with significant IT security responsibilities. The policy identifies specific IT security roles
                along with yearly minimum training hours and approved modes of training. Encouragingly, the policy
                also requires professional certifications for those with critical IT security roles. The Department has also
                implemented a cyber security employee development program designed to assist individuals who have
                not earned an approved industry professional security certification. In addition, the Department’s Office
                of the Chief Information Officer (CIO) and the Office of Human Resources issued joint memorandums to
                address performance management and accountability issues identified in our workforce audit. These
                memorandums provided specific performance requirements to be incorporated in performance plans for
                individuals holding critical IT security roles within the Department.


                Recently, the Department’s CIO, along with the CIO Council, developed an IT security strategic plan that
                includes initiatives for enterprise continuous monitoring and an enterprise security operations center.
                The enterprise continuous monitoring initiative is intended to standardize common security products
                and implement a Commerce-wide monitoring architecture that will provide consistent, efficient, and
                effective common controls and situational awareness for each operating unit and at the Department level.
                The enterprise security operations center initiative is intended to provide security monitoring to detect
                cyber attacks, system compromises, policy violations, and other system problems. The initiatives are
                currently targeted for implementation in FY 2012.


                                                                         1 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               375
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        The IT security workforce initiatives and strategic plan for continuous monitoring and security
        operations center should enhance the Department’s ability to secure its systems, but these efforts will
        require management’s continued attention in the years to come. More needs to be done, however, to
        ensure consistent, effective security controls are in place Department-wide. Under FISMA and
        Department policy, IT security is a responsibility shared by senior program officials and the CIO. Also,
        operating units have roles and responsibilities that parallel those at the Department level, with the
        operating unit head ultimately responsible for the security of the unit’s systems. In addition, authorizing
        officials, who have the authority to oversee an information system’s budget and operations, assume the
        responsibility for operating IT systems at an acceptable level of risk. Thus, management attention at the
        operating unit level as well as the Department level is crucial to the success of these initiatives.


        Significant Weaknesses in IT Security Remain
        In our FY 2010 FISMA audit report, we concluded that the Department’s information security program
        and practices have not adequately secured Department systems. The report presents four major findings
        that require senior management attention.
        The vulnerability scans we conducted revealed previously unidentified high-risk vulnerabilities, which
        increase the risk of a serious breach of IT systems. Weaknesses in contingency preparedness, security
        plans, and control assessments may also increase the risk that Commerce’s systems are not sufficiently
        protected from cyber attack or other prolonged disruptions. Finally, we found that the Department’s
        process for reporting and tracking security weaknesses is deficient, affecting its ability to monitor
        operating units’ corrective actions and potentially corrupting performance measures. We recommended
        that the Department revise its information technology security policy by providing specific
        implementation guidance that will ensure more effective and consistent practices across the Department.
        Further, increased management attention is required to ensure that the deficiencies identified are
        addressed Department-wide.
        Since FY 2001, Commerce’s annual Performance and Accountability Report has reported information security
        as a material weakness, at our recommendation, because of deficiencies in the Department’s certification
        and accreditation (C&A) process. We recently recommended the Department assess its information
        security program as a significant deficiency instead, based on three factors:

            1.   a government-wide policy change has increased the emphasis on continuous monitoring and
                 lessened the emphasis on the C&A process;
            2.   the actions associated with the Department’s C&A process improvement strategy have
                 strengthened the security posture of the Department; and
            3.   our audit findings indicate that IT security control weaknesses are resulting from an insufficient
                 continuous monitoring process.

        Although the IT security strategic plan identifies continuous monitoring as a top priority for
        improvement, operating units should initiate improvements immediately since this plan is not scheduled
        for implementation until 2012 and is dependent upon adequate funding.


        DM’s Responses / Actions Taken
        In response to this management challenge, DM has completed the following actions / activities:

        •   Completed selection of Managed Trusted Internet Protocol Service (MTIPS) vendor to support the
            HCHB network in accordance with the Trusted Internet Connection (TIC) initiative from OMB.
        •   Participated in the one-day test run of the next generation of Internet Protocol, IPv6.
        •   Signed memorandum for Commerce-wide policy for the further implementation of the Homeland
            Security Presidential Directive 12 (HSPD-12) to require the implementation of Personal Identity


                                                               2 
         



 376                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                      Verification (PIV) authentication for logical access control for new and existing Commerce
                      information systems.
                •     Developed and distributed the Commerce Identity, Credential and Access Management (ICAM)
                      baseline, target and roadmap in accordance with Federal ICAM guidance from the Federal CIO
                      Council.
                •     Launched Commerce Continuous Monitoring Working Group and developed a Commerce-wide
                      strategy to meet the automated CyberScope reporting requirements from OMB.
                •     Continued biweekly IT Audit Working Group meetings. The group tracked, managed and validated
                      progress on closure of the IT audit findings from the FY 2010 Financial Statements IT Audit Report.
                      By July 31, 2011, operating units reported that 54 of 55 findings as closed.
                •     Signed Commerce Interim Technical Requirements (CITR) policies for Wireless Encryption and
                      Contingency Plan Testing and Exercise Activities. Provided additional guidance Bluetooth,
                      Configuration Management, and Risk Management Framework (RMF) transition.
                •     Conducted 12 IT Security Compliance CIO-one-to-one evaluations and performed an additional eight
                      security assessments of programs, applications and systems to satisfy FY 2011 Internal Control
                      Review activities.
                •     Conducted monthly reviews of DOC information systems utilizing information within the IT security
                      tool, Cyber Security Assessment and Management (CSAM). The reviews track progress in Authority
                      to Operate status, and in Plans of Action and Milestones (POA&M) management. The scorecards and
                      analysis were presented to the Department’s CIO Council. The implementation of these metrics has
                      helped improve operating unit management of system authority to operates and POA&Ms.
                •     Launched Department’s first Personal Identifiable Information (PII) Privacy Training module to be
                      used as a companion to IT Security General Awareness Training.
                •     Hosted first annual Commerce IT Security Conference with role-based training sessions such as
                      mobile device security; social networking; continuous monitoring; implementing cloud computing
                      and managing a remote workforce; provided mandatory training for all Office of Secretary
                      authorizing official / system owners.
                •     Completed Cyber Security Development Program (CSDP) cycle with 19 graduates in FY 2011; and 52
                      IT Security personnel Department-wide obtaining IT security industry professional certifications.

                As the largest bureau, IT security significantly impacts NOAA. In FY 2012, NOAA took the following
                actions in response to this challenge:

                •     NOAA increased the number of IT devices monitored by the NOAA IT Security Operations Center
                      (SOC) to 7,566 [as of 7/25/11].
                •     NOAA on-boarded its first 4 customers at the NOAA IT SOC.
                •     NOAA developed and distributed a memo to the NOAA Executive Panel, CIO Council, and CFO
                      Council requiring that all acquisitions of new computing devices include smart card readers.
                •     NOAA designated an IPv6 Transition Manager to serve as (a) the person responsible for leading
                      NOAA's IPv6 transition activities and (b) NOAA's liaison with DOC, its bureaus, and the wider
                      Federal IPv6 effort.
                •     NOAA developed a plan to ensure agency procurements of networked IT comply with FAR
                      requirements for use of the USGv6 Profile and Test Program for the completeness and quality of their
                      IPv6 capabilities.
                •     NOAA developed a plan to secure its 3,000 remote access virtual private network users by
                      implementing two-factor authentication using Common Access Card (CAC).




                                                                         3 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             377
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        NOAA achieved the following results in FY 2012:

        •   NOAA achieved 97% of systems in operation with full Authorization to Operate (ATO) [as of
            6/30/11].
        •   NOAA reduced the number of outstanding Plans of Action and Milestones (POA&Ms) greater than
            120 days past due to 212 [as of 6/30/11].
        •   NOAA partially deployed a Web content filter, covering 2,800 unique IP addresses across its Silver
            Spring Metro Center campus.



        Challenge 2: NOAA Environmental Satellite Programs--Effectively
                     Managing the Development and Acquisition of NOAA’s
                     Environmental Satellite Programs

        OIG Statement
        NOAA is modernizing its environmental monitoring capabilities, in part by spending nearly $20 billion
        on two critical satellite systems: the Joint Polar Satellite System (JPSS) and the Geostationary Operational
        Environmental Satellite-R Series (GOES-R). These systems are designed to provide data that will monitor
        Earth’s environments, support the nation’s economy, and protect lives and property from environmental
        disasters.
        JPSS’ predecessor program, the National Polar-Orbiting Operational Environmental Satellite System
        (NPOESS), and GOES-R have histories of cost overruns, schedule delays, and reduced performance
        capabilities. They require close oversight to minimize further disruption to the programs and prevent any
        gaps in satellite coverage. Such gaps could compromise the United States’ ability to forecast weather and
        monitor climate, which would have serious consequences for the safety and security of the nation.

        JPSS Background
        The NPOESS program, which was initiated in 1995, suffered significant setbacks that affected its budgets,
        costs, and launch dates; the launch date of the NPOESS Preparatory Project (NPP) satellite, a National
        Aeronautics and Space Administration (NASA)-led risk reduction effort to test NPOESS’ new
        instruments in flight, was also delayed (figure 1). As a result of a February 1, 2010, decision to
        significantly restructure the NPOESS program, JPSS was established as NOAA’s component of the
        national polar environmental satellite capability, and NPP will now be used operationally to maintain
        continuity of climate and weather forecast data between NOAA’s current polar-orbiting operational
        environmental satellite and the first JPSS satellite.




                                                              4 
         



 378                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                      A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                                                          Figure 1. NPOESS/JPSS Timeline



                    1995: NPOESS Program                       March 2009: NPOESS                     February 2010:
                                                               Program Changes                        Restructuring NPOESS

                         •   Purchase 6 satellites
                                                                  •   Costs have escalated to              •   JPSS is proposed
                         •   $6.5 billion
                                                                      $14 billion (December                •   Purpose of NPP changes
                         •   First launch date                        2008)                                    from risk reduction tom
                             scheduled for 2008
                                                                  •   NPOESS launch date                       operational use
                                                                      delayed until 2014                   •   Transition to JPSS
                                                                  •   NPP satellite launch date                supposed to be completed
                                                                      slips from 2010 to 2011                  by end of October 2010,
                                                                                                               now expected by April
                                                                                                               2011




                Further Delays Preventing Successful Transition from NPOESS to JPSS Must Be Minimized to
                Reduce Risk of Gaps in Polar Environmental Data
                The transition to the restructured program was expected to be completed by the end of FY 2010.
                However, due to delays in transition activities—including the transfer of satellite instruments and ground
                system to the JPSS program—the Department of Defense, NASA, and NOAA (the three agencies that
                were partners for the NPOESS program) had agreed to the goal of completing the transfer of all property
                required by JPSS by the end of the first quarter of FY 2011. While the ground system and some of the
                instruments have been transferred, there is an increasing likelihood that the remaining instrument
                property transfers will not be completed by the end of December 2010 due to ongoing contract
                negotiations. Nevertheless, all remaining transition activities are planned to be completed by April 2011.
                Additional delays could result in slipping the launch readiness dates of NPP and the first JPSS satellite.


                JPSS Ground System Development Must Be Completed on Time to Support October 2011 NPP
                and 2015 JPSS Satellite 1 Launch Readiness Dates
                While all of the instruments required for NPP have been integrated onto the satellite and both are
                undergoing environmental testing, the ground system's maturity level is not where it should be at this
                point in the development schedule. During the development of the ground system, some issues were
                uncovered that must be fixed in order to meet near-term program milestones. Other issues must be
                resolved by the October 25, 2011, launch readiness date.
                NOAA, with NASA as its acquisition agent, will continue to develop instruments for JPSS satellites 1 and
                2 for its component of the polar environmental satellite capability. The JPSS management structure will
                be similar to GOES-R, in which NOAA manages the overall program with assistance from NASA. This
                management approach should leverage independent review team assessments, as is being done for
                GOES-R. Defense continues to evaluate the best approach for maintaining the continuity of its polar
                satellites. It is critical that NOAA and Defense implement their satellite programs on schedule to reduce
                the risk of gaps in coverage.




                                                                               5 
                 




F Y   2 0 1 1       P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                          379
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        NOAA’s Response / Actions Taken

        NOAA maintains close oversight of the JPSS program, working closely with NASA, and has taken a
        number of steps over the last year to reduce risks. Key accomplishments include: 
         
        •   NOAA and NASA transitioned the NPOESS program office to the JPSS program office, aligned with
            NASA Goddard.  
        •   NOAA and NASA restructured the management of JPSS.  
        •   NOAA and NASA supported (NPOESS Preparatory Program (NPP) launch preparation activities, as
            the successful launch of NPP is considered the number one priority for the program. 
        •   NOAA completed the transfer of all instruments, except the Advanced Technology Microwave
            Sounder, to NASA contracts.  
        •   NOAA selected an NPP-like space craft for JPSS. This decision was critical to reducing risk. 
        •   Currently, the ground system is undergoing critical testing to support NPP launch.  

        To continue progress, NOAA requires full funding of the President’s FY 2012 budget request of $1.070
        billion to implement the JPSS program in order to support the nation’s requirement for global
        observations that are critical for numerical weather prediction modeling. Given reductions from the
        President’s Budget in funding levels every fiscal year since FY 2010, the JPSS program has been operating
        in a fiscally constrained environment. Further reductions will force NOAA to restructure the program. 


        GOES-R Background
        The GOES-R system is intended to offer an uninterrupted flow of high-quality data for short-range
        weather forecasting and warning, and to provide climate research data through 2028. Working with
        NASA, NOAA is responsible for managing the entire program and for acquiring the ground segment,
        which is used to control satellite operations and to generate and distribute instrument data products.
        Cost increases, capability reductions, and project delays have historically plagued the GOES-R program.
        The projected cost has increased from $6.2 billion to $7.7 billion; a major satellite sensor was removed
        from the program; the number of satellites to be purchased was reduced from four to two; and the launch
        readiness dates for the first two satellites have slipped by 6 months, to October 2015 and February 2017.


        GOES-R Program Must Be Proactively Managed to Prevent Further Schedule Slips and Cost
        Growth
        According to November 2010 program documentation, since the revision to the launch schedule in
        August 2009 the overall program acquisition has remained within budget and on time. However, during
        two program reviews, independent review teams identified areas of concern that have to be proactively
        managed. Accordingly, the GOES-R Program Office must address the teams’ concerns, including:
        •       obtaining and maintaining adequate contractor staffing for spacecraft development,
        •       reviewing the spacecraft design’s applicability to the GOES-R mission,
        •       ensuring adequate end-to-end testing for program components (instruments, spacecraft, and
                ground), and
        •       verifying satellite operational facility readiness.
        Any further delays in the satellite’s launch readiness will increase NOAA’s risk of not meeting its
        program requirements.




                                                              6 
         



 380                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                NOAA’s Response / Actions Taken

                NOAA has consistently taken a proactive approach to ensure GOES-R’s lifecycle costs have been based
                on realistic estimates. In 2003, the GOES-R program life cycle cost estimate was approximately $6.2
                billion based primarily on experience with previous satellite development and acquisition efforts.
                NOAA, however, hired independent experts to review its satellite acquisition strategies and they
                highlighted the dramatic changes in the space industry and the need to accomplish rigorous cost
                estimates. In addition, NOAA awarded contracts with several industry teams to get independent
                estimates of program costs and schedules. The result of these efforts showed an updated life cycle cost
                estimate for the total program. In 2006, NOAA revised the projected GOES-R costs to $11.4 billion to
                reflect this updated profile. In mid to late CY 2007, NOAA scaled the program back to $6.96 billion by
                eliminating two of four satellites and one of the five primary instruments: the Hyperspectral
                Environmental Suite (HES). At that point, NOAA commissioned an external team to perform another
                independent estimate of program costs. The reconciliation of the independent estimate along with
                internal estimates that had been performed resulted in a GOES-R life cycle cost request of $7.67 billion in
                the FY 2009 President’s Budget request.

                NOAA addressed the items cited by the independent review teams in 2010 and those identified by
                subsequent Integrated Independent Review Teams (IIRTs) at the Preliminary Design Reviews of the
                Spacecraft, the Core Ground Segment, the Antennas, and the Ground Segment Project. In addition, the
                Department of Commerce sponsored a Satellite Program Management Capability Assessment that found
                that the program management processes at GOES-R were “very mature” and some were “Best of Class.”
                Nevertheless, due to deficit reduction efforts, and reduced funding received in FY 2011, projected
                budgets for FY 2012 and beyond have fallen short of the new obligation authority needed to meet the
                required launch date. Early assessments indicate that there will be delays in the launch readiness date
                and associated cost increases will occur. The GOES-R Program Office continues to assess the impact of
                these funding shortages.



                Challenge 3: Acquisitions and Contracts--Managing Acquisition and
                            Contract Operations More Effectively to Obtain Quality
                            Goods and Services at Reasonable Prices and on Schedule

                OIG Statement

                In FY 2009, the Department of Commerce spent approximately $3 billion to acquire a wide range of goods
                and services to support mission-critical programs such as the 2010 decennial census, satellite acquisitions,
                intellectual property protection, broadband technology opportunities, management of coastal and ocean
                resources, information technology, and construction and facilities management. However, we have
                identified significant risks and vulnerabilities in Commerce’s acquisition management structure that may
                threaten the integrity of these, and other, operations.
                Acquisition management is not just the act of awarding a contract; it is an entire process that begins with
                identifying a mission need and developing a comprehensive strategy to fulfill that need through a
                thoughtful, balanced approach that considers cost, schedule, and performance. The Department needs
                more comprehensive acquisition guidance and oversight, as well as an acquisition management
                infrastructure that allows it to oversee effectively the complex, large-dollar procurements that are
                critically important to achieving its mission.




                                                                         7 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               381
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        The Department Does Not Have Robust Oversight Processes for Major System Acquisitions
        The Department lacks cohesive policies and procedures for program management and oversight of major
        systems acquisitions. This weakness has contributed to critical major acquisitions—such as the
        decennial’s handheld computers and the NPOESS and GOES-R programs—experiencing significant cost
        overruns and developmental delays; it also leaves the Department without adequate visibility into
        progress on and risks to major system acquisitions, which can result in costly delays while correcting
        problems.
        While the Department failed to meet a 2008 deadline to develop a major systems acquisition policy, it has
        begun to address its approach for overseeing such acquisitions. In response to a June 18, 2010,
        memorandum from the Secretary, the Department is currently conducting a comprehensive review of its
        acquisition processes, and expects to issue the survey results and any recommendations by April 2011.
        Additionally, the Department has reorganized the Office of the Secretary to better manage risk in high-
        priority programs. As part of these efforts, the Department and its operating units must continue to
        develop effective policies and processes for planning, managing, and overseeing major system
        acquisitions.


        DM’s Response / Actions Taken
        The Office of Acquisition Management, in conjunction with its partners in oversight and management of
        acquisition programs, is developing and vetting a comprehensive Scalable Acquisition Project
        Management Framework within which systematic program management control, oversight and skills
        development can be accomplished within the Department. The newly created Offices of Performance
        Evaluation/Risk Management, and Program Management within the CFO/ASA, in conjunction with the
        Office of the Chief Information Officer, facilities and real property managers, and the financial
        community, are collaboratively developing a unified, centralized approach to program and project
        management within the Department. The resulting documentation for the Framework will be guidance
        and policy that comprehensively define the Department and bureau level processes and requirements. In
        the interim, senior level Departmental management have conducted reviews of high-risk programs
        including the satellite programs to ensure that the issues within these programs can be clearly identified
        and that appropriate adjustments, if necessary, can be made.


        Developing and Retaining a Highly Qualified Acquisition Workforce to Support the
        Department’s Mission Is a Major Concern
        Since 2007, Commerce’s acquisition spending has increased by 41 percent, contract actions by 15 percent,
        and contract modification actions by 67 percent. However, the Department faces a very high turnover
        rate in the acquisition workforce due to attrition and those eligible to retire.4 As experienced acquisition
        professionals leave the Department, and with nearly half of the acquisition personnel expected to retire
        within the next decade, the Department must implement a strategy to keep its workforce at the needed
        size and skill levels to support its mission.


        DM’s Response / Actions Taken

        OAM continues to work with the Office of Human Resource Management (OHRM) to maximize
        incentives and recruitment strategies. This includes developing an acquisition-specific targeted
        marketing campaign that includes a 2-sided flyer with the Department’s brand, duties in the acquisition
        field, benefits, series qualifications, grade levels, and a salary table. The acquisition-specific marketing
        campaign has succeeded in yielding a larger pool of applicants from academic institutions and
        associations.




                                                               8 
         



 382                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                The Department hired four FTEs under the direct-hire and other available authorities and, in addition to
                OPM central registry, will continue to use these special hiring authorities in recruiting efforts. Further,
                the Department will pursue tuition repayment and assistance programs, and increasing the career
                ladders of GS-1102s as incentives to attract and retain a high-quality acquisition workforce. In addition to
                addressing attrition, the Department is addressing skills development through acquisition of 90
                acquisition-related training slots for use across the acquisition community.

                Still, budgetary constraints and uncertainties continue to thwart recruitment since underlying funded
                FTEs and timely information on availability of funding in current year and out-year limits the
                effectiveness of the recruitment campaigns.


                NOAA Acquisitions and Grants Office (AGO) identified training needs for employees in the job series,
                1102s/1105s. NOAA management considers those needs in requesting and budgeting funds for training
                annually.
                      •   NOAA AGO’s acquisition workforce uses a mix of on the job mentoring, classroom, on-line
                          courses and attendance in acquisition-related conferences used to effect knowledge transfer as
                          well as to complete core and specialized training courses in the most efficient and cost-effective
                          manner.
                      •   NOAA AGO has an established guidance to define requirements and processes for certification
                          under the Federal Acquisition Certification to ensure the current workforce has the skill level
                          needed to support the mission.
                      •   NOAA AGO’s successful efforts are camouflaged under budget restrictions that limit the number
                          of qualified acquisition personnel to support a 41% increase in acquisition workload.

                AGO has worked jointly with OAM and OHRM to develop a comprehensive human capital strategy to
                outline efforts to recruit and retain a qualified acquisition workforce. However, NOAA remains limited in
                the number of employee hires with budgetary restrictions and a statutory cap on overhead.


                The Census Bureau Has Not Successfully Managed Award-Fee Contracting Processes to
                Achieve Acquisition Objectives
                The Census Bureau has paid contractors millions of dollars in contract award fees that were not
                sufficiently designed or administered as required by regulations. For example, we reported that the Field
                Data Collection Automation (FDCA) contract’s award fees were excessive and not supported by technical
                assessments of the contractor’s performance. In response to our report on the approximately $596 million
                FDCA contract, Census modified the contract to include fixed-price arrangements, eliminated the original
                award-fee structure and replaced it with one that contains both cost- and technical-incentive fees, and
                discontinued the practice of rolling unearned fees over into future award periods.
                We have also audited the award-fee payment structures for the Decennial Response Integration System
                (DRIS) contract and found that these structures provided little incentive for the contractor to fully achieve
                specific performance objectives; also, the contract allowed the contractor to earn fees of up to $48 million
                of the available $65 million, even if performance fell below acceptable standards. In order to ensure that
                its award-fee contracts are designed and administered appropriately, Census needs to thoroughly train
                its acquisition workforce on how best to structure and administer its use of award-fee contracts for
                different projects.

                Census’s Response / Actions Taken

                In addition to those identified in the Federal Acquisition Regulation, the Census Bureau relies on bureau-
                level and department-level requirements and guidance, to establish and manage award fee plans and
                subsequent award fee determinations and outlays. Toward that end and to ensure uniform and effective


                                                                         9 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                383
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




         implementation of award fees within the Department, the Senior Procurement Executive established
         requirements for review and approval of award fee determinations and is developing a process within
         which the germane supporting information and contractor performance can be objectively monitored and
         considered as part of the award fee determination process. Since performance review and oversight,
         including award fee is an important aspect of the Acquisition Improvement Project, key constituents in
         the oversight processes within the Department are collaboratively defining and prescribing the Scalable
         Acquisition Project Management Framework and its effective management. . Training requirements for
         performance monitoring and management, including award fee, will be included in revisions and future
         implementation of the Federal Acquisition Certification – Program/Project Management program being
         managed by the newly-established Program Management Office within OAM.
         The Census Bureau agrees with the OIG recommendation noted in the first section of this appendix to
         thoroughly and continuously train its acquisition workforce on the structuring and administration of
         award-fee contracts. Census will establish a training plan for the acquisition workforce starting in FY
         2012 to reinforce previously acquired knowledge regarding planning and procurement of different types
         of contracts, including award-fee and incentive contracts, and to address other related areas, such as
         performance monitoring and documentation. Census will continue training and practice through the
         years leading to the 2020 decennial census.

         In addition, the acquisition workforce will continue to work side by side with the program areas to
         determine the suitability and appropriateness of establishing award fee contract for decennial and non-
         decennial operations. If award fee contracts are determined to be the most effective vehicle to incentive
         contractor’s performance, Census will engage the following practices to ensure a successful contract.
         (The Census Bureau currently utilizes many of these practices to manage multiple award-fee contracts
         currently in place or recently completed (in support of the 2010 decennial census).

             1.   Evaluate each and every active award fee contract prior to the commencement of each award fee
                  period to determine if performance criteria can be revised to be more objective, to implement
                  lessons learned from previous periods, and to reflect any changes prior to priorities or schedule.

             2.   Collect relevant data on award fee and incentive fees paid to contractors and inclusion of
                  performance measures to evaluate such data on a regular basis to determine effectiveness of
                  award and incentive fees as a tool for improving contractor performance and achieving the
                  desired program outcomes. Census will use this information as part of the acquisition planning
                  process in determining the appropriate type of contract to be utilized for future acquisitions.

             3.   Share proven incentive strategies for the acquisition of different types of products and services
                  among contracting and program management officials.

             4.   Establish award fee process that maximizes team work, early notification and resolution of issues,
                  and active participation by all elements of the project organization.


         The Department Has Not Done Enough to Ensure Suspended or Debarred Contractors Do Not
         Obtain Government Contracts or Assistance Agreements
         Federal regulations prohibit parties (i.e., firms or individuals) that lack satisfactory records of integrity
         and business ethics from receiving contracts and assistance agreements from the government. However,
         although the Department has suspension and debarment policies and procedures in place,5 it is reluctant
         to apply them to parties that have committed contract fraud against it. For example, the two most recent
         suspension/debarment referrals OIG has sent the Department have not been acted upon promptly.
         Commerce needs to strengthen its policies, procedures, and internal controls so that those parties that
         have committed fraud are referred to a suspension and debarment official for appropriate action.



                                                                10 
          



 384                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                DM’s Response / Actions Taken
                The Senior Procurement Executive and Director, Office of Acquisition Management (who also serves as
                DOC’s Suspending and Debarring Official (SDO)), has taken action toward building a more robust
                suspension and debarment program. The SDO has 1) consulted other agency officials on their S&D
                programs and capabilities; 2) collaborated with the Office of Inspector General (OIG) and Office of
                General Counsel (OGC) toward development of a strong program that leverages DOC’s resources; and 3)
                is drafting an interim pilot policy to include procedures and internal controls based, in significant part, on
                OIG and OGC proposals and recommendations. The SDO has taken prompt action on all OIG
                suspension/debarment referrals and set up a central S&D e-mail box capability to ensure multiple access
                points and prompt attention to time sensitive correspondence. OAM inputs suspended/debarred
                contractors into the Excluded Parties List System (EPLS) in accordance with Federal Acquisition
                Regulation.


                A More Efficient, Effective, and Accountable Acquisition Function Is Needed
                While the Department has begun to identify opportunities to strategically strengthen and improve the
                quality of its acquisition functions, this area has many inherent risks and requires continued attention
                and improvement. Commerce’s executive leadership needs to ensure the Office of Acquisition
                Management has the authority needed to perform effectively.
                Further, the Department needs to improve its policies and processes for making real property acquisition
                decisions, as with NOAA’s inadequate support for its decisions to lease the Port of Newport, Oregon, to
                house NOAA's Marine Operations Center-Pacific. For example, our review of this case revealed that
                NOAA limited its options without a documented analysis based on a preference for a consolidated
                facility, and it did not, in our view, adequately consider the use of existing federal facilities. The
                weaknesses highlighted by the Marine Operations Center-Pacific acquisition demonstrate the importance
                of effective capital planning and investment processes, and underscore the need to make certain these
                processes are coherent, rigorous, and implemented as intended.


                DM’s Response / Actions Taken

                In addition to implementation of the Framework, the Senior Procurement Executive (SPE) has been
                authorized to provide formal input to the performance plans and evaluations for the Bureau Procurement
                Officials at each bureau. This input strengthens the role of the SPE and supports standardized acquisition
                practices and compliance.

                Specific to the Marine Operations Center – Pacific and related requirements, facilities and real property
                management are integral to the Scalable Acquisition Project Management Framework process.
                Department and operating unit facilities and real property managers are currently revising or
                developing, if necessary, specific requirements which are unique to the facilities and real property
                processes to ensure that a complete, transparent and well-monitored approach to documentation,
                analysis and decision-making is clearly established and maintained through department-level guidance
                and oversight.




                                                                         11 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 385
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        Challenge 4: American Recovery and Reinvestment Act--Enhancing
                    Accountability and Transparency of the American Recovery
                    and Reinvestment Act’s Key Technology and Construction
                    Programs

        OIG Statement

        The American Recovery and Reinvestment Act of 2009 is an unprecedented effort to promote economic
        activity, invest in long-term growth, and implement a high level of transparency and accountability that
        will allow the public to see how their tax dollars are being spent. The Department received $7.9 billion in
        Recovery Act funds. Of that amount, approximately $6 billion was obligated in the form of grants or
        contracts for key technology and construction programs in four of the Department’s operating units: the
        Economic Development Administration (EDA), the National Institute of Standards and Technology
        (NIST), NOAA, and the National Telecommunications and Information Administration (NTIA). As of
        October 29, 2010, these operating units have spent about $750 million (or approximately 13 percent of
        their obligated funds), leaving significant spending yet to be completed (figure 2).

                                  Figure 2. Breakdown of Obligations and Disbursements 1



             EDA Econ Invest 

                   NOAA ORF 

                   NOAA PAC 

                    NIST STRS 
                                                                                                      Total Disbursements 
            NIST Construc>on                                                                          Total Obliga>ons 

              NTIA Digital TV 

                   NTIA BTOP                                                                     $4.26 Billion  


                                 0     50     100  150  200  250  300  350  400 
                                                     Dollars in Millions 

        1 Amounts reflect a $240 million rescission from DTV and a $302 million rescission from the Broadband Technologies Opportunities
        Program (BTOP). The “total obligations” bar for BTOP is not to scale; as of October 29, the total obligation for BTOP was $4.26
        billion.

        The Recovery Act also establishes additional reporting requirements that affect both agencies and fund
        recipients. Recipients need to provide quarterly reports on their grants and contracts activities, including
        financial information, job creation, and project completion status, and agencies are required to review
        recipient reports to ensure the completeness and consistency of the data. OIG is reviewing the internal

                                                                      12 
         



 386                                              F Y   2 0 1 1   P E R F O R M A N C E       A N D      A C C O U N T A B I L I T Y       R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                controls and procedures used during the recipient reporting process at the Department and its operating
                units for the second, third, and fourth Recovery Act reporting periods. Our review will determine
                whether the information available to the American public reflects the use and impact of Recovery Act
                funds.

                Broadband Expansion Program Creates New Challenges in Program Management
                Of the riskier Recovery Act programs being managed by the Department’s operating units, the largest is
                NTIA’s BTOP. Between December 2009 and September 2010, BTOP awarded 233 grants, totaling $3.9
                billion, to expand broadband Internet access across the nation. Monitoring the largest and most diverse
                grant program NTIA has ever overseen will present significant challenges. For example, the grant awards
                went to a diverse group of recipients, including public companies, for-profits, nonprofits, cooperative
                associations, and tribal entities. Also, conditions surrounding the awards vary widely in terms of
                recipients’ experience administering federal awards; the size of the awards; and the need to satisfy special
                award conditions such as environmental assessments, which take up to 6 months to complete.
                Infrastructure projects, which must be substantially complete in 2 years and fully complete in 3 years
                from the date of award, will pose particular challenges because they are generally the largest awards (five
                are for more than $100 million each) and usually require environmental assessments before project
                construction can begin. Additionally, these projects are often comprised of an award recipient and several
                subrecipients working together to achieve the project’s goals. This structure will create additional
                challenges for the NTIA staff, as they will have to monitor the recipients’ compliance with grant terms
                and conditions and determine how the recipients are managing and monitoring their subrecipients. NTIA
                also will have to closely watch how its awardees manage the drawdown of federal funds.
                In addition to the challenge of overseeing such a diverse portfolio of awards and recipients, there is
                significant uncertainty over funding to oversee and monitor the awards. Since September 30, 2010, NTIA
                has been working under special authority from the Office of Management and Budget (OMB) to fund the
                program’s operations. Over the next 6 months, NTIA will need to continue to work with OMB and
                Congress to address the uncertainty of funding and to implement oversight that provides effective
                monitoring of the grant awards.
                OIG recently issued a report to NTIA on BTOP’s post-award processes. NTIA has made significant
                progress with its post-award operations; however, there are several areas that can be strengthened, such
                as training and IT program expertise in the BTOP office, documentation and internal controls, and the
                monitoring of awards and agreements.

                Construction Projects Will Require Proactive Oversight
                While BTOP is certainly the largest Commerce program funded by the Recovery Act, NIST and NOAA
                also saw an increase of $1.4 billion in Recovery Act funds for contracts and grants, including a relatively
                significant funding increase for construction projects. To complete these projects successfully, these
                agencies will need to overcome the inherent risks associated with construction projects and dedicate
                construction managers to these projects.
                The goal of any federally funded construction project is to achieve the objectives established for the
                project and to do so on time, within budget, and free from fraud. In addition to the challenges
                accompanying any acquisition or grant project, construction projects are also at particular risk of
                anticompetitive practices, substandard workmanship, defective materials, nonperformance, and fraud.
                These are just some of the potential problems NOAA and NIST grants and procurement officials need to
                be alert to as they manage the construction programs in their operating units.
                Another potential issue lies with the type of contract federal agencies have been asked to use for
                Recovery Act projects. For grant cooperative agreements and cost-type contracts, an independent auditor,
                such as an independent public accounting firm, will annually test specific project requirements to ensure
                compliance with laws and regulations. These tests create a record of accountability throughout the life of
                the project. However, in order to contain costs under the Recovery Act, OMB has established a clear

                                                                         13 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               387
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        preference for fixed-price contracts, which are not independently reviewed after they are issued. Fixed-
        price contracts must have clearly defined requirements; if they do not, change orders could be added
        later, thereby driving up the government’s costs.



        NOAA / NIST Responses / Actions Taken
        When ARRA was passed, NOAA established the NOAA Project Oversight Board (NPOB) as an internal
        control mechanism to ensure that all ARRA funded construction projects are: 1) in compliance with laws
        and regulations specifically focusing on the requirements of ARRA; 2) executed efficiently so as to
        complete projects on time; executed economically so as to complete projects within budget; and 3)
        achieving the objectives set for the facility by the agency. The NOAA Chief Administrative Officer and
        the NOAA Director of the Real Property, Facilities, and Logistics Office report to the NPOB on a
        quarterly, sometimes monthly, basis regarding the progress and status of the ARRA construction projects.
        At a minimum, these presentations discuss the financial status of the project, the project milestones and
        schedule, the performance of the contractor, and any potential issues that would prevent the project from
        a successful completion.

        The NOAA Restoration Center has also developed a risk management framework that guides how to
        identify, manage, and mitigate risks to ARRA habitat restoration investments; defines roles and
        responsibilities, and serves to satisfy the Recovery Act’s accountability objectives, including the
        following:

        •   Funds are used for authorized purposes and potential for fraud, waste, error, and abuse are
            mitigated;
        •   Projects funded under this Act avoid unnecessary delays and cost overruns; and
        •   Program goals are achieved, including specific program outcomes and improved results on broader
            economic indicators.

        The Restoration Center focused its risk management on three types of risks: technical, schedule, and
        financial. Technical risks are those associated with changes in scope; political concerns; or, changes to
        requirements for permitting or other compliance. Scheduling risks are risks associated with changes to
        the project implementation schedules. Restoration projects schedules often vary from original plans due
        to uncontrollable circumstances such as weather changes. Financial risks are potential changes in the
        amount of funding needed by the recipient to complete the project, or cases of fraud, waste or abuse. For
        example, contract bids may come in over estimates, which could result in the recipient needing to identify
        additional funding to cover these cost increases. Because the projects were selected through a
        competitive solicitation, these risk factors were also considered during the selection process since they
        were evaluated on their technical merit and shovel-readiness. Finally, all ARRA recipients are required
        to report financial information on the public site www.recovery.gov.


        NIST supports the Department in its efforts to ensure that recipient reporting is complete and consistent
        and that it reflects the use and impact of Recovery Act funds.

        The Grants Acquisition Management Division at NIST has updated the Grants Management Information
        System (GMIS) to include the Primary Place of Performance for all Recovery Act awards. The Recovery
        Act website, www.FederalReporting.gov, has been updated to offer recipients a tool designed specifically
        to facilitate accurate, repetitive reporting of funding codes, award dates, and other information required
        in all Recovery Act Quarterly Reports. This tool allows NIST to automatically reproduce recipient
        reporting information into new Recovery Act Quarterly Reports. This not only improves reporting times,
        but also reduces data entry errors. NIST is in the process of identifying and planning enhancements to

                                                              14 
         



 388                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                GMIS during FY 2012 to automate the uploading of revised grant-related information to
                USASpending.gov during the required monthly updates. These enhancements will ensure accuracy of
                specific grant-related information that may have been revised during the previous month and will
                replace the existing process of individual requests for updated information by each Grants Specialist.

                NIST agrees that oversight of construction projects is essential to mitigating risks and ensuring successful
                completion. NIST’s Acquisition Management Division awarded all ARRA construction contracts as firm-
                fixed price contracts. The NIST Office of Facilities and Property Management (OFPM) is responsible for
                the post-award monitoring and oversight of the ARRA construction projects and construction grants. The
                OFPM proactively oversees the NIST construction program to ensure that the project objectives are
                achieved in terms of scope, cost, schedule, and safety. The oversight of the ARRA construction project
                contracts is administered by two Divisions within OFPM, the newly established Design and Construction
                Division (DCD) in Gaithersburg and the Engineering, Maintenance and Support Services division (EMSS)
                in Boulder. The DCD was set up as a separate division following the significant increase in the scope of
                the NIST construction program in order to concentrate and focus the Gaithersburg construction
                management activities under one organization, which includes a dedicated manager and several highly
                qualified project managers. The Contracting Officer’s Technical Representatives (COTRs) within DCD
                and EMSS work closely with the awardees and the Contracting Officers to ensure that the terms and
                conditions of the contracts are met and that the projects are progressing according to their performance
                objectives. In addition, a separate contract was awarded to an engineering firm that supports the federal
                staff in their construction management responsibilities and to ensure sufficient hands-on project
                oversight and monitoring. The NIST Construction Grant Program Office was established within OFPM
                and is composed of the Federal Program Officer and the contract support team. They work closely with
                the grantees to ensure that they meet the conditions of the grant throughout the design and construction
                period, along with identifying and managing risks. This office uses many of the same tools and methods
                as the construction contract oversight divisions.

                In order to maintain control and accountability for individual projects and the entire construction
                program, as well as reduce risks to project success and to NIST operations and programs, NIST has put in
                place targeted procedures. These procedures apply project management best practices to the context of
                the NIST construction program and include processes and activities needed to define, identify, review,
                and coordinate the various project management activities. In addition, NIST established a number of
                reporting tools to assist in the oversight and management of the construction program. Specific areas that
                form the focus of the construction program oversight include

                •     Project Performance—NIST has established metrics for cost, schedule and scope that are tracked
                      continuously and reported to senior OFPM management through monthly dashboards; deviations
                      are immediately reviewed for impact to project success and necessary corrections.
                •     Project Risk Management—NIST has developed project risk assessment and mitigation plans for each
                      project, and are monitored/updated monthly, as necessary.
                •     Change management—NIST uses change control processes to review all change requests, approve
                      changes, and manage changes to the deliverables, project documents, and the project schedules, and
                      budgets. NIST also uses processes for risk management.
                •     Communications—extensive outreach provides early notice to the affected NIST community of
                      potential impacts to technical programs or operations and allows early intervention to mitigate these
                      impacts.



                                                                         15 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               389
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        •   Safety—All projects require approved contractor safety plans for all projects; Contracting Officer’s
            Safety Representatives (COSRs) were appointed for all jobs to monitor and ensure contractors’ safety
            performance.




        Challenge 5: United States Patent and Trademark Office--Improving
                     USPTO’s Patent Processing Times, Reducing Its Pendency
                     and Backlogs, and Mitigating Its Financial Vulnerabilities
        OIG Statement

        The U.S. Patent and Trademark Office (USPTO) faces immense and complex challenges in addressing
        patent pendency and application backlogs while improving patent quality and building a highly trained
        and stable workforce. Since 2000, patent pendency has increased from 25 months to over 35 months, and
        the backlog of unexamined applications has grown from approximately 308,000 to more than 726,000.
        These large numbers of applications and long waiting periods for patent approval create a significant risk
        to innovation and economic competitiveness, and ultimately to the United States’ position as a world
        leader in innovation.

        USPTO Plans to Address Its Pendency, Backlog, and Operational Issues
        Since assuming office in August 2009, the Under Secretary of Commerce for Intellectual Property (who is
        also the Director of USPTO) has identified the state of patent pendency and backlog as a critical priority—
        as has the Secretary. The Under Secretary has set forth goals that include reducing the backlog to 379,000
        by FY 2013 and decreasing the total processing time for patent applications to 20 months by FY 2015.
        USPTO has proposed multiple initiatives to address its challenges and accomplish these goals, including
        •       increasing the number of patent examiners, especially those with experience in the field of
                intellectual property;
        •       revising the system for how patent examiners are given credit for their work; and,
        •       adding options for patent applicants to accelerate USPTO’s review of their patent applications.
        As USPTO begins to implement these initiatives, it is simultaneously planning to address its outdated IT
        infrastructure and seeking legislative approval for new financing tools. USPTO currently relies on aging,
        unstable legacy technology to support its current operations. According to USPTO, its current systems
        regularly crash, leaving thousands of employees without productive work to do. USPTO plans to
        redesign and implement end-to-end electronic patent processing so that most applications will be
        submitted, handled, and prosecuted electronically. In doing so, it faces the risks and challenges inherent
        in any major IT system change, such as oversight management; cost issues; and ensuring that the new
        system is delivered on time, meets user needs, and supports USPTO in achieving its strategic goals. The
        new financing tools USPTO hopes to implement, such as greater authority to set patent fees and establish
        operating reserves to protect its resources from unforeseen disruptions in revenue, are intended to
        enhance its ability to respond to changes in the economy and the fluctuating demand for its products and
        services. While such initiatives may produce a timelier and more effective patent system that supports
        American innovation and economic success, USPTO’s ability to reduce its patent backlog and pendency
        will also depend on how effectively it can monitor, evaluate, and refine its programs and operational
        processes.




                                                              16 
         



 390                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                USPTO’s Response / Actions Taken

                A primary goal of the USPTO is to optimize patent quality and timeliness while simultaneously reducing
                the backlog of unexamined patent applications. By the end of fiscal year 2012, the USPTO anticipates
                reducing the average time to first action and final action on patent applications to 24.7 months and 35.1
                months respectively. More importantly, the USPTO expects to reduce the backlog of unexamined patents
                to approximately 634,000 by the end of FY 2012. However, there are a number of complex factors that
                must be carefully executed and monitored in order to achieve this goal. Some of these factors include
                hiring new examiners, improvements in process efficiencies, application filings which may be largely
                driven by the economy; and the ability to outsource applications filed under the Patent Cooperation
                Treaty (PCT).

                Based on the current environment in the short term, USPTO expects the first action pendency to increase
                and overall pendency to remain at approximately 34 months. Two major factors contribute to this short-
                term increase in first action pendency: first, inability to gain access to its fees earlier in FY 2011 to allow
                for full examiner hiring and full overtime; and second, the recalibration of workflow process, including
                re-engineering the examiner count system and moving toward a more first-in, first-out (FIFO) inventory
                process. In order to achieve its goal to reduce pendency, the USPTO must first clean up the older cases in
                the pending backlog, and more strictly manage its inventory in a FIFO environment, which may result in
                a temporary rise in pendency in the near-term. However, clearing the oldest patent applications is
                important to the USPTO’s long-term success in reducing pendency and the backlog of unexamined patent
                applications.

                USPTO will implement the following initiatives to meet the management challenges identified by the
                OIG to reform the patent application process, update the IT systems, and reduce pendency time:

                •     The USPTO has adopted significant revisions to the patent examiner production (count) system. The
                      revised count system places emphasis on complete and thorough initial examination, decreases
                      redundancy, and encourages quicker resolution of issues in the patent application process. This
                      fundamental redesign is aimed at improving quality and efficiency, thereby resulting in a decrease in
                      the application backlog and pendency. It provides more time for examination and more credit for
                      first actions, which emphasize high quality examination and place a focus on quality up-front early in
                      the examination process.

                •     The USPTO is moving from a patent examination process to a multi-track process by adopting
                      procedures and initiatives that incentivize abandoning applications that are not important to
                      applicants; accelerating critical technologies; permitting an applicant to accelerate important
                      applications; and exploring other incentive and accelerated examination options. Specific initiatives
                      include:

                      o   Project Exchange - Project Exchange is an application acceleration pilot initiative that empowers
                          qualifying applicants having two or more pending patent applications to accelerate the review
                          status of one of the applications by abandoning a second unexamined application. This initiative,
                          which gives applicants greater control over the processing speed of their applications, helps the
                          USPTO to prioritize its workload while reducing the backlog of unexamined patent applications.

                      o   Green Technology Pilot Program - The Green Technology Pilot Program provides accelerated
                          examination of inventions involving green technology, thereby promoting innovation in green
                          technologies and reducing the pendency of patent applications critical to climate change
                          mitigation. In response to feedback from applicants, the USPTO revised the Green Technology
                          Pilot Program to allow more categories of technology to be eligible for expedited processing
                          under the program. As a result, the Green Technology Pilot Program has increased the



                                                                         17 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  391
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                development and deployment of green technology, created green jobs, and contributed to
                promoting U.S. competitiveness in this vital sector.

            o   Three-Track Program – The Three-Track Program is a new patent examination initiative that
                moves from a single patent examination process to a multi-track process which would provide
                applicants greater control over the speed with which their applications are examined, promote
                greater efficiency in the patent examination process, and allow the USPTO to deploy its resources
                to better meet the needs of innovators. This new program has targeted application processing
                within 12 months for those applications deemed to be most important to applicants. Under the
                proposed “Three-Track” initiative, an applicant may request one of the following: Track I: a
                prioritized examination with a 12 month pendency goal, Track II: a traditional examination
                under the current procedures, or Track III: an applicant-controlled delay for up to 30 months
                prior to docketing for examination. The USPTO published a final rule to implement Track I of
                the "Three-Track" initiative but subsequently had to indefinitely delay the effective date due to
                the reduced spending authority in the Full-Year Continuing Appropriations Act, 2011.

        •   The USPTO has implemented patent processes to increase efficiencies and strengthen the
            effectiveness of examination workflow in the overall patent prosecution process. Specific initiatives
            include:

            o   First Action Interview Program - The First Action Interview program encourages examiners to
                hold interviews with applicants early in the prosecution process in order to facilitate resolution of
                issues for a timely disposal. USPTO has expanded this program to include all utility applications
                in all technology areas, enhance efficiency, and provide more options to participants. The
                benefits of the program include the ability to advance prosecution of an application, enhanced
                interaction between applicant and the examiner, the opportunity to resolve patentability issues
                one-on-one with the examiner at the beginning of the prosecution process, and the opportunity to
                facilitate possible early allowance. The First Action Interview program has not only provided
                applicants with more options in regards to procedures needed for examination, but has also has
                contributed dramatically to improving patent application quality.

            o   Clearing the Oldest Patent Applications (“COPA”): In February 2011, the USPTO launched a
                new initiative known as “Clearing the Oldest Patent Applications” in an effort to eliminate the
                “tail” of backlog applications that were more than 16 months old at the beginning of the fiscal
                year and had not yet received a first office action. This initiative is a critical first step in reaching
                the USPTO’s strategic goal of providing first office actions on all new applications in an average
                of 10 months from their date of filing by 2014. USPTO’s goal for fiscal year 2011 is to have a first
                office action completed on nearly all of the 313,000 oldest backlog applications. Reaching this
                goal, however, is highly dependent on the passage of a fiscal year 2011 budget that would
                provide sufficient resources for hiring and examiner overtime.

        •   The USPTO has begun an effort to reengineer the entire patent examination process from the time an
            application is filed through to the granting of a patent. This effort is paramount for USPTO to
            upgrade and redesign its IT infrastructure, and to allow innovative redesign of the examination
            process supported by state-of-the-art automated work flow capabilities. The USPTO will maximize
            the usage of automation in all processes and link project due dates to those of the end-to-end IT
            initiative such that the IT system is built to obtain the functionality of the reengineered process.

        •   The USPTO plans to hire, train and retain highly skilled and diverse examiners. While continuing to
            draw candidates from our traditional sources, USPTO expects that including Intellectual Property
            (IP) experienced hires will assist in developing a balanced workforce, contribute to a lower attrition
            rate, and a provide a faster transition to productivity for new hires. Recruiting candidates having
            significant IP experience will lead to a reduced training burden as well as an increased ability to


                                                               18 
         



 392                                        F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                      examine applications much sooner than an inexperienced new hire, thereby increasing production
                      output.

                •     By outsourcing searching on Patent Cooperation Treaty (PCT) international applications, examiners
                      will have more time to conduct the examination process on U.S. National applications. In continuing
                      to outsource this function, contractors, instead of patent examiners, would provide an international
                      search report and a written opinion of the International Searching Authority under the provisions of
                      the PCT, thus allowing examiners to examine the approximately 17,000 utility, plant and reissue
                      applications, which will reduce the backlog by an estimated 9,000 applications.

                The USPTO faced management challenges obtaining a reliable and sustainable source of funding to
                finance operations on a multi-year basis. The agency does not have much flexibility adjusting its fees or
                spending levels if filings and revenues change unexpectedly. To accomplish its strategic goals, the
                USPTO must have the authority to set the fees necessary to recover the cost of operations, spend fees
                collected on requirements-based operations, and to adapt and manage its funding requirements as
                changes occur in internal and external conditions.

                As the agency requires sufficient resources to reduce the patent application backlog and achieve its stated
                pendency goals, the USPTO seeks fee setting authority through the America Invents Act. This Act will
                allow the USPTO to proactively adjust its fees in response to changes in demand for services, processing
                costs, or other factors. With fee setting authority, and with routine evaluation of the fee structure, the
                agency can compare the cost of activities with fees to ensure the rates are set at appropriate levels and the
                fee structure is achieving rational results.

                Another management challenge faced by the USPTO is the potential existence of financial uncertainty as
                a result of the agency’s unique financial structure. Subsequent downturns in the U.S. and global
                economies showed the structure’s vulnerabilities. Multiple factors contribute to the differences, including
                a reduction in the number of patent applications filed and declines in maintenance fees collected for
                existing patents. In December 2010, the DOC IG found that the USPTO does not have clear guidance or a
                disciplined, documented process for forecasting patent fee collections. The IG recommended the
                establishment and implementation of written policies and procedures for developing fee-collection
                forecasts and annual reports on variances between projected and actual fee collections. The USPTO has
                completed several of these IG recommendations, having documented the CFO process for developing
                fee-collection forecasts and submitting the annual variance report.




                Challenge 6: National Oceanic and Atmospheric Administration--
                          Effectively Balancing NOAA’s Goals of Protecting the
                          Environment and Supporting the Fishing Industry
                OIG Statement

                Charged with protecting, restoring, and managing the use of living marine and coastal and ocean
                resources, NOAA invests billions of dollars each year to support an array of programs that require long-
                term commitments and years of funding before showing their full effect. With its Exclusive Economic
                Zone of 3.4 million square nautical miles of ocean, the United States manages the largest marine territory
                of any nation in the world. According to NOAA’s 2009-2014 strategic plan, “the value of the ocean
                economy to the United States is more than $138 billion.” NOAA faces difficult challenges in promoting
                the health of marine resources, especially in the areas of fishery enforcement and environmental
                restoration while ensuring they sustain the vital economic benefits we derive from them.



                                                                         19 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                393
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        Allegations Against NOAA Law Enforcement Spark Reform
        NOAA’s management of commercial fisheries and its enforcement of fair, transparent, and effective
        regulations is a critical component of the successful execution of its mission. In FY 2010, we responded to
        a request from NOAA to investigate allegations of excessive penalties and arbitrary actions by its Office
        for Law Enforcement and General Counsel for Enforcement and Litigation. In response to our findings,
        the Secretary of Commerce and the Undersecretary for Oceans and Atmosphere (who is also the NOAA
        Administrator) announced sweeping reforms to increase the accountability and transparency of, and to
        strengthen the public’s trust in, NOAA’s law enforcement agency. The Secretary also announced
        significant restrictions on the use of the Asset Forfeiture Fund (where fines and penalties assessed against
        the fishing industry are deposited).
        The actions directed by the Secretary and the reforms being implemented by NOAA to promote
        impartiality in its enforcement processes should help ensure fair and unbiased treatment of fishery cases.
        NOAA must take positive, equitable action to restore the reputation and soundness of its enforcement
        program and ensure that corrective actions are applied consistently nationwide. We will continue to
        devote resources and attention to NOAA’s fisheries enforcement to make sure that this important
        program receives sufficient independent oversight.


        NOAA’s Response / Actions Taken
        In response to Office of Inspector General reports, NOAA’s Office of Law Enforcement (OLE) has
        implemented significant changes to increase accountability and transparency. NOAA has also
        introduced a new policy placing significant restrictions on the use of the Asset Forfeiture Fund (AFF).
        The new policy, finalized in March 2011, significantly limits the use of the AFF for services, supplies, and
        equipment. The new policy also restricts uses of AFF for travel and training. The final policy allows the
        AFF to support investigative travel and only specific, required law enforcement training. The full list of
        prohibited uses is at: http://www.federalregister.gov/articles/2011/03/23/2011-6869/noaa-policy-on-
        prohibited-and-approved-uses-of-the-asset-forfeiture-fund. In addition, NOAA completed the following
        actions in FY 2011:

        •   NOAA sponsored a National Fisheries Enforcement Summit, has implemented a compliance
            assistance pilot program in New England, and is increasing the emphasis on outreach and
            compliance assistance in the provision of enforcement services as it increases the number of staff
            engaged in dockside enforcement services (Enforcement Officers vs. Special Agents).
        •   NOAA implemented a public priority-setting process. OLE has collected stakeholder
            recommendations, published initial proposals and is in the process of refining its priority statement
            through consultation with NMFS and NOAA officials.
        •   NOAA appointed a new Director for OLE, Lt. Col. Bruce Buckson of the Florida Fish and Wildlfe
            Conservation Commission Division of Law Enforcement.

        In addition, NOAA is currently conducting a comprehensive review of OLE’s Enforcement Operations
        manual.

        NOAA has undertaken positive, equitable action to restore the reputation and soundness of its
        enforcement program and taken measures to ensure that corrective actions are applied consistently
        nationwide. In response to OIG reports as well as feedback received from stakeholders during NOAA’s
        National Enforcement Summit, NOAA announced the compliance pilot program in September 2010. This
        pilot program serves as part of ongoing efforts to improve communication with the fishing industry and
        to work proactively with fishermen to help them understand and comply with fisheries regulations. A
        new Compliance Liaison, who is not an enforcement officer, will serve as a liaison to the fishing industry
        and other stakeholders in order to work collaboratively to solve such problems as understanding
        regulations or ensuring gear is in compliance. This program will be closely linked to and coordinated
        with the outreach, communication, and education team being formed in the Northeast Regional Office.


                                                              20 
         



 394                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                 This program, initiated in the Northeast Enforcement Division, will serve as a template for the other five
                enforcement Divisions.


                Gulf Oil Spill Creates New Challenges for NOAA
                In addition to its law enforcement activities, NOAA responds each year to over a thousand natural and
                human-induced incidents threatening life, property, and marine resources. For example, on April 20,
                2010, an explosion on Deepwater Horizon, a semisubmersible mobile offshore oil-drilling well in the Gulf
                of Mexico, resulted in the largest oil spill in U.S. history. To help recover from a spill of this magnitude,
                NOAA’s monitoring, damage assessment, and restoration activities will continue for years to come.
                Because the Deepwater Horizon spill is so large in scope, we anticipate NOAA will need to devote
                significant resources for an extended period of time towards restoration in the Gulf. As of September
                2010, NOAA has dedicated $131.4 million to the spill through reimbursable projects. Since serious threats
                to wildlife and the fishing community still exist, NOAA’s National Marine Fisheries Service must
                continue to monitor conditions along the coastal areas of Louisiana, Mississippi, Texas, Alabama, and
                Florida to ensure seafood is safe for consumption. NOAA, as the lead agency for the Natural Resource
                Damage Assessment process and the nation’s lead science agency covering oil spills, will also continue to
                assess what environmental resources have been harmed. Finally, federal, state, and local governments
                and affected communities will continue to rely on NOAA to provide continued monitoring and accurate
                data so responders can react to the oil’s effects on our ecosystem.

                NOAA’s Response / Actions Taken
                NOAA undertook the following actions in response to the Gulf Oil Spill:
                •     At the outset of the Deepwater Horizon BP oil spill, NOAA quickly mobilized staff from the Damage
                      Assessment Remediation and Restoration Program to begin coordinating with federal and state co-
                      trustees and the responsible parties to collect a variety of ephemeral data that are critical to help
                      inform the Natural Resource Damage Assessment (NRDA).

                •     NOAA expert personnel on site at each command post and the National Incident Command
                      provided scientific advice to guide response actions toward best achievable outcome for environment
                      and community

                •     NOAA’s Surface Oil Forecasts aided those impacted by the spill – e.g. environmental trustees,
                      responders, waterfront homeowners, local businesses.

                •     NOAA’s Environmental Response Management Application (ERMA) provided common operating
                      picture for responders and planners while GeoPlatform.gov did the same for the public

                •     NOAA provided scientific input and review on high-level reports and assessments – e.g. Operational
                      Science Advisory Team (OSAT) report, Federal On-Scene Commander (FOSC) report, Incident
                      Specific Preparedness Review (ISPR), Report to the President by the National Commission on the BP
                      Deepwater Horizon Oil Spill and Offshore Drilling, and the National Response Team After Action
                      Report.

                •     NOAA provided Federal guidance and oversight of Shoreline Cleanup and Assessment Technique
                      process which determines best course of action for cleanup and monitoring of hundreds of miles of
                      shoreline in four Gulf states. This is an ongoing effort requiring negotiations among many federal
                      agencies, state, local, and tribal governments, and cultural and environmental trustees.

                •     NOAA completed response data analysis for science-based decision making though the OSATs
                      Summary Report for Sub-sea and Sub-surface Oil and Dispersant Detection. This included Sampling


                                                                         21 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                395
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




            and Monitoring, Summary Report for Fate and Effects of Remnant Oil in the Beach Environment, and
            the Toxicity Addendum; and the Joint Analysis Group report on sub-sea monitoring

        •   NOAA established the NOAA Gulf Spill Restoration web site, www.gulfspillrestoration.noaa.gov, as
            a primary portal for public involvement in the Gulf Spill restoration planning process.
        •   Due to the size of the Deepwater Horizon release and the large potential for injury, NRDA field
            efforts have far surpassed any other for a single oil release. By early June 2011, the trustees had
            approved over 115 study plans and collected more than 36,000 water, tissue, sediment, soil, tarball,
            and oil samples. More than 90 oceanic cruises have been conducted since early May 2010 and many
            more are scheduled for the summer and fall of 2011.
        •   Technical teams consisting of several hundred scientists, economists, and restoration specialists from
            federal and state government, academia and BP have been in the field conducting daily surveys and
            collecting samples for multiple resources, habitats, and services.

        •   NOAA continues to collect information to assess potential impacts to fish, shellfish, terrestrial and
            marine mammals, turtles, birds, and other sensitive resources, as well as their habitats, including
            wetlands, beaches, mudflats, bottom sediments, corals, and the water column. NOAA is also
            assessing the lost human uses of these resources, such as recreational fishing, hunting, and beach use.

        •   As a result of supplemental funding from Congress to address some very targeted science-based
            issues, NOAA is conducting the following ongoing studies:

            o   Improvement of algorithms and models for subsurface blowout dynamics and transport in 3D
            o   Assessment of dispersed oil (surface, subsurface) data and development of national research and
                development priorities associated with dispersants in marine environments
            o   Capture of new oil budget algorithms into real-time fate models for better and quicker oil budget
                estimates during continuous release scenarios




        Challenge 7: Renovation of Department of Commerce Headquarters--
                     Protecting Against Cost Overruns and Schedule Delays for
                     the Commerce Headquarters Renovation

        OIG Statement
        The Herbert C. Hoover Building (HCHB)—the Department of Commerce’s Washington, D.C.,
        headquarters—is undergoing a comprehensive renovation. The eight-phase modernization and
        renovation of the over 1.8 million-gross-square-foot building is the first major upgrade of HCHB since its
        completion in 1932. The project, which has an estimated cost of $960 million and is currently scheduled
        for completion by 2021, will upgrade mechanical, electrical, and life-safety systems; increase usable space;
        improve energy and environmental efficiency; and incorporate security improvements. Phase 1 of the
        renovation was substantially completed in October 2009, and Phase 2 is underway. Phases 2 and 3 will
        utilize some $226 million in Recovery Act funds.
        The General Services Administration (GSA) owns the building and is managing the renovation.
        However, the Department is also taking an active management role by working closely with GSA as an
        advocate for the operating units housed at HCHB with respect to space requirements, building services,
        and improvements. Since the renovation has the potential to disrupt the Department’s operations and
        affect its workforce, OIG plans to conduct an ongoing review of the construction activities and the


                                                              22 
         



 396                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                decisions critical to the renovation’s success. Of special interest are the developments of the consolidated
                server room and perimeter security projects. These projects are Commerce’s largest monetary
                responsibilities during the early phases of the renovation and directly affect critical stages of construction.

                OIG’s Initial Report Describes Problems with Billing Processes and Rental Rate Agreement
                Our August 2010 report on the Department’s management of the project noted that GSA, Commerce, and
                the contractor for the renovation have implemented reasonable operating procedures to insure adequate
                oversight of the initial phases of the project. However, Commerce did not have a formal procedure in
                place for tracking and reconciling the documents used by GSA to capture costs and bill customers for the
                renovations; in addition, GSA and the Department had not reached a formal agreement on Commerce’s
                future rental rates. Also during our work, OIG became aware of health complaints from Commerce staff
                occupying the renovation swing space. An inspection conducted by an Occupational Safety and Health
                Administration (OSHA) compliance safety officer found that the complaints were related to indoor air
                quality and temperature (being too hot or too cold), which are not regulated by OSHA.
                Since our report, GSA and the Department have made progress addressing the billing and rental rate
                issues; we are awaiting a plan from Commerce that will provide more details about specific corrective
                actions. The Department has also informed us that the HCHB renovation has been included in the
                Department’s balanced scorecard, a strategic program management tool initiated by the Secretary that
                measures the Department’s progress against its mission goals. The scorecard will assess the renovation
                project from four perspectives: financial, schedule, project scope, and customer disruptions. These
                categories will provide a means to track progress and make corrections over the course of the renovation.

                DM’s Response / Actions Taken
                The Office of Administrative Services (OAS) has held several meetings with GSA staff that addressed
                OIG recommendations and initiated dialogue for closure on numerous related issues.
                OAS continues working with GSA National Capital Region leadership in resolving rental rates and
                timing issues. OAS also sought and received clarification from GSA on the basis for new rental rates for
                renovated and un-renovated HCHB space determined by a recent GSA appraisal that sets HCHB shell
                rent for the next five years (2012-2016).
                Under the improved relationship, new occupancy agreements using renovated and un-renovated rental
                rates set under the previous appraisal, which reflect the Phase 1 addition, were put in place in December
                2010. Draft pro forma occupancy agreements that identify estimated rental amounts after the acceptance
                of Phase 2 space next February were provided to the Department in June 2011. These draft documents
                identify the new rental rates based on the recent appraisal, as well as the acceptance of more renovated
                space and vacating un-renovated space to GSA for Phase 3. In addition, GSA is working to ensure that its
                measurement and rent processes will be in alignment with their project management for this next phase
                change.
                The Department will not be charged for Tenant Improvements that will be funded with ARRA funds.
                Additionally, at the end of Phases 2 and 3, the Department will not be billed for Tenant Improvements.

                On December 17, 2010, Commerce provided a rental rate plan to OIG outlining actions taken and actions
                planned.


                HCHB Fire Underscores the Potential for Disruptions to Employee Productivity and Safety
                On October 7, 2010, a fire broke out at HCHB after normal working hours in an area undergoing
                renovation. Everyone was accounted for, and there were no reports of injuries. The fire resulted in the
                closure of the building on Friday, October 8. Testing for hazardous materials was conducted, and all
                areas of the building were cleared for occupancy on October 12 (the next scheduled workday). However,


                                                                         23 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  397
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        this unexpected closure affected approximately 3,500 employees—a clear example of the disruptive effect
        that the renovation can have on Commerce’s operational efficiency.
        OIG will monitor the effectiveness of the lessons learned from the fire and other disruptive incidents so
        that potential future disruptions to operations—as well as adverse effects on employees’ comfort, health,
        and productivity—can be mitigated. Our oversight in future reports will also include an assessment of
        the Department’s performance in meeting its four scorecard objectives.


        DM’s Response / Actions Taken
        At the General Services Administration’s (GSA) request, the Bureau of Alcohol, Tobacco, and Firearms
        conducted a thorough investigation to identify the cause of the fire and address any fire safety concerns
        in the construction area. The investigation revealed that the fire was started by a compromised electrical
        extension cord. After the fire, GSA reiterated the need to enforce good construction safety practices to the
        Gilbane-Grunley Joint Venture and both parties continue to conduct regular inspections of the
        construction site. The Office of Building Renovation has been working with GSA to ensure the contractor
        follows all safety regulations to prevent any future events and/or accidents. In addition, GSA has
        procedures in place to prepare for known natural disasters such as hurricanes and snow storms.



        DM’s Summary of Other Actions Taken in Response to HCHB Renovation

        Response to Health Concerns in Swing Space
        On June 8 and 18, 2010, the HCHB Building Management received inspections on swing space level A by
        an OSHA Compliance Safety and Health Officer (CSHO). The CSHO concluded that swing space level A
        is in compliance and no citations or notices were necessary or required. A monthly air quality testing
        program of the entire HCHB, including swing space, has been implemented. The testing includes:
            •   Temperature and Relative Humidity
            •   Carbon Dioxide and Carbon Monoxide
            •   Total Volatile Organic Compound (TVOC) Monitoring
        The results of this testing indicate that all parameters tested and noted are within the recommended
        regulations, standards and applicable guidelines. These test results are posted on the renovation intranet
        site for all HCHB tenants to view.
        In addition, the Office of Space and Building Management hired GLOBAL Consulting Inc., an
        independent environmental firm, to provide a Certified Industrial Hygienist to do additional testing.
        Their evaluation included real-time field measurement, confirmatory sampling, and laboratory analysis.
        The results of this testing indicate that all parameters tested and noted are within the regulations,
        standards and applicable guidelines.

        The National Institute for Occupational Safety and Health also conducted an Environmental Health
        Hazard Evaluation of the HCHB swing space and concluded that all environmental parameters,
        including volatile organic compounds, mold, bacteria, and electromagnetic interference, were within
        acceptable guidelines and the space was considered safe for occupancy.

        On July 12, 2010, an electromagnetic field survey was performed throughout the offices on the second
        floor of the HCHB swing space to measure both electric and magnetic field strengths. The maximum field
        strength detected in this area was far below current recommended exposure limits for both static electric
        and magnetic fields.


                                                              24 
         



 398                                       F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                   A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




                Balanced Scorecard

                The HCHB renovation has been included in the Department’s balanced scorecard. On a quarterly basis,
                the scorecard assesses the renovation project from four perspectives: financial, schedule, project scope,
                and customer disruptions. These categories provide a means to track progress and make corrections over
                the course of the renovation.

                To effectively assess and track the progress of the Renovation Project:
                      •   The Deputy Assistant Secretary for Administration (DASA) is briefed bi-weekly on the project
                          status.
                      •   A Working Overarching Product Team meets bi-weekly to review the status of the GSA contract
                          and construction effort as well as the tenant improvement projects that DOC is responsible for.
                          They address and resolve issues/problems associated with the project, review risk and risk
                          mitigation strategies, and resolve cross-cutting issues and budget. This group includes the
                          DASA; the Director for Office of Administrative Services; executive leadership from NOAA and
                          ITA (the two largest tenants); the Director for Acquisition Management; Deputy Director for the
                          Chief Information Officer and the Deputy Chief Financial Officer and Director for Financial
                          Management; and executive leadership from GSA
                      •   Senior managers meet bi-weekly with the Director, OAS and the GSA senior project manager to
                          discuss the project and any potential impacts on the project schedule and HCHB tenants.




                Challenge 8: Census Bureau--Effectively Planning the 2020 Decennial

                OIG Statement
                The decennial census provides important information that guides the apportioning of congressional
                representation and redistricting, as well as the distribution of more than $400 billion of government
                funding every year. The 2010 census was an immense undertaking that encompassed a decade of
                planning and testing. It involved a massive end-of-decade effort to collect addresses and geographic
                information to update the bureau’s master address file and digital maps, a late change in plans to revert
                to a pen-and-paper nonresponse follow-up operation instead of using handheld computers, and the
                training and deployment of more than 784,000 temporary employees to accurately count the estimated
                300 million people living in the United States.
                The 2010 decennial’s life-cycle cost is approximately $13 billion. Considering the current trends in
                population and cost growth, if Census uses 2010 as a model for designing the 2020 census, the total price
                of the next decennial could rise to more than $22 billion (according to bureau estimates). Such cost
                growth is unsustainable. Census must make fundamental changes to the design, implementation, and
                management of the decennial census in order to obtain a quality count for a reasonable cost.


                Lessons Learned from 2010 Are an Essential Part of Success in 2020
                Census must apply lessons learned from the 2010 process to develop an innovative, flexible, cost-
                effective, and transparent approach to the 2020 census. Alternative approaches to the labor-intensive end-
                of-decade address list improvement and non-response follow-up operations—both of which were major
                2010 cost drivers—must be explored and tested early in the decade to prevent schedule delays or cost
                increases, and to enhance accuracy. In addition, Census must improve its IT management, as well as
                reduce costs and risk by limiting the deployment of one-time-use technology.



                                                                         25 
                 




F Y   2 0 1 1       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             399
A ppendix D : 2 0 1 1 M anagement C hallenges and A ctions T a k en




        Exploring Options for Improving Operations
        The decennial is not the Census Bureau’s only means of tracking the population of the United States.
        Currently, 12 regional offices manage a trained federal workforce to conduct a variety of censuses and
        surveys throughout the decade. Every month, quarter, and year households and businesses are contacted
        via mail, telephone, or in-person interview to provide information used by the government to manage its
        population and economic data. To be effective, the 2020 planning approach needs to leverage these
        existing surveys, field operations, and data assets.
        One likely vehicle to continuously develop, test, and improve decennial operations and technology is
        through the American Community Survey. This nationwide survey replaced the once-a-decade “long
        form” and is conducted on an ongoing basis in every part of the country (using a national sample size of
        250,000 households per month). Employing this survey to incrementally test various aspects of the 2020
        census—including the development and testing of a secure system and approach for an Internet response
        option and exploring the use of existing information collected by public and private entities (commonly
        referred to as administrative records)—would reduce both cost and risk during future decennials. A
        continuous update of Census’s maps and its address list throughout the coming decade—using the
        existing trained workforce in both office and field operations—could further reduce cost and risk, and
        likely increase quality.
        Fiscal years 2011 and 2012 are critical years in the planning of the 2020 census and will set the course for
        how well this constitutionally mandated responsibility is performed.

        Census’s Response / Actions Taken

        Work on the 2020 decennial census in FY 2011 was mostly limited to development of goals and strategies,
        and establishing program management processes and documents. With respect to the specific
        recommendations, two key strategies for 2020 development include utilization of the American
        Community Survey (ACS) as a "test bed" for 2020 research, and work on continuously updating the
        address frame and maps over the decade, allowing a less-costly targeted update of the Master Address
        File in 2019.

        To reduce R&D costs and manage risk, Census will integrate continuous testing into the production
        environment of the American Community Survey, so that Census can conduct many small tests
        throughout the decade. As the testing evolves to production system development, the ACS will serve as
        an initial production environment. Making use of the many developmental cycles in the ACS monthly
        production environment reduces the high risk of building one-use systems that must operate flawlessly
        in the decennial production, an approach used in previous censuses.

        In FY 2011, the Census Bureau implemented an initiative for increasing the Geographic Support System
        program to support: improved address coverage; an expanded annual Boundary and Annexation Survey
        to include all legal governments; continual update of positionally accurate road and other related spatial
        data; mid-decade review of statistical areas; and, enhanced quality measures of ongoing geographic
        programs. By focusing on activities that improve the Master Address File while maintaining the spatial
        infrastructure that makes census and survey work possible, this initiative represents the next phase of
        geographic support following the 2010 Decennial Census.




                                                               26 
         



 400                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  A ppendix E : 2 0 1 2 M anagement C hallenge S



                                        2 0 1 2 M anagement C hallenges




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                            401
A ppendix E : 2 0 1 2 M anagement C hallenges




 402                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                                                                   OFFICE OF INSPECTOR GENERAL


                    Contents
                    Challenge 1: Effectively Promote Exports, Stimulate Economic Growth, and
                    Create Jobs ......................................................................................................................... 1 
                       Implement Administration Initiatives with Effective Interagency Partnerships ................................................................ 1  
                       Enhance Commerce Unit Operations to Help Promote Trade and Job Creation ......................................................... 2  
                       Correct Unfair Trade Practices and Protect Our National Security Through Enforcement Activities ..................... 5 
                       Improve Regulatory Reviews to Protect and Promote Public Interests ........................................................................... 6  
                    Challenge 2: Reduce Costs and Improve Operations to Optimize Resources for a
                    Decade of Constrained Budgets....................................................................................... 7 
                       Implement and Expand Initiatives to Improve Operational Efficiency and Economy ..................................................... 8 
                       Strengthen Oversight of Improper Payments for Additional Recoveries ......................................................................... 9  
                       Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees .............................................. 10 
                       Continue Oversight of the Broadband Technology Opportunities Program ................................................................ 11  
                       Apply Lessons Learned from 2010 Decennial to Planning for the 2020 Census to Avoid Cost Overruns ............ 11 
                       Protect Against Cost Overruns and Schedule Slippages for Headquarters Renovation ............................................. 12 
                    Challenge 3: Strengthen Department-Wide Information Security to Protect
                    Critical Information Systems and Data ........................................................................ 14 
                       Continue Working to Improve IT Security by Addressing Ongoing Security Weaknesses ....................................... 14 
                       Implement Security Policy Effectively Through Consistent, Proactive Management .................................................... 16 
                    Challenge 4: Manage Acquisition and Contract Operations More Effectively to
                    Obtain Quality Goods and Services in a Manner Most Beneficial to Taxpayers ...... 18 
                       Develop and Retain a Qualified Acquisition Workforce .................................................................................................... 19  
                       Ensure High Ethical Standards in the Acquisition Workforce and in Procurement Practices.................................... 19 
                       Strengthen Processes to Govern the Appropriate Use of High-Risk Contracts and to Maximize Competition .. 20 
                       Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve Oversight and Tracking of
                       Contract Savings ......................................................................................................................................................................... 21 
                       Deliver Cost Savings and Efficiency on Major IT Investments........................................................................................... 22  
                    Challenge 5: Manage the Development and Acquisition of NOAA’s Environmental
                    Satellite Systems to Avoid Launch Delays and Coverage Gaps ................................. 23 
                       Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP .................................................... 24 
                       Ensure Solid Program Management and Systems Engineering Principles Are Applied to Mitigate JPSS
                       Coverage Gaps ............................................................................................................................................................................ 25 
                       Maintain Robust Program Management and Systems Engineering Disciplines to Prevent Geostationary
                       Coverage Gaps ............................................................................................................................................................................ 27 
                    Acronym List .................................................................................................................... 29 
                    Appendix A: Related OIG Publications ......................................................................... 30 
                    Appendix B: Comparison of FY 2011 Challenges to FY 2012..................................... 34 
                    Appendix C: Management Response to OIG Draft Report ........................................ 35 


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES




F Y   2 0 1 1   P E R F O R M A N C E                    A N D           A C C O U N T A B I L I T Y                              R E P O R T
                                                                                                                                                                                                                        403
A ppendix E : 2 0 1 2 M anagement C hallenges




              DEPARTMENT OF COMMERCE
            U.S.                                                                                                                   OFFICE OF INSPECTOR GENERAL


             Challenge 1:
             Effectively Promote Exports, Stimulate Economic Growth, and Create Jobs
             The Department is at the center of the federal government’s efforts to promote exports and
             stimulate economic development, while at the same time regulating exports. The Secretary
             plays a visible role in carrying out the Department’s trade promotion mission, with export- and
             trade-related activities—such as leading trade missions and representing the United States in
             bilateral or multilateral meetings—accounting for a significant portion of the Secretary’s time.
             The President also tasked Commerce with leading the government-wide SelectUSA initiative by
             attracting and retaining domestic and foreign investments. We estimated that Commerce
             planned to devote approximately $994 million (11 percent) of its FY 2011 budget request to
             fund direct international programs and activities, most of which is represented by the budgets
             of the International Trade Administration (ITA) and the Bureau of Industry and Security (BIS).

             Implement Administration Initiatives with Effective Interagency Partnerships

             Many federal agency missions are related to international trade. We reviewed their missions
             and found more than 20 performed trade-related functions, such as policy development and
             negotiation, export promotion, financing, and licensing and regulation (table 1).

             Table 1. U.S. Government Agencies with Trade-Related Functions
                                                                             Member of                                                    Function
                                                                                       Trade                Policy                                 Finance,
                                                                     Export                                                                                             Licensing,
                                                                                     Promotion           Development,          Export         Insurance, Grants
           Agency                                                  Promotion                                                                                           Inspection &
                                                                                    Coordinating         Negotiation &       Promotion a        & Adjustment
                                                                    Cabinet                                                                                             Regulation
                                                                                    Committee            Cooperation                              Assistance
           Council of Economic Advisors                                 �                  �                    �
           Department of Agriculture                                    �                  �                    �                  �                   �                     �
           Department of Commerce                                       �                  �                    �                  �                   �                     �
           Department of Defense                                                           �                    �                                                            �
           Department of Energy                                                            �                    �                  �                                         �
           Department of Homeland Security                                                 �                    �                                                            �
           Department of the Interior                                                      �                    �                                                            �
           Department of Labor                                          �                  �                    �                  �                   �
           Department of State                                          �                  �                    �                  �                                         �
           Department of Transportation                                                    �                    �
           Department of the Treasury                                   �                  �                    �                                                            �
           Environmental Protection Agency                                                 �                    �                                                            �
           Export-Import Bank                                           �                  �                                                           �
           Food and Drug Administration                                                                         �                                                            �
           National Economic Council                                    �                  �                    �
           National Security Council                                    �                  �                    �
           Office of Management and Budget                              �                  �                    �
           Office of the U.S. Trade Representative                      �                  �                    �                  �
           Overseas Private Investment Corporation                      �                  �                                                           �
           Small Business Administration                                �                  �                                       �                   �
           U.S. Agency for International Development                                       �                    �
           U.S. International Trade Commission                                                                  �                                                            �
           U.S. Trade Development Agency                                �                  �                                       �
           Source: OIG analysis of government agency information
           a Export Promotion includes export counseling and assistance, providing trade leads and market research, conducting feasibility studies, and advocating for U.S. businesses.




             OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                                                   1




 404                                                             F Y   2 0 1 1            P E R F O R M A N C E                    A N D         A C C O U N T A B I L I T Y              R E P O R T
                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                              OFFICE OF INSPECTOR GENERAL

                    The Department has a critical part in the success of the administration’s three government-
                    wide initiatives: promote U.S. exports, reform the export control system, and reorganize the
                    federal government’s trade promotion responsibilities. The following efforts require the
                    Secretary to work effectively with interagency partners and to marshal and integrate
                    Commerce resources:

                           •      Increase Collaboration Among Partner Agencies to Implement the National
                                  Export Initiative. In March 2010, the President formalized a government-wide
                                  strategy called the National Export Initiative (NEI), which aims to double U.S. exports by
                                  2014 by enhancing the private sector’s ability to export goods and services. The NEI is
                                  led by a secretarial-level body called the Export Promotion Cabinet that is charged with
                                  implementing the initiative’s trade-related activities in coordination with the Trade
                                  Promotion Coordinating Committee (TPCC; see member agencies in table 1), 2 which is
                                  chaired by the Secretary. Historically, collaboration among TPCC agencies on specific
                                  trade promotion has not been strong, and the TPCC has not developed any working
                                  groups to improve coordination among its members. Despite these limitations the
                                  Department reports that, as of August 2011, the efforts of these organizations have
                                  resulted in a 17 percent increase in exports since 2009. 3

                           •      Work with Partner Agencies to Implement the Export Control Reform
                                  Initiative. The Department, along with the Departments of Defense and State, is a
                                  central part of implementing the Export Control Reform Initiative. This initiative
                                  envisions more effective export administration and enforcement by consolidating agency
                                  efforts and using a single IT system and list of controlled goods and technologies with
                                  military and commercial applications. Through this approach, the government would
                                  create a single source to help businesses obtain the information they need to export
                                  sensitive goods and technology. To date, the Department has succeeded in revising
                                  some of its export control regulations and is helping establish an export enforcement
                                  coordination center.

                           •      Support Reorganization of U.S. Government Trade and Export Promotion
                                  Functions. The Office of Management and Budget (OMB) is leading an effort to reduce
                                  overlap in government trade-related responsibilities and identify potential cost savings,
                                  thereby improving agencies’ efficiency and effectiveness. As noted in table 1 and later in
                                  table 2, trade functions and responsibilities are spread across multiple federal agencies—
                                  and even within the Department’s own operating units. Although the plan is not yet
                                  public, it is likely that the reorganization will affect the Department significantly;
                                  Commerce should be prepared for the possibility of major program changes.

                    Enhance Commerce Unit Operations to Help Promote Trade and Job Creation

                    At the same time as it is involved in these government-wide efforts, the Department must
                    continue to enhance its own mission to promote U.S. economic growth and associated job
                                                                                
                    2
                      The TPCC was established in 1993 by Executive Order 12870 under the authority of the Export Enhancement
                    Act of 1992 to coordinate governmental efforts to promote U.S. exports.
                    3
                      OIG has not verified the accuracy of this claim.


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                         2




F Y   2 0 1 1   P E R F O R M A N C E                     A N D           A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                    405
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                                                    OFFICE OF INSPECTOR GENERAL

            gains. Our office analyzed the Department’s trade-related responsibilities. The results of our
            analysis are displayed in table 2, which outlines Commerce’s international functions and the
            missions of responsible operating units.

            Table 2. International Function by Commerce Operating Unit a
                                                                                                        Commerce Operating Unit
           International Function                                                      ITA   USPTO   NIST   EDA   ESA   BIS    MBDA    NOAA       NTIA
           Represent the nation in international forums                                z     z      z          z    z                z        z
           Formulate policy and negotiate agreements                                   z     z      z                z                z        z
           Manage international cooperation and exchanges                              z     z      z          z    z                z
           Promote U.S. exports and commercial advocacy                                z     z      z                z                z        z
           Promote U.S. international competitiveness                                  z     z      z    z          z       z
           Promote U.S. standards                                                      z             z                                            z
           Regulate trade and investment                                               z                               z
           Collect, analyze, and disseminate trade data                                z                         z
           Protect U.S. intellectual property rights                                   z     z
           Mitigate negative effects of international trade                            z                   z
           Enforce international law and U.S. treaty obligations                                                        z                z
           Combat unfair trade practices                                  z
           Source: OIG analysis, based on bureau information
           a
             Commerce’s operating units are International Trade Administration (ITA), U.S. Patent and Trademark Office (USPTO), National Institute of
           Standards and Technology (NIST), Economic Development Administration (EDA), Economics and Statistics Administration (ESA), Bureau of
           Industry and Security (BIS), Minority Business Development Agency (MBDA), National Oceanic and Atmospheric Administration (NOAA), and
           National Telecommunications and Information Administration (NTIA).


            The Department began improving coordination among its operating units by launching the
            “CommerceConnect” initiative in 2009 to help U.S. businesses be more competitive and create
            jobs by coordinating and providing a portfolio of government assistance to businesses via the
            Internet, a national call center, and field offices throughout the country. However, a more
            structured and broad-based approach is needed to adequately address Commerce-wide
            coordination efforts and address possible duplication of activities, as reported in a recent
            Government Accountability Office (GAO) study. 4 The Department also faces the following
            specific challenges to help promote trade and create jobs:

                   •      Repatriate Manufacturing Jobs in America. Repatriation of jobs that have moved
                          abroad will help create U.S. jobs and improve the economy. The House Appropriations
                          Committee has recently proposed tasking the Secretary with establishing a Repatriation
                          Task Force to examine incentives needed to encourage U.S. companies to bring
                          manufacturing and research and development jobs back to the United States. The Senate
                          Appropriations Committee also proposed giving the Department the task of developing
                          a national manufacturing strategy. 5

                   •      Appropriately Allocate Resources to Support the NEI. ITA is involved with both
                          the NEI and the potential reorganization/consolidation of U.S. export promotion
                                                                        
            4
              GAO. March 1, 2011. Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars, and
            Enhance Revenue, GAO-11-318SP. Washington, D.C.
            5
              See the pending House appropriations bill for FY 2012 (H.R. 2596) and Senate Report 112-78 accompanying the
            Senate appropriations bill for FY 2012 (S. 1572), as reported by the respective Appropriations Committees.


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                          3




 406                                                                   F Y   2 0 1 1     P E R F O R M A N C E     A N D      A C C O U N T A B I L I T Y   R E P O R T
                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                              OFFICE OF INSPECTOR GENERAL

                                  activities. As part of the NEI, ITA intends to promote U.S. exports by increasing the
                                  number of trade specialists, outreach, and guidance to small- and medium-sized
                                  businesses capable of entering new markets, as well as the number and size of trade
                                  missions. The bureau’s proposed FY 2012 budget provides additional funding to carry
                                  out NEI activities. With its increased workload, ITA must effectively manage its
                                  resources to meet the established goal of doubling U.S. exports by 2014 and must also
                                  fulfill congressional reporting requirements.

                           •      Reduce the Patent Backlog, Improve Processing Times, and Effectively
                                  Implement Patent Reform. USPTO fosters innovation and protects inventors’
                                  intellectual property rights by registering trademarks and granting patents. Patents can
                                  help make initial investments in an invention worth the effort and expense; a granted
                                  patent can help investors secure capital, create or expand businesses, and create jobs.
                                  Over the past decade, the patent backlog has doubled, and the completion of patent
                                  reviews has increased from an average of 2 years to almost 3 years. Long waits for
                                  application decisions could negatively impact innovation, economic development, and job
                                  growth. USPTO continues to contend with the large number of patents awaiting review,
                                  making it imperative that USPTO maintain its focus and increase its efforts to address
                                  these challenges. 6

                                  USPTO also faces new administrative and operational challenges in implementing the
                                  recently enacted Leahy–Smith America Invents Act (Pub. L. No. 112-29). This act
                                  contains many changes to patent laws and USPTO practices, such as moving the United
                                  States to a “first-to-file” system, creating new proceedings for review of granted patents,
                                  allowing USPTO the authority to set fees, and imposing a 15 percent surcharge on all
                                  patent-related fees. These changes—many of which must be made between 10 days and
                                  12 months of the enactment—will require USPTO to issue new regulations, set new
                                  fees, modify current business processes, and conduct new studies and report on them
                                  to Congress.

                           •      Improve Technical and Financial Assistance Programs to Promote Job
                                  Growth in the United States. The two departmental operating units that provide
                                  assistance to U.S. companies are NIST and EDA. NIST fosters trade through a variety of
                                  programs that support business innovation, promote research, and help companies
                                  improve their business processes. The $125 million-per-year Manufacturing Extension
                                  Partnership, for example, works with small and mid-sized U.S. manufacturers to help
                                  create and retain jobs, increase profits, and save time and money through a
                                  public/private partnership. In FY 2011, EDA provided approximately $250 million in
                                  grants and assistance programs that focus on helping businesses in disadvantaged and
                                  distressed communities and mitigating the negative impacts of trade. EDA grants
                                  enhance the export potential of U.S. businesses, and increase the competitiveness of

                                                                                
                    6
                      USPTO reports that the backlog of patent applications has decreased from 716,428 in October 2010 to 683,991
                    in August 2011 (www.uspto.gov/dashboards/patents/kpis/kpiBacklogDrilldown.kpixml).

                     


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                         4




F Y   2 0 1 1   P E R F O R M A N C E                     A N D           A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                    407
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                   regions across the country. Our office has identified needs to improve program and
                   grant management in these areas.

               •   Ensure the Elimination of Important Surveys Does Not Adversely Affect the
                   Formulation of Vital National Social or Economic Indicators. Composed of the
                   U.S. Census Bureau and the Bureau of Economic Analysis (BEA), ESA is responsible for
                   collecting and maintaining key statistics on the U.S economy, international trade, and
                   investment. The constrained budget environment may result in an adverse impact on
                   this critical mission. For example, the Department has proposed eliminating the Census
                   Bureau’s 2012 Economic Census, which would affect the quality and production of
                   major economic indicators such as BEA’s National Income and Product Accounts and
                   Gross Domestic Product, and the Bureau of Labor Statistics’ Producer Price Index. The
                   Department and Congress need to ensure that the elimination of these important
                   surveys does not have an adverse effect on the formulation of vital national social or
                   economic indicators.

            The entire Department has to effectively and efficiently coordinate efforts and manage
            resources to meet the goals of the various trade and export initiatives, avoid program
            duplication, and maximize resources. Workforce planning, program improvements, and well-
            defined missions can assist with meeting those goals. If all operating units do not successfully
            manage their programs and coordinate efforts, valuable resources may be wasted, jeopardizing
            Commerce’s ability to help U.S. companies increase exports and strengthen the national
            economy.

            Correct Unfair Trade Practices and Protect Our National Security Through Enforcement
            Activities

            While trade promotion is an essential part of the its mission, the Department must also
            maintain strong trade enforcement programs so that the United States can thrive in the global
            marketplace. Long-term, sustainable U.S. economic growth depends on the effective
            enforcement of trade agreements and laws to ensure U.S. companies can compete fairly in the
            international arena. ITA’s Import Administration works to counteract unfair trade practices by
            U.S. trading partners, such as dumping and foreign subsidies, while its Market Access and
            Compliance unit works to ensure compliance by these same trading partners with international
            trade agreements and to resolve trade disputes.

            Additionally, the Department facilitates trade in a manner that protects U.S. national interests.
            This mission is carried out by BIS, which protects national security interests by regulating the
            export of controlled goods and technology to prevent their acquisition by our country’s
            adversaries. While each bureau vigorously carries out its respective missions, BIS faces the
            greatest challenge as it contends with fundamental changes to the country’s export control
            system.

            BIS is currently helping to implement the long-term goals of the Export Control Reform
            Initiative. In the near term, the initiative will result in the transfer of a significant number of
            export-controlled items from the jurisdiction of the State Department’s Directorate of Defense


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                  5




 408                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    Trade Controls to BIS. The bureau will need to ensure that its resources are adequate to
                    handle the increased workload. In addition, BIS will need to increase its outreach efforts to
                    educate exporters about changes in export control regulations and provide the necessary
                    guidance to ensure compliance with new regulations. Finally, with more goods and technology
                    shipped under its jurisdiction, BIS will need to increase its enforcement efforts to detect,
                    prosecute, and deter violations of the regulations. Effective administration and enforcement of
                    the revised dual-use export regulations will be critical. Otherwise, U.S. companies risk losing
                    export sales because of delays in processing license applications, and controlled goods and
                    technology may be shipped to unsuitable end users by exporters who willfully or unintentionally
                    violate the regulations.

                    Improve Regulatory Reviews to Protect and Promote Public Interests
                    The Department plays a vital role in regulating marine fisheries and protected resources
                    (NOAA), patents and trademarks (USPTO), and the import and export of goods (ITA and BIS).
                    In August 2011, the Department submitted its Plan for Retrospective Analysis of Existing Rules in
                    response to Executive Order 13563, Improving Regulation and Regulatory Review, issued January
                    18, 2011. In this order, the President stated:

                           Our regulatory system must protect public health, welfare, safety, and our environment
                           while promoting economic growth, innovation, competitiveness, and job creation. It
                           must be based on the best available science….It must take into account benefits and
                           costs…. It must measure, and seek to improve, the actual results of regulatory
                           requirements.

                    Conducting adequate cost-benefit analyses and identifying meaningful performance measures for
                    regulatory activities are critical to avoid overburdening affected industries, as required by the
                    President’s Order. This is especially important for NOAA to consider. In recent years,
                    members of the fishing industry and congressional leaders from the New England region have
                    repeatedly questioned the costs and benefits of certain fishery regulations. Last year, we also
                    reported that balancing NOAA’s goals of protecting the environment and supporting the fishing
                    industry was one of the top management challenges facing the Department.

                    NOAA has committed to working with stakeholders and Congress to improve performance
                    metrics for its U.S. fishery management policies and to revisit previous cost-benefit analyses as
                    part of the retrospective regulatory analysis. USPTO, ITA, and BIS also plan to incorporate
                    cost-benefit analyses as part of their regulatory reviews. To implement the President’s Order,
                    the Department needs to ensure the quality of cost-benefit analyses conducted by these
                    regulatory operating units and appropriate actions taken to revise/update regulatory activities.




                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                  6




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                            409
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL


            Challenge 2:
            Reduce Costs and Improve Operations to Optimize Resources for a Decade of
            Constrained Budgets
            OMB has issued FY 2013 budget guidance directing federal agencies to provide scenarios with
            their FY 2013 requests reflecting funding at levels 5 and 10 percent below their FY 2011
            enacted budgets. At the same time, OMB encouraged agencies to develop programs supporting
            economic growth. OMB has stated that it will be difficult, but possible, to find savings to
            support these investments in growth; agencies have to cut or eliminate low-priority and
            ineffective programs while consolidating duplicate ones, improve program efficiency by driving
            down costs, and support fundamental program reforms that will generate the best outcomes
            per dollar spent.

            The pending House appropriations bill for FY 2012, as reported by the Committee on
            Appropriations, would reduce the Department’s appropriations by 6 percent compared with FY
            2011—and was almost 20 percent below the administration’s FY 2012 budget request. In
            addition, the Joint Select Committee on Deficit Reduction is seeking $1.5 trillion in
            government-wide savings over the next 10 years. The Committee could target additional cuts in
            specific Commerce programs; if the Committee fails to agree on spending reductions, or the
            Committee’s proposal is not enacted by January 15, 2012, across-the-board cuts will begin with
            the FY 2013 budget. Some Commerce programs, both small and large, have already been deeply
            affected by constrained budgets:

               •   The Department requested $22.6 million for two key IT security strategic initiatives
                   intended to enhance system monitoring and detect and respond to cyber attacks.
                   However, due to budget uncertainties, the Department is identifying alternative funding
                   sources internally, and has to carefully prioritize the elements of both initiatives so that
                   funds can be used to implement the most critical elements first. Information technology
                   and cybersecurity are discussed in detail in challenge 3.
               •   Based on the current FY 2011 funding level, NOAA expects a potential coverage gap
                   between its two new polar weather satellites—the National Polar-orbiting Operational
                   Environmental Satellite System (NPOESS) Preparatory Project, scheduled for launch in
                   October 2011, and the first Joint Polar Satellite System satellite, scheduled for launch in
                   February 2017. According to NOAA’s studies, its weather forecasting at 5, 4, and 3 days
                   before weather events could be significantly degraded during the coverage gap. We
                   discuss NOAA’s ability to minimize the gap in severe weather forecasting in challenge 5.

            As the Department prepares for an extended period of tighter budgets and decreased spending,
            it is more important than ever to target waste, reduce inefficiency, and ensure that taxpayers’
            dollars are being spent wisely. OIG has reviewed and recommended improvements in several
            areas of the Department’s operations. Opportunities to save money and optimize efficiency lie
            in such diverse areas as administrative operations; improper payments; program and grants
            management; 2020 decennial census planning; and the ongoing renovation of the Department’s
            Washington, D.C., headquarters.


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                    7




 410                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                              OFFICE OF INSPECTOR GENERAL


                    Implement and Expand Initiatives to Improve Operational Efficiency and Economy

                    In view of the constrained budget environment for FY 2012 and beyond, the Department has
                    already started looking for additional savings by
                    reforming the way it does business.
                                                                       Table 3. Commerce’s Cost-Saving
                    Commerce has an initiative in place to save $143 Initiatives
                    million in administrative costs in FY 2011 and                                                    Savings
                    2012 (table 3). Savings will be realized in part   Initiatives                                     in FYs
                    through an $86 million reduction in facilities and                                              2011–2012a
                    information technology as well as human            Acquisition:
                    resources. For example, Commerce is one of                   Strategic Sourcing                    $ 25 million
                    more than 12 federal agencies that have received Acquisition:
                    approval to authorize voluntary early retirement             Contract Management                   $ 32 million
                    and separation incentives for employees who        Other Administrative Activities                 $ 86 million
                    volunteer to retire from federal service. The
                                                                                                                       $143 million
                    Department has also committed to close 22 of       Total Savings
                                                                                                                      =========
                    its 56 data centers by December 31, 2012, as       Source: Department of Commerce
                    part of the federal government’s long-term plan    a Although some of the initiatives began in FY 2011, the

                                                                       total administrative savings are estimated for FY 2012.
                    to lower operating costs by consolidating data
                    centers. 7

                    The remaining $57 million in savings will be derived from changes in the Department’s
                    acquisition activities. As we discuss in challenge 4, the Department needs to handle acquisitions
                    more effectively and efficiently; it can do so in part by reducing the use of high-risk acquisition
                    contracts. The Department reported it has already saved about $4 million by focusing on
                    strategic sourcing for six services: cellular service, office supplies, personal computers and
                    accessories, print management and energy, small package delivery, and support services. But
                    relentless management attention and active oversight of reported savings are critical to
                    achieving the Department’s goal.

                    The Department demonstrated leadership in taking these cost-saving initiatives; however, the
                    budget environment will require that Commerce continue to search for similar opportunities to
                    optimize efficiency and cut operational costs. For example, in our audit of the Department’s
                    motor pool operations, we found that Commerce needed more effective oversight of its
                    vehicle inventory, records, and cost; over 730 fleet credit cards—with transactions totaling
                    over $1 million—could not be matched to a motor pool vehicle. Our recommendations to
                    improve the inventory and use fraud monitoring tools to prevent or detect credit card abuses
                    will improve the economy and efficiency of motor pool operations. In addition, the Census
                    Bureau, in an effort to reduce costs and improve the quality of the hundreds of surveys it
                    executes annually, plans to realign its 12 regional offices into 6. An annual cost saving of $15–18
                    million is projected once this realignment is complete.



                                                                                
                    7
                        Department of Commerce. September 28, 2011. 2011 Data Consolidation Center Plan and Progress Report (draft).


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                         8




F Y   2 0 1 1   P E R F O R M A N C E                     A N D           A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                    411
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL


            Strengthen Oversight of Improper Payments for Additional Recoveries

            The Department can increase efforts to implement the Improper Payments Elimination and
            Recovery Act of 2010 (IPERA) and increase the dollars it recovers from improper payments.
            The law defines improper payments as payments that either should not have been made or that
            were made to ineligible recipients or for ineligible goods and services. Our 2011 report on
            improper payments highlighted the opportunity to test payments for almost $6 billion in FY
            2010 grants. Commerce can recover more improper payments by testing more types of
            payments, lowering its dollar limit for testing payments, beginning testing sooner, and following
            the guidance of OMB and IPERA to determine which programs may have the most risk of losses
            due to improper payments.

            IPERA expanded the criteria for determining whether a program may be susceptible to
            improper payments, lowered the review threshold for programs and activities from $500
            million to $1 million in payments, and expanded the types of programs required to conduct
            recovery audits, if cost-effective, to include any contract, grant, or cooperative agreement.
            OMB also has lower dollar thresholds for testing potential improper payments. For example,
            according to OMB’s updated criteria, single payments of more than $5,000 to an individual or
            $25,000 to an entity can be tested for high-risk programs. By lowering the threshold for testing,
            agencies have a better chance of detecting and recovering improper payments. Currently, the
            Department only tests single payments greater than $100,000. While focusing on a few high-
            dollar payments addresses the very highest risk, the Department does not have an adequate
            assessment of the total improper payments.

            Since FY 2006, OMB guidance on improper payment testing has encouraged, but not required,
            that grants be included in recovery audits, which are post-payment reviews designed to identify
            improper payments and return the payments to the Treasury. The Department, however,
            excludes from these reviews grants, travel payments, bank and purchase cards, procurements
            with other federal agencies, and procurements with non-federal entities unless the associated
            contracts have expired. Because the Department did not elect to include grants in its recovery
            audits from FYs 2006–2010, annual amounts of $1–6 billion were not tested. For these fiscal
            years, Commerce identified and reported only one contract recovery—for less than
            $100,000—from a recovery audit. We have recommended that the Department include grant
            funds in future audits, increasing the chance that significant erroneous payments will be found,
            reported, and recovered. In response, the Department, beginning in FY 2011, has expanded its
            payment recapture audits to include grants and other cooperative agreements. An independent
            contractor is currently performing a Department-wide payment recapture audit of closed
            grants and other cooperative agreements. The Department should also consider including
            ongoing grant and procurement activities in its review to ensure timely recovery of any
            improper payments made. Deferring improper payment reviews until contracts have been
            closed—years after payments have been made—undercuts IPERA’s requirement to give priority
            to the most recent payments.




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 9




 412                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                                               OFFICE OF INSPECTOR GENERAL


                    Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees

                    The Department’s annual grant obligations increased from approximately $2 billion in FY 2006
                    to almost $6 billion in FY 2010, as shown below in figure 1 (the additional $4 billion was due to
                    Recovery Act funds). As of June 2011, the Department reported about $10 billion accumulative
                    outstanding obligations, more than half of which were for grants. Strong oversight and program
                    management are needed to ensure responsible spending and timely de-obligation of unneeded
                    funds.

                    Shrinking grant management budgets will in turn challenge pre- and post-award grant processes.
                    Pre-award application processes need to target for funding only the most highly qualified
                    applicants performing mission-critical functions. Post-award processes have to focus on
                    obtaining the maximum benefit for taxpayer dollars through program office oversight of grant
                    recipients’ performance, compliance with program rules, and reporting, as well as ensuring the
                    financial integrity of programs by overseeing expenditures, matching share, and indirect costs.


                                                                     Figure 1. Grant Awards, 2006–2010a

                                                         6 
                                                                                                                                                       EDA
                                 Dollars (in billions)




                                                         5                                                                                             NIST
                                                         4                                                                                             NOAA
                                                         3                                                                                             NTIA
                                                         2 
                                                         1 
                                                         ‐
                                                                   2006           2007           2008            2009           2010
                                                              Source: Commerce Office of Acquisition Management, Grants
                                                              a Office of Secretary, Minority Business Development Agency, and International Trade

                                                              Administration totals were below $75M and are too small to display on the scale of this graph.




                    The diversity and duration of Commerce grant programs (grants can have a performance
                    period of 3 years or more) also highlight the Department’s need to examine options such as
                    the following to standardize and streamline its management processes:

                        •   Better use of OIG audits and single audit reports (which are performed by independent
                            audit firms) that include financial and compliance testing to evaluate grantees during
                            grant implementation so that emerging issues can be promptly identified and remedied.
                            Examples of these issues include grantees needing better cash management, improved
                            procurement practices, and more accurate financial reporting. Since FY 2009, OIG
                            audits and single audits have identified more than $56 million in questioned costs and
                            funds to be put to better use.




                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                         10




F Y   2 0 1 1   P E R F O R M A N C E                         A N D       A C C O U N T A B I L I T Y               R E P O R T
                                                                                                                                                                     413
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL

               •   Consolidation of the Department’s three separate grants management systems into a
                   single system to improve efficiency and reduce the need for grants personnel to
                   manually correct errors or inconsistencies. Currently, the Department’s grants and
                   contracts personnel have to perform many manual procedures to compensate for
                   errors or inconsistencies in the grants and contracts systems. Updated systems could
                   result in a more efficient use of time and resources, as well as ensure consistently high
                   data quality and lower error rates. This will help the Department meet future
                   requirements of the Government Accountability and Transparency Board that is being
                   formed in response to an Executive Order by the President.

            Continue Oversight of the Broadband Technology Opportunities Program

            At some $4 billion, the Broadband Technology Opportunities Program (BTOP) represents a
            significant investment of federal funds to develop and deploy broadband services nationwide.
            The success of this program depends on the efforts of the National Telecommunications and
            Information Administration (NTIA)—along with its grant management partners, NOAA and
            NIST—and the rigor and strength of its oversight. The uncertain funding for BTOP oversight in
            FY 2012 and beyond raises significant concerns about NTIA’s ability to adequately oversee the
            program in the future. BTOP is a high-risk program that requires continuous, long-term
            oversight for several reasons. The approximately 230 BTOP awards represent the largest and
            most complex grant program NTIA has ever overseen. These grants went to a diverse group of
            recipients, many of them first-time federal award recipients. As of September 30, 2011, only
            about 19 percent of BTOP funds had been disbursed; the potential for fraud, waste, and abuse
            associated with such a large dollar amount of awards will increase substantially as recipient
            spending rises. As a result of the current spending pace, we are concerned that some grantees
            will not complete projects within three years of the grant issuance date. This completion goal is
            required by NTIA, as well as a recent memo by OMB requiring agencies to ensure that
            recipients complete all Recovery Act spending by September 30, 2013. Meeting completion and
            spending goals will require close monitoring by management.

            We have issued several reports on the program underscoring the need to continue active
            program oversight, and we have provided training and guidance to program staff, contract staff,
            and grant recipients. We will continue to track BTOP’s progress toward achieving program
            goals and its compliance with statutory and programmatic requirements.

            Apply Lessons Learned from 2010 Decennial to Planning for the 2020 Census to Avoid
            Cost Overruns

            While decennial field operations were successfully completed in 2010, if the next census uses
            the same design its life-cycle cost estimate ranges from a low of $22 billion to a high of $30
            billion. Given these projections, Census has to fundamentally change the design,
            implementation, and management of the decennial census to obtain a quality count for a
            reasonable sum of money.




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 11




 414                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    The decade’s early years are critical for deciding on a
                    design and for implementing these changes. According to         “Our historical review had
                    the bureau, the research and testing phase determines           found that the census costs will
                    how much change can be made to decennial operations;            have escalated by more than
                    this phase has to occur early in the decade to reduce
                    cost and risk. With funding constraints likely, the bureau      600 percent over the period
                    needs to prioritize its research and testing to determine       1960–2010, even after
                    the feasibility, cost, and data quality impacts of proposed     adjusting for inflation and the
                    census design changes.
                                                                                    growth in housing units.”
                    This summer, we issued our final report to Congress on
                                                                                    National Research Council
                    the 2010 decennial. In the report, we outlined several
                                                                                    Envisioning the 2020 Census (2010)
                    challenges the Census Bureau has to effectively address
                    in time for the 2020 Census:

                        1. revamp cost estimation and budget processes to increase accuracy, flexibility, and
                           transparency;
                        2. use the Internet and administrative records to contain costs and improve accuracy;
                        3. implement a more effective decennial test program using existing surveys as a test
                           environment;
                        4. effectively automate field data collection;
                        5. avoid a massive end-of-decade field operation through continuous updating of address
                           lists and maps; and
                        6. implement improved project planning and management techniques early in the decade.

                    Protect Against Cost Overruns and Schedule Slippages for Headquarters Renovation

                    For the first time in its 79-year history, the Herbert C. Hoover Building (HCHB)—Commerce’s
                    Washington, D.C., headquarters—is undergoing a comprehensive renovation. The project,
                    currently scheduled for completion in 2021, has a budgeted cost of $958 million. Although the
                    General Services Administration (GSA) owns the building, the Department is responsible for
                    funding tenant improvements, such as

                        •   upgrading all mechanical, electrical, and safety systems to alleviate code deficiencies,
                            conform to industry standards, meet GSA guidelines, and extend the building’s useful
                            life;
                        •   increasing usable space;
                        •   increasing energy and environmental efficiencies; and
                        •   incorporating security improvements.

                    The President’s FY 2012 budget included over $16 million for Commerce to fund tenant
                    improvements. However, the pending House appropriations bill for FY 2012 would reduce the
                    Department’s requested appropriation for the renovation by almost $1.2 million. This


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                   12




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              415
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL

            reduction, along with budget cuts to meet OMB’s FY 2013 guidance and a decade of restricted
            spending, will increase the risk of delays and could cause the project to miss the scheduled
            completion date. We will continue our ongoing review of construction activities and decisions
            critical to the renovation’s success.

            Commerce also needs to continue to work closely with GSA as an advocate for the operating
            units housed in HCHB since the project has the potential to disrupt Commerce operations and
            adversely affect its workforce. We are overseeing how effectively Commerce is working with
            GSA, and we will examine the project’s cost schedules, performance, and any health or safety
            issues that may emerge as the renovation continues.

             




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                13




 416                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                              OFFICE OF INSPECTOR GENERAL


                    Challenge 3:
                    Strengthen Department-Wide Information Security to Protect Critical
                    Information Systems and Data
                    The Department of Commerce—along with other government agencies, private industry, and
                    the public—relies on its 280 IT systems to perform critical actions and provide vital
                    information. The Department’s varied IT functions include processing census and economic
                    data, managing patent and trademark applications, developing trade information, delivering
                    meteorological information and severe weather alerts, modeling atmospheric conditions for
                    weather and climate forecasting, and controlling weather satellites.

                    In recent years, the federal government—and the Department in particular—have increasingly
                    taken advantage of Internet-based technologies to interconnect IT systems and conduct
                    business with the public. According to the Department’s June 2011 green paper, 8 today the
                    Internet has become central to the nation’s mission to “promote growth and retool the
                    economy for sustained U.S. leadership in the 21st century.” As this trend continues, cyber
                    attacks on Internet commerce, vital business sectors, and government agencies have grown
                    exponentially. In 2010, an estimated 55,000 new viruses, worms, spyware, and other threats
                    bombarded the Internet daily; according to OMB’s FY 2010 Federal Information Security
                    Management Act of 2002 (FISMA) report to Congress, the number of cyber incidents reported
                    for federal systems alone in FY 2010 had increased by approximately 39 percent over FY 2009.

                    To address cybersecurity threats, the Department is playing a leading role in developing public
                    policies and private-sector standards and practices that can markedly improve the United
                    States’ overall cybersecurity posture. For instance, the President’s National Strategy for
                    Trusted Identities in Cyberspace has tasked the Department this year to coordinate federal
                    government and private-sector efforts to raise the level of trust associated with the identities of
                    individuals, organizations, networks, services, and devices involved in online transactions.

                    But Commerce’s own IT systems are constantly exposed to an increasing number of cyber
                    attacks, which are becoming more sophisticated and more difficult to detect. And clearly,
                    cybersecurity threats are exacerbated by the globally interconnected and interdependent
                    architecture of today’s computing environment. As a result, security weaknesses in one area
                    may provide opportunities for exploitations elsewhere. With this in mind, the Department
                    must continue to improve the effectiveness of its security measures to protect the
                    confidentiality, integrity, and availability of critical systems and information.

                    Continue Working to Improve IT Security by Addressing Ongoing Security Weaknesses

                    For our FY 2010 FISMA audit report, we evaluated 18 Commerce IT systems and concluded
                    that the Department’s information security program and practices have not adequately secured


                                                                                
                    8
                      Cybersecurity, Innovation and the Internet Economy, The Department of Commerce Internet Policy Task Force, June
                    2011.


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                        14




F Y   2 0 1 1   P E R F O R M A N C E                     A N D           A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                    417
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                                             OFFICE OF INSPECTOR GENERAL

            Department systems. The report presented major findings that required senior management
            attention, as shown in table 4.

            Table 4. OIG’s FY 2010 FISMA Findings Show Significant Weaknesses
            in Commerce’s Systems
            Measure                                                                                        Finding
            High-risk vulnerabilities identified                           Extensive vulnerabilities in system software suggest considerable
                                                                           likelihood of a security breach; patch management and vulnerability
                                                                           scanning practices are not effective. Scans identified significantly
                                                                           more high-risk vulnerabilities than were previously known.
            Configuration settings defined and documented                  Only 4 of 18 systems (1 high-impact) adequately defined and
                                                                           documented secure settings for operating systems and major
                                                                           applications. This is a long-standing deficiency in a crucial security
                                                                           practice.
            Configuration settings securely implemented                    Only 1 of 18 systems securely configured settings for its operating
                                                                           systems.
            Security weaknesses and corrective actions                     Most systems exhibited significant deficiencies in reporting and
            adequately reported and tracked                                tracking security weaknesses. As a result, the information about
                                                                           corrective action that the Department is using for performance
                                                                           measurement is inaccurate and inconsistent.
            Contingency plans adequately tested                            Six of 18 systems’ contingency plans were inadequately tested,
                                                                           including 2 systems that support the primary mission-essential
                                                                           weather forecasting function; testing of these 2 systems’ contingency
                                                                           plans had not been done since FY 2007.
            Alternate processing sites arranged                            Five systems that are required to have alternate processing sites do
                                                                           not have them, including three systems—two high-impact and one
                                                                           moderate-impact—that support weather forecasting. Documents
                                                                           attribute the lack of alternate sites primarily to budget constraints.
            Source: OIG, 2010 FISMA report
             
            According to OMB’s FY 2010 FISMA report to Congress, while the Department reported
            spending more than $165 million on IT security, its standing related to IT security posture is
            generally lower compared to other federal agencies (table 5).

            Table 5. Summary of OMB FY 2010 FISMA Report to Congress
            (Selected IT Security Key Metrics) a
                                                                                              Commerce’s Standing
            Key Metrics                                                                        Among 24 Agencies
                                                                                                (From the Top)
            Smartcard issuance                                                                        19
            IT assets with automated inventory capability                                                  18
            IT assets with automated vulnerability management capability                                   20
            Portable computers with encryption                                                             10
            Security training for users with significant security responsibilities                         16
            Security training for new users                                                                15
            Source: OMB
            a Information in the table is based on data provided to OMB by the agencies, not agency inspectors general.



            Last year, we recommended that Commerce revise its IT security policy by providing specific
            implementation guidance that will ensure more effective and consistent practices across the


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                      15




 418                                                  F Y   2 0 1 1        P E R F O R M A N C E             A N D      A C C O U N T A B I L I T Y      R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    Department. Further, we recommended the Department increase management attention to
                    ensure that the deficiencies we identified are rectified Department-wide.

                    In responding to our recommendations, the Department developed an action plan to address
                    the security weaknesses we identified; in the past year, the Department has taken several steps
                    toward improving IT security. It has continued to enhance IT security workforce training, has
                    increased collaboration between Department and operating unit chief information officers, and
                    is currently revising its IT security program policy to address recommendations from our FY
                    2010 FISMA audit report. The Department has also taken the significant step of including
                    information security measures in the Deputy Secretary’s quarterly balanced scorecard review
                    with bureau heads during FY 2011.

                    While we believe these efforts should strengthen the Department’s IT security program, much
                    more needs to be done. Until the Department successfully implements the items in its action
                    plan, we can expect to find recurring security weaknesses—in both agency and contractor
                    systems—that undermine the Department’s ability to defend its systems and information, and
                    that require greater attention and commitment from the Department’s senior management. In
                    fact, our ongoing FY 2011 FISMA work continues to find significant security weaknesses in
                    Department and contractor systems. Our review of the Department’s web applications
                    identified significant security weaknesses that put them at risk of cyber attack, and our
                    assessment of the selected Department IT systems found continued lapses in implementing
                    critical security controls related to secure configuration settings, auditing and monitoring, and
                    controlling access.

                    Implement Security Policy Effectively Through Consistent, Proactive Management

                    Our findings this year reaffirm the need for increased management attention by the
                    Department’s Chief Information Officer, senior operating unit leadership, and senior program
                    officials to ensure security policy and practices, including the associated performance evaluation,
                    are applied consistently and effectively across the Department. For example, in 2010, the
                    Department’s Office of the Chief Information Officer and the Office of Human Resources
                    issued joint memorandums to address performance management and accountability issues
                    identified in our 2009 IT security workforce audit. These memorandums provided specific
                    performance requirements to be incorporated in performance plans for individuals holding
                    critical IT security roles within the Department. If fully implemented, this would be a positive
                    step toward increasing management accountability to the Department’s IT security posture.
                    However, we reviewed a sample of FY 2010 and FY 2011 performance plans for authorizing
                    officials, system owners, and other individuals holding critical IT security roles in two operating
                    units, and found that specific requirements for these roles are not consistently incorporated in
                    some of the performance plans. We found plans that did not incorporate any of the
                    requirements and other plans that incorporated only some. The Department, therefore, needs
                    to determine the extent to which operating units are incorporating these requirements into
                    their performance plans and whether the incorporation is producing the desired effect.

                    The Department also faces the challenge of transitioning from a traditional certification and
                    accreditation process, which assessed a system’s security controls every 3 years, to NIST’s


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                               16




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           419
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL

            current risk management framework, which emphasizes continuous monitoring of security
            controls. The Department is modifying its policy to adapt to the risk management framework
            and taking two critical initiatives to secure Commerce’s cyber infrastructure:

                •   In response to a mandate by OMB, the Department is planning to strengthen its
                    networks' peripheral security protection with Trusted Internet Connections (TICs)
                    equipped with monitoring devices provided by the Department of Homeland Security.
                    Commerce has identified hundreds of Internet connection points that need to be
                    secured. Currently, the majority of operating units have awarded a contract to
                    implement TIC protection during 2011 or 2012; however, NOAA’s timetable for
                    implementing TIC protection extends all the way to 2014. Considering the
                    vulnerabilities that we have identified in Commerce systems and increased threats on
                    the Internet, management should strive to accelerate the TIC implementation timetable.
                •   The Department is planning to implement two key elements of its IT security strategic
                    plan developed in FY 2010: enterprise continuous monitoring capability and an
                    enterprise cybersecurity center. These initiatives are critical to proactively protecting
                    Commerce networks. However, as we discuss in challenge 2, Department management
                    needs to carefully prioritize the elements of these initiatives so that the limited funds
                    that are available can be used to implement the most critical elements first.

                                            




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                17




 420                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                              OFFICE OF INSPECTOR GENERAL


                    Challenge 4:
                    Manage Acquisition and Contract Operations More Effectively to Obtain Quality
                    Goods and Services in a Manner Most Beneficial to Taxpayers
                    The Department’s acquisition and contract operations are critical to its ability to effectively
                    fulfill its mission. In FY 2010, the Department obligated nearly $4 billion through more than
                    26,000 contract actions 9 to acquire a wide range of goods and services to support mission-
                    critical programs, including satellite acquisitions, intellectual property protection, broadband
                    technology opportunities, management of coastal and ocean resources, information technology,
                    and construction and facilities management. Table 6 illustrates the growing dollar amounts that
                    Commerce’s operating units have obligated through contracts in recent years.

                    Table 6. Contract Actions by Operating Unit, FY 2008 Through 2010 a
                                                                  FY 2008                         FY 2009 b                     FY 2010 b

                    Commerce
                                         Contract            Dollars          Contract              Dollars           Contract          Dollars
                    Acquisition
                                          actions         (in millions)        actions           (in millions)         actions       (in millions)
                    Office
                    NOAA                       15,625               $990             16,831              $1,159             16,087           $1,624
                    Census                      2,267               $681              3,332              $1,308              3,187           $1,312
                    USPTO                       1,794               $489              1,776                $384              1,619             $431
                    NIST                        4,481               $233              4,768                $286              4,992             $505
                    Office of
                                                  903                $79                768                 $63                870              $53
                    Secretary
                    Total                      25,070             $2,472             27,475              $3,200             26,755           $3,925
                    Source: Department of Commerce Office of Acquisition Management
                    a Dollar amounts are rounded.
                    b FY 2009 and 2010 include $361 million and $754 million, respectively, in contract actions obligated under the American

                    Recovery and Reinvestment Act. These years also reflect significant contract spending related to the 2010 decennial census.


                    In order to maximize its investments, the Department needs to strengthen its acquisition and
                    contract management practices. Acquisition management is not just the act of awarding a
                    contract; while a contract is a product of an acquisition, there is an entire process that begins
                    with identifying a mission need and developing a comprehensive strategy to fulfill that need
                    through a thoughtful, balanced approach that considers cost, schedule, and performance. While
                    the Department has made some progress in this important area, our audits continue to find
                    weaknesses in how the Department plans, administers, and oversees its contracts and
                    acquisitions.
                    Commerce has made important efforts to address these challenges. In June 2010, the Secretary,
                    in an effort to strengthen and improve the quality of Commerce's acquisitions, initiated a
                    comprehensive review of the Department’s acquisition processes. The study found fragmented,
                    overlapping, and inadequate departmental oversight and unclear roles and responsibilities of the
                    offices involved in acquisitions. These problems allowed the operating units to initiate large
                    acquisitions without the benefit of Department-level governance and insight. While the
                    Department has established working teams to develop and implement solutions to these
                                                                                
                    9
                        Contract actions include contracts, delivery orders, task orders, and contract modifications.


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                           18




F Y   2 0 1 1   P E R F O R M A N C E                     A N D           A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                      421
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL

            problems, it is early in the process. Commerce hopes to have a framework in place for a
            Department-wide acquisition improvement project by the end of October 2011. However,
            developing the framework is just the first step in implementing solutions to the problems
            identified in the Secretary’s acquisition study. Commerce must follow through on the
            Secretary’s commitment—as well as take other needed actions to address the weaknesses we
            have identified—to establishing an efficient and effective acquisition process.

            Develop and Retain a Qualified Acquisition Workforce

            The Department needs to maintain an acquisition workforce that can effectively oversee its
            expanding and increasingly complex contract practices. As we reported in our September 2010
            memorandum on Commerce’s Recovery Act contracts and grants workforce, the Department
            claimed that almost all contracting personnel have met the Office of Federal Procurement
            Policy’s requirements for job-related certifications and continuous learning. Nonetheless,
            recruitment, training, and retention still pose risks to the Department’s ability to meet its
            increasing acquisition workload. For example, in FY 2010, the Department’s attrition rate was
            15 percent for contracting officers and 6 percent for contracting officer representatives and
            project managers. The Department estimates that maintaining a sufficient number of contract
            staff will require a 41 percent increase in contracting positions, a 56 percent increase in
            contracting officer representatives, and a 77 percent increase in project managers over the next
            4 years.
            In addition to staff lost through attrition, between FYs 2009 and
            2019, 54 percent of the senior-level acquisition employees in the       By 2019, the
            Department’s contracting series will be eligible to retire.             Department expects to
            According to the Department, it lacks a sufficient pipeline of          lose over half of its
            entry- to mid-level professionals with the knowledge and
            leadership skills to adequately sustain operations during the           senior acquisitions
            projected retirement wave. As experienced professionals leave           work force to
            the Department, Commerce must implement a strategy to keep              retirement.
            its workforce at the needed size and skill levels to support its
            mission.

            Ensure High Ethical Standards in the Acquisition Workforce and in Procurement
            Practices

            Prevention and deterrence of ethical violations in any organization depends upon internal
            controls, oversight, and robust ethics awareness and training programs. Government
            contracting is risky by nature, and Commerce employees in contract-related positions
            represent the first—and best—line of defense in ensuring program integrity by promptly
            recognizing and reporting ethics violations and fraud indicators. Their vigilance, along with
            effective internal controls, is essential to combating fraud.
            Because federal acquisition professionals have considerable control over how and to whom
            contracts are awarded, the profession has an inherent need for strong ethics monitoring and
            effective internal controls. Ethics training should include discussions of actual ethics violations


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                    19




 422                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    and “what-if” scenarios illustrating situations to avoid. Staff should also receive training on how
                    to avoid the appearance of a conflict of interest. As an added safeguard, Commerce ethics
                    officials should periodically review the ethics programs of contractors to help identify and
                    prevent conflicts or violations.
                    Historically, our investigations have identified the need for more vigilant oversight and stronger
                    process controls to detect and prevent procurement fraud, waste, and abuse within the
                    Department and among its fund recipients and contractors. The following examples of OIG
                    investigative findings illustrate the need for Commerce’s continued attention to procurement
                    integrity issues:

                        •   questionable sole sourcing practices by local program officials against advice of counsel,
                        •   regional officials steering contracts to acquaintances,
                        •   improper splitting of purchase card transactions to circumvent spending limits, and
                        •   improper communications with unsuccessful contract bidders.

                    Another control that the Department needs to strengthen is its suspension and debarment
                    program, which would help to ensure Commerce awards contracts and grants only to
                    responsible parties. In January 2011, we reported that the Department’s ability to safeguard
                    itself against awarding contracts and grants to improper parties was limited by delays in its
                    suspension and debarment decisions. The Government Accountability Office has also recently
                    issued a report disclosing that the Department needed to improve its suspension and
                    debarment practices.
                    In April 2011, the Department made its first decision to debar a contractor (or any other
                    party) in over 15 years. In this case, we recommended debarment to Commerce’s senior
                    procurement officials because the contractor had been convicted of conspiracy to commit
                    money laundering and sentenced to 9 years in prison. But a more than 3-year lapse between
                    our initial recommendation to bureau officials and the Department’s final action highlights the
                    problems with the Department’s approach to suspensions and debarments. Commerce’s
                    current Suspending and Debarring Official has begun to develop the processes and policies that
                    form the foundation of a successful suspension and debarment program but, despite this recent
                    progress, creating an efficient and durable program remains a challenge.

                    Strengthen Processes to Govern the Appropriate Use                OMB defines high-risk
                    of High-Risk Contracts and to Maximize                            contracts as contracts
                    Competition                                                       awarded noncompetitively or
                                                                                      in which only one bid was
                    Recent OMB contracting initiatives promote agency use
                    of competition and fixed-price contracts and require              received in response to a
                    agencies to effectively analyze prices to mitigate risks for      solicitation; cost-
                    noncompetitive contract awards. In FY 2010, the
                                                                                      reimbursement contracts; and
                    Department obligated over $473 million under
                    contracts considered to be high risk. High-risk contracts         time-and-materials and labor-
                    increase the risk of loss to the government because they          hour contracts.

                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                20




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           423
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                                                OFFICE OF INSPECTOR GENERAL

            provide fewer incentives for contractors to control costs while requiring more government
            resources for oversight. New high-risk contracts awarded by Commerce represented
            39.5 percent of the total dollar value of all new awards made in FY 2010. The Department was
            required to reduce the amount obligated for new awards of high-risk contracts by at least 10
            percent in FY 2010. 10 However, our recent work illustrates that the Department needs to
            further improve its controls over high-risk contracts.
            In our ongoing work, we have found that the Department has reduced its ratio of new high-risk
            contracts to total new contracts by over 15 percent. However, it did not report any FY 2010
            cases to OMB in which a high-risk contract was reduced or eliminated. In fact, the dollar value
            of high-risk contracts actually increased significantly from 2008 to 2010. Specifically, total dollars
            obligated for new high-risk contracts in FY 2010 increased by $143 million (more than 43
            percent) from FY 2008. Although there were no reported reductions or eliminations of high-
            risk contracts in FY 2010, operating unit acquisition officials have taken actions that should
            result in more extensive use of competitive fixed-priced contracts in FY 2011 and beyond.
            Further, without strong oversight, cost-plus-award-fee (CPAF) contracts can represent an
            additional risk of loss to the Department. The award fee in CPAF contracts is intended to
            motivate excellence in contractor performance and can also serve as a tool to control program
            risk and cost. However, the monitoring and evaluation of contractor performance necessary
            under a CPAF contract requires additional administrative effort and cost; federal regulations
            provide that such a contract is suitable only when the expected benefits of the contract are
            sufficient to warrant the added effort and cost. As we noted in our FY 2011 report, Top
            Management Challenges Facing the Department of Commerce, during 2010 decennial operations,
            the Census Bureau paid contractors millions of dollars in contract award fees that were not
            sufficiently designed or administered as required by regulations. For instance, for the Field Data
            Collection Automation (FDCA) contract, there were award fees that were excessive and not
            supported by technical assessments of the contractor’s performance. Our 2009 review of two
            FDCA contract performance periods revealed that the contractor received over 90 percent of
            the available fees despite serious performance problems noted by Census’s technical reviewers.
            Furthermore, the fee determination process lacked key features—such as qualitative measures
            and midpoint assessments—for ensuring awards were appropriate.

            Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve Oversight
            and Tracking of Contract Savings

            OMB’s contracting initiatives require agencies to improve oversight of contractors and focus on
            cutting contract costs by using smarter buying practices. The Department was required to
            develop an acquisition savings plan to review its existing contracts and acquisition practices and
            reduce contract spending by 3.5 percent in FY 2010 and an additional 7 percent by the end of
            FY 2011. Commerce had claimed cost savings of several million dollars resulting from the
            implementation of several initiatives in its November 2009 acquisition savings improvement
            plan; however, we found that the actual amount of cost savings achieved to date is uncertain
            because many of the amounts reported by the operating units are unsupported or

                                                                        
            10
                 OMB Memorandum M-09-25, July 29, 2009. Improving Government Acquisition.


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                           21




 424                                                                   F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    overestimated, and controls used to develop the methods for estimating savings are not
                    adequate or well defined. Several factors contributed to this problem, including the lack of
                    effective coordination, monitoring, and verification processes. For example, the Department’s
                    Office of Acquisition Management did not verify a nearly $18 million savings claim by the
                    Census Bureau for its bulk purchase of scanners. We disagreed with the bureau’s calculation of
                    its claimed savings, which was based on list prices; a more realistic value for the savings would
                    have been the difference between what Census would have spent for the scanners in the
                    absence of the savings initiative—based on prices it would have received for smaller-quantity,
                    regional purchases—and what it ultimately paid as a result of pursuing the initiative to
                    consolidate the acquisitions into a single nationwide action.
                    The Department has taken steps to improve its monitoring and verification of the cost savings
                    reported by the operating units’ procurement offices. Specifically, it is developing a process to
                    standardize the contract savings reporting among the procurement offices and also requiring
                    each office to report monthly on its actual contract savings; the Department will validate a
                    sample of the reported savings each quarter. While such efforts to improve reporting represent
                    real progress, continued attention will be needed to meet the level of accountability called for
                    by OMB. In challenge 2, we describe additional departmental actions to achieve cost savings by
                    eliminating improper payments.

                    Deliver Cost Savings and Efficiency on Major IT Investments

                    The Department spends about 25 percent of its annual budget
                    ($2.5 billion) on IT investments (excluding satellite spacecraft)—
                                                                                             The Department spends
                    one of the highest percentages among all federal agencies. With          about 25 percent of its
                    such a large amount being spent on technology, the Department            annual budget on IT
                    must watch for any opportunity to save money, improve
                    efficiency, and prevent setbacks to these important projects.
                                                                                             investments—one of the
                                                                                             highest percentages
                    For instance, OMB requires agencies to compile the cost and
                                                                                             among federal agencies.
                    schedule variances of major IT investment projects, the results
                    of which are posted publicly on the government’s IT Dashboard
                    website for accountability and transparency. In its results, the Department reported serious
                    cost and schedule problems concerning four NOAA IT investment projects, totaling
                    $265 million of Commerce’s annual investments. NOAA management also expressed concerns
                    that these IT system deficiencies, if not properly resolved, could result in serious disruptions to
                    its 24/7 weather forecasting capability or satellite support operations.
                    In addition, USPTO has embarked on its Patent End-to-End (PE2E) acquisition initiative to
                    significantly improve or replace nearly all of its aging patent processing systems. At a cost of
                    $130 million (by USPTO’s current estimate), PE2E is the largest, most complex multi-year IT
                    investment USPTO has undertaken in several years. In evaluating USPTO’s management of the
                    acquisition, we have identified challenges and offered recommendations related to improving
                    long-term technical and acquisition planning, as well as strengthening USPTO’s oversight of the
                    project.




                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                22




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           425
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                                                  OFFICE OF INSPECTOR GENERAL


            Challenge 5:
            Manage the Development and Acquisition of NOAA’s Environmental Satellite
            Systems to Avoid Launch Delays and Coverage Gaps
            For the past 50 years, NOAA, in partnership with
            the National Aeronautics and Space Administration                                      “Polar-orbiting satellites are the
            (NASA), has been responsible for developing and                                        backbone of all model forecasts at
            operating polar and geostationary environmental                                        three days and beyond. . . . NOAA is
            satellite systems. NOAA’s environmental satellite
            operations and weather forecasting are designated                                      faced with a nearly 100% chance of
            primary mission-essential functions of the                                             a data gap in the U.S. civilian polar
            Department of Commerce because they directly                                           orbit, on which both civilian and
            support government functions the President has                                         military users rely, by late 2016 to
            deemed necessary to lead and sustain the nation
                                                                                                   early 2017.”
            during a catastrophe. But NOAA’s current
            constellation of polar and geostationary operational                                   Dr. Kathryn D. Sullivan, Assistant Secretary of
            environmental satellites is aging, and its capabilities                                Commerce for Environmental Observation and
            will degrade over time. As a result, the risk of gaps in                               Prediction and Deputy Administrator of NOAA, in
            critical satellite data is increasing.                                                 July 28, 2011, written testimony to the U.S. Senate
                                                                                                   Committee on Appropriations, Subcommittee on
                                                                                                   Financial Services and General Government
            Between 1995 and early 2010, NOAA partnered
            with the Department of Defense and NASA in the
            development of the National Polar-orbiting Operational Environmental Satellite System
            (NPOESS), which was at that time the planned replacement system for NOAA’s Polar
            Operational Environmental Satellite System and Defense’s Defense Meteorological Satellite
            Program. The original NPOESS program was to develop six satellites, with first launch planned
            for 2009 and an estimated life-cycle cost of $6.5 billion through 2018. By late 2009, however,
            the program had reduced its scope to four satellites, with the first launch delayed until 2014,
            while its life-cycle cost estimate had escalated to $14 billion through 2026.

            In February 2010, the White House’s Office of Science and Technology Policy announced its
            decision to have NOAA, in partnership with NASA, establish the Joint Polar Satellite System
            (JPSS) program as part of the restructuring of NPOESS due to its long history of cost overruns
            and schedule delays. At that time, the JPSS program planned to launch two satellites—at an
            estimated cost of $11.9 billion—to collect data for short- and long-term weather and climate
            forecasting through 2026. But in order to be included in the FY 2011 President's budget
            request, the JPSS budget estimate had to be developed so quickly that, while NOAA had
            existing NPOESS requirements in place, it did not have time to formally approve high-level
            requirements for JPSS. 11

                                                                        
            11
               In a September 23, 2011, hearing before the House Subcommittees on Investigations and Oversight and Energy
            and Environment, Committee on Science, Space, and Technology, the Assistant Secretary of Commerce for
            Environmental Observation and Prediction and Deputy Administrator of NOAA stated that NOAA has recently 
            completed high-level JPSS requirements, refining its cost estimate, and will incorporate updated baselines (cost,
            schedule, and performance) in the upcoming FY 2013 budget submission.


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                       23




 426                                                                   F Y   2 0 1 1   P E R F O R M A N C E      A N D      A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    The second system, the Geostationary Operational Environmental Satellite-R Series (GOES-R),
                    is intended to offer uninterrupted short-range severe weather warning and “now-casting”
                    through 2036. With an estimated cost of $10.9 billion for four satellites, this program
                    experienced projected cost changes and reduced capabilities, which occurred while GOES-R
                    was in the midst of defining the system architecture. Working with NASA, NOAA is
                    responsible for managing the entire program and for acquiring the ground segment, which is
                    used to control satellite operations and to generate and distribute instrument data products.

                    Given their histories, both of these critical satellite programs require strong program
                    management and close oversight to minimize further delays and prevent any interruptions in
                    satellite coverage. Our work has identified three near-term priorities for NOAA as it manages
                    JPSS and GOES-R:

                        1. timely launch and complete the data checkout for the NPOESS Preparatory Project
                           (NPP);
                        2. strengthen program management and systems engineering to mitigate JPSS coverage
                           gaps; and
                        3. maintain robust program management and systems engineering to prevent GOES-R
                           coverage gaps.

                    Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP

                    The first JPSS satellite (JPSS-1) will be preceded in orbit by the NPP satellite, originally a NASA-
                    led risk reduction effort to test NPOESS’ new instruments in flight. Scheduled for an October
                    28, 2011, launch, NPP will now be used operationally to maintain continuity of climate and
                    weather forecast data (used, for example, in the prediction of heavy snowstorms and flooding)
                    between NOAA’s current polar-orbiting operational environmental satellite (NOAA-19) and
                    JPSS-1. Recent efforts by NASA’s NPP team (including contractors) have put the satellite on
                    track to launch in late October, but late development of the ground system has compressed the
                    mission schedule and delayed the schedule for data product availability after launch.

                    After the launch, NOAA originally planned to make NPP operationally ready in 18 months,
                    which coincides with the end of the design life of NOAA-19 (approximately March 2013). This
                    plan left little room for contingencies. Both NOAA and OIG have identified a number of risks
                    that, if not properly mitigated, could cause further delays in NPP operational readiness and
                    degradation of NOAA’s weather and climate forecasting capability:

                        •   According to the ground system’s contractor, Raytheon, the ground system will not be
                            able to support the validation of a significant number of data records until after a system
                            upgrade, planned for March 2012. In addition, NOAA has not finalized coordination
                            between the NPP/JPSS program and NOAA’s Center for Satellite Applications and
                            Research (STAR), which is critical to transferring satellite observation into operations.
                            Consequently, NOAA has extended its projection for readiness from 18 to 24 months
                            after launch, which could lead to a coverage gap between NOAA-19 and NPP if NOAA-
                            19 stops functioning properly at the end of its design life.



                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                24




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           427
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                                                OFFICE OF INSPECTOR GENERAL

                   •      We also observed that, unlike NOAA’s existing operational satellite systems, NPP has
                          only a single mission management center for controlling the satellite, and NPP’s ground
                          station has the system’s only science data downlink (the means to transmit a signal from
                          the satellite to the ground station). JPSS program officials told us they have
                          commissioned studies to develop an alternate mission management center and hope to
                          have one ready well in advance of the JPSS-1 launch. They also told us that the ground
                          station has redundancy in terms of antennas and equipment. However, while there is
                          redundancy, the use of a single ground station in a single geographic location is not
                          consistent with NOAA’s existing polar and geostationary operational environmental
                          satellite systems, in which more than one location is used.

                   •      NASA conducted two ground system/NPP satellite compatibility tests in 2011; the first
                          test had been delayed when ground system software builds took longer than expected
                          to produce. Both tests experienced further delays and compressed the remaining work
                          schedule for the October 2011 NPP launch. NASA has had to postpone analysis of
                          some test results and requirements verification until after NPP’s launch. Also, in
                          response to an independent review team’s recommendations, the project has completed
                          a stress test in late September and early October to evaluate NPP’s operational
                          readiness. Any system fixes required to mitigate concerns identified during the stress
                          test would add to the postlaunch data production workload.

            In order to reduce the risk of a data gap between NOAA-19 and NPP, NOAA management
            needs to provide sufficient oversight to enable communication and coordination between the
            JPSS program and STAR as well as ensure additional resources are available after launch to
            support activities needed for data production. NOAA should also determine the feasibility of
            establishing an alternate mission management center and an additional science data downlink
            for NPP as soon as possible.

            Ensure Solid Program Management and Systems Engineering Principles Are Applied to
            Mitigate JPSS Coverage Gaps

            NOAA expects a gap in weather and climate observations between NPP’s end of design life and
            the operational date of JPSS-l. NPP’s projected end of design life is November 2016, NOAA
            plans to launch JPSS-1 in the first quarter of 2017, 12 and there is a minimum 6-month checkout
            period before key data products from JPSS-1 can be used operationally. We believe that, due to
            continued budget uncertainty and probable FY 2012 funding somewhat below the President’s
            budget request, the JPSS-1 launch date will be no earlier than February 2017. Based on a
            February 2017 launch, the gap would last at least 9 months (3 months from November to
            February, plus the additional 6 months for checkout). Should checkout take 18 months (as
            NPP’s is projected to do), the gap would extend a total of 21 months (figure 2, next page).
            NOAA’s studies have found that its weather forecasting at 5, 4, and 3 days before an event
            could be significantly degraded during the coverage gap period.

                                                                        
            12
               According to NOAA, JPSS-1 could launch in the first quarter of FY 2017 with (1) the program receiving the full
            President’s budget request for FY 2012 ($1.07 billion) and beyond and (2) no FY 2012 continuing resolution
            beyond the first quarter of FY 2012.


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                           25




 428                                                                   F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                 A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                                                       OFFICE OF INSPECTOR GENERAL

                    A checkout period longer than 6 months will be necessary to achieve full operational capability
                    (versus an interim capability to produce key data products). Full checkout may take longer
                    because JPSS-1 instruments will have manufacturing changes from the models flown on NPP
                    and, in all probability, NPP will no longer be operational when JPSS-1 is on-orbit, thus leaving
                    the JPSS-1 mission without a direct, and more efficient, means for comparison.

                                               Figure 2. Potential Continuity Gaps in Afternoon Orbit
                              Fiscal Year
                               2009     2010   2011   2012    2013     2014    2015    2016     2017   2018     2019    2020    2021    2022     2023    2024    2025    2026     2027


                                          NOAA‐19

                              Feb ‘09
                                                                              NPP

                                                 Oct ‘11
                                                                                                                        JPSS‐1

                                                                                              Feb‘17
                                                                                                                                                                JPSS‐2

                                                                                                                                    Fall‘21
                                                Satellite Launch Date
                                                (Note: Actual launch date shown for NOAA-19, planned launch date for NPP, estimated launch date for JPSS-1 and JPSS-2)

                                                Satellite Checkout Period - Planned time before all operational data available (6-18 month window)
                                                Satellite Operational Period - Expected period to receive operational data from satellite based on design life
                                                (Note: Some data is available during the satellite checkout period.)
                                                Potential Continuity Gap - A gap in coverage could occur in the event of NOAA-19's early end-of-life, NPP launch delay, or an
                                                extended checkout period for NPP post-launch. Potential gap between NPP and JPSS-1 is a minimum of 9 months based on 3 months
                                                between end of NPP operations and JPSS-1 launch plus a 6 month checkout period

                                                Maximum Continuity Gap - The gap between NPP and JPSS-1 would be 21 months if post-launch checkout extends to 18 months.
                                                Actual gap, if any, depends on actual life of satellites, how well instruments are operating, as well as other factors (such as checkout)

                              Source: OIG analysis of NOAA data, as of August 22, 2011


                    We have identified the following areas that require senior management attention to help ensure
                    JPSS-1 operational readiness and minimize the potential impact of the coverage gap:

                        •   Prioritize all JPSS requirements, develop reliable cost estimates to support
                            future funding requests, and systematically communicate planned actions
                            and progress with decision makers. NOAA is currently developing a revised life-
                            cycle cost estimate. Additionally, NOAA tasked NASA with developing contingencies
                            that prioritize some of the most important requirements and maintain a launch
                            readiness date no later than February 2017. We believe the JPSS program should
                            formally prioritize all of its requirements, not just the subset in this contingency
                            exercise, so that it can efficiently adjust the program’s performance capabilities or
                            launch dates, if needed, in response to year-to-year funding variances. Further, the
                            program should develop a plan to accommodate requirements that may have to be
                            removed or relaxed when annual funding falls short of the program’s budget but could
                            be recouped in future appropriations. Finally, due to the importance and complexity of
                            the JPSS program, NOAA must ensure that a program baseline (cost, schedule, and
                            requirements) is established as soon as possible, and keep the Department and



                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                                                      26




F Y   2 0 1 1   P E R F O R M A N C E          A N D          A C C O U N T A B I L I T Y                              R E P O R T
                                                                                                                                                                                                 429
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                   Congress informed of its planned actions and progress against this baseline to facilitate
                   decision making.
               •   Coordinate NOAA response, in case NPP does not live through its 5-year
                   design life. The NPP spacecraft was designed to last 5 years and carries enough fuel to
                   last 7 years. However, most of its instruments were managed and developed under the
                   NPOESS contract, which received limited government oversight and had a history of
                   technical issues. Additionally, NASA lacked technical oversight during the instrument
                   development, manufacturing, and testing phases, creating uncertainty about the
                   instruments’ ability to operate for the length of the spacecraft’s design life. For these
                   reasons, NASA’s revised criteria for NPP mission success called for only 3 years of
                   operability. Although NOAA’s current analysis assumes that NPP will have a 5-year
                   operational life, NOAA understands that a residual risk of a shorter life expectancy
                   remains due to the lack of oversight during the development of most of NPP’s
                   instruments. In order to sufficiently prepare for an expected gap in polar satellite data
                   from the afternoon orbit, NOAA should coordinate efforts from across its line offices
                   to minimize the degradation of weather and climate forecasting during gaps in coverage.

            Maintain Robust Program Management and Systems Engineering Disciplines to Prevent
            Geostationary Coverage Gaps

            NOAA’s policy for its geostationary satellites is to have three satellites in orbit—two
            operational satellites (GOES-East and GOES-West) and one on-orbit spare that is ready for use
            operationally should either of the active satellites fail (figure 3).

                                         Figure 3. GOES-R Orbital Coverage




               Source: NOAA



            When GOES-R is launched in October 2015, NOAA may not be able to meet its policy of
            having an on-orbit spare because GOES-13 will have exceeded its operational life (figure 4, next
            page). Until GOES-R completes its 6-month postlaunch test, there would be only two


            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 27




 430                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                            A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                                              OFFICE OF INSPECTOR GENERAL

                    operational satellites (GOES-14 and GOES-15). A similar lack of an on-orbit spare will occur
                    when the next GOES satellite, GOES-S, is launched in February 2017 (only GOES-15 and
                    GOES-R would be operational). 13

                                                 Figure 4. Continuity of GOES Operational Satellite Programs




                         Source: OIG analysis of NOAA data

                    GOES-R development is proceeding towards its next key technical milestone (critical design) in
                    the 4th quarter of FY 2012. According to August 2011 program documentation, the GOES-R
                    program’s overall schedule and technical development remain on track; however, the ground
                    project’s development is being modified to control costs. The program is changing the ground
                    segment’s security architecture and has chosen not to implement some optional data products.
                    The program is also revising the ground segment’s schedule to a more incremental
                    development approach—which will increase schedule flexibility, as well as better align the
                    delivery schedule for GOES-R spacecraft, instruments, documentation and other flight-to-
                    ground segment dependencies. In light of these developments, NOAA should ensure that solid
                    program management and system engineering principles are effectively implemented to control
                    costs, keep schedules on track, and maintain required technical performance.




                                                                                
                    13
                         The launch dates for GOES-R and GOES-S are based on NOAA’s current projections.


                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                        28




F Y   2 0 1 1   P E R F O R M A N C E                     A N D           A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                                    431
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL


            Acronym List
            BEA                          Bureau of Economic Analysis
            BIS                          Bureau of Industry and Security
            BTOP                         Broadband Technology Opportunities Program
            CPAF                         cost-plus-award-fee
            EDA                          Economic Development Administration
            ESA                          Economics and Statistics Administration
            FDCA                         Field Data Collection Automation
            FISMA                        Federal Information Security Management Act
            FY                           fiscal year
            GAO                          Government Accountability Office
            GOES-R                       Geostationary Operational Environmental Satellite-R Series
            GSA                          General Services Administration
            HCHB                         Herbert C. Hoover Building
            IPERA                        Improper Payments Elimination and Recovery Act
            ITA                          International Trade Administration
            JPSS                         Joint Polar Satellite System
            MBDA                         Minority Business Development Agency
            NASA                         National Aeronautics and Space Administration
            NEI                          National Export Initiative
            NIST                         National Institute of Standards and Technology
            NOAA                         National Oceanic and Atmospheric Administration
            NPOESS                       National Polar-orbiting Operational Environmental Satellite System
            NPP                          NPOESS Preparatory Project
            NTIA                         National Telecommunications and Information Administration
            OIG                          Office of Inspector General
            OMB                          Office of Management and Budget
            PE2E                         Patent End-to-End
            STAR                         Center for Satellite Applications and Research
            TIC                          Trusted Internet Connections
            TPCC                         Trade Promotion Coordinating Committee
            USPTO                        U.S. Patent and Trademark Office

             




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                29




 432                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL


                    Appendix A: Related OIG Publications
                    This list presents OIG’s past and current work related to FY 2012’s top management
                    challenges. Challenges 3, 4, and 5 are ongoing challenges that were also featured in FY 2011’s
                    Top Management Challenges Facing the Department of Commerce (OIG-11-015, December 20,
                    2010). These products can be viewed at www.oig.doc.gov. If the product contains information
                    that cannot be released publicly, a redacted version or an abstract will be available on the
                    website.

                    Challenge 1: Trade and Export Promotion

                    BUREAU OF ECONOMIC ANALYSIS (BEA)

                        •   FY 2008 FISMA Assessment of BEA Estimation Information Technology System (BEA-
                            015) (OSE-19001, September 22, 2008)

                    INTERNATIONAL TRADE ADMINISTRATION (ITA)

                        •   Greater Interagency Involvement and More Effective Strategic Planning Would Enhance
                            National Export Strategy (IPE-18589, September 25, 2007)
                        •   Commerce Can Further Assist U.S. Exporters by Enhancing Its Trade Coordination
                            Efforts (IPE-18322, March 30, 2007)
                        •   CS Brazil Is Operating Well Overall but Needs Management Attention in Some Areas
                            (IPE-18114, March 30, 2007)
                        •   Commercial Service Operations in Argentina and Uruguay Are Mostly Sound but
                            Financial Processes Need Attention (IPE-18111, September 29, 2006)
                        •   CS China Generally Performs Well but Opportunities Exist for Commerce to Better
                            Coordinate Its Multiple China Operations (IPE-17546, March 31, 2006)

                    ECONOMIC DEVELOPMENT ADMINISTRATION (EDA)

                        •   Aggressive EDA Leadership and Oversight Needed to Correct Persistent Problems in
                            RLF Program (OA-18200, March 30, 2007)
                        •   EDC Fund, Inc. Revolving Loan Fund EDA Grant No. 01-39-01829 (ATL-17285, January
                            11, 2006)

                    BUREAU OF INDUSTRY AND SERCURITY (BIS)

                        •   Briefing on Issues Related to BIS Budget and Responsibilities for International Treaty
                            Implementation and Compliance (October 7, 2008)



                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                               30




F Y   2 0 1 1   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           433
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                      OFFICE OF INSPECTOR GENERAL

                •   U.S. Dual-Use Export Controls for India Should Continue to Be Closely Monitored (IPE-
                    18144, March 30, 2007)
                •   U.S. Dual-Use Export Controls for China Need to Be Strengthened (IPE-17500, March
                    30, 2006)
                •   Export Licensing Process for Chemical and Biological Commodities Is Generally
                    Working Well, but Some Issues Need Resolution (IPE-16946, March 31, 2005)

            U.S. PATENT AND TRADEMARK OFFICE (USPTO)

                •   Status of USPTO Initiatives to Improve Patent Timeliness and Quality (OIG-11-032-I,
                    September 29, 2011)
                •   Stronger Management Controls Needed over USPTO’s Projection of Patent Fee
                    Collections (OIG-11-014-A, December 14, 2010)
                •   USPTO Patent Quality Assurance Process (OIG-11-006-I, November 5, 2010)
                •   Overseas Intellectual Property Rights Attaché Program Is Generally Working Well, but
                    Comprehensive Operating Plan Is Needed (IPE-19044, July 17, 2008)

            The following reviews are in progress:

                •   USPTO’s Largest Telework Program—Patent Hoteling Program

            Challenge 2: Operating Effectively in a Constrained Budget Environment

                •   Census 2010: Final Report to Congress (OIG-11-030-1, June 27, 2011)
                •   Commerce Has Procedures in Place for Recovery Act Recipient Reporting, but
                    Improvements Should Be Made (OIG-11-031-A, July 29, 2011)
                •   Commerce Needs to Strengthen Its Improper Payment Practices and Reporting (OIG-
                    11-021-A, March 25, 2011)
                •   IG’s Testimony on Recovery Act Broadband Spending: House Committee on Energy and
                    Commerce (OIG-11-019-T, February 10, 2011)
                •   Commerce Should Strengthen Accountability and Internal Controls in Its Motor Pool
                    Operations, OIG-11-004-A (October 27, 2010)
                •   Inspector General’s Semiannual Reports to Congress (September 2010 and March 2011)
                •   Management of the Herbert C. Hoover Building Renovation (OAE-19885, August 5,
                    2010)




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 31




 434                                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                     OFFICE OF INSPECTOR GENERAL

                    The following reviews are in progress:

                        •   Review of 2020 Census Planning Efforts
                        •   Review of the Effectiveness of NTIA’s Monitoring of BTOP Grant Awards
                        •   Review of NTIA BTOP Grantees’ Match

                    Challenge 3: IT Security

                        •   Improvements Are Needed For Effective Web Security Management (OIG-12-002-A,
                            October 21, 2011)
                        •   Federal Information Security Management Act Audit Identified Significant Issues
                            Requiring Management Attention (OIG-11-012-A, November 15, 2010)
                        •   Respondent Data Safeguards in the Decennial Response Integration System (DRIS)
                            (OAE-19888, September 24, 2010)
                        •   FY 2009 FISMA Assessment of the Environmental Satellite Processing Center (OAE-
                            19730, January 11, 2010) [abstract only]
                        •   FY 2009 FISMA Assessment of the Enterprise UNIX Services System (OAE-19729,
                            November 20, 2009)
                        •   FY 2009 FISMA Assessment of the Patent Cooperation Treaty Search Recordation
                            System (OAE-19731, November 20, 2009)
                        •   FY 2009 FISMA Assessment of the Field Data Collection Automation System (OAE-
                            19728, November 20, 2009)
                        •   FY 2009 FISMA Assessment of BIS Information Technology Infrastructure (OSE-19574,
                            September 30, 2009)
                        •   FY 2009 FISMA Assessment of Bureau Export Control Cyber Infrastructure, Version 2
                            (OSE-19575, September 30, 2009)

                    The following reviews are in progress:

                        •   Effectiveness of IT Security Controls Implemented in Department Systems

                    Challenge 4: Contracts and Acquisitions

                        •   Commerce’s Office of Acquisition Management Must Continue to Improve Its Ongoing
                            Oversight of Acquisition Savings Initiatives (OIG-12-001-A, October 6, 2011)
                        •   Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce
                            Development Risk (OIG-11-033-A, September 29, 2011)



                    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                               32




F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           435
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                      OFFICE OF INSPECTOR GENERAL

                •   2010 Census: Contract Modifications and Award-Fee Actions on the Decennial
                    Response Integration System (DRIS) Demonstrate Need for Improved Contracting
                    Practices (OIG-11-020-A, February 15, 2011)
                •   Census 2010: Revised Field Data Collection Automation Contract Incorporated OIG
                    Recommendations, but Concerns Remain Over Fee Awarded During Negotiations
                    (CAR-18702, March 3, 2009)
            The following reviews are in progress:

                •   Department of Commerce’s Acquisition Workforce
                •   NOAA’s Management of Cost-Plus-Award-Fee Contracts
                •   NIST Oversight of Recovery Act Construction Grants

                •   NIST’s Oversight of Recovery Act Construction Contracts

            Challenge 5: Satellites

                •   Audit of JPSS: Challenges Must Be Met to Minimize Gaps in Polar Environmental Satellite
                    Data (OIG-11-034-A, September 30, 2011)

                •   IG Memorandum, NOAA's Joint Polar Satellite System Audit Observations (OIG-11-
                    029-M, June 10, 2011)
                •   IG Testimony before the Appropriations Subcommittee on Commerce, Justice, Science,
                    and Related Agencies, United States House of Representatives (OIG-11-018-T, February
                    9, 1011)
                •   IG Testimony before the Subcommittee on Commerce, Justice, Science, and Related
                    Agencies, Committee on Appropriations, United States Senate (March 4, 2010)
                •   Inspector General’s Semiannual Reports to Congress (March 2009–September 2010)

             




            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 33




 436                                         F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        A ppendix E : 2 0 1 2 M anagement C hallenge S




                      DEPARTMENT OF COMMERCE
                    U.S.                                                                           OFFICE OF INSPECTOR GENERAL


                       Appendix B: Comparison of FY 2011
                       Challenges to FY 2012
                   FY 2012 Challenges                                        FY 2011 Challenges
                   1. Effectively Promote Exports, Stimulate                 5. Improving USPTO’s Patent Processing Times,
                   Economic Growth, and Create Jobsa                         Reducing Its Pendency and Backlogs, and
                                                                             Mitigating Its Financial Vulnerabilities

                                                                             6. Effectively Balancing NOAA’s Goals of
                                                                             Protecting the Environment and Supporting the
                                                                             Fishing Industry
                   2. Reduce Costs and Improve Operations to                 4. Enhancing Accountability and Transparency of
                   Optimize Resources for a Decade of                        the American Recovery and Reinvestment Act’s
                   Constrained Budgetsa                                      Key Technology and Construction Programs

                                                                             8. Effectively Planning the 2020 Decennial

                                                                             7. Protecting Against Cost Overruns and
                                                                             Schedule Delays for the Commerce
                                                                             Headquarters Renovation

                   3. Strengthen Department-Wide Information                 1. Strengthening Department-Wide Information
                   Security to Protect Critical Information                  Security
                   Systems and Data
                   4. Manage Acquisition and Contract                        3. Managing Acquisition and Contract
                   Operations More Effectively to Obtain Quality             Operations More Effectively to Obtain Quality
                   Goods and Services in a Manner Most                       Goods and Services at Reasonable Prices and on
                   Beneficial to Taxpayers                                   Schedule
                   5. Effectively Manage the Development and                 2. Effectively Managing the Development and
                   Acquisition of NOAA’s Environmental Satellite             Acquisition of NOAA’s Environmental Satellite
                   Systems to Avoid Launch Delays and Coverage               Programs
                   Gaps
                   a
                     The FY 2012 challenge is cross-cutting and broad-based. The FY 2011 challenge was bureau-specific and could be
                   traced as a subset under the corresponding FY 2012 challenge.


                        




                       OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                         34




F Y   2 0 1 1   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                       437
A ppendix E : 2 0 1 2 M anagement C hallenges




             DEPARTMENT OF COMMERCE
           U.S.                                                                     OFFICE OF INSPECTOR GENERAL


            Appendix C: Management Response to OIG
            Draft Report




            (011200000129)



            OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                35




 438                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




                   I mproper payments information act ( I P I A ) of 2 0 0 2 ,

                                        A S A M E N D E D , R eporting D etails




 I 
       PIA of 2002, as amended by the Improper Payments Elimination and Recovery Act (IPERA) of 2010, was enacted
       to provide for estimates and reports of improper payments by federal agencies. The act, as amended, requires that
       federal agencies estimate improper payments, and report on actions to reduce them. A review of all programs and
activities that the Department administers is required annually to assist in identifying and reporting improper payments.
The Department has not identified any significant problems with improper payments; however, the Department
recognizes the importance of maintaining adequate internal controls to ensure proper payments, and the Department’s
commitment to continuous improvement in the overall disbursement management process remains very strong. Each of
the Department’s payment offices has implemented procedures to detect and prevent improper payments. For FY 2012
and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.

I. Risk Assessment. Briefly describe the risk assessment(s) performed (including the risk factors examined, if appropriate)
subsequent to completing a full program inventory. List the risk-susceptible programs (i.e., programs that have a significant
risk of improper payments based on Office of Management and Budget (OMB) guidance thresholds) identified by the agency
risk assessments. Include any programs previously identified in the former Section 57 of OMB Circular A-11, Preparation,
Submission, and Execution of the Budget (now located in OMB Circular A-123, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments). Highlight any changes to the risk assessment methodology or results
that occurred since the last report.

The Department annually conducts an assessment of the effectiveness of internal control over financial reporting, in com-
pliance with OMB Circular A-123, Management’s Responsibility for Internal Control. Furthermore, the FY 2011 assessment
included a review of internal controls over disbursement processes, which indicated that current internal controls over
disbursement processes are sound.

Each of the Department’s bureaus/reporting entities periodically completes or updates, over a one to three-year period
(depending on the size of the entity), improper payments risk assessments covering all of its programs/activities as
required by OMB Circular A-123, Appendix C. These improper payments risk assessments of the entity’s programs/
activities also include assessments of the corporate control, procurement, and grants management environments. The
improper payments program/activity risk assessments performed thus far revealed no program or activity susceptible to
significant improper payments.

The results of Departmental assessments revealed no risk-susceptible programs/activities, and demonstrated that,
overall, the Department has strong internal controls over disbursement processes, the amount of improper payments by
the Department is immaterial, and the risk of improper payments is low.


II. Statistical Sampling. Any agency that has programs or activities that are susceptible to significant improper payments
shall briefly describe the statistical sampling process conducted to estimate the improper payment rate for each program
identified with a significant risk of improper payments. Please highlight any changes to the statistical sampling process
that have occurred since the last report.

Not applicable, as the Department does not have any risk-susceptible programs/activities.




F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                439
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




       III. Corrective Actions. Any agency that has programs or activities that are susceptible to significant improper payments
       shall describe the Corrective Action Plans (CAPs) for reducing the estimated improper payment rate and amount for each
       type of root cause identified. Agencies shall report root cause information (including error rate and error amount) based
       on the following three categories: Administrative and Documentation errors; Authentication and Medical Necessity errors;
       and Verification errors. This discussion must include the corrective action(s), planned or taken, most likely to significantly
       reduce future improper payments due to each type of error an agency identifies, the planned or actual completion date of
       these actions, and the results of the actions taken to address these root causes. If efforts are ongoing, it is appropriate to
       include that information in this section, and to highlight current efforts, including key milestones. Agencies may also report
       root cause information based on additional categories, or sub-categories of the three categories listed above, if available.

       Not applicable, as the Department does not have any risk-susceptible programs/activities. While the Department, accordingly,
       does not have a need for CAPs for improper payments, the Department has, nevertheless, further enhanced its processes
       and is actively working with each of the Department’s payment offices to identify and implement additional procedures
       to prevent and detect improper payments. In FY 2011, the Department continued with the bureaus’ quarterly reporting of
       any improper payments to the Deputy Chief Financial Officer (CFO), along with identifying the nature and magnitude of
       any improper payments and identifying any necessary control enhancements. The Department has additionally reviewed
       all financial statement audit findings/comments, and results of any other payment reviews, for indications of breaches of
       disbursement controls or for areas of improvement. None of these audit findings/comments or reviews have uncovered
       any significant problems with improper payments or the internal controls that surround disbursements.

       In FY 2011, the Department conducted a sampling process to draw and review random samples of disbursements greater
       than $100 thousand from a Department-wide universe of disbursements. Grants and other cooperative agreements,
       travel payments, bankcards/purchase cards, all procurement vehicles with other federal agencies, government bills of
       lading, and gifts and bequests were excluded from review. Each selected sample item was then subjected to a review of
       original invoices and supporting documentation to determine that the disbursement was accurate, made only once, and
       that the correct vendor was compensated. The results of the Department’s review did not reveal any significant improper
       payments. The same results were achieved following a similar review in FY 2010. An estimated improper payment rate,
       accordingly, was deemed not necessary.


       IV. Recapture of Improper Payments Reporting.

          a.	 An agency shall discuss payment recapture audit efforts, if applicable. The discussion should describe: the agency’s
              payment recapture audit program; the actions and methods used by the agency to recoup overpayments; a justification
              of any overpayments that have been determined not to be collectable; and any conditions giving rise to improper
              payments and how those conditions are being resolved (e.g., the business process changes and internal controls
              instituted and/or strengthened to prevent further occurrences). If the agency has excluded any programs or activities
              from review under its payment recapture auditing program (including any programs or activities where the agency
              has determined a payment recapture audit program is not cost-effective), the agency should list those programs and
              activities excluded from the review, as well as and the justification for doing so. Include in your discussion the dollar
              amount of cumulative payment recaptures collected beginning with FY 2004.

       In conformity with IPIA of 2002, the Department has been performing, since 2005, payment recapture audits of closed
       contracts/obligations for many Department bureaus/reporting entities, on a rotational basis. The payment recapture audits
       were performed by a contractor or by the Department’s Office of Financial Management. Payment recapture audits of
       closed contracts/obligations on a rotational basis will continue to be performed. Since 2005, cumulative recaptures of
       improper payments is $96 thousand.




 440                                            F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




As a result of the Department’s implementation of additional requirements under IPERA of 2010, payment recapture
auditing will additionally be performed, effective FY 2011, for the Department’s grants and other cooperative agreements
(i.e., financial assistance). Per OMB’s IPERA implementation guidance, intragovernmental transactions, and payments to
employees, are not required to be reviewed. With regard to loan disbursements, the National Oceanic and Atmospheric
Administration (NOAA) is currently the only bureau with loan disbursements. As part of NOAA’s internally-conducted
reviews and testing processes, NOAA’s loan disbursements will be significantly tested every three years for both internal
controls and improper payments, and the disbursements testing for improper payments is considered to be essentially
equivalent to a payment recapture audit. With regard to the NOAA Corps Retirement System and the NOAA Corps Health
Benefits benefit programs, these programs are cross-serviced for disbursements by the Department of Defense, and
therefore are not subject to payment recapture auditing by the Department.

For payment recapture audits performed of closed contracts/obligations, and of grants and other cooperative agreements,
the auditor will analyze the reasons why any payment errors occurred, and shall develop, present, and document any
recommendations for cost-effective controls to prevent improper payment in the future; and for enhancing the applicable
bureau processes.

In November 2011, a payment recapture audit of closed contracts/obligations was completed for the National
Telecommunications and Information Administration (NTIA). Contracts/obligations closed after September 30, 2008
greater than $100 thousand were reviewed. Intragovernmental transactions, and payments to employees, were excluded
from review in conformity with OMB’s IPERA implementation guidance. Travel payments, bankcards/purchase cards,
government bills of lading, and gifts and bequests were excluded from review. The Department determined that,
for these categories of closed contracts/obligations that were excluded from review, the Department’s costs for the
payment recapture audit activities would likely exceed the benefits of a payment recapture audit. Vendor inquiries were
performed for a sample of vendors to determine if the reporting entities had any open credits or debts with vendors. Of
the $30.0 million reviewed, no amounts were identified for payment recapture.

In November 2011, a payment recapture audit of Department-wide grants and other cooperative agreements was
completed. The applicable bureaus/entities are: Departmental Management, Economic Development Administration
(EDA), International Trade Administration (ITA), Minority Business Development Agency (MBDA), National Institute
of Standards and Technology (NIST), NOAA, and NTIA. The audit consisted of two different populations: a) sustained
disallowed costs of $10 thousand or more for grants and other cooperative agreements per Single Audit Act audit reports,
grant/cooperative agreement-specific audits, and OIG audits or reviews issued after September 30, 2008 and through
April 30, 2011; and b) grants and other cooperative agreements closed after September 30, 2008 and through April 30,
2011, and greater than $100 thousand, and which were not subjected to any of the types of audits or reviews indicated in
item a) above. Of the $604.1 million reviewed, no amounts were identified for payment recapture.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                            441
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




          b.	 Payment Recapture Audit Reporting Data.

       The following table presents a summary of the results of the Department’s current year (CY) and prior years (PY) payment
       recapture audits.

       (In Thousands)

                                                                                                                 Cumulative
                                                          Amounts                    Amounts                       Amounts
                               Amount        Actual      Identified                 Identified                    Identified Cumulative
                              Subject to     Amount     for Payment    Amounts          for        Amounts           for      Amounts
                              Review for    Reviewed     Recapture    Recaptured    Recapture     Recaptured     Recapture Recaptured
                                 CY           for CY       for CY       for CY        in PYs        in PYs      (CY and PYs (CY and PYs
        Reporting Entity(s)   Reporting     Reporting    Reporting     Reporting    Reporting      Reporting     Reporting)  Reporting)
        Payment Recapture Audit of Department-wide Grants and Other Cooperative Agreements:
        Department-wide       $	2,994,194   $	604,077     $	      -     	   N/A      	    N/A     	    N/A       	    N/A       	    N/A
        Payment Recapture Audits of Closed Contracts/Obligations:
        NTIA                  $	 127,552    $	 29,997     $	      -     	   N/A      	    N/A     	    N/A       	    N/A       	    N/A
        BIS, and NTIS         	     N/A     	   N/A       	    N/A      	   N/A      $	     6     $	     -       $	     6       $	     -
        EDA/S&E, and ITA      	     N/A     	   N/A       	    N/A      	   N/A      $	     -     $	     -       $	     -       $	     -
        DM/S&E, DM/WCF,       	     N/A     	   N/A       	    N/A      	   N/A      $	     -     $	     -       $	     -       $	     -
        and ESA/BEA
        Census Bureau,        	     N/A     	   N/A       	    N/A      	   N/A      $	    96     $	    96       $	    96       $	    96
        NIST, NOAA, and
        USPTO



          c.	 Payment Recapture Audit Targets. If an agency has a payment recapture audit program in place, then the agency
              is required to establish annual targets to drive their annual performance. The targets shall be based on the rate of
              recapture.

       The Department’s target recapture rate is 100 percent of amounts identified for recapture. Since 2005, the Department has
       recaptured $96 thousand of the $102 thousand identified for recapture, and is pursuing the $6 thousand of overpayments
       not yet recaptured.



          d.	 Aging of Outstanding Overpayments. In addition, agencies shall report the following information on their payment
              recapture audit programs, if applicable: An aging schedule of the amount of overpayments identified through
              the payment recapture audit program that are outstanding (i.e., overpayments that have been identified but not
              recaptured).

       The Department currently has $6 thousand of identified overpayments that have not yet been recaptured, resulting from
       the NTIS payment recapture audit completed in October 2010.




 442                                              F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




   e.	 Disposition of Recaptured Funds. A summary of how recaptured amounts have been disposed of.

There has not yet been any recapture of overpayments that fall under the new IPERA requirements for disposition of recaptured
funds.



   f.	 Overpayments Recaptured Outside of Payment Recapture Audits. As applicable, agencies should also report on improper
       payments identified and recaptured through sources other than payment recapture audits. For example, agencies could report
       on improper payments identified through statistical samples conducted under IPIA; agency post-payment reviews or audits;
       OIG reviews; Single Audit reports; self-reported overpayments; or reports from the public. Specific information on additional
       required reporting for contracts is included in Section 7 of OMB memorandum M-11-04, issued in November 2010.

The Department has extensive improper payments monitoring and minimization efforts in place, including the identification
of improper payments through bureau post-payment reviews, Departmental annual sampling of disbursements, OIG audits
or reviews, Single Audit Act audits of grants/cooperative agreements, other grants/cooperative agreements audits, contract
closeout reviews, grants/cooperative agreements closeout reviews, and other audits or reviews.

The following table summarizes overpayments identified and overpayments recaptured through sources other than payment
recapture audits.

(In Thousands)

 Source of Overpayments                 Amounts Identified        Amounts Recaptured
 Post-payment Reviews                        $	 2,184                   $	 2,079
 Audits and Other Reviews                        141                           141
 Grant Closeout Reviews                          509                           509
 Settlement with Contractor                      600                           600
 Restitution from Grantee                        100                           100
 Total                                       $	 3,534                   $	 3,429



V. Any agency that has programs or activities that are susceptible to significant improper payments shall describe the steps
the agency has taken and plans to take (including timeline) to ensure that agency managers, accountable officers (including
the agency head), programs, and States and localities (where appropriate), are held accountable for reducing and recapturing
improper payments. Specifically, they should be held accountable for meeting applicable improper payments reduction targets and
establishing and maintaining sufficient internal controls (including an appropriate control environment) that effectively prevents
improper payments from being made and promptly detects and recaptures any improper payments that are made.

The Department has not identified any significant problems with improper payments; however, the Department recognizes the
importance of maintaining adequate internal controls to ensure proper payments, and its commitment to continuous improvement
in disbursement management processes remains very strong. The Department’s CFO has responsibility for establishing policies
and procedures for assessing Departmental and program risks of improper payments, taking actions to reduce those payments,
and reporting the results of the actions to Departmental management for oversight and other actions as deemed appropriate.
The CFO has designated the Deputy CFO to oversee initiatives related to reducing improper payments within the Department,
and to work closely with the bureau CFOs in this area.



F Y   2 0 1 1   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                              443
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




In FY 2011, the Department continued its reporting procedures that required quarterly reporting to the Department by its bureaus
on any improper payments, identifying the nature and magnitude of any improper payments along with any necessary control
enhancements to prevent further occurrences of the types of improper payments identified. The Department’s analysis of the
data collected from the bureaus shows that Department-wide improper payments were at or below three-tenths of one percent
in FY 2011 and FY 2010. The bureau CFOs are accountable for internal controls over improper payments, and for monitoring and
minimizing improper payments.

For FY 2012 and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.



VI. Agency Information Systems and Other Infrastructure. Describe whether the agency has the internal controls, human capital,
and information systems and other infrastructure it needs to reduce improper payments to the levels the agency has targeted.

The Department has ensured that internal controls, manual, as well as financial system, relating to payments are in place
throughout the Department, and has reviewed all financial statement audit findings/comments and results of any other payment
reviews for indications of breaches of disbursement controls. None of these audit findings/comments or reviews have uncovered
any significant problems with improper payments or the internal controls that surround disbursements.



VII. Describe any statutory or regulatory barriers which may limit agency corrective actions in reducing improper payments and
actions taken by the agency to mitigate the barriers’ effects.

The Department has not identified any significant barriers to-date, but will notify OMB and Congress of any barriers that inhibit
actions to reduce improper payments if they occur.



VIII. Additional Comments. Discuss any additional comments on overall agency efforts, specific programs, best practices, or
common challenges identified, as a result of IPIA implementation.

The Department’s Disbursement Best Practices. The following are some examples of internal control procedures used by the
Department’s payment offices:

●● Limited/controlled access to vendor files—access to basic vendor information (e.g., name, address, business size, etc.) is
   available to financial system users; access to banking information, however, is strictly limited by system security to certain
   Office of Finance staff.

●● Controlled access to financial system accounts payable screens—authority to create, edit, approve, process, and amend
   payment records is limited to certain Office of Finance financial system users. Also, authority to add or revise records in the
   vendor database is limited to separate Office of Finance system users.

●● Segregation of duties for financial system data entry and review prior to transmitting disbursement files to Treasury—data
   entry duties are assigned to technicians in the Office of Finance who do not have authority to review and process payments.
   Authority to approve and process payments is assigned to accountants in the Office of Finance. Both data entry and approval/
   processing of payments are separate functions from transmitting disbursement files to Treasury.




 444                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x F : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




●● Financial system edit reports highlight potential items that may result in improper payments (e.g., invoice amount and accrual
   amount are not the same). There is a daily Invoice Workload Report that displays open amounts (not closed by a payment)
   on all invoices. This report is reviewed and action is taken to resolve partially open invoices. Furthermore, system settings
   prevent a payment in excess of the amount of the invoice.

●● Daily pre-payment audit of invoices for accuracy, and corrective actions prior to disbursement, thereby preventing improper
   payments from occurring.

●● Financial system edit checks if the vendor’s name on the payment does not agree with that on the obligation, or if the
   payment amount is greater than the obligation or accrual amount.

●● The monthly vendor statement for purchase cards is interfaced into the financial system, thereby reducing data entry error.

●● An accountant or supervisor reviews individual payments before releasing for payment, to help ensure that the correct
   banking information or payment addresses are used, and that the correct amount will be paid.

●● Monthly post-payment random sample audits are performed for detection purposes.

●● Contracts include a clause requiring the contractor to notify the contracting officer if the government overpays when making
   an invoice payment or a contract financing payment.




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                           445
A P P E N D I x G : S ummary of financial statement audit and management assurances




                           S ummary of F inancial S tatement A udit

                                  and M anagement A ssurances




 P 
        resented below is a summary of financial statement audit and management assurances for FY 2011. Table 1
        relates to the Department’s FY 2011 financial statement audit, which resulted in an unqualified opinion with
        no material weaknesses. Table 2 presents the number of material weaknesses reported by the Department
under Section 2 of the Federal Managers’ Financial Integrity Act (FMFIA)—either with regard to internal controls over
operations or financial reporting—and Section 4, which relates to internal controls over financial management systems;
as well as the Department’s compliance with the Federal Financial Management Improvement Act (FFMIA).



Table 1. Summary of Financial Statement Audit
 ●●   Audit Opinion:              ●●   Unqualified
 ●●   Restatement:                ●●   No
         Material Weaknesses       Beginning Balance                 New              Resolved             Consolidated      Ending Balance
 No Material Weaknesses                       0                       0                     0                   0                   0
 Total Material Weaknesses                    0                       0                     0                   0                   0


Table 2. Summary of Management Assurances

 Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
 Statement of Assurance:          Unqualified
 Material Weaknesses              Beginning Balance            New         Resolved         Consolidated      Reassessed     Ending Balance
 No Material Weaknesses                      0                  0             0                  0                  0               0
 Total Material Weaknesses                   0                  0             0                  0                  0               0
 Effectiveness of Internal Control over Operations (FMFIA § 2)
 Statement of Assurance:          Unqualified
 Material Weaknesses              Beginning Balance            New         Resolved         Consolidated      Reassessed     Ending Balance
 No Material Weaknesses                      0                  0             0                  0                  0               0
 Total Material Weaknesses                   0                  0             0                  0                  0               0
 Conformance with Financial Management System Requirements (FMFIA § 4)
 Statement of Assurance:          Systems conform with financial management system requirements
 Non-Conformances                 Beginning Balance            New         Resolved         Consolidated      Reassessed     Ending Balance
 No Non-Conformance Issues                   0                  0             0                  0                  0               0
 Total Non-Conformances                      0                  0             0                  0                  0               0
 Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                       Agency                                                    Auditor
 Overall Substantial Compliance                          Yes                                                        Yes
 1. System Requirements                                                               Yes
 2. Accounting Standards                                                              Yes
 3. USSGL at Transaction Level                                                        Yes




  446                                                F Y   2 0 1 1    P E R F O R M A N C E          A N D    A C C O U N T A B I L I T Y   R E P O R T
                            A P P E N D I X H : U N D I S B U R S E D B A L A N C E S I N E X P I R E D G R A N T A ccounts




                 U ndisbursed B alances in E xpired G rant A ccounts




 U 
           ndisbursed balances in expired grant accounts include budget authority that is no longer available for new obligations
           but is still available for disbursement. The period of disbursement lasts for five years after the last unexpired year
           unless the expiration period has been lengthened by legislation. Specifically, you may not incur new obligations
against expired budget authority, but you may liquidate existing obligations by making disbursements.(Section 20.4(c) of the
Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and Execution of the Budget) For FY 2011,
the following information is required to be reported in this FY 2011 Performance and Accountability Report as well as the annual
performance plans/budgets:.

1.	 Details on future action the Department/bureau will take to resolve the undisbursed balances in expired grant accounts;
2.	 The method the Department/bureau uses to track undisbursed balances in expired grant accounts;
3.	 Identification of undisbursed balances in expired grant accounts that may be returned to the Treasury of the United States;
    and
4.	 In the preceding three fiscal years, details on the total number of expired grant accounts with undisbursed balances (on
    the first day of each fiscal year) for the Department/bureau and the total finances that have not been obligated to a specific
    project remaining in the accounts

Six bureaus report information under this guidance: the Economic Development Administration (EDA), the International Trade
Administration (ITA), the Minority Business Development Agency (MBDA), the National Oceanic and Atmospheric Administration
(NOAA), the National Institute of Standards and Technology (NIST), and the National Telecommunications Administration (NTIA).

The EDA Budget and Finance Division will send a monthly report identifying undisbursed balances to EDA’s regional offices, and
request the status of these grants on a quarterly basis. The Assistant Secretary has, and will continue, to discuss the importance
of monitoring and closing our grants in a timely manner in various EDA meetings.

The EDA Budget and Finance Division prepares a monthly Open Grants report using data in the NOAA Commerce Financial
System Data Warehouse and distributes it to appropriate staff on a monthly basis. The report will be monitored slightly to more
easily identify grants in expired grant accounts.

The NOAA Grants Management Division (GMD) has an Oversight and Compliance team that is responsible for reviewing, closing
out, and deobligation of un-disbursed balances identified. On a monthly basis, the expired awards report will be reviewed for
unobligated balances of funds based on data downloads from the Commerce Business System (CBS). GMD will initiate contact
(email, phone calls, etc.) with those indentified recipients to inform them that based on either their final financial status report
submission or our CBS data warehouse information, that there are funds to be returned to NOAA or deobligated from CBS by
NOAA Finance. If the recipient does not request an extension to the closeout period within 14 days of notification, GMD will take
action to request deobligation of the remaining funds.

On a monthly basis, the Grants Online Production Unit provides a report which identities the recipient, award number and the
amount of unobligated balances.

The NIST Grants and Agreements Management Division had created an in-house report that combines the data from its Grants
Management system with the Core Financial System so they will have the most accurate information on the undisbursed funds
under our grants. In order to tackle the deobligations of these funds, NIST will be running this report on a monthly basis and



F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              447
A P P E N D I X H : U N D I S B U R S E D B A L A N C E S I N E X P I R E D G R A N T A ccounts




deobligate the largest balances first in order to have the largest effect on the total undisbursed NIST grant funds. These same
actions apply to NTIA as well.

Below is a table summarizing the Department’s bureaus, accounts, appropriate fiscal year, undisbursed balances, and amounts
available to the Treasury.

                                                                                                     Undisbursed        Amount Available
       Bureau                               Account                            Fiscal Year
                                                                                                      Balance             to Treasury
         EDA                                  ARRA                                2009               $37,497,333                    $0
                                                                                  2009                  $34,296                    $33
         ITA                      Operations and Administration
                                                                                  2007                  $18,940                     $0
        MBDA                     Minority Business Development                    2010                 $296,944                     $0
                                                                                  2011                $2,671,591                    $0
                                                                                  2010                  $67,019                     $0
                          Scientific and Technical Research and Services          2009                 $332,492                     $0
                                                                                  2008                  $19,367                     $0
                                                                                  2007                   $9,100                     $0
         NIST
                                                                                  2011                $1,865,507                    $0
                                                                                  2010                $2,064,500                    $0
                                  Industrial Technology Services
                                                                                  2009                 $820,216                     $0
                                                                                  2008                 $373,499                     $0
                                              ARRA                                2011                  $31,307                     $0
                            Technology Opportunities Program - ARRA               2010                 $257,771                     $0
                                                                                  2008                  $54,599                     $0
                                Technology Opportunities Program
                                                                                  2007                       $0                     $0
                                                                                  2011                $4,762,975                    $0
        NTIA                                                                      2010                  $29,519                     $0
                              Public Telecommunications Facilities,
                                                                                  2009                 $170,492                     $0
                                   Planning and Construction
                                                                                  2008                   $9,535                     $0
                                                                                  2007                   $20,966                    $0
                       Broadband Technology Opportunities Program - ARRA          2011                    $1,953                    $0
                                                                                  2010                  $315,818                    $0
                                                                                  2009                $1,561,574                    $0
                               Operations, Research and Facilities
                                                                                  2008                $1,246,646                    $0
                                                                                  2007                  $647,688                    $0
                                                                                  2009                $2,975,150                    $0
                            Procurement, Acquisition and Construction
                                                                                  2008                $1,987,800                    $0
                                                                                  2008                    $2,761                    $0
                              Pacific Coastal Salmon Recovery Fund
                                                                                  2007                   $12,523                    $0
                                                                                  2010                       $1                     $0
        NOAA
                                                                                  2009                  $124,728                    $0
                              Promote and Develop Fishery Products
                                                                                  2008                  $124,728                    $0
                                                                                  2007                    $2,275                    $0
                                                                                  2009                  $579,902                    $0
                                 Coastal Impact Assistance Fund                   2008                  $669,357                    $0
                                                                                  2007                     $186                     $0
                                 Coastal Zone Management Fund                     2007                    $6,296                    $0
                                                                                  2008                   $18,278                    $0
                            Limited Access System Administration Fund
                                                                                  2007                   $18,278                    $0



 448                                             F Y   2 0 1 1     P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       APPENDIX I: GLOSSARY OF KEY ACRONYMS




                                          GLOSSARY OF KEY ACRONYMS


    Abbreviation       Title                                            Abbreviation        Title


   A	    ACS	          American Community Survey                              CCSPS	        Climate Change Science Program
                                                                                            Strategic Plan
         ACSI	         American Customer Satisfaction Index
                                                                              CEDS	         Comprehensive Economic Development
         AD	           Antidumping                                                          Strategies
         ADP	          Automated Data Processing                              CEIP	         Coastal Energy Impact Program (NOAA)
         AHS	          American Housing Survey                                CFO 	         Chief Financial Officer
         APP	          Annual Performance Plan                                CFO/ASA	 Chief Financial Officer and Assistant
         ARRA	         American Recovery and Reinvestment                                   Secretary for Administration (OS)
                       Act of 2009                                            CIO	          Chief Information Officer
         ASAP	         Automated Standard Application for                     CIRT	         Computer Incident Response Team
                       Payments
                                                                              CNST	         Center for Nanoscale Science and
         ATP	          Advanced Technology Program (NIST)                                   Technology (NIST)
         ATS	          Annual Trade Survey                                    COOL	         Commerce Opportunities Online
         AWIPS	        Advanced Weather Interactive Processing                COOP	         Continuity of Operations Plan
                       System
                                                                              COTR	         Contracting Officer Technical
                                                                                            Representative
   B	    BAS	          Boundary and Annexation Survey
                                                                              CPD	          Coastal Programs Division
         BDC	          Business Development Centers (MBDA)
                                                                              CPI	          Consumer Price Index
         BEA	          Bureau of Economic Analysis
                                                                              CPS	          Current Population Survey
         BEES	         Building for Environmental and Economic
                                                                              CRADA	        Cooperative Research and Development
                       Sustainability
                                                                                            Agreements
         BIS	          Bureau of Industry and Security
                                                                              CPI	          Consumer Price Index
         BLS	          Bureau of Labor Statistics
                                                                              CSRS	         Civil Service Retirement System
         BNQP	         Baldrige National Quality Program
                                                                              CVD	          Countervailing Duty
         BRL	          Biometrics Research Lab
                                                                              CWC	          Chemical Weapons Convention

                                                                              CWCIA	        CWC Implementation Act
   C	    CAMS	         Commerce Administrative Management
                       System                                                 CZM	          Coastal Zone Management (NOAA)

         CBP	          U.S. Customs and Border Protection                     CZMA	         CZM Act




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   449
APPENDIX I: GLOSSARY OF KEY ACRONYMS




  Abbreviation   Title                                              Abbreviation      Title

       CZMP	     CZM Program                                            FECA	         Federal Employees Compensation Act

                                                                        FEGLI	        Federal Employees Group Life Insurance
 D	    DFI	      Digital Freedom Initiative                                           Program

       DHS	      U.S. Department of Homeland Security                   FEHB	         Federal Employees Health Benefit
                                                                                      Program
       DM	       Departmental Management
                                                                        FEMA	         Federal Emergency Management Agency
       DOJ	      U.S. Department of Justice
                                                                        FERS	         Federal Employees Retirement System
       DOL	      U.S. Department of Labor
                                                                        FFMIA	        Federal Financial Management
       DOL/OLMS	 DOL Online Labor Management System
                                                                                      Improvement Act of 1996
       DPAS	     Defense Priorities and Allocations System
                                                                        FICA	         Federal Insurance Contributions Act
       DSSR 	    Demographic Surveys Sample Redesign
                                                                        FISMA	        Federal Information Security Management
                                                                                      Act

 E	    EAA	      Export Administration Act                              FMFIA	        Federal Managers’ Financial Integrity Act

       EAR	      Export Administration Regulations                                    of 1982

       ECASS	    Export Control Automated Support                       FMP	          Fishery Management Plan

                 System                                                 FR	           Field Representative

       EDA	      Economic Development Administration                    FTA	          Free Trade Agreement

       EDD	      Economic Development District                          FTAA	         Free Trade Area of the Americas

       EFT	      Electronic Funds Transfer                              FTE	          Full-Time Equivalent

       ELGP	     Emergency Oil and Gas and Steel Loan                   FVOG	         Fishing Vessel Obligation Guarantee
                 Guarantee Program                                                    Program (NOAA)

       ENC	      Electronic Navigational Chart                          FWC	          Future Workers’ Compensation

       ENSO	     El Niño/Southern Oscillation                           FY	           Fiscal Year

       EPO	      European Patent Office

       ESA	      Economics and Statistics Administration          G	    G&B	          Gifts and Bequests
                                                                                      (a fund that is part of DM)
       E3	       Economy, Energy, and Environment
                                                                        GAAP	         Generally Accepted Accounting Principles

                                                                        GAO	          U.S. Government Accountability Office
 F	    FAIR	     Federal Activities Inventory Reform

       FAR	      False Alarm Rate                                       GDP	          Gross Domestic Product

       FCC	      Federal Communications Commission                      GFDL	         Geophysical Fluid Dynamics Laboratory
                                                                                      (NOAA)




 450                                          F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        APPENDIX I: GLOSSARY OF KEY ACRONYMS




     Abbreviation        Title                                           Abbreviation        Title


          GLERL	         Great Lakes Environmental Research                    IRS	          Internal Revenue Service
                         Laboratory
                                                                               ISI	          Institute for Scientific Information
          GPRA	          Government Performance and Results
                                                                               IT	           Information Technology
                         Act of 1993
                                                                               ITA	          International Trade Administration
          GPS	           Global Positioning System
                                                                               ITS	          Institute for Telecommunication Sciences
          GSA	           U.S. General Services Administration
                                                                                             (NTIA)
          GSN	           Green Suppliers Network
                                                                               ITU	          International Telecommunication Union
          GSP	           Gross State Product

          GSS	           Geographic Support System                      K	     KSA	          Knowledge, Skills, and Abilities



   H	     HHS	           U.S. Department of Health and Human            L	     LEED	         Leadership in Energy and Environmental
                         Services                                                            Design

          HR	            Human Resources                                       LMS	          Learning Management System

          HSS	           Heidke Skill Scores

                                                                        M	     MAF	          Master Address File

   I	     IA	            Import Administration (ITA)                           MAMTC	        Mod-America Manufacturing Technology
                                                                                             Center
          ICANN	         Internet Corporation for Assigned Names
                         and Numbers                                           MBDA	         Minority Business Development Agency

          ICEP	          International Catalog Exhibition Program              MBEC	         Minority Business Enterprise Centers
                         (ITA)                                                               (MBDA)

          ICT	           Information and Communication                         MBE	          Minority Business Enterprise
                         Technology
                                                                               MBOC	         Minority Business Opportunity Center
          IDS	           Intrusion Detection Software                                        (MBDA)

          IFQ	           Individual Fishing Quota Direct Loans                 MDCP	         Market Development Cooperator Program
                         (NOAA)                                                              (ITA)

          IFW	           Image File Wrapper                                    MED	          Minority Enterprise Development

          IP	            Intellectual Property                                 MEP	          Manufacturing Extension Partnership
                                                                                             (NIST)
          IP	            Internet Protocol
                                                                               MOU	          Memorandum of Understanding
          IRAC	          Interdepartmental Radio Advisory
                         Committee                                             MTS	          U.S. Marine Transportation System

          IRC	           Investment Review Committees




F Y   2 0 1 1    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      451
APPENDIX I: GLOSSARY OF KEY ACRONYMS




   Abbreviation   Title                                              Abbreviation      Title


  N	   NABEC	     Native American Business Enterprise                     NTIS	        National Technical Information Service
                  Center (MBDA)                                           NTTAA	       National Technology Transfer
       NAICS	     North American Industry Classification                               Advancement Act
                  System                                                  NWLON	       National Water Level Observation
       NAO	       North Atlantic Oscillation                                           Network

       NAPA	      National Academy of Public
                  Administration                                    O	    OA	          Office of Audits (OIG)

       NASA	      National Aeronautics and Space                          OAM	         Office of Acquisition Management (OS)
                  Administration
                                                                          OCAD	        Office of Compliance and Administration
       NBS	       National Bureau of Standards                                         (OIG)
                  (former name of NIST)
                                                                          OCS	         Office of Computer Services (Franchise
       NCDC	      National Climatic Data Center (NOAA)                                 Fund)

       NCNR	      NIST Center for Neutron Research (NIST)                 OECD	        Organization for Economic Cooperation
                                                                                       and Development
       NERR	      National Estuarine Research Reserve
                                                                          OFM	         Office of Financial Management (OS)
       NIH	       National Institutes for Health
                                                                          OFPP	        Office of Federal Procurement Policy
       NIPA	      National Income and Product Accounts
                                                                          OHRM	        Office of Human Resources
       NIPC	      National Intellectual Property Law
                                                                                       Management (OS)
                  Enforcement Coordination Council
                                                                          OI	          Office of Investigations (OIG)
       NIST	      National Institute of Standards and
                  Technology                                              OIG	         Office of Inspector General (DM)

       NM	        Nautical Miles                                          OIPE	        Office of Inspections and Program
                                                                                       Evaluations (OIG)
       NMFS 	     National Marine Fisheries Service (NOAA)
                                                                          OMB	         Office of Management and Budget
       NOAA	      National Oceanic and Atmospheric
                  Administration                                          OPEM	        Office of Planning, Evaluation and
                                                                                       Management (BIS)
       NOS 	      National Ocean Service (NOAA)
                                                                          OPM	         U.S. Office of Personnel Management
       NPV	       Net Present Value
                                                                          OS	          Office of the Secretary (DM)
       NRC	       National Research Council
                                                                          OSDBU	       Office of Small and Disadvantaged
       NSRS	      National Spatial Reference System
                                                                                       Business Utilization (OS)
       NTIA	      National Telecommunications and
                                                                          OSE	         Office of Systems Evaluation (OIG)
                  Information Administration




 452                                           F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       APPENDIX I: GLOSSARY OF KEY ACRONYMS




     Abbreviation       Title                                           Abbreviation        Title


           OSM	         Office of Spectrum Management (NTIA)                  ROP	          Reserve’s Operations Plan (NOAA)

           OSY	         Office of Security (OS)

           OTE	         Office of Technology Evaluation                S	     S&E	          Salaries and Expenses

                                                                              S&T	          Science and Technology
           OTP	         Office of Technology Policy (TA)
                                                                              SAS	          Services Annual Survey

    P	     PALM	        Patent Application Location and                       SAV	          Site Assistance Visits
                        Monitoring System
                                                                              SBA	          U.S. Small Business Administration
           PAR	         Performance and Accountability Report
                                                                              SBR	          Combined Statement of Budgetary
           PART	        Program Assessment Rating Tool                                      Resources

           PBSA	        Performance-based Service Acquisitions                SCNP	         Consolidated Statement of Changes in
                                                                                            Net Position
           PBSC	        Performance-based Service Contracting
                                                                              SDDS	         Special Data Dissemination Standards
           PBViews	     Panorama Business Views
                                                                              SES	          Senior Executive Service
           PKI	         Public Key Infrastructure
                                                                              SIPP	         Survey of Income and Program
           PMA	         President’s Management Agenda
                                                                                            Participation
           PNA	         Pacific North America
                                                                              SME	          Small and Medium-sized Enterprise
           PORTS®	      Physical Oceanographic Real-time
                                                                              SNM	          Square Nautical Miles
                        System
                                                                              SPD	          Survey of Program Dynamics
           PP&E	        Property, Plant, and Equipment, Net
                                                                              SRD	          Standard Reference Data
           PRT	         Program Review Team (NOAA)
                                                                              SRM	          Standard Reference Materials
           PSV	         Post-shipment Verification
                                                                              STRS	         Scientific and Technical Research and
           PTFP	        Public Telecommunications Facilities
                                                                                            Services
                        Program (NTIA)


                                                                       T	     3G	           Third Generation
    Q	     QFR	         Quarterly Financial Report
                                                                              TA	           Technology Administration
           QPF	         Quantitative Precipitation Forecasts
                                                                              TAA	          Trade Adjustment Assistance Program
           QSS	         Quarterly Services Survey
                                                                                            (EDA)

                                                                              TAAC	         Trade Adjustment Assistance Center
    R	     R&D	         Research and Development
                                                                              TABD	         Trans-Atlantic Business Dialogue
           RLF	         Revolving Loan Fund (EDA)




F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    453
APPENDIX I: GLOSSARY OF KEY ACRONYMS




   Abbreviation    Title                                          Abbreviation      Title


       TCC	        Trade Compliance Center (ITA)                 U	    UAE	         United Arab Emirates
       TECI	       Transshipment Country Export Control                UC	          University Center
                   Initiative
                                                                       US&FCS	      U.S. and Foreign Commercial Service
       TIC	        Trade Information Center (ITA)
                                                                       US/OTP	      Office of the Under Secretary/Office of
       TIGER	      Topologically Integrated Geographic                              Technology Policy (TA)
                   Encoding and Referencing System
                                                                       USCRN	       U.S. Climate Reference Network
       TIP	        Technology Innovation Program (NIST)
                                                                       USDA	        U.S. Department of Agriculture
       TIS	        Trademark Information System
                                                                       USPTO	       U.S. Patent and Trademark Office
       TPA	        Trade Promotion Authority
                                                                       USTR	        Office of the U.S. Trade Representative
       TPC	        Tropical Prediction Center (NOAA)
                                                                       USWRP	       U.S. Weather Research Program
       TPCC	       Trade Promotion Coordinating Committee
                                                                       UWB	         Ultra-wideband
       TRAM	       Trademark Reporting and Monitoring
                   System
                                                                 V	    VoIP	        Voice over Internet Protocol
       Treasury	   U.S. Department of the Treasury

       TROR	       Treasury Report on Receivables
                                                                 W	    WCF	         Working Capital Fund (DM)
       TRP	        Take Reduction Plan
                                                                       WMD	         Weapons of Mass Destruction
       TRT	        Take Reduction Team
                                                                       WTO	         World Trade Organization
       TSP	        Thrift Savings Plan

       TVA	        Tennessee Valley Authority




 454                                        F Y   2 0 1 1   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                  OW             LEDGEM
               KN                                       EN
                                                                TS
       AC




This Performance and Accountability Report was produced with the
energies and talents of the Department of Commerce staff. To these individuals
we would like to offer our sincerest thanks and acknowledgement.


                     In particular, we would like to recognize the following
                     organizations and individuals for their contributions:


                     Kerstin Millius and Hilary Sherman of EDA, James
                     Belton, Camelia Burris, and Camelia Carter of Census,
                     Doug Follansbee of ESA, Matthew Bright of ITA, Brad
                     Burke of BIS, Ron Marin of MBDA, Heidi Keller of NOAA,
                     Robert Fawcett of USPTO, Gail Ehrlich of NIST, Angie
Martin of NTIS, Charles Franz of NTIA, John Webb,
Kathleen Frampton, and Rebecca Leng of OIG, Diane
Haeger of the Office of Program Evaluation and
Risk Management, and Bill Tatter, Bill Tootle, Anne
Barrett, and Michael Phelps of the Office of Budget,
and the many other bureau and Departmental staff,
particularly of the Office of Financial Management
who contributed to this report.


          We offer special thanks to Michael James, Sheri Beauregard, and
          Don James of The DesignPond for their outstanding contributions in
          the design and production of this report.


          To send comments or obtain additional information about this
          report, please email Bill Tatter at btatter@doc.gov.
                  N AT I O N A L T E L E C O M M U N I C AT I O N S & I N F O R M AT I O N A D M I N I S T R AT I O N    N AT I O N A L O C E A N I C & AT M O S P H E R I C A D M I N I S T R AT I O N




                                                                                                                                                                                                          E C O N O M I C D E V E L O P M E N T A D M I N I S T R AT I O N
ADMINISTRATIO N
STATISTICS




                                                                STRATEGIC THEMES
AND
E CONOMICS




                                                                        P R O G R A M M AT I C T H E M E S




                                                                                                                                                                                                          BUREAU OF INDUSTRY & SECURITY
                                                                                              Economic Growth
ADMINISTRATIO N




                                                                                        Science and Information

                                                                                      Environmental Stewardship
TRADE




                                                                                                                                                                                                          MINORITY BUSINESS DEVELOPMENT AGENCY
                                                                          MANAGEMENT THEMES
INTERNATIONAL




                                                                                              Customer Service

                                                                                       Organizational Excellence

                                                                                           Workforce Excellence
SERVIC E
INFOR MATION




                                                                                                                                                                                                          U . S . PAT E N T A N D T R A D E M A R K O F F I C E
T EC HNI CA L
NATI ONA L




                  N AT I O N A L I N S T I T U T E O F S TA N D A R D S A N D T E C H N O L O G Y                  B U R E A U O F E C O N O M I C A N A LY S I S            CENSUS BUREAU
